<html>
<title> - NOMINATION OF REX TILLERSON TO BE SECRETARY OF STATE</title>
<body><pre>[Senate Hearing 115-4]
[From the U.S. Government Publishing Office]


                                                          S. Hrg. 115-4

                      NOMINATION OF REX TILLERSON 
                        TO BE SECRETARY OF STATE

=======================================================================

                                 HEARING
                                
                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION
                               __________

                            JANUARY 11, 2017

                               __________


       Printed for the use of the Committee on Foreign Relations
       
       
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      
       
       
      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
                                ___________
                                
                                
                      U.S. GOVERNMENT PUBLISHING OFFICE
24-573 PDF                  WASHINGTON : 2017                      
    
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a6c1d6c9e6c5d3d5d2cec3cad688c5c9cb88">[email&#160;protected]</a>  
      
      


                COMMITTEE ON FOREIGN RELATIONS         

               BOB CORKER, Tennessee, Chairman          
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
              Rob Strayer, Majority Chief Counsel        
            Margaret Taylor, Minority Chief Counsel        
                    John Dutton, Chief Clerk        

                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator from Tennessee....................     1

Cornyn, Hon. John, U.S. Senator from Texas.......................     3

Cruz, Hon. Ted, U.S. Senator from Texas..........................     4

Nunn, Hon. Sam, former U.S. Senator from Georgia.................     5
    Prepared statement...........................................     7

 Gates, Hon. Robert M., former U.S. Secretary of Defense.........     8

Cardin, Hon. Benjamin L., U.S. Senator from Maryland.............    13

Tillerson, Rex Wayne, of Texas, To Be Secretary of State.........    18
    Prepared statement...........................................    22


               Answers to Additional Questions Submitted
                      by Members of the Committee

Secretary-Designate Tillerson's Answers to Questions:


    From Senator Corker..........................................   159

    From Senator Cardin..........................................   161

    From Senator Risch...........................................   208

    From Senators Cardin and Gardner.............................   210

    From Senator Rubio...........................................   211

    From Senator Menendez........................................   230

    From Senator Flake...........................................   244

    From Senator Shaheen.........................................   246

    From Senator Young...........................................   251

    From Senator Coons...........................................   254

    From Senator Udall...........................................   261

    From Senator Barrasso........................................   272

    From Senator Murphy..........................................   273

    From Senator Kaine...........................................   276

    From Senator Markey..........................................   284

    From Senator Booker..........................................   305


                                 (iii)

  

                          Additional Material 
                        Submitted for the Record

Annex I.--Correspondence Between the Securities and Exchange 
  Commission and ExxonMobil, January 2006

1. Securities and Exchange Commission's Letter to ExxonMobil 
  Regarding Disclosures Relating to Contact With Countries 
  Identified as State Sponsors of Terrorism, January 6, 2006.....   315

2. ExxonMobil's Response to the Securities and Exchange 
  Commission.....................................................   319

Annex II.--Material Submitted by Senator Rubio

1. Syrian and Russian Forces Targeting Hospitals as a Strategy of 
  War, Amnesty International.....................................   329

2. U.S. Blames Russia After U.N. Aid Convoy in Syria Targeted by 
  Air Attack, The Guardian.......................................   335

3. Attack, Deceive, Destroy Putin at War in Syria, The Atlantic 
  Council........................................................   339

4. Letters and Other Material Submitted by Various Human Rights 
  Advocacy Groups................................................   367

5. Partial List of Political Dissidents, Journalists, and Critics 
  of Vladimir Putin Who Were Suspiciously Murdered or Died Under 
  Highly Suspicious Circumstances................................   407

6. International Leaders on Russian War Crimes in Syria..........   409

7. Letter to President-Elect Donald J. Trump from Several 
  European Leaders...............................................   411

8. Letter to Chairman Corker and Ranking Member Cardin from 
  Vladimir V. Kara-Mursa.........................................   413

9. Country Report on Human Rights Practices in Saudi Arabia.--
  U.S. Department of State, 2015.................................   415

Annex III.--Material Submitted by Senator Young

1. U.S. and European Union Sanctions on Russia for Activities 
  Related to Ukraine; A Comparison, Congressional Research 
  Service........................................................   469

Annex IV.--Material Submitted by Senator Cardin

1. Communication From Publish What You Pay, A British Charity, 
  Advocating for Transparency in the Financial Activities of the 
  Fossil Fuel Industry...........................................   477

Annex V.--Material Submitted by Senator Shaheen

1. More of the Kremlin's Opponents Are Ending Up Dead, New York 
  Times, September 20, 2016......................................   485

Annex VI.--Material Submitted by Senator Kaine

1. Global Climate Change, The Op-Ed Series, Published by 
  ExxonMobil, 2000...............................................   493

2. In-House Communication from Roger W. Cohen to A.M. Natkin, 
  Office of Science and Technology, Exxon Corporation, 1982......   499

3. The Petroleum and Poverty Paradox: Assessing U.S. and 
  International Community Efforts to Fight the Resource Curse, a 
  report submitted to the members of the committee by Senator 
  Richard G. Lugar, ranking member...............................   503

Annex VII.--Material Submitted by Senator Merkley

1. Under Rex Tillerson, ExxonMobil Forged Its Own Path Abroad, 
  New York Times, December 13, 2016..............................   507

2. Ukraine Crisis Drives a Quiet Lobbying Boom in U.S., Bloomberg 
  News, May 23, 2014.............................................   515

3. Tillerson Visited White House Often Over Russia Sanctions, 
  Bloomberg News, December 12 and 13, 2016.......................   519

4. Rex Tillerson's Company, Exxon, Has Billions at Stake Over 
  Sanctions on Russia, New York Times, December 12, 2016.........   523

5. Rex Tillerson is No Fan of Russia Sanctions Bill, CBS News, 
  December 15, 2016..............................................   529

6. ExxonMobil Helped Defeat Russia Sanctions Bill, Politico, 
  December 18, 2016..............................................   533

7. ExxonMobil and Iran Did Business Under Secretary of State 
  Nominee Tillerson, USA Today, January 6, 2006..................   537


Annex VIII.--Material Submitted by Senators Cardin and Menendez

1. Lobbying Disclosure Forms Filed by ExxonMobil, Selected 
  Quarters, 2010-2016............................................   541

2. Document Submitted by The Tri-State Coalition for Responsible 
  Investment Expressing Concern Over the Nomination of Rex W. 
  Tillerson to be U.S. Secretary of State........................   643

 
          NOMINATION OF REX TILLERSON TO BE SECRETARY OF STATE

                              ----------                              


                      Wednesday, January 11, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:02 a.m., in 
Room SD-106, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Risch, Rubio, 
Johnson, Flake, Gardner, Young, Barrasso, Isakson, Portman, 
Paul, Cardin, Menendez, Shaheen, Coons, Udall, Murphy, Kaine, 
Markey, Merkley, and Booker.
    Also Present: Senators Cornyn, King, and Cruz.

             OPENING STATEMENT OF HON. BOB CORKER,
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. The Foreign Relations Committee will come 
to order.
    We appreciate everybody being here as the Senate carries 
out one of its most important responsibilities, which is to 
give advice and consent to nominees that are put forth by a 
President.
    We thank all of you for being here. Obviously, there is a 
lot of interest in this hearing. We would ask those who, like 
us, have the privilege of being in this room, we would ask you 
to respect democracy, respect the right for us to have a 
hearing, to control yourselves in an appropriate manner. And I 
am sure that is going to be the case.
    This is the best of America here, serving with outstanding 
members on this committee. As a matter of fact, because of so 
much happening in the world today and because of the role that 
this committee has played over the last several years, demand 
on this committee has grown. And with that, I want to welcome 
new members, who I know will play a big role in the future of 
our country.
    Mr. Todd Young, newly elected to the Senate. We welcome you 
here. This is your first public appearance on this Committee. 
We thank you for your interest in our country's future and for 
being here.
    Mr. Rob Portman, who also joins the committee. I think he 
serves on more committees here than anybody in the Senate. But 
we thank you for your responsible thinking and leadership.
    I want to thank Jeff Merkley, who I know cares very, very 
deeply about these issues, for joining this committee, for your 
principled efforts in so many regards. And I know they will 
continue here.
    And Cory Booker, new star to the Senate, who I know will 
play a very vigorous role here, and we thank you so much for 
being here today.
    Just to give you a little bit of a sense of what is going 
to happen today, we have four very distinguished people, two of 
whom are colleagues, who will introduce the nominee and then we 
will move to opening statements. I will give an opening 
statement. Our distinguished ranking member will give an 
opening statement. And then our nominee, Mr. Rex Tillerson, 
will give his. Each person here will have ten minutes to ask 
questions, a little bit more than the norm.
    We have coordinated the schedule with the ranking member, 
but also with Senator Schumer and others, just to ensure that 
the American people and certainly all of us have the 
opportunity to ask the kind of questions that people would like 
to ask.
    I would say to members--I know some of us have an art form 
of being able to ask about nine questions and then the time 
ending about five seconds before the witness responds. The ten 
minutes includes the response, and in order to be respectful of 
everybody's time, which is a little bit unusual here, we are 
going to hold to that in a very rigid way.
    Our plan is that we will go until about 1:00 p.m. today, if 
everybody uses their time. We will take a break, out of showing 
mercy to our nominee and to many of us up here, for about 45 
minutes. And then we will come back and resume until the 
``vote-a-rama,'' which I think begins around 6:00 this evening.
    Again, in order to make sure that all questions are 
answered, the ranking member and I have agreed that should 
there be another day necessary, we will begin in the morning at 
10:00. Hopefully, with all that will happen today, that will be 
unnecessary, but our nominee is very aware that that may well 
occur.
    I think all of you know that our business meeting, again in 
order to show respect for all who are here, is moved until 
tonight when we have the vote-a-rama, at which time we will 
take up the Montenegro accession to NATO, and we will take up 
the resolution relative to Israel. We will do that off the 
floor this evening.
    So, with that--
    Senator Cardin. Mr. Chairman, could I just thank you for 
the accommodations for this hearing? I know you started it at 
9:00 a.m. as an accommodation so that we could all have a 
little bit more time in the morning for asking questions, and I 
thank you very much for that, accommodating a 10-minute round.
    The chairman and I have worked closely together to make 
sure that this hearing was the type of hearing that we would be 
proud of in the Senate Foreign Relations Committee, and I want 
to personally thank you for that and welcome our four new 
members to our committee.
    And with that, I will withhold until after the 
introductions.
    Senator Corker. Thank you.
    This committee has certainly been a beacon of 
bipartisanship, as was mentioned, sometimes an island of 
bipartisanship. But I think all of us understand the importance 
of us being united, especially when we leave the shore's edge. 
And I know that we will continue. We will conduct the hearing 
today in that manner.
    With that, we have four very distinguished individuals who 
would like to introduce the nominee. We thank each of them for 
being here. I know that they plan to spend about 2 1/2 minutes 
each to do so. We welcome you here.
    We have the distinguished Senator Cornyn from Texas; the 
distinguished Senator Cruz from Texas; the distinguished Sam 
Nunn from Georgia, who we miss, but thank him for his service; 
and the distinguished Secretary Gates, who has served eight 
Presidents. I am actually surprised he is not serving a ninth, 
but we thank you for being here.
    Each of you, if you would, please give your comments, and 
then we will move to openings statements. Thank you for being 
here.
    Senator Cornyn.

                STATEMENT OF HON. JOHN CORNYN, 
                    U.S. SENATOR FROM TEXAS

    Senator Cornyn. Chairman Corker and Ranking Member Cardin, 
members of the committee, I am proud to be here today with my 
colleague Senator Cruz to introduce a fellow Texan, Rex 
Tillerson, as the nominee to be the next Secretary of State.
    Without a doubt, Rex Tillerson is an inspired choice by 
President-elect Trump for this critical position. The depth and 
breadth of his experience as an accomplished and successful 
business leader and skilled negotiator, given the solid 
understanding of our current geopolitical and economic 
challenges, making him uniquely qualified to serve in this 
important office.
    After graduating from the University of Texas with a degree 
in engineering, Mr. Tillerson joined the Exxon Corporation, 
eventually moving up the ranks and into overseas assignments in 
Asia, the Middle East, and Europe. In 2006, he assumed command 
of ExxonMobil, a tenure during which he displayed exceptional 
acumen, helping Exxon weather complex geopolitical obstacles to 
make the company into one of the world's most profitable 
corporations.
    As a lifelong Texan, Rex has been recognized for something 
you do not ordinarily associate with being a powerful business 
leader and head of one of the largest corporations in the 
world. He has been recognized for his humility and his 
altruism.
    One of my constituents recently wrote a piece in the Dallas 
Morning News talking about serving on a jury with Mr. Tillerson 
recently. She noted that on that jury, his natural leadership 
ability and charisma helped them deliver justice in a delicate 
and difficult case of sexual assault. Following the trial, Mr. 
Tillerson then donated to the local nonprofit that helped 
support and counsel the victim after the trial.
    Mr. Tillerson understands how to separate friendships and 
business. He knows who he works for. My first encounter with 
Rex was when I was attorney general. I do not know if he 
remembers this, but we were on opposite sides of a lawsuit. I 
was representing, in my capacity as attorney general, the State 
of Texas, and we had the temerity to sue ExxonMobil.
    And let us say our first encounter was a little awkward, to 
say the least. But over the years, I have grown to admire and 
respect Rex, and he did not let our differences get in the way 
of what we could agree on.
    Since then I have seen him demonstrate an uncanny ability 
that will serve him and our country well as its chief diplomat, 
and that is an ability to deftly handle business matters while 
maintaining and building relationships, a further testament to 
his integrity and strength of character.
    Once he is confirmed, I am confident that he will be 
instrumental in shaping American foreign policy as we face a 
broad array of diplomatic challenges that will define the 
security and success of our Nation for generations.
    So thank you, Chairman Corker, Ranking Member Cardin, 
members of the committee, for letting me introduce Rex 
Tillerson.
    Senator Corker. Thank you for being maybe the first prompt 
Senator I have witnessed here. Thank you so much.
    Senator Cornyn. I am trying to set the standard, Mr. 
Chairman.
    Senator Corker. Senator Cruz. Thank you, sir.

                  STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    Senator Cruz. Mr. Chairman, Ranking Member Cardin, members 
of the committee, good morning.
    It is a privilege to join you this morning and have the 
opportunity to help introduce my fellow Texan and the Secretary 
of State designee, Rex Tillerson.
    As many of you know, Rex is a Texan, born and raised in 
Wichita Falls, and he is a proud Texas Longhorn, which John and 
I might think is plenty enough alone to qualify him for 
Secretary of State, but I recognize you all might set a higher 
bar than that.
    The good news is that is only the beginning of a long, 
substantive list of qualifications, achievements, and 
international relationships that Rex brings to the table, a 
list that I believe has prepared him to be a strong candidate 
to lead our State Department as we face the monumental task of 
restoring America's influence across the world.
    As all of us know, this is no easy task. We live in a 
dangerous year and a dangerous world. And after the last 8 
years, we face a circumstance where many of our friends no 
longer trust us and many of our enemies no longer fear us.
    Rex Tillerson is a serious man who understands the value of 
perseverance, and he knows what it takes to accomplish 
difficult tasks. From an early age, he worked to climb the 
ranks in Boy Scouts to become an Eagle Scout, and he started as 
a production engineer at Exxon in 1975, eventually climbing his 
way to the top as CEO of the Fortune 10 company.
    At Exxon, he led one of the world's most respected 
companies with over 75,000 employees and over $250 billion in 
revenue. Exxon, a proud Texas company, does business in 52 
countries, and Rex has traveled the globe negotiating business 
deals with world leaders, effectively advocating for the 
interests of his company, shareholders, and employees.
    The numerous achievements that Rex has earned, they do not 
come without hard work, dedication, and passion for one's 
mission. This is the work ethic and spirit that America needs 
in its Secretary of State. That is the attitude that gives me 
confidence in the opportunity that Rex has to chart a 
different, better, and stronger course for our national 
security and diplomacy.
    We need a Secretary of State who understands that America 
is exceptional, who will establish policies upon that 
foundation of exceptionalism, and who will put America's 
interests first. Repeatedly, the current administration has 
used the United Nations to try to circumvent the will of 
Congress and the American people. I look forward to a President 
and Secretary of State who will instead vigorously defend U.S. 
sovereignty.
    I believe that Rex has an incredible opportunity to defend 
the foreign policy principles upon which President-elect Trump 
campaigned, to strengthen our friendship and alliances and to 
defeat our enemies. And I look forward to all of us working 
with him in the years ahead as we restore American leadership 
across the globe.
    Thank you.
    Senator Corker. Thank you also for those concise comments. 
Much appreciated.
    Thank you both for being here, and should you need to leave 
to go to other hearings, please feel free to do so.
    Senator Nunn, sir?

                  STATEMENT OF HON. SAM NUNN, 
                FORMER U.S. SENATOR FROM GEORGIA

    Senator Nunn. Thank you, Chairman Corker--
    Senator Corker. You need to turn your mic on, sir. You have 
been out of practice leaving here for a few years.
    Senator Nunn. Well, I thank you, Chairman Corker and 
Senator Cardin and my friend for a long time Johnny Isakson, 
Senator Isakson, members of the committee.
    I just wish I had thought of this clock a long time ago. It 
would have saved an awful lot of agony for our committee. So I 
am going to try to cut my statement as short as possible and 
ask the whole statement be put into the record.
    Senator Corker. Without objection, thank you.
    Senator Nunn. Mr. Chairman, Rex Tillerson's resume is well 
known. So let me just tackle two points that I know have been 
raised with the committee as well as with the Senate. First, 
Rex Tillerson's knowledge of and experience in Russia and, 
second, how his work in the private sector prepares him to be 
our top diplomat and run one of the most important departments 
in our Government.
    With respect to Russia, certain facts are clear. Russia's 
recent flagrant actions indicate that its national interests 
sharply differ from America's national interests in important 
places, most acutely in Ukraine, in Europe, and in Syria. 
Russia's values differ from America's values, in particular, in 
our form of government, and our commitment to personal freedom, 
human rights, and the rule of law.
    These fundamental differences are very important, and the 
fact that our interests and values differ should always inform 
our policy toward Russia. But Mr. Chairman, the important facts 
do not end here. It is also a fact that Russia today deploys 
hundreds of nuclear warheads on ballistic missiles that could 
be fired and hit their targets around the globe in less time 
than it will take to have opening statements at the hearing 
today.
    It is also a fact that for both the United States and 
Russia, the risk of an accidental, unauthorized, or mistaken 
launch of a nuclear ballistic missile is unnecessarily high, 
particularly in our world of increasing cyber vulnerability. It 
is also a fact that the United States and Russia, like it or 
not, are bound together in areas of unavoidable common 
interests, including the prevention of nuclear and biological 
terrorism, the prevention of nuclear proliferation, false 
warnings of nuclear attacks, and the hacking of command and 
control systems or nuclear facilities.
    These facts lead me to an inescapable conclusion. It is 
dangerous for the United States and Russia and for the world to 
have virtually no dialogue on reducing nuclear risk and very 
little military-to-military communication. If this continues 
and we are guided by zero sum logic on both sides, we and 
Russia may be rewarded at some point with catastrophe.
    This is my judgment even when we have stark disputes, 
including strong evidence from our intelligence community that 
Russia has interfered in U.S. elections, a finding that 
Congress must fully examine, including its ominous implications 
for our political process and our security.
    Mr. Chairman and members of the committee, there have been 
other moments in history when voices in both Washington and 
Moscow argued that our areas of disagreement were so great that 
we should not work on issues even of common interest between 
our two countries. For those who are considering this point, I 
would suggest re-reading President Kennedy's commencement 
address at American University delivered just months after the 
Cuban missile crisis.
    President Kennedy spoke of the pursuit of peace as 
necessary and rational, quoting him, ``in an age where a single 
nuclear weapon contains almost 10 times the explosive power 
delivered by all the allied forces in the Second World War.''
    President Kennedy rejected voices saying it is useless to 
speak of peace until the leaders of the Soviet Union adopt a 
more enlightened attitude.
    Kennedy warned, ``Let us not be blind to our differences, 
but let us also direct attention to our common interests and to 
the means by which these differences can be resolved.''
    Mr. Chairman and members of the committee, these words 
remain true today. I know Rex Tillerson pretty well, and I am 
confident that he is well prepared to do what is essential for 
the security of our Nation, to hold firm and tough where our 
national interests and values demand it and to build on our 
common interests in working with other nations, including 
Russia, on practical, concrete steps that will make the 
American people safer and more secure.
    Mr. Chairman, Senator Cardin, and other members of the 
committee, I also consider Rex Tillerson's experience and 
knowledge in business as an asset, as well as his knowledge of 
Russia. I think both are assets, not liabilities. I also 
consider his business experience very relevant to the world 
today. It is an asset.
    As I look at the world today, every significant 
international challenge we face has a very important business 
component. It is true in Ukraine. It is true in the Middle 
East. It is true in most places.
    Rex Tillerson knows these crucial regions. He knows the 
leaders, and he understands the challenges and the risks. He is 
also keenly aware of the power of the private sector and the 
important role it can play in addressing these fundamental 
issues.
    Mr. Chairman, in wrapping up, I am confident that, if 
confirmed to be Secretary of State, Rex Tillerson will take off 
his corporate hat, but he will use his vast experience to 
devote 100 percent of his considerable intellect, energy, and 
experience to protecting America's interests in the troubled 
world we are in.
    I thank you, Mr. Chairman, and I urge his confirmation.
    [The prepared statement of Senator Nunn follows:]

                  Statement of Former Senator Sam Nunn

    Chairman Corker, Senator Cardin, Senator Isakson, and members of 
the Committee:
    Rex Tillerson doesn't have the typical background of a nominee for 
Secretary of State, but in today's world, I believe that this will 
prove to be an advantage for our nation. He is a civil engineer--who 
started as a production engineer at Exxon and worked his way up to 
become its Chairman and CEO. Rex has an exemplary record of civic 
leadership and engagement, including as past national President of the 
Boy Scouts of America--a group that helps shape the skills and values 
of millions of young men--including my own.
    Mr. Chairman and members of the Committee, Rex's resume is well 
known, so let me briefly tackle just two points that I know have been 
raised within this Committee and the Senate. First, Rex Tillerson's 
knowledge of, and experience in, Russia--and, second, how his work in 
the private sector prepares him to be our nation's top diplomat and run 
one of the most important departments in our government.
    I strongly support a vigorous analysis and debate over the U.S. 
strategic relationship with Russia. A hard-headed assessment of our 
national interests and policy options is overdue. To protect the full 
range of America's interest and keeps our people safe--our country, and 
our country's leaders, must deal in facts. With respect to Russia, 
certain facts are clear:
    Russia's recent flagrant actions indicate that its national 
interests sharply differ from America's national interests in important 
places, most acutely in Ukraine, in Europe, and in Syria. Russia's 
values differ from America's values, in particular, in our form of 
government and our commitment to personal freedom, human rights and the 
rule of law.
    These fundamental differences are important, and the fact that our 
interests and values differ should always inform our policy towards 
Russia. But the important facts don't end there.
    In particular:

  <bullet> It is also a fact that Russia today deploys hundreds of 
        nuclear warheads on ballistic missiles that could be fired and 
        hit their targets around the globe in less time than it will 
        take to hear opening statements at today's hearing.
  <bullet> It is also a fact that, for both the United States and 
        Russia, the risk of an accidental, unauthorized, or mistaken 
        launch of a nuclear ballistic missile is unnecessarily high--
        particularly in our world of increasing cyber vulnerability.
  <bullet> It is also a fact that the United States and Russia are 
        bound together in areas of unavoidable common interest, 
        including the prevention of nuclear and biological terrorism, 
        the prevention of nuclear proliferation, false warnings of 
        nuclear attacks, and hacking of command and control systems or 
        nuclear facilities.

    These facts lead me to an inescapable conclusion--it is dangerous 
for the United States, for Russia and for the world when we have 
virtually no dialogue on reducing nuclear risks and very little 
military-to-military communication. If this continues and we are guided 
by zero sum logic--we and Russia may be rewarded at some point with 
catastrophe. This is my judgment even when we have stark disputes--
including strong evidence from our intelligence community that Russia 
has interfered in U.S. elections--a finding that Congress must fully 
examine--including its implications for our security.
    Mr. Chairman and members of the Committee--there have been other 
moments in history when voices in both Washington and Moscow argued 
that our areas of disagreement were so great that we should not work 
even on issues of common interest between our two nations.
    For those who are considering whether to oppose Rex Tillerson's 
nomination for Secretary of State because he knows and has worked with 
leaders in Moscow, I would suggest re-reading President Kennedy's 
commencement address at American University, delivered just months 
after the Cuban Missile Crisis.
    President Kennedy spoke of the pursuit of peace as necessary and 
rational ``in an age when a single nuclear weapon contains almost ten 
times the explosive force delivered by all the allied air forces in the 
Second World War.''
    President Kennedy rejected voices saying it is useless to speak of 
peace until the leaders of the Soviet Union adopt a more enlightened 
attitude. I would note that many say the same today with respect to 
Russia.
    Kennedy warned the American people not to fall into the trap of 
seeing only a distorted and desperate view of the other side.
    He concluded, ``Let us not be blind to our differences--but let us 
also direct attention to our common interests and to the means by which 
those differences can be resolved . . . For in the final analysis, our 
most basic common link is that we all inhabit this small planet. We all 
breathe the same air. We all cherish our children's future. And we are 
all mortal.''
    Mr. Chairman and members of the Committee--those words remain true 
today.
    I know Rex Tillerson pretty well, and I am confident that he is 
well prepared to do what is essential for the security of our nation: 
to hold firm and tough where our national interests and our values 
demand it and to build on our common interests in working with other 
nations--including Russia--on practical, concrete steps that will make 
the American people safer and more secure.
    My bottom line--Mr. Chairman, Senator Cardin and other members of 
the Committee--in this period of profound distrust--I consider Rex 
Tillerson's experience and knowledge of Russia an asset--not a 
liability.
    I also consider Rex's global business experience to be an asset as 
well. If we look at the world today, almost every significant 
international challenge--or crisis--that we face has an economic 
component that is inseparable from its diplomatic and security aspects. 
For example:

  <bullet> There is no durable resolution to the crisis in Ukraine that 
        does not involve stabilizing and improving the Ukrainian 
        economy.
  <bullet> There is no solving the Middle East challenges today--
        including the unprecedented flows of migrants and refugees--
        that does not involve stabilizing and improving multiple 
        economies across the region.
  <bullet> And there is no solution to the issue of global warming that 
        does not involve vigorously addressing global environmental 
        challenges at the same time that we meet the growing energy 
        needs of the global population.

    Rex Tillerson knows these crucial regions--he knows the leaders--
and he understands these challenges and the risks. He is also keenly 
aware of the power of the private sector and the important role it can 
play in addressing these fundamental issues.
    Mr. Chairman and Senator Cardin, I am confident that if confirmed 
to be Secretary of State, Rex Tillerson will take off his corporate 
hat--but use his vast experience to devote 100 percent of his 
considerable intellect, energy and experience to protecting America's 
interests in this troubled world. If I had any doubt on this point, I 
would not be here today. Mr. Chairman and Senator Cardin, I urge this 
Committee and the Senate to support his nomination.

    Senator Corker. Thank you so much for being here and 
participating and your many, many contributions relative to 
nuclear safety around the world.
    Secretary Gates?

              STATEMENT OF HON. ROBERT M. GATES, 
                FORMER U.S. SECRETARY OF DEFENSE

    Secretary Gates. Chairman Corker, Ranking Member Cardin, 
distinguished members of the Foreign Relations Committee, it 
gives me great pleasure to introduce my friend and fellow Eagle 
Scout, Rex Tillerson, as the President-elect's nominee to be 
the next Secretary of State.
    I have known Mr. Tillerson for a number of years through 
our shared experience in leading the Boy Scouts of America. On 
many occasions, after a day of meetings, Rex and I would talk, 
often for hours, about international affairs, including Russia 
and Vladimir Putin. I believe I have a pretty good idea about 
how he thinks about the world and the challenges we face.
    The Secretary of State has four important roles--advising 
the President, negotiating with foreign governments and 
international organizations, representing the United States 
abroad, and leading the Department of State. Against a backdrop 
of having known or worked with 12 Secretaries of State, I 
believe Mr. Tillerson is superbly qualified to carry out each 
of these roles.
    He is deeply knowledgeable about the international scene 
and geopolitics and, importantly, would be an informed and 
independent adviser to the President. He would be candid and 
honest, willing to tell the President straight from the 
shoulder what he needs to hear. He would bring decades of 
experience as a tough and successful negotiator with foreign 
governments to the position.
    I have heard him speak often to Scout groups about American 
values, and I know he would be an eloquent and passionate 
representative of the United States to the world. And finally, 
based on his long experience in leading a major corporation as 
well as the Boy Scouts, I know he will lead the Department of 
State with skill and respect for the professionals.
    Much has been said and written about Mr. Tillerson and 
Russia. I have spent my entire adult life dealing with the 
Soviet Union and Russia. I joined CIA over 50 years ago to do 
my bit in the epic struggle with the Soviet Union.
    During that time, I acquired a reputation as something as a 
hardliner. Just ask a couple of previous Secretaries of State. 
Yet I knew that we not only had to resist and contain the USSR, 
we also had to contain the risk of conflict with it, and that 
meant engaging in dialogue, negotiations, and even reaching 
agreements limiting strategic nuclear weapons and establishing 
agreed procedures to prevent confrontations from escalating.
    This new administration must thread the needle between 
pushing back against Vladimir Putin's aggressions, meddling, 
interventionism, ambitions, and bullying and, at the same time, 
find a way to stop a dangerous downward spiral in our 
relationship with Russia. I believe Mr. Tillerson is the right 
person at the right time to help accomplish both of those 
goals. And so it is with pride and confidence that I introduce 
him to you today and encourage his confirmation.
    Senator Corker. We thank you all for being here. You honor 
us with your presence. We thank you for your contribution.
    You do not have to leave, but you cannot stay there.
    [Laughter.]
    Senator Corker. So we actually hope you will stay somewhere 
on the premises and participate if you would like.
    [Pause.]
    Senator Corker. We have some new members to the committee 
today, and I was thinking prior to this hearing that ten years 
ago, I came on this committee as a new Senator in many ways to 
broaden my ability to serve our Nation and to serve our State, 
having been mostly a business person.
    When I came here, the first order of business was to deal 
with the surge in Iraq, a pretty monumental time. We had an 
under-resourced effort that was taking place in Iraq and at a 
time when really in many ways the United States had unleashed 
forces in the region that had not been seen, not unlike taking, 
in some ways, a big stick and hitting a hornets' nest and 
changing dramatically the dynamic in the region. And so we had 
the choice of whether we surge and try to be successful at what 
we began or take another course.
    Afghanistan also had been under-resourced, and all of a 
sudden, we began discussing things like nation building, things 
that had not been part of our vocabulary for many years.
    We had the Arab Spring that took place in 2011, again some 
of which was built off of some of the activities that I 
mentioned earlier. And we had all kinds of incoherent things 
that took place, the quick throwing aside of a leader in Egypt 
that we had known for years, an undertaking in Libya that I 
still have never understood what the goal was but left a large 
vacuum in the region with arms spreading throughout Northern 
Africa and other places.
    We had the conflict in Syria that began, if you remember, 
with us cheering on the people who wanted basic human rights 
and more of a democracy. And then we had the red line that our 
country did not follow up on.
    After that, we had the taking of Crimea and the 
destabilizing of eastern Ukraine, some of which I think was 
driven by observing U.S. leadership in the world. We had China 
redrawing a map that had been around for thousands of years in 
the South China Sea and claiming islands and properties and 
building runways and doing things that, again, until up to that 
time had not occurred.
    We have had the whole destabilization of Europe, where I 
think confidence levels in Europe are probably the lowest they 
have been in our lifetimes, driven by concerns in many cases 
about what our role is, but also the role of Russia and what it 
has been doing in the region, the role of immigrants that are 
flowing in, the whole challenging of the European model.
    And then we have had a campaign that has been somewhat 
unorthodox, one that has also given concern to our allies in 
the world and to many around the world as to just where America 
is going to be. With all of this chaos that has exhibited 
through multiple administrations and will continue under this 
administration for a period of time, we have had chaos where 
the United States has been withdrawing in its leadership role. 
And to me, that is a recipe for further chaos.
    So this is a very important hearing. I had the ability the 
other day to sit down with General Flynn, who is going to be 
the National Security Adviser, and I spent time with people 
around him for some time. And I know that, rightly so, his 
focus is also on our country doing well economically.
    Every military leader we have had before us and certainly 
Secretary Gates, have told us that if our Nation is not strong 
economically, if we are not doing things fiscally to keep 
ourselves strong, then our Nation will be weak, and our 
leadership around the world will be diminished.
    And so I am thankful that that is the case. A lot of people 
here realize it is not only important for us to be economically 
successful, but we understand that autocrats in other places 
when they, themselves, are not successful end up creating havoc 
around the world for nationalistic reasons, to build support 
within their countries.
    And therefore, we do not wish the other major countries in 
the world harm as it relates to economic growth. We want them 
to do well, countries like China and even Russia, who no doubt 
has conducted very nefarious activities here in our country.
    Many of us have seen in the Middle East the fact that 
poverty, not unlike what happens in our own country, where 
people who live in cities and neighborhoods have no hope, crime 
permeates, things occur. We have seen the same thing happen in 
the Middle East, where young people who have no hope are 
attracted to ideologies that end up threatening our own nation.
    So I appreciate the fact that at the National Security 
Office they are not only connected to those who will be dealing 
with our issues of foreign policy and our role in the world, 
but also focus on those economic issues, which brings me to 
trade.
    Our country has shown great leadership around the world. 
Rob Portman served as our Trade Representative in previous 
administrations, and there has been a great deal of talk about 
what our role will be in that regard.
    I think most of us believe that a world that continues to 
focus on free enterprise, a world that continues to have 
democratic principles more and more permeated is a world that 
is a better place for us. [Disturbance in hearing room.]
    Senator Corker. And while we should also always focus on 
trade as it relates to improving the standard of living of 
Americans, an ancillary benefit is that people within those 
countries begin to adopt the values that we hold so dear here 
in our country.
    One of the things that many of us on the committee and so 
many in the audience have been able to do is also to see the 
importance of American values around the world. It is an 
amazing thing to be in Afghanistan, for instance, and to see 
women at 4:30 in the morning--who, by the way, do all of the 
hard work in Afghanistan--up and ready to vote in the first 
election that they have voted in or to see young girls going to 
schools that they never had the opportunity to go.
    To be in refugee camps, where truly every eye is on America 
with hope. To be in Venezuela and to see families whose loved 
ones are in prison for political reasons and looking to us to 
change that. To be in villages in Africa, where, for the first 
time because of American ingenuity, 600 million people without 
power now have hope, with very little in the way of U.S. 
resources but our leadership in setting a vision and working 
with others. The elimination almost of HIV, the dealing with 
malaria, dealing with other diseases like Ebola.
    Many of us, all of us, I think, have been in situations 
where young people just want to touch us. They just want to see 
us. They want to hug Americans because they, like the people 
who founded our country, believe in the American ideal. It is 
not just a country, but it is their hope. It is their vision of 
what their life might be with American leadership.
    I believe the world is at its best when America leads, and 
I think most people at this dais believe the same thing. We 
understand the importance of diplomacy and all of us know the 
one percent of the U.S. budget that we spend on efforts like 
Mr. Tillerson may lead, with that one percent, if we are 
successful, the likelihood of the men and women that we cherish 
so much in our military are much less likely to be in harm's 
way.
    Which brings me to you. This is a person, Mr. Tillerson, 
who, by the way, had never met Mr. Trump, as I understand, 
until a few weeks ago or a month ago. I believe, like Senator 
Cornyn said, that it is very, very possible that you are, in 
fact, an inspired choice.
    We look at the President-elect who, if you think about it, 
approaches everything almost from an economic standpoint. That 
has been the world that he has lived in. And the fact that you 
have led a global enterprise with 70,000 employees around the 
world, have been there for 41 1/2 years, have met world 
leaders, know them up close and personally, to me, that is 
going to give our new President much greater confidence in your 
ability to offer advice. And I think it is going to give the 
State Department possibly the ability to have the appropriate 
balance with other forces, as it relates within the White House 
and other places to developing a vision for our country.
    If you think about it, not only does the world not really 
understand where America is today, and all of us have had 
leaders in our offices wondering what is next, all of us. But 
if you think about the body politic here our own country does 
not understand.
    You look at the election. We had the Bush presidency, and 
then we had the Obama presidency, which was not the Bush 
presidency. And then we have had this election, where many 
things have been said and sometimes in unorthodox ways. And so 
not only do just the world leaders not know where we are, not 
just citizens who watch us on television and other places, but 
our body politic here does not know.
    So, Mr. Tillerson, this is a momentous time. This, to me, 
is the most important nomination that the President has made. 
The world paying attention to this hearing I think denotes 
that. You have the ability, no doubt, to draw a crowd.
    But it is going to be your responsibility to define clearly 
what America's role in the world is going to be. I know 
Secretary Gates has spoken to this many times as he talks about 
the way the world was when it was us and the Soviet Union, but 
now it is very different. And the American people even do not 
fully understand what the future holds.
    You have got to restore our credibility, secondly. The NATO 
alliance is shaken. Europe is shaken. Our Arab friends, because 
of negotiations that have taken place, are concerned about the 
future. And I could go on and on, but I want to be respectful 
to other people's time.
    But one of your first goals is going to be to restore U.S. 
credibility around the world. You are going to need to 
prioritize. One of the things I have witnessed over the last 
several--for the entire 10 years I have been here, actually--is 
there is a lot of activity that takes place, but it is hard to 
discern where it is taking us.
    And so I think as a person who has led an organization, who 
has risen from the bottom, who has been the CEO of a global 
enterprise may, in fact, be an inspired choice to prioritize, 
to restore credibility, which is what a company like yours has 
had to do to have those relationships based on trust, based on 
people knowing that we are going to do what we say.
    And then, lastly, you are the person that is charged with 
being the principal adviser to the President on foreign policy. 
And I think that is the question that people on both sides of 
the aisle will raise most here today is we know that the 
President-elect's foreign policy is evolving as he takes 
office, as he talks to people, and there is no way that you 
could speak on his behalf today. That cannot happen.
    So what people here today are going to want to know is how 
are you going to advise him? You are going to be one of the 
last people to talk to him. You are going to be up under the 
hood, sharing with him what you think ought to happen.
    We know that at the end of the day, you are going to carry 
out his policy. And all of us have watched as other Secretaries 
of State have tried to carry out their own policy and not the 
President's, and we know that that does not work.
    So we thank you for being here. My sense is that you are 
going to rise to the occasion, that you are going to 
demonstrate that you are, in fact, an inspired choice, that you 
are going to be able to take the years of accomplishment and 
relationships and transfer that and translate it into a foreign 
policy that benefits U.S. national interests.
    Thank you again for being willing to put yourself before 
our country and the world in this manner. And with that, let me 
turn to our distinguished ranking member and my friend, Ben 
Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, again, Senator Corker, thank you very 
much for the accommodations in this hearing.
    And I agree with your final comment. This hearing is about 
Mr. Tillerson and Mr. Tillerson's views, though I think we are 
going to have some specific questions because of statements 
made by Mr. Trump. But we do want to hear your views, 
particularly as it relates to many of the challenges that 
Chairman Corker went through in his opening statement.
    To Senator Nunn, it is a pleasure to have you in our 
committee, and we thank you very much for your years of public 
service.
    Secretary Gates, thank you for all of your service, and you 
honor our committee, both of you, by being here today.
    And I also want to once again welcome our new colleagues--
Senator Booker, Senator Merkley, Senator Portman, Senator 
Young. I have worked with all four of you before in different 
capacities, and I know your commitment to our national security 
and to foreign policy, and I know you all will be great 
additions to our committee.
    I want to acknowledge Senator King, who is here. This is 
not the first time that Senator King has been in our committee 
room to observe a hearing. We have got to get you on the 
committee. But we thank you again for your interest in this 
hearing.
    And Mr. Tillerson, as I told you in our private meeting, 
thank you. Thank you for being willing to serve the public. It 
is not easy to put yourself forward. As you have found since 
your nomination has been brought forward, your life has changed 
pretty dramatically. Not just for you, but for your entire 
family. And we thank you for your willingness to serve our 
country.
    Providing advice and consent on the nominees of the 
President is one of the most important constitutional powers of 
the Senate. It is an awesome responsibility, and one that I 
know that all of us on this committee take with the utmost 
seriousness.
    Mr. Tillerson, there is no question about your impressive 
record in the business world, rising through the ranks and then 
running Exxon, one of the largest multinational operations in 
the world. Yet, I would offer, having a view from the C-suite 
at Exxon is not at all the same as a view from the seventh 
floor of the Department of State. And those who suggest that 
anyone who can run a successful business can, of course, run a 
Government agency do a profound disservice to both.
    Serving the narrow, market-driven interest of Exxon 
shareholders is not the same as serving the national interest 
of all the American people. Effective corporate governance and 
management does not always lend itself to Government decision-
making, where bureaucracies and representative institutions 
such as Congress serve different political and social purposes 
than maximizing profits.
    I, therefore, want to get a sense of how you envision 
pivoting from the mindset of an oilman focused on profits to 
that of a statesman focused on promoting American interests and 
values around the world. And as you know, Congress, as a 
separate and coequal branch of Government, has an important 
role to play in assuring that the values that have animated our 
Nation since its founding continue to flourish.
    So, first, I want to share with you, as I did in our 
private meeting, my vision of the United States foreign policy 
and the role of the Secretary of State in carrying out that 
policy.
    I approach this hearing and discussion today with a clear 
set of expectations of the next administration. I believe 
strongly in a world where America works with its allies and 
partners, a world that is governed by laws and institutions 
consistent with the liberal international order and one where 
we champion our values both at home and abroad.
    Indeed, I think it is worth spending a few minutes this 
morning on the questions of human rights, democracy, good 
governance, anti-corruption, and civil society support. It is 
worth doing so both because of the critical importance of these 
issues for America's role in the world--and our values are our 
interests, not a separate set of considerations--but also 
because the nature of Exxon and your work there, Mr. Tillerson, 
leaves some troubling questions about how you view these issues 
and how you, as Secretary of State, intend to approach them.
    As you may know, over the course of my tenure in the House 
and Senate, I have championed the cause of human rights and the 
importance of democratic process and good governance. So when I 
see violations of sovereignty by China in the South China Sea, 
I speak out. When I see gross human rights violations in 
Ethiopia, I speak out.
    When I see massive corruption in countries with extreme 
poverty like Equatorial New Guinea, I speak out. And when I see 
severe erosion of democratic institutions in Venezuela, I speak 
out.
    Indeed, events over the past year serve as a stark reminder 
that democracy will not defend itself. It requires those of us 
who believe in the enduring values of the democratic experiment 
to nurture and support it and to defend it from authoritarian 
opponents who do not share our values.
    Perhaps the most egregious events we have seen recently has 
been where President Putin of Russia, having effectively killed 
his nation's nascent democracy, has led efforts across Europe 
and the former Soviet Union to erode support for democratic 
institutions and call into question well-established rules of 
the road.
    Moscow directs efforts to undermine democracy through 
propaganda, false news, cyber attacks, and funding for populist 
political parties abroad. So perhaps it should come as no 
surprise that these nefarious activities have reached our 
shores, but it is stunning nonetheless.
    Last week, the intelligence community found that Mr. Putin 
did, indeed, direct efforts to interfere in our elections. That 
is their conclusion. They found that the Kremlin attacked 
Hillary Clinton and directed resources to that end.
    I am not saying that Russia's efforts were decisive in our 
election outcome. That is not the point. The point is that we, 
the United States, were victims of cyber attack of our 
democratic process. Recent news accounts indicate Russia may 
well have information about Mr. Trump, and they could use that 
to compromise our presidency.
    It cannot be business as usual. That is why I was proud to 
introduce a bipartisan bill yesterday with Senator McCain and 
several members of this committee, including Senators Menendez, 
Shaheen, Rubio, and Portman, along with Senators Graham, 
Klobuchar, Sasse, and Durbin, which will impose enhanced 
sanctions on Russia for its interference in our election and 
its ongoing aggression in Ukraine and Syria.
    We need to stand up to this bully in Moscow and increase 
the cost for his behavior. So I was disappointed that in your 
prepared opening remarks submitted to the committee yesterday, 
there was no mention about the direct confirmed cyber attack by 
Russia on America. But you did find time to say it was the 
absence of American leadership that this door was left open, 
and unintended signals were sent.
    So I want to know exactly what additional actions the 
United States should have taken against Russia, in your view? 
Do you, for example, support additional sanctions against 
Russia, demonstrating America's leadership, like what my 
colleagues and I introduced yesterday?
    Mr. Tillerson, I am sure you can understand why I and many 
of my colleagues have deep concerns about your relationship 
with Mr. Putin. And this is not simply a question of what you 
saw when you gazed into his eyes--you do not strike me as 
someone likely to be naive--but also about how Exxon conducted 
itself in supporting, directly and indirectly, funding for the 
tools that Putin has used to crush democracy and dissent at 
home and to sow division abroad.
    While I do not suggest it was your intent, it is, frankly, 
not too great of a distance from Exxon's business partnerships 
to Putin's Kremlin-controlled slush funds essential for his 
disinformation campaign around the world.
    You will be representing a President who may blatantly 
ignore the consensus of 17 independent intelligence agencies 
who have said that the Russians interfered with our election in 
an unprecedented way. The same President to whom you will 
report has also made it clear that he may ignore Putin's 
invasion of Ukraine, his illegal annexation of Crimea, his 
interference in Syria, where Russian forces partnered with 
Iran, Hezbollah, and Shia militia to shift battlefield momentum 
toward a dictator guilty of war crimes.
    Russia itself is culpable of war crimes for its backing of 
Bashar al-Assad, who has starved, barrel bombed, and tortured 
the Syrian people into submission. And yet President-elect 
Trump may take quick steps to make Putin a close ally of the 
United States of America.
    So there is a serious discussion to be had here today about 
Russia and the President-elect's plans for Putin, and we need 
to know and understand your views, as the chairman has said, on 
these critical issues of national security.
    In addition, if we take seriously that your tenure and 
experience at Exxon serves as qualifications for Secretary of 
State, then there is likewise a serious discussion this 
committee needs to have about the potential for conflicts of 
interest that arise from your long corporate tenure.
    For far too long, in my estimation, U.S. foreign policy has 
treated core governance issues as secondary considerations. If 
you become our Nation's top diplomat, I want to know if 
governance issues will become a primary consideration.
    I have always worked to treat governance issues as one of 
the most important aspects of our foreign policy. I have been 
centrally involved in several legislative efforts over the 
years to bring transparency to extractive industries, to foster 
high standards of uncorrupt practices, and to use all the tools 
at our disposal when it comes to supporting human rights and 
civil societies. So I am troubled that, on many of these 
issues, Exxon, under your leadership, appears to have been 
pushing in the opposite direction.
    Mr. Tillerson, we have much to discuss. If confirmed, you 
will be assuming your new job at a consequential time. Indeed, 
I believe the United States today stands at a turning point in 
history. National power, along with economic, military, 
diplomatic power, is being redefined and redistributed across 
the globe.
    International institutions, international financial and 
economic orders are under distress. Climate change is causing 
irreparable harm and creating and leading to greater 
instability. In many parts of the world, there is a view that 
American power, determination, and maybe more importantly, our 
support for American values is uncertain, and clearly, 
candidate Trump added to that uncertainty.
    We have global challenges. The Middle East is undergoing a 
period of unprecedented violence and instability. Iran is 
committed to confrontations with the United States and its 
allies, and is fomenting terrorism to challenge regional order. 
There are no less than three civil wars in this part of the 
world.
    U.S. leadership is required to support movement toward 
negotiated political settlements. Six years after the hope of 
Arab Spring, the region has entered into a long winter in which 
many governments are backsliding on inclusive politics, space 
for civil society and open economies. The fractured Middle East 
underscores my fundamental belief that the United States cannot 
pursue a hard-nosed security agenda or economic ties without 
prioritizing values such as political inclusion, human rights, 
and a free, active media and civil society.
    Without these elements, instability will persist, with 
serious implications for countering violent extremism and 
stemming the flow of refugees heading for Europe's shore.
    I also need to stress that our important partner in this 
part of the world, Israel, needs more than tweets about how 
great our relationship is going to be. I hope we will hear from 
you today concrete plans with specific proposals for the way 
forward and strengthening that strategic partnership.
    And despite the challenges, encouraging opportunities exist 
for our country. President Obama leaves the next administration 
as an inheritance strengthened relationships with historic 
allies in Europe and Asia, a reenergized partnership with 
India, and growing economic relations with countries across 
Sub-Sahara Africa that provide promising platforms to advance 
U.S. security and economic interests.
    I recognize that what I outlined here may not be in line 
with President-elect Trump's vision of the world. But I believe 
that core values like standing up against violations of 
international law, against war crimes, against human rights 
violations, against corruption, and speaking up for democracy 
and freedom of speech must be at the forefront of America's 
foreign policy agenda.
    Finally, I want to note that, if confirmed, you will be 
taking over as leader of one of the most skilled and able 
workforces of any organization on the planet. Our foreign 
affairs and development professionals are truly among the most 
able and dedicated of our public servants on the front line 
safeguarding our national security, and as ranking member of 
this committee, I have benefited greatly from their insight and 
counsel over the years.
    I hope and trust and encourage you to take full advantage 
of the dedicated public servants of the Department of State and 
USAID, should you be confirmed. They are deeply committed to 
protecting and extending our Nation's values and interests. I 
am certain that you and our Nation will benefit greatly from a 
full and robust partnership between your office and the 
department you have been nominated to lead.
    Mr. Chairman, I look forward to hearing from our witness 
and I look forward to questions.
    Senator Corker. Mr. Tillerson, thank you for being here. I 
think you have been adequately introduced, and I think the 
world knows more about you than they ever thought they would. 
So without using any more time, we thank you for being here 
today.
    I know you may have some family members to introduce, which 
is always helpful. And if you wish to do so, begin with that 
and then with your comments.

          STATEMENT OF REX WAYNE TILLERSON, OF TEXAS, 
               NOMINATED TO BE SECRETARY OF STATE

    Mr. Tillerson. Thank you, Mr. Chairman. Yes, I do have 
members of my family with me today: my wife, Renda, for more 
than 30 years, who has kept a welcoming home when I would come 
back from my many travels, and also for our sons and our five 
grandchildren. My sister Jo Peters--Jo Lynn Peters, a lifelong 
educator, high school mathematics teacher, math teacher coach, 
and teaching many, many years in the Texas Public School 
Systems. My sister, Dr. Rae Ann Hamilton, a family practice 
physician in Abilene, Texas for more than 30 years. And my 
brother-in-law, Judge Lee Hamilton, who is now finishing or has 
just begun to serve his fifth term on the bench at the 104th 
District of State District Courts of Texas in Abilene, Texas.
    I appreciate so much the love and support they have given 
me in my past endeavors, but, most particularly, that they 
would come all the way up from Texas to be with me today.
    Good morning, Chairman Corker and others. I am honored to 
have the backing of Senator Cornyn and Senator Cruz from my 
home State of Texas. I do want to thank Senator Nunn for his 
commitment to nuclear nonproliferation, something he remains as 
steadfast today as ever, and to Secretary Gates for his service 
to eight U.S. Presidents and his own leadership as president of 
the Boy Scouts of America.
    Chairman Corker, Ranking Member Cardin, and members of the 
committee, it is an honor to appear before you today as 
President-elect Trump's nominee for Secretary of State, and 
seek the approval of this committee and the full Senate for my 
confirmation.
    I come before you at a pivotal time in both the history of 
our Nation and our world. Nearly everywhere we look, people and 
nations are deeply unsettled. Old ideas and international 
norms, which were well understood, and government behaviors in 
the past may no longer be effective in our time.
    We face considerable threats in this evolving new 
environment. China has emerged as an economic power in global 
trade, and our interactions have been both friendly and 
adversarial. While Russia seeks respect and relevance on the 
global stage, its recent activities have disregarded America's 
interests. Radical Islam is not a new ideology, but it is 
hateful, deadly, and an illegitimate expression of the Islamic 
faith. Adversaries, like Iran and North Korea, pose grave 
threats to the world because of their refusal to conform to 
international norms.
    As we confront these realities, how should America respond? 
My answer is simple. To achieve the stability that is 
foundational to peace and security in the 21st century, 
American leadership must not only be renewed, it must be 
asserted.
    We have many advantages on which to build. Our alliances 
are durable, and our allies are looking for a return of our 
leadership. Our men and women in uniform are the world's finest 
fighting force, and we possess--[Disturbance in hearing room.]
    Mr. Tillerson. Our men and women in uniform are the world's 
finest fighting force, and we possess the world's largest 
economy. America is still the destination of choice for people 
the world over because of our track record of benevolence and 
hope for our fellow man. America has been indispensable in 
providing the stability to prevent another world war, increased 
global prosperity, and encourage the expansion of liberty.
    Our role in the world has also historically entailed a 
place of moral leadership. In the scope of international 
affairs, America's level of goodwill toward the world is 
unique, and we must continue to display a commitment to 
personal liberty, human dignity, and principled action in our 
foreign policy. Quite simply, we are the only global superpower 
with the means and the moral compass capable of shaping the 
world for good. If we do not lead, we risk plunging the world 
deeper into confusion and danger.
    But we have stumbled. In recent decades, we have cast 
American leadership into doubt. In some instances, we have 
withdrawn from the world. In others, we have intervened with 
good intentions, but did not achieve the stability and global 
security we sought. Instead our actions and our non-actions 
have triggered a host of unintended consequences and created a 
void of uncertainty. Today our friends still want to help us, 
but they do not know how. And meanwhile, our adversaries have 
been emboldened to take advantage of this absence of American 
leadership.
    In this campaign, President-elect Trump proposed a bold, 
new commitment to advancing American interests in our foreign 
policy. I hope to explain what this approach means and how I 
would implement it if confirmed as Secretary of State.
    Americans welcome this re-dedication to American security, 
liberty, and prosperity, but new leadership is incomplete 
without accountability. If accountability does not start with 
ourselves, we cannot credibly extend it to our friends and our 
adversaries. We must hold ourselves accountable to upholding 
the promises we make to others. An America that can be trusted 
in good faith is essential to supporting our partners, 
achieving our goals, and assuring our security.
    We must hold our allies accountable to commitments they 
make. We cannot look the other way at allies who do not meet 
their obligations. This is an injustice not only to us, but to 
longstanding friends who honor their promises and bolster our 
own national security, such as Israel. And we must hold those 
who are not our friends accountable to the agreements they 
make.
    Our failure to do this over the recent decades has 
diminished our standing and encouraged bad actors around the 
world to break their word. We cannot afford to ignore 
violations of international accords as we have done with Iran. 
We cannot continue to accept empty promises, like the ones 
China has made to pressure North Korea to reform, only to shy 
away from enforcement. Looking the other way when trust is 
broken only encourages more bad behavior, and it must end.
    We cannot be accountable, though, if we are not truthful 
and honest in our dealings. As you are aware, in my 
longstanding involvement with the Boy Scouts of America, one of 
our bedrock ideals is honesty. Indeed, the phrase, ``On my 
honor,'' begins the Boy Scout Oath, and it must undergird our 
foreign policy.
    In particular, we need to be honest about radical Islam. It 
is with good reason that our fellow citizens have a growing 
concern about radical Islam and the murderous acts committed in 
its name against Americans and our friends. Radical Islam poses 
a grave risk to the stability of nations and the well-being of 
their citizens.
    Powerful digital media platforms now allow ISIS, al Qaeda, 
and other terror groups to spread a poisonous ideology that 
runs completely counter to the values of the American people 
and all people around the world who value human life. These 
groups are often enabled and emboldened by nations, 
organizations, and individuals sympathetic to their cause. 
These actors must face consequences for aiding and abetting 
what can only be called evil.
    The most urgent step in thwarting radical Islam is 
defeating ISIS. The Middle East and its surrounding region pose 
many challenges which require our attention, including Syria, 
Iraq, and Afghanistan. There are competing priorities in this 
region which must be and will be addressed, but they must not 
distract from our utmost mission of defeating ISIS, because 
when everything is a priority, nothing is a priority. Defeating 
ISIS must be our foremost priority in the Middle East.
    Eliminating ISIS will be the first step in disrupting the 
capabilities of other groups and individuals committed to 
striking our homeland and our allies. The demise of ISIS will 
allow us to increase our attention on other agents of radical 
Islam like, al Qaeda, the Muslim Brotherhood, and certain 
elements within Iran. But defeat will not occur on the 
battlefield alone. We must win the war of ideas. If confirmed, 
I will ensure the State Department does it its part in 
supporting Muslims around the world who reject radical Islam in 
all its forms.
    We should also acknowledge the realities about China. 
China's island building in the South China Sea is an illegal 
taking of disputed areas without regard for international 
norms. China's economic and trade practices have not always 
followed its commitments to global agreements. It steals our 
intellectual property and is aggressive and expansionist in the 
digital realm. It has not been a reliable partner in using its 
full influence to curb North Korea. China has proven a 
willingness to act with abandonment in the pursuit of its own 
goals, which at times has put it in conflict with American 
interests. We have to deal with what we see, not what we hope.
    But we need to see the positive dimensions in our 
relationship with China as well. The economic well-being of our 
two nations is deeply intertwined. China has been a valuable 
ally in curtailing certain elements of radical Islam. We should 
not let disagreements over other issues exclude areas for 
productive partnership.
    We must also be clear eyed about our relationship with 
Russia. Russia today poses a danger, but it is not 
unpredictable in advancing its own interests. It has invaded 
the Ukraine, including the taking of Crimea, and supported 
Syrian forces that brutally violates the laws of war. Our NATO 
allies are right to be alarmed at a resurgent Russia.
    But it was in the absence of American leadership that this 
door was left open and unintended signals were sent. We 
backtracked on commitments we made to allies. We sent weak or 
mixed signals with red lines that turned into green lights. We 
did not recognize that Russia did not--does not think like we 
do.
    Words alone do not sweep away an uneven and, at times, 
contentious history between our two nations, but we need an 
open and frank dialogue with Russia regarding its ambitions so 
we know how to chart our own course. Where cooperation with 
Russia based on common interests is possible, such as reducing 
the global threat of terrorism, we ought to explore these 
options. Where important differences remain, we should be 
steadfast in defending the interests of America and her allies. 
Russia must know that we will be accountable to our commitments 
and those of our allies, and that Russia must be held to 
account for its actions.
    Our approach to human rights begins by acknowledging that 
American leadership requires moral clarity. We do not face an 
either/or choice on defending global human rights. Our values 
are our interests when it comes to human rights and 
humanitarian assistance. It is unreasonable to expect that 
every foreign policy endeavor will be driven by human rights 
considerations alone, especially when the security of the 
American people is at stake. But our leadership demands actions 
specifically focused on improving the conditions of people the 
world over, utilizing both aid and, where appropriate, economic 
sanctions as instruments of foreign policy.
    And we must adhere to standards of accountability. Our 
recent engagements with the government of Cuba was not 
accompanied by any significant concessions on human rights. We 
have not held them accountable for their conduct. Their leaders 
receive much while their people received little. That serves 
neither the interest of Cubans or Americans.
    Abraham Lincoln declared that America is the last best hope 
of earth. Our moral light must not go out if we are to remain 
an agent of freedom for mankind. Supporting human rights in our 
foreign policy is a key component of clarifying to a watching 
world what America stands for.
    In closing, let us also be proud about the ideals that 
define us and the liberties we have secured at great cost. The 
ingenuity, ideas, and culture of Americans who came before us 
made the United States the greatest Nation in history; so have 
their sacrifices. We should never forget that we stand on the 
shoulders of those who have sacrificed much and, in some cases, 
everything. They include our fallen heroes in uniform, our 
foreign service officers, and other Americans in the field who 
likewise gave all for their country.
    If confirmed, in my work for the President and the American 
people, I will seek to engender trust with foreign leaders and 
governments and put in place agreements that will serve the 
purposes and interest of American foreign policy. The Secretary 
of State works for the President and seeks to implement his 
foreign policy objectives. To do that, I must work closely with 
my Cabinet colleagues and all relevant departments and agencies 
of the Administration to build consensus.
    But let me also stress that keeping the President's trust 
means keeping the public trust, and keeping the public trust 
means keeping faith with their elected representatives. I want 
all the members of this committee to know that should I be 
confirmed, I will listen to your concerns and those of your 
staff and partner together to achieve great things for the 
country we all love.
    I am an engineer by training. I seek to understand the 
facts, follow where they lead, and apply logic to all 
international affairs. We must see the world for what it is, 
have clear priorities, and understand that our power is 
considerable, but it is not infinite. We must, where possible, 
build pathways to new partnerships and strengthen old bonds 
which have frayed. If confirmed, I intend to conduct a foreign 
policy consistent with these ideals.
    We will never apologize for who we are or what we hold 
dear. We will see the world for what it is, be honest with 
ourselves and the American people, follow facts where they lead 
us, and hold ourselves and others accountable.
    I thank you for your time and look forward to your 
questions.
    [The prepared statement of Mr. Tillerson follows:]

    Prepared Statement of Secretary of State Designate Rex Tillerson

    Good morning.
    I am honored to have the backing of Senator Cornyn and Senator Cruz 
from my home state of Texas. I also want to thank Senator Nunn for his 
commitment to nuclear non-proliferation, and Secretary Gates for his 
service to eight presidents and his own leadership as President of the 
Boy Scouts of America.
    Chairman Corker, Ranking Member Cardin, and Members of the 
Committee, it is an honor to appear before you today as President-elect 
Trump's nominee for Secretary of State and to seek the approval of this 
Committee and the full Senate for my confirmation.
    I would like to first introduce members of my family who are here 
today. These are the most important people in my life, and I want to 
express my gratitude to them for all their love and support over the 
years. First, my wife of over 30 years, Renda, who has always kept the 
home fires burning during my many trips abroad. My sisters Jo Lynn 
Peters and Rae Ann Hamilton and my brother-in-law Lee Hamilton. I am 
grateful and proud they are with me today.
    I come before you at a pivotal time in both the history of our 
nation and our world.
    Nearly everywhere we look, people and nations are deeply unsettled. 
Old ideas and international norms which were well-understood and 
governed behaviors in the past may no longer be effective in our time.
    We face considerable threats in this evolving new environment. 
China has emerged as an economic power in global trade, and our 
interactions have been both friendly and adversarial. While Russia 
seeks respect and relevance on the global stage, its recent activities 
have disregarded American interests. Radical Islam is not a new 
ideology, but it is hateful, deadly, and an illegitimate expression of 
the Islamic faith. Adversaries like Iran and North Korea pose grave 
threats to the world because of their refusal to conform to 
international norms.
    As we confront these realities, how should America respond?
    My answer is simple. To achieve the stability that is foundational 
to peace and security in the 21st century, American leadership must not 
only be renewed, it must be asserted.
    We have many advantages on which to build. Our alliances are 
durable and our allies are looking for a return of our leadership. Our 
men and women in uniform are the world's finest fighting force, and we 
possess the world's largest economy. America is still the destination 
of choice for people the world over because of our track record of 
benevolence and hope for our fellow man. America has been indispensable 
in providing the stability to prevent another world war, increase 
global prosperity, and encourage the expansion of liberty.
    Our role in the world has also historically entailed a place of 
moral leadership. In the scope of international affairs, America's 
level of goodwill toward the world is unique, and we must continue to 
display a commitment to personal liberty, human dignity, and principled 
action in our foreign policy.
    Quite simply, we are the only global superpower with the means and 
the moral compass capable of shaping the world for good.
    If we do not lead, we risk plunging the world deeper into confusion 
and danger.
    But we've stumbled.
    In recent decades, we have cast American leadership into doubt. In 
some instances, we have withdrawn from the world. In others, we have 
intervened with good intentions but did not achieve the stability and 
global security we sought. Instead, we triggered a host of unintended 
consequences and created a void of uncertainty. Today, our friends 
still want to help us, but they don't know how. Meanwhile, our 
adversaries have been emboldened to take advantage of this absence of 
American leadership.
    In this campaign, President-elect Trump proposed a bold new 
commitment to advancing American interests in our foreign policy. I 
hope to explain what this approach means and how I would implement that 
policy if confirmed as Secretary of State.
    Americans welcome this rededication to American security, liberty, 
and prosperity. But new leadership is incomplete without 
accountability. If accountability does not start with ourselves, we 
cannot credibly extend it to our friends or our adversaries.
    We must hold ourselves accountable to upholding the promises we 
make to others. An America that can be trusted in good faith is 
essential to supporting our partners, achieving our goals, and assuring 
our security.
    We must hold our allies accountable to commitments they make. We 
cannot look the other way at allies who do not meet their obligations; 
this is an injustice not only to us, but to longstanding friends who 
honor their promises and bolster our own national security.
    And we must hold those who are not our friends accountable to the 
agreements they make. Our failure to do this over recent decades has 
diminished our standing and encouraged bad actors around the world to 
break their word. We cannot afford to ignore violations of 
international accords, as we have done with Iran. We cannot continue to 
accept empty promises like the ones China has made to pressure North 
Korea to reform, only to shy away from enforcement. Looking the other 
way when trust is broken only encourages more bad behavior. And it must 
end.
    We cannot be accountable if we are not truthful and honest in our 
dealings. Some of you are aware of my longstanding involvement with the 
Boy Scouts of America. One of our bedrock ideals is honesty. Indeed, 
the phrase ``on my honor'' begins the Boy Scout Oath, and it must 
undergird our foreign policy.
    In particular, we need to be honest about radical Islam. It is with 
good reason that our fellow citizens have a growing concern about 
radical Islam and murderous acts committed in its name against 
Americans and our friends.
    Radical Islam poses a grave risk to the stability of nations and 
the well- being of their citizens. Powerful digital media platforms now 
allow ISIS, al-Qaeda, and other terror groups to spread a poisonous 
ideology that runs completely counter to the values of the American 
people and all people around the world who value human life. These 
groups are often enabled and emboldened by nations, organizations, and 
individuals sympathetic to their cause. These actors must face 
consequences for aiding and abetting what can only be called evil.
    The most urgent step in thwarting radical Islam is defeating ISIS. 
The Middle East and its surrounding regions pose many challenges which 
require our attention, including Syria, Iraq, and Afghanistan. There 
are competing priorities in this region which must be and will be 
addressed, but they must not distract from our utmost mission of 
defeating ISIS. Because when everything is a priority, nothing is a 
priority. Defeating ISIS must be our foremost priority in the Middle 
East.
    Eliminating ISIS would be the first step in disrupting the 
capabilities of other groups and individuals committed to striking our 
Homeland and our allies. The demise of ISIS would also allow us to 
increase our attention on other agents of radical Islam like al-Qaeda, 
the Muslim Brotherhood, and certain elements within Iran. But defeat 
will not occur on the battlefield alone; we must win the war of ideas. 
If confirmed, I will ensure the State Department does its part in 
supporting Muslims around the world who reject radical Islam in all its 
forms.
    We should also acknowledge the realities about China. China's 
island- building in the South China Sea is an illegal taking of 
disputed areas without regard for international norms. China's economic 
and trade practices have not always followed its commitments to global 
agreements. It steals our intellectual property, and is aggressive and 
expansionist in the digital realm. It has not been a reliable partner 
in using its full influence to curb North Korea. China has proven a 
willingness to act with abandon in pursuit of its own goals, which at 
times has put it in conflict with America's interests. We have to deal 
with what we see, not with what we hope.
    But we need to see the positive dimensions in our relationship with 
China as well. The economic well-being of our two nations is deeply 
intertwined. China has been a valuable ally in curtailing elements of 
radical Islam. We should not let disagreements over other issues 
exclude areas for productive partnership.
    We must also be clear-eyed about our relationship with Russia. 
Russia today poses a danger, but it is not unpredictable in advancing 
its own interests. It has invaded Ukraine, including the taking of 
Crimea, and supported Syrian forces that brutally violate the laws of 
war. Our NATO allies are right to be alarmed at a resurgent Russia.
    But it was in the absence of American leadership that this door was 
left open and unintended signals were sent. We backtracked on 
commitments we made to allies. We sent weak or mixed signals with ``red 
lines'' that turned into green lights. We did not recognize that Russia 
does not think like we do.
    Words alone do not sweep away an uneven and at times contentious 
history between our two nations. But we need an open and frank dialogue 
with Russia regarding its ambitions, so that we know how to chart our 
own course.
    Where cooperation with Russia based on common interests is 
possible, such as reducing the global threat of terrorism, we ought to 
explore these options. Where important differences remain, we should be 
steadfast in defending the interests of America and her allies. Russia 
must know that we will be accountable to our commitments and those of 
our allies, and that Russia must be held to account for its actions.
    Our approach to human rights begins by acknowledging that American 
leadership requires moral clarity. We do not face an ``either or'' 
choice on defending global human rights. Our values are our interests 
when it comes to human rights and humanitarian assistance.
    It is unreasonable to expect that every foreign policy endeavor 
will be driven by human rights considerations alone, especially when 
the security of the American people is at stake.
    But our leadership demands action specifically focused on improving 
the conditions of people the world over, utilizing both aid and 
economic sanctions as instruments of foreign policy when appropriate.
    And we must adhere to standards of accountability. Our recent 
engagement with the government of Cuba was not accompanied by any 
significant concessions on human rights. We have not held them 
accountable for their conduct. Their leaders received much, while their 
people received little. That serves neither the interest of Cubans or 
Americans.
    Abraham Lincoln declared that America is ``the last best hope of 
Earth.'' Our moral light must not go out if we are to remain an agent 
of freedom for mankind. Supporting human rights in our foreign policy 
is a key component of clarifying to a watching world what America 
stands for.
    In closing, let us also be proud about the ideals that define us 
and the liberties we have secured at great cost. The ingenuity, ideas, 
and culture of Americans who came before us made the United States the 
greatest nation in history. So have their sacrifices. We should never 
forget that we stand on the shoulders of those who have sacrificed 
much, and in some cases, everything. They include our fallen heroes in 
uniform, our Foreign Service Officers, and other government agents in 
the field who likewise gave all for their country.
    If confirmed, in my work for the President and the American people 
I will seek to engender trust with foreign leaders and governments, and 
put in place agreements that will serve the purposes and interests of 
American foreign policy. The Secretary of State works for the President 
and seeks to implement his foreign policy objectives. To do that I must 
work closely with my Cabinet colleagues and all relevant departments 
and agencies of the administration to build consensus. Let me also 
stress that keeping the President's trust means keeping the public 
trust. And keeping the public's trust means keeping faith with their 
elected representatives. I want all the members of this committee to 
know that, should I be confirmed, I will seek to be responsive to your 
concerns.
    I am an engineer by training. I seek to understand the facts, 
follow where they lead, and apply logic to our international affairs. 
We must see the world for what it is, have clear priorities, and 
understand that our power is considerable, but it is not infinite. We 
must, where possible, build pathways to new partnerships, and 
strengthen old bonds which have frayed.
    If confirmed, I intend to conduct a foreign policy consistent with 
these ideals. We will never apologize for who we are or what we hold 
dear. We will see the world for what it is, be honest with ourselves 
and the American people, follow facts where they lead us, and hold 
ourselves and others accountable.
    I thank you for your time and look forward to your questions.

    Senator Corker. Thank you very much for your testimony. Do 
you commit to appear and testify upon request from this 
committee?
    Mr. Tillerson. Yes, sir.
    Senator Corker. With that, I know the committee members 
know I rarely give opening statements, certainly not expansive 
ones like I gave. In order to move this along, I am going to 
reserve my time for interjections and move to the ranking 
member, Senator Cardin. And then we will move to Senator Rubio.
    Senator Cardin. Once again, Mr. Tillerson, thank you very 
much. Do you agree with me that creating stable, democratic, 
and free societies around the world that support the 
aspirations of their people, including basic human rights, is 
in our long-term national security interests?
    Mr. Tillerson. Without question, Senator.
    Senator Cardin. And do you also agree that Russia under Mr. 
Putin's leadership fails in that category?
    Mr. Tillerson. Yes, sir.
    Senator Cardin. So, what we try to do in order to provide 
international leadership is to put a face on an issue. 
Thousands of people in Russia have been harmed or killed as a 
result of Mr. Putin's leadership, and millions have been 
impacted by that. There is one person who lost his life in a 
courageous way. Sergei Magnitsky, a young attorney representing 
a client with U.S. interests, found corruption, did what any 
lawyer is supposed to do, reported it to the authorities. As a 
result, he was arrested, tortured, and killed, and those who 
benefited from the corruption were held to no accountability 
whatsoever.
    Through U.S. leadership, we brought that case to the 
international forum. Congress has passed a law, the Magnitsky 
Law--other countries have now passed similar laws--to deny our 
banking system and the right to visit our country to those who 
perpetrated those gross violations of human rights that were 
not held accountable by Russia.
    Do you support that law?
    Mr. Tillerson. Yes, sir, I do.
    Senator Cardin. I thank you for that, because under the 
Obama Administration there have been 39 individuals who have 
been individually sanctioned under the Magnitsky Law, and five 
more were just recently added on Monday.
    That law provides for Congress to be able to submit through 
appropriate channels additional names to be reviewed by the 
Administration for inclusion for sanctions. Do you commit that 
you will follow that provision on names that we submit to you 
for potential sanctions for human rights violations under the 
Magnitsky Law?
    Mr. Tillerson. Senator, I will ensure that the--that if 
confirmed, myself and the State Department does comply with 
that law.
    Senator Cardin. And this year under the National Defense 
Authorization Act, that was extended globally and now applies 
to human rights violations throughout the world. Do you also 
commit to support the global Magnitsky Law using the tools of 
our visa restrictions to prevent human rights violators from 
coming to America?
    Mr. Tillerson. Senator, again, consistent with all 
applicable laws that might impact immigration, we will endeavor 
to comply with that, yes.
    Senator Cardin. Well, the law allows the Secretary of State 
to--visas are privileges to come to America. There is no due 
process issue when issuing the visas. This is a privilege to be 
able to come to a country. So, I am not aware of any 
restrictions on your ability to withdraw the right of someone 
to come to America. There may be--other than through treaties 
that we have diplomats that have to come in, which is exempted 
from that provision.
    Mr. Tillerson. I understand, Senator, and that was what I 
intended is that I think I would have ensure that a full 
examination was made of any and all applicable laws or other 
policies. But then we would follow those and implement.
    Senator Cardin. You mentioned in your statement about the 
invasion by Russia of Crimea. Does Russia have, in your view, a 
legal claim to Crimea?
    Mr. Tillerson. No, sir. That was the taking of territory 
that was not theirs.
    Senator Cardin. And do you agree that Russia has not 
complied with the Minsk Agreement in regards to the resolution 
of Ukraine?
    Mr. Tillerson. The process for implementing the Minsk 
Agreement, as I understand it, continues. And no, full--a full 
completion of all the Minsk Accords has not yet been achieved.
    Senator Cardin. So, I want to get your view on the 
sanctions that the United States applied, and maybe I will 
drill down, if I might, by asking you this first question. You 
stated in your statement that part of the reasons why we were 
ineffective in preventing Russia is that we did not exercise 
strong enough international leadership. What would you have 
done or recommended to have been done to prevent Russia from 
doing what it did?
    Mr. Tillerson. Well, Senator, in terms of the taking of 
Crimea, I think my understanding is that caught a lot of people 
by surprise. It certainly caught me by surprise just as a 
private citizen. So, I think the real question was the response 
to the taking of Crimea that then led to subsequent actions by 
Russia, which I mentioned, the next action being coming across 
the border of Eastern Ukraine with both military assets and 
men. That was the next illegal action.
    I think the absence of a very firm and forceful response to 
the taking of Crimea was judged by the leadership in Russia as 
a weak response, and, therefore----
    Senator Cardin. So, what would you have done? After we were 
surprised by what they did in taking over Crimea, what should 
the U.S. leadership have done in response to that that we did 
not do?
    Mr. Tillerson. I would have recommended that the Ukraine 
take all of its military assets it had available, put them on 
that eastern border, provide those assets with defensive 
weapons that are necessary just to defend themselves, announce 
that the U.S. is going to provide them intelligence, and that 
there will--either NATO or U.S. will provide air surveillance 
over that border to monitor any movements.
    Senator Cardin. So, your recommendation would have been to 
do a more robust supply of military?
    Mr. Tillerson. Yes, sir. I think what Russian leadership 
would have understand--would have understood is a powerful 
response that indicated----
    Senator Cardin. So----
    Mr. Tillerson.--yes, you took the Crimea, but you are--this 
stops right here.
    Senator Cardin. So, to understand, our NATO partners, 
particularly in the Baltics and Poland, are very concerned 
about Russian aggression. NATO has deployed troops in this 
region in order to show Russia that Article 5 means something. 
I take it you support that type of action.
    Mr. Tillerson. Yes, I do. That is the type of response that 
Russia expects. If Russia acts with force--taking of Crimea was 
an act of force. They did not--they did not just volunteer 
themselves. So, it required a proportional act--proportional 
show of force to indicate to Russia that there will be no more 
taking of territory.
    Senator Cardin. That is encouraging to me to hear you say 
that because it is not exactly consistent with what Mr. Trump 
has been saying in regards to Article 5 commitments under NATO 
by the United States. So, I appreciate your commitment and your 
views on that issue. So, let me get to the response that was 
done.
    We imposed U.S.-led sanctions against Russia as a result of 
its conduct in Ukraine. We went to Europe and were able to get 
Europe to act. The United States, in my view, wanted to go even 
further, but we could not get Europe to go beyond what they 
were willing to do. Do you agree or disagree with that strategy 
for the United States to lead by showing sanctions as we did?
    Mr. Tillerson. Senator, sanctions are a powerful tool, and 
they are an important tool, in terms of deterring additional 
action. Once actors have acted up, then we want to deter any 
further action on their part. So, yes, American leadership is 
oftentimes, if not almost always, required to demonstrate that 
first step.
    Senator Cardin. And, as you understand, unless we move, and 
we have to move in a strong position, we are going to be the 
best. We are going to get the strongest reaction on sanctions 
from the United States. We saw that in Iran. And I know that 
some of us have mentioned to you the legislation which was 
filed yesterday. I do not know if you have had a chance yet to 
respond to it or not. I might do that for questions for the 
record.
    But we have legislation I would urge you to take a look at. 
It seems consistent with what you are saying here that would 
provide the Administration with the tools to show Russia that 
if you attack us by cyber, or you continue to do what you are 
doing in Ukraine, or what you are doing in Georgia, that there 
is going to be an economic price you are going to pay. I take 
it you believe that is a powerful tool and one that you would 
consider applying?
    Mr. Tillerson. Senator, I have not had the opportunity to 
review the legislation. I am aware that it has been introduced. 
And, yes, I think in carrying out--the State Department 
carrying out its diplomacy or carrying out its important role 
in trying to negotiate to a different course of action, to a 
different pathway, we need a strong deterrent in our hand. It 
is the old tenet of Teddy Roosevelt: ``Walk softly; carry a big 
stick.'' Well, even in diplomacy, it is useful to have a stick 
that is in your hand so that whether you use it or not becomes 
part of that conversation.
    Senator Cardin. I appreciate that. Let me ask one final 
question. I was meeting with Mr. Pruitt yesterday, and I asked 
him about his view of global leadership on climate issues, and 
he said you should ask that question to the Secretary of State 
nominee. So, I am going to ask it to you, and that is we were 
part of COP21. Do you agree that the United States should 
continue in international leadership on climate change issues 
with the international community?
    Mr. Tillerson. I think it is important that the United 
States maintain its seat at the table in the conversations 
around how to address the threats of climate change which do 
require a global response. No one country is going to solve 
this alone.
    Senator Cardin. Thank you.
    Senator Corker. Thank you. Senator Rubio.
    Senator Rubio. Welcome, Mr. Tillerson. Do you believe 
during the 2016 presidential campaign, Russian intelligence 
services directed a campaign of active measures involving the 
hacking of emails, the strategic leak of these emails, the use 
of internet trolls, and the dissemination of fake news with the 
goal of denigrating a presidential candidate and also 
undermining faith in our election process?
    Mr. Tillerson. Senator, I have--I have had no unclassified 
briefings because I have not received my clearance yet. 
However, I did read the interagency report that was released on 
January the 6th. That report clearly is troubling, and 
indicates that all of the actions you just described were 
undertaken.
    Senator Rubio. Based on your knowledge of Russian leaders 
and Russian politics, do you believe these activities could 
have happened without the knowledge and the consent of Vladimir 
Putin?
    Mr. Tillerson. I am not in a position to be able to make 
that determination. Again, that is indicated in the report, but 
I know there is additional classified information that might 
inform my views.
    Senator Rubio. Mr. Tillerson, you have engaged in 
significant business activities in Russia, so I am sure you are 
aware that very few things of a major proportion happen in that 
country without Vladimir Putin's permission. So, I ask, based 
on your views of Russian politics and your experience, is it 
possible for something like this involving the United States 
elections to have happened without Vladimir Putin knowing about 
it and authorizing it?
    Mr. Tillerson. I think that is a fair assumption.
    Senator Rubio. That he would have needed to.
    Mr. Tillerson. Yes.
    Senator Rubio. If Congress passed a bill imposing mandatory 
visa bans and asset freeze sanctions on persons who engage in 
significant activities undermining the cybersecurity of public 
or private infrastructure and democratic institutions in the 
United States, would you advise the President to sign it?
    Mr. Tillerson. I would certainly want to examine it, all 
the corners--all four corners of that.
    Senator Rubio. Well, those are the four corners. We would 
sanction people who are involved in cyberattacks against the 
United States and interfering in our elections.
    Mr. Tillerson. The threat of cyberattacks is a broad issue, 
and those are coming from many, many corners of the world. 
Certainly, this most recent manifestation, and I think the new 
threat posed in terms of how Russia has used this as a tool, 
that introduces even another element of threat. But 
cyberattacks are occurring from many nations.
    Senator Rubio. So, no matter where they come from. If they 
come from Belgium, if they come from France, I do not--if 
someone is conducting cyberattacks against the United States 
and we pass a law that authorizes the President to sanction 
them or actually imposes these sanctions as mandatory, would 
you advise the President to sign it?
    Mr. Tillerson. I think it is that second element, Senator, 
that you described that leaves the executive branch no 
latitudes or flexibility in dealing with the broad array of 
cyberthreats. I think it is important that those be dealt with 
on a country-by-county basis, taking all other elements into 
consideration in the relationship. So, giving the executive the 
tool is one thing. Requiring the executive to use it without 
any other considerations, I would have concerns about.
    Senator Rubio. So, Mr. Tillerson, if I understand your 
testimony, you are saying if it was mandatory, you would not be 
able to advise the President to sign it because you want to 
have the President--to have the flexibility to decide which 
countries to sanction and which ones to not sanction.
    Mr. Tillerson. Under which circumstances do you sanction.
    Senator Rubio. In essence, because you want to be able, for 
example, to take other things into account, like, for example, 
the desire to perhaps improve relations with that country. And, 
therefore, the President maybe does not want to sanction even 
though they are attacking us.
    Mr. Tillerson. There could be a whole array of important 
issues that require consideration, including trading issues, 
trade relation issues, mutual agreements around our national 
security. So, I do not think it is--I do not think it is 
appropriate, and certainly for me at this time, to indicate 
that I would just say that it is a blanket--a blanket 
application. I think that is the role of the--of the executive 
branch. It is the role of the Secretary of State and State 
Department to assist and inform the President in judgments 
about how to use what is a clearly powerful tool.
    Senator Rubio. Well, again, I mean, what is troubling about 
your answer is the implication that somehow if there is some 
country that we are trying to improve relations with or have 
significant economic ties with, the President--you may advise 
the President not to impose sanctions on that country, on 
individuals in that country, out of concern that it could 
damage our--the rest of our relationship with them on a 
cyberattack, which is a direct attack on our national security 
and our electoral process.
    So, let me ask you: would you advise the President-elect to 
repeal the Obama Administration's recent executive orders 
regarding cybersecurity and Russian interference in the 2016 
elections?
    Mr. Tillerson. I think the President-elect has indicated 
and, if confirmed, I would support, that what is really 
required is a comprehensive assessment of our cyberthreat and 
cybersecurity policies. In my view, based on what I have been 
able to read and have been briefed, we do not have a 
cybersecurity policy. We do not have a comprehensive strategy 
around how to deal with what has been a rapidly-emerging 
threat.
    Senator Rubio. But, Mr. Tillerson----
    Mr. Tillerson. And as I said, we are seeing it manifest 
itself in ways that we never envisioned.
    Senator Rubio. But, Mr. Tillerson, I understand the 
cybersecurity plan. We have to have one to protect ourselves 
and handle cyberattacks against our country. That is separate 
from the question of whether people that have already conducted 
attacks should be sanctioned and singled out.
    There is an executive order that is now active that has 
sanctioned those individuals. And my question is, do you 
believe that executive order should be repealed by the incoming 
President?
    Mr. Tillerson. If confirmed, Senator, I would want to 
examine it and all aspects of it in consultation not only with 
the President, but with other inter-agencies who are going to 
have input on this as to their views.
    Senator Rubio. Well, again, Mr. Tillerson, all the 
executive order says is that certain individuals responsible 
for cyber actions against the United States will be sanctioned. 
And you still need to examine whether that is a good idea or 
not. Is that correct?
    Mr. Tillerson. Yes, sir.
    Senator Rubio. Let me ask you this question. Is Vladimir 
Putin a war criminal?
    Mr. Tillerson. I would not use that term.
    Senator Rubio. Well, let me describe the situation in 
Aleppo, and perhaps that will help you reach that conclusion.
    In Aleppo, Mr. Putin has directed his military to conduct a 
devastating campaign. He has targeted schools, markets. Not 
just assisted the Syrians in doing it. His military has 
targeted schools, and markets, and other civilian 
infrastructure. It has resulted in the deaths of thousands of 
civilians.
    This is not the first time Mr. Putin is involved in 
campaigns of this kind. Back when he was just appointed prime 
minister before he was elected [to the presidency], and I am 
sure you are aware of that period of time, there was a series 
of bombings, and they blamed it on the Chechens. And Mr. Putin 
personally said that he would punish them, and so he ordered 
the air force to bomb the Chechen capital of Grozny.
    They used Scud missiles to hit hospitals, the city's main 
outdoor markets packed with shoppers. A hundred and thirty-
seven people died instantly. They used thermobaric and fuel air 
explosive bombs. These are the bombs that ignite, and they burn 
the air breathed in by people who are hiding in basements. They 
used cluster munitions. He used battlefield weapons against 
civilians. And when it was all said and done, an estimated 
300,000 civilians were killed, and the city was completely 
destroyed.
    By the way, there was a credible body of reporting, open 
source and others, that this was all--all those bombings were 
part of a black flag operation on the part of the FSB. And if 
you want to know the motivation, here is what it is: Putin's 
approval ratings before the attacks against the Chechens were 
at 31 percent. By mid-August of that year, it was at 78 percent 
in just three months.
    So, based on all this information and what is publicly in 
the record about what has happened in Aleppo and the Russian 
military, you are still not prepared to say that Vladimir Putin 
and his military have violated the rules of war and have 
conducted war crimes in Aleppo.
    Mr. Tillerson. Those are very, very serious charges to 
make, and I would want to have much more information before 
reaching a conclusion. I understand there is a body of record 
in the public domain. I am sure there is a body of record in 
the classified domain. And I think in order to--in order to 
deal with a serious question like this----
    Senator Rubio. Mr. Tillerson, what has happened in Aleppo 
is in the public domain.
    Mr. Tillerson. And I would want to be fully informed----
    Senator Rubio. The videos and the pictures of----
    Mr. Tillerson.--before advising the President.
    Senator Rubio. Well, I encourage you--there is so much 
information out there about what has happened in Aleppo, 
leaving the Chechen issue aside. What happened there is clearly 
documented as well. There is so much information out there.
    It should not be hard to say that Vladimir Putin's military 
has conducted war crimes in Aleppo because it is never 
acceptable, you would agree, for a military to specifically 
target civilians, which is what has happened there through the 
Russian military. And, you know, I find it discouraging your 
inability to cite that, which I think is globally accepted.
    I want to in my last minute and a half here move really 
quickly to an additional question. In fact, I want to enter two 
things into the record. Mr. Chairman, without objection?
    Senator Corker. Without objection.
    Senator Rubio. The first is a partial list of political 
dissidents, journalists, and critics of Vladimir Putin who were 
suspiciously murdered or died under highly suspicious 
circumstances.

    [The information referred to is located in Annex II, page 
407]

    Senator Rubio. The second thing I want to enter into the 
record is a letter addressed to this committee by Vladimir 
Kara-Murza, who himself was mysteriously poisoned and is an 
opponent of the Putin regime. I would like to enter that into 
the record.
    Senator Corker. Without objection.

    [The information referred to is located in Annex II, page 
413.]

    Senator Rubio. Mr. Tillerson, do you believe that Vladimir 
Putin and his cronies are responsible for ordering the murder 
of countless dissidents, journalists, and political opponents?
    Mr. Tillerson. I do not have sufficient information to make 
that claim.
    Senator Rubio. Are you aware that people who oppose 
Vladimir Putin wind up dead all over the world, poisoned, shot 
in the back of the head? And do you think that was 
coincidental, or do you think that it is quite possible or 
likely, as I believe, that they were part of an effort to 
murder his political opponents?
    Mr. Tillerson. Well, people who speak up for freedom in 
regimes that are oppressive are often at threat, and this--and 
these things happen to them. In terms of assigning specific 
responsibilities, I would have to have more information. As I 
indicated, I feel it is important that in advising the 
President, if confirmed, that I deal with facts, that I deal 
with sufficient information, which means having access to all 
information. And I am sure there is a large body of information 
that I have never seen that is in the classified realm.
    I look forward, if confirmed, to becoming fully informed. 
But I am not willing to make conclusions on what is only 
publicly available or have been publicly reported.
    Senator Rubio. None of this is classified, Mr. Tillerson. 
These people are dead. Political opponents are dead----
    Mr. Tillerson. Your question was--your question was people 
who are directly responsible for that. I am not disputing these 
people are dead.
    Senator Corker. Senator Menendez.
    Senator Menendez. Thank you. Mr. Tillerson, congratulations 
on your nomination. Thank you for coming by to meet with me. 
And I would like to take this opportunity to expand upon the 
conversation we had last week.
    Since you have worked in one sector for one company 
throughout your entire career, getting a sense of your world 
view is incredibly important since you will be the chief 
advocate and advisor to the President-elect on those issues. 
So, I would like to go through a series of questions. I think 
many of them can be and answered by a simple ``yes'' or ``no.'' 
Others will probably take a greater, more extensive answer, so. 
And you have alluded to some of this in your opening statement, 
so let me go through several of them.
    Do you believe it is in the national interest of the United 
States to continue to support international laws and norms that 
were established after World War II?
    Mr. Tillerson. Yes, sir.
    Senator Menendez. Do you believe that the international 
order includes respecting the territorial integrity of 
sovereign countries and the inviolability of their borders?
    Mr. Tillerson. Yes, sir.
    Senator Menendez. Did Russia violate this international 
order when it forcefully annexed Crimea and invaded Ukraine?
    Mr. Tillerson. Yes, it did.
    Senator Menendez. Did Russia's continuing occupation of 
foreign countries violate international laws and norms?
    Mr. Tillerson. I am not sure which specific countries you 
are referring to.
    Senator Menendez. Well, the annexation of Crimea, the----
    Mr. Tillerson. Yes, sir.
    Senator Menendez.--Eastern Ukraine, Georgia, just to 
mention a few.
    Mr. Tillerson. Yes, sir.
    Senator Menendez. Does Russia and Syria's targeted bombing 
campaign in Aleppo, on hospitals, for example, violate this 
international order?
    Mr. Tillerson. Yes, that is not acceptable behavior.
    Senator Menendez. Do you believe these actions constitute 
war crimes?
    Mr. Tillerson. Again, Senator, I am not--I do not have 
sufficient information to make that type of a serious 
conclusion. Coming to that conclusion is going to require me to 
have additional specific facts.
    Senator Menendez. Do you understand what the standard is 
for a war crime?
    Mr. Tillerson. I do.
    Senator Menendez. And knowing that standard and knowing 
what is all within the realm of public information, you cannot 
say whether those actions constitute a war crime or not.
    Mr. Tillerson. I would not want to rely solely upon what 
has been reported in the public realm. I would want 
confirmation from agencies who would be able to present me with 
indisputable facts.
    Senator Menendez. Well, all the----
    Senator Corker. Senator Menendez, if I could, let me ask a 
little----
    Senator Menendez. If you will not take my time, Mr. 
Chairman.
    Senator Corker. No, I am not taking your time. It will be 
added back. If you had sufficient evidence, though, in looking 
at classified information that had taken place, would that not 
be a war crime?
    Mr. Tillerson. Yes, sir.
    Senator Corker. Thank you.
    Senator Menendez. For all of these answers that you have 
given me, does the President-elect agree with you?
    Mr. Tillerson. The President-elect and I have not had the 
opportunity to discuss this specific issue or the specific 
area.
    Senator Menendez. Well, in your statement on page 3, you 
say, ``In his campaign, President-elect Trump proposed a bold, 
new commitment to advancing American interests in our foreign 
policy. I hope to explain what this approach means and how I 
would implement that policy if I am confirmed as Secretary of 
State.'' So, I assume to some degree that you have had some 
discussion about what it is that that world view is going to be 
in order to understand whether you are willing to execute that 
on behalf of the person you are going to work for.
    Mr. Tillerson. In a broad construct and in terms of the 
principles that are going to guide that, yes, sir.
    Senator Menendez. And I would have thought that Russia 
would be at the very top of that considering all the actions 
that are taking place. Did that not happen?
    Mr. Tillerson. That has not occurred yet, Senator.
    Senator Menendez. That's pretty amazing. You have built a 
career on ExxonMobil that you said afforded you the opportunity 
to engage regularly with world leaders, including Vladimir 
Putin in Russia. In 2013, he awarded you with the Order of 
Friendship Award, and in our conversations you told me you had 
direct and personal access to the Russian president over the 
course of your tenure there.
    Then in 2014, ExxonMobil lobbied aggressively against 
sanctions on Russia after their invasion of Ukraine. Exxon 
lobbied against the Stability and Democracy for Ukraine Act, 
which I introduced in the Senate last year. You employed well-
known Washington-based lobbyists to support these efforts. You 
personally visited the White House and reported that you were 
engaged ``at the highest levels of government.''
    In essence, Exxon became the in-house lobbyist for Russia 
against these sanctions. Sanctions are one of the most 
effective diplomatic tools in our arsenal, one we rely on to 
avoid putting American lives at risk by engaging in traditional 
kinetic warfare. Now, today in response to a previous question 
by Senator Cardin, you said sanctions are a powerful tool. But 
you have made statements and given speeches where you have said 
you do not believe sanctions are a useful tool.
    So, if sanctions are not a useful tool, have you changed 
your view? What are the tools of peaceful diplomacy you will 
use to get countries to return and act within the international 
order? What are you going to say to Vladimir Putin when he says 
to you, but, Rex, you said sanctions were bad?
    Mr. Tillerson. Now, Senator, I think it is important to 
acknowledge that when sanctions are imposed, they by their 
design are going to harm American business. That is, the idea 
is to disrupt America's business engagement in whatever country 
is being targeted for sanctions. And so, broadly----
    Senator Menendez. I do not think it is to disrupt American 
business. I think it is to disrupt the economies of those 
countries. Now, American business may or may not be affected to 
some degree.
    Mr. Tillerson. American business--if America is going to 
have an influence on disrupting those economies, and the intent 
behind the sanctions is to disrupt that country's access to 
American business, investment, money flows, technology----
    Senator Menendez. A lot of the financial sectors.
    Mr. Tillerson. Correct.
    Senator Menendez. Our financial sectors.
    Mr. Tillerson. So, by its very--and I am only stating a 
fact. I am not debating it. But the fact is sanctions, in order 
to be implemented, do impact American business interests.
    In protecting America's interest, and I think this is where 
the President-elect would see the argument as well, is 
sanctions are a powerful tool. Let us design them well, let us 
target them well, and then let us enforce them fully. And to 
the extent we can, if we can have other countries join us or if 
we are designing sanctions in concert, let us ensure those 
sanctions apply equally everywhere so that U.S. interests is 
not----
    Senator Menendez. Well, when you made your remarks, and I 
have a long list here, which I will introduce for the record--

    [The information referred to is located in Annex VIII, page 
541]

    Senator Menendez.--you did not differentiate that way. You 
basically made the broad case that sanctions are not an 
effective tool.
    Now, I heard your response now, but in your opening 
statement you said that, ``America must continue to display a 
commitment to personal liberty, human dignity, principles of 
action in our foreign policy,'' and that we are the only global 
superpower with the means and moral compass capable of shaping 
the world for good. I totally agree with you in that respect.
    But, Mr. Tillerson, our efforts in leading the 
international community, for example, on sanctions against our 
adversaries, like Iran and North Korea, represent exactly that, 
leadership and a moral compass. It is not about disadvantaging 
American businesses. It is about putting patriotism over 
profit.
    Diplomacy is not the same as deal making. Diplomacy 
requires getting other countries often to do things they may 
not always want to do, and there is not necessarily something 
to trade for it for. This is how we were able to build an 
extensive and effective sanctions network against Iran through 
legislation from Congress and diplomatic pressure from 
secretaries of state across different Administrations. We were 
able to build a framework of primary and secondary actions that 
ultimately crippled Iran's economy.
    Now, you lobbied against the comprehensive Iran Sanctions 
Accountability and Divestment Act, which I was the author of. 
You reportedly under ExxonMobil--and I say ``you,'' ExxonMobil, 
but you were the head of ExxonMobil--wanted to eliminate 
secondary sanctions that would prevent joint ventures. This 
makes sense as in 2003 and 2004 and 2005 you were engaged 
through a subsidiary company in businesses with countries who 
the United States listed as state sponsors of terrorism, 
including Iran, Syria, and the Sudan. Countries that, except 
for the maneuver of your subsidiary, ExxonMobil could not have 
been dealing with.
    ExxonMobil is listed as a coalition member of USA Engage, 
an advocacy group that lobbies against sanctions. This group 
also lobbied against sanctions, including against Iran, and 
applauded passage of the Joint Comprehensive Plan of Action.
    So, my question is with that as a history, with the work 
that you did in the spring of 2011, where you oversaw an 
ExxonMobil deal with the Kurdish regional government in Iraq, 
after the United States government expressly did not want to 
see that happen fearing that a deal would undermine the U.S. 
policy of one Iraq, and leave the country closer to civil war, 
what message are you now going to be able to send to American 
businesses who are intent on pursuing their own interests at 
the expense of U.S. policies and potential political stability 
in foreign countries? How are you going to recalibrate your 
priorities as Secretary of State? Your shareholders are the 
American people and their security and their interests.
    Mr. Tillerson. Well, there was a lot in that question, 
Senator----
    Senator Menendez. I will give you the rest of my time.
    Mr. Tillerson.--around which I could respond. First, I have 
never lobbied against sanctions personally. I continue to 
believe----
    Senator Menendez. But the company you directed did.
    Mr. Tillerson. To my knowledge, Exxon never directly 
lobbied against sanctions. Not to my knowledge. In terms of all 
the other actions that were--that were mentioned there, they 
have been with--they were all undertaken with a great deal of 
transparency, and openness, and engagement, and input to the 
process. That is--that is the beauty of American process is 
that others are invited to express their view and inform the 
process.
    But that--my pivot now, if confirmed to be Secretary of 
State, will have one mission only, and that is to represent the 
interests of the American people. And as I have stated multiple 
times, sanctions are an important and powerful tool, but 
designing poor sanctions and having poor and ineffective 
sanctions can have a worse effect than having no sanctions at 
all if they convey a weak response.
    So, it is important in designing sanctions that, as I have 
said, if they are carefully crafted, they are carefully 
targeted with a--with an intended effect, and then enforced. 
And to the extent American leadership then can broaden 
participation in those sanctions, and you are exactly right, 
the Iran sanctions were extraordinarily effective because 
others joined in.
    Senator Corker. Thank you. Senator Menendez has played an 
incredible role for our Nation, making sure that sanctions are 
in place, and has led us all, if you will, relative to Iran. 
And let the record say your time ran over to accommodate the 
interjection I made earlier.
    It is my understanding, and I think you have called me 
during this time, that your concern with the sanctions that 
were in place relative to Iran were not that they were put in 
place, but that the Europeans had put them in place in a way 
that was different and it caused adverse situation for U.S. 
business relative to European businesses. Is that correct?
    Mr. Tillerson. That was with respect to the sanctions for 
Russia. That is correct.
    Senator Corker. With that, and let me just on Senator 
Rubio's questions, I understand how a nominee would wish to be 
careful how they answer, especially one that plans to do what 
they say. In the event with many of those where he was asking 
about war crimes, if you are able through your own independent 
knowledge and working with classified agencies here within the 
government to determine that the types of activities that he so 
well articulated took place, you would agree that those, in 
fact, would be war crimes.
    Mr. Tillerson. Yes, sir.
    Senator Corker. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman. Well, welcome, 
Mr. Tillerson. I imagine you are having a pretty good time 
already.
    I want to pick up a little bit on sanctions because I have 
had my own legitimate concerns about the effectiveness of 
sanctions and their double-edged sword nature. For example, you 
are pretty well aware of events and the public opinion inside 
Russia. I am concerned that some not well-designed sanctions 
can actually solidify Vladimir Putin's standing within Russia. 
Is that a legitimate concern?
    Mr. Tillerson. Yes, sir, I think it is.
    Senator Johnson. In your testimony, you said ``Russia is 
not unpredictable,'' which is another way of saying that Russia 
is pretty predictable. You also said, ``Russia does not think 
like we do.'' Can you further expand on both those comments?
    Mr. Tillerson. Well, in terms of their--[Disturbance in 
hearing room.]
    Senator Corker. Bertie, if you would, I can easily add time 
myself, but if you would stop the clock when these kind of 
interferences take place, it would be appreciated. With that, 
Senator Johnson.
    Senator Johnson. If you forgot the question, it was to 
explain your comments that Russia is predictable basically, and 
that Russia does not think like we do. Expand on that.
    Mr. Tillerson. Well, in my experience of both dealing with 
Russia and representatives of Russian government and Russian 
entities, and then as my--the length of time I have spent in 
Russia as an observer, my experience with the Russians are that 
they are very calculating. They are very strategic in their 
thinking, and they develop a plan. [Disturbance in hearing 
room.]
    Senator Johnson. I apologize for that, Mr. Tillerson. Now, 
you can maybe answer the question unimpeded.
    Mr. Tillerson. Yeah. I have found the Russians to be very 
strategic in their thinking, very tactical, and they generally 
have a very clear plan that they have laid before them. And so, 
in terms of--when I make the statement they are not 
unpredictable, if one is able to step back and understand what 
their long-term motivation is and you see that they are going 
to chart a course, then it is an understanding of how are they 
likely to carry that plan out, and where are all of the 
elements of that plan that are on the table.
    And in my view, the leadership of Russia has a plan. It is 
a--it is a--it is a geographic plan that is in front of them, 
and they are taking actions to implement that plan. They are 
judging responses, and then they are making the next step in 
the plan based upon the response. And in that regard, they are 
not unpredictable. If you--if Russia does not receive an 
adequate response to an action, they will execute the next step 
of the plan.
    Senator Johnson. So, be a little more specific. Summarize 
that plan that you see that they have.
    Mr. Tillerson. Well, Russia, more than anything, wants to 
reestablish its role in the global world order. They have a 
view that following the breakup of the Soviet Union they were 
mistreated in some respects in the transition period. They 
believe they deserve a rightful role in the global world order 
because they are a nuclear power, and they are--they are 
searching as to how to establish that.
    And for most of the past 20-plus years since the demise of 
the Soviet Union, they were not in a position to assert that. 
They have spent all of these years developing the capability to 
do that, and I think that is now what we are witnessing is an 
assertion on their part in order to force a conversation about 
what is Russia's role in the global world order. And so, the 
steps being taken are simply to make that point, that Russia is 
here, Russia matters, and we are a force to be dealt with. And 
that is a fairly predictable course of action they are taking.
    I think the important conversation that we have to have 
with them is does Russia want to now and forever be an 
adversary of the United States. Do you want this to get worse, 
or does Russia desire a different relationship? We are not 
likely to ever be friends. I think as others have noted, our 
value systems are starkly different. We do not hold the same 
values.
    But I also know the Russian people because of having spent 
so many years in Russia. There is scope to define a different 
relationship that can bring down the temperature around the 
conflicts we have today, and these--and I think as Secretary 
Gates alluded to and as Secretary Nunn alluded to, both in 
their opening remarks, dialogue is critical so that these 
things do not spin out of control.
    We need to move Russia from being an adversary always to a 
partner at times, and on other issues we are going to be 
adversaries. It is not unlike my comments I made on China. At 
times China is friendly, and at times China is an adversary. 
But with Russia, engagement is necessary in order to define 
what is that relationship going to be, and then we will know 
how to chart our own plan of action to respond to that.
    Senator Johnson. In my mind, if I take the spectrum of 
America's relationships with different nations, you have 
friends and allies. You have friendly rivals. You have 
unfriendly adversaries. You have enemies. And right now, you 
are basically putting Russia in the unfriendly adversary 
category?
    Mr. Tillerson. Well, unfriendly to enemies. I think at this 
point, they clearly are in the--in the unfriendly adversary 
category. I hope they do not move to enemy because that would 
imply even more direct conflict with one another.
    Senator Johnson. But do you hold out much hope that we can 
move them into the friendly rival category? Maybe partners 
where we have mutual interests.
    Mr. Tillerson. Yeah, I--Senator, I tend to think of--that 
in three categories. There are our friends, there are our 
partners, and there are our adversaries. And at times, 
certainly our friends are partners from time to time on 
specific actions. Our adversaries from time to time can be 
partners, but on other issues we are just not going to agree, 
and so we remain adversaries. An adversary at the--at the 
ideological level is one thing. An adversary at the conflict 
level--direct conflict level--that is very different.
    Senator Johnson. Now, I want to switch subjects a little 
bit. I agree with former Senator Nunn when he said that your 
business experience, your private sector background, your 
relationship with Putin is actually an asset coming to this 
position. I come from the private sector. I think that kind of 
perspective is sorely needed. I do not think we have enough 
people from private sector.
    I think economic strength is inextricably linked to 
national strength. Your background traveling the world is 
extensive. I know I asked you when we met--I do not know if you 
ever did the calculation. How many different countries have you 
traveled to?
    Mr. Tillerson. I have never actually counted them up. I 
would say over 40--somewhere between 40 and 50. I have never 
actually counted them.
    Senator Johnson. How many countries have you actually done 
deals with--where you dealt with top leadership?
    Mr. Tillerson. I have never counted those, but it is 
certainly, you know, probably in the--between 10 and 20 where I 
have--was directly engaged in a significant way.
    Senator Johnson. Let me ask you, as somebody from the 
private sector being asked to serve your Nation, understanding 
you will be going through a process like this, understanding 
all the disclosure, leaving a life behind that I am sure you 
valued, what was your greatest reservation with saying yes?
    Mr. Tillerson. Senator, when I went through all of the 
analysis, all the reasons I had for saying no, which is your 
question, were all selfish reasons. So, I had no reason to say 
no.
    Senator Johnson. You obviously had a responsibility as the 
CEO of ExxonMobil--a fiduciary responsibility. Your role is 
going to change. Do you have any reservation, and can you 
describe exactly what your mindset is from making that 
transition?
    Mr. Tillerson. Senator, I have no reservations about my 
clean break with my private sector life. It was a wonderful 41-
and-a-half-year career. I am extraordinarily proud of it. I 
learned an awful lot. But now, I am moving to a completely 
different responsibility. My love of country and my patriotism 
is going to dictate that I serve no one's interest but that of 
the American people and advancing our own national security.
    Senator Johnson. As you have traveled the world with a 
business mindset working at developing projects around the 
world, obviously you hear from people around the world. Former 
President Carter in June of 2015 was commenting on President 
Obama's foreign policy, and here are some excerpts. He said he 
cannot think of many nations in the world where we have a 
better relationship now than when he took over--President 
Obama. ``United States' influence and prestige and respect in 
the world is probably lower now than it was six or seven years 
ago.''
    Is that your general sense as you have traveled around the 
world during the last eight years of this Administration, that 
our power, influence, prestige, respect is lower, that we have 
not developed better relationships around the world?
    Mr. Tillerson. Senator, I think--I do not remember if I 
shared it with you in the meeting we had been, but I know I 
shared it with others in meetings, that in many respects I have 
spent the last 10 years on an unintended listening tour as I 
have traveled about the world conducting affairs, engaging with 
the top leadership, heads of state in many of these countries. 
And I have had the opportunity to listen to them express their 
frustrations, their fears, their concerns as to the withdrawal 
and the stepping back of America's leadership, the lack of that 
engagement. And they are yearning and they want American 
leadership reasserted.
    And when I met with President-elect and we were meeting 
about his ultimately asking me to do this, I indicated to him, 
I said, Mr. President, we have got a tough hand of cards that 
you have been dealt, but I said, you know, there is no use in 
whining about. There is no use in complaining or pointing 
fingers at anyone. We are going to just play that hand out, 
because what I know is America still holds all the aces. We 
just need to draw them out of that deck, and that leaders 
around the world want our engagement. I said, you are going to 
be pushing on an open door because people want America to come 
back.
    Senator Johnson. One of the reasons I really value the 
private sector experience is in your opening statement. The 
number of times you used ``reality,'' ``clarity,'' ``moral 
leadership,'' ``moral clarity,'' ``moral lights,'' ``facts.'' 
You used ``logic,'' ``clear priorities.'' Those are the words 
of a business person. That is why I think your perspective will 
be very welcome in the State Department.
    Thank you, Mr. Tillerson. Thank you, Mr. Chairman.
    Senator Corker. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you, Mr. Tillerson, for being willing to consider 
the nomination, which has been put forward, to be Secretary of 
State.
    I agree with your opening statement that the United States 
has an important role to play in the world, not just standing 
up for our interests and values but also for democracy, for 
press freedom, for human rights, for rule of law.
    You were unwilling to agree with Senator Rubio's 
characterization of Vladimir Putin as a war criminal, and you 
point out in your statement that Russia has disregarded 
American interests. I would suggest, as I think has been 
brought out in later testimony, that not only has it 
disregarded American interests but international norms and 
humanitarian interests.
    The State Department has described Russia as having an 
authoritarian political system dominated by President Vladimir 
Putin. Meanwhile, Freedom House currently puts Russia in a 
category of countries like Iran with very restricted political 
rights ruled by one part, or military dictatorships, religious 
hierarchies, or autocrats.
    Do you agree with that characterization of Russia and 
Vladimir Putin?
    Mr. Tillerson. I would have no reason to take exception.
    Senator Shaheen. Senator Rubio and Senator Cardin both 
talked about some of those people who have been victims of the 
Putin authoritarian regime in Russia. And behind me is a poster 
with a recent New York Times story. I quote, ``More of 
Kremlin's Opponents Are Ending Up Dead.''
    I would like to ask unanimous consent, Mr. Chairman, to 
enter the article into the record.
    Senator Corker. Without objection.

    [The information referred to is located in Annex V, page 
485.]

    Senator Shaheen. I think a picture is always worth a 
thousand words, and when you put a face to Sergei Magnitsky, as 
this poster does, and see two other victims of the 
authoritarian regime in Russia, I think it speaks to what is 
happening there and how we should think about the country and 
dealing with President Putin.
    So I understand what Senator Nunn said, I mean former 
Senator Nunn, and Secretary Gates said when they talked about 
the need to have dialogue with Russia and to continue a mil-to-
mil relationship, but I also think it is important for us to 
understand who we are dealing with.
    In 2008, you notably said that there is no respect for the 
rule of law in Russia today. Do you think that continues to be 
true?
    Mr. Tillerson. That is still the case, yes.
    Senator Shaheen. So I think you can probably understand, 
Mr. Tillerson, why some of us are very concerned about the 
President-elect's statements praising Vladimir Putin's 
leadership, his intelligence, including after being reminded of 
his ruthless persecution of political enemies and after 
receiving compelling information that Russia has interfered 
with our elections.
    So do you think now is the right time to lift sanctions 
against Russia?
    Mr. Tillerson. I think it is important that we keep the 
status quo until we are able to develop what our approach is 
going to be, that it will be all part of the approach. That is, 
part of the incentives on the one hand, or part of the greater 
pressure on the other, that will be an important element of 
developing that approach of that first conversation with 
Russia.
    If confirmed, that is the foreign policy step that I will 
be working through other inter-agencies, again, informed in the 
National Security Council with classified information as well 
as being informed by the views of others to develop that 
strategic approach to engagement with Russia.
    So I would leave things in the status quo so that we are 
able to convey this can go either way.
    Senator Shaheen. Under your leadership, ExxonMobil has 
invested more than $100 million in its global Women's Economic 
Opportunity Initiative, partnering with the U.S. Government and 
foreign governments. As you know, the State Department also 
places a high priority on global women's empowerment, on gender 
equity, on combating violence against women.
    I was very disturbed when there was a request from the 
Trump transition team to find out who the employees within the 
State Department have been who have worked on gender equity 
programs. And while I know that has been walked back by that 
transition team, I still think it sends a chilling message to 
people in the State Department and to people concerned about 
efforts to empower women around the globe.
    So can I ask whether you agree that we should continue that 
initiative to empower women and what steps you would take to 
ensure that the State Department and USAID continue to fund 
necessary programs to address global women's issues?
    Mr. Tillerson. Senator, this is an issue that has long been 
important to me personally as well. I have seen firsthand the 
impact of empowering women, particularly empowering women's 
participation in economic activities in the lesser developed 
part of the world.
    I know this is a really important area to you, and we 
talked about it in your office. And there are study after study 
to confirm that when you empower women in these developing 
parts of the world, you change the future of the country 
because you change the cycle within that family. Whether that 
woman has daughters or sons, when you empower the woman, and 
they see them participating at an economic level, it changes 
the way they will view things as they grow.
    I have seen specific examples and visited projects in Papua 
New Guinea, which allowed women to participate by forming a 
coalition of bread bakers. It takes very little money. These 
are women that want the opportunity. What they need is the 
wherewithal and some structure to guide them around how to 
conduct a small business.
    Interesting in that example, when the women began to be 
successful selling their bread in villages all up and down the 
trails in the jungle, their next concern when they came to our 
folks was, ``We have all this money, and we are having to hide 
it all over the place, and we are worried somebody is going to 
steal it. What do we do?'' They were introduced to banking and 
were assisted with opening a bank account in the capital.
    This is just an example, though. Think about someone who 
starts with nothing, does not even know what a bank is, and, 
all of a sudden, now they have a bank account. That will change 
their children, and it will change the cycle within that area.
    So these are extraordinarily powerful programs.
    Senator Shaheen. I certainly agree with that. And does that 
mean that you will commit to continuing those programs, if you 
are confirmed as Secretary of State?
    Mr. Tillerson. Yes. I think it is an important part of all 
of our foreign aid assistance efforts, whether it is the USAID 
or whether it is through other opportunities we have in more 
structured ways.
    Senator Shaheen. Thank you.
    Under your leadership in 2012, ExxonMobil's foundation also 
helped develop a roadmap for promoting women's economic 
empowerment that specifically cited access to family planning 
and reproductive health services as a means to improve 
productivity and earning potential for women. You and I also 
served, as we discussed, in 2010 on the Center for Strategic 
and International Studies' Commission on Smart Global Health 
Policy, which also advocated for expanded access to family 
planning services.
    Will you pledge to continue to prioritize quality family 
planning and reproductive health services for women worldwide, 
and ensure that resources and access to these programs are not 
conflated with support for abortion?
    Mr. Tillerson. Senator, there are statutory requirements in 
place around the foreign aid. They are well-known I know to 
yourself and to myself as well. As I understand it, we 
currently invest a little bit or something around a half 
billion dollars a year in programs directed at family planning 
through foreign assistance, and I think that is an important 
level of support.
    Senator Shaheen. So do I take that as a yes?
    Mr. Tillerson. Well, I would want to, if confirmed, and I 
have the opportunity to examine all of the aspects of that 
program. I just am just aware that we do spend about a half 
billion dollars now.
    Senator Shaheen. Well, as you know, if the approximately 
225 million women worldwide with unmet family planning needs 
had access to modern methods of contraception, we would see 52 
million fewer unintended pregnancies, resulting in 600,000 
fewer stillbirths, 6 million fewer miscarriages, and 15 million 
fewer unsafe abortions.
    So I would attest that this is not only a humanitarian 
value that we should support but also an economic one.
    And I am almost out of time, but I just want to go back to 
Russia for a brief moment, because as you talk about the 
potential to work with them, one of those areas that we have 
been successful on is the new START treaty back in 2010, which 
this committee supported and the Senate supported, which 
ensures that Russians have to reduce their nuclear warheads and 
delivery vehicles. And it has given us more access to onsite 
inspections.
    Do you believe that continuing to support those efforts is 
important for us?
    Mr. Tillerson. Yes, Senator. I think, again, this is an 
area where we have to stay engaged with Russia, hold them 
accountable to commitments made under the new START, and also 
ensure that we are in a position to meet our accountability as 
well.
    Senator Shaheen. Thank you.
    Senator Corker. Thank you.
    Senator Flake.
    Senator Flake. Thank you.
    Thank you for your testimony, and thank you for your 
willingness to serve. It is a difficult thing to put your 
family through and everything else, so I want you to know how 
much we appreciate that.
    In your opening testimony, you talked about this war on 
ISIS, that it will take a while. That is the implication I get 
from what you wrote, and I think that is certainly true.
    In Congress here, we rarely declare war these days, but we 
do authorize the use of military force or pass so-called AUMF. 
We have not passed one yet with regard to ISIS. We are still 
working under an ill-fitting 2001 AUMF with regard to Al Qaeda 
and Afghanistan.
    Senator Kaine and I have offered a bipartisan AUMF to deal 
with Al Qaeda--I am sorry, with ISIS. And we think that it 
certainly helps to have congressional buy-in, that our allies 
certainly deserve to know where we are, and our adversaries 
need to know.
    What are your thoughts with regard to an AUMF specifically 
regarding ISIS?
    Mr. Tillerson. Well, I think the President-elect in broad 
terms indicated during his campaign and in comments made in 
other instances that he believes it is important that we not 
just lightly go into these conflicts, that he would seek the 
engagement of Congress and the support of Congress in some 
means, whether it is through a sense of the Congress or 
specific legislation.
    And I would not disagree with your characterization that it 
is much more powerful when the U.S. shows up with everyone 
aligned, and I think having the support of the Congress 
standing behind those decisions to commit U.S. men and women, 
U.S. military resources, does give us a much stronger position 
to engage with allies in building those alliances that are 
important.
    And in the case of defeating ISIS, that is one of the first 
actions that is going to be necessary, to reengage with our 
allies in the area and ensure that we know what they are 
willing to commit as well.
    So, yes, I would strongly support engaging, certainly at 
the minimum with this committee, and ultimately if legislative 
action would support our efforts to defeat ISIS, I would be 
certainly talking to the President about that.
    Senator Flake. That certainly would be welcomed here. What 
we do not want to see--I do not want to speak for my colleagues 
certainly, but what I would not like to see is what we saw 
after the promise and the drawing of the red line, which you 
mentioned in your testimony. When you draw a red line, you said 
we sent weak or mixed signals with red lines that turned into 
green lights. I think that is certainly the case.
    But what happened with the last administration is that red 
line was drawn, but rather than enforce that red line when it 
was crossed, the administration came to Congress to ask 
permission. And we always enjoy the administration coming to 
us, but when you draw a red line, enforce it. The War Powers 
Act allows 60 days, and that is what I think we--that kind of 
collaboration with Congress is using us as a crutch rather than 
an ally in this battle.
    Mr. Tillerson. I take the point.
    Senator Flake. With regard to Cuba, you mentioned that 
their leaders under the new arrangement we have for diplomatic 
relations and loosened travel restrictions, I believe you are 
referring to, ``Their leaders received much while their people 
have received little. This serves neither the interests of 
Cubans or Americans.''
    I would encourage you in the coming weeks and months to 
look at what has happened in Cuba. Certainly, I think the 
government is no less repressive with regard to dissidents that 
is still going on. But when President Obama allowed American--
Cuban-Americans, in particular--to travel unfettered to Cuba 
and lifted caps on remittances, it allowed Cubans who had 
previously worked for the government in Cuba to engage in 
private sector activity.
    And from virtually no private sector employment in Cuba, we 
have gone to about 25 percent of the Cuban work force in the 
private sector. And I would submit that they enjoy now a 
measure of economic freedom and political freedom that they did 
not before.
    So I think that has benefited the Cuban people and will 
continue to, if we continue the approach that we have now 
taken.
    And I do share your aversion to sanctions, particularly 
those that are not multilateral. I think we have seen that in 
spades in Cuba over the years, where it was only the U.S. who 
employed sanctions, and then sanctions that were not 
comprehensive and did not mean that much other than giving the 
regime there a convenient excuse for the failure of socialism.
    So I would encourage you in the next couple weeks to look 
at what has happened in Cuba with regard to our new policy.
    With regard to Africa, we had a good discussion in my 
office. You at ExxonMobil had dealt with Africa a lot.
    Let us talk about soft diplomacy for a while. We have a lot 
of programs through USAID all over the continent. As you have 
viewed those programs, in addition to what ExxonMobil has done 
in the corporate governance area, what works and what does not? 
How can we refashion some of our policies to nudge countries 
toward democracy that need nudging, or that punish countries 
where it deems fit, or encourage cooperation with us on 
security measures or humanitarian measures?
    Mr. Tillerson. Well, certainly, the use of important USAID 
assistance really falls in kind of two broad areas, disaster 
relief, addressing imminent situations on the ground where 
there is starvation, or the result of storms or the result of 
conflict, providing assistance to relieve immediate suffering. 
That is an important part of USAID.
    Over the past few years, in looking at the balance of that 
against what I would call development assistance, which is 
designed to create change, which hopefully becomes a 
sustainable change, regrettably, the disaster assistance part 
of that budget has grown, and that means there is less 
available for development.
    Other important ways in which we can provide assistance 
though are through other mechanisms such as Millennium 
Challenge Corporation for those countries that qualify. That is 
a different model.
    So I think, in terms of what is the issue we are trying to 
address, that then conditions how do we put obligations on the 
country then to modify behaviors, whether it is to take steps 
to reduce corruption, improve the strength of governments and 
their own institutional capacity to manage their affairs.
    Where I have seen good progress is when assistance was put 
into the country with some requirement that, for instance, they 
modify or streamline their permitting process. One of the ways 
to begin to reduce corruption is to remove the complexities of 
how people are able to carry out their activities. The more 
steps you have in the process, the more opportunities there are 
for people to be taking something out of it or adding a cost to 
it.
    So I know there are examples where governments have been 
required to simplify the simple thing of a citizen going down 
and getting a driver's license or the citizen getting a permit 
to buy an automobile or piece of equipment. It only goes to one 
place. You can shine a bright light on that, and it is easy to 
follow the money, as they say. And that in and of itself can be 
very effective in beginning to change the behaviors within some 
of these developing countries.
    So I think where we can tie our assistance to obligations, 
it is important that we do so, and then able to follow up. And 
again, we have I think it is--every country's issues need to be 
examined on a case-by-case basis and then try to target and 
design assistance to advance America's values and help that 
country continue its journey along better governance.
    But in some cases, if it is disaster relief, that is hard 
to do, because it is hard to start feeding starving people and 
then, when the host government is not meeting its obligations, 
we suddenly are going to stop feeding starving people. Those 
are very difficult choices to make, and I understand and 
appreciate that.
    Senator Flake. We had talked in our office about some of 
the programs like PEPFAR. Can you talk about how that has 
helped our situation and what you have observed in Africa in 
terms of goodwill?
    Mr. Tillerson. Well, PEPFAR I think clearly has been one of 
the most extraordinarily successful programs in Africa. I saw 
it up close and personal because ExxonMobil had taken on the 
challenge of eradicating malaria because of business activities 
in Central Africa where malaria is quite prevalent, and worked 
with competent NGOs, some of which were receiving funding 
through PEPFAR, some through other agencies, along with other 
public-private partnerships.
    So eradicating malaria, there has been a great deal of 
progress made. That is where I saw it up close and personal.
    But I know that PEPFAR broadly has brought so much goodwill 
from Africa, recognition of the goodwill and the compassionate 
nature of the American people. It is probably one of the best 
projections of the American goodwill and compassion into the 
continent that I think you will find anywhere, broadly 
recognized by leaders, but more importantly, broadly recognized 
by those it touches.
    Senator Flake. Thank you.
    Senator Corker. Thank you so much.
    Senator Udall.
    Senator Udall. Thank you so much, Mr. Chairman, and you and 
the ranking member, for working so carefully with us to get 
this organized in such a good fashion.
    Mr. Tillerson, let me, first of all, just thank you very 
much for your visit to my office and us being able to exchange 
ideas and discuss how you want to approach things as the 
incoming Secretary of State, if you are approved.
    And I want to thank so much your family for being here. It 
is always wonderful to see family, Brenda and brothers and 
sisters, and so that is a very good start, I believe.
    You know, Exxon has done and continues to do business in 
various countries in the world that are very problematic to the 
U.S., and you have mentioned that a little bit here. And in 
some cases, some of those countries are just outright hostile.
    We now know Exxon did business in Iran, and Iran's regime 
has supported terrorist attacks against Americans. Exxon has a 
massive oil interest in Russia, which has recently acted to 
undermine our elections and civil society. And, of course, 
Exxon also has a history of major political contributions and a 
large Washington lobbyist presence.
    Would you permit Exxon to lobby the State Department under 
your leadership?
    Mr. Tillerson. Well, Senator, as to any issues involving 
ExxonMobil that might come before me, if confirmed as Secretary 
of State, I would recuse myself from those issues.
    Senator Udall. And would you take phone calls from the new 
CEO about foreign matters or any interests they had around the 
world that were within the jurisdiction of the State 
Department?
    Mr. Tillerson. I would not extend to the new chairman and 
CEO of ExxonMobil any courtesies beyond that which I would 
extend to anyone.
    Senator Udall. So are you saying you would take calls and 
visit with the CEO? I mean, I am trying to understand----
    Mr. Tillerson. Yes, it would be----
    Senator Udall.--what kind of limits you are going to put on 
yourself in terms of dealing with your company and employees.
    I know that you have made a clean break in terms of the 
ethics agreements and things like that, but give us an 
understanding of the policy that you are going to follow, if 
you are approved, as to how you are going to deal with these 
situations.
    I mean, there are many countries, as you know, in the world 
where--to give you an example, Australia, Equatorial Guinea, 
Malaysia, Nigeria, Qatar, Russia, and the United Kingdom, Exxon 
right now is asking for tax dollars back from those. And if you 
are carrying out foreign policy in those countries, how are you 
going to deal with that situation, in terms of contact with 
Exxon, with your former colleagues, in that kind of situation?
    Mr. Tillerson. Well, let me start with where you began, in 
terms of taking phone calls. I would not expect that I will be 
taking phone calls from any business leaders. In my prior role, 
I never called on the Secretary of State directly. I called on 
the Deputy often, or the Missions, primarily the Ambassadors.
    So whether I will take phone calls from anyone is subject 
to the question itself.
    As to how I would deal with the past history I have in my 
prior position with ExxonMobil, I have made clear in my 
disclosures, and I think in answers to questions that have been 
posed, that obviously there is a statutory recusal period, 
which I will adhere to on any matters that might come before 
the State Department that deal directly and specifically with 
ExxonMobil.
    Beyond that, though, in terms of broader issues dealing 
with the fact that it might involve the oil and natural gas 
industry itself, the scope of that is such that I would not 
expect to have to recuse myself.
    In any instance where there is any question or even the 
appearance, I would expect to seek the guidance of counsel from 
the Office of Ethics in the State Department and will follow 
their guidance as to whether it is an issue that I should 
recuse myself from.
    Senator Udall. Thank you very much for that answer.
    And I was very heartened by some of the exchange we had in 
my office with regard to climate change. As you know, climate 
change has been expressed as a serious national security 
concern--sea levels rising, threatened Navy bases. We have crop 
disruption and water shortages all over the world, and in my 
State of New Mexico, and other natural disasters that I think 
are going to threaten the stability of many developing 
countries.
    During the transition, some departments have been asked to 
name individuals involved in climate policy who attended 
international climate meetings, which made many Federal 
employees concerned about a witch-hunt against civil servants 
involved in climate policy.
    Do you plan or would you support any efforts to persecute, 
sideline, or otherwise retaliate against career State 
Department employees who have worked on climate change in the 
past?
    Mr. Tillerson. No, sir. That would be a pretty unhelpful 
way to get started. [Laughter.]
    Senator Udall. Well, that is--I like that answer.
    While you were CEO of Exxon, the company Web site stated, 
and I quote here, ``The risk of climate change is clear, and 
the risk warrants action. Increasing carbon emissions in the 
atmosphere are having a warming effect. There is a broad 
scientific and policy consensus that action must be taken to 
further quantify and assess the risk.'' And that is the end of 
the quote on your Web site.
    I understand that, if confirmed, you will be serving under 
President-elect Trump, but do you still personally stand by 
this statement today, yes or no?
    Mr. Tillerson. I do not take exception to that statement. I 
might articulate it a little differently as to my personal 
views.
    But the President-elect has invited my views on climate 
change. He has asked for them. He knows that I am on the public 
record with my views. And I look forward to providing those, if 
confirmed, to him in discussions around how the U.S. should 
conduct its policies in this area.
    Ultimately, the President-elect, he was elected, and I will 
carry out his policies in order to be as successful as 
possible.
    But I think it is important to note that he has asked, and 
I feel free to express those views.
    Senator Udall. Thank you.
    During our meeting, you expressed support for a carbon tax 
as one preferred measure to address issues of climate change. 
Will you continue to work with the Congress on this complex 
issue and to make this a priority in the State Department, if 
you are confirmed?
    Mr. Tillerson. Well, when it gets to tax policy, that is 
going to be the responsibility of other agencies to conduct. My 
role at State would be only to deal with those issues that are 
relevant to treaties or international accords that we have 
entered into, in terms of our continued compliance with those, 
participation in those. And so that would be the area that I 
will be most engaged in.
    Senator Udall. And my understanding, in the discussion with 
you in my office, and I think you said you were going to talk 
about this publicly if you were asked questions, you came to 
the carbon tax conclusion doing a very thorough analysis of 
everything that was out there, whatever was trying to bring 
down carbon emissions, you looked at everything and then you 
concluded the best recommendation was to move forward with a 
carbon tax. Is that correct?
    Mr. Tillerson. The analysis that I went through, which was 
largely informed by a number of studies, economic studies by 
academic institutions and others, was during the time that the 
Congress was debating the cap and trade approach, which in my 
view had not produced the result that everyone wanted in 
Europe. So we had a working model in Europe that we had been 
watching, and ExxonMobil had been participating in that model.
    The debate around a cap and trade as being the option 
versus something else is what stimulated the question for me 
of, ``Well, if this is not working, what might?'' So that began 
the investigation of other alternatives.
    One of the important elements of even considering something 
like that as a solution, though, are two other aspects. And one 
is that it replaces the hodgepodge of approaches we have today, 
which are scattered and some of which are through mandates, 
some of which are through well-intended but ineffective 
incentives.
    So let us simplify the system. This is the one and only 
effort we are going to undertake to begin to try to influence 
people's choices.
    And then the second qualifier I have always placed on it 
is, revenues from--if a carbon tax were put in place, it has to 
be revenue neutral. All the revenues go back out into the 
economy through either reduced employee payroll taxes, because 
there will be impacts on jobs, so let us mitigate that by 
reducing the impact by putting it back into the economy, so 
none of the money is held in the Federal Treasury for other 
purposes. This is simply a mechanism to incentivize choices 
people are making. It is not a revenue raiser.
    Senator Udall. Thank you very much, Mr. Tillerson.
    Senator Corker. Mr. Tillerson, if I could, Senator Udall 
did an outstanding job of teasing this out. The one thing that 
was not stated, though, would you succinctly state your 
position, your personal position, as it relates to climate 
change?
    Mr. Tillerson. I came to my personal position over about 20 
years as an engineer and a scientist understanding the 
evolution of the science. I came to the conclusion a few years 
ago that the risk of climate change does exist and that the 
consequences of it could be serious enough that action should 
be taken.
    The type of action seems to be where the largest areas of 
debate exist in the public discourse. I think it is important 
to recognize the U.S. has done a pretty good job----
    Senator Corker. This is not quite as succinct as I was 
hoping. [Laughter.]
    Would you--it is my understanding that you believe----
    Senator Udall. I think we should let him finish, Mr. 
Chairman.
    Senator Corker. --you believe that human activity, based on 
your belief in science, is contributing to climate change?
    Mr. Tillerson. The increase in the greenhouse gas 
concentrations in the atmosphere are having an effect. Our 
ability to predict that effect is very limited.
    Senator Corker. Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman.
    And thank you, Mr. Tillerson, for your service, or hopeful 
service to the country. And to your family, thank you as well 
to your commitment, because if confirmed, this is a sacrifice 
for you as well. So I thank you for your willingness to serve 
our Nation, should that be the will of the Senate.
    In your opening statement, you talk about what I believe is 
the idea of America: liberty, prosperity, security, that we 
live in a Nation founded on liberty, maintaining liberty 
through security, and growing the prosperity of the American 
people.
    Periods of history, whether it is the Industrial Revolution 
or whether it was the Civil War, World War I, Depression, World 
War II, the time period afterward, was not just a year or 2 or 
3 in time but a generational, if not more, definition and 
changing lives, impacting our children. And the moment we are 
in today, the changes we have seen around the globe, the 
changes in technology, changes in stability, will greatly 
impact the lives of our children, my children, your children.
    So I believe that engagement with the world matters, and 
that U.S. engagement matters greatly. And you would agree with 
that assessment, correct?
    Mr. Tillerson. Yes, sir. I would.
    Senator Gardner. This is not a time for the U.S. to shrink 
from the world or to shrink from that engagement. Is that 
correct?
    Mr. Tillerson. That is correct, Senator. As I indicated in 
my opening remarks, that is what has been absent, is U.S. 
leadership.
    Senator Gardner. And that U.S. values matter, Western 
values matter, that we build and continue to build upon those 
international norms that have made this country great, those 
ideas of liberty, security, prosperity.
    Mr. Tillerson. Yes, sir. We are the only country able to 
project that with authority.
    Senator Gardner. One of the things that I find so 
interesting about this committee and the work that we do has 
been the opportunity to lead around the globe with diplomacy 
and the will of good people of this country, and not just 
defense. Would you agree with that?
    Mr. Tillerson. Yes, sir.
    Senator Gardner. And that we will use force when necessary, 
and we should never back away from the obligation to use force 
where necessary, correct?
    Mr. Tillerson. Yes. I know that everyone understands that 
is the least attractive option.
    Senator Gardner. And that we must leave no doubt in the 
minds of our alliances the willingness and the commitment of 
the United States to both use the diplomacy and force where 
necessary to achieve the goals of that alliance?
    Mr. Tillerson. Diplomacy will be ineffective if it is not 
backed up by the threat of force.
    Senator Gardner. Mr. Tillerson, North Korea has developed a 
series of nuclear capabilities that pose a significant threat 
to the United States trying to develop those capabilities, the 
United States, our allies, and to the region.
    Last Congress, Senator Menendez and I helped lead--did lead 
the North Korea Sanctions and Policy Enhancement Act, which 
passed the Senate, signed into law by the President, a 
unanimous vote, and it abandoned this administration's failed 
policy of strategic patience.
    The legislation is the first standalone sanction 
legislation on North Korea, mandated sanctions on those who 
assist Pyongyang's proliferation activities, human rights 
violations, and its malicious cyber efforts.
    Do you intend, if confirmed, to fulfill all mandatory 
sanction requirements of this sanctions act?
    Mr. Tillerson. Yes. Yes, I would, Senator. In fact, that is 
the issue with North Korea, is we have failed to enforce 
existing sanctions regimes, including that which is overseen by 
the United Nations.
    Senator Gardner. I want to get into that a little bit more. 
And your plan obviously as it relates to North Korea. Our 
actions toward North Korea depend greatly on South Korea, 
Japan, our relationship with those two nations. How do we 
bolster the relationship between the United States, South 
Korea, and Japan?
    Mr. Tillerson. It starts with our friends and allies, and 
that is South Korea and Japan, ensuring that we are completely 
aligned on our commitment to enforce these sanctions.
    Senator Gardner. And the alliance that we have with South 
Korea will be strengthened under President-elect Trump's 
administration. Is that correct?
    Mr. Tillerson. That would be my expectation, yes, sir.
    Senator Gardner. And one of the keys, of course, to success 
with North Korea's peaceful denuclearization is China. Are you 
willing to exert additional pressure on North Korea through 
China, including additional U.N. Security Council resolutions 
and pushing China to do more to enforce these resolutions as it 
relates to North Korea?
    Mr. Tillerson. As indicated, I think a lot of our troubles 
today are that we do not enforce--we make commitments, we say 
we are going to do something, and then we do not enforce it. 
And that is, again, a mixed message that I think has been sent 
in the case of North Korea and our expectations of China.
    I think we have to be clear-eyed as to how far China will 
go and not get overly optimistic as to how far they will go. 
And that is why, ultimately, it is going to require a new 
approach with China in order for China to understand our 
expectations of them going beyond certainly what they have in 
the past, which has fallen short.
    Senator Gardner. If you look at the North Korean economy, a 
tremendous amount of it exists and relies upon China, and China 
has not, as a result, enforced the sanctions allowing them to 
continue proliferation activities through the dollars earned 
with the transactions through activities that otherwise would 
have been subject to sanctions.
    Would you support secondary sanctions against Chinese 
entities, if found and confirmed to have violated U.N. 
resolution agreements they have entered into?
    Mr. Tillerson. Ninety percent of North Korea's trade is 
with China, so, to your point, they are solely dependent on 
Chinese trade. To the extent that there are specific violations 
of the sanctions, such as the purchase of coal, which is 
specifically mentioned in the U.N. sanctions most recently, if 
there are gaps of enforcement, they have to be enforced. If 
China is not going to comply with those U.N. sanctions, then it 
is appropriate for the United States to consider actions to 
compel them to comply.
    Senator Gardner. And how do you intend to lead U.S. 
multilateral efforts, multinational efforts, multilateral 
efforts, to peacefully disarm Pyongyang?
    Mr. Tillerson. It is going to be I think a long-term plan 
and it starts with, again, designing the sanctions and 
enforcing the sanctions to close gaps that exist. And you have 
already highlighted that there are gaps in those sanctions 
today that are undermining their effectiveness. So it is a 
question of closing those gaps where it is appropriate to seek 
further steps against those who are not fully complying with 
those sanctions and revisiting are there other ways and other 
areas where we can close off access by North Korea to resources 
that allow them to continue to develop their nuclear 
capabilities.
    It is looking at all of that approach as to what is still 
there, what can we--how can we put additional pressure on them 
to deny them the capability to continue to advance not just the 
development but the delivery systems, which is where the 
greatest threat exists today.
    Senator Gardner. Mr. Tillerson, last Congress, for the 
first time, this committee added cybersecurity to its 
jurisdiction, and I chaired the Subcommittee on East Asia, the 
Pacific and International Cybersecurity Policy.
    As part of that effort, we held a number of hearings that 
were exclusively devoted to international cybersecurity and 
mandated that the State Department produce a long-overdue 
policy on the outgoing administration's international 
cybersecurity policies.
    The North Korea bill that we passed also includes, as I 
mentioned, mandatory cyber sanctions for the first time that 
any legislation has done so. I have supported, as others have 
on this committee, the idea of creating in Congress a 
standalone, permanent committee on cybersecurity, so that we 
have a whole-of-government view of how to address our cyber-
policy concerns and needs from the standpoint of the commercial 
sector to the standpoint of national security needs. I believe 
that is something that we should do.
    How will you prioritize cybersecurity at the State 
Department?
    Mr. Tillerson. Well, if confirmed, as I indicated, the 
imminent threat today is ISIS, and I highlighted that in my 
remarks. But probably the greatest and most complex threat we 
are facing today is in the area of cybersecurity.
    Certainly, the U.S. has significant capabilities of its 
own, but we also are extraordinarily vulnerable, partly because 
we have not maintained our own IT infrastructure. We have not 
built sufficient defensive mechanisms to protect not just 
government sites and government information but important 
infrastructure and, in some cases, important private sector 
from attack as well.
    It is important that we put in place once and for all a 
comprehensive strategy for dealing with cybersecurity and cyber 
threats that includes what are appropriate norms for behavior, 
appropriate use of cyber information, and what is and what 
would be an acceptable response when nations violate those 
norms.
    I think the U.S. has to lead in this area because no one is 
doing it. So this is an area where it is going to require a lot 
of interagency engagement from all of the--from Commerce to the 
Defense Department to the Intelligence Community of how do we 
construct a thoughtful approach to cybersecurity and a 
thoughtful approach to what are going to be the norms.
    And then I think we engage with our friends and allies 
first, and we establish what those norms are going to be and 
build out the international support for those, so that when 
these attacks happen, we are not struggling with what is an 
appropriate response, how far should we go? This will be the 
accepted norms.
    It is a complicated issue. It has a lot of aspects to it 
that have to be carefully considered. But we cannot delay 
beginning to develop this comprehensive approach.
    Senator Gardner. And do you believe the issue of 
cybersecurity, cyber policy, should be elevated within the 
State Department, perhaps even toward an ambassadorial-level 
position?
    Mr. Tillerson. I think that could be part of the outcome of 
a comprehensive assessment of what is the right way for the 
U.S. to manage the threat and be prepared to respond when 
others take action.
    Senator Gardner. Thank you, Mr. Chairman.
    Senator Corker. Thank you, Senator.
    You have shown extreme stamina for a 64-year-old male. And 
with that, we are going to have a 5-minute recess. If you wish 
to exit the room, I would suggest you coming this way. And we 
will resume with Senator Kaine in five minutes.
    [Recess.]
    Senator Corker. Bring the hearing back to order.
    Mr. Tillerson, based on a previous conversation, before 
moving to Senator Kaine, I know we had a little bit of a 
conversation about this, but when it comes to lobbying for 
sanctions, it is my understanding that there was not a lobbying 
that took place against sanctions. It was more to go through 
the details of what those sanctions would do to make sure that 
they were applied appropriately across the board. Is that 
correct?
    Mr. Tillerson. Senator, that is correct. I never lobbied 
against the sanctions. To my knowledge, ExxonMobil never 
lobbied against the sanctions. ExxonMobil participated in 
understanding how the sanctions were going to be constructed 
and was asked and provided information regarding how those 
might impact American business interests. And the only 
engagement I had really came after the sanctions were in place. 
ExxonMobil was in the middle of drilling a well in the very 
remote part of the Russian Arctic in the Kara Sea several 
hundred miles away from any safe harbor.
    When the sanctions went into place, because of the way the 
sanctions were written, they took immediate effect. There was 
no grace period; there was no grandfathering period. And I 
engaged immediately with the State Department and with Treasury 
and OFAC to explain to them there was significant risk to 
people and the environment if in order--and we were going to 
comply with the sanctions, fully comply, but that compliance 
meant immediate evacuation of all these people, which was going 
to put lives at risk and the environment at risk because this 
was a wildcat exploration well that was at a very delicate 
position at the time, provided a lot of technical information 
to OFAC and the State Department, was thankful that it took 
about five days for them to understand that.
    And ExxonMobil stood still while they were evaluating that, 
and in the end did grant a temporary license to allow that work 
to be completed safely so we could get all the people then out 
of the country, get all of the equipment that was subject to 
sanctions out of the country, including the rig out of the 
country.
    That was my direct engagement was really in dealing with an 
effect of the sanctions. So, again, the characterization that 
ExxonMobil lobbied against the sanctions is just not accurate.
    Senator Corker. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair. And, Mr. Tillerson, 
thank you for your willingness to serve. Congratulations on 
your nomination.
    How much information do you have about financial 
connections between President-elect Trump, the Trump family, or 
Trump organizations and Russian individuals or organizations or 
the Russian Government?
    Mr. Tillerson. I have no knowledge.
    Senator Kaine. And if I asked you the same question and I 
substituted Turkey, China, Pakistan, or Japan for Russia in 
that question, would your answer be the same?
    Mr. Tillerson. I have no knowledge.
    Senator Kaine. So I gather from your answer that you will 
then have no way of knowing how actions proposed by a President 
Trump regarding those countries or others would affect his 
personal or family financial interests?
    Mr. Tillerson. I have no knowledge.
    Senator Kaine. How is a Congress and the American public 
supposed to fully judge the actions, official actions proposed 
by a President Trump if we lack basic information about how 
those actions may benefit his personal finances?
    Mr. Tillerson. That is a question that others will have to 
address, Senator.
    Senator Kaine. You are aware that government leaders of 
many of the countries that you dealt with in your capacity as 
CEO of ExxonMobil have used their positions of leadership to 
greatly advance their personal wealth while they were in 
office, correct?
    Mr. Tillerson. I have no direct knowledge of that.
    Senator Kaine. But you have read press accounts, for 
example, about folks like Vladimir Putin or the leaders of 
Equatorial Guinea and other nations suggesting that they have 
amassed great personal wealth while in office, correct?
    Mr. Tillerson. I am aware of the press reports.
    Senator Kaine. Do you think that such behavior by a head of 
government is in accord with values of the United States or 
contrary to U.S. values?
    Mr. Tillerson. If the reports are true and there has been 
inappropriate taking of funds that belong rightfully to the 
government and that that is not provided for under the 
government's laws, then that would be contrary to our values, 
which are to respect the laws.
    Senator Kaine. Should Congress be diligent to make sure 
that Federal officials, including the President, do not use 
their public positions to amass personal wealth while in 
office?
    Mr. Tillerson. That is the standard in the United States, 
yes, sir.
    Senator Kaine. Without full disclosure of the President of 
all his financial interests, is there not a chance that you 
might be across the table in a negotiating setting, say, with 
Russian officials who know more about the President's financial 
interests and exposure than you do?
    Mr. Tillerson. Not to my knowledge.
    Senator Kaine. If that was the case, would that not put 
America and our national interests at somewhat of a 
disadvantage?
    Mr. Tillerson. If it is not to my knowledge, it is not 
going to change the way I am negotiating with them.
    Senator Kaine. But if someone on the other side of a 
negotiating table--you have been in negotiations--has more 
knowledge than you do, is that not something that could put you 
at a disadvantage?
    Mr. Tillerson. I think as long as the objective of the 
negotiation is clear, what are we trying to achieve, that is 
all that matters. If you achieve the objective, the art of 
negotiating is just how you achieve that objective.
    Senator Kaine. I am going to switch and ask you some 
questions about climate, following up on Senator Udall. We 
talked about this in my office. There has been a great deal of 
coverage about ExxonMobil's history with the issue of climate 
change. There was a recent two-part article in the New York 
Review of Books prepared by members of the Rockefeller Family 
Foundation and investigated by an independent team for the 
Columbia School of Journalism, in 2015 there was a three-part 
series in the Los Angeles Times, and in the same year, Inside 
Climate News did an 8-month investigation and produced a nine-
part series that was a finalist for a Pulitzer Prize, all on 
the question of ExxonMobil's knowledge of basic climate 
science.
    These articles conclude the following, and then I am going 
to ask you some questions: 1) ExxonMobil concluded as early as 
the 1970s that pollution from CO2 released by the burning of 
fossil fuels was affecting the climate in potentially 
destructive ways; 2) despite this knowledge, ExxonMobil took 
public positions against the scientific consensus regarding 
climate science; 3) ExxonMobil funded outside organizations 
that publicly denied, downplayed, and obscured the scientific 
consensus; and 4) ExxonMobil, despite claims to the contrary, 
continues to provide funding, if at a lower level, to outside 
groups that deny, downplay, or obscure this scientific 
consensus. Are these conclusions about ExxonMobil's history of 
promoting and funding climate science denial, despite its 
internal awareness of the reality of climate change during your 
tenure with the company, true or false?
    Mr. Tillerson. Senator, since I am no longer with 
ExxonMobil, I am in no position to speak on their behalf. The 
question would have to be put to them.
    Senator Kaine. I am not asking you to speak on ExxonMobil's 
behalf. You were with the company for nearly 42 years?
    Mr. Tillerson. That is correct.
    Senator Kaine. And for the majority of your time you were 
with the company in an executive and management position?
    Mr. Tillerson. Approximately half the time.
    Senator Kaine. And you became CEO in 2006?
    Mr. Tillerson. Correct.
    Senator Kaine. So I am not asking you on behalf of 
ExxonMobil. You have resigned from ExxonMobil. I am asking you 
whether those allegations about ExxonMobil's knowledge of 
climate science and decision to fund and promote a view 
contrary to its awareness of the science, whether those 
allegations are true or false.
    Mr. Tillerson. The question would have to be put to 
ExxonMobil.
    Senator Kaine. And let me ask you, do you lack the 
knowledge to answer my question or are you refusing to answer 
my question?
    Mr. Tillerson. A little of both. [Laughter.]
    Senator Kaine. I have a hard time believing you lack the 
knowledge to answer my question, but that is an editorial 
comment just like your comment was an editorial comment.
    With respect refusing to answer my question, we talked in 
my office. You have severed your financial ties with 
ExxonMobil, correct?
    Mr. Tillerson. That is correct.
    Senator Kaine. Are you subject to any confidentiality 
agreement that continues to be in force that would limit your 
ability to talk about the matter I am asking you about or any 
other matters concerning ExxonMobil?
    Mr. Tillerson. Let me clarify my first answer. All the ties 
will be severed if I am confirmed.
    Senator Kaine. Right. Absolutely.
    Mr. Tillerson. I----
    Senator Kaine. I got that.
    Mr. Tillerson. I spoke too quickly.
    Senator Kaine. Yes, I understood that.
    Mr. Tillerson. To my knowledge, I have no such 
confidentiality agreement in place, but I would have to consult 
with counsel.
    Senator Kaine. I will file that question for the record, 
and I would be----
    Mr. Tillerson. Yes.
    Senator Kaine.--curious as to whether there is any existing 
confidentiality agreement and when the agreement was entered 
into.
    Senator Kaine. Mr. Chairman, I want to enter a couple of 
documents in the record: first, a letter dated September 2, 
1982, from the Theoretical and Mathematical Sciences Laboratory 
director of Exxon Research Company, Roger Cohen. And I would 
just quote from it and enter it into the record, September 2, 
1982. ``Over the past several years, a clear scientific 
consensus has emerged regarding the expected climatic effect of 
increased atmospheric CO2. The consensus is that a doubling of 
atmospheric CO2 from its preindustrial revolution value would 
result in an average global temperature rise of between 1.5 and 
3.0 degrees centigrade. There is unanimous agreement in the 
scientific community that a temperature increase of this 
magnitude would bring about significant changes in the Earth's 
climate, including rainfall distribution and alterations in the 
biosphere. The time required for doubling of atmospheric CO2 
depends on future world consumption of fossil fuels.
    ``In summary, the results of our research are in accord 
with the scientific consensus on the effect of increased 
atmospheric CO2 on climate. We are now ready to present our 
research to the scientific community through the usual 
mechanisms of conference, presentations, and publications. As 
we discussed in the August 24 meeting, there is the potential 
for our research to attract the attention of the popular news 
media because of the connection between Exxon's major business 
and the role of fossil fuel combustion in contributing to the 
increase of atmospheric CO2. Our ethical responsibility is to 
permit the publication of our research in the scientific 
literature. Indeed, to do otherwise would be a breach of 
Exxon's public position and ethical credo on honesty and 
integrity.''
    And I would like to introduce that letter for the record.
    Senator Corker. Without objection.

    [The information referred to is located in Annex VI, page 
499.]

    Senator Kaine. I would like to also introduce an op-ed 
series produced by ExxonMobil in 2000, and I will read the 
following: ``Geological evidence indicates that climate and 
greenhouse gas levels experience significant natural 
variability for reasons having nothing to do with human 
activity. Against this backdrop of large, poorly understood 
natural variability, it is impossible for scientists to 
attribute the recent small surface temperature increase to 
human causes.''
    And I would like to introduce that as well.
    Senator Corker. Without objection.

    [The information referred to is located in Annex VI. page 
493.]

    Senator Kaine. Mr. Tillerson, one last subject. I know you 
are familiar with the use of the phrase ``resource curse'' to 
describe the phenomenon whereby oil-rich countries often find 
that their abundance of natural resources actually impedes 
development of a diverse economy and promotes authoritarianism, 
violence, environmental despoliation, poverty, and corruption. 
That is not an iron law, but that has been a much-discussed 
topic in economic literature since the early 1990s.
    ExxonMobil does business in many countries--Chad, 
Equatorial Guinea, Nigeria, Indonesia, Angola--that have 
suffered through this phenomenon. I would like you to talk 
about, as Secretary of State, where we have a development 
portfolio that tries to help nations raise sustainable 
economies, how will you work with nations that have suffered 
under this ``resource curse,'' and how will you work with them 
to make sure they respect human rights, the rule of law, and 
our longstanding commitment to transparency and anticorruption 
interests?
    Senator Corker. Good question. Succinct answer, please.
    Mr. Tillerson. Well, there is a lot of opportunity through 
our USA programs to strengthen institutional capacities and set 
standards of expectation in the developing part of the world, 
including those that have resource wealth.
    Senator Kaine. Mr. Chair, if I could put one more document 
in the record, and it is a document from this committee. It is 
a report that was directed by Senator Lugar when he was the 
ranking member of the committee in 2008 entitled ``The 
Petroleum and Poverty Paradox: Assessing U.S. and International 
Community Efforts to Fight the Resource Curse.'' And it has a 
number of suggestions for both the President and Secretary of 
State that I think still have some merit, and I would commend 
it to the attention of the witness.
    Senator Corker. Without objection. Thank you.

    [The information referred to is located in Annex VI, page 
503.]

    Senator Corker. Senator Young.
    Senator Young. New guy. [Laughter.]
    Thank you, Mr. Chairman. And thanks so much, Mr. Tillerson, 
for your presence here today.
    I would like to return to an issue which has received quite 
a bit of discussion and dialogue here today, and it is the 
sanctions that have been imposed on Russia in the wake of their 
annexation of Crimea, their armed intervention in eastern 
Ukraine. And you have indicated to me privately and again here 
publicly that you had a couple of concerns. Aside from the 
fiduciary concerns, that is, your duty to ensure you maximize 
shareholder value as CEO of ExxonMobil, you had concerns with 
respect to the ill-formation of these sanctions, the fact that 
there is a disparity between the U.S. and EU's sanctions 
regime, and therefore, you did not believe that sanctions 
regime would work. Is that correct?
    Mr. Tillerson. Well, I think I expressed the view that it 
was likely to be ineffective.
    Senator Young. Okay. I am going to give you an opportunity 
to explain that in greater detail. In the wake of our private 
meeting, we contacted the Congressional Research Service and 
they indicated--and I will submit this report for the record 
here--but that in practice--and I am quoting--``It appears that 
U.S. and EU sectoral sanctions are broadly similar.'' They did 
say it appears, but kindly explain the distinction between 
those two sanctions regimes that made you conclude they would 
be ineffective.
    Mr. Tillerson. And I was speaking in terms of the sector 
that I was involved in at the time, oil and natural gas 
development. The EU sanctions contained a grandfathering 
provision, which allowed activity that was already underway in 
the targeted sanction areas to continue. In the U.S. sanctions, 
there was no grandfathering. And in this dialogue that was 
going on during the development of the sanctions, that was part 
of the input to the process, both to the Treasury Secretary--I 
spoke to Secretary Lew myself to point out that there was this 
gap and that it was going to--it could lead to problems for 
U.S. interests from two perspectives. One was the operational 
effect that I just described a moment ago in response to the 
chairman's question that an immediate effect would put 
operations that were ongoing at risk. So there was that issue.
    But the second was that to the extent European activities 
in the same sanctioned areas could continue because they were 
grandfathered would put U.S. interests in this particular part 
of the sector at a disadvantage because U.S. could not continue 
to demonstrate its capabilities; our European partners could. 
And it put at risk the possibility that agreements that had 
been entered into might be terminated.
    Senator Young. So it is the grandfathering component. We 
will look more into that.
    Mr. Chairman, submit this for the record, please.
    Senator Corker. Without objection.

    [The information referred to is located in Annex III, page 
469.]

    Senator Young. Let me pose a hypothetical, perhaps a bit--
it gets to the heart of the matter of trying to separate one's 
responsibilities, one's incentives as the CEO of a major 
multinational corporation, though U.S.-based, from perhaps your 
coming role as the chief diplomat of the United States.
    Assume that something that is not particularly lacking in 
plausibility, that Russia were to send troops and weapons into 
the Kiev area, into Ukraine. Assume further that a well-formed 
sanctions regime is presented to you as Secretary of State. 
Finally, assume that that sanctions regime would disadvantage 
the bottom line of American-based multinationals. Would you 
still propose, would you still advocate that the United States 
of America advance its national interests by adopting this 
sanctions regime?
    Mr. Tillerson. Senator, I think as I have indicated now 
several times, the use of sanctions is an important and can be 
powerful tool as long as they are constructed to be effective. 
In an instance like the example you give, there will be, I am 
sure, discussion at the National Security Council all of the 
options, but the sanctions will be certainly an important 
option to have on the table for consideration. And if that is 
the option selected, I will vigorously support those.
    Senator Young. Very good. With respect to the U.S. and EU 
sanctions, it has already been presented to you that there is a 
possibility of removing those. You indicated that for now you 
believe the status quo should reign in part because--I think 
understandably; I am sympathetic to this--you indicated you 
lack sufficient information. You have not been ``read-in'' with 
respect to classified material, correct?
    Mr. Tillerson. That is correct.
    Senator Young. All right. Your nomination was announced on 
December 13. You have never served in government before. It is 
understandable you would not have a security clearance until 
now, until last evening. You had a security clearance. Would 
you be willing to receive a classified security brief from our 
intelligence community this evening, assuming we may go into 
tomorrow with respect to this hearing, focused intently on 
Russia?
    Mr. Tillerson. If all of the paper is in place and I have 
been cleared, I understand it is on file; I just have not 
received any notice yet. But I look forward to having access to 
the additional information.
    Senator Young. So you would be willing?
    Mr. Tillerson. Yes.
    Senator Young. Further, as the nation's chief diplomat, it 
is really important, as we have seen with this previous 
administration, that the chief diplomat of the United States 
speak with a voice that is perceived to be the voice of the 
President of the United States. There cannot be space between 
what you are saying, the policies you are putting forward, and 
those that are embraced by our now President-elect. He has a 
history of utilizing to very well-known effect social media, 
Twitter in particular. And some of the President-elect's tweets 
appear to be quickly drafted, not vetted by staff or 
coordinated with the transition team's senior officials. So 
this gives pause to me. This gives some concern that in coming 
months, in coming years you might not be empowered to actually 
serve as the chief diplomat. You would lack credibility.
    So how do you finesse this? How would you ensure that the 
legs are not cut out from underneath you as the nation's chief 
diplomat? And perhaps you have some ideas on this.
    Mr. Tillerson. Well, if confirmed and I am able to serve 
this President-elect, I do not think I am going to be telling 
the boss how he ought to communicate with the American people. 
That is going to be his choice.
    But in carrying out and executing and implementing the 
foreign policy, including traveling abroad--and I understand 
your point; I am overseas--that it would be my expectation that 
any way the President might choose to communicate through 
whatever method would be supportive of that policy we both 
agreed on.
    Senator Young. So do you have in mind any contingency plans 
to----
    Mr. Tillerson. Yes, I have his cell----
    Senator Young.--address----
    Mr. Tillerson. I have his cell phone number. [Laughter.]
    Senator Young. Okay.
    Mr. Tillerson. And he has promised me he will answer. And 
he does.
    Senator Young. We will hope for the best there, unless you 
have anything else to add.
    In your prepared statement, you write that ``Russia must 
know that we will be accountable to our commitments and those 
of our allies.'' Article 5 of the North Atlantic Treaty states 
that ``An armed attack against one or more member states in 
Europe or North America shall be considered an attack against 
them all.'' Mr. Tillerson, if Putin were to instigate a Crimea-
style invasion of a NATO member, let us say Estonia or Latvia 
or Lithuania, do you believe the U.S. should and would honor 
its treaty obligation, join our allies in defending our fellow 
NATO member against external invasion?
    Mr. Tillerson. Article 5 commitment is inviolable, and the 
U.S. is going to stand behind that commitment.
    Senator Young. So yes?
    Mr. Tillerson. If that is the consensus of NATO members 
that that is the appropriate use of article 5, then yes.
    Senator Young. Okay. I yield back.
    Senator Corker. All right. Thank you so much.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you, Mr. Tillerson, for your willingness to serve.
    Mr. Tillerson. Thanks.
    Senator Murphy. And as a Cub Scout leader who was wearing 
the uniform last night as I led my Wolf den, I thank you for 
your service to the Boy Scouts and your leadership there as 
well.
    A comment and then a few questions. In your testimony you 
said that you had not lobbied Congress on the issue of 
sanctions, and I guess we fleshed out that in your mind calling 
a United States Senator to express your belief that sanctions 
would be ineffective is not lobbying. I would argue that is a 
distinction without a difference. If you are calling a United 
States Senator on the phone to express your belief that 
sanctions that would affect your company would be ineffective 
likely constitutes lobbying. And in 14 different lobbying 
reports between 2006 and 2014, Exxon did list lobbying on 
sanctions as part of its political activity.
    I have a question, though, on another potential 
inconsistency. In your testimony and in your private meetings 
with us, you spent a lot of time I think, you know, very 
smartly talking about the importance of consistency and clarity 
in American policy and your belief that you need to rebuild 
that.
    In this light, your response to Senator Rubio on whether 
you would support mandatory sanctions against specific 
individuals involved in confirmed, verifiable cyber attacks 
against the United States is fairly extraordinary. The U.S. is 
under attack today. We are under attack by Russia, by North 
Korea, by China through these cyber attacks.
    And so I guess I am going to ask you to square how you can 
have a clear, consistent policy on preventing cyber attacks 
against the United States when you have said before this 
committee that you do not support mandatory sanctions against 
verified individuals who have committed attacks against the 
United States because there might be complicated multifaceted 
relationships with certain countries in which you might want to 
weigh the attack against the United States with another 
consideration. How do you deter cyber attacks against the 
United States if you send a message that you can get away with 
it with no sanctions against those individuals as long as there 
are other equities at stake with the United States? Put those 
two together for me.
    Mr. Tillerson. Senator, what I was intending to convey is 
that I need to be fully informed as to what all the options 
are. And I am not fully informed as of yet, and it will 
involve--you know, if confirmed, it will involve interagency 
discussions, including that within the National Security 
Council of what are all--and I think I have said this--what are 
all the options to respond? And again, this is a symptom of 
the--in the absence of a clear policy and a clear strategy, I 
fully appreciate this body and in particular this committee 
that has these important responsibilities wanting to take 
action. What I do not know because I have not been allowed or 
not had the sufficient briefings yet, what are the other 
potential ways to respond to these types of attacks? And if 
sanctions are the most effective, then that is certainly what I 
would support. But I do not know because I have not been 
briefed as to what are our proportional capabilities in 
responding. Are there other options available to us that could 
prove to be even more effective and get a more immediate change 
in the behavior of whoever is attacking us?
    And so it is--I hope I did not convey or did not intend to 
convey that kind of a narrow of a response. What I was trying 
to convey is this is an extraordinarily complicated threat that 
exists today, and we are being attacked. I do not dispute that 
statement in any way. But I also believe we have to look at all 
of the options and all of the tools available to us, and 
sanctions is one of them. It is a powerful tool.
    And I think, as I said, if in an interagency, a national-
security-type environment, that conversation is existing and 
the conclusion is made that these sanctions are going to be the 
best and most appropriate way to act, then I think the 
executive would like to have the optionality to make that 
decision, not to the exclusion that there could be better 
options available, and yet we have to do this as well.
    Senator Murphy. Mr. Tillerson, as you know, the New York 
Times, Washington Post, CNN, amongst others, are reporting that 
Russia has a dossier of very damaging and embarrassing 
information about the President-elect that they have used to 
influence his views on Russian-American policy. This report is 
as earthshattering as it is thinly sourced, but it was deemed 
credible enough for our intelligence agencies to reportedly 
read in both the President and the President-elect. I think we 
all pray that it is not true, and I certainly understand you 
are not in a position to testify to the contents of that 
report. But let me just ask you some very simple questions. 
Have you been briefed yet on these allegations and on this 
report?
    Mr. Tillerson. I have not.
    Senator Murphy. There is some confusion as to whether the 
President-elect has been briefed. Can you confirm whether he 
has been briefed or not?
    Mr. Tillerson. I do not know.
    Senator Murphy. In this report there are allegations that 
there were specific agents of the Trump campaign that 
communicated between it and Russia. Have you or Exxon had any 
business dealings, any business relationships with either Paul 
Manafort or with Carter Page?
    Mr. Tillerson. Not that I am aware of.
    Senator Murphy. Could you take that question for the record 
and get a response to the committee?--
    Mr. Tillerson. I would be happy to do that.

    [The information referred to had not been received by the 
committee in time to be included in this hearing print. ]

    Senator Murphy. And finally, do you believe that U.S. law 
enforcement, most notably the FBI, should seek to determine the 
accuracy of these allegations?
    Mr. Tillerson. I think that I would leave that to those 
agencies to determine.
    Senator Murphy. If they chose to conduct an investigation, 
would the State Department under your leadership cooperate with 
that investigation?
    Mr. Tillerson. To the extent there is a role for the State 
Department in such an investigation.
    Senator Murphy. Thank you, Mr. Tillerson.
    You have talked a lot in your testimony about the 
importance of setting red lines and then standing by them when 
you set them, and I want to ask you some questions about it. 
The President made his red-line statement in the context of a 
press conference, and so I just want to get your position right 
here. You believe it is statements by American Presidents, even 
those that are made off-the-cuff, are taken by world leaders as 
statements of U.S. policy, is that correct?
    Mr. Tillerson. In that case I think the statement was 
pretty unequivocal.
    Senator Murphy. And so let me give you another unequivocal 
statement and ask for your thoughts on it. On Twitter, 
President-elect Trump said that a North Korean ICBM launch was 
``not going to happen.'' That sounds about as clear as a red 
line as I can figure one out. Do you interpret that to be a red 
line?
    Mr. Tillerson. I do not know that I would interpret that to 
be a red line. I could interpret that to mean a lot of things.
    Senator Murphy. Elaborate. Elaborate on that.
    Mr. Tillerson. It is not going to happen because the 
President views the North Koreans are not going to do one. It 
could be interpreted that way.
    Senator Murphy. You do not think that should be interpreted 
by the global community as the United States promising to do 
whatever is necessary not to allow the North Koreans to obtain 
an ICBM?
    Mr. Tillerson. I think that is a pretty far extension of 
that statement to come to that conclusion.
    Senator Murphy. I think many have interpreted it that way. 
And I think to Senator Young's question, therein lies the 
challenge when you conduct foreign policy by 140 characters, it 
does become a little opaque as to what you mean. I do not think 
there is as much confusion there, but that will certainly be a 
challenge that you will have.
    Finally, I want to drill down a little bit more on this 
series of questions from Senator Menendez. He was getting at a 
question about conduct at ExxonMobil that directly contradicted 
American foreign policy in Iraq when you made a decision to do 
a deal with the Kurdish Government even when the United States 
Government had requested that you refrain from doing such a 
deal.
    In addition, there is testimony now that, through 
subsidiaries or joint partnerships, Exxon did work in places 
like Iran, Syria, and Sudan. This is a question that is going 
to sound confrontational but I mean it sincerely. Was there any 
country in the world whose record of civil rights was so 
horrible or whose conduct so directly threatened global 
security or U.S. national security interests that Exxon would 
not do business with it? Was there any line while you were at 
Exxon where you would not do business with a country, given 
that Iran, Syria, Sudan, and Russia were on the list of those 
that you would?
    Mr. Tillerson. The standard that is applied is, first, is 
it legal? Does it violate any of the laws of the United States 
to conduct business in any particular country? Then beyond 
that, it goes to the question of the country itself. Do they 
honor contract sanctity? Do they have a rule of law? And if 
they do or do not, are there mitigating actions that can be put 
in place to protect whatever business activity might be 
undertaken.
    Senator Murphy. But on that list is not a question of their 
record of human rights abuses or U.S. national security 
interests?
    Mr. Tillerson. That could go to contract sanctity, rule of 
law, and stability of the country, which is always a judgment 
as well.
    Senator Murphy. Thank you.
    Senator Corker. Thank you.
    Senator Isakson.
    Senator Isakson. Thank you, Senator Corker, and thank you 
for your outstanding opening remarks. I think you cast the 
hearing exactly in the place it should be.
    Mr. Tillerson, thank you for accepting this challenge, and 
thank you for accepting the challenge of sitting before us for 
a couple of hours and answering a lot of tough questions in a 
great way. Thank you also for bringing United States Senator 
Sam Nunn to introduce you. That goes a long way with me and I 
think a lot of people here. Sam served for 24 years in the 
United States Senate. He chaired the Armed Services Committee, 
and he and Dick Lugar did the Nunn-Lugar Initiative, which has 
reduced the exposure of the world to nuclear fissile material 
to be used by terrorists around the world and was a chief 
advisor to me and a number of other members of the committee on 
the New START Treaty and did a great job of helping us to 
understand what Russian capabilities were and how important it 
was for us to maintain a strong road on that. So I appreciate 
you having Sam here. He is a great testimony to you as an 
individual.
    You mentioned a number of things, and I am going to take 
them in order real quickly and try and ask specific questions. 
With regard to American leadership being renewed and reasserted 
because to lead in the world, we have to renew our leadership; 
we have to reassert our leadership. You have said that.
    Probably one of the most interesting places in the world 
right now where we basically are out of the picture is the 
Middle East with regard to Aleppo and in regard to Syria. 
Turkey and Iran and Russia are sitting at the table as they 
divide up what is left of Syria and its assets and what is 
going to happen in the future, and we are sitting outside.
    As the nominee for being the chief negotiating diplomat for 
the United States of America, what would you recommend we do to 
get a seat at that table? And what form of renewed leadership 
should we exercise to have that leadership respected?
    Mr. Tillerson. Well, if confirmed, Senator, I think the 
first step we have to take is to reengage with our traditional 
allies and friends in the area and reaffirm that we are back. 
We are back with our leadership and we are back with a plan of 
how to affect where events in Syria go from here. We cannot do 
anything about where we are today.
    I think you described the situation accurately. Russia, 
Syria, Turkey, and Iran are dictating the terms of how things 
are going to play out in Syria today, absent our participation. 
So I think that it is a reengagement with our traditional 
allies, sharing with them where we believe we have to now go in 
Syria.
    We have to reengage with President Erdogan in Turkey. This 
is a longstanding NATO ally that, in the absence of American 
leadership, he got pretty nervous about his situation and he 
turned to who was next available and he turned to an ally in 
Russia that is not a sustainable ally. And it is making clearer 
to him that is not a sustainable alliance. Your sustainable 
alliance is with the United States of America.
    So it is just--the first step is that reengagement and 
reinforce what had been longstanding commitments by the United 
States to stability and security in this part of the world, and 
that includes reestablishing a clear statement of how important 
Israel is to us and our national security and the role they 
play in this region of the world for our benefit as well.
    After that, then we will have a plan that will be developed 
in concert with the National Security Council as to how we 
accomplish two things. One: We have got to protect the innocent 
people on the ground in Syria. People are fleeing areas. How do 
we secure their protection so they are no longer 
indiscriminately bombed, put under threat? And if that can 
happen, then perhaps there can be a stabilization of the 
outflow of people who are leaving because there is not a safe 
place to go.
    The second step then, as I indicated, is defeat ISIS. We 
have had two competing priorities in Syria under this 
administration. Bashar al-Assad must go and a defeat of ISIS. 
And the truth of the matter is carrying both of those out 
simultaneously is extremely difficult because at times they 
conflict with one another.
    The clear priority is to defeat ISIS. We defeat ISIS, we at 
least create some level of stability in Syria, which then lets 
us deal with the next priority of what is going to be the exit 
of Bashar Assad. But importantly, before we decide that is in 
fact what needs to happen, we have to answer the question: 
''What comes next?'' What is going to be the governance 
structure in Syria, and can we have any influence over that or 
not?
    So there are a number of steps and a long road of regaining 
stability in Syria, defeating one of the greatest threats to 
us, which is ISIS, and then determining what is the fate and 
future of the Syrian people and Syria as a nation. It is going 
to take many steps, but it is not going to start until we get 
reengaged in that region.
    Senator Isakson. I will make a statement. You do not have 
to concur with it or not. But I think it is implicit that we 
would not be where we are today had two things--we had not 
failed to do two things. One, we failed to enforce the red line 
when we drew it, number one, with Syria, and I think that is an 
important thing to understand because we did not renew and 
assert our leadership in that position.
    And secondly, we never changed our ISIL policy from 
containment to destruction, and because containment allowed 
them to continue to operate in that area, it made it impossible 
to get to the position we are today. Would you have any comment 
on that?
    Mr. Tillerson. I would agree with both of those 
reflections.
    Senator Isakson. Are you familiar with the term the Dutch 
disease?
    Mr. Tillerson. I am.
    Senator Isakson. I think that is what Tim, what Senator 
Kaine was referring to. My son wrote his master's these at 
Tulane in the early 1990s on the Dutch disease so that is the 
only reason I know anything about it. But it points out the 
second thing about the State Department that is so important. 
The Dutch disease is what the Middle East suffers from. They 
have an infinite source of--well, not infinite but for all 
practical purposes infinite source of wealth in terms of oil 
and petroleum. They decided not to invest that money in their 
people and in infrastructure and instead kind of bought their 
people off with the money they had and had kingdoms and palaces 
where they live. And now we are suffering today because they 
have no medicine, they have no educational system, they have no 
infrastructure.
    USAID, Millennium Challenge Corporation, those entities 
within the State Department which would be under your 
responsibility are where we take our soft power to develop 
countries and friends at the same time, the Peace Corps being 
another example. But I am a huge supporter of those 
institutions and of seeing those dollars, those soft dollars 
investing and helping to build the infrastructure of human life 
within these countries that do not have it, a tremendous asset 
for us in the future. Do you share that belief?
    Mr. Tillerson. I do, Senator. And as I think I commented 
earlier, USAID has one set of criteria by which the aid is 
provided. [Disturbance in hearing room.]
    Mr. Tillerson. The use of AID is multifaceted in terms of 
both disaster relief and development. One of the most 
successful programs I have seen is the Millennium Challenge 
Corporation because it has ownership on part of the country. 
They have to request the grant, they have to take ownership of 
the implementation, and it is in many ways an advancement of 
their institutional capacity to actually get something done. 
That is where you would hope we can put all of these countries 
on a pathway where they can begin to take responsibility and 
develop the infrastructure and the educational systems and the 
need to meet the needs of their people.
    It is a different journey for each of these countries, and 
the use of the foreign assistance, to the extent we can make 
USAID development programs more like Millennium Challenge, 
recognizing different criteria, but it goes to the 
responsibility of the recipient government in putting some 
level of criteria where we are promoting the development of 
their institutional capacity to begin to address--look back to 
their people and address their needs. Now, they are powerful 
tools, and they are powerful because, as I said earlier, they 
really project the best of American compassion.
    Senator Isakson. I appreciate your answer because a lot of 
people have questioned whether or not we ought to have 
corporate executives from the private sector be Secretary of 
State. Soft power, which all of us prefer to hard power, if we 
can use it, depends on the concept of joint venture and the 
investment of capital and natural resources to bring about the 
best for people where those resources are. Your knowledge of 
that joint venture process is going to be invaluable with the 
State Department as we go through Africa and other developing 
countries, to use Millennium Challenge to bring about a 
reduction in corruption, an increase in friends, and hopefully 
better votes in the U.N. when we need them the most.
    Mr. Tillerson. I think we certainly should use that as a 
way to build those connections with developing countries around 
the world, and countries that hopefully are going to be on the 
rise and can be important models to others to demonstrate that 
it is possible to lift yourself out of this condition.
    Senator Isakson. One last quick question, and it is not a 
Catch 22. But I am a big supporter of trade. I think trade is 
important. It is a weapon that we have, to use a soft-power 
weapon to have friends and help the United States of America. 
China, the whole issue of TPP has been an issue. I know the 
President was questionable on TPP, but not on trade itself.
    Do you think trade is a foreign component in 
intergovernmental relationships between countries and has a 
role at the State Department?
    Mr. Tillerson. Having strong economic alliances where there 
is a certain--I hate to use the word ``interdependency'' 
because some people find that a threatening term. But having 
those important connections allows us to have these economic 
ties where we want to maintain good relations with one another. 
They also provide an enormous opportunity for us to know one 
another as people. This is just people going about their daily 
lives, doing their jobs, and having connections with others in 
other countries that are doing the same. It allows us to 
project America's values into those countries we are trading 
with. We have a presence in those countries, bringing American 
standards of conduct, honest dealings, ethical behavior, a 
structure around honoring our deals. A deal is a deal; we honor 
it. So economic trade is critical to the success of our foreign 
policy.
    Senator Isakson. Well, thank you very much for your 
willingness to serve, and thanks to your wife and family for 
their willingness to help support you in that service.
    Thank you, Mr. Chairman.
    Senator Corker. Thank you, sir.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Mr. Tillerson, during your tenure as CEO of ExxonMobil, the 
company massively expanded its involvement in Russia, going 
from virtually no holdings in that country to holding the 
drilling rights to 63 million acres. That is an area inside of 
Russia that is the size of Wyoming and almost five times the 
amount of holdings Exxon has here in the United States.
    As CEO of Exxon, you vocally opposed the Russian sanctions 
that have been put in place which hamper Exxon's ability to 
drill there.
    Now, in recent weeks we have learned about the incredibly 
disturbing extent to which Russia has sought to weaken our 
nation from its efforts to undermine the election to 
yesterday's news that it has compromising personal and 
financial information about the President-elect.
    Now, I am sure that I am not alone in saying that I believe 
that these allegations, if true, demand more and stronger 
sanctions against Russia. Just this morning, Donald Trump said 
that he thinks that the Russians did hack our American 
election.
    So, Mr. Tillerson, in light of what you now know about the 
extent of Russia's hostile acts against our country, do you 
support increasing sanctions against Russia even if doing so 
hurts ExxonMobil?
    Mr. Tillerson. Well, Senator, if confirmed, in consultation 
with the President and I am sure what will be an interagency 
decision around imposing additional sanctions on Russia, there 
will be no space between me and the President or the 
Administration in those decisions. I serve--if confirmed, I 
serve only the interests of the American people.
    Senator Markey. Well, again, the question that the American 
people are going to have is that you have spent 41 years at 
ExxonMobil, and ExxonMobil controls, for leasing purposes, 
drilling purposes, oil purposes, an area the size of Wyoming 
inside of Russia, and you have spent your entire adult life 
working there. So there is a question that people have in their 
minds about your ability to be able to separate.
    If the head of the Sierra Club was named tomorrow to be the 
new CEO of ExxonMobil, some of the shareholders at ExxonMobil 
might wonder whether or not the head of Sierra Club could put 
aside their whole past history in order to be able to advance 
that shareholder interest.
    Well, the shareholders of the United States, the people who 
are watching this hearing, are wondering the same thing about 
this issue with regard to your past history and not just the 
vast interests which ExxonMobil has in Russia but in dozens of 
other countries across the world.
    Now, earlier you said that you would recuse yourself from 
issues involving ExxonMobil, as required by statute. But that 
statute, that statutory recusal period is only for one year. 
You could be Secretary of State for four years, or for eight 
years. You, in my opinion, are going to have many, many issues 
after that one-year period is up that relates to the economic 
interests of ExxonMobil.
    So I ask you, sir, if you would be willing to recuse 
yourself for the duration of your time as Secretary of State 
from any manner dealing with ExxonMobil's economic interest so 
that the American people are sure that the only interest that 
you are serving is the interest of the American people.
    Mr. Tillerson. Senator, as I indicated earlier, I will 
honor, obviously, the statutory recusal period, and then after 
that any matter that might involve ExxonMobil or that has the 
appearance that it could lead to some type of conflict, I will 
seek the guidance of the ethics counsel, a review by them, and 
if it is the view that it would be proper for me to recuse, I 
will honor that.
    Senator Markey. Well, again, one year is a very brief 
period of time given the vast economic effects of ExxonMobil in 
Nigeria, in Iraq, in Russia, in country after country around 
the world. I think, Mr. Tillerson, it would be far better for 
you just to say that for the duration of your time as Secretary 
that you will not allow for your own personal involvement to be 
a part of any decision about anything that affects ExxonMobil 
anywhere in the world. I think the American people would feel 
much more comforted if you would, in fact, make that commitment 
to them.
    Now, during your tenure as CEO, Exxon has supported public 
policy groups who have spread climate denial. Senator Kaine 
dealt with that issue. And also opposed clean energy, 
including, for example, financial support in 2015 for the 
American Legislative Exchange Council and the Manhattan 
Institute, two groups which are climate deniers. In 2016, when 
the attorney general of Massachusetts asked Exxon for 
information on the company's climate activities under 
Massachusetts consumer and financial protection laws, Exxon 
sued the state of Massachusetts, the attorney general of 
Massachusetts and other public policy groups that had been 
critical of Exxon.
    So we have evidence in the past that Exxon, during the time 
you have been there, supported groups opposing climate action 
and also trying to silence groups that have been critical of 
Exxon.
    So give the American people, given your personal history at 
ExxonMobil and the actions of that company, some reason to have 
confidence that the climate agreement negotiated by Secretary 
Kerry and President Obama will be something that the Trump 
Administration State Department will honor and that U.S. 
leadership will continue on the issue of climate change around 
the planet. We are not just any country. We cannot be a 
laggard. We must be the leader. The world expects us to be the 
leader on climate change. Please give us those assurances that 
you will guarantee that the State Department will be the 
leader, as it has been, in advancing a climate agenda for our 
country.
    Mr. Tillerson. Well, if confirmed, Senator, I am sure that 
there will be opportunity, and I know the President-elect will 
want the opportunity to do a fulsome review of our policies 
around engagement on climate issues through global accords, 
global agreements. As I indicated, I will feel free to express 
my views to him around those.
    I also know that the President, as part of his priority in 
campaigning, was America first. So there are important 
considerations as we commit to such accords, and as those 
accords are executed over time, are there any elements of that 
that put America at a disadvantage.
    Senator Markey. Do you believe that it should be a priority 
of the United States to work with other countries in the world 
to find climate change solutions to that problem?
    Mr. Tillerson. I think it is important for America to 
remain engaged in those discussions so that we are at the table 
expressing a view and understanding what the impacts may be on 
the American people and American competitiveness.
    Senator Markey. Do you commit to ensure that no employee of 
the State Department is influenced to take action because it 
would be favorable to business interests associated with the 
President-elect or his family?
    Mr. Tillerson. If I understood the question, yes.
    Senator Markey. All right. The President-elect said 
famously in a tweet, wouldn't you rather have, in a certain 
sense, Japan with nuclear weapons when North Korea has nuclear 
weapons? And the President-elect has also said that he would be 
open to South Korea and Saudi Arabia acquiring nuclear weapons.
    Senator Nunn, who introduced you, has previously described 
these comments as dangerously off base and has stated that Mr. 
Trump's suggestion would make American families less safe.
    Do you disagree with the President-elect that it would not 
be a bad thing for us if Japan and South Korea and Saudi Arabia 
acquired nuclear weapons?
    Senator Corker. Succinctly, if you will.
    Mr. Tillerson. I think the priority has to be to deny North 
Korea the ability to deploy its nuclear weapons.
    Senator Markey. What about Saudi Arabia and South Korea?
    Senator Corker. Senator Paul, please.
    Senator Paul. Mr. Tillerson, congratulations on your 
nomination.
    They say that those who refuse to learn the lessons of 
history are doomed to repeat the mistakes of the past. The 
President-elect has said that the Iraq war was a big, fat 
mistake. He said this many, many, many times. I was wondering 
if you agree with the statement, and if you do agree with the 
statement, how it will inform your judgment as to the future of 
the Middle East and the other conflicts that we are engaged or 
possibly engaged in in the Middle East.
    Mr. Tillerson. Senator, I alluded to the Iraq war in my 
opening comments when I indicated that actions over the past 
decades, while well intended, had unintended consequences that 
in the end did not achieve the stability that we sought or the 
national security, and I think in that regard the decision to 
go into Iraq and change the leadership in Iraq, upon 
reflection, perhaps did not achieve those objectives. We did 
not have a more stable region in the world, and our national 
security has not been enhanced or is still certainly under 
threat today.
    Senator Paul. I think that is an important point that we 
talk about, whether our national security was enhanced, that I 
think sometimes gets lost in the emotions of these are terrible 
evil people, X, whichever country we are talking about, and we 
have to do something about it, and in reality we maybe forget 
that really what we are trying to do is to be protecting our 
vital national interests.
    Another statement that President-elect Trump has made is 
that the U.S. should stop racing to topple foreign regimes that 
we know nothing about, that we should not be involved with. 
This is kind of interrelated to the last question, but I think 
it is also important in the sense that there are some within 
the foreign policy community who say, oh, we must go in and 
topple the regime in Iran. It will be a cake walk. They will 
welcome us with open arms.
    One of the interesting things you find as you meet Iranian 
Americans, many of whom lost all of their land, all of their 
wealth, and you ask them about Iran and you say would it be a 
good idea to militarily invade Iran, and they say completely 
the opposite, that much of Iran is younger, much of Iran is 
pro-Western, and that with the first bomb that is dropped you 
will reverse a lot of good will that is potentially there when 
Iran does finally change its regime on its own.
    But I think it is important, because we do. Nobody wants 
Iran to have nuclear weapons. Nobody wants Iran to be an 
aggressor in the region. And at the same time, I think it is 
important that we look at the lessons of the Iraq war. The Iraq 
war actually emboldened Iran, made Iran stronger.
    So the questions are the same thing with Libya. We toppled 
the regime in Libya.
    But I guess the question is, with regard to Iran, those who 
are advocating that it will be a cake walk, that we should have 
military regime change, what do you think of that advocacy, and 
what do you think of, I guess, Donald Trump's statements with 
regard to regime change?
    Mr. Tillerson. Well, I think you have described it in many 
ways in the same way I would see it, is that what is in the 
best interest of our national security. I think this is where 
these priorities sometimes come into conflict of our values and 
the projection of our American values and our desire and out of 
our compassion for the mistreatment of people, the violation of 
human rights, oppressive regimes, we want those people to have 
what we have. But balancing that against our national security 
interest, and what is most important is that we protect the 
American people first.
    This is where sometimes I think our priorities, we have too 
many priorities, and therefore we lose sight of what is the 
most important. Any decision to effect a change of leadership 
in a country by force cannot be taken lightly, and I think the 
question that one has to answer is one that I posed a couple of 
times: What comes next? In the case of Libya, I think that was 
the failing in the decision to change the regime there. No one 
had a clear plan or a view of what would come next. That is 
what we are experiencing and have experienced somewhat in Iraq, 
and it is the question in Syria when people talk about changing 
the leadership there. What comes next?
    Certainly, making a decision to use force is a serious, 
serious decision, because we know it will come at a cost of 
precious American lives. So I think that is important, and if 
confirmed as Secretary of State, my job is to make sure we 
never get there. My job is to chart out other pathways by which 
we can have a steady progress towards causing regimes who 
oppress their people to change their behavior and use all the 
other tools available to us.
    Having said that, I do think that we have to be clear-eyed 
about the threat Iran poses today and ensure that we have taken 
all steps appropriate through all mechanisms available to 
contain that threat and to limit their ability to grow that 
threat, and in particular not just in acquiring a nuclear 
weapon but, more importantly, their widespread support of 
terrorism around the world. We have to disrupt that.
    Senator Paul. Thank you. With regard to foreign aid, there 
has been a lot of love for foreign aid going around today, but 
I think there is another side that we ought to think about. 
There are many, many, many reports talking about corruption 
within foreign aid, that we give it to developing countries and 
70 percent of it is stolen off the top. The Mubarak family in 
Egypt, everybody loved the Mubaraks. They were pro-Western, 
pro-American, and yet they are said to be worth about $15 
billion. I do not think they ever created anything other than 
they skimmed a little bit off the top of everything that comes 
into the country. We have given them $60 billion, and they are 
worth $10 or $15 billion.
    I believe it was Equatorial Guinea that had one of their 
sons stopped in Paris a few years ago loading about 10 
different cars onto an airplane that were all worth $200,000, 
$300,000 cars. So there is a lot of corruption.
    Now, some of the things that have been mentioned are more 
directed towards either third-party charities or private 
entities. I would argue that these are a lot less bad. But I 
would argue that we cannot blithely just look at foreign aid 
and say, oh, it is all great and it is all going to a good 
cause. Sometimes it actually works in the opposite way, and I 
will give you an example in Egypt.
    We gave so much and the Mubaraks took so much of this 
money, but some of it they actually spent because we have 
provisions that they have to buy stuff from us with the money. 
It is sort of this creation of economic business kind of game 
that we do. But one of the things that they bought from us was 
tear gas. So when they had these big democratic protests in 
Cairo, they were being doused with tear gas from the U.S., and 
they would pick the canisters up on the street. I would argue 
that that soft power maybe is not giving a warm, soft, fuzzy 
feeling for America, that in supporting many people who really 
are not pro-human rights or pro-American interests, that 
actually sometimes the foreign aid backfires on us because they 
resist those leaders who are using undemocratic and forceful, 
authoritarian means on their own people, that it backfires.
    I would appreciate your comments on whether or not you see 
any kind of difficulty or problems with corruption within 
foreign aid or things that need to be reformed.
    Mr. Tillerson. Senator, I am very aware of, and even in my 
prior work I have seen the examples of what you described, even 
in disaster relief cases where foreign assistance is flown in, 
food supplies. While they are literally being unloaded at the 
airport, military forces are picking them up and taking them 
away to be sold.
    So the challenge is never in the intent, in our compassion 
and the need we are trying to address. The challenge is always 
in the execution. I do think that it is important that we have 
as well-developed execution plans if we are going to deliver 
aid into a country where we know this is a risk. What can we do 
in the execution of the delivery of that aid? If it is disaster 
relief, are there other agencies we can partner with to limit 
that type of theft going on?
    In terms of development assistance, to the extent we do not 
give grants directly to governments but whether we give them to 
particular projects or perhaps partnering agencies or public/
private-sector initiatives which are executed by credible NGOs 
so the money just never passes through the hands, that is the 
preferred mechanisms, I think.
    Senator Paul. And then one final point I would make, and 
you do not necessarily need to comment on this, is that it is 
not only corruption but it is unintended consequences. As a 
business person you will immediately recognize this, and I 
think even right and left actually agree on some of this. If 
you dump Haiti with rice for 10 years, you ruin the ability for 
them to have their own rice market and to grow their own rice. 
If you want to give them rice during the middle of a famine, 
that is one thing. But you have to be very careful about having 
a big heart, small brain syndrome that we ruin their local 
economy sometimes with aid, as well.
    But I appreciate you thinking about corruption, and then 
also thinking about unintended consequences of our aid. Thank 
you.
    Senator Corker. Thank you.
    Before turning to Senator Merkley, I think you have made 
great contributions as it relates to foreign aid, and I think 
that there is support for the one percent that we spend to try 
to use it in an appropriate way for soft power.
    I think, and I have shared this with the Trump incoming 
transition group, that still much of our aid is the Cold War 
model where we are buying influence, and so much of it needs to 
be--all of it, actually--transformed into something that has 
appropriate efficacy. What we are doing right now with food aid 
is beyond belief, and I could rant about this for another 20 
minutes. It is beyond belief. But efforts like we have to end 
modern slavery where partnerships are created, where you are 
building on best practices, some of the things we are doing 
with water, some of the things we are doing with electricity, I 
think they are set up on the right principles, but I appreciate 
the comments. I appreciate, hopefully, all of you looking at 
foreign aid because there is much waste, there is corruption. 
We could deliver it in a much better way.
    Senator Merkley.
    Senator Merkley. Thank you, Mr. Chairman, and it is a 
pleasure to join the committee.
    Mr. Tillerson, during his campaign, the President-elect 
talked a lot about what he saw as major mistakes with NAFTA and 
with giving China full access to our markets in terms of its 
impact on American manufacturing. He was very critical of the 
TPP. Do you share his vision that NAFTA and WTO China access 
and the TPP are big mistakes in terms of creating living-wage 
American jobs?
    Mr. Tillerson. Senator, my understanding of the issue that 
the President-elect has with those trade agreements is, in the 
case of NAFTA, it is an agreement that has been in place for 
decades now, and I think even President Pena Nieto of Mexico 
has indicated that, yes, perhaps it needs a relook, that we are 
in a different era now both in terms of the type of trade and 
technology, but also the global trading environment has changed 
since that agreement has been put in place.
    Senator Merkley. Do you share his opposition to the TPP?
    Mr. Tillerson. I do not oppose TPP. I share some of his 
views regarding whether the agreement that was negotiated 
serves all of America's interests at best.
    Senator Merkley. Thank you.
    Exxon has a partnership with Shell, a company known as 
Infinium, that did a fair number of transactions with Iran, 
bypassing U.S. sanctions. Are you familiar with the use of this 
subsidiary to bypass U.S. sanctions, and do you think it was 
the right thing to do?
    Mr. Tillerson. I do not recall the instance. I have read 
about it, but I do not recall it specifically.
    Senator Merkley. So the SEC directly contacted Exxon while 
you were in the senior leadership saying that this seems fairly 
material for investors, an effort to bypass U.S. sanctions, and 
asked why Exxon did not disclose it. Do you have any memory of 
that or discussions of whether Exxon should have disclosed 
these transactions?
    Mr. Tillerson. Senator, I think the question would be best 
placed to ExxonMobil, where the information would reside.
    Senator Merkley. No, sir. You were there. I am asking if 
you had discussions about this or have a memory of it.
    Mr. Tillerson. I do not.
    Senator Merkley. If you were Secretary of State and you 
were working to enforce U.S. sanctions and another CEO had a 
subsidiary set up and utilized to bypass American sanctions, 
would you call up that CEO or weigh in and say this is not a 
good idea, this undermines U.S. efforts to take on a serious 
terrorist threat or other malfeasance by some country in the 
world?
    Mr. Tillerson. I think if the actions that are being taken 
violate the sanctions, then there are proper authorities that 
would examine that and deal with it.
    Senator Merkley. It is not an issue of the technicality of 
violating the operation. A subsidiary was set up in Europe 
specifically that Exxon set up so it could legally bypass U.S. 
sanctions. But it was certainly inconsistent with the goal of 
U.S. policy to pressure Iran. If you were the leader, the 
Secretary of State, would you try to make sure that U.S. 
leadership and the effectiveness of using sanctions was not 
undermined through the set-up of foreign subsidiaries?
    Mr. Tillerson. I would certainly be open to having folks at 
the State Department contact companies and just inquire as to 
whether they are aware of the actions that they are taking and 
the State Department's view of that.
    Senator Merkley. Well, to be aware of something is 
different than to be concerned or to be upset by it. Would you 
consider you would uphold the integrity of the U.S. goal of 
diminishing the ability of nations like Iran to do a whole host 
of things destructive to U.S. interests?
    Mr. Tillerson. I understand, Senator, but I also think it 
is important that the State Department, as with any agency, 
also respects the laws that have been put in place, and there 
is a difference between expressing a concern and suggesting 
someone is breaking the law.
    Senator Merkley. Yes. So as you look back on the 
subsidiary, it does not upset you that Exxon took this role to 
undermine U.S. sanctions and that you would not express concern 
if another company legally set up a foreign subsidiary to 
undermine U.S. sanctions?
    Mr. Tillerson. As I said, I do not recall the 
circumstances.
    Senator Merkley. I am not asking you to recall the 
circumstances. I am asking--your answer is that you do not 
consider that a problem. It sounds like you are not considering 
that to be an issue.
    Mr. Tillerson. I do not know the example, so I do not know 
how to answer the question.
    Senator Merkley. Okay. Thank you.
    Let's turn to lobbying the Ukraine. You said earlier in 
this hearing ``I have never personally lobbied against 
sanctions. To my knowledge, Exxon never lobbied against 
sanctions.'' And yet there is a whole host of material in the 
public sector about Exxon lobbying on these sanctions. There is 
a whole host of these lobbying reports in which Exxon reports 
under the law that they lobbied on these bills that imposed 
sanctions. There is your report at the 2014 meeting, and I 
quote, ``We do not support sanctions generally.'' And you 
continued, ``So we always encourage the people who are making 
those decisions to consider the very broad collateral damage of 
who are they really harming.''
    I would like to enter these articles into the record, if I 
could.
    Senator Corker. Without objection.

    [The information referred to is located in Annex VII, pages 
507 to 537.]

    Senator Merkley. And this article is titled, from the New 
York Times, ``Rex Tillerson's Company Exxon Has Billions At 
Stake Over Sanctions on Russia.'' It is a political article 
that lays out ExxonMobil helped defeat Russia sanctions bill 
and notes how it is a model. ``Mobil successfully lobbied 
against a bill that would make it harder for the next president 
to lift sanctions against Russia.''
    Another article lays out, ``Tillerson visited the White 
House often over the Russian sanctions.''
    So there is a host of material showing a widespread pattern 
of weighing in against these sanctions that were harming Exxon 
interests, activities in Russia, which was a major area of your 
effort. Do you still maintain that Exxon did not lobby against 
these sanctions?
    Mr. Tillerson. ExxonMobil did not lobby against the 
sanctions but were engaged in how the sanctions would be 
constructed. As to the reports of my visits to the White House, 
my visits were to work through the process of ExxonMobil's 
compliance with the sanctions. I described earlier the 
situation where, when the sanctions were enacted, there were--
drilling activities involved considerable risk that were 
underway for which ExxonMobil sought a special license from 
OFAC in order to complete those, in full compliance with the 
sanctions. Had we been denied the license, we would have had to 
pull people out or ExxonMobil would have had to pull people out 
at that time.
    Senator Merkley. Is that the only instance in which you 
weighed in----
    Mr. Tillerson. In all of the other meetings--I am sorry.
    Senator Merkley. In 20 meetings going to the White House, 
that is the only issue you weighed in on, on Exxon sanctions?
    Mr. Tillerson. I do not recall 20 meetings, but the visits 
to the White House--because under the terms of the compliance 
with the sanctions, the first action was to seek the license to 
allow us to deal with the imminent risk of the drilling 
situation. Following that, OFAC required ExxonMobil to file 
reports on a periodic basis around our ongoing compliance 
activities.
    ExxonMobil has holdings in Russia, offshore Sakhalin 
Island, that are not subject to the sanctions, in partnership 
with Rosneft, which does contain individuals who are subject to 
the sanctions.
    Senator Merkley. I am going to summarize that these reports 
you consider to be incorrect.
    Mr. Tillerson. They are inaccurate.
    Senator Merkley. Okay, thank you. I will continue.
    There are three individuals who were involved in the Trump 
campaign--Paul Manafort, Michael Cohen, and Carter Page--who 
public reports indicate have been involved in dialogue with 
Russia with the goal of finding a common strategy, with Russia 
believing that Trump would be better on Syria and Ukraine 
policy, and Trump believing that Russia could help defeat 
Hillary Clinton.
    Now, these reports have not been substantiated. I am sure 
much more will come on them. But in theory, how do you feel 
about a U.S. candidate turning to a foreign country to 
essentially find another partner in defeating another opponent 
in a U.S. presidential election?
    Mr. Tillerson. That would not comport with our democratic 
process.
    Senator Merkley. Thank you. I am sure we are going to have 
a lot of discussion of this because the extent of the false 
news stories, the hacking, the cyber warfare, the use of 
botnets to amplify false news stories, the hiring of trolls, 
all of which really attack the fundamentals of our democracy. 
The reports have it that Russia not only wanted to weigh in in 
the election but they also wanted to undermine U.S. confidence, 
the citizens' confidence in the electoral process and in our 
democratic values. So that is a real concern to the future of 
our state, and I assume it is a concern that you might share as 
well.
    Mr. Tillerson. Yes, sir. It is a concern I share. I also 
noted in the publicly available report that I read that the 
interagency report also acknowledged that these types of 
activities were carried out during the Cold War as well. The 
tools of sophistication have only advanced with the advent of 
cyber.
    Senator Merkley. Yes. Many of these tools were Internet-
based electronic cyber warfare that was much different in that 
setting.
    When we come back in our next round, because I have a few 
seconds left, I would like to ask a few questions about Exxon's 
involvement in Equatorial Guinea. My colleague mentioned it on 
the other side, and I think that would be of interest.
    Senator Corker. Thank you.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Congratulations on your nomination.
    I wanted to go to your opening statement and try to talk 
about a couple of things that we have not really gotten into 
yet. One of the statements that you made had to do with 
defeating ISIS. As you said, defeating ISIS must be our 
foremost priority in the Middle East. You go on to say but 
defeat will not occur on the battlefield alone, we must win the 
war of ideas.
    If I could just engage you a little bit to talk about how 
we can use diplomatic efforts and other ways to target and 
actually undermine the ISIS ideology and its legitimacy, and 
how can we do that and improve U.S.-led coordination in the 
region with our allies.
    Mr. Tillerson. Well, the defeat of ISIS globally is 
extremely challenging because it does not represent a country 
that we can apply traditional approaches to. The defeat of ISIS 
as an ideology--in other words, other than the battlefield--is 
going to require advanced capabilities in our own communication 
tools in terms of disrupting their communication to develop 
their network, and more importantly to further their ideology. 
This means getting into the Internet airspace and putting forth 
different ideas and disrupting their delivery of ideas to 
people who are persuaded to join them.
    ISIS, the defeat of ISIS in the Middle East removes their 
caliphate territory, which then undermines their legitimacy. 
That in itself will not defeat ISIS once and for all. It will 
simply morph to its next version, and we see that already as 
terrorist organizations existing in other parts of the world 
have decided to identify themselves with ISIS just because of 
the strength of their brand, quite frankly.
    So I think it is going to require a comprehensive 
interagency effort informed by intelligence, informed by the 
Defense Department and other agencies as to how can we disrupt 
the delivery of this ideology. Why the ideology takes hold in a 
particular location, again there is not a country that 
identifies itself as ISIS. That is why taking away their 
caliphate is so important.
    Senator Barrasso. It even looks like they are trying to 
extend in Afghanistan--I was there at Thanksgiving--and near 
Jalalabad near the Afghan-Pakistan border. It seems like they 
are trying to establish a caliphate in that area as well. So 
the cancer has spread, and I appreciate those thoughts.
    In your opening statement you just talked about--and even 
those that introduced you talked about the fact that the U.S. 
is not as strong and respected as it had been previously, and 
we need a foreign policy aimed at securing our national 
interests, demonstrating our leadership. From a standpoint of 
credibility, you and I talked about having the capacity to do 
something, having a commitment to use that capacity, and 
communicating that commitment about the capacity.
    Could you share with us a little bit about what you intend 
to do in terms of restoring America's position in the world?
    Mr. Tillerson. Well, as I indicated also in my opening 
statement, we are dealing from a position of strength, so the 
only reason we are not perceived to be there with our friends 
is because we are not asserting that strength in these issues. 
So it does begin with reengaging with friends and allies, 
reconnecting with them that our commitment is to the stability 
of the region, that if there are existing commitments and 
agreements in place, that we fully intend to fulfill those, and 
then developing a strategy in the region to deal with the most 
imminent threat.
    It means projecting the strength of our U.S. military 
might, but hopefully not having to use it in terms of trying to 
persuade countries to change their course of action. But in the 
case of the most immediate threat of ISIS, it involves can we 
construct a renewed coalition that, using the forces that are 
already there, including the Syrian Kurds, which have been our 
greatest allies, that we recommit to the Syrian Kurds that we 
intend to continue to support you with the capability to 
continue the advance on Raqqa, and then build coalition forces 
that can contain ISIS if it attempts to move into other parts 
of the country and eliminate them from Syria to begin.
    I think the effort in Iraq is progressing. Hopefully it 
will progress to a successful conclusion as well in terms of 
removing the caliphate from ISIS.
    Senator Barrasso. Staying in the Middle East in terms of 
the relationship between Israel and the Palestinians, I always 
felt, as has been the position of the country, that direct 
negotiation between the parties without interference from 
outsiders was the key. The Obama Administration recently 
abandoned Israel with a one-sided resolution at the Security 
Council of the United Nations by abstaining from a vote, which 
in the past we would routinely have vetoed.
    Could you talk a little bit about your views on the refusal 
to veto the recent U.N. Security Council resolution and 
subsequent speech by Secretary Kerry?
    Mr. Tillerson. Israel is, has always been, and remains our 
most important ally in the region. They are important to our 
national security. The U.N. resolution that was passed, in my 
view, is not helpful. I think it actually undermines setting a 
good set of conditions for talks to continue. The Secretary's 
speech which followed that U.N. resolution I found quite 
troubling because of the attacks on Israel and in many ways 
undermining the government of Israel itself in terms of its own 
legitimacy in the talks.
    I think in the Trump Administration, the President-elect 
has already made it clear, and if I am confirmed I agree 
entirely with support. We have to recommit. This is in the 
statements I keep making about renewing and committing that we 
are going to meet our obligations to Israel as our most 
important strategic partner in the region.
    Senator Barrasso. Staying with the United Nations then, you 
talked about the international agreements. Specifically, you 
were asked about the climate agreements, the international 
climate change. Funding is a part of that. The Obama 
Administration has unilaterally pledged $3 billion to the U.N. 
Green Climate Fund. The Administration has requested $1.3 
billion for global climate change initiatives in this year's 
President's budget for Fiscal Year 2017. You mentioned Donald 
Trump campaigning on America first.
    Will you commit to ensuring that no funding will go to the 
U.N. Green Climate Fund?
    Mr. Tillerson. In consultation with the President, my 
expectation is that we are going to look at all of these things 
from the bottom up in terms of funds we have committed towards 
this effort.
    Senator Barrasso. Senator Isakson asked about and talked 
about the value of using soft power, and it just seems there 
are so many opportunities, whether it is humanitarian 
assistance, democracy promotion, embassy security measures that 
are necessary, and countering global terrorist threats, where 
money could possibly be better spent than on these efforts. So 
I appreciate your effort to look into that.
    Senator Corker earlier talked about some of the wonderful 
things that have been done around the world because of U.S. 
involvement in soft power. Part of that is power helping to 
power energy in a number of communities around the world. Many 
of us have been to Africa to see what happens in a community 
where there is energy available that had not been previously in 
terms of helping as a tool for those countries so people can 
get better education opportunities, health, well-being.
    We have had a situation where some of the programs in place 
have not really supported ``all of the above'' energy. We have 
seen where the World Bank has blocked funding for coal-fired 
power plants which would help bring light and other 
opportunities to a number of countries in Africa. I wonder if 
you could comment on the need to use all of the sources of 
energy to help people who are living in poverty and without 
power.
    Mr. Tillerson. Well, I think--and I know you touched on it, 
but nothing lifts people out of poverty quicker than 
electricity. That is just a fact. You give people light, you 
give them the ability to refrigerate food, medicine. It changes 
their entire quality of life. They no longer cook on animal 
dung and wood cooking in their homes, so health issues, their 
health improves.
    I think it is very important that we use wisely the 
American people's dollars as we support these programs, and 
that means whatever is the most efficient, effective way to 
deliver electricity to these areas that do not have it, that 
should be the choice. That is the wisest use of American 
dollars.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    Senator Corker. Thank you.
    Just for the state of play, we are running slightly behind. 
We are going to go ahead and finish up with Senator Coons and 
Senator Portman. Senator Risch and Senator Booker are not here. 
We will take a 45-minute recess when these two gentlemen finish 
their time. Each of them will have ten minutes when they get 
back to start, and then we will resume again in the same order, 
starting with Senator Cardin, and we will do 7-minute rounds 
when we get back. So it looks like we will recess at about 1:30 
and come back at 2:15.
    With that, Senator Coons.
    Senator Coons. Thank you, Mr. Chairman.
    Mr. Tillerson, good afternoon. And to Renda, to your whole 
family, welcome and thank you for your willingness to serve 
this country in this important post.
    I appreciate the frank conversation we had in my office 
last week. I just want the American people to hear some of the 
answers you gave me on, I think, some pressing and relevant 
questions around your nomination and your views on the world, 
but in a focused way and on the record.
    Many of my colleagues have already asked about how you will 
handle the transition from CEO of the world's leading energy 
oil company to Secretary of State, advocating for human rights 
and open press and democracy. I have been encouraged to hear 
you say we will stand by our NATO allies, that you would not 
support accepting the annexation of Crimea by Russia, and that 
you see Russia as currently an adversary and possibly an enemy. 
I want to focus in on how you see Putin's leadership and 
Russia's role.
    You said previously that the Russians are strategic 
thinkers and they have a plan. They have a plan to restore 
their role in the world order. My core concern is that their 
plan is actually to change the world order, and that they have 
used a wide range of tools, and we have not successfully pushed 
back on their campaign.
    I led a bipartisan delegation to Eastern Europe in August 
and was struck at the number of times in several countries we 
were briefed on a continuous campaign to divide Europe and the 
United States, to undermine our NATO alliance, and to divide 
Europe from within; and that Russia has used all the tools of 
state power, both overt and covert, to wage an aggressive 
propaganda campaign.
    Back in the `90s, after the fall of the Soviet Union, we 
used effectively Radio Free Europe and the National Endowment 
for Democracy. We were engaged in a full-on fight for democracy 
in the former Warsaw Pact countries and former Soviet 
Republics. I think we should be using all of our tools to push 
back on this Russian aggression.
    Do you see RT as a Russian propaganda outlet, and how would 
you use and lead the resources of the State Department to 
counter Russian propaganda and to push back on this effort to 
change the rules of the world order?
    Mr. Tillerson. Well, as you point out, utilizing the 
opportunity to communicate to the people of Russia through 
mechanisms that were successful in the past, Radio Free Europe, 
and utilizing those type of sources, as well as providing 
information on the Internet to the extent people can access 
Internet so that they have availability to the facts, the facts 
as they exist, to the alternative reporting of events that are 
presented through the largely controlled media outlets inside 
of Moscow. That is an important way in which to at least begin 
to inform the Russian people as to what the realities are in 
the world. It is an important tool and it should be utilized.
    Senator Coons. It is the intelligence community's 
assessment that the Kremlin has a longstanding plan to 
undermine the global democratic order that we spent so much 
time and effort building in the decades since the Second World 
War. Will you rely on and will you encourage the President-
elect to rely on the career professionals in the intelligence 
community in your role as Secretary of State, if confirmed?
    Mr. Tillerson. Senator, I have enormous respect for the 
intelligence agencies and the vital role that they play. So I 
will certainly be informed by their findings, and I think in 
terms of then understanding that as they apply to the facts on 
the ground, it is important in guiding our future policy 
decisions and guiding our future options for how to respond.
    Senator Coons. I know this press conference has happened 
while you have been here in this confirmation hearing, but just 
an hour or so ago the President-elect finally publicly said 
that he thinks it is most likely true that Russia was behind 
the hacking effort, and he gave no more specific response to 
the question what should we do about it other than we will work 
something out. Many of us are concerned about the lack of a 
clear embrace of a congressional role and a clear embrace of 
congressional-led sanctions.
    There is a bipartisan bill that will move forward to enact 
sanctions so that it is not just the action of one outgoing 
president. You have given some constructive answers previously 
about your view on sanctions and your view that if done in a 
solid and sustainable way, they can be a constructive tool of 
foreign policy. Please reassure me that you would welcome 
working closely with Congress on enacting sanctions against 
Russia in response to their war crimes in Syria, their invasion 
of Crimea and its occupation, and their attack on our 
democracy.
    Mr. Tillerson. If confirmed, Senator, I look forward to 
engaging with this entire committee particularly on the 
construct of new sanctions, and I think, as I have indicated in 
response to other questions, what I would hope is that the 
executive branch and then my role at the State Department, if 
confirmed, would be the latitude to use those sanctions in 
efforts to cause modifications in Russia's positions. If they 
are already in place and mandatory, then that may remove some 
opportunities for us to explore ways in which we could use them 
as a tool and give the Russian government the option of moving 
because of the threat of those.
    Senator Coons. I will say, if I could, Mr. Tillerson, that 
I was a member of this committee when the current Secretary of 
State came and asked us not to strengthen the sanctions against 
Iran, to give the executive branch the freedom to operate, and 
I think by a vote of 99 to 0, the Senate went ahead with 
bipartisan sanctions. Senator Menendez pressed you about this 
earlier.
    I do think that we should work in concert and in 
consultation, but there are some tools that Congress sometimes 
chooses to move forward with, and it is my hope we could 
strengthen sanctions to show our determination to contain 
Putin's aggression and to push back on his adversarial actions.
    Let me move to another topic, if I could. Do you think it 
advances America's interests to have the Russian military 
supporting Assad, coordinating with Iran, and engaging in 
combat actions in Syria against the moderate opposition and 
against the folks who we have relied on as allies in the fight 
against ISIS?
    Mr. Tillerson. As I indicated in my opening remarks, that 
is contrary to American interests.
    Senator Coons. How do you think we can strengthen our hand 
against Iran given their destabilizing regional actions? And in 
your view, as you reconsider the nuclear agreement with Iran, 
if we withdraw from the agreement unilaterally, how will we 
sustain the current level of visibility we have into Iran's 
nuclear program, and how would that make us safer or stronger?
    Mr. Tillerson. With respect to the recent agreement to 
limit Iran's ability to advance or make progress toward the 
development of a nuclear weapon, if confirmed my 
recommendations, and I think this is consistent with where the 
President-elect is now, is to do a full review of that 
agreement, as well as any number of side agreements that I 
understand are part of that agreement, examine whether Iran and 
our ability to verify whether Iran is meeting its obligations 
under the agreement and ensure that we are enforcing all 
mechanisms available that hold them to that agreement.
    No one disagrees with the ultimate objective that Iran 
cannot have a nuclear weapon. The current agreement does freeze 
their ability to progress, but it does not ultimately deny them 
the ability to have a nuclear weapon. My understanding is that 
the current agreement, for instance, does not deny them the 
ability to purchase a nuclear weapon. It just denies them the 
ability to develop one.
    So I think there are additional areas that have to be 
considered, and most importantly, if we choose to use this 
agreement as a way to provide an opportunity to discuss what 
comes next, because the real important question is what comes 
at the end of this agreement, and what comes at the end of this 
agreement must be a mechanism that does, in fact, deny Iran the 
ability to develop a nuclear weapon, and that means no uranium 
enrichment in Iran, no nuclear materials stored in Iran.
    The other side of that is what does Iran get would be 
through working with partners would be to provide Iran the 
access and the means to peaceful uses of nuclear materials, 
nuclear power, medical applications and industrial 
applications. But that would be done under a very controlled 
process, working with other partners to do that. Whether Iran 
is prepared to chart a pathway that looks like that we will 
only know once we engage in discussions.
    Senator Coons. Well, many members of this committee look 
forward to working with you to make sure that we are 
restraining Iran's nuclear ambitions effectively, fiercely, and 
that we are implementing what we get out of that current 
agreement and reviewing it closely going forward.
    Thank you, Mr. Chairman.
    Senator Corker. Thank you, and I appreciate your 
observation that every administration is anxious to work with 
Congress until such a time it in any way inhibits their ability 
to do whatever they wish. So I thank you for that. [Laughter.]
    Senator Corker. Senator Portman.
    Senator Portman. Thank you, Mr. Chairman.
    Mr. Tillerson, it has been a long morning, and now we are 
going into a long afternoon, and I think I am the one person 
between you and a break, so I will try to be as quick as I can.
    I appreciate your willingness to step forward and serve 
your country, and I know it is not without some sacrifice, but 
also an incredible opportunity. We talked a little in my 
office, and I appreciate your meeting with me, about restoring 
America's role in the world. Just listening today to your 
testimony back and forth, I think there is a consensus building 
in this country that we do need to do some things immediately 
to put America back in a position of being trusted and 
respected by our allies and our adversaries.
    I like to look at it more that we are not looking to be the 
world's policeman but, to put it in Texas terms, more like the 
sheriff who gets the posse together. On the eastern border of 
Ukraine and Crimea, that would be NATO. Although Ukraine is not 
a member of NATO, that region relies on it, and those countries 
need leadership.
    With regard to Syria, I think it is the Kurds, it is the 
Sunni countries in the neighborhood, so it is the posse.
    In the South China Sea where China has been increasingly 
aggressive, I think it is the Pacific Rim countries who, as you 
know, are very nervous. But they are looking for leadership, 
and the security umbrella we have provided since World War II 
has kept the peace.
    So I hope that is consistent with what you have told me in 
private and what you are saying here publicly today. I think 
there is an opportunity, as well as a sacrifice, related to 
your service.
    As we talked about in our meeting, a number of my 
constituents in my home state of Ohio have family ties to 
Eastern and Central Europe, including Ukraine, and are very 
interested in those issues. We have gotten much more deeply 
involved in those issues over the last several years, including 
traveling to that region. So my questions are going to focus a 
lot on that.
    The first one, NATO. Just to be clear, because I know there 
was some discussion about NATO earlier, particularly Article 5, 
which reads, ``An armed attack against one or more members 
shall be considered an attack against them all.'' Can you just 
clarify that you believe that Article 5 creates a binding 
obligation to assist any member of the alliance who is a victim 
of aggression regardless of their size or geographic location?
    Mr. Tillerson. Yes, sir. I do.
    Senator Portman. And as Secretary of State, would you ever 
threaten to break the U.S. commitment to Article 5 as a means 
of pressuring allies to spend more on defense?
    Mr. Tillerson. I would not recommend that. No, sir.
    Senator Portman. Okay. Understanding that I think all of us 
around this dais would like to see our partners step up and do 
more in terms of the defense budget.
    Since 2014, of course, Ukraine has struggled to defend its 
sovereignty and its territorial integrity against the Russian 
aggression. It has been discussed here a lot today. One point 
that has not been discussed in the way I think it ought to be 
is the fact that back in 1994, the United States, Britain, 
Russia, and Ukraine signed an agreement, the Budapest 
Memorandum, which said that when Ukraine regained its 
independence following the collapse, having possessed at that 
time the world's third largest nuclear arsenal, that in 
exchange for giving up that nuclear arsenal that we would 
assure Ukraine's sovereignty and territorial integrity. I think 
that is very important because it sends a signal. We talked 
earlier about Sam Nunn and his good work on nuclear non-
proliferation.
    What kind of signal does that send? Clearly, that agreement 
has been violated by Russia, and the question is whether we are 
going to keep to that agreement as well, in my view. So, a 
couple of questions.
    One, in your written statement you talk about the taking of 
Crimea. We talked a little about that. Just to clarify, do you 
regard the Russian annexation of Crimea as an illegal 
occupation and annexation in direct violation of Ukrainian 
sovereignty?
    Mr. Tillerson. Yes, I do.
    Senator Portman. Okay. Do you pledge that the United States 
would never recognize that annexation of Crimea if you serve as 
Secretary of State, similar to the way the United States never 
recognized the Soviet occupation of the Baltic states?
    Mr. Tillerson. The only way that that could ever happen is 
if there were some broader agreement that was satisfactory to 
the Ukrainian people. So absent that, no, we would never 
recognize that.
    Senator Portman. Never recognize. Okay. I think that is 
fair.
    If the President-elect were to ask you for your advice as 
Secretary of State on whether he should maintain sanctions 
against Russia for its actions in Ukraine and in Crimea until 
Russia ceased its aggression and fulfilled its obligation under 
the Minsk agreements, what would you tell him?
    Mr. Tillerson. As I indicated in an answer to a question 
earlier, I would recommend maintaining the status quo until we 
are able to engage with Russia and understand better what their 
intentions are.
    Senator Portman. Does that mean keeping the sanctions in 
place?
    Mr. Tillerson. Yes, sir.
    Senator Portman. As Russia continues arming, training, 
organizing, and fighting alongside this effort in Eastern 
Ukraine, do you support providing defensive lethal assistance 
so Ukrainians can defend themselves?
    Mr. Tillerson. I think it is important that we support the 
Ukrainians in all ways to protect themselves from any further 
expansion or aggression. I am hopeful that ceasefires will 
hold. But in the absence of that, I think it is important for 
us to support them in their ability to defend themselves.
    Senator Portman. So you would provide them with defensive 
lethal weapons to be able to defend themselves?
    Mr. Tillerson. That would come in consultation through the 
National Security Council and certainly would require the input 
of others. But I would support that.
    Senator Portman. The United States Senate is on record 
supporting that. The Administration has chosen not to do that. 
They used a national security waiver, as the Chairman talked 
about earlier. I think this is significant, and I heard you say 
that earlier today, and I think this is a big change in terms 
of U.S. policy that is positive and will get Russia to the 
table, in my view.
    We talked a lot about the terrorists threat here today, and 
obviously that is a growing threat that we need to address in a 
much more aggressive way. I believe there is another growing 
threat to our national security and to the stability of our 
allies around the world, our democratic allies in particular. 
It is not a kinetic or a military threat. It is propaganda. It 
is disinformation. Russia, China in particular, but also other 
countries are more and more pursuing these extensive 
disinformation and propaganda campaigns against the United 
States and other democracies.
    By the way, this happened well before our most recent 
presidential election, and the information we have today about 
what might have happened here in this country I think is part 
of a broader effort that we ought to be more focused on, which 
is this effort of disinformation, and not just by Russia.
    When I have been to Ukraine and the Baltic countries, 
members of NATO, by the way, I have been struck by the 
conversations I have had with their leadership. This is at the 
top of their mind and the top of their list. They feel like 
they are under assault every day. They feel like they are 
sovereign democratically-elected governments that are being 
attacked through these disinformation and propaganda campaigns.
    I have also been struck by recent public comments by 
officials in Germany, in the U.K., and over time comments by 
our friends in Japan, Taiwan and other places about these kinds 
of operations and the meddling in their democracies.
    As you know, these operations blend a range of tools and 
methods, including cyber attacks and hacking, false news, troll 
farms to flood the zone on social media, funding of think tanks 
right here in this town, and political organizations that help 
them, and also state-owned media, some of whom are following 
your hearing today and are here in the room with us today.
    Senator Murphy and I have legislation recently signed into 
law that is meant to strengthen our outdated U.S. response to 
this disinformation and propaganda campaigns and establishes a 
new interagency center at the State Department to coordinate 
and synchronize U.S. counter-propaganda activities against 
foreign threats. It has just been passed, just been set up.
    So my question to you is, one, how would you characterize 
the threat posed by foreign government influence operations, 
not just Russia but in general? And second, what should be done 
about it, and do you support the establishment of this new 
agency, and would you put your personal support behind that?
    Mr. Tillerson. Senator, as I indicated in response to your 
question earlier, in terms of the broader threat of cyber--and 
I put all of the activities that you just described as a subset 
because those are largely delivered through digital means to 
people in terms of the propaganda or the undermining, the 
placing of fake news. All of that is done, by and large, in the 
digital space. So as part of this comprehensive cyber strategy, 
it has to include how do we deal with all of this 
misinformation that goes on around the world, and there are a 
number of actors playing in this space, Russia most notably, as 
you point out, but we know that others are playing in this 
space as well to undermine legitimate governments.
    To be honest, the bad actors have got the jump on us. They 
have been at this already for some time, and we have failed to 
develop a way to respond to that in that digital space. So this 
is a very complex technical issue that I think has to be part 
of a comprehensive assessment of how are we going--how is the 
U.S. going to protect itself in the cyber space and all the 
aspects of those threats that present themselves, including the 
one that you just described, and what are the mechanisms for 
responses, appropriate responses, and how do we get 
international agreement around some of that that sends messages 
back to the bad actors that there is going to be a cost if this 
continues, that there is a consequence to these actions? What 
is the proper proportional, or if it is not proportional, maybe 
it is asymmetrical? I do not know the answers because I think 
that is part of what is needed in a comprehensive assessment. 
It would be multi-agency, interagency driven.
    But that is, I think, one of the most vexing challenges in 
front of us, but we cannot just be vexed by it. We need to 
begin to address it.
    Senator Portman. Well, it sounds like you acknowledge the 
threat. I would just add one footnote. I do not disagree with 
you that our cyber response is the weakest part of our 
response, and we need to strengthen that. But it is beyond 
cyber. I mean, this is, again, media, it is funding think tanks 
that are spreading this disinformation and false news. Some of 
it is pretty old fashioned. We are just not up to the task. 
Radio Free Europe is not the answer. It has to be much more 
sophisticated, and I look forward to working with you in that 
regard.
    Thank you, Mr. Chairman.
    Senator Corker. Thank you.
    We will recess until 2:15 sharp. We will begin with Senator 
Risch and Booker if they are here, and then start from the 
beginning.
    I will see you at 2:15. [Recess.]
    Senator Corker. I call to order the Foreign Relations 
hearing, and we are going to begin with Senator Booker. Senator 
Risch ended up having a conflict. So we might reserve time for 
him when he is able to make it back.
    And with that, turn to one of our newest members, Senator 
Booker.
    Senator Booker. Mr. Chairman, I really appreciate this 
opportunity.
    Mr. Tillerson, thank you very much for being here. I think 
you should mark for the record that it is a testimony to your 
character that even your in-laws have stuck through this, which 
is something you rarely see. [Laughter.]
    Sir, I just want to follow up on a few points of testimony 
that I heard, and I know I had to leave, unfortunately, for two 
other committees that were meeting at the same time. So I may 
have missed some of this. But I know that folks are going to 
get back to some of the issues regarding many of the things we 
discussed.
    But I just want to know, U.S. Engage, do you know what USA 
Engage is?
    Mr. Tillerson. USA Engage?
    Senator Booker. Yes.
    Mr. Tillerson. No, sir. I am not--it is not ringing a bell 
with me.
    Senator Booker. So what my notes here say is that USA 
Engage is an industry lobbying group for oil companies that did 
a lot of lobbying. In fact, they worked very hard on lobbying 
against a lot of the U.S. sanctions that were in place, and you 
do not know if ExxonMobil is a member of USA Engage and pays 
into that group for those lobbying purposes?
    Mr. Tillerson. I do not know.
    Senator Booker. Okay. Would you be able to find that out 
for me for the record?
    Mr. Tillerson. You might want to put the question to 
ExxonMobil, or if it is not on the lobbying report, I----
    Senator Booker. All right. Thank you very much.
    Another issue before I get into my question, I just want to 
follow up on. You characterize some of the Obama administration 
foreign policy as characterized as weakness, that we did not 
show strength around the globe. Is that correct?
    Mr. Tillerson. I think it is an absence of asserting our 
leadership, yes, sir.
    Senator Booker. And you indicated that our response to 
Russian aggression in eastern Ukraine was one of those 
indicators of that weakness. Is that correct?
    Mr. Tillerson. That is my opinion, yes.
    Senator Booker. Right. And it seemed in the testimony that 
you were saying that such an aggression should be met with a 
proportional response that we did not show?
    Mr. Tillerson. Well, I do not think that is exactly the way 
I stated it. I think what I indicated in terms of the next step 
was my view of it is back to my predictability comment, that 
Russia is not unpredictable.
    That when the response to the taking of Crimea was met 
with, in my estimation, a response that was less than I suspect 
the leadership of Russia thought they would encounter, then the 
next move was logical to come across the eastern border of 
Ukraine. Because it was pretty well known that there were 
elements in eastern Ukraine that already were sympathetic to 
Russia interest.
    Senator Booker. And so that might be a case then when they 
annexed Crimea, entered into eastern Ukraine, this is a sign of 
weakness because we did not respond in a way that would deter 
further actions?
    Mr. Tillerson. Working with allies in the region and, 
obviously, working with the government in Kiev, both.
    Senator Booker. And so what we did do in those cases was to 
put together with the Europeans a way of sanctioning them 
economically, but that was not sufficient in your mind to stop 
them from their aggressions?
    Mr. Tillerson. Well, I think you are on to a really 
important point around sanctions, and obviously, there has been 
a lot of questions about sanctions. And so I think it is--it is 
good to try to clarify my view on those.
    As I have said, sanctions are a very powerful tool. They 
are an important tool. And they can be used in two 
circumstances. One is to punish someone or a country for what 
they have already done. The other is to intervene and cause 
them not to do certain things.
    And in this case, clearly, the sanctions that were put in 
place in response to Crimea did not deter them from entering 
into----
    Senator Booker. And so is it your opinion that----
    Mr. Tillerson.--Ukraine.
    Senator Booker. Is it your opinion then that our sanctions 
should have been much more severe, or do you think in that case 
there should have been a match of equal force, in other words, 
military action?
    Mr. Tillerson. That, the latter is--was my response in that 
in that situation, given the dramatic--the dramatic taking of 
Crimea, that was a dramatic action, sanctions were going to be 
insufficient to deter the Russian leadership from taking the 
next step.
    Senator Booker. And your opinion thinks it should have been 
military force then?
    Mr. Tillerson. I am sorry?
    Senator Booker. Your opinion then is that it should have 
been military force?
    Mr. Tillerson. My opinion is there should have been a show 
of force, a military response in defensive posture. Not an 
offensive posture, but in defensive posture to send the message 
that it stops here. It stops here. And sanctions, in my view, 
taken after the fact were not going to be adequate to deter 
that.
    Now that is my opinion. We will never know----
    Senator Booker. Right. But you understand----
    Mr. Tillerson.--how that would have played out.
    Senator Booker. You understand that if you put yourself in 
a defensive posture, there is an old saying that if you pull a 
gun, you should be prepared to use it. That that could quickly 
escalate into a conflict and you are going to be making 
decisions about whether we should have commit American troops, 
commit European troops. If there is a military response, 
obviously, they were not putting it forth in Crimea. It would 
have to come from someplace else.
    And do you understand that that seems to be that you are 
advocating for greater U.S.--use of U.S. military power, 
greater U.S. military engagement in conflicts like the one we 
saw in Ukraine?
    Mr. Tillerson. Senator, I am advocating for responses that 
will deter and prevent a further expansion of a bad actor's 
behavior. I would not in any way have wanted anyone to take 
away the thought that I would recommend that as the first 
action. And again, in any decision to respond with a show of 
force, that will be taken within the National Security Council 
and be fully informed by others, including Department of 
Defense and intelligence agents--agencies as to whether that 
would, in fact, first, can it be executed upon? Can it be 
effective? But looking at your other options as well.
    And again, I am not dismissive of the sanctions. That is 
just----
    Senator Booker. But you did characterize the Obama 
administration's decisions as weakness, even though you are 
saying that you would not necessarily do something different?
    Mr. Tillerson. In that instance, I would have done 
something different.
    Senator Booker. Military force?
    Mr. Tillerson. A show of force at the border of the country 
that had been--already had territory taken from them.
    Senator Booker. American military force in this case?
    Mr. Tillerson. No. I indicated Ukrainian military force, 
supported by the U.S. providing them with capable defensive 
weapons. If that is not seen across the border, then it is not 
a show of force.
    Senator Booker. Switching gears now, it is an American 
value, this value of transparency in government. Correct?
    Mr. Tillerson. Yes.
    Senator Booker. And accountability in government?
    Mr. Tillerson. Yes.
    Senator Booker. I have a concern, and it is not a great 
one--you could allay it right now--that as a leader of a 
private company, you made it clear in many ways that you were, 
first and foremost, accountable to shareholders, employees, and 
customers. But as the Secretary of State, you are accountable 
to the American public and would be expected to keep the media, 
the public constantly informed of general activities.
    And I just know that when my staff did a rough calculation 
of past Secretaries' interactions with the press, Clinton had 
over 3,200 in her 4 years. Secretary Kerry had about 3,000. 
When you were at ExxonMobil, it was a far, far smaller number, 
but I imagine as Secretary of State, you believe in the 
importance of transparency, of engaging with the public, of 
answering to the questions that often come from the media?
    Mr. Tillerson. Yes. And I indicated in my opening statement 
that that is part of earning the public trust is also to engage 
with this committee, and that is a way to communicate with the 
public as well.
    Senator Booker. And so you will bring press corps with you 
as you travel overseas, and you will commit to having those 
regular interactions with the press?
    Mr. Tillerson. If confirmed, I will look into what would be 
appropriate to take. I have not--I have not gotten that far in 
my thinking.
    Senator Booker. Okay. And so you have not thought through 
about issues of accountability and transparency?
    Mr. Tillerson. I have thought through issues of 
accountability and transparency. Your question was the size of 
my press corps, I think.
    Senator Booker. No, sir. It was not. My question was access 
of the media and the public to the work of the Secretary of 
State.
    Mr. Tillerson. We want to ensure at all times, if 
confirmed, that the Secretary of State and the State Department 
is fully transparent with the public. That is part of my 
comment of being truthful and being--you know, and holding 
ourselves accountable as well as others accountable.
    Senator Booker. Okay. Switching gears, and I will get back 
to this in the next round of questioning. In fact, I am going 
to yield back because it is a new line of questioning that I 
have.
    Senator Corker. Okay. I will, just as a matter of sharing 
some information regarding the supplying of lethal defensive 
support to Ukraine at a time when we were only sending used 
night vision goggles and MREs was something that was strongly 
supported in a bipartisan way on this committee under Chairman 
Menendez's leadership.
    I just want to say that for the record. And so I did not 
view the response to be necessarily in any way outside the 
norms of what this committee overwhelmingly supported at that 
time. I am just saying that for information, and I am more than 
glad to talk more fully about that.
    So we are going to start the second round. There are going 
to be seven-minute rounds, and we are going to go in the same 
order that we began.
    If Senator Risch comes in, I would like to be able to give 
him time since he was not around earlier and now has a 
conflict. And with that, I will turn to Senator Cardin again.
    Senator Cardin. Well, once again, thank you, Mr. Chairman.
    First, Mr. Chairman, in response to Senator Menendez's 
questions about lobbying in regards to the Iran Sanctions Act, 
just to make the record complete, I am going to ask consent to 
put into the record the lobbying disclosure form from 
ExxonMobil Corporation that indicates that approximately $3.4 
million was spent in lobbying on behalf of the Iran Sanctions 
Act.
    I will put that into the record, Mr. Chairman. Without 
objection. [Laughter.]
    Senator Cardin. I wanted to be chairman. I was putting some 
information into the record.
    Senator Corker. I understand you became the chairman while 
I was talking, but--[Laughter.]
    Senator Cardin. You always have to watch out.
    Senator Corker. Without objection.

    [The information referred to is located in Annex VIII, page 
541.]

    Senator Cardin. Thank you.
    Second thing, Mr. Tillerson, I want to just underscore a 
point. We talked about it in my office. It has come up several 
times, and that is you keep referring to your concern in 
regards to the Ukrainian sanctions that were imposed against 
Russia for their actions in Ukraine, that you were concerned 
that American companies could be at a disadvantage because of 
Europe being treated differently, the grandfathered clause, et 
cetera.
    And then we talk about leadership, and it was very true on 
Iran, and Senator Menendez took the leadership role on this, 
that but for the U.S. leadership role, we would not have gotten 
other countries to act.
    So if we take the position we are going to the lowest 
common denominator, we are not going to get anything really 
done. And you talk about being tough and taking tough 
positions, it requires leadership and requires us to be willing 
to go the extra amount.
    And one last point on this, and I agree with Senator 
Corker, we have never had any administration believe that 
Congress should just take away their discretion. That is 
absolutely fact. Whether there is a Democratic or Republican 
administration, they would just as soon do away with Congress. 
We understand that. We get it.
    But you, I assume, understand the advantage we have in 
America with the separation of branches of Government. And it 
can be helpful to you if you are confirmed as our principal 
negotiator, to have clear directions from Congress that you 
must impose sanctions, unless you get real progress towards the 
issues on which those sanctions will be imposed.
    Take advantage of the independent branch of Government. 
Work with us so you can have those strong tools to help 
America's interests.
    I am going to take most of my time on this round to go over 
an issue that Senator Corker and I have been working through. 
And I am not going to spend a lot of time. I am going to go 
over some of the issues on tax returns, and we will save that 
for a different time for our committee because it really 
involves an internal debate here more so than our nominee.
    But as a result, I had sent to you 20 questions to answer 
that are related to the tax issues because we did not have the 
tax returns. And before the close of business for asking 
questions, I will be proposing questions to you related to your 
tax issues in order to better understand areas that I think we 
need to have information on.
    I am concerned, I think members of the committee are 
concerned, that you will have some private interests. You are 
going to continue to operate a farm. You are going to have a 
charitable foundation. You have a real estate firm, a real 
estate partnership. We need to know a little bit more how that 
operates from the person who is going to be Secretary of State.
    You have trusts that are being set up and how those 
payments are paid out over time. We need to have better 
understanding how that operates during your term, if you are 
confirmed as Secretary of State. So that type of information is 
useful to us.
    I am still trying to figure out exactly how this trust that 
you are taking restricted stock and, if confirmed, selling it, 
they are putting cash in rather than restricted stock, but then 
you are able to withdraw the funds from the trust in the same 
schedule as, I believe, as the restricted stock would have 
become actionable. But as a result of that, you are also 
putting contingencies on your receipt so you can defer the 
taxes--at least as I understand, defer taxes for a significant 
period of time.
    These are issues that I think we have to have more 
transparency on because they are big dollars. One hundred 
eighty million dollars, if I understand, in restricted stock, 
the tax consequences are about $70 million. And these are not 
types of tools that can be used by average Americans. So I 
think we need to know more about those types of issues.
    We also have concerns about making sure that all of your 
employees have been properly documented and paid their taxes. 
That is a standard issue that has been raised now in 
confirmation hearings, and Senator Corker and I may not think 
it is relevant to the final confirmations--I should not say 
``relevant,'' determinative to a final confirmation, but it is 
certainly relevant for us to have that information before we 
make those answers.
    So, Mr. Tillerson, I am going to ask you to answer these 
questions for the record. I hope we will be able to get the 
cooperation in a timely way so that the committee can have this 
information before we are called upon to act on your 
nomination.
    You can respond.
    Mr. Tillerson. I am happy to try to answer the areas of 
concern you have, and I indicated that in the original 
questionnaire that it is my objective to address concerns you 
have. You know, I am--I am also, though, mindful of privacy 
issues that are afforded to every American and the privacy 
issues that are afforded under individuals' tax returns.
    So I will do my best to answer the questions that you have, 
but I hope you will also respect the privacy of myself and my 
family and the longstanding tradition of the privacy of 
individuals' tax returns.
    Senator Cardin. And I can assure you that that will 
absolutely be observed. As I had explained to Senator Corker, 
much of this information is not even reviewed by members. It is 
strictly by people who can tell us whether we have a problem or 
not. So I absolutely respect what you are saying, and my 
intentions are to fully maintain your legitimate rights of 
privacy.
    I look forward to following up on that, and I thank you for 
your reply.
    Senator Corker. Thank you.
    Just for the edification of the committee, I think that it 
is true that over the last four years, I have worked as the 
lead Republican on Foreign Relations to ensure that we move 
nominee candidates out as quickly as possible. I think that has 
been stated at every nominations meeting we have had.
    And what I have shared with the ranking member is we have a 
tradition here that we are following. This has not been a 
committee that has asked for tax returns. It has asked for an 
ethics-disclosure form. And just because we were so 
overwhelmingly helpful with a Democratic President's nominees 
does not mean that we want to be changing the standards or 
unhelpful, if you will, regarding Republican nominees.
    So I have tried to keep things exactly the same, exactly 
the same. Disclosures are exactly the same. And you know, I 
have told Senator Cardin that if there is a substantial issue 
that we need to look into that would affect Senator 
Tillerson's--excuse me. You do not want to be demoted to that. 
[Laughter.]
    The nominee Tillerson's role, then I am more than glad to 
look much deeper into it and if we need to have somebody from 
the outside to do so.
    But to get into silly ``gotcha'' questions, not that you 
have done that, that is just not what we have done in this 
committee. And I hope we will not turn this process into one 
that turns qualified people away from wanting to serve.
    So, again, if there is some substantive issue that we need 
to pursue and we need to get into some private setting and have 
someone come in from an accounting firm that really matters as 
it relates to his ability to not have conflicts as a Secretary 
of State or something like that, I am willing to look at it, as 
I know he is.
    Asking questions that are not in any way determinative in 
that manner, to me, is belittling the committee and certainly a 
huge change in the protocol and the respect with which we have 
dealt with nominees and their privacy in the past.
    Senator Cardin. Could I just say----
    Senator Corker. But I thank you for working with me on that 
part.
    Senator Cardin. If you would just yield for one moment? And 
I thank you for that. And I can assure you the disagreement on 
supplying tax returns has nothing to do with Mr. Tillerson. It 
is a discussion we are having, and it has not at all delayed 
any of our operations. And I fully expect that I will continue 
to use whatever means I can to change our committee practices 
so that we do have our nominees, as many other committees in 
the Senate require, file tax returns.
    That is not unique. Small Business, I have been told by 
Senator Shaheen, requires tax returns.
    But the second point I would just make very quickly is 
that, the ability of members to ask questions for the record 
and ask questions of the nominee has pretty well been 
respected. And I would hope that that right would not be 
diminished, that we have the ability to ask questions of the 
witnesses in regards to areas that we think are important.
    Senator Corker. No one in any way is trying to diminish 
that. I know that you and I have agreed on a series of 
questions that will come from the committee itself, and Mr. 
Tillerson, as I understand it, is going to answer those. I 
would think that absolutely the arrangement that he has with 
Exxon is something that should be fully vetted, and everyone 
here understands that that is going to happen. And he is going 
to make that all forth and has, actually.
    I would just say again, we may wish to change our standards 
four years from now. Our most recent Secretary of State, as I 
understand it, as a couple was worth over $1 billion, had all 
kinds of far-ranging investments. And as a committee, we never 
tried to force a tax return issue. They filled out the 
disclosures, and we as a committee asked them questions. Same 
thing happened with Secretary Clinton.
    So all I am trying to do is not in any way change the way 
that we operate because of the outcome of an election and 
continue to be, again, that island of bipartisanship, where we 
continue to operate, regardless of who wins an election, in the 
same manner.
    I am in no way trying to infer that you are attempting to 
do that. I am just telling you what I am attempting to do. And 
with that, if we can close this matter out, I will turn to 
Senator Rubio.
    Senator Rubio. Thank you.
    Mr. Tillerson, when we met on Monday night, and thank you 
for coming by, I provided you a copy of a bill that was filed 
in the last Congress, which I anticipate has or will be filed 
again in this new Congress here in the Senate by my colleague 
Senator Flake and Senator Leahy. What it would do is it would 
remove the travel ban to Cuba by Americans.
    If you are confirmed and that bill were to pass the 
Congress, would you advise--can you commit that you would 
advise the President to veto that bill?
    Mr. Tillerson. Senator, as to--as to the current status of 
travel to Cuba, that is going to be under discussion with the 
President-elect. I think he has been fairly clear on his intent 
that he is going to ask all agencies, essentially on day one, 
to do a complete review of recent executive orders and the 
change of the status of travel to Cuba as well as business 
activities in Cuba.
    So that would be--it would be my expectation that the 
President would not immediately approve that bill until after 
that review had occurred because that would be part of a 
broader view of our posture towards Cuba.
    Senator Rubio. Well, again, if he does not act on the bill, 
it would become law without a signature. So my question is, at 
this time, you cannot commit to supporting a veto of that bill, 
should it pass?
    Mr. Tillerson. Well, I would--I would support a veto 
because I do not think we want to change the current status of 
things until we have completed that review.
    Senator Rubio. Okay. That was the question I wanted to get 
to.
    Let me ask you this. If a bill were to pass Congress that 
would remove the U.S. embargo against Cuba, and there has not 
been democratic changes on the island of Cuba, would you advise 
the President to veto a bill that lifted the embargo on Cuba?
    Mr. Tillerson. If confirmed, yes, I would.
    Senator Rubio. And can you also commit that you would 
advise the President to reverse many, if not all, of the Obama 
administration's Cuba regulations and executive orders 
regarding Cuba that were recently submitted in 2014?
    Mr. Tillerson. As indicated, I expect a comprehensive 
review of all those executive orders, and from the State 
Department perspective, I would want to examine carefully the 
criteria under which Cuba was delisted from the list of 
terrorist--nations that support terrorism and whether or not 
that delisting was appropriate and whether or not the 
circumstances which led to that delisting still exist.
    Senator Rubio. You do not currently have an opinion at this 
time as to whether Cuba belongs on the list of terror sponsors?
    Mr. Tillerson. Well, I would need to examine all the 
criteria that were used to make the current determination and 
then utilizing the expertise of those in the State Department, 
again informed by the interagency process, to look at those 
criteria that would put Cuba back on that list.
    Senator Rubio. As I am sure you are aware, there is a 
dispute between China and Japan over control of the Senkaku 
Island chain. If China attempted to take over the island chain 
through the use of military force, would you support the United 
States responding with military force to prevent that from 
happening?
    Mr. Tillerson. Well, we have longstanding ally commitments 
with Japan and South Korea in the area, and I think we would 
respond in accordance with those accords, which are not a NATO-
type agreement. But certainly, we have made commitments to 
Japan in terms of a guarantee of their defense.
    Senator Rubio. I want to--because in your opening remarks, 
you referred to human rights, and I am glad that you did, and I 
wanted to walk you through a few examples quickly. I shared 
with you when we met on Monday a political prisoner database 
maintained by the Congressional Executive Commission on China. 
It contains more than 1,400 active records of individuals known 
or believed to be in detention.
    Do you believe China is one of the world's worst human 
rights violators?
    Mr. Tillerson. China has serious human rights violations. 
Relative to characterizing it against other nations, I would 
have to have more information. But they certainly have serious 
human rights violations.
    Senator Rubio. Okay. Well, since President Rodrigo Duterte 
took office last June, the Los Angeles Times reports that 
roughly over 6,200 people have been killed in the Philippines 
by police and vigilantes in alleged drug raids. In your view, 
is this the right way to conduct an anti-drug campaign?
    Mr. Tillerson. Senator, the U.S., America and the people of 
the Philippines have a longstanding friendship, and I think it 
is important that we keep that in perspective in engaging with 
the government of the Philippines that that longstanding 
friendship--and they have been an ally, and we need to ensure 
that they stay an ally.
    Senator Rubio. That is correct, Mr. Tillerson. But my 
question is about the 6,200 people that have been killed in 
these alleged drug raids. Do you believe that that is an 
appropriate way to conduct that operation, or do you believe 
that it is something that is conducive to human rights 
violations that we should be concerned about and condemning?
    Mr. Tillerson. Senator, if confirmed, again, it is an area 
that I would want to understand in greater detail in terms of 
the facts on the ground. I am not disputing anything you are 
saying because I know you have access to information that I do 
not have.
    Senator Rubio. This is from the Los Angeles Times.
    Mr. Tillerson. Well, again, I am not going to rely on 
solely what I read in the newspapers. I will go to the facts on 
the ground. I am sure there is--I am sure there is good, 
credible information available through our various Government 
agencies.
    Senator Rubio. Well, one of the sources for that number in 
the campaign and its nature is President Duterte himself, who 
openly brags about the people that are being shot and killed on 
the streets, who he has determined are drug dealers, without 
any trial.
    So if, in fact, he continues to brag about it, would that 
be reliable information that you would look at and say, okay, 
it is happening. I mean, what is happening in the Philippines 
is not an intelligence issue. It is openly reported in multiple 
press accounts. The President-elect has spoken about it. And 
quite frankly, the president of the Philippines has admitted to 
it, in fact, brags about it.
    So I guess my question is, is that, in your opinion, an 
appropriate way for him to act, and should it influence our 
relationship with the Philippines?
    Mr. Tillerson. If the facts--if the facts are, in fact, 
supportive of those numbers and those actions, then I do not 
think any of us would accept that as a proper way to deal with 
offenders, no matter how egregious the offenders may be.
    Senator Rubio. I am sure you are also aware of the lack of 
both religious freedoms and the rights--and lack of rights of 
women in Saudi Arabia. In your opinion, is Saudi Arabia a human 
rights violator?
    Mr. Tillerson. Saudi Arabia certainly does not share the 
same values of America. However, American interests have been 
advocating in Saudi Arabia for some time, and I think the 
question is what is the pace of progress that should be 
expected for the Kingdom of Saudi Arabia to advance--advance 
rights to women and others in the country?
    Senator Rubio. But as it currently stands, do you consider 
what they are doing to be human rights violations?
    Mr. Tillerson. I would need to have greater information, 
Senator, in order to make a true determination of that.
    Senator Rubio. You are not familiar with the state of 
affairs for people in Saudi Arabia, what life is like for 
women? They cannot drive.
    Mr. Tillerson. Yes----
    Senator Rubio. They have people jailed and lashed--you are 
familiar with all of that?
    Mr. Tillerson. Yes, Senator. I am familiar with all of that 
and----
    Senator Rubio. So what more information would you need?
    Mr. Tillerson. In terms of when you designate someone or 
label someone, the question is, is that the most effective way 
to have progress continue to be made in Saudi Arabia or any 
other country? So my interest is the same as yours. Our 
interests are not different, Senator, and there seems to be 
some misunderstanding that somehow I see the world through a 
different lens, and I do not.
    I share all the same values that you share and want the 
same things for people the world over in terms of freedoms. But 
I am also clear-eyed and realistic about dealing in cultures. 
These are centuries-long cultures, cultural differences.
    It does not mean that we cannot affect them and affect them 
to change. And in fact, over the many, many years that I have 
been traveling to the Kingdom, while the pace has been slow, 
slower than any of us wish, there is a change under way in the 
Kingdom of Saudi Arabia. How and if they ever arrive to the 
same value system we have, I cannot predict that.
    But what I do believe is it is moving in the direction that 
we want it to move. What I would not want to do is to take some 
kind of a precipitous action that suddenly causes the 
leadership in the Kingdom of Saudi Arabia to have to interrupt 
that. I would like for them to continue to make that progress.
    Senator Corker. Senator Menendez.
    Senator Menendez. I thank you, Mr. Chairman.
    Mr. Tillerson, I know that you are new to this, and I know 
that the chairman was trying to help you out on the question of 
lobbying on sanctions. You stated on the record that to your 
knowledge, neither you nor Exxon ever lobbied against 
sanctions, that you were merely seeking information.
    I have four different lobbying reports totaling millions of 
dollars, as required by the Lobbying Disclosure Act, that lists 
ExxonMobil's lobbying activities on four specific pieces of 
legislation authorizing sanctions, including the Comprehensive 
Iran Sanctions Accountability and Divestment Act of 2010; the 
Russian Aggression Prevention Act of 2014; the Ukraine Freedom 
Support Act of 2014; and the Stand for Ukraine Act.
    Now I know you are new to this, but it is pretty clear. My 
understanding is that when you employ lobbyists who submit 
lobbying forms under the law, you are taking a position. Is 
that not correct?
    Mr. Tillerson. If the form clearly indicates whether we 
were--I do not know. I have not seen the form you are holding 
in your hand. So I do not know it indicates were we lobbying 
for the sanctions, or were we lobbying against the sanctions?
    Senator Menendez. I know you were not lobbying for the 
sanctions. But----
    Mr. Tillerson. Well, if the form here----
    Senator Menendez. It says specifically, for example, here, 
specific lobbying issues--Russian Aggression Prevention of 2014 
provisions related to energy. You were not lobbying for 
sanctions on energy, were you?
    Mr. Tillerson. I think that is a description of the subject 
that was discussed. And I have not seen the form, Senator. So I 
do not want to be presumptuous here.
    Senator Menendez. Well, you do not--let me just edify for 
the future. You do not need a lobbying disclosure form to 
simply seek information and clarification about a bill. That is 
not lobbying.
    Lobbying specifically is to promote a view, a position, and 
what not. So that is--I would ask unanimous consent to have 
these included in the record.
    Senator Corker. Without objection.

    [The information referred to is located in Annex VIII, 
beginning on page 643.]

    Senator Menendez. So there was lobbying here. And I know 
that Senator Booker asked you about USA Engage, which you said 
you do not know about. But ExxonMobil is listed on USA Engage, 
whose whole purpose--and I am sure that while Exxon is a huge 
corporation, like the State Department is a very big entity, 
that you may not know every minutiae of what is going on, but 
you have to generally understand that you are giving direction 
as to whether or not you want to be lobbying on certain issues 
or not. You want to be taking positions on certain issues or 
not.
    And so just like you told me earlier that in your world 
conversation with the President-elect, you did not discuss 
Russia, it is a little difficult to think you actually do not 
know that Exxon was lobbying on these issues of sanctions.
    Mr. Tillerson. My understanding is those reports are 
required whether you are lobbying for something or you are 
lobbying against something. You are still required to report 
that you have lobbying activities.
    Senator Menendez. So you believe you were paying monies to 
lobby for sanctions?
    Mr. Tillerson. I do not know. All I know, Senator, is I do 
not recall----
    Senator Menendez. Could you imagine being in a position in 
which you would have your company and its shareholders pay 
money to lobby for sanctions that would affect your bottom 
line?
    Mr. Tillerson. I do not know, Senator. It would depend on 
the circumstance.
    Senator Menendez. All right. Let me turn to Mexico, a 
little different part of the world than we have been 
discussing. Some of us care about the Western Hemisphere.
    Last week, the President-elect tweeted that any money spent 
on building the great wall will be paid by Mexico. Mr. 
Tillerson, building a wall on the southern border and having 
Mexico pay for it has been a hallmark chant at Trump rallies.
    Now the President-elect says the American people will pay 
for it and then that the Mexicans will reimburse us. I also 
want to point out that the last time a country tried to wall 
itself completely from its neighbor was in Berlin in 1961, and 
that wall was constructed by Communist East Germany.
    Former Mexican president last week tweeted, and it seems 
that somehow we are conducting foreign policy by tweets these 
days, that ``Trump may ask whoever he wants, but still neither 
myself nor Mexico are going to pay for his racist monument. 
Another promise he cannot keep.''
    As you are well aware, the President-elect has repeatedly 
referred to Mexican citizens who have come to the United States 
as saying they are sending ``people that have lots of problems, 
and they are bringing those problems with us. They are bringing 
drugs. They are bringing crime. They are rapists. And some, 
some, I assume, are good people.''
    So, Mr. Tillerson, do you think Mexicans are criminals, 
drug dealers, and rapists?
    Mr. Tillerson. I would never characterize an entire 
population of people with any single term at all.
    Senator Menendez. Do you think that those comments help our 
relationship with Mexico, our third-largest trading partner, a 
trading partner that represents $583 billion in trades of goods 
and services, including our second-largest goods export market?
    Mr. Tillerson. Mexico is a longstanding neighbor and friend 
of this country.
    Senator Menendez. And so that does not help your job as the 
Secretary of State, does it, if you are to achieve nomination?
    Mr. Tillerson. Well, we are going to engage with Mexico 
because of their importance to us in this hemisphere, and we 
have many, many common issues, common areas of concern.
    Senator Menendez. Let me turn to another part in the 
Western Hemisphere. Senator Rubio referred to it. So he took 
care of some of the things I cared about. When you and I met, 
you indicated to me on Cuba that you needed more time, which is 
fair, to come to a conclusion about your opinion on U.S.-Cuba 
policy and the Obama administration changes.
    I want to share with you the latest report by--it is not 
me, okay--by Amnesty International that noted, ``Despite 
increasingly open diplomatic relations, severe restrictions on 
freedom of expression, association, and movement continue. 
Thousands of cases of harassment of government critics and 
arbitrary arrests and detentions were reported.'' Thousands, 
that is their quote.
    The Cuban Commission for Human Rights and National 
Reconciliation, which works within Cuba, documented more than 
8,600 politically motivated detentions of government opponents 
and activists during the year. There is a group of women who 
march every Sunday to church with gladiolas. They are called 
the Women in White. They get beaten savagely simply because of 
their peaceful protest.
    Now I would hope that you would agree with me that if our 
engagement is still going to allow that to take place, then 
something is wrong with our engagement. Something fell short. 
And I have a specific question on Cuba.
    Do you think that as a condition of establishing diplomatic 
relations with Cuba, we, at a minimum, should have insisted on 
the return of fugitives, cop killers like New Jersey cop killer 
Joanne Chesimard and other American fugitives of justice being 
harbored by the Castro regime?
    Mr. Tillerson. I do, Senator.
    Senator Menendez. Thank you very much.
    Now would you, finally, commit yourself, if you are 
confirmed as Secretary of State, to work with us and others, 
New Mexico, others have cop killers that are in--and other 
fugitives that are in Cuba, to make that conditioning of any 
future transactions as it relates to Cuba?
    Mr. Tillerson. Senator, if confirmed, I look forward to 
working with you most specifically, as well as Senator Rubio 
and others that I know have a great depth of knowledge on Cuba, 
to ensure that we are not relaxing the pressure on Cuba to 
reform its oppressive regime.
    And certainly, as I indicated in response to a question 
earlier and in my opening remarks, Cuban leadership got a lot 
out of the most recent deal. We need to make no mistake about 
where the flows of funds are going inside of Cuba, and the 
Cuban people got almost nothing.
    And as I indicated, the President-elect I think has been 
very clear on his intent to direct a bottoms-up review of the 
entire relationship with Cuba.
    Senator Menendez. Thank you.
    Senator Corker. I appreciate the great Senator from New 
Jersey acknowledging that when our nominee has left an 
impression that I do not think he is wishing to leave that I am 
giving him an opportunity to change that.
    Thank you.
    And with that, Senator Risch.
    Senator Risch. Mr. Chairman, thank you.
    Senator Corker. Senator Risch has got a ten-minute segment 
because he missed the first round. Thank you for being here.
    Senator Risch. Thank you, Mr. Chairman. I will not take 
that full 10 minutes.
    Mr. Tillerson, thank you for your willingness to do this. 
You are going to be hitting the ground at a very difficult time 
as far as U.S. relationships around the world. They have 
spiraled out of control from time to time, and we are not in a 
good place in many parts of the world primarily because of U.S. 
policy.
    And it is going to be rethought, it is going to be 
redeveloped, and I thank you for willing to take--for 
willingness to take that on.
    I was struck when you were named that this is something 
that has been a bit off of the radar screen of most Americans, 
and that is the importance of the work that the State 
Department does in dealing with our companies and with commerce 
in foreign countries. Most Americans do not realize how 
difficult it is to do business overseas, and the State 
Department really needs to focus on that more than what they 
have and be helpful to countries that do want to do business 
overseas because it is--a lot of times, it has to go through 
government sources to get into business over there.
    So I was impressed with that, and I am glad having your 
business background that you do, I think you are going to be 
very helpful in that regard and helping the State Department 
further understand its responsibilities in that regard.
    And the State Department does a good job. Every one of us 
have traveled overseas, sometimes in bipartisan fashion. Is 
that not right, Senator Shaheen? And we are always treated, 
regardless of the political party, so well by our people, State 
Department people that are working there.
    We have talked a lot. Russia has got a lot of play in this 
meeting, but we have not talked much about Iran and North 
Korea. Those are a couple of real challenges for us.
    And those policies, as far as those two countries are 
concerned, really need to be rethought and recalibrated and 
then re-announced in a way that they understand what America is 
going to do, where we are coming from and what we are going to 
do. I think the--in talking with people, our allies, they are 
confused as to where we want to go with this and what we are 
going to do and how we are going to do it.
    And the same, the same is true with ISIS. How we are going 
to handle that situation where they are operating both in Iraq 
and Syria. So I am not going to press you on those because you 
are just getting your feet on the ground, and I hope the 
President-elect will be--after you are able to get your arms 
around these things, he will listen to you carefully as to the 
policies we are going to develop for that. The policies need to 
be entirely different than what they are.
    In that part of the world, the sipping tea and singing 
``Kum Ba Yah'' is not a way that you are going to be successful 
in a lot of those countries. They understand strength. Not 
necessarily the use of strength, but they understand people who 
possess strength and people who they are convinced will use 
that strength if necessary.
    They need to be convinced of that, and I know there is a 
lot of people complaining about the relationship between Mr. 
Putin and the President-elect and, for that matter, yourself 
and Mr. Putin. I hope Mr. Putin gets to know both of you guys 
really, really well because I think he will be convinced that 
you do project American strength and that America still has the 
muscle that it has had and that we still stand for what we 
stand for, and we are going to project that around the world.
    So in that regard, I really hope that Mr. Putin does have a 
relationship to where we gets to know both of you guys, and 
especially the President-elect, because I think that that will 
impress him that he is not going to be able to get away with 
the kind of stuff that he has gotten away with in the Crimea or 
in Syria or in other places where they have been meddling in 
the world where they should not be.
    So, finally, let me say again thank you for your 
willingness to do this. I have been impressed as we have been 
sitting here. You know, the meeting we had in my office was 
very good. We were able to develop a lot of these thoughts a 
lot more deeply than we can here.
    And I want to say that I have been really impressed. Having 
come from a private sector background myself, it is difficult 
for people to understand that the transition from the private 
sector and business into the world of diplomacy is very 
different. It is a transition that needs to be made.
    And just sitting here listening to you over the hours that 
you have been here, I have been very impressed that you have 
been able to make that transition. You are speaking in terms 
that the diplomats understand. I appreciate that. I think it 
will serve you well as you go forward.
    So, again, thank you for willingness to do this, and with 
that, I will yield back time, Mr. Chairman.
    Senator Corker. Thank you. This was the last person of the 
first round. So we are going to get back into the sync we were 
in before.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman. Mr. Tillerson, I 
want to go back to the four responsibilities that Secretary 
Gates laid out for the Secretary of State--advise the 
President, negotiate agreements, represent us abroad, and lead 
the State Department.
    Take representing the U.S. abroad. I met you the morning I 
returned from my trip to Israel, which was a couple days 
before, I would term it, the U.S.'s shameful abstention in that 
vote on settlements.
    I have never understood why any administration, we have 
done this in a bipartisan fashion, would force a friend, an 
ally, to sit down and negotiate with those that refuse to 
acknowledge their right to exist. I mean, that is the table 
stakes, right? It would be like forcing negotiation to buy a 
company somebody does not want to sell.
    Do you have a similar type of view on that? I appreciate 
the fact that you think, and I agree, that actually complicates 
the future negotiation.
    Mr. Tillerson. Well, I do have a view on it, Senator, and 
thank you. It would be akin, in many respects, if you were 
negotiating with someone that denies your right to exist, you 
would have to question, well, why would they ever live up to 
any agreement if they do not expect you to be around? So it is 
already a complex negotiation, and then to force one party to 
the table through coercion, or however you want to describe the 
most recent resolution, is not useful.
    There have been many opportunities since the Oslo Accord 
for parties to sit down and try to work things out. The 
leadership certainly has not seized those opportunities. I 
would say in the case of the Palestinian leadership, while they 
have renounced violence, it is one thing to renounce it, and it 
is another to take concrete action to prevent it.
    And I think until there is a serious demonstration on their 
part that they are willing to do more than just renounce the 
violence, they are willing to do something to at least 
interrupt it or interfere with it, it is going to be very 
difficult to create conditions at the table for parties to have 
any productive discussion around a settlement.
    Senator Johnson. Do you agree that Israel has conceded just 
about every point, and at this point in time, the Palestinians 
just refuse to say yes?
    Mr. Tillerson. Well, I think there have been many, many 
opportunities again for progress to be made, and those have 
never been seized upon. So I do think it is a matter to be 
discussed and decided between the two parties.
    To the extent America's foreign policy engagement can 
create a more--a more fruitful environment for those 
discussions, then I think that is the role we can play. But at 
the end of it, this has to be settled between these two 
parties.
    Senator Johnson. Our policy should be to help strengthen 
our friends. In terms of negotiating agreements and advising 
the President, I think Congress has willingly given away its 
advice/consent power most famously in the recent Iranian 
agreement.
    If you look at the Federal--or the Foreign Affairs Manual, 
I think it makes clear that the Iranian agreement was a treaty, 
and I think had we honestly upheld our oath of office, that 
vote on my amendment deeming that a treaty should have been 100 
to 0. Every Senator should have voted to support and defend the 
Constitution, which first starts with jealously guarding our 
advice and consent power.
    Would you advise--first of all, do you believe that was a 
treaty?
    Mr. Tillerson. It would have all the appearances of a 
treaty. It looks like a treaty.
    Senator Johnson. What about the Paris Climate Accord, which 
commits us to a fair amount of expenditure? Do you believe that 
is a treaty or just an agreement that the executive can enter 
into on its own?
    Mr. Tillerson. It looks like a treaty.
    Senator Johnson. Will you work with us then, will you 
advise the President as you go negotiate for this Nation, to 
respect the Constitution and come to Congress, come to the 
Senate for advice and consent on treaties?
    Mr. Tillerson. Senator, I respect the proper roles of both 
branches of Government. In my conversations with the President-
elect, he does as well, and I think he has expressed some of 
these same views that under the past administration, the 
executive branch has gone pretty far out there in terms of 
recognizing the proper role of Congress as a body to express 
its own view on some of these agreements.
    Senator Johnson. As for leading the State Department. You 
were the CEO of a successful organization of 75,000 employees. 
But they are employees that have the same mission statement. 
They understand their roles to achieve the goals. They are 
actually supportive of the goals of the organization.
    You are going to be assuming the leadership of a department 
that, let us face it, in many cases, you have entrenched 
bureaucrats that not only do not necessarily agree with your 
foreign policy or the next administration's foreign policy, and 
might be hostile to it. Do you understand that challenge, and 
as an experienced manager, how are you going to react to that? 
How are you going to deal with that?
    Mr. Tillerson. You are right, Senator. The State Department 
has a little over 70,000 employees, interestingly about the 
same size of the organization that I led when I was at 
ExxonMobil, about more than 40,000 of those State Department 
employees are deployed overseas. Interestingly, about 60 
percent of ExxonMobil's employees are not Americans.
    So in terms of understanding and dealing with people who 
are representing you around the world and they are half way 
around the world in various embassies and missions, how do you 
get all of these people aligned with one objective? And the 
objective is America's interests and America's national 
security.
    So I think part of leadership is expressing very clear 
views, and part of leadership is having an organization that 
has clear line of sight on issues as to who owns these and who 
is going to be held accountable for them and having an 
organization that is all working in concert toward that 
objective.
    My experience has been that people, people look for 
leadership. And when they are acting in ways that are contrary 
to the overall mission, it is generally because there has been 
an absence of strong leadership to clearly define to them what 
that expectation is and what their role in it is. And then 
reward people who are behaving in a way that supports the 
overall mission and not support their own agenda.
    I have used the term many times in large organizations of 
``working in the general interest.'' Well, the general interest 
of the State Department is the American people's interest.
    And if anyone is working in a way that is only to advance 
their own interest, they are not working in the general 
interest. And I think it is important that people understand 
that is the responsibility of all of us who will serve the 
country in the State Department is the general interest, which 
is the American people's interest.
    Senator Johnson. Thank you, Mr. Tillerson. And good luck in 
your next assignment.
    Senator Corker. Thank you. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And I am glad you came back after lunch, Mr. Tillerson. I 
appreciated very much your response to that question because I 
have to say my experience with State Department employees is 
that the overwhelming majority of them are dedicated. They are 
dedicated to this country. They do their work often at great 
personal sacrifice, and I think we should appreciate the work 
that they do, and it sounds to me like you share that 
appreciation for the sacrifices that they make.
    Mr. Tillerson. I most certainly do, Senator. I have a great 
affection for those who are willing to take these overseas 
assignments. Many of them are in very difficult locations, and 
particularly when their families go with them, they truly are 
sacrificing on behalf of this country. And I think that they 
deserve the recognition for that and the appreciation for it.
    Senator Shaheen. Well, thank you.
    There has been some discussion today about the concerns 
that this committee has expressed about--which I think are 
legitimate, about potential conflicts of interests that you 
might face if confirmed as Secretary of State because of your 
long career at Exxon. And while I understand there are some 
concerns about the precise approach that you have taken to 
divest your financial interest in Exxon, I do appreciate that 
you have taken these concrete actions and that you plan to take 
more if you are confirmed.
    And I wonder if you could talk about why you think that is 
important?
    Mr. Tillerson. Well, Senator, and again, as I commented in 
response to a question earlier, I had a great 41 1/2 year 
career. I was truly blessed, enjoyed every minute of it. That 
part of my life is over. I have been humbled and honored with 
the opportunity to now serve my country. Never thought I would 
have an opportunity to serve in this way.
    And so when I made the decision to say yes to President-
elect Trump when he asked me to do this, the first step I took 
was to retain my own outside counsel to begin the process. And 
the only guidance I gave them is I must have a complete and 
clear, clean break from all of my connections to ExxonMobil, 
not even the appearance. And whatever is required for us to 
achieve that, get that in place.
    I am appreciative that the ExxonMobil Corporation, who are 
represented by their own counsel, and the ExxonMobil board were 
willing to work with me to achieve that as well. It was their 
objective, too.
    And in the end, if that required me to walk away from some 
things, that is fine. Whatever was necessary to achieve that, 
and again, I told people I do not even want the appearance that 
there is any connection to myself and the future fortunes, up 
or down, of the ExxonMobil Corporation.
    Senator Shaheen. Well, again, thank you very much for that.
    I am sad to say that I think it stands in stark contrast to 
what we heard from President-elect Trump today, who announced 
that he is not going to divest himself of his vast business 
interests around the world. So I do appreciate your recognition 
that this is important for maintaining the integrity of the 
position with the American public and the world.
    You talked about eliminating ISIS as one of your top 
priorities if you are confirmed. And your opening statement 
connects radical Islam to ISIS, and you also make the point of 
saying that you think it is important to support Muslims around 
the world who reject radical Islam.
    During the last Congress, this committee heard about the 
importance of working with the Muslim community in the United 
States to combat ISIS and the domestic terrorists that have 
been produced as the result of ISIS ideology. In your view, is 
it helpful to suggest that, as Americans, we should be afraid 
of Muslims?
    Mr. Tillerson. No, Senator. In my travels--and because of 
my past work, I have traveled extensively in Muslim countries, 
not just the Middle East, but throughout Southeast Asia, and 
have gained an appreciation and recognition of this great 
faith. And that is why I made a distinction that we should 
support those Muslim voices that reject this same radical Islam 
that we reject. This is part of winning the war other than on 
the battlefield.
    I mentioned we have to win it not just on the battlefield. 
We have got to win the war by this, and our greatest, one of 
our greatest allies in this war is going to be the moderate 
voices of Muslim, of people of the Muslim faith who speak from 
their perspective and their rejection of that representation of 
what is otherwise a great faith.
    Senator Shaheen. And so do you support restricting travel 
or immigration to the United States by Muslims?
    Mr. Tillerson. I think what is important is that we are 
able to make a judgment about the people that are coming into 
the country, and so, no, I do not support a blanket-type 
rejection of any particular group of people.
    But clearly, we have serious challenges to be able to vet 
people coming into the country. And particularly under the 
current circumstances because of the instability in the parts 
of the worlds that is occurring and the massive migration that 
has occurred out of the region and a lack of any documentation 
following people as they have moved through various other 
countries, it is a huge challenge.
    And I do not think we can just close our eyes and ignore 
that. We have to be very clear-eyed about recognizing that 
threat and developing a means to deal with it.
    Senator Shaheen. Well, I certainly agree with that, which 
is very different, I think, than a ban on an entire religion, 
people of that religion.
    Do you support creating a national registry for American 
Muslims?
    Mr. Tillerson. I would need to have a lot more information 
around how such an approach would even be constructed, and if 
it were a tool for vetting, then it probably extends to other 
people as well, other groups that are threats to the U.S. But 
that is a--it would just require me much more information 
around how that would even be approached.
    Senator Shaheen. And one of the things you and I discussed 
when we met was the Special Immigrant Visa program that we have 
maintained for Afghans who have helped our men and women in the 
military on the ground. And will you support continuing that 
program to ensure that those people who have been properly 
vetted, who helped our men and women, are able to come to this 
country when their lives are threatened in Afghanistan?
    Mr. Tillerson. The Special Visa Waiver program, it is 
important that we protect those whose lives are truly at risk 
because of their efforts to assist our American military forces 
or other forces in Afghanistan. I think it is also important to 
make the distinction--otherwise, we undermine this program and 
risk losing it--and not expand it to allow other people to come 
through the program that are not truly at risk.
    And so it is--I think it is the execution. And this gets 
back to following through on what the intent of these programs 
were, and let us be very specific and execute well and not get 
sloppy in the execution and start having a lot of other folks 
coming through the program that really do not meet that 
criteria.
    Senator Shaheen. Well, thank you. I think Congress has 
pretty narrowly focused the program. I appreciate that.
    Senator Corker. Thank you.
    And I do want to say I appreciate the fact that you were 
able to highlight that the Secretary of State shares his views. 
Ultimately, he has to carry out the policies of the President, 
or he is not successful.
    But I think it is good to distinguish that sometimes people 
have very different views, and they lobby strongly for those 
views, and that is what we are wanting to hear from is what Mr. 
Tillerson's views are on these issues and how he will attempt 
to persuade the administration. He may not be successful, but I 
thank you for highlighting that just now.
    Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman. Mr. Tillerson, 
thank you again for continued patience and participation in 
this very important discussion.
    I would follow up with many of the discussions today on 
human rights issues. I just was notified that the 
Administration has sanctioned two additional individuals in 
North Korea under the legislation that we passed this past 
year, the North Korea Sanctions Act. The younger sister of Kim 
Jong-un was sanctioned for human rights violations as well as 
the Minister of State Security in North Korea.
    I think it is important that we continue, and I appreciate 
your commitment that you gave me in the prior round of 
questioning about your commitment to the mandatory sanctioning 
of people who carry out human rights violations. It is 
something that we can do together. It is something the 
Administration and Congress should work together to make sure 
that we are trying to protect people from tyrants around the 
globe who would murder their own people.
    Mr. Tillerson, you mentioned Southeast Asia in your last 
answer to Senator Shaheen. China has been actively reclaiming, 
building islands in the South China Sea, 3,000 acres of land 
since reclamation activities commenced in 2013. Reports and 
open source information that they have militarized some of 
these reclamation areas. We authored legislation last year, a 
resolution that called for the Obama Administration to take a 
very strong or much more aggressive approach to these 
activities in the South China Sea, including additional and 
more frequent freedom of navigation operations, overflights of 
the South China Sea. In July, The Hague, the International 
Tribunal, ruled against China, held that they violated 
Philippines' sovereignty.
    What do you believe the position of the United States ought 
to be in the South China Sea, and what more could we be doing 
to stop China from violating international law?
    Mr. Tillerson. Well, I think when it comes to China, and 
you mentioned North Korea previous to this, that we have really 
got to take what I would call a whole--a whole of China 
government approach. I think part of where we struggle with 
China, and I mentioned it in my opening remarks, we do have 
important economic relationships. As I said, our economies are 
intertwined, but we have got to step back and look at all of 
China's activities.
    And the one you mentioned now, the island building in the 
South China Sea, the declaration of control of airspace in 
waters over the Senkaku Islands with Japan, both of those are 
illegal actions. They are taking--they are taking territory or 
control or declaring control of territories that are not 
rightfully China's.
    The island building in the South China Sea itself in many 
respects, in my view, building islands and then putting 
military assets on those islands is akin to Russia's taking of 
Crimea. It is taking of territory that others lay claim to. The 
U.S. has never taken a side on the issues whether we--but what 
we have advocated for is, look, that is a disputed area. There 
are international processes for dealing with that, and China 
should respect those international processes. As you mentioned, 
part of--some of their actions have already been challenged at 
the--at the courts in The Hague, and they were found to be in 
violation.
    So, it is--China's activity in this area is extremely 
worrisome, and I think, again, a failure of a response has 
allowed them just to keep pushing the envelope on this. So 
again, we find--we are where we are, and we just have to deal 
with it. And the way we have got to deal with it is we have got 
to show back up in the region with our traditional allies in 
Southeast Asia, and, I think, use some existing structures to 
begin the reengagement. Use ASEAN, which most of the members of 
ASEAN are affected by this.
    You have got $5 trillion of economic trade that goes 
through those waters every day, and this is a threat to the 
entire global economy if China is allowed to somehow dictate 
the terms of passage through these waters. So, this is a global 
issue of great importance to many, many of our important 
allies, but certainly to people in the region.
    Senator Gardner. And you would support a more aggressive 
posture in the South China Sea.
    Mr. Tillerson. We are going to have send China a clear 
signal that, first, the island building stops, and, second, 
your access to those islands is also not going to be allowed.
    Senator Gardner. Thank you, Mr. Tillerson. Last year I 
passed legislation that would encourage Taiwan's entry into the 
international police organization, Interpol. It was signed into 
law by the President. The President has made it clear that 
Taiwan is our friend, and last Sunday mainland Chinese, as a 
result of some of President-elect Trump's activities and 
actions, the state-run newspaper, the Global Times, said the 
following: ``If Trump reneges on the one China policy after 
taking office, the Chinese people will demand the government to 
take revenge. There is no room for bargaining.'' The editorial 
also went on to say that should--they should ``also impose 
military pressure on Taiwan and push it to the edge of being 
reunified by force.''
    Combined with the PRC's recent show of force exercised 
around Taiwan, it appears that Beijing has increased its 
pressure considerably on Taiwan. Can you share with this 
committee the Administration's--the Trump Administration's 
position on Taiwan, and its position on the one China policy?
    Mr. Tillerson. Well, I think with respect to Taiwan, we 
have--we have made important commitments to Taiwan through the 
Taiwan Relations Act, through the Six Issues Accord, and I 
think we should express a reaffirmation of those. Again, this 
is part of this approach that I am trying to lay out over and 
over that we have made commitments to people. We need to 
reaffirm those commitments and live up to those commitments. 
And I think it is important that Taiwan know that we are going 
to live up to the commitments under the Relations Act and the 
Six Issues Accord.
    That in and of itself is a message, so I think the 
importance of that action to, again, this whole of China 
approach that I am speaking about is we have got to deal with 
the whole of China's actions and recognize that we have these 
balancing forces in our relationship that need to be dealt 
with.
    Senator Gardner. In terms of the one China policy, the new 
Administration's position.
    Mr. Tillerson. I do not know of any plans to alter the one 
China position.
    Senator Gardner. Thank you. And an issue back in Colorado 
that I think is very important, and it is coming to the 
attention of a lot of people around the country as they hear 
from NGOs, Compassion International, a faith-based group in 
Colorado, has served nearly two million children living in 
extreme property around the world. They have operated in 
Colorado since--Compassion has operated in India since 1968. 
They have contributed nearly $50 million in aid to India. They 
have provided one-to-one scholarships for 145,000 Indian 
children. But since 2014, Compassion has been the target of 
multiple coordinated governmental attacks because of its 
unapologetically Christian belief, and--but it has been 
delivering humanitarian services to hundreds of thousands of 
Indian children. But due to the restrictions by the Indian 
government, they have been unable to fund its India operations 
since February of 2016 despite having broken no laws.
    I believe the State Department should take notice that this 
ill treatment of Compassion International should stop. It is 
part of a broader pattern by the government of India where 
other NGOs have seen similar problems. The State Department 
should insist the Indian government release Compassion funds, 
restore its FCRA licenses, and permit Compassion to immediately 
resume its humanitarian operations, and we would just 
appreciate your assistance on that. This is a pattern that is 
very disturbing as the organization does nothing more than try 
to help children in poverty.
    Mr. Tillerson. Senator, I appreciate you bringing it to my 
attention and look forward, if I am confirmed, to discussing it 
further with you.
    Senator Corker. And I also appreciate you bringing that up. 
I know Chairman Royce is very concerned about this issue, and I 
know he will be thankful that you brought it to everyone's 
attention here today. Thank you.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman. Mr. Tillerson, in 
your capacity as CEO of ExxonMobil, you praised the Paris 
Agreement last year noting that addressing climate change, and 
I quote, ``requires broad-based, practical solutions around the 
world.'' Do you personally believe that the overall national 
interests of the United States are better served by staying in 
the Paris Agreement? If so, why, and if not, why not?
    Mr. Tillerson. As I indicated earlier in a response, I 
think having a seat at the table to address this issue on a 
global basis, and it is--it is important. I think it is 190 
countries or thereabouts have signed on to begin to take 
action. I think we are better served by being at that table 
than leaving that table.
    Senator Udall. And I think you understand that it has 
been--it has been a generation or more that it has taken to get 
all the countries at the table to sign an agreement, be willing 
to move forward with targets. And it would be very unfortunate, 
I think, to move away from the table. So, thank you for your 
answer there.
    I just wanted to follow up on a discussion Senator Flake 
had with you in the first round urging you to look at the 
successes of our policy change in Cuba. And this is mainly 
because you, as CEO at Exxon, I suspect that you had a low 
tolerance for old ideas that had failed to produce positive 
results.
    Regardless of what one thinks about the Cuban government, 
no one can argue that the policy of embargo and isolation has 
achieved any progress. The proof is right in front of us. The 
Castro regime endures, and I am a strong supporter of the 
policy of reengagement, which has already produced results.
    And, you know, you mentioned you are going to do a bottoms-
up review. In thinking about that bottoms-up review, I would 
just point out that these things that I am going to mention 
have happened and are very positive. First of all, we have 
worked with the Cubans to combat diseases, such as Zika, 
diabetes, and a multinational effort to combat Ebola in Africa. 
Efforts to increase access to the Internet have paid off with 
new Wi-Fi hotspots in Havana, and increased efforts to bring 
improved cellular access to the island, including roaming deals 
with U.S. carriers; increased bilateral business activity 
supported by the U.S. Chamber of Commerce and the Hispano 
Chamber of Commerce. And last week, the United States and Cuba 
signed a bilateral agreement to prepare for and respond to oil 
spills and hazardous substance pollution in the Gulf of Mexico 
and the Straits of Florida.
    Our new policy towards Cuba, according to a 2015 Pew 
Research poll, shows that 72 percent of Americans support the 
renewed diplomatic relations, and 73 percent support ending the 
embargo. I doubt that there are many issues where such a vast 
majority of the American people agree, and I hope we will not 
be letting those Americans down by returning to a period where 
such efforts are made impossible by a failed policy that showed 
no results. Instead, I hope you will continue to work to 
support the Cuban small business owner, almost 500,000 licensed 
businesses and growing, and to continue the engagement which 
has led to increased opportunities for both Cuban and American 
businesses in Cuba.
    Will you recommend to President-elect Trump a policy of 
engagement with Cuba in order to foster the change that is 
needed on the island, or do you prefer to go back to the old 
policy of the past 50 years that failed to bring real change or 
undermine the Castro regime?
    Mr. Tillerson. Well, Senator, again, if confirmed, the job 
of the--of the diplomat is to engage, and so engagement is 
always preferred, and our doors are always open to want to 
engage to effect change.
    But I think we have to be--we have to be honest with 
ourselves about the engagement with Cuba. There is longstanding 
or longstanding statutes in place that govern that 
relationship: the Helms-Burton Amendment, the trading--the 
designated list of state sponsors of terrorism, and their 
specific criteria around whether we and organizations, and 
those who are doing--conducting affairs in Cuba are in 
compliance with those statutory requirements.
    So, if we are able to engage in a positive way and still 
meet all of the compliance of those statutes, then that is a 
good thing. I do not know because I have not had the 
opportunity to have a fulsome examination, as I said earlier, 
of what changed because there is a lot of activity that has 
been enabled, and obviously someone had to make a determination 
that something changed.
    Did it, in fact, change? I would like to see the--all the 
documentation, the information around that. Otherwise, if we 
are going to change the relationship, we have got to change the 
statutes as well. So, I am--you know, again, kind of this 
common theme maybe you are hearing from me is I believe we live 
up to the agreements, and we live up to the laws, and we fully 
enforce them. They were put there for a reason. If 
circumstances change and we need to change our posture on those 
as well.
    But that is the reason I think it demands a bottoms-up 
review because a lot of things have been changed in the recent 
past year, much of it by executive order. And I think the 
President-elect has indicated he would really like to 
understand all of that. What was the criteria that the State 
Department used to make its determinations? That is what he is 
going to be asking me.
    Senator Udall. Well, the reason I cited those polls is I 
think the American people are at the point of wanting those 
statutes to be set aside. And I quoted one, and so I do not 
want to argue with you. But I very much appreciate your answers 
in terms of consulting State Department people. And, you know, 
I cannot think of better professionals than these State 
Department professionals who have spent decades learning about 
the regions that they serve in, the specific countries they 
work on. And I appreciate your thoughtfulness in terms of doing 
that.
    And just a final question here is, Senator Menendez 
mentioned the whole issue of fugitives. We also have a fugitive 
by the name of Charlie Hill who I believe should be brought to 
justice. And I really believe that we have a better chance at 
getting him out, and we are already having discussions, if we 
engage with them rather than going back to a policy of 
isolation.
    So, with that, thank you very much, Mr. Chairman.
    Senator Corker. Thank you, sir. Senator Flake.
    Senator Flake. Thank you. We will continue on the same 
theme for just a bit. I want to talk for a minute about what is 
it--we hear the word ``concession'' a lot, and we should not 
make concessions to dictators or despots.
    Part of the--some of the executive orders that have been 
taken over the past couple of years, one of the first of which 
is in 2009, we found that Cuban-Americans who had family still 
in Cuba, would have to choose between going to their mother's 
funeral or their father's funeral if their parents died within 
the same three years. What a horrible thing to ask of an 
American.
    Do you believe that it is a concession to the regime to 
allow a Cuban-American to visit or to go to his father or 
mother's funeral in Cuba?
    Mr. Tillerson. Senator, these are really heartbreaking 
questions that, again, I take--I have to take us back to what 
are our statutes, you know. What are the provisions that govern 
that, and these are the--these are where exceptions become 
really difficult.
    Senator Flake. Right.
    Mr. Tillerson. And so, I want to be honest with you when I 
say my expectation is, if confirmed, is to--is to do a complete 
bottoms-up review of all these issues, you know. Under what 
provisions are we making exceptions? What provisions allow for 
a waiver? Under what conditions can we grant perhaps an 
exception for someone to resolve these really--these difficult 
personal issues for people, but not undermine our American 
values, which is the leadership of Cuba must change the way it 
treats its people.
    Senator Flake. Right. I do not think it was in the 
President's executive authority to make that change. I do not 
think it was questioned. There were certainly no lawsuits filed 
or any real resistance. As soon as Cuban-Americans started to 
travel back to Cuba, it was assumed this is a great thing, and 
hundreds of thousands of them have and have remitted more 
money. It was illegal for them to send fish hooks to their 
family members on the island before. Those are some of the 
restrictions that were removed. I would submit that those are 
not concessions to a regime. It is not a concession to a regime 
to allow Americans to travel. Those sanctions are on Americans, 
not Cubans.
    In the same vein, with regard to diplomatic relations, we 
have diplomatic relations with some pretty unsavory countries, 
or the leadership of some countries is pretty unsavory. We have 
diplomatic relations with Saudi Arabia. We do not agree with 
how they treat women and political opponents in that country. 
Is it a concession to the regime to have diplomatic relations 
with the country?
    Mr. Tillerson. Well, this is a question, again, that is--
that is grounded in longstanding historic policy of the United 
States----
    Senator Flake. Right.
    Mr. Tillerson.--and that policy and the statutes that 
govern that policy. If the time has come for statutes to be 
altered, that will be the role of Congress to alter those 
statutes.
    Senator Flake. Right. Exactly.
    Mr. Tillerson. In the meantime, at the State Department, if 
I am there and confirmed to be there, it is our role to enforce 
what Congress has expressed its desire. And so, if the judgment 
of the Congress and the judgment of the State Department, the 
President-elect through consultation, views that we have moved 
to a different place, then we should address that, but not just 
ignore what the law of the land is.
    Senator Flake. Right. No, I understand that completely. I 
am just saying that diplomatic relations with countries is not 
a concession to those countries. It is in our national 
interest. It is the way we practice state craft and diplomacy 
is to have diplomatic relations, and I would suggest that that 
is the same with Cuba.
    As mentioned, there are fugitives from justice in Cuba that 
we would like back. There are fugitives from justice in a 
number of other countries that we would like back as well. We 
use our diplomatic relations, we use state craft and diplomacy 
to try to arrange those things. If we have said to every 
country that held fugitives from justice we are going to 
withhold diplomatic relations, recall our ambassadors, where 
would we be?
    And so, I would suggest that a review is prudent. I am glad 
that the Administration is undertaking a review. I believe that 
a review will conclude that some of the measures that have been 
taken allowing Americans to travel to Cuba, we still have 
restrictions. I would suggest that the restrictions that are 
still in place simply force Americans to place more money in 
the government's hands when they do travel to Cuba, Cuban-
Americans and other citizens of this country; that if we just 
lifted the travel ban completely and they could more easily 
ensure that more money goes to family members and entrepreneurs 
on that island. So, I am glad that a review is taken--going to 
take place, and I am glad that you are going to be a part of 
that review.
    Just in a minute and a half left. You have talked a lot 
about sanctions. As I mentioned in the beginning, I share your 
aversion to sanctions, particularly when they are practiced 
unilaterally. What other--sanctions are simply a method we have 
or a tool to change behavior or to induce or to punish 
countries. What other tools do we have without resorting to 
sanctions?
    Mr. Tillerson. Well, depending on exactly what the issue is 
and what the target country is, certainly we have other tools 
related to our trade policies in general. We have tools related 
to our immigration and visa exchange policies, in particular, 
in terms of the soft power side of this. Obviously, we always 
have the hard power tool to use.
    And so, I think it does depend on the specific country, the 
specific issue, what our relationship has been, what are--you 
know, what are the pressure points that are going to--if they 
are going to feel it, because just--and that is the issue I 
have around ensuring that sanctions are properly structured so 
that we hit the proper pressure point that causes a change in 
the way--that party's thinking or change in the direction they 
are going.
    So, it is--it is very much case by case in terms of what we 
can use to apply pressure to whatever government we are wanting 
to alter their course.
    Senator Flake. All right. Thank you, Mr. Chairman.
    Senator Corker. Thank you very much. I appreciate your 
comments on Cuba and the multilateral sanctions issue. And I 
will say you are going to find on both sides of the aisle 
strong divisions on the issue of Cuba, people sitting next to 
each other having very, very, very different views. And I do 
hope you will seek input of all as you move ahead into this top 
to bottom review.
    Having sat here the whole hearing, I do want to just 
clarify, I do not think that necessarily you have expressed an 
aversion to sanctions. I think what you may have expressed, if 
I heard correctly, is just ensuring that when they are 
implemented, they are implemented in a way that is appropriate. 
Is that correct?
    Mr. Tillerson. That is correct, Senator--Chairman. And as 
I--I meant, I think I commented at one point this morning 
having ineffective sanctions is worse than having no sanctions 
at all because it sends--it sends a weak signal to the target 
country. And then they say, oh well, they are not really 
serious after all. And so, that is why if we are going to have 
sanctions, they need to be carefully crafted so that they are 
effective.
    Senator Corker. Senator Kaine.
    Senator Kaine. Great. Thank you, Mr. Chairman. Thanks 
again, Mr. Tillerson. I want to stay in the Americas. You and I 
had a good discussion in my office about the Americas, and you 
have done work in the Americas, and also being a Texan, I think 
you, you know, understand the importance of the relationships.
    We have been grappling on this committee and in this 
country with unaccompanied minors coming from the Northern 
Triangle. That migration from Mexico is now kind of almost at 
an even zero point, but the instability in the Northern 
Triangle--violence, drug trade, weak civil institutions--has 
created some challenges. We have supported in a bipartisan way 
investments in the Northern Triangle, but we want to make sure 
that the investments are, you know, targeted the right way to 
accomplish the objective of bringing more stability and 
creating more opportunity there so people do not feel a need to 
flee.
    Talk a little bit about that that part of our foreign 
affairs portfolio and how would you approach those issues.
    Mr. Tillerson. Senator, I really appreciate you bringing us 
back to the Western Hemisphere----
    Senator Kaine. Yeah.
    Mr. Tillerson.--because we have just--we have talked about 
the hot spots. But I--and I--and I say that in all seriousness 
because I do not think we should in any way downgrade the 
importance of the Western Hemisphere and what is going on, not 
just in Central America, but South America as well. There are 
important relationships. There are--there are not unimportant 
national security issues in this hemisphere also.
    But as to the immigration challenge, and I think you 
described it pretty well that what has happened over the last--
the most recent time is a real shift in where these people 
coming across the border in an illegal fashion, where they are 
coming from. And they are largely transiting through Mexico 
coming from south of Mexico's border.
    I am aware of the Northern Triangle Project, which is 
trying to strengthen law enforcement because a lot of people 
are motivated to run from high crime-ridden areas, anti-
narcotics trafficking, helping strengthen the governance 
institutions, and providing a safer environment for people down 
there, and to the extent we can direct assistance programs that 
then gets at some economic development as well, some of which 
is simple infrastructure projects.
    And some of this, again, gets back to how to--how to use 
not just this special targeted effort and the funds that have 
been made available there, but also how we use other aid 
programs, like the Millennial Challenge Corporation, to develop 
the capabilities of these countries to perform better.
    I do think, and I know you and I spoke about this when we 
were in your office, that out of--our true compassion for the--
these people that are coming across the border, many of which 
are unaccompanied minors, how to deal with that. And I know in 
response to that challenge, there has been some well-intended 
action taken, programs like DACA, the deferred treatment of 
adjudication of these cases. All well intended, but when those 
got translated back to the host country, the place these people 
are leaving from, we know that it got--it got misinterpreted. 
And even the leaders of those countries have spoken in public 
and indicated that, look, the wrong signals are being sent down 
here as a result of this effort to be compassionate. And, in 
fact, it is incentivizing some, because it is misunderstood, to 
take even greater risk to themselves, to their children, to try 
to make this journey across Mexico, largely using illegal 
smugglers to get them to this country.
    So, I think we just have to be very thoughtful about the 
signals we are sending, the messages we are signaling, and I 
think go back--as you say, go back and try to address some of 
the issues in the host country. Also, work with Mexico, our 
partner right next door. Now, this is not--this is a challenge 
for them, how to secure their southern porous border and deal 
with all of this transiting of their country to get to the land 
of the free and the home of the brave where everybody wants to 
be.
    So, I acknowledge the challenge that we have before us. We 
are going to have to deal with the situation that we have 
today, the reality of it. I think this is where the intent of 
the President-elect, and while he does express it in the view 
of the wall, what he is really expressing is we have got to get 
control of this--of this border. We have got to prevent and 
stop the flow of people coming across, and how we--how we do 
that. What policies, and how we execute those are yet to be 
developed. But certainly, the State Department, if I am 
confirmed, will have a big role in the foreign aspects of that.
    Once they come across the border, they are largely the 
Department of Homeland Security's responsibility. The State 
Department's role will be what actions can we take to prevent 
the movement of the people in an illegal fashion. We want 
people to come legally. This is the history the country is that 
people came here legally.
    Senator Kaine. Mr. Tillerson, thank you for that. And I--as 
I said in my office, I have always encouraged the Secretary of 
State to fly north/south and not just east/west. I think there 
are huge opportunities in the Americas that we sometimes do not 
take advantage of. And other parts of the world have a claim on 
our attention obviously, but there are some real opportunities.
    I assume you support the U.S. position that has been in 
place since the 1940s to do what we can, even if it is hard, to 
promote a two-state solution in Israel and Palestine with--a 
Jewish state of Israel and an independent state of Palestine 
living peacefully side by side, that that is the dream that we 
hope for that region. And I assume that you support that.
    Mr. Tillerson. I do not think anyone would take a position 
that they do not hope for peace in that area and for the issues 
to be ultimately resolved.
    Senator Kaine. And peace within the context of a two-state 
solution as was--as was determined by the UN and has been the 
bipartisan policy of the United States since the late 1940s.
    Mr. Tillerson. I think that is the dream that everyone is 
in pursuit of. Whether it could ever be a reality remains to be 
seen.
    Senator Kaine. What do you think the right--I think this is 
something that has frustrated all of us, that there has been so 
little progress toward it in the last few years. And so, what 
do you think from the Secretary of State's position you could 
do to try to hasten the day when we could find a path forward. 
People did not think you could find a peace deal between 
Ireland and Northern Ireland either for hundreds of years, and 
yet youngsters in Ireland now do not remember when there was a 
problem. What might you bring to the table on that?
    Mr. Tillerson. Well, and I am glad you put it in the 
context of hundreds of years. I know that was a--that was just 
euphemistic. But I think it is--it is indicative of how 
conflicts like this take a long time, and sometimes it takes 
another generation to have a changed view. Oftentimes, we just 
have to try and make the situation as stable as possible and 
limit the impacts on people that are living there now.
    The Palestinian people have suffered a lot, under their own 
leadership in many cases, as a result of there not being more 
progress made. So, I think it has to be a shared aspiration of 
all of us that that ultimately is resolved. The issues are 
longstanding, and I think it is the State Department's role to 
create--try to create an environment that brings parties 
together to want to find a way forward.
    I can tell you under the conditions today, that is just--it 
is extremely challenging to do that, but that has to be the 
aspirational goal. And to your example, sometimes it takes a 
different generation that is not carrying all that baggage of 
the past with them.
    Senator Kaine. Thank you. Thanks, Mr. Chairman.
    Senator Corker. Absolutely. Thank you. Senator Young.
    Senator Young. Thank you. Mr. Tillerson, from the outset, I 
just want to thank you for the level of--the level of candor 
you have shown throughout this hearing. You have engaged on 
issues. You have answered questions. You have been adept at 
times, and I want that from our Nation's chief diplomat. The 
only request I would make is that they do not coach that out of 
you should your nomination move forward and you become our next 
Secretary of State, which I suspect you will. So, thank you for 
that.
    In your prepared statement, you write, ``Defeating ISIS 
must be our foremost priority in the Middle East.'' And you 
also note later that ``Defeat will not occur on the battlefield 
alone. We must win the war of ideas,'' something we have 
already discussed a bit here. I could not agree more. We have 
to win the war of ideas.
    We can kill every single irreconcilable, as you know, who 
subscribes to this poisonous ideology as those who join ISIS 
do, and yet we are still going to have a problem. The 
organization will reconstitute itself. And so, we really--there 
is something deeper we need to tap into, a deeper tap root.
    In your prepared statement, going back to that, you 
indicate that if confirmed you will ensure the State Department 
does its part here in this war of ideas. Now, based on your 
presentation for this hearing, what is your assessment of the 
State Department's current performance in the war of ideas? And 
I want you to make your comments specific to our effort against 
the Islamic State.
    Mr. Tillerson. Senator, I am not sure I could articulate 
what the current State Department is doing in the war on ideas 
other than the advocacy--the public advocacy condemning this 
type of brutality. I think--I think your observation that even 
if we defeat ISIS and its caliphate in Syria and Iraq, they 
will morph into something else. And I think this is where we 
have to be truthful and realistic in our conversations with the 
American people.
    You know, terrorism has been a part of the world for 
centuries. It is--it is the nature of man, the unfortunate 
nature of man. But what we have to do is certainly limit it and 
suppress it to a level that it is no longer a threat to our 
national security or a threat--an imminent threat to Americans 
or all other people in the world who value human life.
    Senator Young. So, in a recent hearing before the Senate 
Armed Services Committee, DNI Clapper indicated that he 
believes the U.S. might reestablish the United States 
Information Agency to fight this information war and to advance 
our efforts to defeat, you know, radical extremists or 
terrorists, however one chooses to brand them. Do you agree 
that this would be a good idea?
    Mr. Tillerson. Well, I think, as I indicated in an exchange 
with Senator Portman, we have got to up our game in terms of 
how we engage in both the digital communication world, because 
that is where ISIS has been very effective, and other radical 
groups. Al Qaeda and others have been effective in using the 
digital communications space to spread their message. We have 
got become more effective at--in countering that messaging and 
countering that message.
    But I also take Senator Portman's observation that it is 
not all digital. There are other communication mechanisms that 
are effective broad-based in terms of how do you--how do we 
communicate, particularly in those parts of the world that 
could be susceptible to these messages.
    Senator Young. For the record, for the benefit of our--my 
colleagues and also for your benefit, I will note that I am 
just coming from the House of Representatives. And in my final 
two-year term, I introduced legislation so that Congress could 
assess whether or not the countering violent extremism 
initiative within the Obama Administration was working or not. 
Is it working. I was prepared to be briefed in a classified 
setting, yet the Administration came out fairly strongly 
against our efforts to exercise oversight.
    So, my hope would be I can--that I can work together in a 
bipartisan way and in the next Administration, we will have the 
tools to assess whether or not we are improving, and work with 
the Administration to ensure that we are, in fact, killing the 
terrorists, countering violent extremism, and, most 
importantly, making sure that this effort does not reconstitute 
itself moving forward.
    Mr. Tillerson, back to the prepared statement. You write 
that China has not been a reliable partner in using its 
influence to curb to curb North Korea. I know we have discussed 
this before, a slightly different tack here. Just an open-ended 
question here. Why do you believe China has not done more?
    Mr. Tillerson. Well, I am aware that under the most recent 
version, I believe, of the UN sanctions, which have been 
ratcheted up with each of North Korea's provocative, whether it 
has been a nuclear test or the test firing of a missile, that--
and I indicated earlier that China is 90 percent of North 
Korea's trading--exports, import trading. So, they really do 
have complete control over what sustains the government of 
North Korea. A big part of that is the sale of anthracite coal 
across the border, and the sanctions did speak to that sale. 
And I think that is an area where I think we have to hold China 
accountable to comporting with the sanctions that were put in 
place by the UN. And just we have to call people out on it when 
we view they are not complying.
    Senator Young. So, there might be--there might be an 
opportunity to exploit there with respect to that reliance on 
anthracite coal to ensure that the missile and nuclear 
programs, you know, they comply with international law and our 
security interests.
    Mr. Tillerson. Well, under the UN resolutions, North Korea 
has already violated those on multiple occasions with both the 
nuclear test, including the one most recently in September, as 
well as their firing of----
    Senator Young. I am going to interject, which is D.C. talk 
for interrupt. But, so, what would you suggest to the President 
of the United States that he consider doing to wield more 
effective influence over China's decision making on North 
Korea? In 10 seconds or less, please.
    Mr. Tillerson. Well, it does involve--well it does involve 
a concerted response from our allies as well--Japan, North 
Korea--and making sure China understands as part of this whole 
of China approach that this is an important element of what 
they can do to strengthen our relationship, or they can do to 
weaken our relationship with them.
    Senator Young. Thank you.
    Senator Corker. Thank you, sir. Senator Murphy.
    Senator Murphy. Thank you, Mr. Chairman. Thank you for 
sticking this out, Mr. Tillerson. I know this is a long day.
    I want to come back to the issue of human rights because I 
do worry that there are going to be a lot of human rights 
advocates, a lot of people who are hoping that the United 
States maintains its leadership role on maintaining and 
promoting human rights around the world, who are going to be 
very worried by some of your testimony here today. Asked about 
the 3,500 extrajudicial killings in the Philippines, you were 
not yet ready to say that you had enough evidence to call that 
a violation of human rights. Similar answer on Saudi Arabia, 
and a similar answer with respect to the war crimes perpetuated 
by the Russians inside Syria.
    So, I guess the simple question for you is this. If you are 
not ready to say today that what is happening in the 
Philippines is a human rights violation, despite the fact that 
the president brags about killing people without trial, or the 
denial of rights to women in Saudi Arabia as a named human 
rights violation, or what is happening in Syria as a war crime, 
can you maybe give us a little bit of a sense of what countries 
today you would consider to be violators of human rights, or 
how you are going to make judgments about where the U.S. 
pursues human rights violators and where we do not, because 
think it will be a surprise to a lot of people coming out of 
his hearing that you are not ready today to call President 
Duterte a violator of human right, or to call what is happening 
in Saudi Arabia a named violation of human rights under 
international law.
    Mr. Tillerson. Well, I think somewhere in your question 
there, Senator Murphy, was, in fact, the answer. I am going to 
act on factual information. I am not going to act on what 
people write about in the newspapers or even what people may 
brag they have done, because people brag about things that they 
may or may not have done. I am going to act on the facts. And 
if confirmed, I am going to have access to a lot of information 
that I do not have access today.
    It is just my nature to not prejudge events or prejudge and 
make conclusions or conclude that someone has, in fact, 
violated this norm or, in fact, now meets the standard to be 
labeled this until I have seen those facts myself. That should 
in no way suggest that if those acts that you have described 
are backed up by the facts, I would agree with your labeling 
and characterization. I am just not willing to do that on the 
record today because I have not seen that information. So, 
please do not confuse that with my stand--my standards are no 
different than yours.
    Senator Murphy. But just give--let us take Philippines for 
an example. I mean, I do not know that there is anybody on this 
committee that would deny that there are extrajudicial killings 
happening in Philippines. That has been widely reported. Our 
embassy has reported it. The president himself talks about it. 
What more information do you need before deeming the 
Philippines to be a human rights violator? What is happening 
there is a massacre, one that is there for everyone to see.
    Mr. Tillerson. I am sure the committee has seen a lot of 
evidence that I have not seen. I am not disputing your 
conclusion. You are asking me to make a judgment on only what I 
am being told. That is not how I make judgments.
    Senator Murphy. So, what information in that case would 
you--would you need? Who would you need to hear from?
    Mr. Tillerson. I would want to see the factual basis behind 
the statistics and the factual connection as to who is--who is 
committing those acts.
    Senator Murphy. Well, we do not have--a lot of times the 
factual evidence is reporting by objective observers on the 
ground. I am not initially sure you are going to get a 
videotape of an extrajudicial killing. So, oftentimes the 
evidence is the objective reporting we get from sources on the 
ground inside a place like the Philippines.
    Mr. Tillerson. I will rely on multiple sources to confirm 
what I am being told. That is--that is--you can blame it on me 
being an engineer. It is the engineer in me that I deal with 
facts, and then I analyze, and then I conclude. And I am sure 
there is a lot of credible information out there that I simply 
have not seen.
    Senator Murphy. This is a question that often gets asked of 
members of Congress to judge their view of politics and 
conflict in the Middle East. It is pretty simple one. Do you 
believe that the Iraq War--not the conduct of the war, but the 
war itself--was a mistake?
    Mr. Tillerson. I think I indicated in response--I believe 
it was to Senator Paul's question that I think our motives were 
commendable, but we did not achieve the objectives. We did not 
achieve greater stability. We did not achieve improved national 
security for the United States of America. And those--and that 
is just the events have borne that out.
    And at the time I held the same view that I was concerned, 
just as I was concerned before the decisions were made to go 
into Libya and change the leadership there. It is not that I 
endorse that leadership, but that leadership had the place 
somewhat stable with a lot of bad actors locked up in prison. 
Now those bad actors are running around just world.
    Senator Murphy. Just----
    Mr. Tillerson. So, it is just a--it is the question of--it 
is not a question that our ultimate goal has to be to change 
that type of oppressive leadership. It has to be, though, that 
we know what--we know what is coming after, or we have a high 
confidence that we can control what comes after or influence 
it, and it will be better than what we just took out.
    Senator Murphy. In this case, which motives are you 
referring to that were commendable?
    Mr. Tillerson. I think the concerns were that Saddam 
Hussein represented a significant threat to stability in that 
part of the world and to the United States directly. And so, I 
understand that people had--were looking at information that 
was available to them, information that is not available to me, 
at least at this point. So, I am making this--I am making this 
comment as a--as a casual observer.
    Senator Murphy. One last question going back to Russia. You 
have said in an earlier--answer to an earlier question that you 
would not commit today to the continuation of sanctions against 
the Russians for their involvement in the U.S. presidential 
election. But could you make a commitment to us today that if 
you deem sanctions to be the inappropriate policy, that you 
will recommend and argue for a substitute response for the 
interference in U.S. elections? Will you argue for a U.S. 
response even if you do not believe sanctions is the right 
policy?
    Mr. Tillerson. Yes. Yes. And all I have read is, again, the 
unclassified portions, but it is troubling. And if--and if 
there is additional information that indicates the level of 
interference, it deserves a response.
    Senator Murphy. Thank you.
    Senator Corker. Thank you. Just to follow up, our embassies 
in countries have pretty massive capabilities that are well 
known. If in the Philippines, for instance, our embassy there 
assessed to you with very high confidence since you are not 
going to be able to be on the ground checking things out 
yourself in a 75,000-person organization, and you are going to 
rely on people that as you did as an engineer and certainly as 
CEO of a company if they assess that extrajudicial killings 
were taking place, that would probably be enough evidence for 
you that he was a human rights violator, would it not be?
    Mr. Tillerson. In all likelihood, it would.
    Senator Corker. Just to follow up on one other thing, I 
know this committee passed very strongly in a bipartisan way, 
and now it has been through multiple iterations of 
appropriations and now an authorization bill, a bill to end 
modern slavery, to work in partnership with others around the 
world. And I say this because I visited a place in the 
Philippines where much of that is occurring, and thank you for 
reminding me.
    But do you plan to continue to support the effort that has 
been authorized here and has been appropriated towards to work 
in conjunction with the world community to end one of the 
greatest blights in the world today, and that is 27 million 
people in the world being enslaved more than at any time in the 
world's history?
    Mr. Tillerson. I think it is part of America's moral 
clarity and our values that we must speak out, and not just 
speak out, but take action that to cause the countries that are 
allowing this to go on or facilitating at worst, to cause them 
to change that. And I know that this is a particularly 
passionate issue to yourself and other members of the committee 
and--but I want to enlarge it to human trafficking at large as 
well. Slavery and human trafficking have to be addressed, and 
America has to lead in this particular area.
    Senator Corker. Thank you so much. Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman. Mr. Tillerson, 
thank you very much for your candor and your respect you have 
exhibited for the committee and the process. We are proud of 
your nomination and commend you to the--to the Senate. I want 
to ask one question, and then I am going to waive the rest of 
my times so we get a little rest.
    One of the important roles of the State Department, going 
back to the State Department, for some is soft power. And part 
of our soft power is our ability to solve problems that nobody 
else can solve, the most recent example, Ebola. When the Ebola 
outbreak took place in West Africa, it was the CDC that created 
the mechanism by which we actually stopped Ebola. And now we 
have a vaccine that will prevent Ebola, which is a great 
victory for humanity and a great victory for the process. The 
money that was done to treat the initial patients from West 
Africa was a special appropriation of the United States Senate 
and the House to create an emergency fund to deal with Ebola.
    During the same period of time the State Department had 
referred a Lassa fever patient to the CDC, to Emory University, 
to take care of it, which they did. There were no funds 
available for that Lassa abatement, and to this day Emory has 
not been reimbursed for that payment--for that treatment.
    My question is, it seems to be a good time for us to look 
at the CDC, which is the heart of the solution, and create an 
emergency fund reserve where when we have an amount of money 
available to the CDC secretary, that they can--that they can 
immediately go to use for an emergency like Ebola or like Lassa 
fever. I am going to work to try and establish that this year, 
and I hope as the Secretary of State when you are confirmed, 
you will work with me to do that.
    Mr. Tillerson. I look forward to that, Senator, and 
engaging with you on it. I think you are right. The CDC's 
response in the Ebola outbreak is--was remarkably well managed. 
I would make an observation, because all of this at some point 
gets to somebody has got to pay for all this. And in examining 
the--how the World Health Organization did in these outbreaks, 
I think what it exposed was some deficiencies within the World 
Health Organization as well that that they were not able to 
respond. And that is where normally--this was an outbreak that 
occurred in another part of the world. They should have been 
the first responders to the scene. But as you point out, CDC as 
well as other U.S. assets had to be put in to those countries 
to address that.
    So, I think it is worth an examination as we are 
considering CDC's role, it is worth an examination of how that 
interfaces. You know, these types of outbreaks, whether it is 
Ebola or the Zika virus, how is that interface working with the 
global health organizations as well?
    Senator Isakson. Thank you very much for your time, and 
congratulations on your nomination.
    Senator Corker. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman. Mr. Tillerson, do 
you agree with President-elect Trump when he said, ``It would 
not be a bad thing for us if Japan, South Korea, or Saudi 
Arabia acquired nuclear weapons?''
    Mr. Tillerson. Senator, I do not think anyone advocates for 
more nuclear weapons on the planet.
    Senator Markey. Donald Trump said it would not be a bad 
thing. Do you agree with that or disagree with it?
    Mr. Tillerson. I do not agree.
    Senator Markey. You do not agree. Would you commit to 
working vigorously to ensure that no additional country on the 
planet obtains a nuclear weapons capacity?
    Mr. Tillerson. Senator, I think if confirmed, it is a 
vital--one of the vital roles for the State Department to play. 
In working in the National Security Council and in an 
interagency way has to be the pursuit of nuclear 
nonproliferation. We just simply cannot back away from our 
commitment to see a reduction in the number of these weapons on 
the planet.
    Senator Markey. Okay. President-elect Trump recently said 
on Twitter that in his view the United States must ``expand its 
nuclear capability.'' When warned that this could trigger an 
arms race, he replied, ``Let it be an arms race.'' Do you agree 
with President-elect Trump that the United States should 
welcome a nuclear arms race with Russia or with China? Would 
that be a good thing for the United States?
    Mr. Tillerson. Senator, I think as we are pursuing 
nonproliferation and we are also pursuing the enforcement of 
important agreements like New START, that we have to also 
approach those from a position of strength. I think in the 
context of some of the quotes that you are running through 
here, the President-elect has also indicated a commitment to 
ensuring that the level of nuclear arms and capability that we 
are going to maintain under agreed treaties, that those 
capabilities must be maintained, and that from time to time 
that means we have got to renew them, and bring them up to 
date, and ensure that they are capable. Otherwise, we now have 
an asymmetric arrangement with people we are negotiating with.
    Senator Markey. Right. Just that it is at odds with what he 
has been quoted publicly as saying, so I just think it is 
important for us to hear you take a position that, in fact, 
negotiations towards reducing the nuclear threat rather than 
having a nuclear arms race is much better for our country and 
the global security. If you are confirmed, will you commit to 
protect the rights of all career employees of the State 
Department so that they--that they retain their right to speak 
with Congress?
    Mr. Tillerson. As pursuant to an open and effective 
dialogue with Congress, I would encourage that issues are put 
on the table for discussion with Congress, yes.
    Senator Markey. You just had, I think, a great conversation 
with Senator Isakson about global health issues. And one of our 
great achievements over the last couple of decades has been the 
establishment and investment in PEPFAR and U.S. leadership in 
the Global Fund to Fight AIDS, TB, and malaria. Millions of 
lives have been saved and health infrastructure has been built 
in the developing world. Could you discuss your view of those 
programs and your commitment to strengthening them in the years 
ahead?
    Mr. Tillerson. PEPFAR is just really one of the remarkable 
successes of the past decade or more, obviously begun under 
President Bush. And I think what is--what is notable about 
PEPFAR is there are measurable results. Very well managed, very 
well targeted at getting at those three diseases. I think it 
serves as a model for us to look to as we are thinking about 
other ways in which to project America's values, project our 
compassion to want to solve these threats that are in other 
parts of the world that by and large we are not threatened by a 
lot of this here in this country.
    Malaria eradicated decades ago. TB, well under control. 
AIDS, great treatment programs available to people. Projecting 
that into other parts of the world is a marvelous way to send a 
message of the compassion of the American people that we care 
about people's lives all over the world. So, PEPFAR is a 
terrific model to look at in the future as we think about other 
areas that may be useful for us to put additional programs in 
place.
    Senator Markey. Now, I would like to move on to another 
global health issue as it impacts the United States, and, 
again, this is the opioid epidemic. It has now been transformed 
into a fentanyl issue. In Massachusetts this year, in New 
Hampshire--Senator Shaheen's home State--three-quarters of the 
people who died in 2016 of opioid overdose died from fentanyl. 
And if it was occurring across the country as it did in 
Massachusetts in 2016, that would be 75,000 people a year dying 
from fentanyl overdoses.
    Now, the way this is coming into America is pretty much the 
chemicals come in from China. They go down to Mexico, and then 
they are trafficked in out of Mexico into the regions of the 
country. Senator Rubio has a similar problem in Florida. We 
need to elevate this issue, Mr. Secretary, to a much higher 
level of importance in our country.
    The terrorist that is going to kill Americans on the 
streets of our country are the terrorists who are selling 
fentanyl. It is the Mexican and Chinese operatives who are 
funneling this into our country. That is the terrorist fear in 
the hearts of Americans.
    Can you talk about how strong you intend on ensuring that 
the State Department takes in terms of actions to tell the 
Chinese and the Mexicans how serious we are about this threat, 
this existential threat to families all across our country?
    Mr. Tillerson. Senator, if confirmed, this will be--this 
will require an interagency approach both in terms of applying 
many of the tools that have been used in terror financing 
elsewhere to track the flow of money, attempt to disrupt on 
both ends of that, because I think it is one thing we can send 
the Chinese a message, but it is another then to put in place 
the mechanisms, whether it be working with Treasury and other 
parts of the interagency process to disrupt the flow of these--
of these materials and these drugs as well.
    Clearly, we have a message to the project to China, but I 
am also clear-eyed about China just suddenly say, oh, okay, 
never mind.
    Senator Markey. A wall across our southern border will not 
keep the fentanyl out. It is going to take much tougher action 
if we are going to save ultimately two Vietnams per year of 
deaths inside of the United States from that one drug.
    Thank you, Mr. Chairman.
    Senator Corker. Thank you. Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman. Thank you for 
your patience in staying with us. I have just a couple 
questions to follow up on some things that you have been asked 
already.
    A little earlier, you were talking about the efficiency and 
effectiveness of PEPFAR and that government can at times do 
things well. The American public also knows that government is 
full of waste and fraud and abuse. You saw some of it in the 
private sector, and you will see it in government.
    I just want, with the kind of debt that we have as a 
Nation, to know that you are committed also to, when you see 
it, to eliminating duplication, eliminating redundancies, and 
do what you can to try to address this incredible debt that we 
have.
    Mr. Tillerson. Well, Senator, obviously, it is just in my 
nature to look for inefficiencies and to streamline, and that 
will start, if confirmed, it will start right there in the 
State Department itself in terms of assessing the organization 
structure in the State Department.
    I know, as part of preparing, I have looked at organization 
charts from a few years ago to organization charts today, and I 
have noticed there are a few more boxes. Now, some of those may 
be for very good and valid reasons, but also it appears to me 
that new issues which have been added may rightfully need to be 
placed back into the mission and integrated into the mission 
itself because it appears to me we have some duplication.
    But it is not only about saving the American taxpayer 
dollars and spending them wisely. It is also about the delivery 
on the issue. If we have it dispersed in several places, we are 
probably not dealing with the issue very effectively either 
because there is lack of clarity as to how does this issue 
integrate into the mission's obligations and what we are trying 
to achieve in the various missions of the State Department.
    So I just give you that as a simple example because it was 
so obvious to me when I began to look at the charts. So I know 
there will be opportunities to streamline things with the 
objective primarily of being more effective in terms of how we 
carry out the State Department's mission, making sure people 
understand what they own, having clarity and line of sight to 
who is accountable.
    And then out of that, I think we are naturally going to 
capture some efficiencies and cost savings.
    Senator Barrasso. Another topic that was discussed was 
human rights. And as we travel around the world, we talk to 
leaders around the world who are concerned about security in 
their nations, economic growth in their nations, and somewhat 
human rights, but perhaps not to the degree that we would like 
to see that commitment. And these are people that we have 
interests with, in terms of our own global security.
    So as Secretary of State, how do you balance engaging these 
countries in terms of trying to protect their security as well 
as the economic aspect as well as protecting and focusing on 
human rights?
    Mr. Tillerson. Senator, I take the view that it is never an 
either/or choice we make. I think it has been said our values 
are our interests, and our interests are our values. So 
regardless of what we may be dealing with, our values are never 
not right sitting on our shoulder in full display, on the 
table.
    I think the real question you are trying to get to is, how 
do we advance those values though against other priorities at 
the time? And I did, again, just speaking in an honest 
assessment in my opening remarks, acknowledge that, from time 
to time, our national security may have to take the priority. 
It does not mean our values were deprioritized. It does not 
mean they are not still as important. It does not mean they are 
not right here on our shoulder with us.
    It is really--I think what you are asking is, how do we 
project those values to another country in a negotiation in a 
way that they begin to move closer to our values. That is 
always there, and it is never an either/or choice.
    Senator Barrasso. And then the last thing I wanted to get 
to was the issue of energy as a master resource in the way that 
Putin uses it as a political weapon.
    And one of the things we are seeing now is this Nord Stream 
2 pipeline, the pipeline between Russia and Germany that the 
United States has been working closely with our European 
partners with respect to that.
    And this is something that we have had bipartisan support 
on. Looking across the aisle, Senator Shaheen, Senator Murphy 
have signed a letter with me with Senator Risch and Senator 
Rubio, Senator Johnson, because of our concern with the ability 
with this pipeline to deliver more energy and make Europe more 
dependent upon Russia for energy. It also bypasses Ukraine, and 
impacts the Ukrainian economy as well, when it runs directly 
from Russian under the Baltic Sea directly into Germany.
    Several European countries have raised the concerns that 
this pipeline would undermine sanctions on Russia, increase 
Russia's political leverage over Eastern Europe.
    Can you give us your assessment on something on which there 
is actually a lot of bipartisan agreement on this panel, with 
regard to?
    Mr. Tillerson. Well, energy is vital to every economy the 
world over, so it can be used as a powerful tool to influence, 
kind of tip the balance of the table in one party's direction 
or the other. So it is important that we are watching and 
paying attention to when this balance is upset.
    Now, the greatest response the United States can give to 
that threat is the development of our own natural resources. 
The country is blessed with enormous natural resources, both 
oil and natural gas. And I know the Congress took action here 
in the recent past to approve the export of crude oil. We now 
have exports of liquefied natural gas.
    The more U.S. supply, which comes from a stable country 
that lives by our values, we can provide optionality to 
countries so that they are not--cannot be held captive to a 
single source or to a dominant source. That is a physical 
response to that issue.
    I think from a policy standpoint, it is engaging with 
countries to make sure they understand they have choices and 
what those choices are, and what can we do in foreign policy to 
help them gain access to multiple choices so they are not 
captive to just one or a dominant source.
    Senator Barrasso. Well, thank you. Thank you for your 
willingness to serve.
    Thank you, Mr. Chairman.
    Senator Corker. Thank you.
    Senator Booker.
    Senator Booker. Thank you, Mr. Chairman.
    And again, I want to thank you. This has been a very long 
process, and you have shown a remarkable amount of poise and 
equipoise and endurance, so thank you very much.
    I would like to pick up on something that Senator Shaheen 
was asking you about, which are just issues with our Muslim 
allies around the globe as well as Muslim countries.
    You have been really resonating with my spirit pretty 
strong in talking about the Muslim faith. You called it, I 
wrote down when you said it, the great faith. It shows a level 
of respect and deference that I am sure will serve you well as 
Secretary of State, should you be confirmed.
    What I worry about is a lot of the rhetoric coming from the 
President-elect and others. It really does undermine often our 
relationships with a lot of our allies. When I was traveling to 
the Middle East, in countries like Jordan, for example, I was 
surprised that people at the highest levels of the government 
were directly concerned about the rhetoric coming from 
individual leaders in this country.
    The President-elect has said that he would consider Muslim 
Americans being required to register in a government database.
    I just want to ask you directly, you do not support a 
Muslim registry, do you, for people coming into this country, 
based on religion?
    Mr. Tillerson. Senator, I think in response to that 
question, I do not support targeting any particular group.
    If a registry of some sort that is broadly applied to any 
person entering the country that could present a threat----
    Senator Booker. Sir, I am sorry to interrupt you. My time 
is short.
    Let us just use specifically the NSEERS program, the 
National Security Entry-Exit Registry System. I introduced 
legislation last week to eliminate that, potentially. And under 
the Bush administration, there were about 25 countries 
registered. All of them were Muslim countries that were in that 
NSEERS program, except for one, which was North Korea. That was 
then--the policy of Obama administration was to zero out that 
registry.
    Is that something you would support? The NSEERS mechanism 
is still there. And how would that affect our ability to deal 
with countries that we are working so closely with, such as 
Jordan, which is my example?
    Mr. Tillerson. Senator, I appreciate the question. I am not 
familiar enough to be able to address this specifically. I am 
happy to get back to you with an answer though.
    Senator Booker. No, sir, I appreciate that.
    How does it affect, in your opinion, our ability to work 
with Muslim countries, for example, when people like General 
Michael Flynn have publicly called Islam a political ideology 
not a religion, saying that it is like a cancer, and writing 
that fear of Muslims is rational?
    That cannot be constructive to our foreign policy, to our 
diplomacy with key countries in Southeast Asia as well as the 
Middle East.
    Mr. Tillerson. My experience, Senator, has been the best 
relationships in which you can make progress on tough issues is 
built on mutual respect of one another, which then leads 
hopefully to mutual trust, just as we want to be trusted as 
whether we are Christians or we practice the faith of Judaism, 
or whatever our religious faith may be. And in this country, we 
have the freedom to practice that in any way we want. We want 
to be respected for that as well.
    But that relationship has to be built on a mutual respect 
for each other, and not a judgment about one's faith.
    Senator Booker. Sir, I am really grateful, not that I am 
surprised at all, but I am grateful for you putting forth those 
very important values.
    Could you answer me this? What do you think it does to our 
enemies' ability to push forth more propaganda about the West 
or incite more radicalism when you hear these evil terrorist 
organizations--what do you think it does to their recruiting 
efforts when rhetoric like that comes from the highest levels 
of leadership in our country?
    Mr. Tillerson. Well, I think these radical Islamic factions 
that we have been talking about, whether it is ISIS or Al 
Qaeda, they have broad networks obviously that they are putting 
in place, and that is what we have to disrupt.
    We have to disrupt their ability to reach large numbers of 
people who could be persuaded, that is what I spoke to earlier, 
with new tools to advance our ability to do that.
    Senator Booker. Clearly, sharing intelligence with other 
Muslim-majority nations, cooperating with them, creating those 
relationships that you say are so important, it is important to 
counter ISIL. But if you are insulting and demeaning their very 
faith, not only does it make it probably more difficult to deal 
with your allies, but it might even incite more radicalism 
potentially, correct?
    Mr. Tillerson. My expectation is that we are going to be 
able to reengage with our traditional friends and allies in the 
region, not just in the Middle East, but I think, as you 
pointed out, there are large Muslim populations in Southeast 
Asia, Indonesia, Malaysia, other important countries in that 
part of the world where we have serious issues of common 
interest as well.
    Senator Booker. Again, there is much about our conversation 
privately that I appreciated, and there is much about your 
testimony that I appreciate as well. One thing we discussed was 
how important USAID is, when we were together.
    I have real concerns, now having been out around the globe, 
seeing the powerful impact that USAID is making for really 
asserting human dignity. I really worry that its budget has 
been cut, the base international affairs budget, which includes 
funding to State and USAID that has repeatedly been cut around 
30 percent, adjusted for inflation, since fiscal year 2010, 
despite the fact that, across multiple bipartisan 
administrations, there has always been broad agreement that 
supporting both USAID and the State Department is a moral, 
economic, and strategic perspective.
    I just want to hope that you will be especially--I read a 
lot about the way you ran your private business with 
streamlining and the like, but I hope that a priority for yours 
is a more robust USAID program. Is that something I have--can 
you give me reason to hope?
    Mr. Tillerson. I hope what you are after is more effective 
programs with better use of the taxpayers' dollars. And to the 
extent that we are good at that and we have even greater 
opportunity, then we should seek additional funding. But there 
will be a complete and comprehensive review of how effective we 
are with the dollars over there.
    USAID, as I said, is an important part of the projection of 
America's values around the world. We are going to have--I 
think there is a joint strategic plan that is required between 
the State Department and USAID in fiscal year 2017. That is 
going to be a perfect opportunity for me and those who will be 
working with me, if I am confirmed, over at the State 
Department to take a comprehensive look at the effectiveness 
and what are our ranges of opportunities out there that might 
argue for greater funding.
    So I want to be effective with the program and make sure 
that, as we are using the taxpayers' dollars, they are 
delivering a result that we are proud of.
    Senator Booker. And that is something that I respect. I was 
a mayor. The chairman was the mayor. We know that spending more 
money on a problem does not necessarily mean that you are 
dealing with it more effectively.
    But if you do have effective evidence-based programs, 
investing more resources is a strategic as well as human rights 
advantage.
    Sir, I am a low man on the totem pole, and I am done with 
my time. I do want to say this to the chairman----
    Senator Corker. You had an extra minute this morning, so go 
ahead. You are high man on the totem pole now. You have the 
mike.
    Senator Booker. If only people told me this committee was 
so magnanimous, as it is.
    Sir, I am just going to use my last few seconds, I am not 
sure if we are going to have another round--we are not. My 
ranking member is not.
    So I just want----
    Senator Corker. Just by agreement with others, if I could, 
there has been I think a request to all members asking. I know 
there are some members that want to go another round, and we 
are going to make that available to them today.
    Senator Booker. I have expressed my thoughts to my ranking 
member, and I will wait for his instruction.
    But in the few seconds I have left, I just want you to know 
that this is probably one of the more important positions on 
the planet Earth, the one to which you are nominated for. It is 
not just about always--it is obviously always looking for 
America's interest and strategic advantage but it is also about 
American values, values of human rights, values of taking care 
of poor and marginalized people.
    And I expect that you at some point will be confirmed, and 
I look forward to working with you to asserting those values of 
human dignity as well as American interests abroad. So thank 
you, sir.
    Senator Cardin. If I might, Mr. Chairman, before you call 
the next witness, for my members, there are some additional 
questions that members have asked--second rounds, when they 
ask. We are going to try to be able to give you the time.
    But it is possible, if we all cooperate, we might be able 
to complete this hearing this evening and not go into tomorrow, 
so that is what we are trying to do. Obviously, we have to 
complete it by 6 o'clock because we have business on the floor 
at 6 o'clock.
    Senator Corker. I saw the look of disappointment on Mr. 
Tillerson's face. [Laughter.]
    Senator Corker. As I understand it, Senator Rubio will have 
additional questions, Senator Menendez, and Senator Shaheen has 
additional questions. For those members--Senator Risch--so we 
may be here tomorrow.
    But it looks like--we are going to try to finish this 
evening, if everybody can cooperate. And again, if that is not 
the case, as we all know, we are perfectly willing to come back 
tomorrow. We are really trying to accommodate the members.
    Senator Cardin. I appreciate the chairman. He has been very 
open about that, and it has been very helpful. We also have 
some members who have not had their second rounds yet. We know 
that.
    Senator Corker. Yes.
    And now to Senator Portman.
    Senator Portman. Thank you, Mr. Chairman.
    And again, Mr. Tillerson, thanks for your willingness to be 
patient and answer the questions as you have with candor, and I 
appreciate your willingness to serve.
    One thing we did not talk about this morning in my 
questions was the Middle East, and I know you have had a lot of 
experience in the Middle East, particularly you have done 
business in many of the Arab countries.
    We talked about this a little in our meeting, but this 
relationship we have with Israel is a special one, of course. 
It is a cornerstone of our strategy in the Middle East. They 
are our greatest ally in the Middle East, the one true 
democracy.
    I want to talk to you a little about your views on Israel 
and the U.S.-Israel relationship. One important issue for me, 
as you know, is this issue of Boycott, Divestment, Sanctions 
Movement, the so-called BDS Movement, which is a global 
movement targeting Israel.
    I have been concerned about this for a while and introduced 
some legislation on it. In fact, Ben Cardin and I have not just 
introduced but passed legislation in this regard, to try to 
push back against the BDS forces.
    Recently, of course with the consent of the Obama 
administration, the U.N. Security Council passed this 
resolution condemning the settlements and demanding Israel 
cease all activities in the occupied Palestinian territories 
including East Jerusalem, is the way the resolution reads. I 
think this will no doubt galvanize additional BDS activity.
    And so here is my question to you. Would you make it a 
priority to counter Boycott, Divestment and Sanctions efforts 
against Israel, make sure Israel is not held to a double 
standard but instead treated as a normal member of the 
international community?
    Mr. Tillerson. Yes, I would.
    Senator Portman. Any preliminary thoughts as to how you 
would do that?
    Mr. Tillerson. Well, I think just by raising it in our 
interactions with countries that do put in place provisions 
that boycott whatever elements of activity or business with 
Israel and their country. We begin by highlighting that we 
oppose that and just expressing that view. And those countries 
need to understand that does shade our view of them as well 
then.
    One of the things that would I think help change the 
dynamic obviously would be if there were a change in the 
dynamic regionally. Today, because of Iran and the threat that 
Iran poses, we now find that Israel, the U.S., and the Arab 
neighbors in the region all share the same enemy. This gives us 
an opportunity to discuss things that previously I think could 
not have been discussed.
    Senator Portman. Do you find more support among the Sunni 
countries in the region for Israel as a result of that new 
dynamic?
    Mr. Tillerson. I do not want to speak for them, Senator, 
but I think, clearly, there is much more sharing going on 
between the leaders of those countries as they confront this 
singular threat to the whole region.
    Senator Portman. That is my sense, and I think it is an 
opportunity. On BDS we do have legislation that ties trade 
negotiations to dismantling BDS.
    Would you support that legislation? It is law of the land. 
And as we conduct trade negotiations, would you support using 
those negotiations to help dismantle the BDS efforts in those 
countries?
    Mr. Tillerson. From the standpoint of the State 
Department's view, if confirmed, I would advocate for that 
position as well, recognizing there are other agencies that 
would really have the purview over that.
    Senator Portman. What attitude do you take toward the U.N. 
initiatives relating to the Israeli-Palestinian conflict? Is it 
your intention to press the Palestinians to resume negotiations 
with Israel rather than seeking to negotiate through 
international bodies such as the U.N.? What is your position on 
that?
    Mr. Tillerson. I think, as I have expressed in answers to a 
couple other questions--I want to be brief because I realize we 
are trying to get through questions quickly.
    This issue has to be settled between the Israelis and the 
Palestinians. No one can be coerced into coming to the 
negotiating table. That will not lead to a solution.
    So I support the parties being allowed to deal with this 
speaking for themselves.
    Senator Portman. With regard to Syria, complicated, 
obviously. In my view, it has been made worse by our inaction 
and specifically drawing red lines and not honoring them, but 
also not establishing safe zones and no-fly zones.
    As you know, Russia's entry into Syria's civil war has 
helped turn the tide decisively. So Iran was strongly backing 
Assad and now you have Russia more involved, and this Assad-
Iran-Hezbollah axis has been strengthened.
    And yet, as an indication of how complicated it is over 
there, the enemy of that axis, of course, would be ISIS.
    One of my questions for you is, would you, under any 
circumstances, advise any sort of cooperation with Iran where 
we might have a confluence of interest, namely in confronting 
ISIS?
    Mr. Tillerson. That is an area that requires exploration. I 
think earlier I indicated that that is where we have to find a 
way to engage in the overall peace process or the ceasefire 
process that has been agreed by Russia, Turkey, Syria, and with 
Iran's involvement as well.
    Can we get engaged in that? Can we at least stabilize the 
situation regarding the rebel activity with the Syrian 
Government and turn our attention on ISIS? That remains to be 
seen. And that would involve, obviously, the engagement of 
others as well and input from others as well.
    Senator Portman. Do you think Russia has an interest or 
desire in this conflict to push back against ISIS? Or do you 
think they are simply in Syria to help Assad's regime?
    Mr. Tillerson. I think it has provided a convenient open 
door for Russia to now establish a presence in the Middle East, 
a region that it has long been absent from.
    Having said that, though, there are common threats that 
Russia faces because of terrorist organizations and radical 
Islam themselves.
    I have seen statistics there are significant fighters in 
ISIS that are all speaking Russian as a language. That 
indicates Russia has a problem as well in terms of where those 
people came from and where they may go back home to.
    So I think there is scope for discussion. This is what I 
alluded to earlier. We will have to see what Russia's posture 
is. Are they looking for a partnership with us where we can try 
to reestablish some type of a positive working relationship? Or 
are they uninterested in that?
    Senator Portman. Again, an incredibly complex situation in 
a difficult part of the world. But my sense is that Russia has 
not followed through on its statements with regard to pushing 
back on ISIS in Syria and, in fact, have focused on simply 
protecting Assad's regime.
    Again, thank you for your willingness to step forward into 
some of these complicated situations. We are looking forward to 
the opportunity of working together with you going forward, and 
I wish you the best of luck.
    Thank you.
    Senator Corker. Thank you.
    Senator Merkley.
    Senator Merkley. Thank you, Mr. Chairman. And I have 10 
articles, I mentioned one or two earlier, that I would like to 
submit for the record related to Exxon's involvement regarding 
sanctions and Russia's activity in Ukraine.
    Senator Corker. Without objection.

    [The information referred to is located in Annex VII, pages 
507 to 537]

    Senator Merkley. Thank you.
    I wanted to turn to climate, the environment. And, of 
course, you have received many, many questions today, and we 
talked about this some in my office, what I think is a 
reflection on how important it is.
    As we look down a few generations from now, people will 
say, ``Here was a major threat to the planet. What did you all 
do?''
    And you noted earlier in your conversation with the 
chairman that our ability to affect the impacts of climate 
change are very limited, but I believe that when I met with 
you, you indicated that but you also indicated that while we 
cannot model with certainty, that should not bother people too 
much. The fact that we have a risk and challenge, we should not 
let that go.
    And I think you continued: My view has always been it is a 
serious risk, and we need to take steps to address it.
    Is that a fair recounting of how you view it?
    Mr. Tillerson. Yes, sir. I think the fact--I think what I 
said is, the fact that we cannot predict with precision, and 
certainly all of the models that we discussed that day, none of 
them agree, does not mean that we should do nothing.
    Senator Merkley. One of the things I have seen in my time 
here in the Senate is we have gone from talking about models in 
the future to talking about what is happening on the ground 
right now.
    In my State, the forests are burning at a much faster rate 
due to pine beetle expansion and the additional heat and 
dryness. Over on the coast, the oysters are having trouble 
reproducing because the ocean is 30 percent more acidic than 
before we started burning fossil fuels.
    In Senator Shaheen's State, the moose are dying because the 
tics are not killed off during the winter and they are 
transmitting disease.
    And along the coast of Senator Coons' State, I think 
accurately the lowest average land level in the country, and 
very concerned about the advancing sea level and storms, and 
experienced that in Hurricane Sandy.
    And so every one of us is our States are seeing effects on 
the ground. And as we see that, we know we are just at the 
beginning of these impacts, that they are getting worse each 
year.
    But we are also viewing often climate change as a national 
security issue. And since you believe--so I wanted to ask, do 
you see it as a national security issue?
    Mr. Tillerson. I do not see it as the imminent national 
security threat that perhaps others do.
    Senator Merkley. One of the things that is noted is how the 
changing climate in the Middle East concentrated Syrian 
villages into the towns and sparked the civil war that has now 
produced something like 4 million and counting refugees, having 
profound impacts on European security, and that would be an 
example.
    Is that something you have looked at or consider to be real 
or perhaps misleading? Any thoughts in that regard?
    Mr. Tillerson. The facts on the ground are indisputable in 
terms of what is happening with drought, disease, insect 
populations, all the things you cite. Now the science behind 
the clear connection is not conclusive, and there are many 
reports out there that we are unable yet to connect specific 
events to climate change alone.
    Senator Merkley. What we are seeing are a lot of scientific 
reports that will say we can tell you the odds increased. We 
cannot tell you any specific event was the direct consequence.
    For example, Hurricane Sandy might have occurred in 100-
year period, but the odds of it happening are higher with the 
higher sea level, the higher energy in the storms.
    So do you agree with that viewpoint, that essentially the 
odds of dramatic events occurring, whether it is more forest 
fires or more hurricanes with more power, is a rational 
observation from the scientific literature?
    Mr. Tillerson. I think, as you indicated, that there is 
some literature out there that suggests that. There is other 
literature that says it is inconclusive.
    Senator Merkley. One of the things we--I am sorry to hear 
that viewpoint, because it is overwhelmingly the scales are on 
one side of this argument, and I hope you will continue to look 
at the scientific literature and take it seriously.
    One of the things that you mentioned was, it was impressive 
that so many countries came together in Paris as a part of a 
global effort to take this on, that that was an important 
outcome, that there is a global conversation. I just want to 
make sure that I am capturing correctly your impression of 
Paris.
    Mr. Tillerson. As I stated before in my statements around 
climate change, and responses to it, that it will require a 
global response, and the countries that attempt to influence 
this by acting alone are probably only arming themselves.
    So the global approach was an important step. And I think 
also, as I indicated in response to a question earlier, I think 
it is important that the U.S. maintain a seat at that table, so 
that we can also judge the level of commitment of the other 189 
or so countries that are around that table and chart out--
again, adjust our own course accordingly.
    Senator Merkley. Is this a case where really American 
leadership in the world matters? We rarely see big efforts to 
take on global problems unless America is driving the 
conversation. Do you think it is important for America to drive 
this conversation?
    Mr. Tillerson. Well, I think it is important for us to have 
a seat at the table. But I also think it is important that 
others need to step forward and decide whether this is 
important to them or not.
    If America is the only one that is willing to lead, then my 
conclusion is the rest of the world does not think it is very 
important.
    Senator Merkley. We saw, in the sanctions on Iran, it was 
America that led and then we brought the rest of the world to 
the table. We also saw that leading up to Paris, China is 
committed to producing as much renewable power as our entire 
electricity production in the United States. And we have seen 
India now talking about how to shift providing electricity to 
300 million people who do not have it and doing it primarily--
or shifting primarily from a coal strategy to a primarily 
renewable energy strategy.
    So we are seeing big countries with big populations that 
have far smaller carbon footprints than the United States 
stepping up. And should we not step up as well?
    Mr. Tillerson. I think the United States has stepped up. 
And as I indicated earlier, I think the United States has a 
record over the last 20 years of which it can be quite proud.
    Senator Merkley. Thank you. And it sounds like that means 
you think we should keep not just being at a table--to be at a 
table, you can be table silent, but an active participant in 
taking on this challenge.
    Mr. Tillerson. I think it is important that we are engaged 
in that same conversation, as I said, so we have a clear view 
of what others are doing and actions they are taking.
    Senator Merkley. Thank you. I am out of time.
    Senator Corker. You are. If you would like to take 30 
seconds?
    Senator Merkley. Earlier--thank you. I will take those 30 
seconds.
    Earlier, we talked about the Exxon working with a 
subsidiary to bypass American sanctions and do business with 
Iran, and you said you did not have knowledge of it, had not 
heard about it.
    Have you participated in any Exxon meetings in which you 
strategized or individuals strategized to find a legal path to 
do business with nations on which we had sanctions?
    Mr. Tillerson. No.
    Senator Merkley. Thank you.
    Senator Corker. Thank you.
    Senator Risch.
    Senator Risch. Thank you.
    Mr. Tillerson, several questions ago in an answer you 
stated, and I was delighted to hear that, that you had 
reservations occasionally when the United States acts about 
what was going to happen afterward if a regime changed. Let me 
tell you that that is a refreshing view up here. I sit on this 
committee and, of course, I sit on the Intelligence Committee, 
and we hear proposals all the time and we hear of actions 
people want to take all the time.
    But they cannot answer the question of, okay, what is going 
to happen next? And that is something I hope you will remain 
committed to while you are at this job. And when you are 
sitting at that table and those decisions are being made, I 
hope you will insist that people tell you what is going to 
happen next, because we have been very, very short on strategy 
after being able to topple a regime.
    If we want to do it, we can do it. We have the power to do 
it. But then what comes next?
    And everyone, for a long time around here, I heard, well, 
we are going to do nation-building and everything is going to 
be wonderful. It is going to be a new America when we are done 
with them.
    Well, the nation-building was a great strategy in the World 
War II era, and it worked. That strategy is not working 
anymore. We have been notoriously unsuccessful in attempting to 
do nation-building. And part of it is because--there are a lot 
of reasons for it. But, obviously, one of them is that we are 
operating in countries where the culture is so much different 
than ours, very different from the landscape in World War II 
and after World War II.
    So again, I want to encourage you to take that question to 
the table every time and say, ``Okay, guys, I see what you have 
got planned. I think it is going to work. What happens next?'' 
Because that is an incredibly important decision when we decide 
what we are going to do.
    Let me shift gears here for a minute. I want to talk about 
the Iran situation.
    As you know, there are a lot of us up here that were very 
much opposed to the deal that was cut by the current 
administration with Iran. There are a lot of us up here that 
believe we are not done yet. This thing has set Iran on a path 
toward having a nuclear weapon.
    Now, it is going to be some time. I couldn't agree more 
that it is going to be further down the road as a result of the 
deal. But it gives them, in my judgment, a legal path forward 
if they continue to do all the things that they are required to 
do in the agreement and take it step by step and year by year, 
and then the agreement expires and they are going to say, 
``Okay, we are done. We did everything we said we were going to 
do. Now we are going to build a bomb.''
    And if people object, they are going to say, ``Well, wait a 
second. You know, we negotiated in good faith. We did 
everything we said we were going to do.'' You know--so that is 
not over.
    But what is more concerning is the more instant question, 
and that is, a lot of us at this table, particularly on this 
side of the table, urged the administration in very clear 
terms, both in open hearings and in closed hearings, to push 
the Iranians to behave themselves, to change their conduct, not 
just--not quit fiddling with enrichment and what have you.
    These people are the primary sponsor, the greatest sponsor 
of terrorist activity in the world. When they were talking 
about giving them however many billions of dollars it was on 
pallets, we said, look, these people have been financing 
terrorist activities when they were broke. What do you think is 
going to happen when we make them rich? And they said, well, 
you know, we do not want to do that because it will interfere 
with what we are talking about on the nuclear deal.
    And to me, it was not worth the deal at all when they 
limited it just to that.
    When it comes to the U.N. sanctions, the U.N. resolutions 
that have been passed, they said you have to behave yourself. 
For instance, you cannot launch missiles anymore. I mean, 1 
week after the thing went into effect, they were launching 
missiles.
    There are a lot of us here that want to reimpose sanctions, 
in fact, ratchet sanctions up for their activities on 
terrorism, for their failure to obey the U.N. sanctions on 
missile activity. And the Iranians are saying, no, you cannot 
put any more sanctions on us. In fact, some people up here are 
arguing that, that that is not the case.
    We believe that that--look, the administration itself said 
that it did not cover those--the agreement did not cover those 
activities. It was limited to nuclear.
    Do you have a view on that, because I think you are going 
to be dealing with that sooner rather than later? There are a 
lot of us that feel very strongly about that. And if we are 
going to change these people's attitude about joining the world 
stage with the rest of civilized society, we are going to have 
to curtail their activities not just in the nuclear area but in 
these other things that are just despicable acts that they 
committed. Have you got some views on that?
    Mr. Tillerson. Well, I think I may have commented earlier 
that one of the unfortunate effects of all the attention placed 
on the Iran nuclear agreement I think I have heard--at least I 
have heard this expressed by others, resulted in a bit of a 
down focus on the real immediate threat today, and that is 
Iran's continued sponsorship of terrorism and terrorist 
organizations there in the region, most particularly support 
for Hezbollah and Hamas.
    So I think we do have to keep what is important in front of 
us and what is imminent in front of us.
    As to the nuclear agreement itself, I do look forward to, 
if confirmed, to taking a comprehensive look at that along with 
the side agreements to see what are all of the elements 
available to us to enforce--stay informed on their activities 
and are they complying with all of the inspection requirements 
and confirming that they are meeting the agreement.
    But back to your point of what happens next in the case of 
taking certain regimes out, the same thing is true here with 
this agreement. It is what happens at the end of this agreement 
that is really the important question we have to be asking 
ourselves, because the objective has not changed. Iran cannot 
have a nuclear agreement.
    What happens at that end, as you point out, is they go 
right back to where they were, and we have not achieved our 
objective.
    So my intention is to use the elements of this agreement 
that may be helpful to us in addressing the ``what comes next'' 
when this agreement is over or what replaces it, which has to 
be we have once and for all blocked Iran's path to a nuclear 
weapon, because they have agreed they are no longer going to 
pursue one because they have no reason to, because we have 
changed behaviors, or because we have mechanisms in place that 
are going to prevent them from pursuing that.
    That is--that will be a difficult negotiation because it is 
in the context of their continued sponsorship of terrorism 
around the world. And we cannot just work this and turn a blind 
eye to that. It is a complicated discussion but I think we do 
have to take that approach with them.
    And we are not going to do a one-off deal with you and act 
like all of this stuff over here is not happening. It has to be 
looked at in full view, and we just have to be honest and 
acknowledge it.
    Senator Risch. And that is exactly what happened. I am 
encouraged to hear you say that.
    Let me warn you about one thing. I sit on this committee. I 
sit on the Intelligence Committee. And I have not seen the side 
agreements, nor has any Member of the United States Congress 
seen the side agreements.
    I have traveled to the U.N. operations in Vienna and met 
with the IAEA. They will not let you see those side agreements.
    So these people were voting--the people who voted for that 
Iran agreement did so on an agreement that part of which we 
were not able to see.
    So I wish you well. We have had one witness who said she 
was in the room where they had the side agreements and they 
were passing them around and she touched them as they went by 
but did not read them, so she was not able to tell us either 
what was in the side agreements.
    I wish you well. If you get your hands on the side 
agreements, give me a call, would you, because I would like to 
join you and have a look at them?
    Thank you, Mr. Chairman.
    Senator Corker. Thank you.
    Senator Coons.
    Senator Coons. Thank you, Mr. Chairman.
    Thank you, Mr. Tillerson, for your fortitude and patience. 
It bodes well for what I think are the rigors and demands of 
service as Secretary of State.
    Since Senator Risch has taken us on a guided tour of the 
JCPOA, I just thought I would start by going back to an 
important point that you referenced in passing. I believe 
earlier today you said one of the failings of the deal is it 
does not deny Iran the ability to purchase a nuclear weapon. 
And my very diligent staff has reminded me that the Nuclear 
Nonproliferation Treaty does prohibit the purchase of a nuclear 
weapon. But more importantly, the JCPOA, which I have, in 
provision three of the general provisions at the very front, 
says Iran reaffirms that under no circumstances will Iran ever 
seek, develop, or acquire any nuclear weapons.
    My general approach to this agreement has been distrust and 
verify. I couldn't agree with you more that Iran's ongoing 
activities in their ballistic missile program, their human 
rights violations domestically, their support for terrorism in 
the region, make them one of the most dangerous regimes in the 
world and one that deserves very close scrutiny. But I did not 
want us to move forward without some clarity that at least the 
paper, at least the words on the page, do say that they 
committed to not acquiring a nuclear weapon. That was I think 
one of the positives about it, in addition to the inspection 
protocols.
    Mr. Tillerson. Senator, if I could correct for the record, 
I misspoke. And during the break, I went and checked my source 
for that and confirmed that I misspoke, and that, in fact, 
their commitment to the Nuclear Nonproliferation Treaty, the 
language that was in there about ``acquire'' some people 
quibble over, but their commitment to the NPT was clear, and I 
misspoke in that regard.
    Senator Coons. Thank you.
    And I appreciate your comment in response to questions from 
Senator Merkley and others about keeping a seat at the table 
through the Paris Agreement, and the general approach that that 
suggests.
    I believe climate change is a major concern for us in the 
long term and the short term, and that it is human-caused, and 
that there are actions we can and should take in response to 
it. As a trained chemist, I respect your training as an 
engineer, and would urge you to be attentive to the science, 
because I think it is fairly overwhelming on this point.
    I do think that the JCPOA structure, the P5+1 that brought 
it into force and is enforcing it, and the Paris climate 
agreement, are two examples of tables where we should have a 
seat at the table and be advocates and be driving it.
    I want to ask you about one other table that was literally 
designed with a seat for the United States that still sits 
empty. There have been a number of questions in discussion 
today about the South China Sea and about China's aggressive 
actions in building islands. The U.N. Convention on the Law of 
the Sea decades ago was advanced by a Republican administration 
but has still never been ratified by this Senate.
    And in June 2012, you signed a letter indicating in your 
role as CEO of ExxonMobil that you supported the Senate's 
consent to ratification of the U.N. Convention on the Law of 
the Sea.
    I was a member of this committee when then-Chairman John 
Kerry convened seven hearings where panel after panel of four-
star admirals and generals and business leaders and national 
security leaders and former Republican leaders of the 
administration and Senators all testified in support of this, 
yet we fell short of ratification.
    Had we ratified it, we would have that seat at the table to 
aggressively assert the international law of the sea and to 
push back on China's actions, which during that debate were 
hypothetical, today are real.
    Would you work to support the Law of the Sea Convention, if 
confirmed as Secretary?
    Mr. Tillerson. Well, I will certainly work with the 
President. We have not discussed that particular treaty. 
Certainly, my position I have taken in the past was one from 
the perspective of the role I had at that time.
    And I do take note of it, and I do acknowledge the concerns 
people have about subjecting any of our activities to 
international courts. And that is the principal objection that 
people have.
    But when given the opportunity, if given the opportunity to 
discuss this in the interagency or the National Security 
Council, I am sure we will have a robust discussion about it.
    I do not know what the President's view is on it, and I 
would not want to get out ahead of him.
    Senator Coons. Well, let me ask you about that, if I might, 
because I came to this hearing with a whole list of questions, 
and in response to others, you have addressed many of them 
where, in my view, you have a notable difference of view from 
at least some of the concerns based on some campaign statements 
by the President-elect: no ban on Muslims; no nuclear arms 
race; no nukes for Japan, South Korea, or Saudi Arabia; no 
abandoning our NATO allies; no deal with Russia to accept the 
annexation of Crimea; stay engaged potentially in both the Iran 
agreement and the Paris climate treaty.
    All of these, to me, are quite encouraging, but they 
suggest some tension with statements made by the President-
elect.
    How will you work through those differences? And just 
reassure me that you will stand up to the President when you 
disagree on what is the right path forward in terms of policy.
    Mr. Tillerson. Well, I think, early in the day, someone 
asked me a similar question, and I said that one of the reasons 
that I came to the conclusion, among many, to say yes to 
President-elect Trump when he asked me to do this is in my 
conversations with him on the subjects we have discussed, he 
has been very open and inviting of hearing my views and 
respectful of those views.
    I do not think, in terms of discussing or perhaps 
characterizing it as my willingness to push back on him, my 
sense is that we are going to have all the views presented on 
the table and everyone will be given the opportunity to express 
those and make their case, and then the President will decide.
    And I am not trying to dodge a question in any way, but 
this is one that I do not know where the President may be, nor 
do I know where some of the other agencies and departments that 
will have input on this will be under the new administration. 
So I respect their rights to express their views also.
    And again, as you point out, I am on the record as having 
signed a letter from my prior position in which I was 
representing different interests. When I hear all the arguments 
for myself, I want to commit to you that my views might not 
change if I hear different arguments because I was looking at 
it only from a particular perspective.
    Senator Coons. And a number of Senators, myself included, 
have pressed you on making the transition from CEO of 
ExxonMobil and its interests and a 41-year career there to 
representing America's interests.
    And I understand the concerns about sovereignty that some 
raised in the hearings. Having sat through the hearings and 
heard the testimony, I am convinced that the interests of the 
United States are best advanced by our acceding to that treaty 
and ratifying it.
    I have more questions, but I will wait for the next round.
    Senator Corker. And we are beginning that round now.
    Senator Cardin has deferred to Senator Menendez, and only 
those who really have questions I think are going to be 
acknowledged at this time. However, anybody who wishes to come 
down can do so.
    So it is going to be Menendez, Rubio, Shaheen, Cardin, 
Coons, Merkley. Sounds like a pretty full third round, and I am 
glad everybody is interested.
    Senator.
    Senator Menendez. Thank you.
    Mr. Tillerson, I admire your stamina. You have been through 
several rounds here. And from my perspective, I hope you 
understand that my questions, while they may seem tough in some 
respects, I take my role of advise and consent of any nominee 
really important.
    And in your case, you have a very unique background coming 
to this job, so I am trying to understand as the person who is 
going to be the chief adviser to the President-elect in the 
meetings that you just described where everybody gets around 
the table. But in foreign policy, it is going to be you.
    And so I try to get from the past, a gleaming of it, so I 
understand where you are going to be in the future. So I hope 
you understand the nature of my questions.
    Let me take a quick moment on Cuba. You have heard a lot 
about Cuba here, maybe disproportionately to things in the 
world.
    But I think it is rewarding a regime when the only way you 
can do business in Cuba is with Castro's son or son-in-law. 
They head the two monopolies inside of Cuba that control 
tourism and everything hotel- and tourism-related, and 
everything agriculture-related, which are the two main areas 
that people want to do business with in Cuba.
    And who are they? Not only are they the son and son-in-law 
but they are high-ranking officials of the Cuban military. So 
what do we do? When we allow business to take place with them--
and you can only do business with them; I wish you could do 
business with average Cuban and empower them and make those 
economic decisions that would free them in some respects--then 
you strengthen what? They are both high-ranking officials of 
the Cuban military.
    So you ultimately fund the very oppressive regime that you 
are trying to get them to change, in terms of human rights and 
democracy.
    So when you do your bottom-up review, that is another 
element I would like you to take into consideration.
    Let me ask you this. As you know, following up on Senator 
Risch's comments on Iran, Iran was designated a state sponsor 
of terrorism in 1984 following its connection to the 1983 
bombings of U.S. Marine personnel in Lebanon, a horrific event 
that killed 241 U.S. service personnel.
    That label on Iran has, unfortunately, not changed. Just 
this June, the State Department in its annual report on global 
terrorist activity listed Iran as a state sponsor of terrorism. 
The report indicated that Iran in 2015 ``provided a range of 
support, including financial training, equipment to terrorist 
groups around the world, including Hezbollah.''
    It has been brought to my attention that between 2003 and 
2005, ExxonMobil sold $53 million worth of chemicals and fuel 
additives to Iranian customers. Alarmingly, Exxon did not 
originally disclose this business with Iran in its annual 10K 
annual report with the SEC in 2006. ExxonMobil only disclosed 
this information to the SEC after receiving a letter from the 
SEC asking for explanations.
    The Securities and Exchange Commission asked Exxon to 
explain these dealings because Iran at the time was ``subject 
to export controls imposed on Iran as a result of its actions 
in support of terrorism and in pursuit of weapons of mass 
destruction and missile programs.'' They went on to say, ``We 
note that your form 10K does not contain any disclosure about 
your operations in Iran, Syria, and Sudan.''
    Exxon's response has been that transactions were legal 
because Infineum, the chemicals joint venture with Shell, was 
based in Europe and the transaction did not involve any U.S. 
employees.
    In other words, this would clearly seem as a move designed 
to do business with Iran to evade sanctions on Iran. So I have 
a few questions for you to the extent that you are familiar 
with this of the customer at the end of that deal and whether 
you can ascertain that Exxon was either knowingly or 
unknowingly potentially funding terrorism.
    One of the customers in these sales to Iran was the Iranian 
national oil company, which is wholly owned by the Iranian 
Government. The Treasury Department of the United States had 
determined that that entity is an agent or affiliate of Iran's 
Islamic Revolutionary Guard Corps. The IRGC is Iran's main 
connection to its terrorist activities around the world and 
pledges allegiance to Iran's supreme leader, the ayatollah.
    In other words, the IRGC and its foreign arm, the Quds 
Force, are the ayatollah's army. In fact, they are currently in 
Syria right now helping Assad remain in power.
    So can you tell the committee whether these business 
dealings with Iran did not fund any state-sponsored terrorism 
activities by Iran?
    Mr. Tillerson. Senator, as I indicated earlier, I do not 
recall the details of the circumstances around what you just 
described. The question would have to go to ExxonMobil for them 
to be able to answer that.
    Senator Menendez. You have no recollection of this as the 
CEO?
    Mr. Tillerson. I do not recall the details around it. No, 
sir.
    Senator Menendez. This would be a pretty big undertaking to 
try to circumvent U.S. sanctions by using what may or may not, 
I am not ready to make that determination, a legal loophole to 
do so. But it would be pretty significant.
    It would not come to your level? It would not come to your 
level that the Securities and Exchange Commission raised 
questions with your company about lack of disclosure?
    Mr. Tillerson. That would happen. I am just saying I do not 
recall. 2006 would have been the first year that I would have 
been looking at those things. I just do not recall this one is 
all I am saying.
    Senator Menendez. Do you recall whether ExxonMobil was 
doing business with three different state sponsors of 
terrorism, including Iran, in the first place?
    Mr. Tillerson. No, I do not recall. Again, I would have to 
look back and refresh myself.
    Senator Menendez. I would hope you would do so, and I would 
be willing to hear your response for the record, because I 
think it is important.
    Regardless of--moving to a different thing, because this is 
all in the sanctions field. I am trying to understand that, and 
this is an expression of that.
    Regardless of whether or not you have read the bill that 
Senator Cardin and I and others have sponsored on a bipartisan 
basis, do you believe that additional sanctions on Russia, in 
view of everything that has been ascertained, is, in fact, 
appropriate? You may feel that some may be more useful than 
others, but do you believe that any additional actions in terms 
of sanctions on Russia is appropriate for their actions?
    Mr. Tillerson. Well, I would like to reserve my final 
judgment on that until I have been fully briefed on the most 
recent cyber events. I have not had that briefing. And as I 
indicated, I like to be fully informed on decisions.
    Senator Menendez. I appreciate that. I would just say that 
in the public forum that you could read or any other citizen 
could read, it is pretty definitive by all of the intelligence 
agencies of what they did. So it just seems to me that while I 
know you are cautious and you want to deal with the facts, that 
is the essence of you being an engineer and a scientist and I 
respect that, there are some things in the public realm for 
which one can deduce and make a decision, and I would love to 
hear your response to that at least for the record as well.
    Mr. Tillerson. Well, when I know there is additional 
information and there are additional facts in the classified 
area, I would wait until I have seen all the facts. If I knew 
that there is nothing else to be learned and this is all the 
facts and there is nothing else out there, then I would say 
that I could make a determination because this is all we know.
    But as I have been told, at least I am aware there is a 
classified portion of this report that, when I have the 
opportunity, I look forward to examining that. And then I will 
have all the information in front of me.
    Senator Menendez. I have one final question, Mr. Chairman, 
but I will wait for my next turn.
    Senator Corker. In order for efficacy to prevail, please go 
on.
    Senator Menendez. So in light of efficacy, so here 
characterizes, in essence, my big question for you, my question 
about you. It is an article that appeared in TIME Magazine, and 
I really want to hear your honest response to this, and I am 
going to quote from the article.
    It says, ``What the Russians want from Tillerson is bigger 
than sanctions relief. They want to see a whole new approach to 
American diplomacy, one that stops putting principles ahead of 
profits, focusing instead on getting the best political bargain 
available and treats Russia as an equal. 'For the next 4 years, 
we can forget about America as the bearer of values,' said 
Vladimir Milov, a former Russian Energy Minister who went on to 
join the opposition. 'America is going to play the deal game 
under Trump. And for Putin, that is a very comfortable 
environment,' he told a radio host this week in Moscow. It is 
an environment in which statesmen sit before a map of the world 
and they haggle over pieces available to them, much like 
Putin''--this is the article, not me--``like Putin and 
Tillerson did while weighing the oilfields of Texas against 
Russia's reserves in the Arctic. Through the canny eyes of a 
political dealmaker, many of Washington's oldest commitments in 
Europe and the Middle East could come to be seen in much the 
same way, as a stack of bargaining chips to be traded rather 
than principles to be upheld.''
    I would like to hear your--that is not you being quoted, 
but that is a characterization that was in one article, but 
beyond that, it is a characterization I have heard many times. 
And so, to me, that comes down to the core of everything I have 
tried to deduce in my line of questions to you, and I want to 
give you an open opportunity to respond to it.
    Mr. Tillerson. Well, I have not seen article in its 
entirety, but I will just deal with the quotes that you read.
    If you conclude that that is the characterization of me, 
then I have really done a poor job today, because what I have 
hoped to do in today's exchange on the questions is to 
demonstrate to you that I am a very open and transparent 
person. I do have strong values that are grounded in my 
American ideals and beliefs, the values that I was raised with. 
And they are underpinned--I have spoken to the Boy Scouts this 
morning earlier. They are underpinned by those same values, 
duty to God and country, duty to others, and duty to yourself.
    And that has guided my life for all of my life. And it will 
guide my values. And it will guide the way in which I will 
represent the American people, if given the chance to do so.
    I understand full well the responsibilities and the 
seriousness of it. I do not view this as a game in any way, as 
that article seems to imply.
    So I hope, if I have done nothing else today, you at least 
know me better.
    Senator Corker. Thank you.
    If there is no objection, there has been a response from 
ExxonMobil that my staff gave me relative to the Sudan-Iran-
Syria issue, and I am just going to enter it into the record, 
if that is okay, for everyone to be able to peruse.

    [The information referred to is located in Annex I, page 
319.]
    Senator Corker. With that, Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman. Thank you, Mr. 
Tillerson, for your patience. You can see the finish line from 
here I think. We are almost there. I really just have four 
clarifications. I do not think they are going to take very 
long, just going back to some of the things.
    On the sanctions piece, to build on what Senator Menendez 
had just asked you, it is my recollection that your testimony 
earlier this morning about--I forget, but I had asked 
specifically about sanctions on those who conducted 
cyberattacks against the United States, not specifying Russia 
in particular. Just bill that said anyone who is guilty of 
cyberattacks against our infrastructure would be subject to 
sanctions.
    And your answer, if I recall correctly, was that we would 
want to weigh other factors before--that is why you wanted the 
flexibility and not the mandatory language because there may be 
other factors to take into account, such as our trade and 
economic relations with that country or actor before we chose 
whether or not to use a tool, such as sanctions. So, in 
essence, even if you had information available to you, or will 
in the future, about specific actors, that alone may not be 
enough based on that testimony. There are other factors that 
you would want to take into account before making a 
recommendation to the President about whether or not to 
institute sanctions. Is that a correct characterization?
    Mr. Tillerson. Yes, it is. And I think the way I would try 
to try to--try to explain this, at least why I am taking this 
position, sanctions are not a strategy. Sanctions are a tactic. 
And if we are going to engage in, and I will use Russia in this 
case, but I can use any other country that these sanctions 
would apply to. If we are going to engage in trying to address 
a broad array of serious issues, I would like to have this as a 
tool, as a tactic. If it is already played, it is not available 
to me as a tactic in advancing those discussions and trying to 
come to some conclusion that best serves America's interest and 
America's national security interest.
    It is a powerful tool. I would like to be able to use it 
tactically. And if it has already been played, it is not 
available to me to use tactically.
    Senator Rubio. Okay. The second is a clarification of an 
exchange you had with Senator Portman about an hour or so ago. 
He asked you whether there was any--basically any sort of 
cooperation with Iran where we may have a confluence 
confronting ISIS and working with Iran to confront ISIS, your 
answer was, ``That is an area requiring exploration. As I 
indicated that is where we have to find a way to engage in the 
overall process.''
    Just to clarify, does that mean you would be open 
potentially to working with Iran on issues that we have 
potentially in common, such as defeating ISIS?
    Mr. Tillerson. Well, defeating ISIS is the one that is 
right in front of us, and we are already cooperating with them 
in Iraq.
    Senator Rubio. Okay. The third question has to do with 
sanctions on Crimea against--again, Senator Portman's question. 
I believe your answer was, and I caught it on television. I had 
just stepped out at the tail end of the first round. And he 
asked, and I think your testimony was along the lines of we 
will not change anything right away after we examine the 
situation, but embedded in that was the notion that potentially 
at some point there could be an arrangement in which the United 
States would recognize Russia's annexation of Crimea if the 
government in Kiev signed off on it or accepted it as part of a 
broader deal to ensure peace and stability.
    Is that an accurate assessment of the testimony as I heard 
it?
    Mr. Tillerson. I think what I was trying to recognize is 
that since that was territory that belongs to Ukraine, Ukraine 
will have something to say about it in the context of a broader 
solution to some kind of a lasting agreement. I am not saying 
that that--that that is on the table. I am merely saying I do 
not think that is ours alone to decide.
    Senator Rubio. Okay. Here is my last clarification, and it 
is more about the hearing here today in general. At the end of 
the last round, at the end of the questioning you said that 
there must--there was some misunderstanding in alluding to 
human rights. You said, ``We share the same values,'' but that 
you are ``clear-eyed and realistic about it.'' So, I wanted you 
to understand the purpose of the questions I have asked you 
today because they are in pursuit of clarity and realism.
    On the clarity front, I was very pleased when your 
statement today used the term ``moral clarity'' because I think 
we have been missing that for the last eight years. And that is 
why I asked you about whether Vladimir Putin was a war 
criminal, something that you declined to label him as. I asked 
about China, whether they were one of the worst human rights 
violators in the world, which, again, you did not want to 
compare them to other countries. I asked about the killings in 
the Philippines. I asked about Saudi Arabia being a human 
rights violator, which you also declined to label them.
    And the reason was not because I was trying to get you 
involved in the name of international name calling, but for the 
sake--for the sake of name calling, but because in order to 
have moral clarity, we need clarity. We cannot achieve moral 
clarity with rhetorical ambiguity.
    I also did it in pursuit of realism because here is what is 
realistic. You said that you did not want to label them because 
it would somehow hurt our chances to influence them or our 
relationship with them. But here is the reality. If confirmed 
by the Senate and you run the Department of State, you are 
going to have to label countries and individuals all the time. 
You expressed today support for the Magnitsky Act, which 
specifically labels individuals and sanctions them. You are 
going to have to designate nations as sponsors of terrorism or 
organizations as terror groups, again a label. And one that I 
think a lot of us care about is the Trafficking in Persons 
Report, which specifically labels countries and ranks them 
based on how good a job they are doing.
    And that one really concerns me because in that one, over 
the last year there is evidence that the rankings and the tier 
system has been manipulated for political purposes. They 
upgraded Cuba. They upgraded Malaysia because we are working 
with them now to improve relations, and we did not want to have 
a label out there that hurt the chances of doing that. And so, 
that is why I think it is important for you to----
    But here is the last reason. You gave the need for a lot 
more information in order to comment on some of these, and, 
believe me, I understand that. It is a big world. There are a 
lot of topics. These were not obscure areas. And I can tell you 
that, number one, the questions I asked did not require access 
to any sort of special information that we have. All these 
sources were built on voluminous open source reporting, rights 
groups, the leaders sometimes themselves when it comes to the 
Philippines, the State Department, et cetera. And so, we are 
not going off news reports alone.
    But the selling point for your nomination has been that 
while you do not have experience in government and in foreign 
policy, you have traveled the world extensively. You have 
relationships all over the world, and you have a real 
understanding of some of these issues as a result of that. Yet, 
today we have been--I have been unable to get you to 
acknowledge that the attacks on Aleppo were conducted by 
Russia, and that, in fact, they are or would be considered 
under any standard of human rights; that somehow you are 
unaware about what is happening in the Philippines, that you do 
not--are not prepared to label what is happening in China and 
Saudi Arabia, a country that, my understanding, you are quite 
aware of. Women have no rights in that country. That is well 
documented, and if you visited--anyone who has, they would 
know.
    Now, I want you to understand this, too, and I said this to 
you when we met. I have no questions about your character, your 
patriotism. You do not need this job. You did not campaign for 
this job. It sounds like a month and a half ago if someone had 
said that you were going to be up here today, you would say 
that is not true. That is not what I--there is only one reason 
for you to be sitting behind that table today, and that is your 
love for this country and your willingness to serve it, and I 
do admire that. I do.
    But I also told you when we met that the position that you 
have been nominated to is, in my opinion, the second most 
important position in the U.S. government, with all due respect 
to the Vice President. It is the face of this country for 
billions of people, for hundreds of millions of people as well, 
and particularly for people that are suffering and that are 
hurting. For those people--those 1,400 people in jail in China, 
those dissidents in Cuba, the girls that want to drive and go 
to school--they look to the United States. They look to us, and 
often to the Secretary of State.
    And when they see the United States is not prepared to 
stand up and say, yes, Vladimir Putin is a war criminal, Saudi 
Arabia violates human rights. We deal with these countries 
because they have the largest nuclear arsenal on the planet, 
because China is the second largest economy in the world, 
because Saudi Arabia is a strategic partner in what is 
happening Middle East, but we still condemn what they do. It 
demoralizes these people all over the world, and it leads 
people to conclude this, which is damaging and it hurt us 
during the Cold War, and that is this: America cares about 
democracy and freedom as long--as long as it is not being 
violated by someone that they need for something else. That 
cannot be who we are in the 21st century.
    We need a Secretary of State that will fight for these 
principles. That is why I asked you these questions. That is 
why I asked those questions because I believe it is that 
important for the future of the world that America lead now 
more than ever. So, I thank you for your patience today.
    Senator Corker. Thank you, sir. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman, and thank you for 
giving us some additional time.
    I want to just comment on Senator Rubio's statement and 
Senator Menendez's because I think the concern that I have 
listening to your testimony today is that your eloquence about 
the values and the principles of this country cannot be denied, 
but many of those statements have been undercut by earlier 
statements by the President-elect. And so, what I want to know 
is which values are going to prevail, and are you deferring on 
answering some of these questions because of concerns about 
statements that the President-elect has made. So, I will make 
that as a rhetorical statement. I do not know that you need to 
respond to that unless you would like to, but I do think that 
is a concern that I have listening to the discussion today.
    I want to go back to nonproliferation because it got short 
shrift. The five most recent U.S. presidents, including Barack 
Obama, George W. Bush, Bill Clinton, George H.W. Bush, and 
Ronald Reagan, have negotiated agreements with Russia to ensure 
strategic stability and to reduce nuclear stockpiles. I think 
you said this morning, earlier, that you do support the New 
START treaty, which is the most recent of those agreements. But 
more broadly, do you support the longstanding bipartisan policy 
of engaging with Russia and other nuclear armed states to 
verifiably reduce nuclear stockpiles?
    Mr. Tillerson. Yes, I do.
    Senator Shaheen. Thank you. And I want to go back to 
climate change because I appreciate your recognition about the 
science and your concern as an engineer about wanting to have 
scientific evidence. I would argue that we have a lot of 
scientific evidence. In New Hampshire, we have a Sustainability 
Institute at the University of New Hampshire that produced a 
report in 2014 that pointed out the impacts of climate change 
in New Hampshire and the New England region. And will not read 
all of those, but two that I thought were most alarming is that 
for the New England region as a whole right now, the majority 
of our winter precipitation is rain. It is not snow. That is 
having a huge economic impact in New Hampshire and other parts 
of New England on our ski industry, on snowmobiling, on our 
maple sugaring industry. And also, that by 2070, New Hampshire 
will begin to look like North Carolina. So, there are 
tremendous economic implications of that as well as 
implications on everything from, you know, our wildlife, our 
moose, our trout, to our fauna, and lots of other things that 
affect the State.
    Now, I do appreciate your comments about being at the table 
as we continue to negotiate around climate change. In 2009, the 
U.S. government along with other nations that are part of the 
Group of 20--the G20--agreed to phase out fossil fuel 
subsidies. I for one believe that the science shows that fossil 
fuels have contributed dramatically to climate change. And 
while much of the responsibility for this G20 agreement falls 
on the Treasury Department, the State Department also does have 
a role in overseeing the objective.
    So, I really have a two-part question here with respect to 
subsidies for fossil fuels. The first is, at this time when 
many of our oil companies, particularly large oil companies, 
like Exxon, are reaping very good profits, do we really need to 
continue these subsidies? And second, if confirmed, how would 
you as Secretary of State help to fulfill our international 
commitment to phase out those fossil fuel subsidies?
    Mr. Tillerson. Well, and that--since it is a two-part 
question, obviously the first part I am happy to offer a 
personal view on----
    Senator Shaheen. Good.
    Mr. Tillerson.--even though that is not within the State 
Department's role to make that judgment. This comes from my 
understanding of how the various tax elements of the Tax Code 
treat certain investments, certain research credits, and 
whatnot. And I am not aware of anything the fossil fuel 
industry gets that I would characterize as a subsidy. Rather, 
it is--it is simply the application of the Tax Code, broadly a 
Tax Code that broadly applies to all industry, and it is just 
the way the Tax Code applies to this particular industry.
    So, I am not sure what subsidies we are speaking of other 
than if we want to eliminate whole sections of the Tax Code, 
then they will not apply to any other industries as well. And I 
just say that as kind of a broad observation.
    So, as to the State Department's role then in participating 
in summits or discussions around others taking similar action, 
it would be with that view in terms of how we are going to 
apply things at home, because I think that the President-elect 
has made clear in his views that his whole objective of his 
campaign in putting America first, that he is not going to 
support anything that would put U.S. industry and any 
particular sector at a disadvantage to its competitors outside 
of the U.S., whether it is automobile manufacturing, or steel 
making, or the oil and gas industry.
    So, it would depend upon how the--how the domestic part of 
that and how that decision is made by others would then inform 
the positions that I would be carrying forward in the State 
Department.
    Senator Shaheen. Well, so then, I know you said earlier 
that you do not want to talk about tax reform, which I 
appreciate. But if we assume that the way the Tax Code is 
written is it provides additional subsidies, and I would argue 
that they are subsidies to oil companies and fossil--the fossil 
fuel industry, should we, if we are going to comply with the 
2009 agreement with the G20, should we then think about as we 
are looking at tax reform and rewriting the Tax Code, that we 
change that aspect of the Tax Code in order to deal with our 
commitment to phase out those subsidies?
    Mr. Tillerson. Well, I would really have to defer to 
Treasury and others that are going to undertake that exercise, 
as well as the other--the other agencies that will inform the 
State Department's view of how that compares to what others are 
doing to live up to their commitment to phase out ``subsidies'' 
as well. So, it is hard for me to make a judgment on whether I 
think we should do this until I know what other--what is the--
what is the parallel in the agreement that other countries are 
going to do as well.
    Senator Shaheen. Thank you. Thank you, Mr. Chairman.
    Senator Corker. Thank you. Senator Cardin.
    Senator Cardin. Well, first, let me start off again by 
thanking Senator Corker for the time that has been allowed. I 
think Senator Coons has a question or two if we could yield 
perhaps to Senator Coons?
    Senator Corker. Absolutely. Senator Coons.
    Senator Coons. If I might, Mr. Tillerson, we spoke in my 
office countering violent extremism and fragile states, and a 
number of other senators have asked questions about three 
countries--Turkey, Egypt, and the Philippines--but there are 
many others we could be focusing on, that have been partners of 
ours or allies of ours, and where they have recently turned 
away from democratic norms and have cracked down on civil 
society, on press freedom, on human rights.
    And you talked with me, and you have also said here, that 
in some instances we have to set aside for the moment human 
rights, civil liberties, democracy, as our number one goal when 
our national security is at risk. And I just wanted to ask you 
about to what extent you think the actions to curtail human 
rights and press freedom by some governments actually fuel 
instability or strengthen terrorist threats--we talked in 
particular about Nigeria--or places where human rights 
violations might actually increase the risk of instability. And 
what strategy would you follow to prevent partners like Turkey, 
Egypt, the Philippines, and others, from sliding further away 
from sharing some of our core values in terms of democracy and 
human rights?
    Mr. Tillerson. Well, I certainly would take no exception to 
what you have posed, that to the extent human rights either 
deteriorate, oppression increases, or to the extent it exists 
and it is not addressed, it foments within the population. 
There is no question about it. And that over time, you know, it 
is going to take its effect on--in terms of the stability of 
the country.
    And so, I think, as I have--as I have talked about these 
competing priorities, and I made it clear earlier that these 
most precious of human values that we advocate for are never 
absent. They are never absent. And they really are only going 
to be trumped, so to speak, when there are--when there are 
serious national security concerns. And if we are engaged with 
a ``partner'' today, and that is what I talked about. Sometimes 
people are partners. Sometimes they are adversaries. Sometimes 
they are friends. Sometimes they are friends and partners.
    But if we are engaged in an area where this relationship 
and what we are pursuing is in the national security interest, 
the values stay with us, but we may have--we may not be able to 
assert those values at this time. It does not mean they are 
gone. It does not mean we do not talk about them. It does not 
mean we dismiss them. We just may not--we may not--it may not 
be in our interest to condition our national security pursuits 
on a country making certain commitments around oppression and 
human rights.
    These are the--these are the most difficult of choices. 
They are the most difficult choices, but we have to keep--be 
very clear about what the objective is.
    Senator Coons. Thank you. I have a few more questions. I 
will try and move through them quickly if I could.
    I believe that LGBTQ rights are human rights, that gay 
rights are human rights. And in a number of meetings with 
African heads of state, I have advocated for them to push back 
on actions where they have engaged in preventing people from 
meeting, from advocating, where they have been physically 
abused or tortured. I will never forget meeting in my office in 
Delaware with a woman from Zimbabwe who had been given asylum 
in the United States after being tortured in Zimbabwe because 
of who she loved.
    Do you believe gay rights are human rights, and is that a 
piece of our human rights advocacy agenda around the world?
    Mr. Tillerson. American values do not accommodate violence 
or discrimination against anyone. That is just--that is part of 
that American values that we protect.
    Senator Coons. Could I press you for a more specific 
question, sir? I was encouraged by your tough leadership moment 
at the Boy Scouts, and I simply wanted to reassert that in my 
work around the world, although not always easy or comfortable, 
it is, I think, important that we include respect for the whole 
range of peoples' relations in our menu of how we define human 
rights.
    Let me ask you about support for foreign assistance. Others 
have asked about it before. But both Condoleezza Rice and Bob 
Gates, former leaders who have introduced and spoken in support 
of you, agree that diplomacy and development have to be equal 
to defense. And in our total budget, about 50 percent is DOD 
and about one percent is State Department/USAID.
    Are you going to press, in partnership with those of us in 
Congress who are committed to making foreign aid transparent, 
accountable, and efficient, to sustain our investments in 
development and diplomacy?
    Mr. Tillerson. I think to quote General Jim Mattis, I think 
he said if the State Department does not get the money it 
needs, then I have to buy more ammunition. And so, I think 
clearly the recognition of the importance of ensuring that 
resources are available to advance our foreign policy and 
diplomacy goals are important and elevated to a level that even 
by the nominee of the Secretary of Defense has recognized.
    Senator Coons. There are at least, I think, six non-career 
ambassadors who have reached out to you for some consideration. 
They are in allied countries. Not partner countries. Allied 
countries. And because of some of their visa rules, they cannot 
stay on as private citizens more than a few months, and they 
were hoping to be able to stay through the end of the school 
year in accommodation for their family concerns. I hope you 
will take that seriously.
    In previous transitions, even with a difference in Party 
registration, non-career ambassadors have been considered on a 
case-by-case basis for some clemency for family reasons to stay 
through the end of the school year, and I hope you will 
seriously consider that.
    Mr. Tillerson. I am aware that certain people have 
petitioned for a review, and I think there is a process that 
is--that is underway while I have been preparing for these 
hearings. I have not--I have not been directly engaged in it.
    Senator Coons. I appreciate your attention to these 
hearings, but I would--I would be grateful for any 
consideration.
    My last question. As you have cited, there is a whole 
string of important presidential legacies around development 
and foreign assistance: AGOA in the Clinton Administration, 
PEPFAR and the Millennium Challenge Corporation, which I think 
have been terrific initiatives of the Bush Administration, Feed 
the Future, Power Africa, and the Global Health Security 
initiatives in the Obama Administration. Part of what has built 
a good agenda for us around the world--the developing world is 
that the best ideas of previous Administrations have been 
sustained.
    Are you familiar with the Young African Leadership 
Initiative, or YALI, which brings some of the most promising 
young Africans to the United States for a summer to meet with 
civil society leaders, business leaders, elected leaders around 
the country? Are you familiar with Power Africa? I believe you 
are. It has been discussed before. And with the Global Health 
Security Initiative. And are these the sorts of things you will 
seriously consider sustaining in the future?
    Mr. Tillerson. I think all of those have proven to be 
extremely valuable programs, successful programs. We need to 
look for the successful programs, understand why they are 
successful, and how can they be replicated in other areas, 
perhaps either addressing other geographic areas or addressing 
other issues that we want to advance.
    Senator Coons. Mr. Tillerson, thank you for your testimony 
in front of the committee today, and I appreciate the 
opportunity to hear your views, and look forward to the 
opportunity to continue our work together.
    Senator Corker. Thank you. And if I could, since he has 
been very busy in getting ready for this hearing, we spent some 
time talking to the Transition Team about some of the 
ambassadors and others that have hardship. And I know there has 
been something set up where they can, in fact, petition even 
before he comes into office. So, hopefully some of that is 
being accommodated. And I want to thank you Senator Kaine and 
others for bringing it to my attention.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    President-elect Trump has argued that the United States 
should again waterboard suspected terrorists. Yesterday Senator 
Sessions said that that would be illegal, and General Mattis 
has said that it would be ineffective. Will you advise, Mr. 
Tillerson, President-elect Trump that torture in any form is 
illegal, immoral, and ineffective?
    Mr. Tillerson. Well, I think others have opined on that 
sufficiently, and I would not disagree with what they have 
said.
    Senator Markey. So, you agree with what they said.
    Mr. Tillerson. I would agree with what they have said.
    Senator Markey. Okay. Thank you. I think that is important. 
Now, last year in the world, one-half of all new electricity 
which was installed was renewables. One-half, all new 
electricity in the world. And China has announced that it is 
now going to invest $360 billion in renewable energy in its 
country.
    The global climate agreement that was reached in Paris is 
driving much of this investment, but if the United States does 
not take advantage of this global market which is going to open 
up, it is going to mean that we are going to lose jobs here in 
the United States. We now have 300,000 people in the wind and 
solar industry in the United States and only 65,000 coal miners 
who are left. So, this sector is growing and growing, and the 
Chinese clearly want to get the lion's share of it.
    Can you talk a little bit about how you see this renewable 
energy revolution as a job creating engine for the United 
States, and as a way of dealing with the commitments which the 
United States has made in Paris to the reduction of its 
greenhouse gases?
    Mr. Tillerson. Well, I think this is largely a trade issue, 
one of America's manufacturing, investments, and 
competitiveness. And I think to the extent we can let free 
market forces work, then I would expect American companies to 
be competitive in participating in this growing market. But 
this will be subject to trade agreements perhaps, or just 
subject to a continuation of free and open trade to supply--to 
be a supplier to these countries that are installing this 
significant capacity.
    There has been significant capacity already installed in 
the U.S., but, as you point out, there is a growing market out 
there as a result of this agreement. So, I think it is really a 
question for the U.S. private sector working with the 
Administration, and the Commerce Department, and others as to 
ensuring that there are no trade obstacles to their ability to 
participate should they choose to do so.
    Senator Markey. You were quoted a few years ago as saying, 
``Energy made in America is not as important as energy simply 
made wherever it is most economic in the world.'' From this 
committee's perspective, we look at the foreign policy of the 
United States, and we feel a great responsibility for the young 
men and women who we export over to the Middle East to defend 
our country, and these ships of oil that keep coming back into 
the United States. And we are still importing five million 
barrels of oil a day, meaning that we do not have it here, but 
we continue to import it.
    Could you talk about this view that you have that an 
American-made barrel of oil is no different than a barrel of 
oil made overseas, because from our perspective the issue of 
importation of oil ties us into policies, into regions, into 
countries that we would otherwise never really have to give the 
weight of importance to that we now do just because of the fact 
that they have oil.
    Mr. Tillerson. Well, I think the context in which that 
statement was made, because I made it often, at the time was 
that anything that puts more supply onto the global market 
means the global market is less dependent on any single source. 
So, a greater diversity of supply, and I think it was made 
probably in the context of promoting American--America fully 
developing our own natural resources and America being willing 
to put its supply into the global market as well. So, it was 
just--it was just an observation that to the extent you have 
more supply from more sources, you have a more stable market, 
less reliance on any particular part of the world.
    Senator Markey. And I understand that from an ExxonMobil 
corporate perspective that a barrel of oil is a barrel of oil 
wherever it is produced in the world, and it is flooding out 
onto the market. But on the other hand, we have this issue of 
the impact which importation of oil has on the United States. 
So, would you agree that it is in America's best interest that 
we reduce consumption of foreign oil so that we are not 
dependent upon that extra barrel of oil wherever it is being 
produced in the world?
    Mr. Tillerson. Senator, my--you are getting into areas that 
are of the purview of other agencies, but I would just make 
observations that anything we did to prohibit the availability 
of supplies to the United States would in all likelihood put 
the U.S. at a competitive disadvantage.
    Senator Markey. Well, I do not think it is outside of the 
purview of the State Department because where we import oil 
from, the country Saudi Arabia, other countries in the Middle 
East, Northern Africa that we import oil from, that then 
implicates our foreign policy, your attitude or whoever is the 
Secretary of State's attitude towards that country. So, it goes 
to the question of should we reduce the demand for oil so that 
it increases the leverage of a secretary of state when they are 
talking to the leaders of this country, because we are telling 
them we do not need their oil in order to run our own country.
    Mr. Tillerson. I would not agree with that conclusion.
    Senator Markey. Well, how would you describe our need to 
import oil and allowing that country to have that as one of the 
discussion points as you are sitting there with them?
    Mr. Tillerson. Well, it is back to where you started the 
conversation. Once an oil--once a barrel of oil is on a tanker, 
a barrel of oil is a barrel of oil. And the end consumer does 
not really care where that barrel of oil came from because it 
is going to be priced in a global market. As long as they have 
free access to the barrels and they have the ability to shop 
around for barrels, that is what is most supportive of their 
economic activity.
    Senator Markey. Yeah, but we are not just talking about 
economic activity any longer, Mr. Tillerson. We are now talking 
about the impact which that barrel of oil coming in from Saudi 
Arabia, coming in from another country has upon the leverage 
they have over any discussion that the United States is having 
with that country about other issues. And it is on the table 
even as we are asking them to give us help in other issue 
areas.
    So, I am not just talking about what the global price of 
oil may be. I am also talking about where that barrel of oil 
comes from, and that the less it comes from a country that we 
do not want to allow them to use oil as a leverage point is the 
more leverage the Secretary of State or the President will have 
in telling them we do not need you. We do not need your oil to 
run our country. We are energy independent.
    So, do you think that energy independence, again, should be 
our goal, and that the five million barrels of oil that we are 
still importing should be something that we are trying to keep 
out of our country's economic system?
    Mr. Tillerson. No, I have never supported energy 
independence. I have supported energy security. And I guess to 
go to your concerns, our largest supplier of imported oil is 
Canada.
    Senator Markey. No, I appreciate that, but we still----
    Mr. Tillerson. I do not know whether we feel hostage to 
them or not.
    Senator Markey. Well, I do not--well, I appreciate that, 
but I also appreciate the fact that we are still importing from 
Saudi Arabia and other countries in the Middle East. And I do 
feel that that is unnecessary if we could develop our capacity 
within our own country to be able to develop oil. So, Canada is 
one thing. Saudi Arabia is another thing all together. And I 
just--I just do not think that a barrel of oil is a barrel of 
oil. I think it has real consequences when it is coming from a 
country that has itself a strategic vulnerability that can be 
bolstered by the fact that we need or other countries need 
their oil.
    Thank you, Mr. Chairman.
    Senator Corker. Thank you. Senator Merkley.
    Senator Merkley. Well, thank you, Mr. Chairman. In regard 
to North Korea, we have had a lot of concerns about their long-
term expansion of their missile program and missiles gaining 
more and more range. Should America put down a line in terms of 
them testing very long range missiles? And if North Korea 
violates that line, what should the U.S. do?
    Mr. Tillerson. Well, I think the UN resolutions have 
already put down some pretty hard lines, and North Korea has 
continued to violate those, both in terms of conducting nuclear 
tests as well as conducting the launch of delivery systems as 
well. So, we really are already passed that point.
    Senator Merkley. Well, my question was not in context of 
the UN, but in the context of whether the U.S. should lay down 
a line and respond if it is crossed, because our security is 
more and more endangered as the range gets longer. I take your 
answer to be one way of saying, no, there is probably nothing 
we can do?
    Mr. Tillerson. No, you should not take it----
    Senator Merkley. Okay.
    Mr. Tillerson.--in that regard at all. We need to work 
closely with our allies in the area--Japan, South Korea, in 
particular--because anything we do will have a--will certainly 
have a profound impact on them. And anything that we might 
consider and what all of our alternatives might be would 
require a careful conversation at the National Security Council 
in terms of our capabilities, which certainly we have the 
capabilities to bring a missile test down. But how and what 
might be the consequences of that would require careful 
thought. So, I am not--I am not rejecting that as an option. I 
am just not prepared to sign up for it today.
    Senator Merkley. Fair enough. Let me turn to Saudi Arabia. 
Saudi Arabia has been utilizing cluster munitions in Yemen. 
Much of the world has said these are terrible weapons to use 
because they have a range of fuses and they can often go off 
months or years after they have been laid down. These are--
these are the cluster bombs. You are familiar with them. They 
have also been targeting civilians. How should the U.S. respond 
to those actions?
    Mr. Tillerson. Well, I would hope that we could work with 
Saudi Arabia perhaps by providing them better targeting 
intelligence, better targeting capability to avoid mistakenly 
identifying targets where civilians are hit, impacted. So, that 
is an area where I would hope that cooperation with them could 
minimize this type of collateral damage.
    Senator Merkley. How about on the cluster munitions side?
    Mr. Tillerson. Could you ask the question?
    Senator Merkley. How about in regard to the cluster--use of 
cluster munitions?
    Mr. Tillerson. Well, I would have to examine what our past 
policy has been. I do not want to get out ahead--if we have 
made commitments in this area, I do not want to get out ahead 
of anyone on that.
    Senator Merkley. I do think this is a little bit of an 
example that my colleague from Massachusetts was pointing to, 
because we have often been reluctant to put as much pressure on 
states that we are dependent upon for oil than in situations 
with states where we are not dependent on oil. So, there is 
this, sometimes economists refer to it as shadow costs.
    Some of the studies that have been done in think tanks 
place a shadow cost on gasoline of imported oil because of the 
type of national security apparatus we need to make sure we 
sustain access, secure supply, to quote your words, of $5 to 
$10 a gallon. And I think that is where Senator Markey was 
driving, that there is a distinction between an imported gallon 
and a domestically produced gallon.
    I do not need you to respond to that, but I just wanted to 
amplify his point that for many of us there is a significant 
difference between an imported gallon and domestic gallon.
    I wanted to turn to Equatorial Guinea. A senator brought 
this up earlier today about the corruption of the leadership of 
that particular country. The president for a life, President 
Obiang, has become exceedingly rich, and part of the way that 
he has become exceedingly rich is the payments that Exxon has 
made have gone to his family's accounts rather than going to 
the national treasury. What are your thoughts on why Exxon 
participated in that, which continued in the time that you were 
in the leadership of the--of the company?
    Mr. Tillerson. Senator, I am familiar with the circumstance 
you are talking about. That was the subject of an investigation 
by the Judiciary Committee. There were no findings that Exxon 
had committed any wrong or broken any laws at the end of that 
investigation. In terms of the payments that ExxonMobil would 
make in any arrangement, a contract in any company--country 
would be no different than they are made with domestic 
producers here in the U.S. that are operating on Federal lands. 
There is royalty and there are taxes paid to the--to the 
Treasury.
    What the government does with those monies once the company 
pays those is up to the government. Obviously, the U.S. 
government distributes those funds responsibly. Some countries, 
I understand, do not. In our--in ExxonMobil's engagement in 
countries like this, though, I do think that on the whole there 
are--there are positive benefits to the people of the country 
in terms of job creation that occurs because of the activity, 
employment that occurs because of the activity. And I am not in 
any way suggesting that that mitigates the corruption in the 
country, but that it is not without benefit, and it is not 
without having American values on the ground in those countries 
as well.
    So, this is true not just of the extractive industries 
portion or sector, but it is true of any American business that 
may be engaging in business activities in countries where they 
have poor governance structures at the top.
    Senator Merkley. You have mentioned that royalties and 
taxes should go to the government, but in this case Exxon 
paid--made the payments to a private account controlled by the 
president. Do you see anything wrong with that?
    Mr. Tillerson. I would have to--I would want to review for 
my memory the circumstance you are talking about. My 
recollection is that that account was designated as the 
government's account, and I think when it was discovered that 
the account either may or may not have been a valid account, it 
was closed.
    Senator Merkley. There are also a number of contracts that 
Exxon did with companies controlled by the family members of 
the president. This included building leases and land leases 
and a number of--series of other contracts, the net effect of 
which was transferring a lot of wealth to a president for life, 
someone who has no interest in democratic principles.
    The State Department has reported on this for many, many 
years, each year doing this report on Equatorial Guinea. In 
2003 it states, ``There is little evidence the government uses 
the country's oil wealth for the public good. The oil wealth is 
concentrated in the hands of the top government officials while 
the majority of the population remain poor.''
    The State Department actually cut their foreign economic 
assistance to the country because of the massive corruption in 
control by this family, and I--it ties in--earlier one of my 
colleagues mentioned a situation where, I believe, a whole 
series of very expensive sports cars were being loaded onto a 
plane to be flown into Equatorial Guinea, but those were not 
being paid for by U.S. foreign assistance. Those were being 
paid for by diverted oil royalties.
    And I think it does raise not just a legal question, and 
you have noted that no legal violation was found, but it 
certainly raises a moral question about how one engages a 
country and increases the power of leaders who are doing 
nothing to elevate the quality of life of their citizens. Do 
not you share any of that perspective?
    Mr. Tillerson. Senator, again, my recollection is that in 
all the examples that you mentioned, they were investigated. 
There were no violations of law. During my time at ExxonMobil, 
ExxonMobil took at that time, and I expect still do, very 
seriously the Foreign Corrupt Practices Acts--Act, and it had--
has in place processes to ensure that the corporation and all 
of its employees remain in full compliance.
    Any suspected violations were always fully investigated, 
and if anything was found, the process would have dictated a 
full investigation, a resolution, and, if required, a self-
reporting process. So, I think the corporation had very strong 
procedures in place to ensure compliance, and I think the 
examples you are giving, while they are--I understand the 
concern you are expressing--indicated that the process to 
ensure there was no violation of the Foreign Corrupt Practices 
Act did perform and did withstand that investigation.
    Senator Merkley. So, I am going to conclude with just a 
thought about this. In the course of this conversation, you 
have given--you have spent the whole day answering our 
questions, and I appreciate that very much. And with my 
colleagues, I appreciate your willingness to serve. The process 
of vetting in the Senate is a challenging one, and you have 
appeared with dignity.
    I have--I do have remaining concerns from some of the 
conversation from today. When Senator Shaheen raised the 
question of the national registry for Muslims, you noted that 
you needed more information. To me, I am somewhat disturbed 
because we are Nation founded on religious freedom, and there 
is a clarity--can I complete my sentence--my statement?
    Senator Corker. I hope it is not paragraphs.
    Senator Merkley. It is not a--not a paragraph, no. And when 
Senator Rubio asked about the president of the Philippines 
slaughtering thousands of people, you said you needed more 
information. To me there is a moral dimension to that. And when 
I raised the issue of bypassing U.S. sanctions and helping 
Iran, there is a moral dimension to that. And on this issue of 
strengthening a dictator for life, there is a moral dimension 
to that.
    And you came to my office and said--the first thing you 
said was I want moral clarity to be a foundation for U.S. 
policy. I agree with that. I am not sure we are hearing it in 
these--in these particular instances.
    Senator Corker. Thank you. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. First, if I could 
ask consent to put in the record a statement from Publish What 
You Pay.
    Senator Corker. Without objection.

    [The information referred to is located in Annex IV, page 
477.]

    Senator Cardin. And if I could just follow up very quickly 
on a couple points. I am not going to be asking you any 
questions. But in regards to the issues of transparency and 
anti-corruption, I just want to comment on the conversations we 
had in the office, and I really appreciate the conversations we 
had when we talked. We talked about, Mr. Chairman, the 
Trafficking in Persons Report and the commitment to end modern 
day slavery, and how effective it was to have directed goals so 
countries knew how they could make advancements so there was a 
clear path forward.
    I have suggested, as you know, legislation that would do 
that for fighting corruption, and I look forward, if you are 
confirmed, Mr. Tillerson, to working with you as to how we can 
advance a more effective way to judge how--the international 
community can judge progress in fighting corruption, because 
every country has the problem, but, as you pointed out many 
times during this hearing, there are countries that are very 
challenged, and you look for certain standards, as you did as a 
businessperson, to do business in a country. And the United 
States should lead the world in developing those standards on 
corruption. So, I look forward to working with you on that 
issue.
    We also talked about transparency in the extractive 
industries, and I appreciate your candor there as to the 
usefulness for that to make sure that resources actually get to 
the people rather than to corrupt leaders. I thank you on both 
of those points.
    I will make one quick comment about the role of Congress. 
We have talked about this many times. You are pretty strong 
about the Senate's role to confirm and ratify treaties. You 
have talked very firmly about complying with our laws in 
regards to Cuba, and you then talked very firmly about having 
enforceable sanctions. I would just point out when we do 
mandatory sanctions or sanctions with waiver language, it makes 
it much more likely we will have strong enforcement. So, I 
would just point that out and hope that we can work together 
with that.
    I also want to just acknowledge another role that I play. I 
am the ranking Democrat on the Helsinki Commission. Senator 
Wicker is the chairman of that. It is a commission that deals 
not just with human rights, but it is known for human rights. 
It also deals with security and economic issues. And we look 
forward to working with you if you are confirmed at the State 
Department to advance the congressional role in dealing with 
the OSCE through the Helsinki Commission.
    We will be asking you some additional questions for the 
record. I have not had a chance to ask questions on refugees, 
and there are some others that I will ask. Senator Gardner and 
I will ask you questions in regards to Burma. I am his ranking 
on the subcommittee for the last Congress, and we have some 
serious issues about the human rights progress being made in 
Burma. But we will ask those questions for the record.
    I want to thank you for being responsive to our questions 
today, and I thank you for being willing to put up with such a 
long day. I was commenting to Senator Corker, about an hour ago 
we passed the new limits on the overtime rules that were 
adopted by Department of Labor, so I think we are all entitled 
to extra pay for the length of the day's hearings. But thank 
you very much for your attention.
    Senator Corker. So, Senator Cardin, again, I want to thank 
you for working in a post-election environment to make sure 
that this hearing occurred in the way that it did today. And I 
thank all the committee members for the way that they conducted 
themselves as they always do, and the fact that we stayed at I 
believe a very high level.
    I want to thank the nominee for being here today, and I 
would just like to make an observation. I have been here ten 
years. I do not know how many hearings that I have been to, 
briefings, people in my office. We take in a tremendous amount 
of information here. It is very hard to replicate that. Back 
home when I am talking to people, I discuss the fact that being 
a United States senator is much like getting a Ph.D. almost on 
a daily basis just because of the information flow that we 
have, the access to intelligence, the access to brilliant 
staffers who are constantly emailing us 24/7 with updates.
    And I just would like to say that we have a man who has 
come in from the private sector. I think he was notified he was 
selected less than a month ago for this job, and I know there 
have been some comments about clarity. I have, as I mentioned, 
been here ten years. I have seen secretaries of state who come 
before our committee who have been around for 30 years, and 
when they take questions they have booklets open and paragraphs 
written to answer those questions. And I think if you look at 
what has happened today, I do not think there have been any 
notes referred to.
    And so, to some of my friends on both sides of the aisle 
that may talk about clarity, which I respect, and I actually 
think many--almost every senator here did an outstanding job 
today. But I hope they will take into account that we have a 
person who has been wafted in, if you will, from a totally 
different world, has arrived, has been through briefings, has 
been through mortar boards, has met with every single member of 
the committee, and sat here today, excepting a 45-minute break, 
for nine hours and answered questions without any notes.
    I am going to leave the record open until the close of 
business tomorrow for people to continue to ask questions.
    I know that Mr. Tillerson had planned to be here tomorrow 
in front of all of us all day if necessary. And I would just 
urge those who may have had questions about clarity to remember 
something and then maybe do something. Senators develop pretty 
strong opinions, and sometimes we express those opinions in a 
very crisp, direct, strong manner just to break right through 
the clutter that we have to deal with to make a point.
    And we have had years, again, years of input, and so we 
develop really strong opinions about what is happening in China 
as it relates to human rights, what Putin may be doing. Many of 
us have been to refugee camps. We have seen photos of what has 
happened in prison camps and what Assad has done to his own 
people. And so, it evokes a clarity of how we feel about what 
has happened on the ground.
    A nominee coming in, on the other hand, wants to make sure 
that he is not getting out over his skis. He is working for a 
President that he does not know that well yet. He is trying to 
accommodate the fact that, he is going to be working in an 
interagency situation to come to conclusions. So, I just hope 
that those things will be taken into account if there are 
questions about clarity.
    Mr. Tillerson is an Eagle Scout, a person who has lived an 
exemplary life. He has been at the company for 41-and-a-half 
years, and, again, I think has handled himself in a very good 
manner. So, I would ask if there are questions about that 
clarity, contact us. Contact the Transition Team. Give him an 
opportunity to sit down in front of people and discuss these 
things, especially in person, when the media is not there and 
every single question is going to be obviously written about in 
multiple ways. And let us really think about this.
    This is a very important decision. We have a President-
elect who is coming into office also without a great deal of 
background in foreign policy, and for him to have someone who 
he has confidence in and who has demonstrated that he is very 
much in the mainstream of foreign policy thinking. But for him 
to have someone who he has confidence in, who is sitting up 
under the hood, who is helping him shape his views to me is 
something that is very, very important.
    And my sense is that very quickly on these issues of 
clarity, the nominee, when exposed to what is happening in the 
way that all of us have been, will, in fact, develop clarity.
    So, I thank you for your time, and the meeting is 
adjourned.
    [Whereupon, at 6:12 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record

                              ----------                              


               Answers to Additional Questions Submitted 
                      by Members of the Committee

                              ----------                              


              Secretary-Designate Tillerson's Answers to 
                     Questions from Senator Corker

                  State Department Management Failures

    Question. The Management Offices and Bureaus at State are centrally 
controlled by the Under Secretary for Management. In the last decade, 
the Department's management functions have suffered from many 
significant scandals and deficiencies: the meltdown of security at 
Benghazi, over a decade of substandard IT security including several 
successful cyber-attacks, Department-wide mishandling of classified 
information including the spillage of classified information during a 
FOIA release, and failing grades for records preservation. The 
Department is in desperate need of a new strategic planning framework 
and top-to-bottom management reforms. What are you prepared to do to 
tackle this problem?

    Answer. I am aware of the many problems the State Department has 
faced over the past decade and the historic challenges to managing a 
large enterprise with diffuse and sometimes competing lines of 
authority. In my opening statement to the committee, and in responses 
to Senators' questions, I discussed how transparency and accountability 
are at the forefront of my approach to management. If confirmed, I plan 
to begin tackling these problems on day one, with strong visibility and 
accountability at the top, but also reviewing the organization from the 
bottom-up. I believe this is necessary since many of the problems exist 
because of convoluted reporting lines, management by committee, and 
lack of clear decision rights. I will make sure that all Under 
Secretary and Assistant Secretary positions are filled by strong 
leaders who have accountability and clear decision rights for their own 
portfolio, and know how to cooperate with their peers when 
collaboration is often needed, especially across the agencies. If 
confirmed, I plan to use the process for developing the FY 19 budget, 
which begins immediately, as a method to set management priorities, 
tone, and culture, which I will begin discussing on day one publicly 
and within the halls of the Department. The near-term reports required 
by the recently signed Reauthorization Act, authored by you, Mr. 
Chairman, provides an excellent opportunity to coalesce some energy 
around vital new management focus. Along with Departmental responses to 
GAO, OIG, and Congressional committee investigations, I believe we can 
work together to make these documents road maps to true reform, rather 
than simply status reports.
Sanctions
    Question. In your hearing, your comments on sanctions seemed to be 
mainly focused on sectoral/corporate sanctions. What are your thoughts 
on the role and efficacy of personal sanctions?

    Answer. As I stated in my oral testimony, I believe sanctions as a 
tool of statecraft are most effective in the context of an overall 
strategy. I believe individual sanctions could be part of an effective 
strategy. In addition, it is my understanding that U.S. law directs 
sanctioning individuals in some cases (e.g., the Sergei Magnitsky Rule 
of Law Accountability Act of 2012). Should I be confirmed, I commit to 
following the law.
Arms Sales
    Question. The Saudis are under a persistent and real threat from 
Iran that reaches well beyond the borders of Yemen. The Obama 
Administration has recently refused to formally submit to Congress 
which Congress has informally approved already--several important sales 
notifications of Precision Guided Munitions (PGMs) to the Kingdom, 
citing concerns about collateral civilian casualties stemming from the 
Saudis' actions against the Houthis in Yemen.
    Given the urgent need to support a key ally in the region, is the 
Trump Administration committed to continuing arms sales to our Gulf 
allies, particularly PGMs, and if so, when do you expect the State 
Department to formally send the long-pending sales to Congress for 
formal review and approval?

    Answer. The conflict in Yemen is concerning to the United States 
for humanitarian and strategic reasons. Iran is supporting the Shia 
Houthi forces as part of a drive to extend its influence over broad 
swaths of the Middle East. Taking advantage of the ensuing civil war 
and collapse of the internationally recognized government's authority, 
al-Qaeda and ISIS affiliates have taken control of territory elsewhere 
in Yemen. The United States should engage with Saudi Arabia and its 
other allies in the region to reduce the humanitarian toll of this 
conflict, mediate a solution that ensures stability, and prevent 
terrorists from targeting the American homeland. As part of that 
engagement, the United States should assist Saudi Arabia in securing 
its border against terrorism and attacks from Houthi forces, and work 
with Riyadh and other key regional allies to eliminate the threat of 
al-Qaeda. Weapons sales, including Precision-Guided Munitions, are an 
important U.S. policy tool.


                               __________

              Secretary-Designate Tillerson's Answers to 
                     Questions from Senator Cardin

Anti-Corruption
    Question. There is a growing body of evidence that poor 
governance--marked by high corruption and lack of government 
transparency--is a key driver of fragility and political instability in 
many parts of the world today. Citizens frustrated by government 
corruption, repression, and a loss of dignity and hope are more likely 
to tolerate or support violent extremist groups such as Al Qaeda, ISIS 
and Boko Haram. Obviously this jeopardizes both the United States and 
its allies.
    Can you tell this Committee what concrete steps you will take, if 
confirmed, to promote good governance, anti-corruption, and 
transparency efforts around the world to help keep America safe?

    Answer. As I mentioned during the Committee's hearing, I believe in 
transparency and accountability, not just for those countries who 
receive taxpayer dollars but also from all our development assistance 
agencies, programs, and implementing partners, to lead by example. 
Making programs more effective requires more than just efficiency. It 
is about doing the right things and encouraging other countries to do 
the right thing. That is why I believe in the MCC model, where it 
applies. I plan to conduct a complete and comprehensive review of our 
development assistance programs.

    Question. Will you commit to work with me and the committee to 
ensure that anti-corruption initiatives at the State Department receive 
the level of funding and personnel required by this essential priority?

    Answer. Yes. I look forward to working with you and the committee 
not only to be sure that anticorruption programs are adequately funded, 
but also to instill in our personnel working on those programs and on 
any international development effort that anti-corruption 
considerations are an integral part of their portfolio and how they do 
business every day.

    Question. As Secretary of State, how would you deal with the 
leaders of dictatorships where Exxon has operated for decades, but 
where people suffer due to a lack of the rule of law, limited 
transparency, endemic corruption and lack of international 
accountability (for example, Equatorial Guinea, Angola and Chad)?

    Answer. My tenure at ExxonMobil has ended. If confirmed, my only 
interests will be those of the United States, which I will pursue 
vigorously without favoritism.

    Question. During your time at ExxonMobil, the company reaped 
tremendous profits from its willingness to operate in challenging 
political environments, including by collaborating with some well-known 
autocratic and abusive leaders. How, if at all, do you envisage you 
might approach this challenge, if confirmed to be Secretary of State? 
How would respect for human rights, the rule of law, and a long-
standing U.S. commitment to support anti-corruption and transparency 
measures factor into your foreign policy priorities? Would you 
aggressively and explicitly support all of the elements of the U.S. 
anti-kleptocracy initiative, first started under President George W. 
Bush, including denying visas to heads of state in oil-rich countries 
where Exxon may have business dealings, if they are credibly implicated 
in corruption?

    Answer. During my tenure as Chairman and CEO, ExxonMobil was 
committed to complying with U.S. laws, promoting the rule of law, and 
respecting human rights. If confirmed, human rights, the rule of law, 
and anti-corruption and transparency measures would be high priorities.

    Question. You and I have also discussed the anti-corruption 
legislation I introduced last year and will introduce in this new 
Congress, that identifies and ranks countries according to their levels 
of corruption. You know I believe that American values are more than 
the share-holder bottom line you successfully pursued at ExxonMobil 
that moral leadership is an asset. Despite your record of skepticism 
about sanctions, can you reassure me and the Committee that as 
Secretary of State you will advocate for strong rules to ensure that 
our government and private sector is operating in a transparent manner 
that makes it more difficult for corrupt leaders to siphon off wealth 
that should be benefiting all citizens of their country? Can I count on 
you to partner with me in your new role?

    Answer. Yes.
Extractives Industry Transparency
    Question. Transparency and accountability are critical to good 
governance, the fight against corruption, and rule of law. I have 
worked to enhance transparency in the extractive industries through 
Section 1504 of Dodd-Frank--which requires extractive industry 
companies to disclose their payments to foreign governments at the 
project level. This Rule, often referred to as the Cardin-Lugar Rule, 
has been endorsed by Shell, BP, Total, the world's largest mining 
company--BHP Billiton, and U.S. companies Kosmos Energy and Newmont, 
among others.
    What impact, if any, do you think resource payment transparency 
should have on U.S.government foreign assistance efforts?

    Answer. Where transparency is not the norm, using our development 
assistance to help establish a new norm should be a primary objective. 
During the hearing, I responded to questions from Senator Kaine about 
the so-called ``Resource Curse'' and to Senator Isakson 's comments on 
the so-called ``Dutch Disease.'' I believe these countries have to be 
put on a pathway to taking responsibility for meeting the needs of 
their people. It is a different journey for each country, but those 
with resource wealth should have the expectation that any American or 
multinational business engaged there is doing so above-board and with 
transparency. Part of my job, if confirmed as Secretary of State will 
be to make sure that because American companies, NGOs, and development 
relief efforts are expected to play by the rules and abide by Dodd-
Frank, Cardin-Lugar, FCPA , and other laws, that foreign companies or 
investors do not get an unfair advantage by cheating or keeping to a 
lower standard.

    Question. Please discuss any efforts you have undertaken at Exxon 
Mobil to advance transparency.

    Answer. During my tenure as Chairman and CEO, ExxonMobil strongly 
supported efforts to increase the transparency of government revenues 
from the extractive industries.

    Question. Exxon sits on the global board of the EITI and has 
released its tax payments in other countries, but not the United 
States. Meanwhile, its competitors like Shell and BP have released 
their tax payments in the United States. Why has Exxon Mobil, under 
your leadership, refused to report their tax payments in the U.S., as 
required by the Extractive Industries Transparency Initiative (EITI), 
which Exxon has stated it supports?

    Answer. The BIT/ called for the disclosure of government payments 
relating to U.S. oil and gas production. However, ExxonMobil's U.S. 
income tax represents the net result of its worldwide upstream, 
downstream, and chemical businesses. The EITI did not require the 
disclosure of these tax payments.

    Question. As Secretary of State, how would you deal with the 
leaders of dictatorships where Exxon has operated for decades, but 
where people suffer due to a lack of the rule of law, limited 
transparency, endemic corruption and lack of international 
accountability (for example, Equatorial Guinea, Angola and Chad)?

    Answer. My tenure at ExxonMobil has ended. If confirmed, my only 
interests will be those of the United States, which I will pursue 
vigorously without favoritism.
    Where transparency is not the norm, using our development 
assistance to help establish a new norm should be a primary objective. 
During the hearing, I responded to questions from Senator Kaine about 
the so-called ``Resource Curse'' and to Senator Isakson 's comments on 
the so-called ``Dutch Disease.'' I believe these countries have to be 
put on a pathway to taking responsibility for meeting the needs of 
their people. It is a different journey for each country, but those 
with resource wealth should have the expectation that any American or 
multinational business engaged there is doing so above-board and with 
transparency. Part of my job, if confirmed as Secretary of State, will 
be to make sure that because American companies, NGOs, and development 
relief efforts are expected to play by the rules and abide by Dodd-
Frank, Cardin-Lugar, FCPA, and other laws, that foreign companies or 
investors do not get an unfair advantage by cheating or keeping to a 
lower standard. American companies should not retreat or be sidelined, 
because when our people have a level playing field, both countries 
benefit. The ref ore, it is important not just to have transparency 
rules in place but also to be sure everyone is abiding by them.

    Question. If confirmed as Secretary of State, how would you handle 
poor resource revenue transparency by governments with which we 
partner, support, or ally? What do you believe to be the U.S. role in 
encouraging greater transparency and accountability among governments?

    Answer. As I stated at the hearing and during questions and above, 
if confirmed, I would take a cleareyed, comprehensive view and 
understand all the tools available to achieve U.S. foreign policy and 
national security objectives most effectively. Where transparency is 
not the norm, using our development assistance to help establish a new 
norm should be a primary objective, so that other assistance program 
resources do not go to waste.
Helsinki/OSCE
    Question. How would you evaluate the potential of the OSCE to 
advance U.S. security interests and promote cooperation in Europe, and 
will the Trump Administration make full use of that potential by 
maintaining a strong emphasis on the OSCE's Human Dimension, including 
by vigorously raising human rights violations in Russia and elsewhere 
at OSCE fora, as well as supporting and, if possible, increasing a 
robust OSCE field presence, particularly in Ukraine? Do you agree with 
the OSCE Parliamentary Assembly's characterization of the Russian 
Federation's actions in Ukraine since 2014 as clear, gross and 
uncorrected violations of Helsinki Principles and that we should at 
least say so regardless of what specific measures we may decide it is 
in our interest to take at a particular time?

    Answer. As has been the case historically, the OSCE remains an 
important forum for promoting security cooperation, democratic values, 
and human rights across Europe and the states of the former Soviet 
Union.
    It is in U.S. interests to ensure that the OSCE' s potential is 
fully utilized--including its Human Dimension and field missions in 
conflict zones like Ukraine.
    The OSCE offers an important arena where human rights concerns can 
be raised, and members, like Russia, can be held accountable on their 
commitments to the OSCE' s core principles.
    It is clear that Russia's aggression against Ukraine stands in 
stark violation of Helsinki's defense of the inviolability of national 
frontiers and respect for territorial integrity.
    The United States should not shy away from speaking up for the 
principles and values that it holds dear, especially when they are 
flagrantly violated.
Law of the Sea
    Question. On June 8, 2012, you sent a letter to this Committee 
expressing Exxon's support for U.S. ratification of the United Nations 
Convention on the Law of the Sea (UNCLOS). Could you please provide 
details on why you believed the treaty was beneficial to U.S. 
commercial interests, whether you continue to believe that it is 
beneficial to U.S. commercial interests today, and whether you will 
express to the President-elect the view that ratification of UNCLOS 
should be a priority?

    Answer. As indicated in my June 8, 2012, letter, as Chairman and 
CEO of ExxonMobil, I supported U.S. ratification of U.N. LOS because it 
would provide a legal basis for the settlement of conflicting claims in 
areas--recognized for sovereignty purposes under U.N. LOS. Resolution 
of these claims would help support natural resource development as well 
as other commercial interests.
    I understand UNCLOS has been debated on several occasions by the 
Senate Committee on Foreign Relations. The United States should only 
join treaties that advance U.S. national interests, and I will, if 
confirmed, examine U.N. LOS to determine whether it is in the continued 
best interests of the United States to be a party.
SEC Inquiries into ExonMobil Subsidiary
    Question. In January 6, 2006, the U.S. Securities and Exchange 
Commission sent a letter to ExxonMobil noting that the company and its 
subsidiary, ``may have existing or anticipated operations associated 
with Iran, Syria and Sudan, which are identified as state sponsors of 
terrorism by the U.S. State Department and subject to export controls 
imposed, in part, as a result of actions in support of terrorism and/or 
pursuit of weapons of mass destruction and missile programs.'' The 
letter noted that ExxonMobil's ``Form 10-K does not contain any 
disclosure about operations in these countries.'' In response, on 
February 7, 2006, ExxonMobil released a letter acknowledging that its 
``Chemical segment'' had sold, between 2003 and 2005, approximately 
$67.7 million chemicals to Syrian customers, and, furthermore, that 
Infineum, a European joint venture by ExxonMobil and the Shell Oil 
Company; had, during the same time period, made smaller transactions 
with Syria and Sudan and sold $53.2 million worth of chemicals and fuel 
additives to the Iranian National Oil Company, listed by the Treasury 
Department as an affiliate of the Iranian Revolution Guard Corps, which 
the United States has labeled a direct sponsor of terrorist groups. 
ExxonMobil stated that ``no United States person is involved in those 
business transactions.'' which were instead carried out by Infineum's 
European affiliates. During your hearing on Wednesday, in response to 
questions concerning this issue, you stated. ``I do not recall the 
details of the circumstances around what you just described'' and that 
you ``would have to look back and refresh myself.''
    Given the sensitive nature of how these countries are identified 
under U.S. law, would ExxonMobil's senior leadership team be made aware 
of these transactions before they were approved? Please provide to the 
committee the Minutes of the Exxon Board meeting discussing the 2006 
SEC letter.

    Answer. The 2006 correspondence from the SEC concerned transactions 
that predated my tenure as Chairman and CEO of ExxonMobil and arrived 
shortly after I became CEO. I am not aware that the transactions were 
discussed at an ExxonMobil Board meeting, nor do I have copies of Board 
meeting minutes in my personal files. Given the size of ExxonMobil and 
the content of the response I also do not recall whether the issue was 
elevated to me for advance review and comment.

    Question. Why would ExxonMobil not disclose the transactions in the 
Form 10-K, no matter their size?

    Answer. I understand that ExxonMobil provided a full explanation 
for its treatment of these transactions in its publicly filed response 
to the SEC's January 6, 2006, letter.

    Question. You also stated Wednesday that ``sanctions are a powerful 
tool, and they are an important tool, in terms of deterring additional 
action.'' Do you think it is appropriate for U.S. businesses to seek to 
sidestep U.S. sanctions laws?

    Answer. No, and during my tenure as Chairman and CEO of ExxonMobil, 
the company's policy was to comply fully with U.S. sanctions laws.

    Question. Would you say that these sales were made in a manner 
consistent with the intent of the United States government in 
``deterring additional action'' from the target countries?

    Answer. To the best of my knowledge, these transactions complied 
fully with U.S. sanctions laws.

    Question. Would you characterize Exxon and Infineum's transactions 
with Iran, Syria and Sudan, as well as subsequent disclosure of these 
transactions, as the model for how companies should transact business 
with countries identified as state sponsors of terrorism?

    Answer. Based on my knowledge of corporate operating principles at 
ExxonMobil during my tenure as Chairman and CEO, I would characterize 
these transactions as fully compliant with the U.S. sanctions laws in 
place at the time.
Refugees
    Question. The refugees fleeing violence in Syria are only a 
fraction of the over 65 million people displaced around the world 
today. Taken together, they would make up the 21st largest and the 
third fastest growing country in the world. This historic humanitarian 
crisis has had a destabilizing effect on some of our allies in the 
Middle East, such as Jordan and Turkey, and even our closest allies in 
Europe, including Germany and France.
    As Secretary of State, how will you confront this humanitarian 
crisis and how, in your view, can the U.S. better work with partners to 
provide life-saving assistance to refugees? In response to the global 
refugee crisis, the U.S. convened a Global Summit on Refugees in 
September 2016. What steps will you take to carry forward this 
convening role and to ensure the U.S. and other countries follow-
through with their pledges from the Summit?

    Answer. It is my belief that it is important for refugees to be 
safe from harm, wherever they may be. Should I be confirmed as 
Secretary, I will work to implement the President-elect's stated goal 
of establishing safe zones to help ensure the protection of displaced 
Syrians. I will also work with our partners around the world to help 
continue humanitarian aid contributions, pursuant to direction by the 
President.

    Question. How should the U.S. follow up and implement the 
commitments made at the World Humanitarian Summit and U.N. Summit for 
Refugees and Migrants?

    Answer. While I am not aware of all of the commitments made by the 
current Administration at the World Humanitarian Summit and the U.N. 
Summit for Refugees, should I be confirmed as Secretary, I will 
continue to work with our global partners to carry out the President-
elect's priorities with regard to the global refugee crisis.

    Question. As Secretary of State, what lessons from the successful 
integration of previous waves of refugees would you seek to apply to 
welcoming refugees in our current era?

    Answer. Because I have not yet been fully briefed on the historical 
trends of U.S. refugee resettlement, I cannot comment on what lessons I 
would or would not seek to apply to future refugee resettlement.

    Question. What role will you take to support U.S. leadership by 
securing the necessary investments to respond to humanitarian crises 
around the world?

    Answer. Should I be confirmed as Secretary, I will work with our 
partners around the world to help continue humanitarian aid 
contributions, pursuant to direction by the President.

    Question. The global displacement crisis is driven by internal and 
transnational conflict--including in Afghanistan, Iraq, Nigeria, South 
Sudan, Sudan, Syria, and Yemen--and a critical challenge of our time, 
with tremendous regional stability and other geopolitical consequences 
across the globe. What role does the U.S. have to address both the 
causes and consequences of the displacement?

    Answer. The United States should seek to lead efforts to help 
promote peace and to ensure the ability of displaced persons to 
repatriate.
U.S. Refugee Admissions
    Question. How do you think refugee resettlement benefits U.S. 
interests abroad?

    Answer. I do not have a comprehensive understanding of the 
historical impact of refugee resettlement on U.S. interests abroad. 
Should I be confirmed, I will work to further my understanding.

    Question. Do you support a robust refugee program?

    Answer. I believe that refugees and other displaced persons should 
be safe from harm, no matter their location.

    Question. How would a decrease in refugee admissions to the US, or 
a change in the nationalities that are admitted as refugees, hinder the 
ability of the U.S. government to encourage other countries to resettle 
refugees and keep their borders open to refugees?

    Answer. I do not have a comprehensive understanding of every 
permutation of the U.S. Refugee Admissions Program, or how hypothetical 
changes to the program would change the ability of the U.S. government 
to encourage other countries to resettle refugees. Should I be 
confirmed, I will work to further my understanding.

    Question. Do you believe the U.S. should deny certain refugees 
admission to the U.S. based on their religion or nationality? If not, 
how will you protect against it?

    Answer. I do not believe anyone should be discriminated against 
based on their religion or nationality.

    Question. How would a ban on resettlement from certain countries, 
such as Syria and Somalia, impact the U.S. government's diplomatic 
efforts to foster regional stability?

    Answer. I do not have a comprehensive understanding of every aspect 
of the Refugee Admissions Program, or how hypothetical changes to the 
program could impact efforts to foster regional stability. Should I be 
confirmed, I will work to further my understanding.

    Question. The U.S. resettlement program focuses on resettling the 
refugees who need this solution the most, such as those with urgent 
medical needs, victims of torture, single female households, and 
families with very specific circumstances whose protection or 
assistance needs cannot be met through existing humanitarian assistance 
programs in their host countries. Do you support this approach?

    Answer. The determination of which individuals would or would not 
be considered refugees for purposes of resettlement in the United 
States is governed by applicable provisions of the Immigration and 
Nationality Act. Should I be confirmed as Secretary, I will faithfully 
execute our laws consistent with the Constitution.

    Question. Over the course of the last two years there has been 
increased public concern, as well as significant misinformation, 
surrounding the U.S. Refugee Admissions Program. Refugees are subject 
to the most rigorous and detailed security screenings of any category 
of persons -immigrant or visitor--to enter the US, in a process that on 
average takes 18-24 months and involves over a dozen national security, 
law enforcement and intelligence agencies. It is a security process 
that has been reviewed, continuously improved (including as new 
technological advances are introduced) and reaffirmed under both the 
Obama and Bush administration. Understanding that you are limited in 
what you can say in this setting, can you explain what specifically you 
would do to improve the existing program, without decreasing the number 
of refugees who are resettled, especially in light of the urgent 
humanitarian need?

    Answer. I have not yet been briefed on all aspects of the U.S. 
Refugee Admissions Program, but should be confirmed as Secretary, I 
will faithfully administer the Refugee Admissions Program consistent 
with law and the policy preferences of the President-elect.

    Question. Many refugees in the U.S. are waiting anxiously for the 
resettlement of their family members. Family unity is a fundamental 
human need, and family reunification is also a key component of 
obligations under the Refugee Convention and a critical element of 
successful integration into the US. Do you support family reunification 
policies?

    Answer. I have not yet been briefed on all aspects of the U.S. 
Refugee Admissions Program, thus I cannot make a determination 
regarding family reunification under the Program.
Role of the Secretary of State
    Question. Since 9/11 but especially in the last decade, the State 
Department's ability to carry out its functions as the lead agency 
responsible for the supervision and general direction of U.S. foreign 
assistance has been eroded, in Large part by increasing authorities and 
funding for the Department of Defense to manage programs intended to 
build the capacity of foreign security forces. In many cases such 
programs have a dubious track record with respect to cost-
effectiveness, sustainability, and overall value to U.S. foreign 
policy. While the Department of Defense and many other federal 
departments and agencies have important roles to play overseas, the 
Secretary of State should effectively coordinate the various programs 
to ensure such assistance supports broader U.S. foreign policy 
objectives. Do you agree that the State Department should play a 
leading, and at a minimum a concurrent, role in the general direction, 
and to the extent practicable, the formulation of overseas programs 
implemented by other department and agencies when the Secretary 
determines that such programs impact U.S. foreign policy?

    Answer. The Secretary of State is the principal foreign policy 
advisor to the President. Overseas, our Ambassadors have authority over 
all U.S. government agencies in their country of assignment, with the 
one exception being uniformed military under the authority of a 
combatant command. Clearly our engagements overseas in the past decade 
have had a heavy military component, related to our wartime deployments 
to Afghanistan and Iraq. In those contexts, and in many others, the 
State Department and other civilian foreign affairs agencies have 
worked very closely with their military counterparts--something that I 
would expect to continue in the Trump Administration. Diplomacy and 
military force are complementary instruments of our national power. In 
war zones the military can be expected to have the lead; elsewhere, the 
Department of State should have the primary role in directing overseas 
activities. If we are both confirmed, I would expect Defense Secretary 
Mattis and myself to work these matters out in ways that best advance 
American interests--either directly or through the NSC process.
Flynn
    Question. While General Michael Flynn was sitting in on the 
classified national security briefings given to Donald Trump, starting 
in August 2016, his lobbying firm, the Flynn Intel Group, was providing 
foreign clients with ``all-source intelligence su;,port.'' The Flynn 
Intel Group's list of clients has included the firm Innova BV, which is 
owned by Turkish businessman Kamil Ekim Alptekin, who has close ties to 
President Erdogan of Turkey, and has paid the firm ``tens of thousands 
of dollars'' for analysis on world affairs. This relationship was not 
publicly disclosed when General Flynn published an op-ed calling for 
the extradition of Fethullah Gulen, a Turkish preacher in Pennsylvania 
who has been blamed by President Erdogan for the July 2016 failed 
military coup. Do you see any problems with this? Bradley Moss, an 
attorney who routinely represents defense contractors in security 
clearance disputes, stated that ``Security adjudicators would have 
concerns that someone with Flynn's level of experience wouldn't think 
twice about sitting in on a classified briefing while working for 
foreign clients,'' and that ``The moment he sat in on classified 
briefings, his association with his own company had to be severed. By 
not doing that he exposed himself unnecessarily to foreign influence 
and raised questions about his good judgment.'' Do you agree with Mr. 
Moss's characterization of this incident?

    Answer. I do not have knowledge of General Flynn's business 
activities and associations and am not able to comment.
Crowley
    Question. Monica Crowley, the appointee for senior director of 
strategic communications at the NSA, has claimed frequently that 
Clinton aide Huma Abedin has ``ties to Islamic supremacists.'' has 
defended birtherist conspiracy theories as ``legitimate questions.'' 
and has tweeted that President Obama has gotten away ``w/ bloody murder 
(literally).'' Of greatest concern to me was her frankly frightening 
claim that ``we are in a holy war'' against Islamic terrorists that 
pits ``the Constitution versus the Quran on every level. The 
Constitution is not built to fight this war.'' Do you agree that we are 
in a ``holy war'', and that our Constitution was not built to fight 
this war? Would you characterize such sentiments as reckless?

    Answer. I cannot speak to the comments of others.
Chief of Mission Authority
    Question. Do you believe in chief of mission authority (COM)? Will 
you agree, if confirmed as Secretary of State, to do everything 
possible to ensure adequate support and guidance to U.S. ambassadors 
deployed overseas to ensure the COM authority is adhered to? Will you, 
if confirmed, work to ensure that all non-State Department officials 
overseas are aware of COM authority, understand why it is necessary, 
and commit not to undermine it?

    Answer. Yes. I fully support Chief of Mission authority for the 
State Department and for all our ambassadors, and will ensure, if 
confirmed, all U.S. government personnel, with the exception of those 
under a combatant commander, also are fully aware and understand.
Budget
    Question. In President Obama's first term, Secretaries Hillary 
Clinton and Robert Gates joined forces to argue against cuts to the 
State Department's budget. They argued that a balanced national 
security strategy requires a balanced national security budget. Do you 
believe the State Department requires a larger budget?

    Answer. If confirmed, I look forward to conducting a thorough 
review of all aspects of the Department, including the resource needs 
necessary to implement the President's foreign policy objectives, and 
to equip, train, and protect, our men and women who serve daily on the 
front line of diplomacy, and to be a careful steward of the taxpayer 
dollars entrusted to me.
Diversity
    Question. The Department of State Authorities Act of Fiscal Year 
2017, Public Law No: 114-323, requires the Secretary to report on the 
progress the Department of State is making to recruit and retain highly 
qualified diverse candidates to the Foreign Service and Civil Service. 
If confirmed, what would your strategy be to diversify our State 
Department workforce and implement the letter of the law in creating 
effective mechanisms to recruit and retain diverse candidates?

    Answer. Throughout my more than four decades in business, I have 
worked hard to build an inclusive and diverse workforce. I will work to 
ensure the Department reflects the great diversity of America.

    Question. American leadership in the world rests on ``the three 
D's.''development, diplomacy, and defense. Together, these policy tools 
enable our government to address global concerns and to ensure our 
national security. The integrity of this approach relies on recognition 
of the value of coordinated, but distinct and independent, development 
and diplomacy agendas. Development must stand alongside diplomatic and 
defense activities, and cannot be subsumed by either.
    Looking at a proposed Cabinet in which a number of national 
security roles would be played by military generals, how will you 
elevate diplomacy and development to ensure they're on equal footing?

    Answer. Should I be confirmed, I do not believe I will have to 
``elevate'' the role of diplomacy. I believe that role will be both 
respected and supported by the President-elect and his cabinet. It is 
my understanding that the retired senior military officers that the 
President-elect selected for his cabinet understand well the importance 
of statecraft, diplomacy, and the role of the State Department in 
making and implementing foreign policy. It is my understanding both 
General Mattis and General Kelly so stated in their written and oral 
testimony. By reputation, I believe those are sincerely their beliefs. 
Further, I believe the President-elect knows well that soft and hard 
power work best when they are used for the right task and in the proper 
balance.

    Question. Will you support a fully empowered USAID Administrator?

    Answer. Should I be confirmed, yes.

    Question. Can you commit to this Committee that USAID will not be 
subsumed under the State Department?

    Answer. I would need to be fully briefed on this issue in order to 
provide a complete response. I understand there are different views on 
this issue. Should I be confirmed, I look forward to consulting with 
and working with Congress on this issue.

    Question. What is your view about how to balance the need for a 
strong, independent USAID with the necessity of coordinating with the 
State Department and other foreign policy agencies?

    Answer. I would need to be fully briefed on this issue in order to 
provide a complete response. I understand there are different views on 
this issue. Should I be confirmed, my number one goal for our foreign 
assistance programs would be to ensure that foreign assistance is 
sufficient and effective consistent with U.S. interests. Should I be 
confirmed, I look forward to consulting and working with Congress on 
this issue.
Conflicts of Interest

    Question. If confirmed, you will be handling the most sensitive and 
significant negotiations between our country and the rest of the world. 
As you know, I am very concerned about possible conflicts of interest 
with our foreign policy that may arise from our President's overseas 
business arrangements. How can you confirm for us that your 
negotiations and interactions with other countries will steer clear of 
such conflicts?

    Answer. I share your concern about avoiding possible conflicts of 
interest-and I am grateful to the ethics officials at the Office of 
Government Ethics and State Department for working in consultation with 
me to prepare the Ethics Agreement that I submitted to the Committee on 
January 3, 2017, which sets forth the steps I agreed to take to avoid 
any such conflicts if confirmed as Secretary. That Ethics Agreement has 
been praised by Walter Shaub, the Director of the Office of Government 
Ethics, as a ``sterling model'' for other nominees.
    In addition, as I testified at my hearing in response to a question 
from Senator Udall, I would expect to seek-and follow-the advice of 
State Department ethics counsel with respect to potential conflicts of 
interest.
Working with Congress
    Question. On behalf of the American people, this Congress--and this 
Committee--has an important role to play in U.S. diplomacy and 
development. When there is transparency, partnership, and trust between 
Congress and the State Department, it is possible to confront the many 
challenges the United States faces as a united front. In fact, eight 
distinct foreign aid bills were enacted into law in the last Congress 
alone, underscoring the importance of the relationship between 
theExecutive and Congress. How would you engage Congress, and will you 
pledge to start a new chapter of transparency and partnership with this 
Committee?

    Answer. As I stated in my testimony, both in my opening statement 
and in response to Senators' questions, I believe that accountability, 
transparency, and integrity start at the top, and if confirmed as 
Secretary,
    I intend to model those values. The American people deserve access 
to their institutions, like the State Department, and I will approach 
the people's representatives in Congress as partners, with that same 
transparency. I will engage in the comprehensive, bottom-up reviews 
discussed earlier upon taking office, if confirmed, and will work with 
Congress to implement solutions. Beginning with the ongoing budget and 
appropriations processes for the current fiscal year, if confirmed, I 
will ensure the State Department takes Congressional guidance seriously 
when responding to committee requests and reports required in the 
recent re-authorization act and other legislation, with actionable 
recommendations when appropriate, not just status reports.
Taxes
    Question. Have you had any household employees (including but not 
limited to housekeepers, nannies, gardeners, handymen, drivers, 
caretakers) that you have become aware may not have had legal 
documentation or for whom taxes were not properly withheld? If yes, 
please provide details and an explanation of the issue.

    Answer. As I mentioned during my confirmation hearing on January 
11, I intend to respect the longstanding tradition of privacy of 
individuals' tax returns. Because answering this question would require 
me in part to comment on third parties' confidential information, I do 
not believe it is appropriate to answer it. As I have previously 
indicated in response to the original committee questionnaire, I 
believe I have timely met all of my tax obligations.
Prioritization
    Question. It has been reported that, during your tenure at 
ExxonMobil, the company favored political stability in developing 
countries where it did business, even if such stability meant the 
continuation of authoritarian regimes. But as the world's leading 
democracy, our values and interests are far broader and more complex 
than corporate prerogatives and shareholders, including support for 
democracy, free expression, and strong protections of human rights. How 
will you as Secretary of State be the voice of these deeply held 
American values and support open, transparent, and accountable 
governance overseas, and protect those who fight for justice and 
democracy in their own societies? Will advancing human rights and 
democracy be a top priority for you alongside other interests like 
national security, energy, and economic issues? In light of your career 
focused on energy issues, what is your vision for advancing human 
rights and democracy? Have you ever raised concerns in this area with 
leaders in countries in your prior professional capacities?

    Answer. During my tenure as Chairman and CEO of ExxonMobil, I did 
speak with foreign leaders about human rights and democracy concerns. 
As I expressed during my confirmation hearing on January 11, human 
rights violations, if left unaddressed, cause great upheaval in civil 
society. I believe that respect for human rights and the rule of law 
are essential foundations for a stable and functioning society.
    I believe that American core values include standing up against 
violations of international law, war crimes, human rights violations, 
and corruption. The United States should speak up for the principles of 
democracy and free speech, and these principles must be at the 
forefront of the U.S. foreign policy agenda. Our approach to human 
rights begins by acknowledging that leadership requires moral clarity. 
The United States does not face a choice on defending human rights. Our 
values are our interests when it comes to human rights and humanitarian 
assistance. Supporting human rights is essential to showing the 
watching world what America stands for.
    That said, it is not reasonable to expect that every policy or 
position undertaken by the United States will be driven solely by human 
rights considerations, especially when the security of the American 
people is at stake. But the advancement of human rights is integral to 
U.S. foreign policy in many situations. For example, I believe it was a 
mistake not to formally integrate human rights concessions from Cuba as 
part of our recent engagements with that nation. The Castro regime has 
not been held accountable for its conduct. That serves neither the 
interests of Cubans or Americans.
DRG Budget
    Question. According to Freedom House, freedom in the world has been 
in decline over the last decade. Meanwhile, as seen in the President's 
budget justification, the actual spending for Democracy, Rights, and 
Governance (DRG) has fallen from $3.27 billion in 2010 to $1.93 billion 
in 2015. An opportunity exists for the incoming administration and 
Congress to reinforce U.S. leadership in the promotion of DRG and to 
assist those seeking freedom and opportunity in the face of repressive 
regimes and governments. Secretary Condoleezza Rice, as she sat before 
this panel, stated, ``America and the free world are once again engaged 
in a long-term struggle against an ideology of hatred and tyranny and 
terror and hopelessness.'' This is still true today. As Secretary of 
State, how will you uphold democracy and protect its fundamentals--
including support for elections, democratic governance, civil society, 
rule of law, free speech, and human rights protection, especially as 
people around the world-who share our values--struggle against the 
dangers presented by repressive and authoritarian regimes and 
governments?

    Answer. If confirmed, I will support the activities and programs on 
human rights and democracy conducted by the Under Secretary for 
Civilian Security, Democracy, and Human Rights, most notably in the 
Bureau of Democracy, Human Rights, and Labor, and the Office to Combat 
and Monitor Trafficking in Persons.
    DRL conducts human rights investigations, reports on country 
conditions, speeches and votes in the U.N. and creates asylum profiles. 
DRL develops, edits, and submits to Congress an annual 5,000-page 
report on human rights conditions in over 190 countries. DRL also 
provides relevant information on country conditions to the Department 
of Homeland Security and to immigration judges in asylum cases.
Balancing DRG and Security Assistance
    Question. Are there specific steps that should be taken to ensure 
that we are complementing our security assistance with democracy and 
governance funding in countries with poor human rights and democracy 
records, particularly in Africa and the Middle East? Should we be 
conditioning our security sector assistance-such as the provision of 
lethal equipment-on countries meeting some sort of governance and or 
rule of law standards?

    Answer. The primary responsibility of the federal government is 
protecting the security of the American people. In some instances that 
responsibility obliges the United States to provide security assistance 
to nations that do not share our respect for human rights and 
democracy. The conditioning of security assistance on the improvement 
on human rights is something that must be considered on a country-by-
country basis.
Business Conduct and Labor Rights
    Question. Will you ensure American business is subject to high 
standards of performance on human rights, and held accountable when 
involved in human rights abuses abroad? Through which steps?
    The Department of State plays an important role in promoting labor 
rights and enhancing economic security and working conditions for 
workers abroad. Will you continue to support and strengthen 
international labor standards and fundamental principles and rights at 
work? Through which steps?
    Will you support and expand upon the National Action Plan on 
Responsible Business Conduct? Through which steps?

    Answer. If confirmed I will support the efforts of the State 
Department's Office of International Labor Affairs to strengthen 
respect for labor rights in the global economy and advance U.S. foreign 
policy goals related to human rights, democracy promotion, trade, and 
sustainable development.
    If confirmed, I will review the National Action Plan on Responsible 
Business Conduct to ensure it strikes the proper balance between the 
promotion of U.S. businesses abroad and the protection of the human 
rights of the people in the nations in which U.S. businesses operate.
Women's Empowerment
    Question. As you know, the State Department places a high priority 
on global women's empowerment, gender equity, and combating violence 
against women. Gender inequality and gender-based violence are 
impediments to development, economic advancements, democracy and 
security. One of the State Department's core missions is to promote 
gender equality and equal rights for men and women around the world, 
including the right of all women and girls to decide if, when and whom 
they marry. This understanding has transcended party lines. As former 
Secretary of State Condoleezza Rice noted, ``In today's modem world, no 
country can achieve lasting success and stability and security if half 
of its population is sitting on the sidelines.'' More recently, 
Secretary of State Kerry noted: ``Our path forward is clear. We must 
prevent and respond to gender-based violence . . . We must open the 
doors for women to fully participate in society--as farmers, 
entrepreneurs, engineers, executives, and leaders of their countries. 
And we must invest in the next generation of women by making sure girls 
can go to school in a safe environment.''
    If you are confirmed as Secretary of State, how will you ensure 
that empowering women remains a core pillar of U.S. foreign policy?
    How do you intend to build on the progress that has been made to 
ensure that our foreign policy reflects our national values that men 
and women should enjoy equal rights? Among other things, as Secretary 
of State, how will you build on the work of your predecessors to 
elevate and fully integrate gender analysis into U.S. foreign policy? 
How will you support continued development and implementation of the 
U.S. Strategy to Prevent and Respond to Gender-Based Violence Globally 
and the U.S. National Action Plan on Women, Peace and Security?
    How will you ensure gender-focused metrics such as constraints on 
women's mobility, levels of violence against women, rates of child 
marriage and girls' access to quality education, are integrated into 
programs and assessments?

    Answer. As I stated in my hearing testimony, the issue of 
empowering women is personally important to me. I have seen firsthand 
the impact of empowering women, particularly regarding their 
participation in economic activities in the less-developed parts of the 
world. Investing in women produces a multiplier effect--women reinvest 
a large portion of their income in their families and communities, 
which also furthers economic growth and stability. As I indicated, I 
believe women's empowerment is an important part of our foreign aid 
efforts and I will support such programs, including efforts to mitigate 
the impact of violence against women.
Intercountry Adoption
    Question. In 1994 The Department of State created The Office of 
Children's Issues to actively engage in intercountry adoption and 
international parental child abduction. From 2010-2013 the State 
Department reported more than 5,000 American children were kidnapped 
overseas by a parent, including children of Marylanders. Few of these 
kidnapped American citizen children have made it home, and it is often 
left to victimized parents to fight battles in foreign countries and 
foreign courts where the deck is stacked against them. State Department 
officials have testified to the value of quiet diplomacy in resolving 
these cases, yet it has not yielded the needed results for American 
families. What efforts and public actions would your State Department 
take to bring internationally kidnapped American children home?

    Answer. In 1988, the United States became a party to the Hague 
Convention on the Civil Aspects of International Child Abduction (``the 
Convention''), which establishes a mechanism to enforce the return of 
abducted children to the United States. In 1988 Congress also enacted 
the International Child Abduction Remedies Act (ICARA) to authorize 
state and federal courts to hear cases under the Convention and to 
allow the U.S. Central Authority under the Convention (the Office of 
Children's Issues in the Department of State's Bureau of Consular 
Affairs) to access information in U.S. records on the location of the 
abducted child and the abducting parent. More recently, in 2014, 
Congress enacted Public Law No. 113-150, the Sean and David Goldman 
International Child Abduction Prevention and Return Act of 2014 (the 
``Goldman Act''), to ensure compliance with the Convention by countries 
with which the United States has reciprocal obligations, and to 
establish mechanisms for the return of children who were abducted to 
other countries. The Goldman Act provides a variety of tools for 
engaging with foreign governments to encourage them to send home 
American children who have been abducted and brought overseas. Such 
tools include the delivery of a demarche as well as the suspension of 
foreign assistance. It is heartbreaking for parents to be separated 
from their children, and it is crucial for the State Department to 
safeguard the wellbeing of U.S. citizens abroad, especially children, 
who are the most vulnerable among them. As I consider the best strategy 
to improve State Department efforts to address international child 
abduction I will assess the full range of tools provided by the 
authorities discussed above and by any other applicable laws.
Civil Society
    Question. Civil society around the world continues to be under 
threat. We traditionally talk about the threat from governments and 
autocratic regimes, but we would be remiss not to talk about the 
threats to civil society from powerful business entities like Exxon. In 
recent years Exxon has publicly challenged civil society groups, 
journalists and philanthropists investigating its record on climate 
science----going so far as to say their activities amount to a 
conspiracy. In my view, civil society is one the most important actors 
in advancing democracy, increasing transparency and countering 
corruption, and we must continue to vigorously defend these non-
governmental entities.
    Do you support civil society organizations' freedoms to associate, 
assemble, and communicate both publicly and privately?

    Answer. Yes.

    Question. What role do you believe the State Department should play 
in supporting and defending civil society around the globe?

    Answer. I believe defending civil society should be integral to 
U.S. foreign policy and statecraft. Should I be confirmed, I commit to 
reviewing current department programs and assessing them to see if they 
are adequate.

    Question. If confirmed as Secretary of State, how would you engage 
with civil society?

    Answer. Should I be confirmed, I would make engagement a priority.

    Question. Will you commit to prioritize meeting with civil society 
groups during your travels as Secretary of State?

    Answer. Yes.
International Disability Rights
    Question. The Convention on the Rights of Persons with Disabilities 
entered into force 10 years ago. Since then, 170 nations have ratified 
this basic human rights treaty. Studies show that the Treaty has 
already begun to positively affect national constitutions by generating 
new language on safeguarding rights and including people with 
disabilities in civil society. The United States signed the Treaty in 
2009, based in part on the similarities between existing law (The 
Americans with Disabilities Act) and the Treaty. Bipartisan efforts 
were made in 2011 and 2012 to ratify, but failed narrowly in the 
Senate. If confirmed, will you advise President-elect Trump to again 
submit the Treaty to the Senate for advice and consent?

    Answer. In December 2012, the Senate considered a resolution of 
advice and consent to ratification/or the Convention on the Rights of 
Persons with Disabilities (.''he Convention''). This resolution was 
voted on and was not agreed to. The United States is strongly committed 
to protecting the rights of disabled Americans through the legal 
protections afforded by the Americans with Disabilities Act (ADA) and 
other applicable laws, and to working cooperatively with like-minded 
partner countries interested in strengthening their own disabilities 
rights laws. If confirmed, my advice to the President-elect regarding 
the question of whether to transmit the Convention to the Senate again 
for its advice and consent will be based on such factors as whether the 
Convention benefits Americans who live in the United States and whether 
the Convention improves disability rights in other countries, thus 
benefiting Americans living abroad, the Convention's effects on U.S. 
sovereignty, and the Convention's impact on existing protections in the 
law and under the Constitution.
LGBTQ
    Question. As a board member of Boy Scouts of America, you lobbied 
for inclusion of homosexual youth, based on the understanding that 
``the mission [had] not changed,'' and I thank you for that worthwhile 
effort. In Uganda and a number of other U.S. aid recipient countries 
LGBTQ activity is illegal. In a number of these regions--from Africa 
and the Caribbean to the Former Soviet Union--we have seen lesbian, 
gay, bisexual, transgender and queer (LGBTQ) people targeted for simply 
being who they are. They have been criminalized, arrested, tortured and 
even killed simply because of their sexual orientation or gender 
identity. In the last few years, the U.S. has therefore begun to 
include the human rights of LGBTQ people among the wide array of human 
rights that we've fought for and protected from religious and ethnic 
minorities to political dissidents and journalists. As Secretary of 
State, how do you intend to advance LGBTQ, and other human rights, as 
to stay true to the mission of America of ``freedom and justice for 
all.'' Will you commit to fully empowering the Special Envoy for the 
Rights of LGBTQ Persons?

    Answer. Should I be confirmed as Secretary of State, I would be 
charged with promoting American values on the world stage, and that 
means standing for universal human rights and fighting for the dignity 
of every person. The United States has an obligation to stand strongly 
for those who fight against discrimination worldwide. As I mentioned in 
my opening statement, the United States must continue to display a 
commitment to personal liberty, human dignity, and principled action in 
foreign policy. The State Department under my leadership will work 
aggressively to advance human rights for everyone.
Trafficking in Persons
    Question. Trafficking for sexual exploitation is a horrific crime 
which we must end. Trafficking for labor is also horrible crime. Of the 
estimated 20.9 million victims of human trafficking worldwide, the 
International Labor Organization reports the 68 percent of those 
enslaved are trapped in labor trafficking. Yet, only 7 percent of the 
6.609 convictions reported worldwide last year were labor cases. Labor 
traffickers operate with near impunity across the globe, in large part 
because of the increased resources it takes to recognize, investigate 
and prosecute these cases. What can the State Department do to help 
build this expertise globally and ensure that more labor cases are 
identified and perpetrators of slavery prosecuted?

    Answer. Should I be confirmed, I commit to ensuring that the State 
Department does all that it can to assist in the fight against human 
trafficking. I commit to working tirelessly with the President-elect, 
representatives of the National Security Council, and other federal 
agencies. Also as I stated previously, I believe the United States 
should continue to lead international efforts to combat trafficking in 
persons. In particular, in order to do so, I believe the Trafficking in 
Persons report should be viewed as credible. The report remains a 
valuable diplomatic tool Should I be confirmed, I will direct the 
Office to Monitor and Combat Trafficking and Persons (OMTCP) to 
integrate empirical and data-based metrics into the rankings and 
evaluations for the report in order to improve the report's 
objectivity.
Genocide/Atrocity Prevention
    Question. Most of the approximately 1 million people who were 
slaughtered in the Rwandan genocide died in the first few weeks. In 
countries such as Syria, South Sudan, Yemen, Burundi, and Myanmar, mass 
atrocities are occurring and could worsen. When crises reach such 
levels, options are limited, risky, expensive, and may not be 
sufficiently timely. Investing in early prevention of mass atrocities 
saves both lives and valuable resources.
    What will you do to strengthen existing atrocity prevention 
initiatives, to ensure that atrocity prevention is institutionalized in 
the national security structure, and to promote international 
cooperation on atrocity prevention?

    Answer. Atrocity crimes have occurred with such frequency in the 
past 100 years that various academic and advocacy groups have 
identified patterns which indicate that a society is moving toward mass 
violence. What we know from this research is that atrocity crimes tend 
not to happen suddenly, that there are early warning signs which serve 
as indication of the need for diplomatic action. When the killings, 
rapes, and dispossession have started, it is already, in most cases, 
too late.
    Part of the State Department's mission should be to gather the best 
advice and scholarship in this field to help us determine the early 
indicators of atrocity crimes; determine how this has informed programs 
Department-wide; and work to further integrate these insights 
Department-wide, especially at the bureau level, to ensure that our 
diplomatic corps is prepared to identify any early warning signs for 
atrocity crimes.
    Human rights violations, as we have seen with the case of ISIS, 
often spill over into national security issues. Properly understanding 
and addressing these with a human rights context is important, not only 
because the United States should promote human rights, but also because 
of the national security implications of not doing so.

    Question. Do you agree with the 2011, the Presidential Study 
Directive-10 which states that ``Preventing mass atrocities and 
genocide is a core national security interest and a core moral 
responsibility of the United States''?

    Answer. We need to understand and act on the nexus between our 
national security and human rights abuses, which often grow into larger 
security concerns. In this way, human rights issues are not only 
important in their own right, but are also important as early warning 
signs of imminent security problems that can be regionally or even 
globally destabilizing.

    Question. If so, how will you seek to pursue that interest and 
responsibility?

    Answer. As stated above, we need to know the early warning signs of 
atrocity crimes to ensure that we remain vigilant, so we know when 
political developments are in danger of becoming something much worse, 
and we are able to respond before it is too late. And we need to stay 
vigilant as to the connection between human rights and international 
security.

    Question. What efforts would you support to prevent and to punish 
genocide?

    Answer. Local, national, regional, and international efforts all 
play a part. It is necessary to examine each situation to determine 
what efforts are most appropriate.
    To take the current example of ISIS, many have claimed--and I 
support this view, although it is necessary for courts to make a final 
determination--that ISIS is committing genocide and other atrocity 
crimes against Yazidis, Christians, and others in the areas where they 
operate. The victim communities have asked for international 
involvement in the prosecution of this genocide, and this could occur 
in a number of ways. Appropriate action will depend on the needs of the 
victims, the political will of the relevant parties, the nature of the 
conflict and a host of other variables. It is necessary to determine 
what the needs and the desires of the victim communities are, and then 
assess what is possible given the political dynamics, with an eye 
toward the swift delivery of justice.

    Question. Do you think prosecution of suspected perpetrators of 
mass atrocities can help prevent future atrocities?

    Answer. Yes, especially when such prosecutions focus on the 
leaders. These prosecutions counter the political mythology that 
surrounds violent movements and attracts followers and sympathizers. 
The prosecution of the leaders of such movements sends a message that 
resounds through history. Part of our collective memory of the genocide 
perpetrated by the Nazis is not only images and words that come to us 
from places like Auschwitz and Dachau, but also those we associate with 
the trial at Nuremberg.
    Trials of ISIS leadership, for example, would badly tarnish their 
carefully crafted propaganda and help solidify the narrative worldwide 
that they are criminals, whose actions are inexcusable.
Torture
    Question. Do you believe that the United States should use 
interrogation techniques that are tantamount to torture, such as 
waterboarding, on persons apprehended by the U.S. or partners on 
suspicion of terrorism activities?

    Answer. Current Federal law provides that no individual in U.S. 
custody may be subjected to any interrogation technique or approach 
that is not authorized by and listed in the Army Field Manual If 
confirmed, I would support the Administration in complying with that 
law and all other applicable law.
Conflict Mitigation
    Question. Do you believe it is in the U.S. national interest to 
fund foreign assistance programs intended to mitigate conflict and 
prevent mass atrocities, or should the U.S. refrain from getting 
involved in foreign disputes unless U.S. personnel or property are 
directly threatened?

    Answer. The Department of State and USAID already have programs 
that focus on conflict mitigation, including the Interagency Conflict 
Assessment Framework. This program provides guidance for implementing 
stabilization protocols. USAID programs, such as Provincial 
Reconstruction Teams, serve as a measure to support revitalization in 
fragile states. By continuing these programs, we will better understand 
the underlying causes of individual weak and fragile states, and 
utilize those results to craft better diplomatic and development 
policy. As for which conflicts we work to mitigate, we should make 
those choices based on a variety of factors, including the threat to 
U.S. citizens, the threat to U.S. interests, the kind of impact we can 
expect to have, and the safety of the personnel we send into the field.
Diplomacy and Development
    Question. General Mattis had one of the most enduring quotes about 
the importance of development and diplomacy as :o our national 
security. At a hearing in front of the Senate Armed Services Committee 
in 2013, he said, ``If you don't fund the State Department fully, then 
I need to buy more ammunition.'' Starting in 2002 and every year since, 
U.S. National Security Strategies have elevated diplomacy and 
development alongside defense as the three instruments of national 
security power, and with the number of complex challenges we face, 
coordination between the State Department, our military, and our 
development agencies has never been more important. Development must 
stand alongside diplomatic and defense activities, and cannot be 
subsumed by either. Looking at a proposed Cabinet in which a number of 
national security roles would be played by military generals, how will 
you elevate diplomacy and development to ensure they're on equal 
footing as key components of our national security strategy? Will you 
support a fully empowered USAID Administrator?

    Answer. As I stated previously, should I be confirmed, I do not 
believe I will have to ``elevate'' the role of diplomacy. I believe 
that role will be both respected and supported by the President-elect 
and his cabinet. It is my understanding that the retired senior 
military officers that the President-elect has selected for his cabinet 
understand well the importance of statecraft, diplomacy, and the role 
of the State Department in making and implementing foreign policy. It 
is my understanding both General Mattis and General Kelly so stated in 
their written and oral testimony. By reputation, I believe those are 
sincerely their beliefs. Further, I believe the President-elect knows 
well that soft and hard power work best when are used for the right 
task and in the proper balance.
Nominee Leadership
    Question. In addition to serving on the Commission on Smart Global 
Health Policy convened by the Center for Strategic and International 
Studies, during your time as Chairman and CEO of the Exxon Mobile 
Corporation the Exxon Foundation has made investments to reduce poverty 
through improved energy access, global health and women's empowerment. 
How would this demonstrated leadership for reducing global poverty 
inform your approach to foreign assistance?

    Answer. It is important to understand how the success of programs 
on global health, women's empowerment, and energy access are measured 
and how we may replicate them in other geographic areas and other issue 
areas that we want to advance. The global health programs focused on 
fighting diseases, including PEPFAR, PM], and USAID's Global 
Tuberculosis (TB) Program, as well as energy initiatives such as Power 
Africa, have proven to be extremely valuable and successful. These 
public private partnerships should be maintained during my leadership, 
in an effort to reduce global poverty in the long term.
Foreign Assistance Transparency
    Question. In recent years, the State Department has made real 
progress becoming more transparent and accountable to taxpayers. In 
2015, Senator Rubio and I introduced the ``Foreign Aid Transparency and 
Accountability Act'' (PL. 114-191) which was enacted into law last 
year. The Act establishes common guidelines to evaluate our foreign 
assistance programs, allowing us to see what's working and what's not, 
ensuring that we incorporate learning into all future efforts so we 
have the best possible outcomes. Would transparency, accountability, 
and effectiveness be a priority for you at the State Department? How 
would you invest in foreign assistance data use and access, 
evaluations, and learning to make sure we're getting the most from our 
foreign assistance dollars?

    Answer. In order for State and USAID to carry forward their 
critical foreign-assistance work, it is important to measure the 
efficiency of their foreign-assistance and development programs and 
closely examine the administrative and management practices of both 
entities. By doing so, the State Department and USAID will be able to 
more effectively prioritize development investments and eliminate 
inefficiencies, including the duplication of effort Making sure that 
our foreign-assistance mission is implemented in an accountable, 
transparent, and cost-saving manner is one of my key administrative and 
management priorities.
Aid Conditionality
    Question. I was concerned about your remarks both in our private 
meeting and during the hearing about conditioning all foreign 
assistance. In the last 30 years, we have learned a lot about the 
effectiveness of policy conditionality of foreign assistance. The World 
Bank in the 80's and 90's proved that when every dollar is conditioned 
on very specific policy changes identified by lenders or aid agencies, 
those policy reforms typically fail. While conditionality sounds 
logical, sometimes it incentivizes countries to simply pretend to 
reform just long enough to get the money. MCC was established partly to 
test exactly the question: when IS conditionality effective? Over 10 
years of learning shows that when the U.S. sets achievable reform 
outcomes in countries that have the capacity and incentive to deliver, 
conditionality can work. However, the U.S. turns to foreign assistance 
as a tool for a variety of reasons, and in some instances, it serves 
the national interest to work with countries that do not have the 
capacity to reform, or who are prioritizing other agendas on our behalf 
(Jordan, Niger, etc). In those instances--when we are worried that 
refugee migrations could destabilize an ally, or when we are concerned 
that untreated health conditions could lead to an epidemic--I would 
argue that firm-across the board conditionality is neither effective 
nor in the U.S. national interest. In our meeting, you seemed to say 
the opposite. Are you arguing that the U.S. should maintain a posture 
of pure conditionality even when it undermines our national interest? 
Or do you see a more practical, businesslike approach where we use the 
tool when it serves us well?

    Answer. When evaluating a country's eligibility for aid, a number 
of/actors come into play, including government compliance, U.S. 
interests in the region, and the level of need of the population. Many 
of our foreign assistance programs take the multitude of factors into 
account to inform its decisions. We should continue to consider all 
factors, and refine how we weight those factors.
Privatization of Aid
    Question. Over the past decade, we have seen a growing trend 
towards using private, for profit companies to deliver humanitarian 
assistance. What are your thoughts on using private companies for this 
purpose?

    Answer. I would need to be fully briefed on this issue in order to 
provide a complete response. Should I be confirmed, I commit to 
learning more about this issue. It is my understanding that government, 
NGOs, faith-based institutions, the private sector, and contractual 
services all have roles to play in development and foreign assistance. 
I would want to the best mix of these to achieve our foreign policy 
objectives. As with all aspects of foreign assistance, should I be 
confirmed, my number one goal with regard to foreign assistance 
programs would be to ensure that foreign assistance is sufficient and 
effective consistent with U.S. interests. Should I be confirmed, I look 
forward to consulting and working with Congress on this issue.

    Question. What kind of impact do you see the privatization of aid 
having on the provision of humanitarian assistance?

    Answer. I would need to be fully briefed on this issue in order to 
provide a complete response It is my understanding there are different 
views on this issue. Should I be confirmed, I commit to learning more 
about this issue and how it may impact the effectiveness of U.S. aid 
and our foreign policy programs.

    Question. How will you ensure that humanitarian assistance 
delivered by private entities gets to the people who need it most?

    Answer. I would need to be fully briefed on this issue in order to 
provide a complete response. It is my understanding there are different 
views on this issue. Should I be confirmed, I commit to learning more 
about this issue and how it may impact the effectiveness of U.S. aid 
and our foreign policy programs.
Education
    Question.  U.S. foreign assistance helps millions of people in need 
around the world. While at ExxonMobil, you stated that ``educating 
women and girls yields a higher rate of return than any other community 
investment available in the developing world.'' Since 2011, USAID 
education projects have benefited more than 41.5 million children and 
youth. Furthermore, studies have shown that each additional year of 
education can bring with it a 10% increase in income and if all 
children in low-income countries left school with basic reading skills 
there would be a 12% reduction in world poverty. As Secretary of State, 
how would you continue to prioritize investment in education, 
especially for the world's most excluded children?

    Answer. From my previous experience I understand the importance of 
education in development and assistance programs. As to the role I will 
play as Secretary of State, should I be confirmed, I would need to be 
fully briefed on this issue in order to provide a complete response. 
Should I be confirmed, I commit to learning more about the State 
Department's appropriate role. As with all aspects of foreign 
assistance, my number one goal with regard to foreign assistance 
programs would be to ensure that foreign assistance is sufficient and 
effective consistent with U.S. interests. Should I be confirmed, I look 
forward to consulting and working with Congress on this issue.
Food Security and Nutrition
    Question. There is solid evidence that early malnutrition, 
especially during the 1,000-day window from pregnancy to age 2, is an 
obstacle to cognitive and physical development. It affects long-term 
health, learning and earning potential. Malnutrition, in other words, 
is a constraint to economic growth. Malnutrition is also the underlying 
cause of half of all deaths of children before they reach their 5th 
birthday. The recently enacted Global Food Security Act recognizes the 
importance food security and nutrition to U.S. national security. How 
will you build on the longstanding U.S. legacy of fighting hunger, 
malnutrition and poverty and promoting child survival around the 
global?

    Answer. Power Africa provides electricity, the Global Food Security 
Act fights hunger, and PEPFAR promotes child survival by decreasing 
mother-to-child transmissions of HIV/AIDS. We should continue to 
support these programs, as they aid a country in lifting itself out of 
poverty. Examining all of our development programs to make sure that 
taxpayer dollars are being used efficiently will increase our ability 
to implement world-class programs that focus on food security and 
global health.
Global Health--U.S. Leadership
    Question. Under your watch, the Exxon Mobil Foundation has invested 
millions of philanthropic dollars in community level health activities 
where the company had business interests, of particular note the work 
on malaria and HIV in oil-rich parts of Africa. Clearly you understand 
the value--both economic and humanitarian--of providing health services 
to those in need, which in turn builds a strong workforce that fuels 
emerging economies. What are your views on the role the U.S. should 
play in fighting pervasive global infectious diseases like HIV, TB and 
malaria? What are your views on President Obama's Global Health 
Security Agenda? What is the role for the private sector?

    Answer. The global health programs focused on fighting diseases, 
including PEPFAR, the President's Malaria Initiative (PMI), and USA/D's 
Global Tuberculosis (TB) Program, as well as the Global Health Security 
Agenda, have proven to be extremely valuable and successful programs. 
It is important to understand how their success is measured and how can 
they be replicated in other geographic areas and other issue areas. 
USAID should continue to engage in public-private partnerships 
concerning these issues, in an effort to maintain global health 
programs in the long run.
Global Health--Women
    Question. Women's health and reproductive rights have served as a 
political football from Administration to Administration. How will you 
ensure that the leadership and success of the U.S. government in 
reducing infant and maternal mortality continue?

    Answer. PEPFAR is a global health program that aims to reduce 
infant and maternal mortality by decreasing mother-to-child 
transmissions of HIV/AIDS. PEPFAR is a successful and valuable program 
and it should serve as a model for future programs.
Global Health--Health System Strengthening
    Question. For decades the U.S. government has been a leader in 
strengthening health systems around the world to prevent, detect, and 
minimize the impact of emerging infectious diseases. The United States 
is one of over 50 countries that have committed to the Global Health 
Security Agenda, which aims to help countries improve their capacity to 
prevent, detect, and respond to infectious disease outbreaks. As 
Secretary, how would you support and enhance global efforts to detect, 
prevent, and respond to diseases internationally to prevent them from 
becoming a threat to the U.S.? How will you ensure that we effectively 
address emerging crises and maintain our leadership role in global 
health?

    Answer. The global health programs focused on fighting diseases, 
including PEPFAR, PM[, and USA/D's Global Tuberculosis (TB) Program, as 
well as the Global Health Security Agenda, have proven to he extremely 
valuable and successful programs. In order to ensure that we 
effectively address emerging crises and outbreaks, such as Ebola and 
the Zika virus, it is important to understand how their success is 
measured so that we can properly prevent, detect, and respond to future 
outbreaks.
Global Health--The Global Fund
    Question. America's approach to global health has been extremely 
successful, including the effort to move toward ending the epidemics of 
AIDS, tuberculosis and malaria he hallmark of America's work against 
the three diseases has been to support results-oriented, accountable 
and transparent programming through the Global Fund and bilateral 
programs including PEPFAR, PMI and the USAID tuberculosis program. The 
Global Fund and our bilateral programs closely coordinate their work 
and depend on each other to implement comprehensive programming. As 
Secretary, will you be committed to continuing America's leadership 
against AIDS, TB and malaria through our bilateral and Global Fund 
investments? Do you support PEPFAR remaining the cornerstone global 
health program at the Department of State?

    Answer. PEPFAR is one of the remarkable successes of the past 
decade or more. In addition, there are measurable results that are well 
managed and targeted at combating HIV/AIDS, TB, and malaria through 
PEPFAR, the President's Malaria Initiative (PMI), and the USAID 
tuberculosis program. Through these global health programs, we project 
America's leadership and compassion and they serve as models for the 
future as we think about other areas that may be useful for us to put 
additional programs in place.
Humanitarian--Iraq
    Question. When the battle for Mosul began about two months ago, 
many feared that mass departures from the city would overwhelm already 
crowded camps in Iraq. Instead, most people heeded government advice to 
stay in their homes as security forces advanced. Now many of those 
residents lack even basic services, with water supplies cut by the 
fighting and humanitarian aid distributions unable to reach all of 
those in need. In areas still controlled by ISIL, a siege by security 
forces is slowly tightening, pushing up food prices and causing 
shortages while the militants prevent people from leaving.
    As the humanitarian situation in Mosul worsens, is your vision for 
how the U.S. should work with the Government of Iraq and Kurdish 
Regional Government to meet humanitarian need stemming from counter-
ISIL operations?

    Answer. Defeating ISIS on the battlefield is important, but it 
isn't enough. If, despite the coalition's military success, the people 
of Mosul are left with a humanitarian catastrophe and the destruction 
of their homes, it will be a matter of time before the next iteration 
of ISIS emerges. That's why addressing the humanitarian and 
reconstruction needs of the population in a timely manner has to be an 
integral part of the coalition's strategy.

    Question. What preparations should the U.S. and the Global 
Coalition to Counter ISIL take to ensure that a similar situation does 
not play out in the Syrian city of Raqqa? Do the State Department and 
USAID have sufficient humanitarian funding to respond to these growing 
needs in Iraq?

    Answer. I would need to be fully briefed on this issue in order to 
provide a complete response. It is my understanding that the United 
States has an important role to play in providing humanitarian relief 
in the region, establishing stability, and preventing a resurgence of 
groups like ISIS. I believe the United States can perform these tasks 
without resorting to ``nation building.'' Should I be confirmed, I 
commit to work with other relevant federal agencies and Congress to 
provide appropriate assistance to address this mission consistent with 
U.S. interests.
Humanitarian--Yemen
    Question. At least 10,000 civilians have died during the course of 
the current conflict in Yemen. Almost 19 million more civilians are 
currently in humanitarian need- over two thirds of the nation's 
population- 7 million of whom are severely food insecure. Given the 
horrifying humanitarian toll that this conflict has wrought, how would 
you address the suffering of the Yemeni people?

    Answer. Providing assistance to relieve the immediate suffering is 
an important part of USAID, and the agency is already providi11g 
emergency food assistance to those suffering in Yemen, which should be 
continued.
Humanitarian--Syria
    Question. Syrian civil society organizations are the only 
humanitarian actors supporting many communities in Syria, particularly 
in besieged areas. They are providing essential services that can't be 
eliminated without causing a further deterioration in vulnerable and 
fragile communities. Yet, they still face challenges with the Syrian 
government and many cannot legally register. This puts their lives at 
risk. These organizations need recognition as legitimate humanitarian 
actors and the ability to continue operations. However, there are 
concerning reports that local civil society leaders have been forcibly 
removed from their communities and relocated to other parts of the 
country as part of the conditions of truce negotiations. These actions 
add to the false perception that these independent humanitarian aid 
actors are political agents, which further puts their lives at risk. 
The Russian and the Syrian government must end the practice of 
including humanitarian actors in the list of political and military 
actors to be removed from areas retaken by the Syrian government. In 
your role, how will you make the protection of all Syrian humanitarian 
workers and their ability to maintain operations one of our key points 
in any negotiations with Russia and the Government of Syria ?

    Answer. I would need to be fully briefed on this issue in order to 
provide a complete response. It is my understanding that the United 
States has an important role to play in providing humanitarian relief 
in the region, establishing stability, and preventing a resurgence of 
groups like ISIS. I believe the United States can perform these tasks 
without resorting to ``nation building.'' Should I be confirmed, I 
commit to work with other relevant federal agencies and Congress to 
provide appropriate assistance to address this mission consistent with 
U.S. interests.

    Question. As Secretary of State, would you commit to appointing a 
Special Adviser to serve as the U.S. government's representative for 
the No Lost Generation strategy to ensure the needs of children and 
youth affected by the Syrian conflict are met?

    Answer. I would need to be fully briefed on this issue in order to 
provide a complete response. Should I be confirmed, I commit to 
learning more about this issue and implementing the most effective 
policies to address humanitarian issues consistent with U.S. interests. 
I look forward toconsulting with Congress on this issue.
Risks to Aid Workers
    Question. How do we as a nation assure that counter-terror measures 
and programs do not impose unintended hurdles to the effective delivery 
of life-saving humanitarian assistance and democracy programs in 
difficult operating environments with limited civil society space? For 
example, many international NGOs in Pakistan are being raided on a 
regular basis by the Inter-Service Intelligence, and they and their 
national implementing partners are often threatened and harassed under 
the suspicion that they are U.S. intelligence agents. However, these 
same organizations are now being asked to collect and submit the 
personal identifying information of their Pakistani partners against 
U.S. intelligence databases in order to receive U.S. government 
funding.
    Under your Department of State, will you commit to working with 
NGOs in order to assure effective delivery of foreign assistance 
without putting NGO workers and critical life-saving and democracy 
programs at undue risk?

    Answer. Should I be confirmed, yes.

    Question. What is your view about whether the State Department and 
USAID should conduct counterterror vetting directly rather than 
requiring NGOs to act as an intermediary?

    Answer. I would like to be fully briefed on this issue before 
responding, as I understand there are different views on how to best 
address this issue. Should I be confirmed, I commit to learning more 
about the issue. I look forward to consulting and working with Congress 
on this issue.
Center for Global Engagement
    Question. I am deeply concerned that President-elect Trump's anti-
muslim rhetoric throughout the campaign is going to severely damage 
U.S. efforts to work with Muslim countries on counter-terrorism 
activities and countering violent extremism across the board, as well 
as assist terrorist recruitment and incitement.
    How would you address that?

    Answer. Should I be confirmed, I commit to advocating for and 
implementing policies and programs that will protect and advance U.S. 
interests without regards to religion. Our fight is with radical 
Islamic terrorists. I will do my utmost to engage with foreign leaders 
and audiences in the Muslim world with the goal of explaining the 
shared danger we face from radical Islam.

    Question. I am also concerned that the Center for Global Engagement 
(GEC) at State, which focuses on innovative ways to counter-message 
terrorists and violent extremists, must get strong support and 
endorsement from the next Secretary of State, especially since this 
year's NDAA mandated that the Center expand its mission to a]so 
countering foreign propaganda. How will you use the GEC, or successor 
entity, to focus on countering violent extremism, and will you 
prioritize that mission above others?

    Answer. I would need to he fully briefed on this issue in order to 
provide a complete response. Should I be confirmed, I commit to 
learning more about the center, its programs, and their effectiveness.
International Humanitarian Law

    Question. The U.S. has made great strides in adopting measures to 
minimize harm to civilians in its military operations. These measures 
have spared many civilian lives in armed conflicts where the U.S. is a 
party.
    How will you direct existing U.S. leadership in these regards to 
reinforce rules-based international order and international 
cooperation?

    Answer. Should I he confirmed, above all I will insist that they 
follow U.S. laws and the government's obligations under those laws.

    Question. How will you further the U.S. and global interests in 
respect for minimizing civilian harm?

    Answer. Should I he confirmed, I will work with the President-
elect, my partners on the National Security Council, and other agencies 
to ensure our policy and programs are consistent with our obligations 
under the law.

    Question. Do you believe that U.S. policy and practice has norm-
setting influence on other States?

    Answer. Yes.

    Question. What role does the U.S. have to promote a rules-based 
international order and how will you pursue this as Secretary of State?

    Answer. Should I be confirmed, first and foremost I will strive for 
the United States to lead by example-follow our laws and our 
obligations under those laws.

    Question. What steps should the U.S. take to help ensure that 
allies and other parties to conflict employ comparable measures to 
safeguard civilian life during armed conflict?

    Answer. I would need to be fully briefed on this issue in order to 
provide a complete response. Should I be confirmed, I commit to 
learning more about the policies and safeguards that are in place, 
assessing their effectiveness, and ensuring that they are adequate, 
consistent with U.S. law and the president's foreign policy objectives.

    Question. Should the U.S. expect security partners to take pro-
active steps to minimize harm to civilians as a condition for U.S. 
security cooperation and, if so, what measures should the U.S. take in 
this regard?

    Answer. I would need to be fully briefed on this issue in order to 
provide a complete response. Should I be confirmed, I commit to 
learning more about the policies and safeguards that are in place, 
assessing their effectiveness, and ensuring that they are adequate, 
consistent with U.S. law and the President-elect's foreign policy 
objectives.

    Question. Civilians, health workers and medical facilities are 
being deliberately attacked in conflict areas across the globe. How 
will you respond to these unconscionable assaults to ensure the safety 
of children, families, and communities who require medical care as well 
as the health workers whoprovide it?

    Answer. I would need to be fully briefed on this issue in order to 
provide a complete response. Should I be confirmed, I commit to 
learning more about the policies and safeguards that are in place, 
assessing their effectiveness, and ensuring that they are adequate, 
consistent with U.S. law and the president's foreign policy objectives.
Climate Change
    Question. Do you accept the consensus among scientists that the 
combustion of fossil fuels is the leading cause for increased 
concentrations of greenhouse gases in the atmosphere which is the key 
factor in the rising global average temperatures?

    Answer. I agree with the consensus view that combustion of fossil 
fuels is a leading cause for increased concentrations of greenhouse 
gases in the atmosphere. I understand these gases to be a factor in 
rising temperatures, but I do not believe the scientific consensus 
supports their characterization as the ``key'' factor.

    Question. How do you square your statement from the 2012 Council of 
Foreign Relations Forum on science and technology where you said ``Ours 
is an industry that is built on technology, it's built on science, it's 
built on engineering, and because we have a society that by and large 
is illiterate in these areas, science, math and engineering, what we do 
is a mystery to them and they find it scary.'' with the fact that 
Exxon's internal reports and memos detail a decades long strategy to 
ignore and conceal its own sound scientific research on climate change 
and its impacts?

    Answer. My statement from 2012 is consistent with ExxonMobil's 
conduct ExxonMobil has vigorously contested allegations that it engaged 
in a decades-long strategy to ignore and conceal scientific research 
related to the risk of climate change.

    Question. Do you believe that renewable energy technologies, like 
wind and solar, and distributive generation and micro grid transmission 
platforms are viable means for action on climate change that also 
supports the need to provide the world's poor with plentiful and 
affordable energy?

    Answer. Renewable energy technologies may be a viable form of aid, 
assuming they are sufficiently economic to deploy. If I am confirmed, I 
will remain mindful that foreign aid is funded with taxpayer dollars, 
and will seek to ensure that those dollars are used as effectively and 
efficiently as possible.

    Question. Given the high degree of certainty about the occurrence 
of climate change and its potential impacts (something that our defense 
and intelligence communities recognize), how will you direct the 
department to manage this risk, and its implications for other core 
national security priorities?

    Answer. If confirmed, I plan to conduct a review of the current 
role that the State Department plays in international climate change 
efforts.

    Question. Will you commit to taking appropriate actions to advance 
the HFC amendment to the Montreal Protocol?

    Answer. The recent HFC amendment to the Montreal Protocol requires 
review and study. If confirmed, I will direct the State Department to 
review the HFC amendment, in consultation with other parts of the U.S. 
government, to determine whether it should be transmitted to the Senate 
for advice and consent
Arms Sales--Philippines
    Question. There have been huge numbers of extrajudicial killings by 
Philippine police as part of President Duterte's drug war. Would you, 
as Secretary of State, approve the sale of weapons to Philippine police 
forces? President Duterte himself has claimed that President-elect 
Trump supports his actions in a recent phone conversation; is he 
correct?

    Answer. The alliance with the Philippines is rooted in shared 
interests and values, which include concerns for human rights. If 
confirmed, I will continue to review each arms notification for the 
Philippine Police and Armed Forces on a case-by-case basis to ensure 
that we provide support to forces upholding these values rather than 
those undermining them.
Cyber

    Question. We are clearly in something of a ''Cyber Cold War'' with 
Russia and China, if not others, that go beyond the traditional pattern 
of espionage for national security reasons. The President recently 
recognized this in part by designating national election systems as 
``critical infrastructure'' to protect under his Cyber Sanctions 
Executive Order. Do you think these sanctions are sufficient, 
excessive, or too weak?
    Retaliating against a cyber-attack with another cyber-attack 
carries an inherent risk of escalation to ever-more-serious cyber-
attacks. Should the U.S. also seek to retaliate in other, asymmetric 
ways against such attacks, such as cutting or revoking visas for 
students from the attacking country (which, in the case of China, would 
also diminish conventional espionage problems)?

    Answer. The U.S. government should keep all options open, including 
both cyber and non-cyber, to deter cyber attacks.

    Question. Will you seek to increase cooperation and concerted 
action with other partner countries to respond, defeat and deter cyber-
attach? What initiatives will you undertake?

    Answer. Yes, we will seek to increase international cooperation to 
reduce cyber security threats. I will also review the State Department 
organization as it relates to cyber security and ensure that this issue 
is elevated as a higher priority.

    Question. The use by the U.S. of cyber means to attack, or 
retaliate, against a foreign country that could cause damage to or 
disable civilian or military infrastructure, broadly defined, is and 
should be considered a ``use of force'' issue, tantamount to an act of 
warfare. As such, it should only be authorized through a Congressional 
use of force authorization, which are in the sole jurisdiction of the 
Foreign Relations and Foreign Affairs Committees. Under what 
circumstances would you consider a U.S. cyber action against a foreign 
country to involve Congress' Constitutional warmaking powers? Under 
what circumstances should a President seek an authorization of use of 
military force?

    Answer. The conditions that constitute an act of war extend to acts 
conducted in cyberspace. We would apply the same criteria to cyber 
attacks as to any other attack on America's national interests.
Financial Disclosure
    Question. When you do a deal on the scale of the one you did with 
Russia on Sakhalin Island, you conduct a thorough due diligence 
process. You require your company to share audited financial 
statements, details of their loans and investments, the backgrounds of 
their management team and their employment agreements and a host of 
other documentation as well, correct? And one of the main goals of this 
process is to uncover any exposure to risk that may not be immediately 
apparent, correct? Would you ever partner with a firm that refused to 
fully disclose its assets and liabilities?

    Answer. Due diligence is an important part of any corporate deal In 
most situations, ExxonMobil would conduct an independent evaluation of 
a potential partner's assets and liabilities, rather than relying 
solely on that potential partner's representations. In some instances, 
particularly where third-party joint financing was in play, financiers 
would require self-disclosures from potential borrowers. In those 
situations, I would rely both on self-disclosures and ExxonMobil's 
independent analysis.
Multilateral Institutions
    Question. For decades, the U.S. has led a network of international 
institutions, from the World Bank to the IMF to what is now the WTO. 
Throughout your career at Exxon, these institutions have evolved in 
their missions, their reach, and their membership. They are far from 
perfect, but they have helped to foster international coordination in 
crises from Asia in 1997 to the global economic collapse of 2008. They 
have worked to establish guidance and support for countries in 
financial crisis, to monitor economies and trends. And they have 
promoted predictability and rules for the conduct of international 
trade and finance, as well as forums for seeking important agreements. 
As CEO, you had economists who relied on their data, who reported their 
economic forecasts, and who followed their interventions in economic 
crises. These institutions have been a key part of the global financial 
architecture in which Exxon conducted its affairs. What is your view of 
them? Are theyimportant, not just to our trade and finance, but to our 
global leadership? Can we do without them?

    Answer. I agree that multilateral institutions can be effective 
instruments for advancing U.S. interests and exercising global 
leadership. I agree they are not perfect. Should I be confirmed, I 
commit to using them as effectively as possible and working to improve 
their efficiency and effectiveness.
Bilateral Investment Treaties
    Question. As CEO of Exxon, you strongly supported inclusion of the 
Investor State Dispute Settlement (ISDS) mechanism in our Bilateral 
Investment Treaties (BITs) and trade agreements. And during your time 
with the company, Exxon successfully used these provisions to sue 
foreign governments and obtain damages. In one case, Exxon argued that 
a Canadian requirement to invest in local research and development, 
such as education, job training, and innovation, was too onerous. The 
supranational NAFTA panel awarded Exxon millions of dollars in damages 
and Canada was forced to revisit that law. President-elect Trump has 
argued against ISDS, noting that ``the TPP creates a new international 
commission that makes decisions the American people can't veto.'' Last 
year you joined a letter from the U.S. China Business Council and the 
Paulson Institute urging the Administration to prioritize negotiating a 
BIT with China that would include an ISDS provision. Do you still 
believe ISDS provisions should be included in our BITs or do you agree 
with the President-Elect that they represent a threat to U.S. 
sovereignty? The BIT negotiations with China have been underway since 
2008, with active participation by our State Department, with close 
monitoring by our multinational businesses. Should those negotiations 
continue?

    Answer. Should I be confirmed, I will follow the direction of the 
President
Nonproliferation--Asia

    Question. What are your views on nuclear proliferation in Asia? 
Given Trump's comments on Japan and South Korea gaining nuclear 
capabilities, how will the administration encourage or discourage 
nuclear proliferation?

    Answer. As I said in my testimony, the proliferation of nuclear 
weapons-in Asia or anywhere else-is not in America's interests.
    Since the end of World War II, U.S. strength and leadership, both 
within our alliances and through key international institutions like 
the Non-Proliferation Treaty, have been absolutely critical to limiting 
the spread of nuclear weapons.
    I fully expect that record of U.S. leadership to continue, 
especially as we confront dangerous proliferation challenges with the 
neighbors of North Korea-not to mention the nightmare scenario of 
terrorists acquiring nuclear weapons.
Nonproliferation--North Korea

    Question. North Korea remains a critical security threat. North 
Korea's leader Kim Jong Un recently said they were close to test-
launching an intercontinental ballistic missile (ICBM) which would 
allow North Korea for the first time to directly target the United 
States with nuclear weapons. Outside experts who closely monitor the 
progress of North Korea's nuclear program believe an ICBM test is a 
distinct possibility in 2017.
    If it appeared North Korea was posed to conduct a test launch of an 
ICBM would you support taking military action to prevent such a test?

    Answer. It is important that North Korea's leadership have no doubt 
that the United States is prepared to use all elements of our national 
power to prevent it from posing a nuclear threat to our homeland.

    Question. How would you adjust U.S. policy towards North Korea? 
Should the United States consider direct negotiations with North Korea 
about its nuclear program?

    Answer. The entire world is on record opposing North Korea's 
pursuit of nuclear weapons, including its most powerful regional 
neighbors: China, Russia, Japan and South Korea.
    In 2016, the U.N. Security Council came together to impose two 
rounds of extremely harsh sanctions in response to North Korea's 
nuclear tests.
    The United States should focus on strengthening the impact of that 
global consensus, including by intensifying Pyongyang's isolation and 
pressing key countries, first and foremost China, to implement fully 
its obligations under U.N. sanctions.
Nonproliferation--Russia
    Question. The United States has a variety of arms control 
agreements with Russia which seek to ensure strategic stability with 
them. For example, the New START treaty which sets limitations on the 
U.S. and Russian nuclear forces until 2021. Do you support the New 
START agreement or do you believe the United States should withdraw 
from the treaty?

    Answer. In general, and with respect to New START specifically, the 
United States should abide by our international commitments-provided, 
of course, that our partners continue to fulfill their obligations as 
well.
Nonproliferation Agreements
    Question. Are there particular arms control agreements you think 
the United States should withdraw from? What impact do you think it 
would have if the United States begins withdrawing from various 
international agreements?

    Answer. I have not been fully briefed on the universe of agreements 
that the United States is party to, but I am currently unaware of any 
from which I would recommend we withdraw.
    So long as international agreements continue to advance the 
security and values of the American people, it is very much in our 
national interest to strictly observe our commitments.
Nonproliferation--U.S.
    Question. The United States has maintained a moratorium on nuclear 
testing since 1992. There has been discussion that a Trump 
administration might reverse this policy and begin nuclear testing. Do 
you support the resumption of nuclear testing? If the United States 
conducted a nuclear test do you believe that Russia and China would 
rapidly restart their nuclear testing programs?

    Answer. I am not aware of any plan to resume nuclear testing. So 
long as the reliability of our nuclear deterrent can be guaranteed 
through other means, I think the moratorium has served us well. It 
would not serve U.S. interests to have Russia and China resume nuclear 
testing.
United Nations--U.S. Engagement
    Question. No single country can effectively address today's global 
challenges alone, whether terrorism, contagious disease, conflict, 
transnational crime, human trafficking, or any number of other 
problems. The United States benefits from the ability of the United 
Nations to coordinate international efforts against such threats, but 
the U.N. is only as effective as its member states want it to be. Some 
believe that our response to the U.N.'s weaknesses should be to cut 
funding or withdraw from certain U.N. agencies that take actions we 
disagree with. Do you believe the U.S. is better off remaining actively 
engaged in all aspects of the U.N. to influence reform efforts and 
protect our interests, or do you believe that we are better off 
reducing or withdrawing our support?

    Answer. The new Secretary General has acknowledged the need for 
vigorous management and accountability reform of the United Nations. I 
believe many U.N. reforms can be achieved by robust, long-term and 
sustained engagement. But using America's financial leverage by 
conditioning our assessed contributions can be a useful catalyst when 
these traditional efforts fail. The possibility of the United States 
withholding a portion of our dues has led the U.N. to be more receptive 
to reforms. For example, concern over potential withholding in response 
to major scandals that received the strong attention and interest of 
Congress, such as the Oil-for-Food scandal and sexual abuses by 
peacekeepers, has led the U.N. to be more willing to adopt reforms.
    In other cases, such as where U.S. law prohibits funding to the 
U.N. Scientific, Educational and Cultural Organization (UNESCO), 
withholding serves U.S. interests by opposing Palestinian efforts to 
secure recognition absent a negotiated peace with Israel With billions 
of U.S. tax dollars going to the U.N. every year, I believe we should 
continually evaluate U.S. funding to the U.N. and other international 
organizations to determine if budgets are justified or should be 
reduced or increased to advance American interests.
U.S. Policy Towards Africa
    Question. The President's 2012 Policy Directive for Africa lists 
four pillars of U.S. policy towards Africa. Chief among then: is 
strengthening democratic institutions. Another is advancing peace and 
security. Do you agree that stronger democratic institutions and 
respect for rule oflaw should remain one of the primary objectives of 
our Africa policy? What steps will you take if confirmed to support 
democracy and rule of law in the region?

    Answer. Helping countries in Africa strengthen democratic 
institutions and the rule of law should remain a primary U.S. 
objective. If confirmed, support for democracy and the rule of law will 
continue to be an important part of our diplomatic engagement with 
countries throughout the continent.
Africa--Security Challenges
    Question. Four Trans-Sahara Counterterrorism Partnership (TSCTP) 
countries Mali, Niger, Mauritania, and Burkina Faso--have experienced 
military coups or attempted coups while participating in the program. 
Mali was a significant recipient of military aid under TSCTP prior to 
its 2012 military coup. Since then, Mali's military has displayed 
severe capacity shortfalls and elements of the security forces have 
been accused of serious human rights abuses. African Union Mission 
troops in Somalia have played an essential role in helping improve 
security in Somalia. Unfortunately, some of those same troops have been 
accused of attacks on civilians, including indiscriminate killings, and 
sexual exploitation and abuse. The Nigerian military is alleged to have 
killed 350 people in Zaire in December 2015, and buried the bodies in 
mass graves to conceal evidence. The Anti-Terrorism Police Unit in 
Kenya has been accused of extrajudicial killings of youth and alleged 
terror suspects. Ethiopian forces have been implicated in killings of 
largely peaceful protesters in 2015 and 2016.
    Given persistent failure to fully respect human rights and rule of 
law by some elements within the African militaries with which we 
engage, what will you do if confirmed to ensure that we are adequately 
incorporating support for effective accountability structures and 
institutions into our security assistance programs such that the police 
and military are able to credibly investigate and prosecute allegations 
of abuse and wrongdoing?

    Answer. If confirmed, I will work to ensure that as we seek to 
advance America's vital interests in combating terrorism, we are also 
doing everything possible to prevent the abuse of U.S. assistance 
programs.

    Question. What more will you commit to do to ensure that we are 
promoting and supporting accountability for police and military abuses, 
especially those committed by units we are training?

    Answer. If confirmed, I look forward to reviewing what additional 
steps might be taken to support accountability and avoid abuses by 
militaries with whom we partner on critical counterterrorism efforts.

    Question. How does the Trump Administration view the efforts of the 
Obama Administration to build African capacity to address security 
challenges, such as in Somalia and Kenya, and in the Lake Chad Basin 
region?

    Answer. While I cannot yet speak on behalf of the Trump 
Administration, support for efforts to build partner capacity in 
Africa, particularly on counter-terrorism challenges that threaten the 
American people, is very important.

    Question. What will be the State Department's role in shaping U.S. 
military engagement in Africa? What priority and role will Counter 
Violent Extremism (CVE) programming and other medium to longer-term 
efforts play to diminish the terror threat be given under your 
leadership.

    Answer. The challenge of radical Islamic terrorism in Africa is a 
serious and growing problem. Through its diplomacy engagement, 
assistance programs, and public diplomacy efforts, the State Department 
clearly has a leading role in helping shape long-term U.S. efforts to 
counter and defeat the ideology of radical Islamic terrorism-in Africa 
and around the world.
Africa--South Sudan
    Question. The security and humanitarian situations in South Sudan 
are dire. Since the outbreak of civil war in 2013, tens of thousands 
have been killed and over two million people displaced by violence that 
continues to this day. The United Nations Security Council failed last 
month to approve an arms embargo and targeted sanctions despite the 
fact that former Secretary General Ban Ki-Moon and others have all 
warned of potential genocide. If confirmed, what immediate steps do you 
plan to take as Secretary of State to help prevent genocide in South 
Sudan? If confirmed will you appoint a new Special Envoy for Sudan and 
South Sudan as one of your first acts?

    Answer. The situation in South Sudan is one of the most pressing 
humanitarian situations in the world. It is critical to help build some 
political space for reconciliation between the government and rebel 
factions. The United States should continue to engage in international 
forums like the U.N. and bilaterally with key partners in the area to 
address this issue, and decide upon a combined policy to address this 
violence. This would include deploying robust diplomacy, possible 
sanctions, peacekeeping efforts, and other measures.
Africa--Nigeria
    Question. The 2015 Global Terrorism Index indicates that Nigeria 
witnessed the largest increase in terrorist deaths ever recorded by any 
country, increasing by over 300% to 7,512 fatalities, making the two 
Boko Haram factions collectively the deadliest terrorist group in the 
world. The humanitarian situation is worse than that in Syria, 
according to some aid groups. There is currently a Senior Coordinator 
for Countering Boko Haram at the State Department. At a hearing earlier 
this year on terrorism and instability in Africa the Chairman asked why 
terrorism in Africa does not get as much attention as it does in other 
parts of the world. Another of my colleagues suggested it was race 
related.
    What accounts for the disparity in attention between terrorism not 
only in Nigeria, but in Africa writ large, and other parts of the 
world, and what should be done to correct it? If confirmed, will you 
maintain a Coordinator for Countering Boko Haram?

    Answer. The threat of radical Islamic terrorism in Africa is 
serious and growing, and certainly deserves increased U.S. attention. 
If confirmed, I will look closely at how the State Department can most 
effectively contribute to U.S. efforts to combat the threat posed by 
Boko Haram.

    Question. What are the first actions you will take, if confirmed, 
to address the multitude of challenges terrorism, violence in the Delta 
and Middle Belt, corruption, serious human rights abuses and 
violations, and the humanitarian catastrophe in the northeast-facing 
one of the most strategically important countries to the United States 
in the region?

    Answer. I agree that Nigeria is strategically important to the 
stability and security of the entire region. If confirmed, I will work 
to strengthen and improve the effectiveness of the U.S.-Nigerian 
relationship and how we can best partner with Nigeria to fight 
terrorism, reduce violence, and support the country's security, 
stability, and development, including its human rights situation.
Africa--Ethiopia
    Question. Over the past 14 months, Ethiopian security forces have 
killed hundreds of protestors, and the government has jailed political 
opponents and harassed and imprisoned journalists. In response to 
protests, the government has imposed a state of emergency, authorizing 
detention without a warrant, blocking Internet access, prohibiting 
public gatherings, and imposing curfews. Promises of a national 
dialogue and consideration of constitutional changes have not been met. 
In the face of all that, Ethiopia remains one of our closest 
counterterrorism partners, and receives hundreds of millions of dollars 
in U.S. foreign assistance through Power Africa, Feed the Future and 
other signature aid initiatives. I've asked in hearings if the United 
States isn't sending mixed signals to our counterterrorism partners on 
issues related to respect for human rights and democracy, by not 
carefully reviewing our security assistance to countries that engage in 
actions similar to those Ethiopia has carried out to ensure we are not 
providing arms and training that is turned on civilians, including 
those advocating for democratic rights.
    Will you commit, if confirmed, to undertaking an interagency review 
our security assistance portfolio for Ethiopia and other 
counterterrorism partners on the continent to ensure the assistance and 
training we are providing is not being used against civilians 
advocating for human rights and democratic freedoms?

    Answer. If confirmed, I will engage Ethiopia to express our 
concerns about violations of human rights and our support for 
responsible governance. Ethiopia has a critical role to play in 
encouraging stability in Africa and is an important partner for the 
United States. Continued diplomatic engagement will be necessary to 
ensure that it meets those commitments and continues to contribute 
positively to the United States' goals in the region.

    Question. Will you commit, if confirmed, to deliver to Congress a 
strategy for supporting greater democracy in Ethiopia?

    Answer. If confirmed, I look forward to working closely with 
Congress to advance U.S. interests in Ethiopia and throughout Africa, 
including by supporting greater democracy and human rights.
Exxon in Africa--Equatorial Guinea
    Question. ExxonMobil has a substantial presence in Africa, 
including in countries that are among the worst dictatorships and 
kleptocracies in the world. Equatorial Guinea, which has for years been 
considered one of the world's most corrupt countries is one example. A 
2004 report found that ExxonMobil established an oil distribution 
business in Equatorial Guinea 85-percent owned by ExxonMobil and 15-
percent by Abayak S.A., a company controlled by the longtime President 
of Equatorial Guinea, President Teodoro Obiang.
    Were you aware of President Obiang's involvement in Abayak? Was 
there any hesitation at entering into such a business arrangement with 
an individual who was not democratically elected, with a reputation of 
being a kleptocrat?

    Answer. ExxonMobil began operating in Equatorial Guinea before I 
became CEO, and I was not involved in the decision to establish the 
referenced oil distribution business.

    Question. How much money did ExxonMobil pay President Obiang 
through Abayak? Did Exxon Mobile make payments to Theodora Obiang, 
eldest son of President Obiang, currently facing trial in France for 
corruption?

    Answer. I do not know the amount of any payments to Abayak. Any 
information about those payments, if they took place, is in ExxonMobil 
files to which I no longer have access. To the best of my knowledge, 
ExxonMobil did not make payments to Theodora Obiang or to his father, 
President Obiang.
    Additionally, during my tenure as Chairman and CEO, ExxonMobil 
maintained an anticorruption legal compliance guide for its employees, 
laying out company policy and legal requirements in this area.
Exxon in Africa--Nigeria
    Question. Exxon is a major player in Nigeria's oil sector. I 
understand it made a major discovery offshore that could produce 500 
million to 1 billion barrels of oil. ExxonMobil's 2009 deal to secure 
rights to Nigerian oil reserves is currently under investigation by the 
Economic and Financial Crimes Commission of Nigeria. We are told that 
ExxonMobil beat out China despite apparently underbidding its rival bid 
by $2.25 billion. Is the aforementioned accurate to the best of your 
knowledge? What details can you share with us about Exxon's bid, and 
the current investigation underway?

    Answer. To the best of my knowledge, ExxonMobil complied with all 
requirements of Nigerian law when bidding on the referenced oil mining 
licenses. Information concerning any ongoing investigation would need 
to be provided by ExxonMobil
Burma--Rohingya
    Question. As of January 9th, according to the United Nations Office 
for the Coordination of Humanitarian Affairs an estimated 65,000 people 
have fled Burma, mostly Rohingya fleeing persecution. Amnesty 
International reported and documented a campaign of violence 
perpetuated by the Burmese security forces which have indiscriminately 
fired on and killed civilians, raped women and girls, and arbitrarily 
arrested Rohingya men without any information about their whereabouts--
charges which ``may amount to crimes against humanity.'' There has also 
been a recent upsurge in violence in Shan and Kachin States, as well. 
What should our diplomatic strategy be towards promoting a peaceful, 
prosperous, and democratic Burma that respects the human rights of all 
its people regardless of ethnicity and religion, including the 
Rohingya?

    Answer. The United States must continue to engage with Burma to 
support its democratic transition. But we cannot turn a blind eye to 
reported military abuses in the country's north and west. Not only is 
the mistreatment of the Rohingya a tragedy, but it also threatens to 
radicalize a generation of young Rohingya. The United States must 
support regional and international efforts to investigate abuses and 
pressure the Burmese government and military. U.S. assistance packages 
must include aid for the Rohingya and other ethnic minorities. Further 
progress in our military-to-military relationship should depend on 
improvements in the professionalization and civilian control of the 
Burmese military. In applying this pressure, however, the United States 
should avoid isolating Burma to such a degree that it strangles its 
democratic transition and forces Burma back into overdependence on 
China.
Burma--Extractives Sector
    Question. The jade and gemstone sector has been identified as one 
of the principle drivers of conflict in Burma, including ethnic 
conflict, the narcotics trade, and corruption in that country. As 
someone who has experience in the of field of extractive industries, 
what should the United States do to support a transparent, equitable 
and sustainable jade and gemstone sector in Burma that benefits 
allsegments of the Burmese society?

    Answer. The United States can assist the Burmese government to 
build greater capacity to monitor and certify its production of jade 
and precious stones-areas in which it has made progress since beginning 
the transition to civilian control. But much of the country's jade and 
gemstone industry is based in conflict areas in the north, where 
proceeds from smuggling help fund armed ethnic groups that maintain 
close ties to China. It is therefore critical that the United States 
work with China, along with other neighboring countries and 
international organizations, to crack down on the illicit trade in jade 
and gemstones from Burma.
China
    Question. The joint communique of 1972, 1979, and 1982, under 
Presidents Nixon, Carter, and Reagan are the foundation of the U.S.-PRC 
relationship, along with the Taiwan Relations Act that guides U.S. 
policy toward Taiwan. Could you lay out your understanding of the core 
principles of these communiques and the TRA? Do you think that these 
principles remain important foundations of the relationship? Do you 
believe that the One China policy remains valid, or needs revision?

    Answer. The Three Communiques, Taiwan Relations Act, and Six 
Assurances provide the foundation for U.S. policy toward China and 
Taiwan. The United States should continue to uphold the One China 
policy and support a peaceful and mutually agreeable cross-Strait 
outcome. Under this policy, the United States recognizes the People's 
Republic of China as the sole legal government of China and 
acknowledges the Chinese position that Taiwan is part of China. As 
required by the Taiwan Relations Act, the United States continues to 
provide Taiwan with arms of a defensive character and maintains the 
capacity of the United States to resist any resort to force or other 
forms of coercion that would jeopardize the security, or the social or 
economic system, of the people of Taiwan. The United States also 
upholds the Six Assurances on U.S. policy toward Taiwan. If confirmed, 
I would continue these policies and work to ensure that the cross-
Strait military balance remains favorable to peace and stability.

    Question. Should the U.S. continue to conduct the Strategic and 
Economic Dialogue with China in its current form, or should adjustments 
be made in that mechanism?

    Answer. The Strategic and Economic Dialogue provides a valuable 
forum for U.S. and Chinese leaders to discuss issues of mutual 
interest. These discussions must, however, result in real results if 
the forum is to be a productive element of the bilateral relationship. 
If confirmed, I will work to ensure that this mechanism is effective in 
addressing areas of both cooperation and competition.
Taiwan
    Question. Are you concerned that in suggesting the One China policy 
is negotiable the President-elect may have created the impression that 
Taiwan is nothing more than a bargaining chip, and that that might 
undermine our ability to support Taiwan and protect U.S. interests in 
peace and stability in the region?

    Answer. If confirmed, I intend to support the One China policy. The 
people of Taiwan are friends of the United States and should not be 
treated as a bargaining chip. The U.S. commitment to Taiwan is both a 
legal commitment and a moral imperative. If confirmed, I would work to 
ensure economic and military stability across the Strait.
China trade
    Question. In the last few years, Chinese investment has been 
pouring into the U.S. While U.S. companies have substantial investments 
in China, they are restricted in many sectors from acquiring 
controlling interests, while China does not face comparable 
restrictions in the U.S. Would you favor requiring reciprocity on 
investments so that China will face restrictions in sectors where U.S. 
investors in China faces restrictions? Do you favor negotiation of a 
Bilateral Investment Treaty to cover such issues? If Chinese companies 
benefit from stolen intellectual property from American companies, 
should those Chinese companies be banned from trade and investment with 
the U.S.?

    Answer. The United States should adopt a whole-of-government 
approach to ensure that American workers and consumers are receiving 
the benefits of fair trade with China. Restrictions on U.S. firms and 
stealing of intellectual property pose serious threats to the U.S. 
economy. A bilateral investment treaty could help address this 
imbalance, as would additional steps to penalize companies that benefit 
from stolen intellectual property. If confirmed, I will work with the 
rest of the U.S. government to ensure fairness in U.S.-China trade.
China Human Rights
    Question. What is the most effective way for the United States to 
promote Americana values and respect for human rights in China? Will 
you try to persuade the Chinese leadership to unblock web sites of 
American media companies? Will you advocate for the rights of Tibetans 
and the people of Hong Kong? How?

    Answer. American values are a critical component of American 
interests. Standing up for human rights and democracy is not just a 
moral imperative but is in the best traditions of our country. If 
confirmed, I will support efforts to advocate for democracy and human 
rights as an integral element of our diplomatic engagement with China 
and other countries around the world.
Southeast Asia
    Question. Does the U.S. still value promoting democracy, 
particularly in countries such as Myanmar, Thailand, and the 
Philippines? What are your views on the persecution of minorities, 
ethnic or religious, in the region and elsewhere?

    Answer. Promoting U.S. values, such as the pursuit of liberal and 
democratic governance, contributes to the long-term U.S. strategy of 
strengthening the international order. Whether in allied countries such 
as the Philippines and Thailand, or new partners such as Burma and 
Vietnam, the United States must continue to ensure that U.S. values are 
upheld as a core element of U.S. foreign policy.
South China Sea
    Question. In your testimony yesterday you stated that ``China's 
island building in the SCS is an illegal taking of disputed areas 
without regard for international norms.'' If China is committing ``an 
illegal taking of disputed areas'' do you believe the United States 
should clarify its approach with regards to the different and competing 
claims of sovereignty in the South China Sea? Should it be an objective 
of U.S. policy to remove the Chinese presence from these disputed 
features, what is your strategy for doing so? How should U.S. respond 
if China ``illegally'' builds more of these features? Should a rules-
based order be central to the U.S. approach to the South China Sea? 
What should be U.S. strategy to preventing further Chinese 
militarization of the land features in the South China Sea, challenges 
to freedom of navigation, and Chinese coercion against its neighbors?

    Answer. To expand on the discussion of U.S. policy options in the 
South China Sea, the United States seeks peaceful resolution of 
disputes and does not take a position on overlapping sovereignty 
claims, but the United States also does not recognize China's excessive 
claims to the waters and airspace of the South China Sea. China cannot 
be allowed to use its artificial islands to coerce its neighbors or 
limit freedom of navigation or overflight in the South China Sea. The 
United States will uphold freedom of navigation and overflight by 
continuing to fly, sail, and operate wherever international law allows. 
If a contingency occurs, the United States and its allies and partners 
must be capable of limiting China's access to and use of its artificial 
islands to pose a threat to the United States or its allies and 
partners. The United States must be willing to accept risk if it is to 
deter further destabilizing actions and reassure allies and partners 
that the United States will stand with them in upholding international 
rules and norms. If confirmed, I would look forward to working with 
interagency partners to develop a whole-of-government approach to deter 
further Chinese coercion and land reclamation as well as challenges to 
freedom of navigation or overflight in the South China Sea.
North Korea
    Question. What is your diplomatic strategy in regard to North 
Korea? What role do the current sanctions play? Do you believe that 
additional sanctions, including secondary sanctions, are needed?

  <diamond> Will you offer bilateral talks or do you support 
        reinvigorating the Six-Party Talks framework? Specifically, do 
        you favor a path of increased pressure and sanctions or do you 
        also see a role, in the right sequence, for diplomatic 
        engagement?
  <diamond> Do you think we can work cooperatively with China, and 
        Russia, on North Korea? Do you believe that we should be 
        sanctioning Chinese and Russian companies that do business with 
        North Korea?
  <diamond> Recent policy has been to not allow daylight between the 
        United States and South Korea on North Korea policy. Will that 
        continue in the Trump Administration? If the next South Korean 
        government seeks a new approach to North Korea, what would your 
        approach be?
  <diamond> Is there a ``red line'' for the North Korean nuclear 
        weapons program or missile program that would trigger a U.S. 
        action? How do you propose to effectively and credibly convey a 
        red line to North Korea?
  <diamond> What are your views on the nuclear and missile threats 
        posed by North Korea? Do you see Pyongyang's developments as 
        posing a direct threat to the United States? How do you believe 
        these threats will change over the course of the 
        administration? Would you support policies that aim to isolate 
        North Korea and halt these programs?
  <diamond> What role should U.S. allies play in the administration's 
        approach to North Korea? To what extent does your approach 
        require coordination with South Korea and Japan?
  <diamond> What strategy does the Administration intend to deploy to 
        deal with human rights abuses in the DPRK?

    Answer. North Korea is one of the leading threats to regional and 
global security. If confirmed, I will work closely with my interagency 
colleagues to develop a new approach to proactively address the 
multitude of threats that North Korea poses to its neighbors and the 
international community. Foremost among these challenges are North 
Korea's continuing pursuit of nuclear weapons and the ballistic 
missiles to launch them (which pose a direct threat to the United 
States), the human rights tragedy resulting from the regime's 
repressive system, the continuation of illicit activity that spreads 
instability, and the risk of a humanitarian crisis that could engulf 
the Korean Peninsula. These challenges will continue to worsen if a new 
strategy is not adopted. In preparing a new strategy to address these 
concerns, the United States should keep all options on the table, from 
the threat of military force to the willingness to remain open to 
diplomacy. In particular, the threat or use of sanctions, including 
secondary sanctions, may be necessary to force North Korean leaders, 
and those that support them, to reassess the costs or benefits of 
continuing current policies. Key to this strategy is working closely 
with U.S. allies and partners, particularly South Korea and Japan, to 
ensure close coordination and execution of this strategy. In addition, 
the United States should look to work with China and Russia to the 
greatest extent possible in order to increase pressure on North Korea. 
Only by forcing North Korea to reconsider its dangerous path can the 
United States and its allies and partners ensure that the regime does 
not further undermine regional and global security.
East Asia Allies
    Question. If a ``fair'' burden-sharing agreement cannot be reached 
with Japan or the Republic of Korea would you be willing to withdraw 
U.S. forces?

    Answer. Japan and South Korea already contribute large amounts to 
support U.S. forces in their respective countries and I am optimistic 
that future discussions will continue to be productive and result in 
equitable burden-sharing arrangements. Our shared alliances form the 
foundation for security in Northeast Asia and beyond, so we must 
strengthen and modernize these alliances to manage growing regional and 
global challenges.
Thailand
    Question. What are your plans for how will you manage U.S. 
relations with Thailand?

    Answer. If confirmed, I will continue to pursue ways to strengthen 
our long-standing alliance with Thailand while clearly communicating 
that the United States will hold the military government to their 
commitment to return to civilian rule later this year. In the long 
term, the U.S. relationship with Thailand will be strengthened, not 
weakened, by demonstrating that we recognize and support the Thai 
people's demand for democracy and human rights.
Multilateral Institutions in Asia
    Question. What role do you foresee for U.S. multilateral 
organizations such as the East Asia Summit or other forums in Asia? 
What can the United States do to support the emergence of a functional 
problem-solving ASEAN central to the future of the Asia-Pacific region? 
What is the administration's view on the importance of participating in 
regional forums such as ARF, EAS, and APEC? Do you have any concerns 
that lack of high level participation will allow the Chinese to fill an 
American vacuum and undermine our interests in the region?

    Answer. Multilateral institutions provide vital forums for Asian-
Pacific nations, including the United States, to cooperate in pursuit 
of shared interests and negotiate peaceful solutions when interests 
conflict Active U.S. engagement in multilateral institutions, including 
the ASEAN Regional Forum, East Asia Summit, and Asia Pacific Economic 
Cooperation, is critical to support regional states and prevent a power 
vacuum that could call into question regional security and prosperity. 
Therefore, if I am confirmed, I will ensure that attendance at 
multilateral meetings continues to be seen as a priority in the State 
Department
Russia/Asia
    Question. What challenges are presented by Russia's apparent 
determination to play a larger role in Asia, particularly a more active 
military role?

    Answer. Russia has become more active in Asia in recent years, 
including increasing the number and extent of its operations and 
exercises around U.S. allies, U.S. forces, and even U.S. territory. One 
concern is that Russian military pressure is adding to the already 
substantial burden of U.S. allies, such as Japan, that already face 
mounting challenges from China. The United States should work with its 
allies and partners to show solidarity against Russian military 
incursions and to encourage Russia to play a positive and productive 
role in Asia, including through the Six Party Talks.
Exxon in Asia--Indonesia

    Question. A federal court has found sufficient evidence that Exxon 
Mobil is responsible for human rights abuses by security forces on its 
Indonesia operations and, on that basis, has allowed the case to 
proceed to trial despite strenuous efforts by Exxon to prevent this. 
The human rights abuses detailed in the case include killings and 
torture-- shootings, beatings, kidnapping, sexual assault, electric 
shocks to genitals, destruction of homes and property. Evidence from a 
federal lawsuit indicates that high-level Exxon Mobil executives knew 
about serious human rights abuses by Exxon's security forces in 
Indonesia and received frequent detailed reports on ``deployment 
goals'' and ``operational strategy'' of military security personnel and 
``set standards, plans, and tasks'' for security in Asia. Many of the 
documents in the case remain sealed at Exxon's request.
    Prior to your confirmation, in order to provide clarity regarding 
the role of Exxon in these abuses and your own role, including in 
response to reports of abuses, will you ask Exxon to publicly release 
the documents from the case?

    Answer. I do not believe it would be appropriate for me to make 
such a special request of ExxonMobil given my status as nominee for 
Secretary of State. Nor do I have any reason to believe the company 
would alter its long-term litigation strategy at my request, as I am no 
longer an officer or director of ExxonMobil
    While conducting its business in Indonesia, ExxonMobil has worked 
for generations to improve the quality of life in Ace through 
employment of local workers, provision of health services, and 
extensive community investment. During my tenure as Chairman and CEO, 
ExxonMobil strongly condemned human rights violations in any form.

    Question. Will you release documents that indicate your knowledge 
or participation in deliberations about human rights violations and 
security forces in Exxon's Ace operations?

    Answer. To the best of my knowledge, there are no such documents.

    Question. While a highly-placed Exxon executive, did you met with 
Indonesian officials on behalf of Exxon and discuss such abuses?

    Answer. No, to the best of my knowledge.

    Question. What did you do to stop the abuses?

    Answer. The allegations in the referenced lawsuit predate my tenure 
as Chairman and CEO of ExxonMobil, and I was not employed in a capacity 
that would have given me any responsibility over the Indonesian 
production facilities during the relevant time period.
    During my tenure as Chairman and CEO, ExxonMobil vigorously 
contested the abuse allegations-and my understanding is that it 
continues to do so. Additionally, under my leadership, ExxonMobil 
enhanced nearly all of its private security personnel contracts to 
include provisions addressing human rights concerns.

    Question. Why didn't the abuses stop?

    Answer. The allegations in the referenced lawsuit predate my tenure 
as Chairman and CEO of ExxonMobil, and I was not employed in a capacity 
that would have given me any responsibility over the Indonesian 
production facilities during the relevant time period.
    During my tenure as Chairman and CEO, ExxonMobil vigorously 
contested the abuse allegations-and my understanding is that it 
continues to do so. Additionally, under my leadership, ExxonMobil 
enhanced nearly all of its private security personnel contracts to 
include provisions addressing human rights concerns.

    Question. Is Exxon still providing financial support for the 
Indonesian military or other Indonesian armed forces?

    Answer. As I am no longer with the company, I cannot comment on its 
current business practices in Indonesia.

    Question. Do you believe that this case deserves a full hearing in 
U.S. courts?

    Answer. As expressed during my testimony, I am a strong believer in 
the rule of law. It is ultimately the responsibility of the federal 
courts to determine whether a trial is warranted.

    Question. A full and fair hearing will require that the Indonesian 
plaintiffs appear in person to testify in U.S. court. If confirmed, 
will you commit to supporting the Indonesian plaintiff's efforts to 
obtain visas to be able travel to the U.S. to testify?

    Answer. If confirmed, I will consult with responsible ethics 
advisors to determine whether any such support would be permissible, or 
if this would be a matter warranting my recusal
Afghanistan
    Question. The U.S. maintains about 10,000 troops in Afghanistan and 
provide billions in security and development assistance. How do you see 
U.S. interests in Afghanistan? Do you think that the U.S. should pursue 
a peace deal with militant groups in the country?

    Answer. Afghanistan is the longest war in American history. Today, 
the United States should engage the government of Afghanistan President 
Ashraf Ghani and CEO Abdullah Abdullah to increase stability, reduce 
corruption, ensure a better standard of living for Afghans, 
particularly women and girls, and ensure that Afghanistan is never 
again used as a base for international terrorism. The United States 
should also engage with Islamabad to strengthen the civilian government 
and eliminate the safe havens that terrorist groups like the Haqqani 
network enjoy. The United States should work with both Afghanistan and 
Pakistan to encourage cooperation, build trust, and seek to ensure 
regional stability, including peace in Afghanistan, in a context of 
mutual respect and appreciation of each country' interests.
Pakistan
    Question. The U.S. has provided billions in security assistance to 
Pakistan since 9/11 but the country's intelligence services continue to 
support terrorist groups. What are our interests with respect to 
Pakistan? How would you change the U.S. approach to Pakistan in order 
to ensure enhanced pressure on militant groups?

    Answer. The United States has an interest in a democratic Pakistan 
that respects human rights and contributes to regional stability, 
including the security of its nuclear arsenal The United States should 
engage with Islamabad to strengthen the civilian government and 
eliminate the safe havens that terrorist groups like the Haqqani 
network enjoy. If confirmed, I will also work with the Department of 
Defense to encourage the military to take steps against those actors 
involved with providing assistance to such organizations, which remains 
a serious threat to Americans, Afghans, and Pakistanis alike.
India
    Question. We have a very robust and growing relationship with 
India, which I support, but there are many irritants remain regarding 
values including India's dismal record on bonded labor and religious 
freedom. How would address these issues as Secretary of State?

    Answer. India is an important partner for the United States. It is 
the world's most populous democracy, and one which is playing an 
increasingly important role in the region and throughout the world.
    However, certain areas of India's behavior remain concerning. If 
confirmed, I will engage India to express our concern on issues like 
infringements of religious freedom to encourage the government to take 
positive action.
Central Asia
    Question. The countries of Central Asia continue to have 
challenging human rights records. I have advocated for the release of 
political prisoners across the region directly to these governments and 
through the State Department. Do I have your commitment to raise cases 
of political prisoners with leadership in the five Central Asian 
republics?

    Answer. If confirmed as Secretary, I will engage the states of 
Central Asia to advocate for the release of political prisoners and 
ensure improvements in human rights and responsible governance. The 
U.S. maintains bilateral relationships with each of the nations in 
Central Asia that encompass multiple facets including security, human 
rights, energy, and other issues. The status of political prisoners 
should be part of the regular discussions the United States holds with 
these nations, so they are aware of our concern over the issue and are 
encouraged to take positive action in response.
Rosneft
    Question.  Rosneft, currently under sanctions, now holds the 
mortgage on CITGO's U.S. holdings. You have extensive experience with 
the Russian state-owned oil industry. Do you believe that Rosneft 
should be permitted to own critical U.S. energy infrastructure such as 
CITGO's refineries and pipelines?

    Answer. I would need to be fully briefed on the details of this 
case, but in general I am very supportive of the process by which the 
U.S. government seeks to prevent our adversaries--or even potential 
adversaries--from controlling critical U.S. infrastructure that would 
leave the American people more vulnerable.
Yukos
    Question. In 2011, while you were CEO, ExxonMobil signed a $3.2 
billion investment deal with Rosneft, the Russian state-owned oil 
company that had, a few years earlier, taken over the assets of the 
Yukos oil company, which was effectively expropriated by the Russian 
government and whose CEO, Mikhail Khodorkovsky, spent more than ten 
years in prison on what was widely recognized as politically motivated 
charges. It is estimated that more than 20,000 individual U.S. 
investors, public pension funds, as well as more than seventy private 
investment funds lost their investments in Yukos. As Secretary of 
State, would you commit to helping them receive a fair compensation 
from the Russian government?

    Answer. My understanding is these have been/are being litigated in 
the appropriate courts. I do not know the status of specific claims, 
but the United States should and will always support the rule of law.
Cyprus
    Question. Cyprus is a reliable strategic partner of the United 
States in the volatile region of the Eastern Mediterranean. How will 
the new U.S. Administration further develop the bilateral ties between 
the United States and the Republic of Cyprus, and how will it support 
the ongoing reunification negotiations and that a reunified federal 
Cyprus will be able to pursue its own independent and sovereign foreign 
policy, as a Member State of the European Union?

    Answer. Strong bilateral ties with the Republic of Cyprus will help 
ensure future stability and prosperlty in the region. A long-term 
solution for Cyprus is important for U.S. interests in the region. The 
United States should continue to support the efforts of the Greek and 
Turkish Cypriot leaders to achieve a just resolution that is consistent 
with U.N. resolutions and heals the island's divisions. If confirmed, I 
look forward to working closely with the U.N. and other key actors to 
support a solution.
Romania--Security Relationship
    Question. Romania joined NATO in 2004. The Romanian military served 
in both Afghanistan and Iraq and were among the last allied forces to 
withdraw from Iraq. Mihail Kogainiceanu (MK) airbase in southern 
Romania is one of the primary transit points for American troops and 
equipment entering and exiting Afghanistan. At any given moment, there 
are hundreds of U.S. troops in transit through Romania. Do you continue 
to recognize this unique contribution of Romanians in both Afghanistan 
and Iraq, and will it be the position of the United States to ask 
Romania to continue to perform this critical role, including the 
mission at MK airbase?

    Answer. I recognize the many valuable contributions that Romania 
has made and continues to make to our common security, including the 
important role of the M.K. Air Base. I look forward to working closely 
with the government of Romania to meet future challenges to our common 
security if confirmed.
Romania--NATO & Missiles Defense in Deveselu
    Question. In 2010 Romania's president agreed to host the Aegis 
Ashore missile defense system for NATO. The primary purpose of the 
system is to protect Romania and NATO's southern flank from ballistic 
missiles launched from Iran. In the period since the system was 
proposed, the Russian government, with varying degrees of intensity, 
has opposed the plan-claiming that it would somehow erode the Russian 
nuclear deterrent. Romanian President Klaus Johannis stated in May 
that, when the missiles become operational and the Russians protested 
that the Russians were overreacting and that the system was not 
directed at Russia and added, ``NATO needs to be prepared to respond to 
incidents coming from other areas outside the trans-Atlantic space . . 
. The system is not against any state, having a strictly defensive 
role.'' Will it continue to be the position of the United States to 
support this system?

    Answer. Iran poses a serious threat to the security of the United 
States and our European allies. It is critical to have the right 
defensive capabilities in place, and I value the role that Romania is 
playing as host of the Aegis Ashore missile defense system. If 
confirmed, I will support our continued commitment to having the right 
defense systems in place to defend Romania and our other NATO allies.
Romania and the Rule of Law
    Question. Over the past 25 years, U.S. engagement with Romania at 
the highest levels has consistently emphasized the importance of rule 
of law, transparency and anticorruption in providing stability for the 
country's political system and predictability for its markets. As 
Republican and Democratic presidents, vice presidents, secretaries of 
state and other cabinet ministers have emphasized, this is important 
for insuring the continuity of Romanian democracy, undergirding the 
country as a strategic ally and making Romania a more attractive 
destination for U.S. investment. Do you agree that anticorruption and 
rule of law should continue to be a pillar of our relationship and a 
high priority for the Romanian government?

    Answer. Romania is an important ally, and I fully agree that anti-
corruption and rule of law should continue to underpin our 
relationship. I look forward to working with the Romanian government on 
these issues if confirmed.
Israel--Two State Solution
    Question. Since 1967, successive U.S. administrations have promoted 
a negotiated two-state solution between Israelis and Palestinians with 
both sides living side-by-side in peace and security. Do you believe 
that supporting the two-state solution should still be U.S. policy?

    Answer. Yes.
Israel--MOU
    Question. In September, the United States concluded a new 10-year 
Memorandum of Understanding (MOU) with Israel for military aid. Do you 
support the funding levels agreed to by the United States and Israel? 
In the new U.S.-Israel MOU, the two governments agreed to phase out Off 
Shore Procurement (OSP), a benefit by which Israel was permitted to 
spend 26.3% of U.S. foreign military financing (FMF) on Israel's 
defense industry, rather than the United States. If confirmed as 
Secretary of State, to you intend to continue the agreed-upon plan to 
phase out of OSP for Israel?

    Answer. I am deeply committed to Israel's security and to our 
bilateral relationship. Israel is America's closest ally in the Middle 
East, and a key bastion of democracy. If confirmed, I intend to engage 
Israel to deepen this relationship and ensure Israel has the means to 
defend itself. I will discuss with my Israeli partners the key 
components of Israeli security, and ensure that both American and 
Israeli key interests are met
Israel--UNSCR 2334
    Question. In December, the U.N. Security Council passed Resolution 
2334, which I believe is a biased resolution that unfairly targets 
Israel and makes restarting direct negotiations for a two-state 
solution more difficult. In your view, how can other governments and 
the Palestinians use Resolution 2334 to further isolate Israel or 
promote unilateral Palestinian action through international 
organizations? If confirmed as Secretary of State, what steps do you 
plan to take to mitigate the negative implications of 2334?

    Answer. If I am confirmed, I will ensure that Israel will be able 
to count on the United States for political and diplomatic support, 
particularly in international forums. The United States should not 
allow Israel to be singled out by international bodies for special 
censure. Doing so only increases Israel's insecurity, and damages its 
standing in the world. The U.N. resolution that was passed is 
particularly troubling because in many ways it could be interpreted as 
undermining the legitimacy of Israel as well as the peace process.
Israel--UN Database
    Question. The U.N. Human Rights Council is preparing a database of 
companies in the West Bank and East Jerusalem. This is possibly the 
first step in preparing sanctions against these companies. What can the 
U.S. do to limit the input of this dangerous exercise?

    Answer. The passage of UNSCR 2334 was damaging for many reasons, 
but in particular because it subjects Israel to potential litigation, 
delegitimization efforts, and penalties in other international arenas. 
The United States should robustly engage in these forums to ensure that 
Israel is protected. It should also engage member governments on a 
bilateral basis to make them aware of our concern over these efforts 
and seek their support for our policy in defense of Israel
Egypt--Assistance
    Question. Egypt is the second largest recipient of U.S. assistance, 
both military and economic. I am committed to a healthy U.S.-Egypt 
partnership, but have concerns about anti-American rhetoric in state-
sponsored media, backsliding on Egypt's political reform agenda, and 
the Egyptian government's blocking of U.S. assistance programs. Do you 
support current conditions on U.S. aid to Egypt, including the 
maintenance of the Egypt-Israel Peace Treaty? What about conditions 
based on political and human rights reforms? Do you believe that the 
Egyptian government 1s capable of stopping anti-American rhetoric in 
state-sponsored media?

    Answer. Egypt is one of the United States' most important partners 
in the region. The United States should engage Egypt to express its 
concern over human rights issues in the country, as well as anti-
American messages in the media. Our aid should always aim to reflect 
our values. Egypt has an important role to play regionally, as a leader 
in the Arab world, in the peace process, and in the region. Foreign 
assistance to Egypt, including security assistance, is an important 
part of our relationship, and critical to Egypt's ability to both 
contribute to U.S. national security goals and to improve the lives of 
Egyptians.
Egypt--CFF
    Question. The Obama Administration announced in April 2015 that it 
would end Cash Flow Financing (CFF), a financial mechanism that enables 
foreign governments to pay for U.S. defense equipment using U.S. 
funding in partial installments. The Egyptian Government has indicated 
that it will formally ask the Trump Administration to restart CFF for 
Egypt. In your view, is CFF in the U.S. national security interest?

    Answer. The United States should work to help Egypt achieve the 
necessary means to defend itself and contribute to stability in the 
region. I will engage Cairo to determine the capabilities it needs, and 
how the United States can best meet those needs when they are in 
concert with our own national interests. Economic prosperity is 
certainly one of those interests; I will closely examine how Egypt 
spends its foreign assistance to ensure both of our key goals are being 
met.
Lebanon--New Government
    Question. After nearly three years of political paralysis and the 
deterioration of public services, I was pleased by the election of a 
President, appointment sofa Prime Minister, and the fairly rapid 
formation of the new government. However, the Lebanese Ministerial 
Statement affirmed the right of ``armed resistance'' and of 
``liberation'' outside the authority of the state, allowing non-state 
actors to remain armed and to make war and peace decisions on behalf f 
the state and the nation. In your view, what should the U.S. policy 
approach be to the new Lebanese government? Does Lebanon's stability 
and security matter for U.S. national security? What U.S. actions or 
policies would be destabilizing for Lebanon?

    Answer. The United States should engage Lebanon to ensure its 
stability, contribute to regional stability, and take action against 
terrorist groups. Careful diplomatic attention must be paid as the 
government of Lebanon attempts to balance all of its domestic factions 
in the context of a regionalized civil war. If confirmed as Secretary, 
I would work through regional and international mechanisms to 
contribute to political stability in Lebanon, the sustainment of 
Lebanese human rights, and the disarmament of Hezbollah, consistent 
with U.N. Security Council resolutions.
Hezbollah
    Question. Hezbollah continues to amass thousands of rockets on 
Israel's border and regularly calls for Israel's destruction. It has 
also become highly engaged in the Syrian civil war playing a central 
role in supporting Bashar al Assad. None of this would be possible 
without the support and weapons Hezbollah receives from Iran and which 
go through Syria. Yet President-Elect Trump has argued that in Syria we 
should negotiate an agreement with Russia and possibly coordinate with 
Assad to fight ISIL. In your view, why does Iran continue to transfer 
sophisticated weapons to Hezbollah? Does Iran need a compliant 
government in Damascus in order to continue transferring weapons to 
Hezbollah? Is it possible to negotiate an agreement with Russia to end 
the civil war in Syria, that also halts Iran's use of Syria as a 
strategic corridor to Hezbollah in Lebanon?

    Answer. The threat of the Islamic Republic of Iran is one of the 
gravest national security challenges faced by the United States. 
Hezbollah is a key ally in Iran's effort to expand its control over the 
region. The Syrian government is another key ally of Iran; it provides 
critical support for Iran's transfer of military hardware, personnel, 
and supplies to Hezhollah. If confirmed, one of my top priorities will 
he to craft a political settlement for Syria that does not permit the 
territory of Syria to be grounds for international terrorism that might 
reach the American homeland or that of America's allies. The United 
States should also engage Iran's regional rivals to emphasize the need 
to halt advanced Iranian weapons and other strategic support from 
reaching Hezbollah.
Saudi Arabia--Yemen
    Question. It is my view that the threats facing Saudi Arabia from 
Houthi rebels and associated forces constitute legitimate security 
threats. Since April 2015, the Houthis and their allies have conducted 
cross-border raids and launched missiles into Saudi Arabia, and 
currently occupy Saudi national territory. Many of these missiles have 
fallen in civilian areas, and the Houthi-aligned forces now boast that 
their long-range missiles could reach Mecca. At least 500 civilians are 
estimated to have been killed inside Saudi territory due to these 
attacks; hundreds of homes, schools, and other civilian structures have 
been closed. In your view, is there more that the United States could 
do to support Saudi border defense?

    Answer. The conflict in Yemen is deeply concerning to the United 
States for humanitarian and strategic reasons. Iran is supporting the 
Shia Houthi forces as part of a drive to extend its influence over 
broad swaths of the Middle East. Taking advantage of the ensuing civil 
war and collapse of the internationally-recognized government's 
authority, al-Qaeda and ISIS affiliates have taken control of territory 
elsewhere in Yemen. The United States should engage with Saudi Arabia 
and its other allies in the region to reduce the humanitarian toll of 
this conflict, mediate a solution that ensures stability, and prevent 
terrorists from targeting the American homeland. As part of that 
engagement, the United States should assist Saudi Arabia in securing 
its border against terrorism and attacks from Houthi forces.
Saudi Arabia--Arms Race
    Question. According to the Congressional Research Service, Saudi 
Arabia concluded over $93 Billion in arms sales agreements from 2008 to 
2015. Most of these weapons purchases were from the United States for 
sophisticated lethal military systems such as advanced aircraft, 
precision-guided munitions, tanks, attack helicopters, and advanced 
command, communication and control systems. Yet despite this extensive 
arms sale relationship and years of U.S. military training, exercises, 
and education, Saudi military forces have not been able to 
significantly shift the battlefield dynamic in Yemen where they have 
formed a coalition to back the internationally recognized government of 
Yemeni President Hadi and push back against aggression by Houthi rebels 
and forces aligned with former President Saleh. Meanwhile, the Saudi-
led Coalition's air strikes and ground operations have contributed to 
unprecedented suffering in Yemen, and many airstrikes--whether 
deliberate or accidental--have resulted in the deaths of Yemeni 
civilians and destruction of civilian infrastructure.


  <diamond> Should the United States continue to sell sophisticated 
        weapons systems to Saudi Arabia?
  <diamond> Do you believe that the United States is culpable or 
        complicit in civilian deaths or destruction of civilian 
        infrastructure in Yemen because of its arms sales to Saudi 
        Arabia?
  <diamond> Are there specific kinds of weapons that you do not support 
        selling to Saudi Arabia? Do you support the sale of precision-
        guided munitions? If yes, should these sales be conditioned on 
        Saudi military conduct?
  <diamond> What are the risks to U.S. national sec1.1rity if the 
        United States stops selling arms to Saudi Arabia?
  <diamond> While I believe that Israel continues to have a 
        ``Qualitative Military Edge'' over its Arab neighbors, I also 
        believe that advantage is shrinking, especially as we continue 
        to sell more advanced weapon systems to the Gulf States. Israel 
        is also concerned about its neighbors acquiring a significant 
        ``quantitative military edge,'' in which raw numbers of 
        somewhat less advanced militaries could still too considerable 
        harm to Israel's security. How will you respond to these two 
        concerns by our closest partner in the Middle East?

    Answer. The relationship between Saudi Arabia and the United States 
is one of the key elements of stability in the Middle East. Saudi 
Arabia currently feels itself besieged by a hostile and revolutionary 
Iran: on its borders in Yemen; in Syria; in Bahrain; and 
internationally through the JCPOA. Iranian domination of the Middle 
East will not benefit either Washington or Riyadh. The United States 
should reassure Saudi Arabia that it will remain engaged to secure the 
stability of the Middle East. This includes a strong relationship with 
Israel, one of our closest allies in the region, and a commitment that 
the United States will never allow Israeli security to be imperiled. If 
confirmed, I will engage Israel closely, in conjunction with the 
Department of Defense, to ensure Israel's Qualitative Military Edge is 
never threatened by its neighbors. While ensuring the security of 
Israel and our other allies in the region, the United States should 
also, always, work to avoid civilian casualties in its own operations 
and those of its partners.
Syria--War Crimes
    Question. In your opening statement, you said that Syrian forces 
have brutally violated the laws of war. Is this is the same as war 
crimes? Which entities, both government and nongovernment, operating in 
Syria over the past year are guilty of war crimes? Your opening remarks 
also point out that Russia has supported Syrian forces in these 
violations of the laws of war. Do you also believe that Russia is 
guilty of war crimes in Syria? If confirmed as Secretary of State, do 
you commit to including war crimes accountability as a key element of 
any political agreement to end the civil war in Syria?

    Answer. It is highly likely that war crimes have been committed, 
perhaps by multiple combatants, during the course of the Syrian civil 
war. Russian, Iranian, and Syrian forces have conducted operations that 
have killed many civilians. If confirmed, I will seek all necessary 
information, including critical classified information, to ensure that 
the United States not only alleviates humanitarian suffering in Syria 
but works to hold those parties culpable of war crimes accountable, 
within the context of a stable political solution to the conflict.
Syria--Russia
    Question. President-elect Trump has suggested that the United 
States can work with Russia on counterterrorism in Syria, and Bashar 
al-Assad said that President-elect Trump can be a ``natural ally'' in 
the counterterrorism fight. First, however, there must be agreement on 
what groups are terrorists. If confirmed, what definition of terrorism 
will you use in your discussions on Syria, and what will you do if 
there is disagreement with your Russian counterparts on this 
definition? Do you believe that Russia and Assad are targeting 
terrorists that meet the U.S. definition of terrorism, in Syria? Is it 
your assessment that the majority of Russian and Assad regime air 
strikes have targeted terrorists?

    Answer. ISIS presents a critical national security threat to the 
United States, Russia, and many other countries. Russia needs to do 
more to target ISIS and we should reject conflating ISIS with 
opposition groups with legitimate political grievances with the Assad. 
If confirmed, this will be a critical point of discussion in any 
engagement of the Russian government
Syria--Iran
    Question. Iran is helping Assad just as much as Russia. Some of the 
most effective forces coming to aid Assad's strained forces are the 
Iranian Revolutionary Guards and LebaneseHezbollah. How can the United 
States seek an agreement on Syria with Russia that doesn't also support 
Iran's position?

    Answer. The United States will engage Russia robustly to negotiate 
a political settlement to the Syrian civil war. There are areas of the 
Syrian conflict in which we share an interest with Russia, such as 
ensuring regional stability and preventing Syria from being used as a 
launching pad for international terrorism. At the same time, the United 
States needs to emphasize to Russia the negative role Iran often plays 
in meeting these goals and the destabilizing influence it can have on 
Syria and throughout the Middle East If confirmed, I would work closely 
with our allies in the region to ensure that any political settlement 
in Syria does not place their security in jeopardy, nor leave Iran in a 
dominating position.
ISIL--Counter-ISIL Campaign
    Question. Please provide a summary of your understanding of the 
main lines of effort of the U.S.-led Global Coalition to Counter ISIL. 
Have these lines of effort been effective in shrinking the territory 
held by ISIL in Iraq and Syria? In your view, is U.S. leadership 
necessary to global efforts to counter ISIL? Why? If confirmed, will 
you recommend that the U.S. Government retain these lines of effort as 
its strategic approach to countering ISIL? What are the specific 
recommendations you intend to offer for strengthening the U.S.-led 
Global Coalition to Counter ISIL?

    Answer. Coordinated military action by the United States and its 
allies has indeed helped to erode the physical size of the territory 
held by ISIS in Iraq and Syria. To date, however, the bulk of the 
existing strategy remains unimplemented. With the notable exception of 
U.S. government efforts to disrupt the organization's finances, very 
little has been done to fully address the complexity of the threat 
posed by ISIS.
    In my view, much of the approach begun by the Obama administration 
has continuing relevance. However, U.S. government efforts have so far 
suffered from a lack of leadership and resources necessary to lead to 
lasting success. One of my top priorities as Secretary will be to 
engage with the Global Coalition and determine which strategies hold 
the greatest promise for future success, particularly in the realm of 
countering the IS/S's corrosive ideology.
ISIL--War of Ideas and CVE
    Question. In your opening statement you state that defeating ISIL 
will not occur on the battlefield along, but that ``we must win the war 
of ideas.'' You go on to state, ``If confirmed, I will ensure the State 
Department does its part in supporting Muslims around the world who 
reject radical Islam in all its forms.''
    How do you define radical Islam?

    Answer. Radical Islam is a political manifestation of the Islamic 
faith, one that does not value human life and is deeply antagonistic to 
democratic values and institutions and which seeks to replace them with 
strict Islamic governance on a local, regional, and ultimately a global 
level

    Question. Do you anticipate that the people, organizations, and 
governments that you seek to work with share this definition?

    Answer. While it is impossible to expect all our partners to share 
our view of the threat posed by radical Islam, the Global Coalition to 
counter ISIS is proof that it is possible, at the very least, to build 
a broad, united front against the most extreme manifestations of this 
phenomenon.

    Question. Under your leadership, where would State's efforts to 
counter terrorism and violent extremism sit within the broader policy 
framework?

    Answer. Quite simply, America cannot ``go it alone'' in the fight 
against radical Islam. Because of the scope of this struggle, it is 
imperative that the United States secure international support and 
assistance for its efforts. The Department has a critical role to play 
in engaging global partners, and in helping to shape the ideological 
counter-narrative to radical Islamic thought.

    Question. How would you prioritize them compared to other critical 
issues such as injustice, autocratic governance, refugees, political 
violence, humanitarian crisis and violent conflict?

    Answer. While certainly not the only challenge facing the United 
States, it is my view that the struggle against radical Islam 
represents one of the top national security and foreign policy 
priorities of our government.

    Question. How would you define our objectives regarding countering 
terrorism and violent extremism?

    Answer. In the near term, the United States must eliminate the 
ability of radical groups such as ISIS to threaten the U.S. homeland, 
and reduce the threat they pose to American interests and American 
allies abroad. In the longer term, we should work to discredit and 
marginalize the most extreme interpretations of the Islamic faith, 
while simultaneously empowering moderate versions of the same.

    Question. Can they be achieved with current means and methods, and 
what role does the State Department specifically play in achieving 
them?

    Answer. The terrorism challenge confronting the United States is 
one that is far broader than ISIS alone. It encompasses the rise of 
other militant groups, the growing global popularity of extreme 
Islamist thought, and the mass mobilization of Islamic radicals in the 
Middle East and beyond. In order to adequately address these and other 
threats, the U.S. government must be prepared to engage in long-term 
conflict. It must also formulate a counterterrorism strategy that is as 
complex, as adaptive, and as wide-ranging as the forces that it seeks 
to confront and defeat. So far, it has not.
    The role of the State Department in this effort is a critical one, 
involving both outreach to coalition partners and engagement with the 
Muslim world, with the goal of discrediting the radical Islamist 
message.

    Question. Please provide three examples of new initiatives that you 
will promote at the State Department to support Muslims in countering 
violent extremism?

    Answer. Today, the private sector is the site of significant 
innovation in countering violent extremism, with organizations such as 
Jigsaw creating new technologies and methods by which to steer 
vulnerable individuals away from radicalism. As Secretary, I would 
encourage greater governmental investments in these private sector 
enterprises as a way of amplifying their effectiveness and reach.
    Likewise, I would expand the scope and authorities of the Global 
Engagement Center, or whatever entity replaces it, in order to more 
effectively counter not only the ideology of ISIS, but that of other 
extreme groups as well (including radical Shi'ite movements and 
actors).
    Finally, I would oversee a significant reorganization and fusion of 
the existing public diplomacy functions currently located in various 
parts of the bureaucracy, as a way of helping the State Department to 
more effectively lead the ``war of ideas'' against radical Islam.

    Question. Please provide three examples of ongoing State Department 
initiatives that positively contribute to countering violent extremism 
and that you would seek to retain if confirmed?

    Answer. Over the past year, the State Department has experienced 
significant success, with social media companies such as Facebook and 
Twitter, in limiting the ability of extremists to occupy and exploit 
the social media space. Likewise, the U.S. government effort to disrupt 
ISIS's finances (in which the State Department plays a significant 
role) has had a notable effect on the group's overall financial 
fortunes. Finally, the State Department has helped to engage with 
foreign allies in an effort to develop strategies to prevent 
radicalized individuals from joining the ranks of ISIS in Iraq and 
Syria.

    Question. What are U.S. policies--both domestic and international- 
that might alienate the very Muslims you seek to work with in 
countering violent extremism?

    Answer. In recent years, the perception that the United States is 
disengaged from--and disinterested in--the Muslim world has become 
increasingly prevalent abroad. This perception is deeply injurious to 
our efforts to forge a broad counterterrorism coalition with the 
resources and resolve to defeat ISIS and other manifestations of 
radical Islam. Our allies and partners in this effort must know that 
the United States is committed to a long-term struggle against Islamic 
extremism in all of its forms.
Iran--Sanctions
    Question. Speaking in the context of sanctions against Russia over 
its invasion of Crimea, you expressed skepticism of the efficacy of 
sanctions in general, unless they are applied in a 'comprehensible' 
fashion. At Exxon's 2014 annual meeting, you are quoted as saying, ``We 
do not support sanctions, generally, because we don't find them to be 
effective unless they are very well implemented comprehensibly, and 
that's a very hard thing to do. So we always encourage the people who 
are making those decisions to consider the very broad collateral damage 
of who are they really harming.'' Sanctions--implemented effectively- 
have been the linchpin of our strategy to prevent an Iranian nuclear 
weapons capability, and to obstructing its malign regional influence. 
Is there anything in this statement that you would like to clarify? Did 
Exxon, either itself or through proxies and associations, oppose 
sanctions against Iran?

    Answer. My statement at ExxonMobil's 2014 annual meeting provided 
ExxonMobil's perspective on sanctions as a general matter. ExxonMobil 
did not lobby against Iran sanctions during my tenure as Chairman and 
CEO, but rather sought to share information with lawmakers that would 
assist them in mitigating disproportionate harm to U.S. companies as 
compared to their foreign competitors. To the best of my knowledge, 
ExxonMobil has disclosed all such activity as required by the lobbying 
disclosure laws.
Iran--JCPOA
    Question. While the JCPOA suspended nuclear sanctions against Iran, 
the U.S. retains the right to enforce and impose new sanctions on Iran 
for its support for terrorism, human rights abuses, development and 
testing of ballistic missiles, cyber crimes, and corruption. If 
confirmed, do you plan on advocating for sanctioning Iranian entities 
involved in these malign activities? How will the State Department 
respond under your leadership if Iranian officials threaten to abrogate 
the JCPOA? What do you see as the proper path forward with regard to 
the JCPOA?
    Please provide specific examples of new sanctions that can be 
applied in each category listed above, and whether the executive branch 
has authority to implement such sanctions or needs new legislative 
authority.

    Answer. The United States should closely examine, and at the very 
least rigorously enforce, the provisions of the Joint Comprehensive 
Plan of Action (JCPOA). It should engage the IAEA, the Joint 
Commission, and other international and multilateral organizations--as 
well as individual states--to ensure Iran does not cheat on its 
commitments. At the same time, the United States should work with its 
regional partners and allies to dismantle Iran's sponsorship of 
terrorist groups and block Iranian aggression throughout the Middle 
East. Non-nuclear sanctions are an important part of that effort. If I 
am confirmed, the United States will closely monitor and enforce those 
sanctions, including on entities linked to the Islamic Revolutionary 
Guard Corps. However, I would like to receive all available material, 
including that in the classified realm, before identifying specific 
targets.
Mexico
    Question. A December 2016 report by the Center for Disease Control 
found that heroin is the leading cause of overdose deaths in the U.S. 
Most of the heroin ravaging U.S. communities comes from Mexico, where 
transnational criminal organizations control poppy cultivation, heroin 
production, and trafficking routes to the United States. The damage 
done to U.S.-Mexico relations during the campaign threatens to 
undermine the deepened security cooperation begun under President 
George W. Bush with the Merida Initiative. If confirmed, how will you 
work with the Government of Mexico to diminish the threat posed to 
American families by heroin? Will you continue the Merida Initiative 
and support the Mexican government's efforts to reform its justice 
sector, expand training for civilian police, combat corruption, and 
protect human rights?

    Answer. Mexico is a country of great importance to the United 
States, as a neighbor and trading partner. Although we will probably 
have differences with the government of Mexico regarding enforcement of 
our immigration laws, we will still need to continue to cooperate with 
Mexico on important issues of common interest, such as narcotics 
trafficking. If confirmed, I would review the track record of the 
Merida Initiative, and certainly endeavor to continue projects that 
improve Mexican performance in the areas you have noted.
Canada--Reviewing Keystone Pipeline Permit
    Question. On November 6, 2015, following extensive technical 
consultations with eight federal agencies, Secretary of State John 
Kerry determined that it was in the U.S. national interest to deny the 
permit for the Keystone XL pipeline. The technical review found 
marginal benefits for the American economy and our energy security, and 
a range of concerns for local communities and water supplies in the 
U.S. If confirmed, would you seek consider the Keystone pipeline matter 
settled, or would you seek to reopen the past technical review process 
or launch a new review?

    Answer. During the campaign, the President-elect made a commitment 
to reopen this matter and proceed with the Keystone Pipeline-in the 
interests of energy security and job creation. If confirmed, I will 
quickly review the legal and foreign policy aspects of Secretary 
Kerry's decision and work with the President-elect to carry out his 
policy objectives.
Colombia
    Question. U.S. support for Colombia across three U.S. and three 
Colombian Administrations, through Plan Colombia and now Peace 
Colombia, is rightly seen as perhaps the most successful bipartisan 
foreign policy success in the 21st Century. The United States has 
invested billions while our Colombian partners have far outpaced that 
investment in terms of blood and treasure. Fifteen years ago, Colombia 
teetered on the edge of being a failed state. Today, it has an historic 
peace agreement and stands on the verge of joining the OECD. If 
confirmed, do you pledge to continue U.S. support for Colombia through 
Peace Colombia to help Colombia consolidate its historic peace 
agreement?

    Answer. I agree that Plan Colombia has made a dramatic difference 
and can be considered a foreign policy success for both the United 
States and for Colombia. Colombia is, I believe, one of our closest 
allies in the hemisphere, and an important trading partner. If 
confirmed, I would make every effort to continue our close cooperation 
with the Colombian government, holding them to their commitments to 
rein in drug production and trafficking. I would also seek to review 
the details of Colombia's recent peace agreement, and determine the 
extent to which the United States should continue to support it.
Venezuela
    Question. In 2016, Venezuela delivered the world's worst economic 
performance in terms of GDP contraction and inflation. As the country 
has moved towards economic collapse, widespread shortages of essential 
medicines and basic food products have created an increasingly urgent 
humanitarian situation. This situation is complicated by an 
authoritarian government whose members are engaged in widespread 
corruption and, in the case of some officials, direct involvement in 
the drug trade. If confirmed, what policy tools do you recommend the 
United States use to resolve or mitigate the growing humanitarian 
crisis and collapsing economy Venezuela? How will you work with other 
governments in the region to address the challenges in Venezuela?

    Answer. I think we are in full agreement as to the calamity that 
has befallen Venezuela, largely a product of its incompetent and 
dysfunctional government-first under Hugo Chavez, and now under his 
designated successor, Nicolas Maduro. If confirmed, I would urge close 
cooperation with our friends in the hemisphere, particularly 
Venezuela's neighbors Brazil and Colombia, as well as multilateral 
bodies such as the OAS, to seek a negotiated transition to democratic 
rule in Venezuela. In the end, it will be rebuilt political 
institutions, led by brave Venezuelan democracy and human-rights 
advocates, that will pave the way for the kinds of reforms needed to 
put Venezuela on the path to economic recovery.
Brazil
    Question. Since March 2014, an ongoing legal probe in Brazil has 
uncovered billions of dollars of corruption and led to the arrest of 
more than 160 people. In December 2016, pursuant to information 
uncovered in the aforementioned probe and in accordance with the 
Foreign Corrupt Practices Act, Brazilian company Odebrecht, S.A. and 
subsidiary Braskem, S.A. admitted that they had paid more than $788 
million in bribes to foreign government officials and agreed to a 
settlement of $3.5 billion in penalties. Given your affirmative 
response to question G.1. in the Senate Foreign Relations Committee 
questionnaire and expressed commitment to supporting U.S. efforts 
globally to address corruption, if confirmed as Secretary of State, 
will you use your voice to express support for ongoing independent 
legal investigations of corruption in Brazil? If confirmed as Secretary 
of State, will you seek to ensure the independence of the criminal 
probe opened by a Brazilian federal prosecutor to examine potentially 
corrupt investments in the hotel located at Rua Professor Coutinho 
Frois 10, Barra da Tijuca, Rio de Janeiro, State of Rio de Janeiro 
22620-360, Brazil (formerly known as Trump Hotel Rio de Janeiro), as 
well as any possible links between corrupt investments and the 
companies that own, developed, or managed the hotel?

    Answer. If confirmed, I would see it as my duty to seek enforcement 
of American laws, including such statutes as the Foreign Corrupt 
Practices Act. I do not believe it would be in the purview of the 
Secretary of State to interfere in another sovereign country's internal 
legal deliberations-other than to ensure that if Americans are parties 
to a dispute that they are treated fairly, granted access to bona-fide 
legal counsel, and not discriminated against because of their American 
nationality.
Chabad Dispute
    Question. There is a legal dispute with Russia over the Schneerson 
Library, a collection of 12,000 books and 50,000 religious documents 
assembled by the Chabad-Lubavitch Hasidic movement over two centuries 
prior to World War II, and kept since in Russia. For decades the Chabad 
organization, which is based in Crown Heights, Brooklyn, has been 
trying to regain possession of the library, saying that it was 
illegally held by the Soviet authorities after the war. In 1991 a court 
in Moscow ordered the library turned over to the Chabad organization; 
the Soviet Union then collapsed, and the judgment was set aside by the 
Russian authorities. In 2010, Chabad took the dispute to federal court 
here in the United States. A federal judge ruled in favor of the Chabad 
organization, ordering Russia to turn over all Schneerson documents 
held at the Russian State Library, the Russian State Military Archive 
and elsewhere. Russian officials have refused to obey the court order. 
Mr. Tillerson, if confirmed as Secretary of State, will you work with 
the Congress in convincing the Russian government to turn over the 
Schneerson Library?

    Answer. This is a very important matter. I intend to engage with 
Congress to determine the best approach regarding the return of the 
Schneerson Library.

                         Pre-Hearing Questions

    Question. Please provide detailed information about the legal 
incorporation and framework for, and activities and value of, the 
Russian company Exxon Neftegas. Please describe in detail your 
activities in your role as Director of Neftegas.

    Answer. Exxon Neftegas Limited, or ENL, is a subsidiary of Exxon 
Mobil Corporation. Formed in the Bahamas in 1991, ENL has its 
registered office in the Bahamas and maintains additional foreign 
branch office registrations in the Russian Federation, in accordance 
with Russian and other applicable laws. ENL's value, measured by its 
authorized capital, is approximately USD $2 billion.
    ENL is the operator of the Sakhalin-1 Project, which develops and 
produces oil and gas fields off the coast of Sakhalin Island in the 
Russian Far East. An international consortium, which includes ENL and 
Japanese, Russian, and Indian companies, are investors in the Sakhalin-
1 Project. Additional information on the project can be found at http:/
/www.sakhalin-1.com.
    As a Director of ENL, I helped oversee the affairs of the company 
pursuant to applicable laws and regulations. In accordance with those 
responsibilities, I participated in board meetings, voted on corporate 
resolutions, and otherwise interacted with ENL's management.


    Question. Please describe all gifts you received in your 
professional capacity within the last 3 years that exceeded $1000 per 
annum including the sender of the gift, a description of the gift, the 
value of the gift, and the disposition of the gift.

    Answer. Based on my own recollection and a review of ExxonMobil 
records, I have not received any gifts in my professional capacity 
within the last 3 years that had a value over $1000.

    Question. Please list all income received from foreign sources and 
all foreign taxes paid or accrued (in each case, by country) since 
January 1, 2013. Please list foreign taxes claimed as a foreign tax 
credit or deduction on your U.S. Federal income tax returns for such 
period. Please confirm that, if required, the nominee and your spouse 
has filed accurate, complete and timely Forms FinCEN 114 (FBAR) and IRS 
Forms 8938 (Statement of Specified Foreign Financial Assets) for each 
year since January 1, 2013.

    Answer. Certain of the investments listed on my Form 278e would 
have been subject to foreign taxes, but those taxes were paid at the 
fund level.

    Question. In the ethics agreement submitted to the committee on 
January 3, you indicate that you "will not accept any payment from the 
trust unless ExxonMobil has acted in good faith to reduce the amount of 
the lump sum payment to the trust sufficiently to offset for the time 
value of the accelerated payment to the trust and to offset for the 
economic value of the waiver of any rights under the clawback 
provision." Please provide a schedule of the time value and amounts 
referred to in this sentence.

    Answer. Exxon Mobil's January 4, 2017 Form 8-K explains that the 
payment will be discounted by approximately $3 million. Further 
questions should be directed to Exxon Mobil.

    Question. In the ethics agreement submitted to the committee on 
January 3, you indicate that "[t]he trustee will make payments to [you] 
on a schedule closely approximating the ordinary schedules for removal 
of the restrictions on my restricted stock and for payout of the stock 
units." Please provide a schedule of the amounts and dates of the 
schedule of payout referred to in this sentence.
    As indicated to the Office of Government Ethics, under Exxon Mobil 
policy, I am entitled to receive payments on a pre-established, roughly 
annual basis for the first ten years following my retirement (2017 to 
2026). The amounts of these payments will depend on the performance of 
the assets in the irrevocable trust.

    Question. In the ethics agreement submitted to the committee on 
January 3, you indicated that payments from the Tillerson Foundation 
will continue, if you are confirmed as Secretary of State, in the form 
of compensation for services or as unconditional irrevocable gifts. 
Please describe what types of services and gifts and who would be the 
recipients. Do you commit that the Tillerson Foundation will not make 
any gifts to foreign persons or entities or otherwise award gifts that 
would potentially conflict with your role as Secretary of State?

    Answer. I commit that the Tillerson Foundation will not make any 
gifts to foreign persons or entities or otherwise award gifts that 
would potentially conflict with my role as Secretary of State.

    Question. You have indicated in your response to the Committee's 
questionnaire that you intend to sever all of your business 
associations in the event you are confirmed by the Senate. Please 
provide a full and detailed response regarding your intentions for 
disposition of any and all ownership interests, investment interests, 
or other interests in ExxonMobil Corporation, or any corporation owned 
or affiliated with ExxonMobil Corporation, in the event you are 
confirmed.

    Answer. Attached is a copy of my ethics agreement with the State 
Department, i.e., my letter dated today to Katherine McManus, the State 
Department's Designated Agency Ethics Official. This letter-agreement, 
which has been approved by the Office of Government Ethics and is being 
delivered to the Committee today, fully describes my intentions for 
disposition of any and all ownership interests, investment interests, 
or other interests in ExxonMobil Corporation, or any corporation owned 
or affiliated with ExxonMobil Corporation, in the event I am confirmed.


                               __________

                                                    January 3, 2017

Ms. Katherine D. McManus Deputy Legal Adviser
  and Designated Agency Ethics Official,
Office of the Legal Adviser,
Department of State.


    Re: Ethics Undertakings
    Dear Ms. McManus, I am committed to the highest standards of 
ethical conduct for government officials. If confirmed as Secretary of 
State, as required by 18 U.S.C. Sec. 208(a), I will not participate 
personally and substantially in any particular matter in which I know 
that I have a financial interest directly and predictably affected by 
the matter, or in which I know that a person whose interests are 
imputed to me has a financial interest directly and predictably 
affected by the matter, unless I first obtain a written waiver, 
pursuant to 18 U.S.C. Sec. 208(b)(1), or qualify for a regulatory 
exemption, pursuant to 18 U.S.C. Sec. 208(b)(2). I understand that the 
interests of the following persons are imputed to me: any spouse or 
minor child of mine; any general partner of a partnership in which I am 
a limited or general partner; any organization in which I serve as 
officer, director, trustee, general partner or employee; and any person 
or organization with which I am negotiating or have an arrangement 
concerning prospective employment.
    Upon confirmation, I will resign from my positions with the 
following entities: Ford's Theatre Society, Center for Strategic and 
International Studies, and Boy Scouts of America. I previously resigned 
from my positions with the Business Roundtable and American Petroleum 
Institute. For a period of one year after my resignation from each of 
these entities, I will not participate personally and substantially in 
any particular matter involving specific parties in which I know that 
entity is a party or represents a party, unless I am first authorized 
to participate, pursuant to 5 C.F.R. Sec. 2635.502(d).
    My spouse and I own Bar RR Ranches, LLC. Upon confirmation, I will 
resign from my position as managing member of this entity. I will 
continue to have a financial interest in this entity, but I will not 
provide services material to the production of income. Instead, I will 
receive only passive investment income from it. I will not participate 
personally and substantially in any particular matter that to my 
knowledge has a direct and predictable effect on the financial 
interests of Bar RR Ranches, LLC, unless I first obtain a written 
waiver, pursuant to 18 U.S.C. Sec. 208(b)(1).
    I am the sole owner of R2 Real Estate, LLC. During my appointment, 
this entity will continue to exist solely to hold personal assets. Upon 
confirmation, I will resign from my position as managing member of this 
entity. I will not participate personally and substantially in any 
particular matter that to my knowledge has a direct and predictable 
effect on the financial interests of this entity, unless I first obtain 
a written waiver pursuant to 18 U.S.C. Sec. 208(b)(1).
    I resigned from my position as Chairman and CEO of ExxonMobil 
Corporation (ExxonMobil) on December 31, 2016. For a period of one year 
after my resignation from ExxonMobil, I will not participate personally 
and substantially in any particular matter involving specific parties 
in which I know that ExxonMobil is a party or represents a party, 
unless I am first authorized to participate, pursuant to 5 C.F.R. 
Sec. 2635.502(d).
    At the time of my resignation, I held restricted stock and 
restricted stock units. I have not received, and will not receive, 
additional grants of restricted stock or restricted stock units 
following my resignation. ExxonMobil's incentive program plan provides 
that the Compensation Committee may authorize an employee who departs 
before reaching the established retirement age to retain restricted 
stock and restricted stock units, provided that the employee worked for 
the company for at least 15 years and was at least 55 years old. The 
longstanding practice of the Compensation Committee has been to 
authorize the retention of these items for most eligible employees. 
Consistent with this practice, the Compensation Committee has 
authorized me to retain my restricted stock and restricted stock units. 
Ordinarily, these items would, in the case of the restricted stock, 
become free of the restrictions on transfer and, in the case of the 
restricted stock units, pay out at various times, both over the next 10 
years. However, to eliminate any conflict of interest that might arise 
if I were to continue to hold a financial interest in ExxonMobil as 
Secretary, ExxonMobil's board has authorized an arrangement under 
which, prior to assuming the position of Secretary, I will surrender to 
ExxonMobil all of my outstanding restricted stock awards and restricted 
stock unit awards for cancellation in exchange for a cash payment to an 
irrevocable trust, to be administered by an independent trustee that is 
beyond the control of ExxonMobil. ExxonMobil will waive any right to 
exercise a clawback provision that authorizes it to rescind some or all 
of the payout for any of a variety of reasons, including a 
determination that the recipient has engaged in conduct detrimental to 
the company. Instead, the trust instrument will provide that, if I 
become employed by or provide services to a company in the oil and gas 
industry or the oil and gas services industry, I will forfeit the 
remaining undistributed assets in the trust. Such forfeited assets will 
be distributed to a charity of the trustee's choosing dedicated to the 
alleviation of disease and poverty in the developing world. I will not 
accept any payment from the trust unless ExxonMobil has acted in good 
faith to reduce the amount of the lump sum payment to the trust 
sufficiently to offset for the time value of the accelerated payment to 
the trust and to offset for the economic value of the waiver of any 
rights under the clawback provision. The trustee will make payments to 
me on a schedule closely approximating the ordinary schedules for 
removal of the restrictions on my restricted stock and for payout of 
the stock units. To further resolve any potential for conflicts of 
interest, the trust instrument will require that, during my appointment 
to the position of Secretary, the trust's holdings be limited to cash, 
cash equivalents, obligations of the United States, investment funds 
that qualify for the exemption at 5 C.F.R. Sec. 2640.201(a), and 
municipal bonds. You have explained to me that, as a beneficiary of 
this trust, I must disclose in my public financial disclosure reports 
all holdings of this trust that meet the reporting thresholds 
established in 5 C.F.R. part 2634, subpart C.
    Half of my annual bonus was paid in cash and half was paid in 
Earnings Bonus Units, which represent a contractual obligation that 
ExxonMobil will make payments if certain earnings per share targets 
have been met within three years after the award of the Earnings Bonus 
Units. At the time of my resignation, I was not owed any unpaid cash 
bonuses, but I continued to hold Earnings Bonus Units for the years 
2014, 2015, and 2016. I will forfeit these Earnings Bonus Units upon 
confirmation.
    I hold stock in ExxonMobil. I do not hold any vested or unvested 
stock options. I will divest my stock in ExxonMobil within 90 days of 
my confirmation. I will not participate personally and substantially in 
any particular matter that to my knowledge has a direct and predictable 
effect on the financial interests of ExxonMobil until I have divested 
this stock, unless I first obtain a written waiver, pursuant to 18 
U.S.C. Sec. 208(b)(1), or qualify for a regulatory exemption, pursuant 
to 18 U.S.C. Sec. 208(b)(2).
    I will elect to receive a total distribution of my interests in the 
ExxonMobil Qualified Defined Benefit Pension Plan, the ExxonMobil 
Nonqualified Defined Benefit Supplemental Pension Plan, the ExxonMobil 
Defined Contribution Nonqualified Supplemental Savings Plan, and the 
ExxonMobil Nonqualified Defined Benefit Additional Payments Plan 
consistent with the standard terms of these plans, including the 
ordinary timelines for making distributions. Until my interests in each 
plan are fully distributed, I will not participate personally and 
substantially in any particular matter that to my knowledge has a 
direct and predictable effect on the ability or willingness of 
ExxonMobil to provide the benefits under the plan, unless I first 
obtain a written waiver, pursuant to 18 U.S.C. Sec. 208(b)(1), or 
qualify for a regulatory exemption, pursuant to 18 U.S.C. 
Sec. 208(b)(2). I also have an interest in the Defined Contribution 
ExxonMobil Savings Plan, which I will divest prior to assuming the 
duties of the position of Secretary.
    As a retired ExxonMobil executive, I am entitled to receive the 
following standard retiree benefits: retiree medical benefits; use of a 
product discount credit card; office space and administrative support; 
financial counseling; and tax preparation services. I will forfeit all 
of these benefits upon confirmation. I am also entitled to participate 
in an executive life insurance plan. Before I assume the duties of the 
position of Secretary, ExxonMobil will terminate my participation in 
this life insurance plan and provide me with a prepaid life insurance 
policy, with equivalent benefits, through an independent insurer.Within 
90 days of confirmation, I will divest my interests in the entities 
listed in Attachment A. With regard to each of these entities, I will 
not participate personally and substantially in any particular matter 
that to my knowledge has a direct and predictable effect on the 
financial interests of the entity until I have divested it, unless I 
first obtain a written waiver, pursuant to 18 U.S.C. Sec. 208(b)(1), or 
qualify for a regulatory exemption, pursuant to 18 U.S.C. 
Sec. 208(b)(2). During my appointment to the position of Secretary, if 
I have a managed account, I will ensure that the account manager does 
not purchase any new assets other than cash, cash equivalents, 
obligations of the United States, investment funds that qualify for the 
exemption at 5 C.F.R. Sec. 2640.201(a), and municipal bonds.
    Upon confirmation, I will resign from my positions with the 
Tillerson Foundation. I will not participate personally and 
substantially in any particular matter involving specific parties in 
which this entity is a party or represents a party, unless I am first 
authorized to participate, pursuant to 5 C.F.R. Sec. 2635.502(d). 
Within 90 days of my confirmation, the Tillerson Foundation will divest 
its interests in ExxonMobil. Thereafter, for the duration of my 
appointment to the position of Secretary, the Foundation's holdings 
will be limited to cash, cash equivalents, obligations of the United 
States, investment funds that qualify for the exemption at 5 C.F.R. 
Sec. 2640.201(a), and municipal bonds. The Tillerson Foundation has not 
previously received contributions from persons other than myself or my 
spouse, and, during my appointment as Secretary, it will not receive 
any contributions from persons other than myself or my spouse. In 
addition, it will not make payments to any outside entities except as 
compensation for services or as unconditional, irrevocable gifts.
    I have previously paid taxes owed by certain grantor trusts 
disclosed in my financial disclosure report. I am not a trustee of 
these trusts. Neither my spouse nor I, nor any minor child of mine, is 
a beneficiary of these trusts. Before I assume the duties of the 
position of Secretary, in order to resolve any potential conflicts of 
interest, I will take steps to ensure that I and my spouse are not 
responsible for the taxes owed by these trusts.
    I have disclosed my financial interests in HF Renaissance EQ, LLC. 
However, a preexisting confidentiality agreement bars me from 
identifying the underlying assets of this fund in my financial 
disclosure report. Therefore, I will divest my financial interests in 
this fund as soon as possible after confirmation and not later than 90 
days after my confirmation. Until I have divested this fund, I will not 
participate personally and substantially in any particular matter that 
to my knowledge has a direct and predictable effect on the financial 
interests of the fund or its underlying assets, unless I first obtain a 
written waiver, pursuant to 18 U.S.C. Sec. 208(b)(1), or qualify for a 
regulatory exemption, pursuant to 18 U.S.C. Sec. 208(b)(2).
    In addition, I will recuse myself on a case-by-case basis from 
participation in any particular matter involving specific parties in 
which I determine that a reasonable person with knowledge of the 
relevant facts would question my impartiality in the matter, unless I 
am first authorized to participate, pursuant to 5 C.F.R. 
Sec. 2635.502(d).
    I understand that I may be eligible to request a Certificate of 
Divestiture for qualifying assets and that a Certificate of Divestiture 
is effective only if obtained prior to divestiture. Regardless of 
whether I receive a Certificate of Divestiture, I will ensure that all 
divestitures discussed in this agreement occur within the agreed upon 
timeframes and that all proceeds are invested in non-conflicting 
assets.
    Within 90 days of my confirmation, I will document compliance with 
this ethics agreement by notifying you when I have completed these 
implementing actions.
    I have been advised that this ethics agreement will be posted 
publicly, consistent with 5 U.S.C. Sec. 552, on the website of the U.S. 
Office of Government Ethics with ethics agreements of other 
Presidential nominees who file public financial disclosure reports.
          Sincerely,
                      /s/ Rex W. Tillerson Rex W. Tillerson





                              ATTACHMENT A

         Entities in Which Secretary-Designate Has An Interest


1.-AbbVie, Inc.
2.-Accenture Plc

3.-Airbus Group

4.-Alaska Air Group, Inc.

5.-Alaska Air (Note: open position for written call option)

6.-Alibaba Group Hldg

7.-American Express Co.

8.-Amgen, Inc.

9.-Anhui Conch Cement

10.-Apple, Inc.

11.-AT&T, Inc.

12.-Atlantia SPA

13.-Aviva Plc

14.-AXA

15.-Baidu, Inc.

16.-Blackrock, Inc.

17.-BNP Paribas

18.-Boeing Co.

19.-Bristol Myers Squibb Co

20.-BYD Company, Ltd

21.-Carnival Cp

22.-Carrefour SA

23.-Caterpillar, Inc.

24.-Caterpillar, Inc., (Note: two open positions for written call 
option)

25.-CDN Pacific Ry Ltd

26.-Celgene Corp

27.-Celgene (Note: open position for written call option)

28.-Chevron Corp

29.-China Mobile, Ltd.

30.-China Pete & Chem CP

31.-Chubb, Ltd.

32.-Cisco Sys Inc.

33.-Citigroup Inc.

34.-Coca Cola Co.

35.-Colgate Palmolive Co.

36.-Compagnie de St. Gobain

37.-Compagnie Fin Richemontag

38.-Ctrip.com Intl, Ltd.

39.-Cummins, Inc.

40.-Cummins, Inc. (Note: open position for written call option)

41.-CVS Health Corp

42.-D R Horton, Inc.

43.-Daimler AG

44.-Deere & Co.

45.-Deere & Co. (Note: open position for written call option)

46.-Delta Air Lines, Inc.

47.-Deutsche Telekom AG

48.-Discover Financial Services

49.-East Japan Ry Co.

50.-Eaton Corp Plc

51.-Electricite de France

52.-EMC Corp Mass

53.-Extra Space Storage, Inc.

54.-Fedex Corp

55.-Ferrovial SA

56.-Fidelity National Information SE

57.-Ford Motor Co

58.-Fresenius SE & Co.

59.-General Electric Co.

60.-General Mills, Inc.

61.-General Motors Co.

62.-GlaxoSmithKline Plc

63.-Goldman Sachs Group (Note: open position for written call option)

64.-Goldman Sachs Grp

65.-Heineken NV Spn

66.-Honda Motor Company

67.-Honeywell International, Inc.

68.-Hong Kong Exchanges & Clearing

69.-Howden Joinery Group Plc

70.-Iberdrola SA

71.-Infineon Technologies AG

72.-ING Groep NV

73.-Ingenico Group

74.-Ingersoll-Rand Plc

75.-Intel Corp

76.-Intel Corp. (Note: open position for written call option)

77.-International Business Machines Corp

78.-Intesa Sanpaolo S.P.A.

79.-ITC Holdings

80.-Japan ARPT Term Co.

81.-Japan Exchange Group, Inc.

82.-JD COM, Inc.

83.-Johnson & Johnson

84.-JPMorgan Chase & Co.

85.-Komatsu, Ltd.

86.-Koninklijke Phil EL

87.-LafargeHolcim

88.-Legal & General Plc

89.-Lennar Corporation

90.-Line Corp

91.-Lloyds Banking Group Plc

92.-Lockheed Martin Corp

93.-Lowes Companies, Inc.

94.-Magna International, Inc.

95.-Marsh & McLennan Cos

96.-Masco Corp

97.-Medtronic Plc

98.-Metlife Incorporated

99.-Microsoft Corp

100.-Mitsubishi UFJ Fincl Grp

101.-Mondelez Intl, Inc.

102.-Monsanto Co

103.-National Grid Transco Plc

104.-Nestle

105.-Nextera Energy, Inc.

106.-Nielsen Holdings Plc

107.-Nike, Inc.

108.-Nippon Shinyaku Co

109.-Nippon Telegraph & Telephone

110.-Novartis AG

111.-Novo Nordisk

112.-NXP Semiconductors NV

113.-Packaging Corp of America

114.-Pepsico, Inc.

115.-Pfizer, Inc.

116.-Phillips 66

117.-Potash Cp of Saskatchewan, Inc.

118.-Praxair, Inc.

119.-Procter & Gamble

120.-Prudential Financial, Inc.

121.-Qualcomm, Inc.

122.-Rakuten, Inc.

123.-Reckitt Benckiser Plc

124.-Royal Dutch Shell Plc

125.-Sanofi

126.-Schlumberger, Ltd,

127.-Seven & I Holdings Co Ltd.

128.-Shin Etsu Chem Co Ltd.

129.-Shire Plc

130.-Sony Corp

131.-Southwest Airlines

132.-State Street Corp

133.-Target Corporation

134.-TE Connectivity, Ltd.

135.-Time Warner, Inc.

136.-Time Warner, Inc. (Note: open position for written call option)

137.-Total SA

138.-Toyota Motor Corp

139.-Travelers Companies, Inc.

140.-UBS Group AG

141.-Union Pacific Corp

142.-Union Pacific Corp. (Note: open position for written call option)

143.-United Technologies Corp

144.-UnitedHealth Group

145.-Verizon Communications

146.-VF Corporation

147.-Vinci SA

148.-Wal-Mart Stores, Inc.

149.-Walt Disney Co.

150.-Walt Disney Co. (Note: open position for written call option)

151.-WEC Energy Group, Inc.

152.-Wells Fargo & Co.

153.-Whirlpool Corp

154.-Yandex NV

155.-Yum China Holdings

156.-ZTO Express Cayman, Inc.
      
                              ----------                              



  Additional Questions Submitted to Secretary-Designate Tillerson by 
   Senator Cardin (January 20, 2017) for Which No Response Has Been 
                                Received

Taxation/Conflicts of Interest
    Question. I recognize that there is a disagreement about your 
provision of 3 years' worth of tax returns, as I had requested, and 
that you do not intend to do so.


  <diamond> Your answer to Question 17 was non-responsive. Please 
        provide the information requested. Any confidential information 
        you provide will be treated as confidential by the committee.
  <diamond> Have you complied with all United States tax laws related 
        to your personal finances, your personal residence, Bar RR 
        Ranches, LLC and R2 Real Estate LLC?
  <diamond> Please list all income received from foreign sources since 
        January 1, 2013.
Extractives Transparency and Section 1504
    Question. Mr. Tillerson, you stated in your response to question 2A 
that part of your job, if confirmed as Secretary of State, "will be to 
make sure that because American companies, NGOs, and development relief 
efforts are expected to play by the rules and abide by Dodd Frank, 
Cardin-Lugar, FCPA, and other laws, that foreign companies or investors 
do not get an unfair advantage by cheating or keeping to a lower 
standard." 30 countries have now adopted similar rules to the US. 
State-owned companies from Russia, Brazil, and China are covered, and 
the global EITI, which Exxon supported while you were CEO, has aligned 
its standard with Cardin-Lugar covering more than 60 countries that 
implement the initiative. These requirements cover the majority of 
leading oil, gas and mining companies already covered, and Cardin-Lugar 
has been endorsed by investors worth $10 trillion in assets.


  <diamond> Given the Cardin-Lugar standards are now effectively 
        global, and you have said that making transparency the norm 
        should be ``a primary objective,'' would you oppose any efforts 
        to roll Cardin-Lugar back since that would put US diplomatic 
        relationships and our global leadership on transparency, good 
        governance and anti-corruption at risk?
Conflicts of Interest
    Question. Thank you for your answer. However, the question was 
about the President Trump's conflicts of interest and overseas business 
arrangements. Please answer the question as written. In addition, 
please answer yes or no to the following additional questions about 
potential conflicts of interest:
  <diamond> Because the President has not divested his interests in the 
        Trump Organization-which does business in many countries around 
        the world-and is not providing transparency to the American 
        public regarding his or the Trump Organization's foreign debts, 
        business interests, holdings, and potential conflicts of 
        interest, will you have sufficient information to gauge whether 
        the State Department or USAID is contributing to self-dealing 
        and other inappropriate enrichment by the President and his 
        family in the Administration's dealings with other countries?
  <diamond> In your years at Exxon did you ever conclude a deal with a 
        counterparty who refused to disclose relevant financial 
        interests and exposure?
  <diamond> If yes, please cite an example.
  <diamond> If no, please explain why the president should be exempt 
        from the disclosure and divestiture practices followed by his 
        predecessors.
  <diamond> If you become aware of a violation of the Foreign 
        Emoluments Clause of the U.S. Constitution in your time as 
        Secretary of State, will you report it to this Committee?
The Global Fund
    Question. Mr. Tillerson, question 41 asked about the Global Fund, 
but your answer did not didn't mention the global fund.
  <diamond> What are your views of the Global Fund?
  <diamond> If confirmed, will you be committed to continuing America's 
        leadership against AIDS, TB and malaria through our bilateral 
        and Global Fund investments?
Humanitarian issues in Syria
    Question. In part of your response to Question 44a, you referenced 
``nation building.'' This question was not about nation building. This 
question is about Russia and Syria deliberately targeting and attacking 
Syrian aid workers and civil society organizations. So, to repeat the 
question:


  <diamond> In your role, how will you make the protection of all 
        Syrian humanitarian workers and their ability to maintain 
        operations one of your key points in any negotiations with 
        Russia and the Government of Syria?
International Humanitarian Law
    Question. In your response to question 47a. about how you would use 
US leadership to reinforce rules-based international order and 
international cooperation, you noted that `` . . . above all I will 
insist that they follow U.S. laws and the government's obligations 
under those laws.''
  <diamond> Do you agree that the conventions signed and ratified by 
        the United States on this issue are U.S. law?
ISIL--Counter-ISIL Campaign
    Question. Your answer did not respond to all sub-questions in 
Question 105, ``ISIL--Counter-ISIL Campaign.'' Specifically, please 
answer the following:


  <diamond> If confirmed, will you recommend that the U.S. Government 
        retain these lines of effort as its strategic approach to 
        countering ISIL?
  <diamond> What are the specific recommendations you intend to offer 
        for strengthening the U.S.-led Global Coalition to Counter 
        ISIL?
Brazil
    Question. If confirmed as Secretary of State, will you ensure that 
no U.S. officials seek to inappropriately influence the independence of 
the criminal probe opened by a Brazilian federal prosecutor to examine 
potentially* corrupt investments in the hotel located at Rua Professor 
Coutinho Frois 10, Barra da Tijuca, Rio de Janeiro, State of Rio de 
Janeiro 22620-360, Brazil (formerly known as Trump Hotel Rio de 
Janeiro), as well as any possible links between corrupt investments and 
the companies that own, developed, or managed the hotel?


                               __________

              Secretary-Designate Tillerson's Answers to 
                      Questions from Senator Risch

Advocacy of U.S. business
    Question. One of your unique qualifications for the position of 
Secretary of State is your experience managing investments in countries 
all over the world, including in emerging markets. Based on this 
experience, how well do you believe the State Department has helped to 
assist U.S. investors to gaining access to foreign markets, and do you 
believe the State Department has done all that it could over the years 
to assist U.S. investors in dealing with political challenges that 
sometimes arise, particularly in emerging markets? What additional ways 
do you think State Department could do to help U.S. foreign investors 
to gain access to foreign markets?

    Answer. Since development assistance and USAID was established by 
President Kennedy more than 50 years ago, the private sector, through 
foreign direct investment (FDI), has skyrocketed past government aid to 
become the overwhelming engine of economic growth in the developing 
world. The U.S.Government does many terrific things to help FDI, 
including OPIC, the Millennium Challenge Corporation, and the 
incredibly successful PEPFAR program. However, the U.S. Government can 
do a lot more, and it is clear that development assistance must undergo 
a full review, and perhaps reform, to ensure that we are fully 
leveraging and helping FDI find opportunities in countries of the 
developing world. If confirmed, I will lead an effort to analyze and 
critique how to make development assistance more effective and 
efficient, with the intention of ensuring that that assistance is 
designed for the 21st Century, and not the previous one, as we seek to 
help nurture the vast power of FDI to lift hundreds of millions of 
people out of poverty.
    The Department of State should be a strong advocate for contract 
sanctity and the rule of law. These are foundational conditions for 
successful U.S. investment abroad.
Central Asia
    Question. The countries in Central Asia have often experienced 
substantial pressure from Russia to host military facilities or limit 
their interaction with the United States and other Western nations. Do 
you believe the United States has interests in the region, and if so, 
what role do you believe the United States should play in the region?

    Answer. It is important to recognize that some of those countries 
have played important roles in logistics for U.S. military actions 
while fighting the war on terror. If confirmed as Secretary, I will 
engage the states of Central Asia to ensure that U.S. national security 
interests are met. These include regional stability, countering 
transnational terrorist groups, the war in Afghanistan, human rights, 
energy, and other issues. The United States should play a positive 
diplomatic role in bilateral and multilateral forums to advance our 
interests with our regional partners.
Political Islam
    Question. In your opening statement you referred to the threat of 
Radical Islam. One of the biggest challenges in confronting radical 
Islam is the funneling of money, given for charitable purposes, that is 
often diverted to supporting extremist teaching and terrorism. What 
additional measures do you believe are necessary to track and eliminate 
these money flows? While financial sanctions are enforced by the 
Department of Justice, do you support increased measures to track and 
eliminate these money flows? Will you prioritize these issues in your 
meetings with foreign leaders?

    Answer. I do not yet have a full understanding of the financial 
sanctions that are enforced by the Department of Justice working in 
concert with the Department of the Treasury. Should I be confirmed, to 
the extent permitted by law, I will work with other departments to 
track and eliminate the transit of money used to support terrorism and 
spread radical Islam. One possible approach is to ensure that those 
known charities who funnel money to terrorist organizations are exposed 
to their donors.
State Department Management
    Question. American diplomats and diplomacy increasingly need a 
range of skills and knowledge that go beyond traditional limits, 
including the need to work more closely with the U.S. military and 
officials of other agencies to oversee development projects and help 
build strategic partnerships with fragile democracies and allies. What 
steps would you take to prepare the State Department to master these 
new requirements?

    Answer. Modernization of learning modules and training platforms 
has been underway at the Foreign Service Institute for some time, 
including distance learning. A new look at leadership and management 
training was undertaken in 2016. You are right to point out that the 
skills required and ability to undergo life-long learning in new trade 
crafts will be vital. The Department already has mature programs to 
send recently promoted mid-career officers and those identified senior 
officers preparing for top leadership assignments as principal officers 
to our War Colleges, but we need to find more and newer ways to achieve 
an even broader range of skills. Just as we encourage a secondment to 
Capitol Hill through the Pearson Fellows program, we can do more if we 
align the HR and promotions process to reward professional training, 
development, and cross-pollination. If confirmed, I would like to 
explore with you more ways we can encourage these priorities, ensuring 
successful programs such as MCC and PEPFAR, Power Africa, are used in 
case studies.
Russia
    Question. Do you believe that tensions between the United States 
and Russia result primarily from misunderstandings or from conflicting 
interests and objectives?

    Answer. Tensions in U.S.-Russian relations stem primarily from real 
conflicts of interest between our two countries, based on enduring 
factors like history, geography, culture and worldview. Diffusing these 
tensions and conflicts requires open dialogue around our differences,

    Question. In your opening statement, you said we ``must hold those 
who are not our friends accountable to the agreements they make. We 
cannot ignore violations of international accords.'' Over the past 
decade the world has seen substantial treaty violations by the Russians 
regarding a number of treaties the United States has with them, such as 
the Conventional Forces in Europe Treaty, the Intermediate Nuclear 
Forces Treaty, violations of other arms control agreements laid out by 
the State Department's own reports, the Budapest Memorandum regarding 
Ukraine, and a number of other agreements. How do you envision imposing 
accountability on a government that does not live up to its agreements? 
What tools do you think are the most important?

    Answer. When adversaries of the United States violate their 
international obligations and transgress international norms, they 
should confront a clear, swift and firm response--not only from America 
but from our allies as well.
    We should be prepared to use the range of diplomatic, economic and 
security tools at our disposal, deploying them after careful 
consideration of how U.S. objectives can best be achieved against 
Russia or any other adversary.


                               __________

           Secretary-Designate Tillerson's Answers Questions 
                    from Senators Cardin and Gardner

    Question. Mr. Tillerson--since 2011, the country of Burma has 
embarked on a path toward democracy, culminating in peaceful elections 
in November 2015 that brought Nobel Peace Prize winner and democracy 
icon Aung San Suu Kyi to power. However, Burma's new democratic 
government continues to face serious challenges, including the stalled 
ethnic peace process, violence in Rakhine State and elsewhere, lack of 
economic development, and the military's continuing grip on key 
institutions of power, which impedes genuine democratic governance, 
accountability, and transparency. Indeed, as of January 9, according to 
the United Nations Office for the Coordination of Humanitarian Affairs 
an estimated 65,000 people have fled Burma, mostly Rohingya fleeing 
persecution. Amnesty International reported and documented a campaign 
of violence perpetuated by the Burmese security forces which have 
indiscriminately fired on and killed civilians, raped women and girls, 
and arbitrarily arrested Rohingya men without any information about 
their whereabouts--charges which ``may amount to crimes against 
humanity.'' There has also been a recent upsurge in violence in Shan 
and Kachin States, as well.
    How will the Trump Administration incentivize democracy in Burma 
and promote a peaceful, prosperous, and democratic Burma that respects 
the human rights of its entire people regardless of ethnicity and 
religion, including the Rohingya?

    Answer. I am extremely encouraged by the positive developments that 
have taken place in Burma over the past few years, including the 
conduct of elections and the coming to power of Aung San Suu Kyi Burma 
has made significant strides, even though there is a long way to go, 
especially in the protection of minority rights.
    The United States has long been a supporter of protecting 
minorities in Burma, and I would expect that stance to continue under a 
Trump Administration.

    Question. Do you believe that economic sanctions can be useful 
leverage to support key U.S. policy objectives in Burma with regard to 
democracy and human rights?

    Answer. Economic sanctions are certainly one of the tools available 
to the United States to exercise pressure on countries. That said, we 
have good reason to believe that engagement with the leadership in 
Burma and other international actors can produce positive results 
without resorting to such measures at this time.

    Question. Given that the jade and gemstone sector has been 
identified by many analysts as one of the principle drivers of conflict 
in Burma, including ethnic conflict, the narcotics trade, and 
corruption, what should the United States do to support a transparent, 
equitable and sustainable jade and gemstone sector in Burma that 
benefits all segments of the Burmese society?

    Answer. The United States can assist the Burmese government to 
build greater capacity to monitor and certify its production of jade 
and precious stones-areas in which it has made progress since beginning 
the transition to civilian control. But much of the country's jade and 
gemstone industry is based in conflict areas in the north, where 
proceeds from smuggling help fund armed ethnic groups that maintain 
close ties to China. It is therefore critical that the United States 
work with China, along with other neighboring countries and 
international organizations, to crack down on the illicit trade in jade 
and gemstones from Burma.

    Question. Will you prioritize the development of the power sector 
in Burma, where only a third of the population has reliable access to 
electricity?

    Answer. Yes.


                               __________

              Secretary-Designate Tillerson's Answers to 
                      Questions from Senator Rubio

Russia
    Question. What is your view regarding the long-term implications of 
allowing a state to violate the sovereignty and annex the territory of 
its smaller neighbor?

    Answer. I believe it establishes a very dangerous precedent and can 
lead to destabilizing a region as seen in Europe and Asia during World 
War IL This could have a profound negative impact on U.S. national 
interests.

    Question. Do you believe Russia committed an act of aggression by 
invading Georgia and seizing Georgian territory in August 2008?

    Answer. Yes. As I stated in my oral testimony, such actions by 
Russia represent unacceptable behavior. Almost nine years after the war 
ended, Russia is still in violation of the Six Point Peace Plan 
brokered by then French President Nicolas Sarkozy.

    Question. Do you believe the United States should accept a Russian 
sphere of influence in any part of the world?
    If so, what are the countries or regions that would fall into such 
a sphere-Ukraine? Georgia? The Balkans? The Middle East?

    Answer. No.

    Question. If not, what lengths should the United States be willing 
to pursue to prevent the establishment of spheres of influence?

    Answer. I do not believe nations are entitled to a sphere of 
influence over other sovereign nations. We should strengthen our 
alliances with other like-minded nations who also oppose any nation 
seeking to establish spheres of influence.

    Question. In 2008, you delivered remarks in Russia in which you 
said ``Russia must improve the functioning of its judicial system and 
its judiciary. There is no respect for the rule of law in Russia 
today.'' In 2012, you concluded one of the biggest energy deals in 
Russian history. Do you believe the rule flaw in Russia improved 
between 2008 and 2012?

    Answer. No.

    Question. Does your conclusion that there is no rule of law in 
Russia remain just as applicable today as it was in 2008?

    Answer. Yes.

    Question. What is your relationship with Igor Sechin?
    Would you describe him as a business partner or do you have a 
closer relationship?

    Answer. As Chairman and CEO of ExxonMobil, I interacted with Mr. 
Sechin as a business partner in his capacity as CEO of Rosneft. I also 
interacted with Mr. Sechin's predecessor at Rosneft, Eduard 
Khudainatov, in the same capacity.

    Question. The Russian press has published various reports about Mr. 
Sechin, his property holdings, and his lifestyle. Independent news 
organizations have been pressured by the Russian regime to retract 
these reports. Do you believe that Mr. Sechin is corrupt?

    Answer. I have not interacted with Mr. Sechin in his personal 
capacity since the sanctions were put in place in April 2014. All of my 
interactions with him have been on behalf of our respective employers, 
and all of ExxonMobil's business transactions with Rosneft have been 
fully compliant with U.S. laws. If confirmed, I can commit to you that 
I will review relevant information that would help me to assess your 
question fully.

    Question. Did you meet with him after he was designated a 
sanctioned individual by the U.S. Treasury Department in April 2014?

    Answer. During my tenure as Chairman and CEO of ExxonMobil, the 
company conducted business with Rosneft. Consistent with the 
designation, I only met with Mr. Sechin following his designation in 
his role as CEO of Rosneft to conduct business.

    Question. Did you consult with the U.S. State Department, U.S. 
Treasury Department, or any lawyers about your ongoing interactions 
with Mr. Sechin to determine if your meetings with him constituted 
``material support'' of an individual sanctioned by the U.S. 
Government?

    Answer. To the best of my knowledge, ExxonMobil took all 
appropriate steps to ensure that its actions involving Mr. Sechin as 
CEO of Rosneft were fully compliant with applicable U.S. laws and 
regulations.

    Question. Did you or anyone at ExxonMobil ever personally request 
the U.S. Government to re-examine or lift sanctions imposed against Mr. 
Sechin?

    Answer. I did not do so personally. Nor, to the best of my 
knowledge, did anyone at ExxonMobil

    Question. Did Mr. Sechin ever make such a request of you or anyone 
at ExxonMobil?

    Answer. Not to me personally. Nor, to the best of my knowledge, did 
he make any such request of others at ExxonMobil

    Question. Would you, if confirmed as Secretary of State, recommend 
that sanctions on Mr. Sechin be lifted or altered?

    Answer. If confirmed, I would favor continuing the status quo until 
all relevant facts and circumstances were fully reviewed.

    Question. Would you, as Secretary of State, continue meeting with 
Mr. Sechin even though he is a sanctioned individual and part of your 
job would be to convince other countries to abide by U.S. sanctions?

    Answer. No.

    Question. Press reports indicate that you were asked by the Obama 
Administration not to attend the 2014 World Petroleum Conference in 
Moscow.
    Who conveyed this request to you?

    Answer. No one. To the best of my knowledge, I did not receive any 
such request.

    Question. Why did you disregard this request?

    Answer. To the best of my knowledge, I received no request asking 
that I not attend the 2014 World Petroleum Congress, where I was a 
scheduled speaker given my role at ExxonMobil. The World Petroleum 
Congress is an industry-wide event that occurs every three years in a 
different country, and is widely attended by executives and government 
officials. I did not intend by my presence to signal support or 
opposition to Russian leadership, but rather to represent ExxonMobil 
and share its perspective on industry matters.

    Question. Last year, you reportedly attended the St. Petersburg 
International Economic Forum even though the U.S. Government had 
discouraged American business leaders from attending.
    Why did you ignore the U.S. Government's request?

    Answer. To the best of my knowledge, I did not receive any such 
request.

    Question. Did you discuss your attendance at this conference in 
advance with any U.S. officials?

    Answer. Not to my recollection.

    Question. Will you and the incoming Administration pledge not to 
lift or weaken sanctions currently imposed on Russian officials and 
individuals until:
  <diamond> Russia recognizes that Crimea is part of Ukraine?
  <diamond> Russia removes all military and irregular forces from 
        Ukrainian territory?
  <diamond> Russia halts its support for war crimes in Syria?
  <diamond> If no, what specific actions do you believe Russia needs to 
        take before sanctions are lifted or modified?

    Answer. I believe the current sanctions should remain in place. As 
to additional sanctions, I would like to include sanctions, whether 
executive or legislative in nature, in a process that identifies how to 
most-effectively respond to the series of illegal takings, 
interferences, support of atrocities, and other unacceptable events by 
Russian and Russian-backed elements. If confirmed, I will be working 
closely with the President-elect, the entire National Security team, 
and Congress to determine the appropriate next steps regarding Russian 
sanctions.

    Question. The Russian government seems to think that its 
interference in our elections, through leaking of personal information 
and promotion of fake news stories, is no different from our support 
for non- governmental organizations (NGOs) and independent media that 
promote human rights and free elections in Russia and other foreign 
countries.
    Do you agree that what we do and what they do is basically the 
same?

    Answer. No.

    Question. If not, how would you explain the difference?

    Answer. As I stated in my oral testimony, the United States is 
committed to working within the rule of law. Russia is not.

    Question. Are you aware that Kremlin-funded television and Internet 
sites routinely spread anti-American propaganda, including that the 
United States murdered its own citizens on 9/11, and spread equally 
vile lies in Europe to undermine our allies there?

    Answer. Yes.

    Question. What are your thoughts about how we should combat this 
propaganda? Is it in our interest to support a free, independent media 
in the Russian speaking world and elsewhere?

    Answer. We should support a free and independent media in the 
Russian-speaking world. Should I be confirmed, I will commit to 
supporting that effort.

    Answer. In your travels to Russia, have you ever met with any 
Russian human rights activists or any members of Russian civil society 
who are trying to defend human rights or to fight corruption in that 
country?

    Answer. My records do not reflect any such meeting, but it is 
entirely possible that I would have met with Russian activists or NGOs.

    Question. Did you meet such non-governmental activists in any other 
countries in which Exxon operated?

    Answer. Under my leadership, ExxonMobil regularly interacted with 
human rights and other non- governmental activists. I would also 
occasionally meet with activists and NGOs. For example, in late 2010, I 
participated in a global forum to end human trafficking, hosted by the 
United Nations Global Initiative to Fight Human Trafficking and the 
Suzanne Mubarak Women's International Peace Movement.As you know, 
President Barack Obama initiated a so-called ``reset'' of relations 
with Russia early during his tenure. Were you supportive of the Russian 
``reset'' at the time?

    Answer. As Chairman and CEO of ExxonMobil, I did not express a view 
on whether to support the so-called ``reset'' of relations with Russia.

    Question. Was the ``reset'' beneficial to Exxon's dealings in 
Russia?

    Answer. ExxonMobil's involvement in Russia predates the ``reset'' 
of relations with Russia under President Obama. I do not believe the 
``reset'' was itself beneficial or detrimental to the company's 
dealings in Russia.

    Question. What do you think the lessons learned from the ``reset'' 
are?

    Answer. The Administration's strategy for dealing with Russia, 
while well intended, fell short in execution. As I stated in my oral 
testimony, if confirmed, I will seek to develop an effective strategy 
to engage Russia that protects and advances U.S. interests.

    Question. President George W. Bush earlier tried to cooperate with 
President Vladimir Putin, but President Bush's tenure in office ended 
with Russia's invasion of Georgia in 2008. What do you think the legacy 
of the Bush approach to Russia is?

    Answer. The legacy of the Bush Administration's approach to Russia, 
in the end, was not too different from that of the past Administration.

    Question. A group of former leaders of America's European allies 
recently wrote a letter to President-elect Trump stating: ``Under 
Putin, Russia's record of militarism, wars, threats, broken treaties 
and false promises have made Europe a more dangerous place.... A deal 
with Putin will not bring peace. On the contrary, it makes war more 
likely.'' Do you share their assessment? Why or why not?Yes. Current 
Russian policies are a threat peace and stability in Europe.
Ukraine
    Question. Is it true that you once told a U.S. government official 
that the United States should have just asked Putin to pay for Crimea?

    Answer. No, to the best of my knowledge.

    Question. Do you believe estimates that up to 400-500 Russian 
soldiers have lost their lives fighting in Ukraine?

    Answer. I would need to be fully briefed to say with confidence how 
many Russian soldiers have died fighting in Ukraine. What is clear from 
available reporting is that a significant number of Russian military 
members have died in Ukraine, quite possibly many more than 500.

    Question. Is Russia currently in violation of the Minsk agreement?

    Answer. Yes. Russia has not yet implemented and adhered to its 
obligations under the Minsk Agreements.
NATO/European Security
    Question. How should the United States respond to Russia's use of 
energy as a weapon of geopolitical influence against European 
countries, such as when it shut off gas to Ukraine during the winters 
of 2006 and 2009?

    Answer. As I stated in my oral testimony, I believe the first and 
most important contribution the U.S. can make is to develop the 
abundant energy resources that we have in the United States and make 
them available for export to our friends and allies through the 
instruments of the free market

    Question. Would you change longstanding U.S. opposition to the 
Nordstream II pipeline?

    Answer. No.

    Question. Do you believe there is an economic justification for the 
Nordstream II pipeline?

    Answer. Having access to abundant supplies of natural gas is 
fundamental to Europe's continual economic prosperity. As such, there 
could be an economic justification. However, rather than deepening its 
dependency on a single supply--Russia--Europe would realize benefits 
from diversifying its supply on natural gas from other reliable 
countries.

    Question. What about South Stream?

    Answer. No.

    Question. The Republic of Moldova is seeking better relations with 
the United States and aspires to membership in the European Union (EU). 
Russia opposes Moldova's interest in joining the EU, to the point of 
imposing a trade embargo on the country when it signed an association 
agreement with the EU in 2014. Do you believe it is appropriate for 
Russia to pressure the Moldovan government not to join the EU?

    Answer. No. The Moldovan people and their elected representatives 
should decide whether EU membership is right or not for their nation 
and economy.

    Question. If not, will you support Moldova's right to decide for 
itself whether to pursue membership in the EU?

    Answer. Yes.

    Question. What actions will you take if confirmed as Secretary of 
State to assist Moldova in standing up to Russian pressure?

    Answer. Should I be confirmed, I would want to work with the 
President and the other members of the National Security Council to 
determine the best actions to be taken.

    Question. Do you believe that European nations that do not belong 
to the European Union (EU) or the North Atlantic Treaty Organization 
(NATO) should be free to join the EU, NATO, or other nations if they 
meet the criteria for membership in these organizations.

    Answer. The door is always open to those European nations who seek 
membership.

    Question. Should membership in these organizations be subject to 
negotiation with Russia?

    Answer. No.
Sanctions as a national security tool
    Question. Can you give me an example of an instance in which the 
Obama Administration properly exercised a national security waiver in 
congressionally-imposed sanctions, and also an example where it did 
not?

    Answer. I would need to be fully briefed on this issue in order to 
provide a complete response. What I can say is that, should I be 
confirmed, I will follow the law. I would never recommend exceeding the 
intent of national security waiver provisions. I would advise the 
President to use them as Congress intends to account for unforeseen 
developments, where using the waiver was appropriate with the purpose 
of the provision-advancing and protecting U.S. interests.

    Question. You have stated that ``[w]e do not support sanctions, 
generally, because we don't find them to be effective unless they are 
very well implemented comprehensively and that's a very hard thing to 
do.'' What is an example of a case where the United States used 
``comprehensive'' sanctions effectively to achieve national security 
goals?

    Answer. As I stated in my oral testimony, sanctions can be 
effective if they are part of an effective overall strategy aimed at 
accomplishing national security goals. For instance, as I stated in my 
oral testimony, I believe comprehensive sanctions against Cuba were 
important for our national security and promoting support for human 
rights in Cuba. Should I be confirmed, for example, I would want a 
comprehensive review of the executive order delisting Cuba as a state 
sponsor of terrorism to determine if delisting was appropriate.

    Question. Do you agree that sanctions played a role in bringing 
Iran to the negotiating table, even though these sanctions were not 
adhered to by every foreign government that is a major economic partner 
with Iran?

    Answer. Yes.

    Question. Do you believe that sanctions played a role in leading to 
democratic reform in Burma?

    Answer. Yes.

    Question. Do you believe that sanctions play an important role in 
slowing the growth of North Korea's weapons of mass destruction 
programs?

    Answer. Yes.

    Question. Is Russia the only country in which you believe sanctions 
have not been successful or are there other cases?

    Answer. Sanctions are a critical tool of U.S. foreign policy. 
Should I be confirmed, I would review the applicable laws in place and 
make an assessment as to whether they are being effectively 
implemented. I look forward to working with the Committee on this 
important issue.

    Answer. If confirmed as Secretary of State, part of your job when 
dealing with rogue regimes will be convincing other foreign governments 
to respect and abide by U.S. sanctions, some of which are unilateral 
U.S. sanctions.

    Question. How do you intend to make arguments in support of these 
sanctions given your own past remarks questioning the efficacy of 
sanctions?

    Answer. I have confidence in the President-elect and his team to 
develop sound strategies to protect and advance American interests. 
Should I be confirmed, I will press for sanction policies that align 
with those strategies. The Department of State will work with other 
federal agencies and foreign governments to fully implement them.

    Question. Do you commit to making sanctions implementation a 
priority if you are confirmed as Secretary of State?

    Answer. Yes.
Israel
    Question. During your time at ExxonMobil, did you ever conduct any 
business with Israel or Israeli companies?

    Answer. Yes. During my tenure as Chairman and CEO, ExxonMobil 
regularly conducted business in Israel and with Israeli companies.

    Question. During your time at ExxonMobil, did you ever turn away 
business with Israel in order not to damage relationship with Arab 
states? Did your Jewish employees ever face discrimination in Arab 
countries?
    If so, how did you respond to such incidents?

    Answer. No. During my tenure as Chairman and CEO, ExxonMobil had a 
robust antiboycott legal compliance program, providing clear guidance 
to employees concerning the United States antiboycott laws.
    I am not aware of any particular instances of discrimination faced 
by ExxonMobil's Jewish employees in Arab countries that occurred during 
my tenure as Chairman and CEO. It was important to me that ExxonMobil 
take discrimination very seriously. If any employees were harassed, 
they would have been entitled to a prompt and thorough investigation by 
ExxonMobil's human resources department, and appropriate follow-up.

    Question. Have you ever visited Israel?

    Answer. I have not yet had an opportunity to visit Israel but look 
forward to doing so soon after being confirmed, if I am confirmed.

    Question. Can you confirm that President-elect Donald Trump will 
move the U.S. embassy to Jerusalem? If so, can you provide a timetable 
for the move?

    Answer. Congress has mandated that the United States move its 
embassy in Israel to East Jerusalem from its current location in Tel 
Aviv. If confirmed, I would engage all the regional partners of the 
United States to discuss implementing this mandate. Such a move should 
only take place after the closest possible consultations with Jordan, 
in particular, which has an historically important role to play in 
preserving stability.

    Question. What specific steps will the Trump Administration take in 
response to the passage of United Nations Security Council Resolution 
2334?

    Answer. As I stated in my oral testimony, Israel is a vital ally of 
the United States, and we must meet our obligations to Israel as our 
most important strategic ally in the region.. Should I be confirmed, I 
would recommend to the President that the U.S. announce it no longer 
supports that resolution and that it veto any U.N. Security Council 
efforts to implement the resolution or enforce it, and block any future 
U.N. sanctions based on it.

    Question. Would the Trump Administration object to continued 
Israeli construction in either existing or new settlements?

    Answer. Should I be confirmed, I commit to gaining a greater 
understanding of U.S. interests and advocating for policies that as I 
stated in my oral testimony meet our obligations to our most important 
strategic ally in the region.

    Question. Do you regard construction of Israeli settlements as a 
primary reason for the failure of Israeli-Palestinian peace talks to 
date?

    Answer. No. Palestinian terrorist attacks, not the settlements, are 
the reason for the collapse of the Oslo Accords.

    Question. If confirmed as Secretary of State, what would you 
personally do to counter the Boycott, Divestment, and Sanctions (BDS) 
movement?

    Answer. As I stated in my oral testimony, Israel is a vitally of 
the United States, and we must meet our obligations to Israel as our 
most important strategically in the region. Should I be confirmed, I 
would recommend to the President that the U.S. announce it no longer 
supports that resolution and would veto any U.N. Security Council 
efforts to implement it or enforce it, and block any future U.N. 
sanctions based on it.

    Question.  If confirmed as Secretary of State, will you work to 
fight the anti-Israel bias at the United Nations?

    Answer. Yes.

    Question. Will you pledge to support the vetoing of any and all 
anti-Israel resolutions in the United Nations Security Council?

    Answer. Yes.

    Question. Many close American allies and aid recipients blindly 
support anti-Israel resolutions in the General Assembly and various 
U.N. bodies. Are you willing to use American leverage in our bilateral 
relationship with specific countries to reduce activity hostile to 
Israel and to our own nation in the U.N. system?

    Answer. Yes.

    Question. Do you agree that the United States should condition its 
contributions to the United Nations on certification that no U.N. 
agency or affiliated agencies grants any official status, 
accreditation, or recognition to any organization which promotes or 
condones anti-Semitism?

    Answer. Yes.

    Question. Is Bashar al-Assad the legitimate ruler of Syria? Is he a 
friend of the United States?

    Answer. Bashar al-Assad is a brutal dictator who rules only through 
the use of force and intimidation. He is no friend of the United 
States.

    Question. Do you think we should directly partner with Russia in 
military operations in Syria?

    Answer. No.

    Question. How many ISIS fighters have Russian forces killed in 
Syria?

    Answer. It is my understanding that they have killed very few, but 
I do not know an accurate number, and I look forward to a full 
briefing.

    Question. Do you believe Russia's actions in Syria have 
strengthened or weakened Iran?

    Answer. Russia has generally strengthened Iran's position.

    Question. Is American influence greater or weaker in the Middle 
East than it was prior to Russia getting involved in Syria?

    Answer. American influence has become weaker.

    Question. ``In Syria,'' wrote Lt. Gen. Michael Flynn, President-
Elect Trump's incoming national security advisor, in his recent book 
Field of Fight, ``[Russia and Iran] have loudly proclaimed they are 
waging war against ISIS, but in reality the great bulk of their efforts 
are aimed at the opponents of the Assad regime.'' Do you agree with 
Gen. Flynn's view that Russia and Iran have devoted the bulk of their 
efforts in Syria to defeating the moderate opposition, thereby 
strengthening the influence of ISIS?

    Answer. Yes.

    Question. Do you support assisting moderate Syrian opposition 
forces in Syria with non-lethal and lethal assistance?

    Answer. I would need to be fully briefed on this issue in order to 
provide a complete response. Should I be confirmed, I commit to gaining 
a greater knowledge of this issue and pressing for policies that best 
protect and advance U.S. interests in the region.

    Question. Is the current U.S. strategy of relying heavily on 
support from the Syrian Kurds to capture territory in northern Syria in 
the eventual offensive against Raqqa the strategy you would recommend 
to President Trump?

    Answer. I would need to be fully briefed on this issue in order to 
provide a complete response. However, it is my understanding that the 
Syrian Kurds have the most effective fighting force in retaking 
territories previously held by ISIS. Should I be confirmed, I commit to 
gaining a greater knowledge of this issue and pressing for policies 
that best protect and advance U.S. interests in the region.

    Question. Is it in America's interest for Iraq to be dominated by 
Iranian influence?

    Answer. No.

    Question. Were you supportive of the Iraq War in 2003?

    Answer. As a private citizen, I was generally supportive of 
continued containment of Saddam Hussein and his ruling government

    Question. Do-you believe the United States should have taken 
control of oil production in Iraq and received some or all of the 
proceeds from the sale of Iraqi oil?

    Answer. No.

    Question. Do you believe the United States should have retained a 
military presence in Iraq after 2011?

    Answer. Yes.

    Question. Do you support Kurdish independence?

    Answer. No. Kurdish autonomy within a federal and decentralized 
Iraqi state is a preferable outcome for U.S. national interests.

    Question. Is Iranian President Hassan Rouhani a moderate? Is he 
someone the United States can do business with?

    Answer. Regardless of President Rouhani's political position, the 
key decisions on issues of critical importance to the United States--
like nuclear program--are made by the Supreme Leader, Ayatollah 
Khomeini.
    Answer. Khomeini is not a moderate.

    Question. Did you support the Joint Comprehensive Plan of Action 
(JCPOA)?
  <diamond> If not, why?

    Answer. The JCPOA did not adequately reduce the threat posed by 
Iran. One of the priorities of the Trump Administration will be making 
sure that Iran does not acquire a nuclear weapons capability.

    Question. Do you agree that the JCPOA should be renegotiated or 
abrogated?
  <diamond> If so, which parameters of the JCPOA need to be modified?

    Answer. As I stated in my oral testimony, should I be confirmed, I 
commit to working with the President-elect and the National Security 
Council in assessing JCPOA and determining what further actions are 
required to protect and advance U.S. interests.

    Question. Will you support the imposition of additional sanctions 
on Iran for its ballistic missile efforts? Its continued support for 
terrorism? Its human rights abuses?

    Answer. Yes.

    Question. Did ExxonMobil, either individually or as part of a 
coalition, ever lobby on or against Iran sanctions?

    Answer. ExxonMobil did not lobby against Iran sanctions during my 
tenure as Chairman and CEO, but rather sought to share information with 
lawmakers that would assist them in mitigating disproportionate harm to 
U.S. companies as compared to their foreign competitors. I understand 
that ExxonMobil disclosed all such activity as required by the lobbying 
disclosure laws.

    Question. You told Senator Portman during your confirmation hearing 
that the United States should explore cooperation with Iran against 
ISIS. You later told me: ``Well, defeating ISIS is the one that is 
right in front of us and we're already cooperating with them in Iraq.'' 
How is the United States ``cooperating'' with Iran in Iraq?

    Answer. It is my current understanding the U.S. is not directly 
cooperating with these forces.

    Question. Do you acknowledge that Iran and its terrorist proxies 
have killed Americans?

    Answer. Yes.

    Question. Why would you think that the United States should 
cooperate with a country that even Obama administration officials have 
described as the world's foremost state sponsor of terrorism?

    Answer. The U.S. should not cooperate with Iran in Iraq or anywhere 
else.

    Question. There are tens of thousands of political prisoners in 
President Abdel Fattah el-Sisi's Egypt today, including American 
citizens such as Aya Hijazi, who has been jailed for nearly three years 
on baseless charges after she started an NGO to help street children. 
What will you do to protect American citizens abroad, and how will you 
work to press for the release of Americans held by foreign governments, 
including by U.S. allies such as Egypt?

    Answer. Should I be confirmed, I will ensure that the State 
Department fulfills its responsibilities, using its resources and 
expertise to proactively protect Americans when they travel, such as by 
communicating clearly the U.S. government's expectations that other 
governments protect, and treat lawfully and fairly, visiting Americans. 
In the event of danger to an American overseas, I will ensure all 
relevant personnel within the State Department treat the situation as a 
priority, and that there is coordination with other U.S. government 
agencies. For those Americans unjustly held by foreign governments, I 
will press at all opportunities with those governments and their 
publics the case that the Americans should be exonerated and freed, and 
I will examine all options for concerted action with other U.S. 
government agencies for gaining a speedy release.

    Question. If confirmed as Secretary of State, how would you work 
with Egypt's leaders to focus the country's energy on countering its 
real security threats and reforming its economy, while respecting 
freedom of the press, due process, civil society, and other fundamental 
freedoms?
  <diamond> What are the risks to Egypt's stability if its leaders 
        continue down the same path of repression and economic 
        stagnation?

    Answer. As I stated in my oral testimony, I believe that the 
deterioration of human rights is a threat to security. Instability in 
Egypt risks proliferating instability throughout the region. Should I 
be confirmed, I would make clear that the U.S. strongly believes an 
open and equitable society is the best way to ensure a strong, peaceful 
Egypt. The State Department should use every opportunity to encourage 
Egypt in that direction.

    Question. Do you believe the el-Sisi government is making Egypt 
more or less stable, and what evidence have you seen that supports your 
views?
  <diamond> How would you explain the surge in terrorist violence and 
        public unrest since el-Sisi seized power?

    Answer. The Muslim Brotherhood represented a greater threat to 
stability and human rights in Egypt and the region. Radical Islamist 
elements opposed to the government continue to instigate terrorism 
across Egypt.

    Question. Do you believe that the United States gives Egypt the 
right amount of foreign assistance, too much, or too little?

    Answer. I would need to be fully briefed on this issue in order to 
provide a complete response. Should I be confirmed, I commit to gaining 
a greater understanding of the terrorist threat in Egypt and developing 
effective U.S. policies to address them commensurate with U.S. 
interests. I will also examine other opportunities for U.S. foreign 
assistance that will support stability in the country by addressing 
human rights needs.

    Question. After the upheaval of the Arab Spring, only one country-
Tunisia-remains standing as an emerging democracy in the region. Do you 
believe it should be a national security priority of the United States 
to support Tunisia's transition to democracy? What specifically should 
the United States do?

    Answer. Yes, I do believe Tunisia is a strategically important 
country for the United States and an important partner for us in 
bringing stability to the region. I believe we should broadly engage 
with Tunisia on security, economic, governance, and civil society 
development As to the specifics of the next steps in this vital 
relationship.
    I would need to be fully briefed on this issue. Should I be 
confirmed, I commit to gaining a greater understanding of the 
effectiveness of U.S. foreign assistance and bilateral programs and 
develop proposals to make assistance and engagement as effective as 
possible to deepen and broaden the relationship and joint commitment to 
regional peace, stability and prosperity.

    Question. Over the past year, Bahrain has dramatically escalated 
its crackdown against human rights defenders and peaceful opposition 
leaders. As the home of the U.S. Fifth Fleet, a stable Bahrain is 
critical to U.S. national security interests. But unless the Sunni 
monarchy moves to share power with its restive Shia- majority 
population, the country risks descending into open sectarian conflict 
that could destabilize the country and jeopardize the Fifth Fleet. If 
confirmed as Secretary of State, how will you encourage Bahrain's 
rulers to reverse course, and implement genuine political reform to 
stabilize the country and secure the U.S. Fifth Fleet in the years 
ahead?

    Answer. Bahrain has long been one of our most vital partners in the 
Gulf region, particularly in terms of the crucial support it provides 
the U.S. Fifth Fleet Bahrain faces a number of challenges, not least 
the ongoing threat to its security and stability from an aggressive 
Iran. If confirmed, I will work with Bahrain's leaders to strengthen 
our alliance and combat common threats, while also encouraging reforms 
that can enhance Bahrain's long-term stability and security.

    Question. ExxonMobil's logo has apparently appeared on numerous 
fliers for lectures by hate preachers in Qatar. Examples include hate 
preacher lectures both at the Katara cultural village, where your firm 
had a ``strategic partnership,'' as well as at a Qatari Ramadan 
festival in 2016. Such hate preachers had claimed that 9/11 was carried 
out by Israel and the American right wing, that Jews are ``devils in 
human form,'' that Christians are ``crusaders,'' and that 9/11 and the 
Charlie Hebdo attacks were a ``comedy film,'' and that the only 
``solution'' for dealing with Jews is to wage ``jihad'' against them. 
Were you aware that ExxonMobil was funding such hateful and violent 
rhetoric?

    Answer. This type of rhetoric directly contradicts what I know to 
be ExxonMobil's corporate values, and I condemn it personally. During 
my tenure as Chairman and CEO, ExxonMobil promoted diversity and 
inclusion in its operations, both in the United States and abroad, and 
strictly prohibited harassment and discrimination in the workplace. I 
am not aware of ExxonMobil funding hateful and violent rhetoric or any 
of the individuals described above.

    Question. What was your role in overseeing ExxonMobil's operations 
in Qatar?

    Answer. As Chairman and CEO, I was involved in high-level strategic 
decisions regarding ExxonMobil's operations, and I relied on my 
subordinates to elevate issues in connection with day-to-day operations 
as appropriate.

    Question. Does the use of ExxonMobil's imprimatur to promote such 
hate preachers reflect negatively upon your capabilities for overseeing 
a large bureaucracy and tackling thorny international issues?

    Answer. I am not aware of the imprimatur being used in the manner 
described by your question. If it were used in that manner, it would 
have been without ExxonMobil's permission or knowledge. I condemn 
hateful speech in all its forms.

    Question. What would you do as secretary of state to fight 
religious incitement by state-backed preachers in Qatar, Saudi Arabia, 
and other countries?

    Answer. It is my understanding there are on-going efforts in these 
areas through entities within the State Department including the Office 
of Global Engagement. Should I be confirmed, I commit to assessing 
their effectiveness and implementing appropriate measures. I look 
forward to working with Congress on this issue.

    Question. You have repeatedly praised Qatari rulers and spoken of 
their ``visionary leadership.'' Do you believe that Qatar has done 
enough to fight extremist Islamist and anti-Israel terrorist groups?

    Answer. No.

    Question. Do you believe that Qatar should continue to host the 
political leader of Hamas, Khaled Mashal?

    Answer. No.

    Question. Do you believe that there have been any negative 
repercussions of Qatar's rise as an economic and military power, 
largely fueled by its partnership with companies like Exxon?

    Answer. At times Qatar has supported groups and organizations which 
have been counter to U.S. national interests. However, on balance Qatar 
continues to be an important regional ally for the U.S. and even hosts 
one of the largest American air bases outside the United 
States.Afghanistan

    Question. Should the United States keep troops in Afghanistan for 
the foreseeable future?

    Answer. Yes.

    Question. Do ISIS and other Islamist terror groups pose an 
existential threat to the United States?

    Answer. Yes.

    Question. Does the United States need the assistance of Muslim-
Americans and majority-Muslim countries around the world to defeat ISIS 
and affiliated groups?

    Answer. Yes.

    Question. Do you agree that the failure to provide lethal and non-
lethal assistance to the moderate Syrian opposition helped give rise to 
ISIS and other jihadist groups?

    Answer. I would need to be fully briefed on this issue in order to 
provide a complete response.
China
    Question. A Hague tribunal last year rejected China's argument that 
it enjoys historic rights over most of the South China Sea. Do you 
agree that Beijing's ``Nine Dash Line'' claim of sovereignty over the 
South China Sea is invalid?

    Answer. Yes. It is my understanding that the United States 
government recognizes the findings of the PCA to be part of 
international law. As the PCA found the Chinese claims to the South 
China Sea based upon the ``Nine Dash Line'' to have no legal standing, 
it is my understanding that the U.S. government sees such claims as 
having no basis in international law.

    Question. Would you further agree that any attempt by China to 
unilaterally change the security status quo in the region is 
unacceptable?

    Answer. Yes.

    Question. As Secretary of State, would you be willing to consider 
the imposition of targeted sanctions against Chinese companies involved 
in militarizing the South China Sea?

    Answer. The United States should consider a full range of options 
to dissuade China from pursuing its destabilizing activities in the 
South China Sea. This should include considering targeted sanctions 
against Chinese and other companies involved in militarizing the South 
China Sea.

    Question. The political prisoner database maintained by the 
Congressional Executive Commission on China (CECC) which currently 
contains more than 1400 active records of individuals known or believed 
to be in detention. While this number is staggering it is far from 
exhaustive. Mindful that Chinese leaders determine U.S. seriousness on 
human rights by the level and the frequency with which it is raised, do 
you commit to ensuring that human rights concerns are integrated in 
every senior bilateral engagement, and that specific prisoner cases are 
raised at the highest levels both publicly and privately?

    Answer. Should I be confirmed, I commit to ensuring human rights 
issues, like political prisoner cases, will be incorporated into our 
diplomatic engagement with China.

    Question. A December 2016 Washington Post headline read, 
``Christians in China feel the full force of Authorities Repression.'' 
The story specifically documented the crackdown on the once thriving 
Living Stone Church, the detention of one of its pastors on charges of 
``possessing state secrets'' (last week he was reportedly sentenced to 
two-and-one-half years in prison) and dozens of church attendees being 
regularly followed by police. The Communist Party is still avowedly 
atheist and routinely employs repression, intimidation and even 
imprisonment in its efforts to control the spread of religion. How 
would you engage with Chinese authorities on these issues?

    Answer. Should I be confirmed, I commit to ensuring that diplomatic 
engagements with China properly and actively address threats to 
religious freedom.

    Question. What priority would you give to religious freedom issues 
to include not just house church Christians, but Tibetan Buddhists, 
Uyghur Muslims, Falun Gong practitioners and others?

    Answer. Should I be confirmed, this would be a high priority. It is 
my understanding that in 2016, China was re-designated a Country of 
Particular Concern. Evaluations on the state of religious freedom 
should continue to be included in the annually released International 
Religious Freedom report.

    Question. It has long been the policy of the U.S. government, 
provided by the Tibetan Policy Act, to promote a dialogue between the 
envoys of the Dalai Lama and the Chinese government toward a solution 
on the Tibet issue that guarantees the respect of the ``distinct 
identity'' of the Tibetan people, who continue to suffer under China's 
oppressive rule. The dialogue is now at a standstill and the lack of 
substantive progress toward a genuine resolution continues to be a 
thorny issue in U.S.-China relations. What will you do to promote 
dialogue between envoys of the Dalai Lama and the Chinese government?

    Answer. Should I be confirmed, while recognizing Tibet as part of 
the People's Republic of China, I will continue to encourage dialogue 
between Beijing and representatives of Tibet's ``government in exile'' 
and/or the Dalai Lama. I will also encourage Beijing and the 
governments of all nations to respect and preserve the distinct 
religious, linguistic, and cultural identity of the Tibetan people 
worldwide.

    Question. Will you commit to receiving and meeting with the Dalai 
Lama?

    Answer. Yes.

    Question. China consistently blocks the access of reporters, civil 
society actors, diplomats and others to places like Tibet, routinely 
denies visas to foreign journalists and otherwise restricts both 
freedom of movement and freedom of information. At the same time, 
Chinese government officials encounter none of these same challenges in 
the U.S. Even state-controlled media is given free reign and broadcasts 
without interference in cities across America. Do you view this as 
problematic?

    Answer. Yes.

    Question. Do you think it would be advisable to limit the number of 
visas allowed to executives or administrative personnel from Chinese 
state-owned media enterprises operating in the U.S. if foreign 
journalists continue to face visa restrictions, police harassment and 
surveillance?

    Answer. Should I be confirmed, I commit to assessing what should be 
the best policy, recognizing that reciprocity in treatment is a 
principal in bilateral relations.

    Question. Would you support targeting Chinese officials who are 
responsible for denying access to Tibet to U.S. citizens with visa 
sanctions, as provided in the ``Reciprocal Access to Tibet Act'' 
introduced in the last Congress?

    Answer. Should I be confirmed, I commit to assessing what should be 
the best policy, recognizing that reciprocity in treatment is a 
principal in bilateral relations.

    Question. Some have called China's Internet Firewall the Berlin 
Wall of the 21st Century. What priority would you place on Internet 
freedom programs in countries like China, Iran and Cuba? In your view, 
did the Obama Administration give this issue sufficient attention given 
its geopolitical implications?

    Answer. Should I be confirmed, I commit to assessing what should be 
the best policy, recognizing that efforts to limit the free flow of 
information, including by altering the governance structure, should be 
opposed.

    Question. The 2016 Report form the Congressional Executive 
Commission on China finds that ``Hong Kong's 'high degree of autonomy,' 
guaranteed under the 'one country, two systems' principle enshrined in 
the Basic Law, faced renewed threat of interference from mainland 
China.'' Beijing's recent actions in Hong Kong are unprecedented, and 
should send chills down the spines of people who care about promoting 
democratic governance in Hong Kong by preserving its independent legal 
system. Increasingly it seems that Hong Kong's cherished 'high degree 
of autonomy' has limits, and those limits are whatever the Communist 
Party in China decides. Do you believe that China is violating its 
promise from the handover to respect Hong Kong's independence?

    Answer. Should I be confirmed, I commit to learning more about this 
issue. It is my understanding that the government has a binding 
international commitment to provide Hong Kong a ``high degree of 
autonomy. I would think U.S. policy should reflect that commitment.

    Question. What do you believe is America's role in ensuring that 
Beijing keeps its commitment in full?

    Answer. The United States should press the government to honor its 
obligations.

    Question. How would you work to ensure that the people of Hong Kong 
who yearn for greater electoral representation, democratic reform, 
protection of human rights and a legal system that functions 
independent of mainland interference, find in the U.S. a friend willing 
to oppose efforts by the Chinese government to crush or suppress 
dissent?

    Answer. It is my understanding that under the Hong Kong Policy Act, 
the United States is committed to democracy in Hong Kong on an ongoing 
basis. I would follow the law.
Taiwan
    Question. The Taiwan Relations Act (Public Law 96-8), enacted on 
April 10, 1979, along with the ``Six Assurances,'' form the cornerstone 
of U.S.-Taiwan relations. Will you and the Administration continue to 
reiterate and reaffirm the TRA and ``Six Assurances.''

    Answer. Yes.

    Question. The United States for decades has benefited from a strong 
security and economic relationship with Taiwan. However, the United 
States continues to maintain self-imposed restrictions on high-level 
exchanges with Taiwan. Will you and the Administration encourage 
exchanges between the United State and Taiwan at all levels?

    Answer. Yes.

    Question. As Secretary of State, would you be willing to:

  <diamond> Visit Taiwan?

    Answer. It is my understanding that the United States has 
commitments to Taiwan under the TRA and ``Six Assurances.'' The United 
States also has commitments to the PRC in the context of the ``Three 
Communiques.'' Should I be confirmed, any travel I take would conform 
to the United States' understanding of all of these.

  <diamond> Meet with your Taiwanese counterpart in the United States?

    Answer. It is my understanding that the United States has 
commitments to Taiwan under the TRA and ``Six Assurances.'' The United 
States also has commitments to the PRC in the context of the ``Three 
Communiques.'' Should I be confirmed, I would insist that any travel 
conform to the United States' understanding of all of these.

  <diamond> Authorize the travel of Senate-confirmed officials to 
        Taiwan?

    Answer. It is my understanding that the United States has 
commitments to Taiwan under the TRA and ``Six Assurances.'' The United 
States also has commitments to the PRC in the context of the ``Three 
Communiques.'' Should I be confirmed, any travel conform to the United 
States' understanding of all of these. It is my understanding that a 
review of travel restrictions could result in Senate-confirmed 
personnel being permitted to travel to Taiwan.

    Question. Global health, international aviation security, and 
transnational crime are all matters of global importance that requires 
cooperation from stakeholders from all around the world. Congress has 
passed legislations requiring the State Department to support Taiwan's 
meaningful participation in international organizations such as the 
World Health Organization (WHO), the International Civil Aviation 
Organization (ICAO), and the International Criminal Police Organization 
(INTERPOL). How do you and the Administration plan to support Taiwan's 
international participation?

  <diamond> If confirmed, do you pledge to support the early delivery 
        of a new arms package to Taiwan?

    Answer. Should I be confirmed, yes, I would be prepared to approve 
of the sale of arms of a defensive character to Taiwan as necessary to 
maintain a credible deterrent. The need for many such items, such as 
advanced fighters, are a matter of public record, as is the need for 
diesel electric submarines and the U.S. commitment to help Taiwan 
acquire them.

    Question. As the American Action Forum noted in November, Japan 
contributes 50 percent and South Korea 41 percent of the costs to 
support the American military presence in each country. Would you agree 
that this cost sharing for America's bases is fair?

    Answer. Strong alliances are vital to both the United States and 
its allies. Cost sharing arrangements between the United States and 
Japan and South Korea are governed by Special Measures Agreements. 
Under these bilateral agreements, Japan and South Korea provide 
substantial support to U.S. forces. The President-elect has committed 
to working with U.S. allies to review these arrangements, as is done 
periodically, to ensure that the United States and its allies are each 
contributing their fair share of the costs and duties of these 
alliances.

    Question. Would you further agree that the United States shares 
common security interests with both Tokyo and Seoul?Yes.

    Question. Would you also agree that forward-deploying U.S. forces 
with these bases is less costly than projecting them from the U.S. 
mainland?

    Answer. I would need to be fully briefed on this issue in order to 
provide a complete response. It is my understanding that obtaining and 
defending U.S. national interests in Asia requires bases and access, 
sufficient forward-deployed military forces to deter aggression, robust 
follow-on forces, and strong alliances and security relationships such 
as those with Japan and South Korea. It is also my understanding that 
replacing permanent forward-deployed forces in Asia with rotational 
troops would incur significant costs and would reduce American 
capabilities and influence in the region.

    Question. On June 13, 2013, you praised the Trans-Pacific 
Partnership (TPP), saying that it was a ``most promising development'' 
in the effort to lower tariffs and end protectionist policies. If 
enacted, you added that it could ``shore up the energy security of 
Asian allies and trading partners'' while also benefiting the U.S. 
economy as a whole. Do you still support the TPP?

    Answer. Should I be confirmed, I will be guided by the decision of 
the President

    Question. If confirmed as Secretary of State, will you encourage 
the Congress to ratify the agreement?

    Answer. Should I be confirmed, I will be guided by the decision of 
the President
Central America
    Question. Tens of thousands of vulnerable children and families 
continue to flee to the United States from Guatemala, Honduras, and El 
Salvador. Many of them are threatened by ruthless gangs and criminal 
networks who effectively hold authority in their neighborhoods and who 
deploy a forced recruiting policy, known as ``join [the gang] or die.'' 
Some have witnessed the killing of family members. How would you work 
with the federal governments of Honduras, Guatemala, and El Salvador to 
ensure that they are prioritizing these marginalized youth and 
protecting them from police brutality in their Alliance for Prosperity 
plans?

    Answer. If confirmed, I would review our law enforcement 
cooperation programs with Central American countries with a view 
towards ensuring that they are effective in fighting crime and also 
holding the police forces in these countries who receive our assistance 
to high standards of conduct, respecting the human rights of their 
citizens.

    Question. Would you be willing to scale up and speed up the extant 
programs to process asylum-seekers in their home countries?

    Answer. Should I be confirmed, I commit to working with other 
federal agencies to increase the speed and scale to effectively process 
asylum claims consistent with U.S. security interests.

    Question. Freedoms have declined in Nicaragua as President Daniel 
Ortega has consolidated his power and increased pressure on media and 
civil society, yet the Obama Administration did little to respond. What 
policies will you implement to handle things differently than the 
previous administration?

    Answer. I agree that President Ortega has not governed 
democratically in Nicaragua. If confirmed, I will commit to reviewing 
our policy toward that country, with the ultimate aim of bolstering 
civil society and democratic institutions. We could also, in 
consultation with your committee, discuss whether there is any trade or 
other benefits to which Nicaragua would become disqualified as a result 
of its government's abuses of power.

    Question. In Nicaragua, according to the2015 State Department's 
Bureau of Democracy, Human Rights and Labor, Country reports ``there 
was widespread corruption including in the police, Supreme Court 
Justice (CSJ) and other government organs.'' If confirmed as Secretary 
of State, what steps will you take to address corruption among high 
level officials that is having such corrosive effect on good governance 
and the rule of law in Nicaragua?

    Answer. Should I be confirmed, I commit to gaining a greater 
understanding of this issue and pressing for the most effective 
policies to address the issue of rampant corruption in Nicaragua 
consistent with U.S. interests.

    Question. I along with my colleague Senator Markey have cosponsored 
a resolution regarding the trafficking of illicit fentanyl into the 
United States from Mexico and China. Our bipartisan resolution urges 
the United States Government, including the Secretary of State, the 
Attorney General, the Secretary of Homeland Security, and the Director 
of the Office of National Drug Control Policy, to use the broad 
diplomatic and law enforcement resources of the United States, in 
partnership with the Governments of Mexico and China, to stop the 
production of illicit fentanyl and its trafficking into the United 
States. If confirmed, will you commit to work closely with federal 
agencies to stop the production and trafficking of illicit fentanyl to 
the U.S.?

    Answer. Yes.

    Question. Do you support the United States continuing to invest in 
the Alliance for Prosperity Initiative in Central America?

    Answer. Yes. Should I be confirmed, I will seek to formulate goals 
and prioritize our efforts as to where the most help is needed. A 
particular focus should be on improving the capabilities of these 
countries to reduce the flow of people coming illegally and to combat 
transnational criminal networks.

    Question. Despite the Obama Administration's controversial decision 
to normalize relations with Cuba and hopes that this could lead to 
improved governance and human rights, Cuban officials continue to 
arrest dissidents and violate the rights of citizens, and tourism 
revenues benefit only government officials and a small minority of the 
population. How do you plan to approach the United States' relationship 
with Cuba?

    Answer. The Administration's policy, as I stated in my oral 
testimony, does not serve Cubans or Americans. Should I be confirmed, I 
commit to working with the President-elect and the members of the 
National Security Council in crafting better policies. For example, I 
would want to reassess removing the Cuban government's designation as a 
state sponsor of terrorism.

    Question. How will you support human rights defenders and democracy 
activists in Cuba?

    Answer. Should I be confirmed, supporting human rights and 
democracy in Cuba will be at the forefront of the policy I recommend 
and implement in addressing the regime.

    Question. What bilateral and/or multilateral pressure will you 
exert against authoritarian rule in Cuba?

    Answer. It is my understanding the Administration's decision to 
normalize relations with Cuba was not met with any improvement any 
significant concessions on human rights. Nor has the Cuban government 
improved its behavior towards the United States. It is clear the Obama 
Administration's policies do not serve the interests of the United 
States or the Cuban people.
    Should I be confirmed, I commit as an immediate priority to gain a 
greater understanding of bilateral and multilateral options for 
applying pressure to bring about a change of behavior from the Cuban 
government.

    Question. The Obama Administration has issued a series of 
regulations and licenses that allow transactions with business entities 
owned by the Cuban military and that traffic in properties previously 
confiscated from American citizens. These transactions are inconsistent 
with U.S. statutes and Congressional intent under the LIBERTAD Act. Do 
you commit to reversing these licenses and regulations?

    Answer. Yes.

    Question. Do you commit to ensuring no transactions in Cuba involve 
Cuban military-owned entities or traffic in properties stolen from 
American citizens?

    Answer. Should I be confirmed, I will do so to the extent of my 
authorities, consistent with statutory requirements.

    Question. Will you ensure to commit to strictly enforcing the 
statutory prohibition on tourism-related transactions towards Cuba?

    Answer. Should I be confirmed, I will affirm enforcement of all 
statutory requirements.

    Question. In 2016, a modem record-setting 10,000+ political arrests 
by the Castro regime were documented in Cuba; democracy activists such 
as artist Danilo Maldonado (``El Sexto''), the Christian Liberation 
Movement's Dr. Eduardo Cardet and members of The Ladies in White, 
Xiomara de las Mercedes Cruz, Yaquelin Heredia, Marietta Martinez and 
Yuneth Cairo, remain imprisoned under inhumane conditions; Cuba remains 
the only country in the Americas to be labeled as ``Not Free'' by 
Freedom House; and groups such as Human Rights Watch provide details on 
the myriad of ways that basic rights and liberties are still not 
respected in Cuba. By any objective measure, the Castro regime has not 
improved its human rights record since the Obama Administration 
announced its new policy on December 17, 2014. To the contrary, human 
rights conditions on the island have worsened. Will you commit that the 
U.S. will maintain and increase democracy assistance for the Cuban 
people?

    Answer. Should I be confirmed, I will do so to the extent of my 
authority , consistent with statutory requirements.

    Question. The FBI estimates there are more than 70 fugitives from 
justice that are being provided safe-harbor by the Castro regime. These 
include Joanne Chesimard, a cop-killer on the FBI's Top Ten Most Wanted 
Terrorists list; William Morales, a convicted FALN (Fuerzas Armadas de 
Liberacion Nacional) bomb-maker who conducted a deadly terrorist attack 
in New York City; and Ishmael LaBeet, who was convicted in U.S. courts 
to eight life sentences for the murder of eight people. Will you commit 
to making the repatriation of these terrorists and other fugitives from 
U.S. justice a condition for the continuation of diplomatic relations 
with the Cuban government?

    Answer. Yes.

    Question. There are billions of dollars of outstanding American 
property claims against the Cuban government. In the past, as in the 
case of Libya, the United States has not normalized relations with 
countries subject to outstanding American claims until they have been 
resolved or a process for their resolution has been established. There 
are thousands of verified American claimants who have been waiting for 
decades to be compensated for the Castro regime's illegal expropriation 
of their property and assets. There are also billions of dollars in 
outstanding judgments from U.S. federal courts against the Cuban 
government for acts of terrorism. Prior to the establishing of 
diplomatic relations, the Cuban government should have been forced to 
compensate all of the verified claimants. Will you commit to making the 
resolution of properties confiscated from Americans a condition for the 
continuation of diplomatic relations with the Cuban government?

    Answer. Should I be confirmed, I would review the status of the 
resolution of claims and determining the best course of action for 
resolving the issue.

    Question. Next month, February 24th, will mark the 20th anniversary 
of the shootdown of two U.S. civilian aircraft over international 
waters, which resulted in the murder of three Americans and a permanent 
resident of the U.S. This shoot-down led to the 2003 federal indictment 
of three Cuban military officials, General Ruben Martinez Puente, 
Colonel Lorenzo Alberto Perez-Perez, and Colonel Francisco Perez- 
Perez, on four counts of murder, two counts of destruction of aircraft, 
and one count of conspiracy to kill United States nationals. Will you 
commit to making the extradition of these Cuban military officials a 
condition for the continuation of diplomatic relations with the Cuban 
government?

    Answer. Yes. Continuing diplomatic relations should be made 
conditional on issues like these, including repayment for the $8 
billion in U.S. citizens' and entities' seized assets and improvement 
on human rights as outlined in the Cuban Liberty and Democratic 
Solidarity Act (Helms Burton).

    Question. The Obama administration approved six U.S. domestic 
airlines to fly to nine Cuban airports. Among those Cuban airports 
chosen are Varadero (Matanzas), Cayo Coco, and Cayo Largo. These three 
airports are feeders to the Cuban military's isolated beach resorts. 
These flights seek to circumvent statutory restrictions on tourism-
related transactions towards Cuba. Will you ensure to commit to 
strictly enforcing the statutory prohibition on tourism-related 
transactions towards Cuba?

    Answer. Should I be confirmed, I will do so to the extent of my 
authorities, consistent with statutory requirements.

    Question. With each passing day, the humanitarian situation is 
worsening in Venezuela, and opposition activists, human rights 
defenders, and lawyers continued to be harassed, attacked, and 
imprisoned.
    More than 100 remain in jail. What should the United States do to 
prevent Venezuela from becoming a failed state?

    Answer. The U.S. should continue to support legitimate dialogue to 
resolve the political crisis between the Maduro government and the 
opposition that now controls the National Assembly. We must continue to 
denounce the Maduro government's undemocratic practices, call for the 
release of political prisoners, and enforce sanctions against 
Venezuelan human rights violators and narcotics traffickers. We should 
deliver humanitarian aid to mitigate food insecurity and the shortage 
of medical supplies, as appropriate.

    Question. Venezuela was a country rich in natural resources and 
with one of the most educated class in the world. The mismanagement, 
corruption and failed policies of former Hugo Chavez and the current 
administration of Nicolas Maduro have taken Venezuela in the wrong 
path, and become a failed state. There are shortages of medicine; 
newborn deaths have been reported, innocent individuals seat in jail 
for opposing and voicing their opinions against such tyrannical and 
oppressive regime. In response, the U.S. Congress passed legislation to 
support our commitment to the Venezuelan people, this legislation, 
``the Venezuela Defense of Human Rights and Civil Society Act of 2014'' 
authorizes sanctions against individuals who violate human rights. 
President Obama failed for not implementing the legislation the way it 
was intended. If confirmed, will you fully execute the intent of this 
legislation?

    Answer. Yes.

    Question. Colombia is a strong U.S. ally in Latin America. In 1997, 
the U.S. designated the FARC (Fuerzas Armadas Revolucionarias de 
Colombia) a foreign terrorist organization, responsible for the deaths 
of hundreds of thousands and the displacement of millions within 
Colombia. If confirmed, do you commit to not remove the FARC as a 
foreign terrorist organization?

    Answer. Should I be confirmed, I commit to reviewing the status of 
FARC as a terrorist organization according to U.S. law and making 
designations and recommendations based on the letter of the law.

    Question. Extradition laws in the U.S. uphold essential treaties 
and agreements between nations. Simon Trinidad was a leader of the FARC 
and convicted by a court in Colombia for aggravated kidnapping and 
rebellion and sentenced to 35 years in prison on May 4, 2004. He was 
convicted by a U.S. jury for plotting to hold three American nationals 
hostage after they were captured in Colombia, and was sentenced to 60 
years in prison on January 28, 2008. He is serving his time in a U.S. 
prison. If confirmed, can you affirm this committee that under your 
supervision, the U.S. will not offer or accept the release of any 
person currently held in the U.S. including Simon Trinidad, nor will 
the U.S. offer or accept the transfer of Trinidad or other individuals 
to Colombia?

    Answer. It is my understanding that the longstanding policy of the 
United States is to hold FARC terrorists accountable for violating 
American laws and that that policy serves the United States well and 
should be heavily weighed when making this determination. Should I be 
confirmed, I commit to reviewing current policy.

    Question. Florida is home to the largest Haitian American community 
in the nation. For decades the country has suffered from corruption, 
the mismanagement of foreign aid, political instability as well as 
devastating natural disasters. If confirmed, what will be your approach 
to the ongoing political situation on the island?

    Answer. It is my understanding that foreign assistance can be a 
powerful tool but in the case of Haiti, it has distorted the local 
markets and hindered rather than helped growing prosperity, building 
strong political institutions and a healthy civil society. Should I be 
confirmed, I commit to reviewing the effectiveness of current policies 
and determining a better course of action.

    Question. Is Russia violating the Intermediate-Range Nuclear Forces 
(INF) Treaty?
  <diamond> If so, should the United States continue to remain a party 
        to a treaty that the other party is violating?

    Answer. I would need to be fully briefed on this issue in order to 
provide a complete response. Should I be confirmed, I commit to gaining 
a full understanding of government's assessment of compliance with the 
INF Treaty. I believe the United States should expect full compliance 
with the treaty.

    Question. If confirmed as Secretary of State, would you support 
further U.S. nuclear reductions?
  <diamond> Should nuclear reductions occur outside of an agreement 
        with the Russian Federation or other nuclear powers?

    Answer. I do not support further unilateral reductions in the U.S. 
nuclear arsenal

    Question. Will you commit to continue the deployment of U.S. 
missile defense systems to Central and Eastern Europe, despite Russian 
objections?

    Answer. Yes.

    Question. If confirmed, would you support the extension of the New 
START agreement?

    Answer. I would need to be fully briefed on this issue in order to 
provide a complete response. Should I be confirmed, I commit to gaining 
a greater understanding of the issue and making a recommendation to the 
president. I look forward to consulting Congress on this issue.

    Question. If confirmed as Secretary of State, would you support the 
ratification of the Comprehensive Test Ban Treaty?

    Answer. If confirmed, I will respect the Senate's constitutional 
role in ratifying any treaty, including the CTBT.

    Question. The outgoing administration supported a United Nations 
Security Council resolution in an attempt to undermine the Senate's 
1999 rejection of the treaty. If confirmed, would you make clear to the 
international community that given the Senate's objection, the United 
States is not subject to the object and purpose of the treaty?

    Answer. If confirmed, I would seek a fuller briefing in today's 
context from experts on the CTBT and both the advantages and concerns 
associated with it.

    Question. The U.S. Government's budget for international affairs is 
approximately 1.3% of the total U.S. budget. The overall foreign 
assistance budget is at its lowest point since 2008, at $33.9B. The 
specific section of that for peace and security is nearly half in 2017 
and 16 what it was in 2014 and 15. At the same time, freedom and 
democracy are sliding, the number of armed conflicts is up, refugees 
are at their highest level since WWII and terrorist attacks continue to 
rise. Are we spending enough on foreign assistance, and if not, how 
will you ensure that the Department of State has what it needs to 
address current worldwide concerns?

    Answer. I would need to be fully briefed on this issue in order to 
provide a complete response. Should I be confirmed, I commit to 
assessing U.S. foreign assistance to ensure it is sufficient, 
effective, and consistent with U.S. interests. As I stated in my oral 
testimony, I have seen too many situations where recipient countries 
exploit the aid that we provide. We need to allocate adequate resources 
but ensure they are used appropriately by recipient countries. I look 
forward to working with Congress on this issue.

    Question. USAID is currently located as the F Bureau of the 
Department of State. Will you advocate for the Agency to maintain its 
current identity, position and role, become more integrated within the 
Department of State, or become more independent?

    Answer. I would need to be fully briefed on this issue in order to 
provide a complete response. Should I be confirmed, I look forward to 
working with Congress to address this issue.

    Question. In recent years, the State Department has made real 
progress becoming more transparent and accountable to taxpayers. In 
2015, the Department released an updated Evaluation Policy,l3l to guide 
how the agency determines what's working and what's not. In 2016, the 
``Foreign Aid Transparency and Accountability Act'' (PL. 114-191) was 
enacted, ensuring that foreign assistance dollars are accounted for on 
the Foreign Assistance website and evaluated for results. Would 
transparency, accountability, and effectiveness be a priority for you 
at the State Department?

    Answer. Yes, if I am confirmed.

    Question. The politically driven manipulation of the State 
Department's 2015 Trafficking in Persons (TIP) Report and continued 
concerns in the 2016 report were a major setback to U.S. efforts to 
combat human trafficking around the world. Major media outlets reported 
that within the State Department, the administration allowed political 
considerations to manipulate expert recommendations of the State 
Department's human rights and trafficking professionals. This resulted 
in the politically-driven upgrade of countries, specifically Cuba and 
Malaysia, from the ``Tier 3'' category to the ``Tier 2 Watch List.'' 
Given the widely held perception that several countries were 
undeservedly upgraded in the 2015 report due to the Obama 
Administration's politicization of the process, what will you do to 
rebuild the credibility of the report and ensure that a qualified, 
senior diplomat fills the position of Ambassador at Large for 
Trafficking in Persons in a timely fashion?

    Answer. I believe the U.S. should continue to lead international 
efforts to combat trafficking in persons. In order to do so, I believe 
the Trafficking in Persons report should be viewed as credible. The 
report remains a valuable diplomatic tool. Should I be confirmed, I 
will direct the Office to Monitor and Combat Trafficking in Persons 
(JMCTP) to integrate empirical and data-based metrics into the rankings 
and evaluations for the report in order to improve the report's 
objectivity. Should I be confirmed, I will make every effort to ensure 
that the Ambassador-at-Large position is filled in a timely manner.

    Question. One of the State Department's core missions is to promote 
equal rights for men and women around the world, including the right of 
all women and girls to decide if, when and whom they marry. Last year, 
I chaired a subcommittee hearing on the issue during which we heard 
sobering testimony about how child marriage perpetuates poverty, has 
lasting maternal and infant health ramifications and often contributes 
to violence. Ending child marriage is a U.S. foreign policy priority, 
and recently our diplomats and development officers have been working 
to end this human rights abuse. Please describe the steps you will take 
to ensure the U.S. continues to be a leader in ending child marriage.

    Answer. Should I be confirmed I commit to learning more about this 
issue and developing policy. I strongly support the goal to end the 
human rights abuse of child marriage. I look forward to working with 
Congress on this issue.

    Question. The Bureau of Democracy, Human Rights and Labor (DRL) 
plays a key role in executing the will of Congress on human rights, 
democracy promotion, and religious freedom. It produces the annual 
human rights report and the annual International Religious Freedom 
Report, and vetting of security units. If confirmed, will you commit to 
continue funding to DRL and work to identify areas that require 
additional funding?

    Answer. I would need to be fully briefed on this issue in order to 
provide a complete response. Should I be confirmed I commit to learning 
more about this issue and developing the best recommendations on future 
funding. I look forward to working with Congress on this issue.

    Question. During your time as CEO of Exxon, did you ever you ever 
raise concerns in the areas of human rights and democracy with country 
leaders in your professional capacity?

    Answer. During my tenure as Chairman and CEO of ExxonMobil, I did 
speak with foreign leaders about human rights and democracy concerns. 
As I expressed during my confirmation hearing on January 11, human 
rights violations, if left unaddressed, cause great upheaval in civil 
society. I believe that respect for human rights and the rule of law 
are essential foundations for a stable and functioning society.

    Question. Given that several notorious human rights abusers 
perennially try to run for seats on the United Nations Human Rights 
Council, do you agree that the United States should make its 
participation in the Council contingent upon certain standards for 
membership?

    Answer. Yes.

    Question. The Obama Administration had a notoriously long vacancy 
in the post of Ambassador at Large for International Religious Freedom 
during its first term and then when the post was eventually filled in 
the President's first time the position was downgraded within the 
Department and staffing levels of the office reached an all-time low. 
One of the final bills passed and signed into law during the last 
Congress was legislation I introduced in the Senate, the Frank Wolf 
International Religious Freedom Act which seeks to ensure that 
America's first freedom is given the prominence it deserves in American 
foreign policy. Will the proper implementation of this law be a 
priority for you?

    Answer. Yes.

    Question. Do you commit to nominating someone to fill the 
ambassador post, which now reports directly to you, in your first 100 
days, should you be confirmed?

    Answer. Should I be confirmed, I will do so to the best of my 
abili-ty.

    Question. What are your views on prioritizing humanitarian 
assistance to those religious and ethnic communities identified in 
Secretary Kerry's genocide designation?

    Answer. I would need to be fully briefed on this issue in order to 
provide a complete response. I believe that victims of ISIS genocide, 
which include Yazidis, Christians, and Shia Muslims, should be provided 
humanitarian assistance. Should I be confirmed, I commit to learning 
more about this issue and developing the best recommendations on 
delivering assistance. I look forward to consulting with Congress on 
this issue.

    Question. The Helms amendment states, ``No foreign assistance funds 
may be used to pay for the performance of abortion as a method of 
family planning or to motivate or coerce any person to practice 
abortions.'' If confirmed, can you guarantee there will be a strict 
adherence to the Helms amendment in the administration of U.S. foreign 
assistance?

    Answer. The President-elect has already made a number of pro-life 
commitments. The Helms Amendment is current law and I will absolutely 
commit to abiding by the law.

    Question. If confirmed, can you guarantee there will be a return to 
strict adherence of the Mexico City Policy, which President Obama 
overturned?

    Answer. The President-elect has not taken a specific position on 
the policy known as the Mexico City Policy, but it would certainly be 
consistent with his other pro-life commitments.

    Question. Given your support of the Paris agreement, what role do 
you envision the State Department playing on climate and environmental 
issues?

    Answer. As I stated in my oral testimony, the United States should 
have a seat at the table when it comes to the discussion on climate 
change and other global environmental issues. We must participate and 
engage in those discussions to advance the interests of the United 
States. Should I be confirmed, that is exactly what I will do.

    Question. Do you support U.S. funding of the Green Climate Fund?

    Answer. As I stated in my oral testimony, should I be confirmed, at 
the direction of the president, it is my expectation we would look at 
U.S. support of these programs from the bottom up in terms of funding. 
We would want to put resources where they can be most effective. Should 
I be confirmed, I will commit to this effort.


                               __________

              Secretary-Designate Tillerson's Answers to 
                    Questions from Senator Menendez

                           western hemisphere
Central America
    Question. Last year, Democrats and Republicans came together to 
provide $750 million for a comprehensive assistance package to Central 
America to address the high levels of violence, weak rule of law, and 
widespread poverty driving irregular migration. This assistance was, in 
part, an acknowledgement by both parties in both chambers of Congress 
that when it comes to immigration, enforcement alone is not enough. 
Will you commit to building on this bipartisan progress and continue 
efforts and funding to address the root causes of Central America 
migration? As tens of thousands of vulnerable people arrive at the 
southern border, how will you ensure the United States' legal and moral 
obligations are fulfilled in protecting their well-being and rights? 
Will you maintain the United States partnership with the U.N. High 
Commissioner for Refugees to ensure that Central American migrants 
fleeing violence receive sufficient protections and that they can be 
screened for relocation in third-countries?

    Answer. Should I be confirmed as Secretary, I will work with 
Congress and the President-elect to ensure that our foreign policy 
priorities align with our domestic needs and fulfil our legal 
obligations. I have not yet been briefed on all aspects of the U.S. 
Refugee Admissions Program, but should I be confirmed as Secretary, I 
will faithfully administer the Refugee Admissions Program consistent 
with law and the policy preferences of the President-elect.
Mexico
    Question. In its 2016 National Drug Threat Assessment, the Drug 
Enforcement Administration (DEA) identified Mexican transnational 
criminal organizations as the ``greatest criminal drug threat'' to the 
United States. As you know, the State Department plays a central role 
in coordinating U.S. counternarcotics assistance and Mexican criminal 
organizations continue to illegally traffic South American cocaine and 
a growing volume of Mexican-produced heroin and Mexican- and Chinese-
produced fentanyl into the U.S.--which is fueling opioid addiction and 
an alarming number of overdoses across the U.S. As we cannot resolve 
this challenge alone, if confirmed, what strategies will you employ to 
work with the Government of Mexico to combat these criminal 
organizations and the illegal drug trade?

    Answer. If confirmed, I look forward to being fully briefed on the 
State Department's current responsibilities and strategies in this area 
and helping the President-elect address the illegal drug epidemic in 
the United States, as appropriate and in consultation with other 
agencies with jurisdiction in this mission area.

    Question. According to the DEA November 2016 National Drug Threat 
Assessment, Mexican transnational criminal organizations (TCOs) use a 
wide variety of smuggling methods, but ``the most common method 
employed by Mexican TCOs involves transporting drugs in vehicles 
through [legal] U.S. ports of entry. Illicit drugs are smuggled into 
the United States in concealed compartments within passenger vehicles 
or commingled with legitimate goods on tractor trailers.'' In the same 
report, DEA stated that from 1990 through FY2015, 224 tunnels were 
found under the U.S.-Mexican border, including 14 in FY2014 and 8 in 
FY2015. Do you agree with the DEA's findings? Do you agree that a 
border wall would not prevent illicit narcotics from being trafficked 
through legal points of entry into the United States or subterranean 
tunnels?

    Answer. If confirmed, I look forward to being fully briefed on the 
recent Drug Enforcement Administration threat assessment findings and 
helping the President-elect and the Secretary of Homeland Security stem 
the flow of illicit narcotics through legal points of entry.
Venezuela
    Question. With each passing day, the humanitarian situation is 
worsening in Venezuela, and opposition activists, human rights 
defenders, and lawyers continued to be harassed, attacked, and 
imprisoned. More than 100 remain in jail. What should the United States 
do to prevent Venezuela from becoming a failed state?

    Answer. The U.S. should continue to support legitimate dialogue to 
resolve the political crisis between the Maduro government and the 
opposition that now controls the National Assembly. We must continue to 
denounce the Maduro government's undemocratic practices, call for the 
release of political prisoners, and enforce sanctions against 
Venezuelan human rights violators and narcotics traffickers. We should 
deliver humanitarian aid to mitigate food insecurity and the shortage 
of medical supplies, as appropriate.

    Question. In Venezuela we must address how the deterioration of the 
rule of law and lack of respect for human rights contributes to 
regional stability vis a vis people flooding across borders, increased 
opportunities for drug smuggling and terrorism. I authored legislation 
that would sanction the regime leaders responsible for fomenting these 
anti-democratic developments. Would you commit to pressure the 
Venezuelan government to release ALL political prisoners, including 
Leopoldo Lopez and to hold the Maduro regime accountable for its 
crimes?

    Answer. Yes, if I am confirmed.
Cuba
    Question. Despite the Obama Administration's controversial and 
misguided decision to normalize relations with Cuba and its' hope that 
this could lead to improved governance and human rights, Cuban 
officials continue to arrest dissidents and violate the rights of 
citizens, and tourism revenues benefit only government officials and a 
small minority of the population.

    Question. a.How do you plan to approach the United States' 
relationship with Cuba? How will you support human rights defenders and 
democracy activists in Cuba? What bilateral and/or multilateral 
pressure will you exert to lessen authoritarian rule in Cuba?

    Answer. If confirmed, I will engage with Cuba but continue to press 
for reform of its oppressive regime. I will support human rights 
defenders and democracy activists in Cuba, empower civil society, 
defend freedom of expression, and promote improved Internet access and 
I will ask our allies to do the same.

    Question. Will you continue to support programs that promote 
democratic voices and initiatives in Cuba like Radio and TV Marti?

    Answer. Yes, if I am confirmed.

    Question. What steps will you take to pressure the Castro regime to 
return American political fugitives like New Jersey cop-killer Joanne 
Chesimard?

    Answer. If confirmed, I will engage bilaterally and multilaterally 
to bring these fugitives to justice.

    Question. Will you work with the Treasury Department to ensure that 
no revenue from American businesses goes directly toward supporting the 
Cuban military and the regime?

    Answer. Yes, if I am confirmed.

    Question. What steps will you take to encourage the government of 
Cuba to release political prisoners, artists, journalists, and other 
Cubans being detained for politically-motivated reasons?

    Answer. If confirmed, I will press Cuba to meet its pledge to 
become more democratic and consider placing conditions on trade or 
travel policies to motivate the release of political prisoners.

    Question. What steps will you take to promote judicial reform in 
Cuba?

    Answer. I will work bilaterally and multilaterally to identify 
training and technical assistance opportunities to assist with judicial 
reform, if I am confirmed.


    Question. On October 12, 2016, PEOTUS Donald Trump stated, ``The 
people of Cuba have struggled too long. I will reverse Obama's 
Executive Orders and concessions towards Cuba until freedoms are 
restored.''
    Do you stand by PEOTUS Trump's commitment to reverse the Obama 
Administration's Cuba regulations until freedoms are restored on the 
island?

    Answer. Yes. There will be a comprehensive review of current 
policies and executive orders regarding Cuba to determine how best to 
pressure Cuba to respect human rights and promote democratic changes.

    Question. On October 14, 2016, VPEOTUS Mike Pence reiterated this 
commitment by stating, ``When Donald Trump and I take to the White 
House, we will reverse Barack Obama's executive orders on Cuba.'' Do 
you stand by VPEOTUS Pence's commitment to reverse the Obama 
Administration's Cuba regulations?

    Answer. Yes, if I am confirmed.
Nicaragua
    Question. Freedoms have declined in Nicaragua as President Daniel 
Ortega has consolidated his power and increased pressure on the media 
and civil society, yet the Obama Administration did little in response.
    What policies will you implement to handle things differently than 
the previous administration?

    Answer. I agree that President Ortega has not governed 
democratically in Nicaragua. If confirmed, I will commit to reviewing 
our policy toward that country, with the ultimate aim of bolstering 
civil society and democratic institutions. We could also, in 
consultation with your committee, discuss whether there is any trade or 
other benefits to which Nicaragua would become disqualified as a result 
of its government's abuses of power.
Haiti
    Question. Years after the earthquake that devastated Haiti, 
meaningful rebuilding and redevelopment continues, but it is far from 
complete and Hurricane Matthew only complicated an already desperate 
situation for Haitian nationals. The U.S. Congress played an 
instrumental role in the recovery effort by approving $3.6 billion in 
assistance for the Haitian government and its people, but more work is 
needed. If confirmed, what measures as Secretary of State will you take 
to prioritize disaster assistance and recovery?

    Answer. Unfortunately, Haiti appears to go through cycles of 
natural disaster and incomplete recovery over and over, in part because 
of its geographic location and also because of its history of poor 
governance. If confirmed, I would try to mobilize international support 
to share the burden of U.S. assistance for Haiti. Additionally, I would 
have the State Department reach out to the Haitian American community 
to join in recovery efforts.
            near eastern and south and central asia affairs
Iran
    Question. In the hearing, you said that you had no recollection of 
the subsidiary company Infineum, which Exxon set up in order to do 
business with known state sponsors of terrorism including Iran, Sudan, 
and Syria, with whom United States companies were prohibited from doing 
business.
    The Press has revealed documents that show the Securities and 
Exchange Commission contacted ExxonMobil in 2006 and 2010 about 
Infineum and its work with Iran. On Jan. 6, 2006, the SEC wrote to you 
specifically noting press reports about company sales and the lack of 
any mention of them in the company's annual compliance report to the 
agency.
    According to the Washington Post: On Feb. 7, 2006, Exxon's 
assistant general counsel Richard E. Gutman wrote back saying the 
transactions were too tiny for a company with $371 billion in revenue 
to matter to investors. He noted that Exxon did not have oil fields, 
refineries, offices or employees in the three countries.
    Nonetheless, the Post continues, the Gutman letter described to the 
SEC a variety of transactions. An ExxonMobil subsidiary sold $24.3 
million in chemicals to Syria in 2005. Infineum, the 50-50 joint 
venture between Exxon and Shell, sold $16.1 million of products to Iran 
in 2005, and more in the two previous years. Another Exxon subsidiary 
had purchased Syrian crude oil on the open market from third parties 
outside Syria.
    Are you aware of this correspondence? Were you aware of this 
correspondence at your hearing on January 11? Were you aware of the 
operations in countries that promote terrorism and directly threaten 
the security of the United States, our interests, and our allies?

    Answer. I am now aware of this correspondence, although I did not 
recall it specifically during my confirmation hearing on January 11. 
The correspondence from 2006 concerned transactions that preceded my 
tenure as Chairman and CEO and arrived shortly after I became CEO. The 
correspondence from 2010 stemmed from false press reports of ExxonMobil 
activity in Iran. Given the size of ExxonMobil and the content of the 
response I also do not recall whether the issue was elevated to me for 
advance review and comment.

    Question. Was this subsidiary company set up to avoid U.S. 
sanctions?

    Answer. No. During my tenure as Chairman and CEO, ExxonMobil sought 
to comply fully with all applicable U.S. sanctions laws. Infineum was 
established in 1999 to pursue a commercial joint venture with Shell.

    Question. How will you approach American businesses who take 
actions to subvert U.S. laws designed to protect Americans and cut of 
funds to dictators and state sponsors of terrorism?

    Answer. If I am confirmed, the State Department will not hesitate 
to alert U.S. businesses to actions that have the effect of subverting 
U.S. laws meant to protect Americans and cut of funds to dictators and 
state sponsors of terrorism.
    Question. ran continues to be the largest state sponsor of 
terrorism in the world and a nuclear-armed Iran poses a grave threat to 
the States and our allies.
    What concrete steps will you take to stop Iranian influence in 
Syria and Iraq?
    What steps can we take with the Iraqi government and the Iraqi 
people to stop the influence of Iran?

    Answer. Iran should not be permitted to destabilize Syria and Iraq 
with impunity.
    The United States, working with our allies, should be prepared to 
impose a significant price on Iran for its malicious activities, 
including the imposition of painful economic sanctions.
    In Iraq, the U.S. should be exercising its significant leverage to 
press our allies in the Iraqi government, the Iraqi security forces, 
and the Kurdistan Regional Government to work with us in constraining 
Iran 's malign influence and activities, including the operation of 
Iranian backed militias.

    Question. Do you believe that joint Russian-Iranian operations in 
Syria are in the interest of the United States? If no, please describe 
what steps specifically you plan to take to weaken the network of 
Russian-Iranian military actions in Syria and across the region.

    Answer. To the extent that Russia's operations in Syria help expand 
the influence and power of Iran and its terrorist proxy, Hezbollah, 
they certainly do not serve U.S. interests.
    The growing threat that Iran poses to peace and security in the 
region should be a primary topic of any forthcoming U.S.-Russian 
discussions on Syria, ISIS and the challenge of radical Islamic 
terrorism.

    Question. How do you plan to aggressively stop Iranian proxy 
networks like Hezbollah from attacking Americans and United States' 
interests?

    Answer. The United States should be prepared to inflict a painful 
price on Iran and its terrorist proxies like Hezbollah for their malign 
activities, including the imposition of harsh economic sanctions.

    Question. Do you plan to enforce sanctions against Iranian 
individuals and actors who are known to fund terrorism?

    Answer. Yes. Economic sanctions that target the Iranian individuals 
and entities that support terrorism are one of the most powerful tools 
we have to punish and deter Iran 's malign behavior.

    Question. How will you work with other countries to ensure they 
comply with primary and secondary sanctions we have in place to stop 
Iran's proxy terrorist networks from destabilizing the region?

    Answer. If confirmed, I will ensure that maintaining pressure on 
Iran and its proxy terrorist network will be among the highest 
priorities of U.S. diplomacy.
Syria
    Question. There are more refugees and internally displaced persons 
(IDP) in the world now than any other time since World War II. Many, 
but not all, of these refugees and IDPs stem from years of conflict in 
Iraq and Syria. 20%-25% of Lebanon is made up of such individuals. Are 
you satisfied with the leadership of U.S., from policy and financial 
angles, within the international community to address the crisis? If 
not, what do you plan to do to ameliorate the situation? Should you be 
confirmed, what concrete steps will you take to address the dire 
humanitarian crisis in Syria and to correct what I think you called a 
policy of weakness in the region? Do you feel a no-fly zone would 
contribute to improving the situation? How would you propose to 
reinvigorate non-extremist opposition groups?

    Answer. The dynamics of refugee settlements have changed 
significantly over the past fifty years; more and more people are 
moving as a result of warfare, which has caused significant 
humanitarian suffering. The plight of these refugees is deeply 
concerning to me. The United States must lead with its values; that 
includes working with our partners to alleviate such suffering, 
particularly in conflict zones where the most vulnerable are often 
targeted. Today, alleviating the world's refugee crises must start in 
Syria.
    The actions of both Iran and ISIS decrease stability and increase 
the number of Syrians fleeing their homes. If confirmed, I would work 
closely with our partners in the region to alleviate their suffering.

    Question. The destruction of antiquities and culturally significant 
properties in Syria is deeply troubling and improvises us all. How 
important is this issue to you and what, if anything, should the U.S. 
be doing to prevent this wanton looting, destruction, and trafficking?

    Answer. The Syrian civil war is deeply concerning for the United 
States. If confirmed, I will engage our partners and other parties to 
the conflict to develop a sustainable political settlement that 
respects the human rights of Syrians. This political settlement would 
assist the United States and other interested parties in preventing the 
trafficking of priceless human antiquities that remain in the country 
and have been under threat from ISIS and other actors.
Egypt
    Question. Do you believe the al-Sisi government is making Egypt 
more or less stable, and what evidence have you seen that supports your 
views? How would you explain the surge in terrorist violence and public 
unrest since al-Sisi seized power? Will you directly engage with the 
government to ensure the protection of minority communities including 
Coptic Christians?

    Answer. Egypt is one of the United States' most important partners 
in the region. The United States should work to help Egypt achieve the 
necessary means to defend itself. This is a time of unprecedented 
instability in the Middle East. If confirmed, I would engage the 
government of Egypt to aid them in combating ISIS, building regional 
stability, and improving the government's own record of human rights 
issues in the country, including the protection of Coptic Christians. 
Foreign assistance to Egypt, including security assistance, is an 
important part of our relationship, and critical to Egypt's ability to 
both contribute to U.S. national security goals and to improve the 
lives of Egyptians.
Afghanistan
    Question. This is longest running conflict in U.S. history. Success 
seems elusive despite an unprecedented commitment by the U.S. and our 
allies. What specific policy steps would you take to bring our 
engagement in the country to a positive end? How do you plan to use the 
tools at your disposal to neutralize the Taliban and secure a 
stability? The Special Inspector General for Afghanistan Reconstruction 
has documented gross corruption and mismanagement of U.S. dollars. What 
steps will you take to promote transparency and governance in the 
Afghan government? How will you ensure that American taxpayer dollars 
are well spent?

    Answer. The war in Afghanistan is the longest war in American 
history. Today, the United States should engage the government of 
Afghanistan President Ashraf Ghani and CEO Abdullah Abdullah to 
increase stability, reduce corruption, ensure a better standard of 
living for Afghans, particularly women and girls, and ensure that 
Afghanistan is never again used as a base for international terrorism. 
Foreign aid is part of this engagement; however, I will engage closely 
with Kabul to ensure that American aid dollars are not wasted, either 
in the humanitarian or security sectors.
    The United States should also engage with Islamabad, to strengthen 
the civilian government and eliminate the safe havens that terrorist 
groups like the Haqqani network enjoy. The United States should work 
with both Afghanistan and Pakistan to encourage cooperation, build 
trust, and seek to ensure regional stability, including peace in 
Afghanistan, in a context of mutual respect and appreciation of each 
country's interests.
India
    Question. As the largest Democracy in the world and growing world 
economic power, cultivating and nurturing improved diplomatic, 
economic, and military relations is vital to securing a peaceful, 
prosperous, and stable region. While our relations with India have 
improved, much work needs to be done.
    What steps would you take as Secretary of State to engage with 
India and to improve bilateral relations?

    Answer. If confirmed, I would make the strengthening of our 
relations with India in all aspects a high priority.

    Question. How do you view U.S.-Indian relations in the context of 
our broader Asia policy?

    Answer. Stronger political, economic, and security relations 
between the United States and India, the world's two largest 
democracies, can only help bolster stability in Asia--especially as we 
face common challenges like a more assertive China and common threats 
like radical Islamic terrorism.

    Question. How can we best promote U.S. business interests in India?

    Answer. We should encourage India to continue opening its market 
while making the support and promotion of American businesses an 
important goal of U.S. diplomacy.

    Question. How can we more productively engage India in the fight 
against radical terrorism? How can we better partner with them as we 
continue our operations in Afghanistan?

    Answer. Radical Islamic terrorism poses a major threat to both the 
United States and India, and increasing our cooperation against that 
threat should be a major goal of our bilateral diplomacy.
    The United States and India both have an interest in Afghanistan 's 
stability and ensuring that the country is not a safe haven for radical 
jihadist groups. The United States should encourage India to use its 
substantial political and economic power and influence to promote 
security, stability and reconciliation in Afghanistan.
                                 europe
The Ecumenical Patriarchate in Turkey
    Question. If confirmed, what steps would you take to ensure Turkey 
fully meets its obligations under international human rights and 
religious freedom laws, especially with respect to the Ecumenical 
Patriarchate? If confirmed, would you call for the immediate reopening 
of the Halki Seminary with no preconditions, so it may train future 
generations of Orthodox Christian clergy?

    Answer. Religious freedom is a core American principle and an 
important aspect of international peace and stability. If confirmed, I 
will work with Turkey to safeguard religious minorities and promote 
respect for their cultural heritages, including the Ecumenical 
Patriarchate and the Halki Seminary.

    Question. In response to the Turkish government's decision to allow 
a daily reading from The Koran during Ramadan in Hagia Sophia, State 
Department Spokesman Mark Toner said on June 9, ``We recognize Hagia 
Sophia as a site of extraordinary significance and we would encourage 
Turkey to preserve Hagia Sophia in a way that respects its tradition 
and also its complex history.'' Do you concur with the position 
conveyed by Spokesman Toner? What further steps will you take to convey 
your concern to the Turkish Government?

    Answer. I agree that Hagia Sophia is a site of extraordinary 
significance that should be preserved in a way that respects its 
tradition and complex history. If confirmed, I will encourage the 
Turkish government along these lines.
Turkey
    Question. In our meeting, you indicated that we need to bring 
Turkey back into the Western fold. What should our approach be with 
Turkish president Recep Tayyip Erdogan? How would you bring Turkey back 
into the Western fold? How does this goal square with Turkey's current 
involvement in the Syria conflict? Iraq? And the Kurds?

    Answer. The first step in bringing Turkey back into the Western 
fold is to restore trust between the United States and Turkey. Lack of 
American leadership in the region in recent years has resulted in 
significant instability with immense negative effects for Turkey. 
Turkey is a crucial, strategically located ally, and its bases play a 
critical role in the U.S. -led war against ISIS. If confirmed, I will 
make it a top priority to engage constructively with the Turkish 
government, including on the Kurdish issue, and to advance our common 
security interests in Syria and Iraq.
    Question. Correct me if I'm wrong, but you did not seem 
particularly concerned about recent undemocratic trends including new 
constitutional changes and the jailing of dissidents and journalists. 
In recent months, Erdogan has undertaken an intense crackdown on 
perceived opponents--what many are calling a witch hunt in retaliation 
for the July 2016 coup attempt. This has included the firing more than 
100,000 state employees including soldiers, police officers, members of 
the military, judges, and even midwives; imprisonment of tens of 
thousands, including journalists, human rights defenders, and 
activists, many of whom have alleged torture and brutal mistreatment 
while in custody; restrictions on internet and social media access; and 
the shuttering of media and civil society organizations.
    How do you plan to approach the U.S. relationship with Turkey? Do 
you believe the crackdown instituted by President Erdogan is 
strengthening or weakening stability and governance in Turkey?

    Answer. The U.S. relationship with Turkey must be based on mutual 
trust, which requires a proper recognition of the concerns of both of 
our governments. The Turkish government has a legitimate right to 
preserve the integrity of its democracy, including taking the necessary 
measures to prevent future coup attempts. I am, however, very concerned 
about many of the measures recently taken by the Turkish government. I 
believe that strong U.S. engagement and leadership, including on human 
rights, is the best way to secure a strong, stable and democratic 
Turkey that remains a critical ally in the fight against terrorism.
Cyprus
    Question. We have a historic opportunity to achieve a peaceful 
resolution of the long festering and untenable situation in Cyprus. 
Positive Turkish engagement and support of this process is vital, as is 
that of International Organizations and the U.S. How do you view the 
current, ongoing Cyprus settlement talks held under U.N. auspices? Do 
you support a reunified Cyprus with a single sovereignty, single 
international personality and single citizenship; and with its 
independence and territorial integrity safeguarded as described in the 
relevant U.N. Security Council resolutions? Will you maintain U.S. 
high-level engagement on this issue?

    Answer. A long-term solution for Cyprus is important for U.S. 
interests in the region. The United States should continue to support 
the efforts of the Greek and Turkish Cypriot leaders to achieve a just 
resolution that is consistent with U.N. resolutions and heals the 
island's divisions. If confirmed, I look forward to working closely 
with the U.N. and other key actors to support a solution.
Armenia
    Question. 2015 marked the centenary of the Armenian Genocide, which 
was condemned as a crime against humanity by the Allied Powers as it 
occurred, but which Turkey denies to this day. Pope Francis publicly 
affirmed the Armenian Genocide stating it is an open wound that must be 
healed. What steps will you take to end its denial and reaffirm the 
proud chapter in U.S. diplomatic history to help save the survivors of 
the first genocide of the twentieth century?

    Answer. The tragic atrocities of 1915 remain a painful issue in the 
relationship between Armenia and Turkey, and it is in the U.S. interest 
to ensure peaceful and stable relations between the two countries. If 
confirmed, I will support a full accounting of the historical events 
and an open dialogue between Armenia and Turkey in the interest of 
regional stability.

    Question. Will you continue our nation's strong bipartisan support 
for, and cooperation with, Ukraine, the only non-NATO partner nation to 
have contributed actively to all NATO-led operations and missions for 
the past 20 years? Will you support the further enactment of actions 
authorized by the bipartisan Ukraine Freedom Support Act of 2014, 
including the supplying of defensive equipment, services, and military 
training?
    In addition to living up to our public and binding security 
guarantees to Ukraine, will the United States maintain its investments 
in programs promoting democratic governance, as well as education, 
professional and cultural exchange programs towards the development of 
civil society in Ukraine at current levels?

    Answer. I value the many contributions that Ukraine has made to 
NATO-led operations. If confirmed, I will support the active 
consideration of all appropriate measures to support Ukraine's security 
and stability and advance broader U.S. interests in the region. I will 
also support investment in programs, including exchanges, which have a 
proven record of effectively promoting democratic governance and civil 
society.

    Question. Furthermore, all U.S. Secretaries of State and all U.S. 
Presidents (save President Obama) have made it policy to visit Ukraine 
since it regained its independence in 1991. When can we expect visits 
by you and President Trump?

    Answer. Personal diplomacy is a crucial foreign policy tool and 
official visits are an important part of our statecraft If confirmed, I 
will certainly meet with the Ukrainian leadership early on and look 
forward to visiting Ukraine at the appropriate time. I would encourage 
the President-elect along similar lines.
                                 africa
Ethiopia
    Question. Ethiopia, an important security partner for the United 
States, is suffering its worst unrest in years, in response to the 
government's intensifying human rights abuses and restrictions on 
freedoms. The government's harsh response to the unrest--which has 
involved the killing of hundreds of protesters, mass arrests, the 
imposition of a state of emergency that includes curfews and travel 
restrictions for foreign diplomats, and even reports of torture--has 
created an unsustainable situation and raises serious questions about 
the Ethiopian government's ability to effectively partner on terrorism. 
How do you plan to address this situation?

    Answer. If confirmed, I will engage Ethiopia to express our 
concerns about violations of human rights and our support for 
responsible governance. Ethiopia has a critical role to play in 
encouraging stability in Africa and is an important partner for the 
United States. Continued diplomatic engagement will be necessary to 
ensure that it meets those commitments and continues to contribute 
positively to the United States' goals in the region.
Functional
    Question. You mentioned to me in our meeting that you decided to 
pull investment from certain countries because of governmental 
corruption and diminished rule of law and governing structures. You 
have also indicated that you believe we can best promote American 
interests and values through business engagement and opportunity. 
However, the United States doesn't just have the option of walking away 
from other nation states.
    Do you believe that democracy and human rights programs funded by 
State and USAID lead to more stable countries that are less prone to 
terrorism, internal conflict and refugee crises that spill across 
borders? Do you agree that U.S. support for democratic institutions and 
human rights creates a climate in developing nations that is friendlier 
to U.S. business operations, our exports, and tourism?
    Please describe how you intend to use USAID and the Bureau of 
Democracy, Human Rights, and Labor to sharpen and improve our 
engagement in governance and rule of law areas international for the 
furtherance of our national policy objectives?

    Answer. Our values are our interests and our interests are our 
values, so it is in our interests to project the value of democracy by 
supporting democratic institutions, Already, there are great programs 
that promote democracy and fight corruption. Through USAID's Center of 
Excellence on Democracy, Human Rights and Governance, there are 
programs such as the Assistance for Afghanistan 's Anticorruption 
Authority. The State Department's Bureau of Democracy, Human Rights, 
and Labor has helped improve access to the legal system in Sri Lanka 
through the Jaffna Legal Aid Project In the coming year, we have the 
opportunity to rewrite the Department of State-USAID Joint Strategic 
Plan. Utilizing input from both agencies, we will be able to assess 
current issues regarding democracy and human rights, as well as review 
how programs from each agency may contribute to resolving chronic 
challenges.
Human Rights
    Question. Throughout the world, political dissidents, activists, 
journalists, and human rights defenders have been victims of repression 
and imprisoned solely for peacefully exercising their right to freedom 
of expression. What would you do to reiterate the U.S. government's 
commitment to protect and advocate for those on the frontline, 
including civil society organizations, who are exercising basic 
freedoms?

    Answer. I believe the United States must shine a spotlight on those 
seeking freedom and democracy around the world. Our support helps 
encourage those seeking greater human rights, and puts those abusing 
such rights on notice.
    We should continue to provide democracy-building assistance, and 
support civil society organizations.
    We also need to exercise American leadership on key regional and 
security issues such as fighting terrorism, where the United States and 
other countries--whether democratic or not--share common interests. By 
engaging on a wide range of issues, we will increase the degree to 
which other nations pay attention to the concerns we express over 
democracy and human rights.
    Question. Thousands of people have been jailed on politically 
motivated charges and are languishing in the jail cells of U.S. 
military allies. These allies include Ethiopia, Egypt, Saudi Arabia, 
Israel, Bahrain, Turkey, Kyrgyzstan, South Korea (Republic of Korea), 
Thailand, Vietnam, and Indonesia. These governments continue to benefit 
from U.S. military aid and arms sales while imprisoning peaceful 
critics at home.
    What steps will you take to push U.S. military allies to stop 
imprisoning those who engage in peaceful dissent or criticism of their 
governments?

    Answer. Over the past several years, the United States has pulled 
back from many of its traditional leadership roles on global security 
issues. This has left many allies uneasy about U.S. support and 
concerned about regional adversaries. Many of these allies have also 
cracked down on domestic opponents.
    At the same time, the United States has been less focused on human 
rights than in the past. And even where the United States has raised 
human rights concerns, many such military allies have dismissed U.S. 
concerns as the United States has appeared uninterested in their 
regional security concerns.
    The United States should never shy away from standing up for our 
values and supporting human rights, even with our closest friends and 
allies. If confirmed as Secretary of State, I will actively discuss 
such cases with friends and adversaries alike.
    We will have more success, however, to the extent we are seen by 
others, especially our friends and allies, as helping to address 
regional and security issues that are critical to those nations.

    Question. While border security is of great concern to many 
Americans, the success of U.S.-Mexican security cooperation will depend 
in large part on our joint ability to tackle impunity, strengthen rule 
of law, and bolster protections for vulnerable populations in Mexico. 
How do you think the Merida Initiative and other bilateral security 
efforts have fared?

    Answer. If confirmed, I will ask to be fully briefed on the Merida 
Initiative and other bilateral security efforts and will seek to 
evaluate their effectiveness.

    Question. Similarly, securing the southern U.S. border must be done 
in conjunction with addressing root causes driving people to flee 
Central America, and offering protection to asylum seekers from that 
region as required under U.S. immigration law and U.S. obligations 
under the Refugee Convention and its Protocol, which the U.S. codified 
in the Refugee Act of 1980. Currently, only 5,000 resettlement slots 
are offered for refugees from Central and South America. Will you 
commit to increasing the number of resettlement slots to refugees from 
Central America?

    Answer. I have not yet been briefed on all aspects of the U.S. 
Refugee Admissions Program, but should I be confirmed as Secretary, I 
will faithfully administer the Refugee Admissions Program consistent 
with law and the policy preferences of the President-elect.
Women and Girls
    Question. There is a growing body of evidence showing that the 
empowerment of women and girls, through investments in their health, 
education, livelihoods, and the prevention of violence, not only 
benefits them as individuals, but leads to healthier, more prosperous, 
and more stable societies. Under your leadership, how will you continue 
to prioritize the empowerment of women and girls in U.S. development 
and humanitarian assistance and diplomatic engagement?

    Answer. As I stated in my hearing testimony, the issue of 
empowering women is personally important to me. I have seen firsthand 
the impact of empowering women, particularly regarding their 
participation in economic activities in the lesser developed part of 
the world. Investing in women and girls produces a multiplier effect--
women reinvest a large portion of their income in their families and 
communities, which also furthers economic growth and stability. As I 
indicated, I believe women's empowerment and advancement is an 
important part of our foreign aid efforts and I will support such 
programs, including efforts to advance women 's participation in peace, 
security and the political process. I will support efforts to end 
violence against women and girls as well as to mitigate the impact of 
such violence. I look forward, if confirmed, to closely examining all 
aspects of these issues to determine if our funding levels and other 
resources are appropriate.

    Question. The U.N. carries out crucial work supporting women and 
girls access to education and employment, helping them register to vote 
and run for office, and advising governments on how to combat violence 
against women and girls. These efforts build respect for the rule of 
law, lead to increased GDP, and make countries more stable and safe. 
The demand for this work far outstrips the U.N. ability to deliver it, 
due to funding gaps and inconsistent political will amongst U.N. Member 
States. Given the enormous, proven returns on investment this work 
generates, and its importance to U.S. Foreign Policy, how do you plan 
to further the U.N. efforts in this regard?

    Answer. The U.N. has made a considerable contribution to the 
advancement of women and girls around the world. As I have said, the 
empowerment of women and girls has always been a top priority for me. 
If confirmed I will continue to support and enhance these efforts and 
ensure that our funding is directed at programs that have had 
measurable impact on providing women with opportunity around the globe.
Trafficking in Persons
    Question. Human trafficking is often characterized by networks of 
traffickers that extend across international borders and by victims who 
are moved across jurisdictions. To effectively combat this criminal 
phenomenon, governments and non-governmental organizations must work 
together to build and execute multi-layered strategies. Will you commit 
to developing and implementing regional partnerships, particularly in 
the Americas and Southeast Asia, to more effectively combat human 
trafficking?

    Answer. Should I be confirmed as Secretary, I will commit to 
combating the scourge of human trafficking in all its forms, consistent 
with the law and policy preferences of the President-elect

    Question. The crime of human trafficking is a $150 billion 
worldwide enterprise that enslaves tens of millions of people in 
commercial sex and forced labor. According to estimates by the 
International Labor Organization, nearly 21 million people around the 
world are victims of human trafficking. In order to ensure that we are 
addressing the crime of trafficking effectively and efficiently, it is 
essential that we have robust data from which we can make informed 
decisions. Recently, the State Department's Trafficking in Persons 
office began funding a project led by the International Organization 
for Migration that will be the first global data repository on human 
trafficking. Anti-trafficking organizations around the world will 
provide de-identified data on victim demographics, trafficking types, 
locations of the exploitation, and the forms of control used by 
traffickers, which will be compiled in this data repository to allow 
policymakers, law enforcement, and civil society organizations to 
access up-to-date information on what trafficking looks like around the 
world. Will you commit to continuing funding for the Counter-
Trafficking Data Collaborative and prioritize efforts to increase the 
data we have on trafficking around the world?

    Answer. I would need to be fully briefed on the Collaborative to 
provide a complete response. Should I be confirmed as Secretary, I will 
commit to working with Congress and the President-elect to combat human 
trafficking.

    Question. Human trafficking is often characterized by networks of 
traffickers that extend across international borders and by victims who 
are moved across jurisdictions. To effectively combat this criminal 
phenomenon, governments and non-governmental organizations must work 
together to build and execute multi-layered strategies. Will you commit 
to developing and implementing regional partnerships, particularly in 
the Americas and Southeast Asia, to more effectively combat human 
trafficking?

    Answer. Should I be confirmed as Secretary, I will commit to 
combating the scourge of human trafficking in all its forms consistent 
with the law and policy preferences of the President-elect.

    Question. As you know, there have been serious questions from both 
the Foreign Relations Committee and civil society organizations 
regarding the integrity of the past two years' Trafficking in Persons 
reports. And last month, I introduced legislation with Senator Rubio 
that makes sweeping reforms to restore integrity to the TIP ranking 
process. We plan to reintroduce that legislation in the coming weeks, 
and from my past conversations with my colleagues here on the 
Committee, I understand that there is broad, bipartisan consensus that 
reforming the ranking process is a priority that we should address 
early in this Congress.

    Question. Will you commit to working with this Committee to ensure 
that we restore integrity to the TIP Report?

    Answer. Yes, if I am confirmed.

    Question. The legislation I introduced with Senator Rubio requires 
TIP rankings to be contingent on concrete actions taken by a country in 
the preceding reporting period, and that the StateDepartment specify 
how these actions, or lack thereof, justify the ranking. A recent GAO 
study highlighted this as a major gap in the existing TIP ranking 
process. Would you support such changes?

    Answer. I do not yet have a comprehensive understanding of the GAO 
study on the TIP ranking process. Should I be confirmed as Secretary, I 
will work with this Committee to support an informed TIP ranking 
process.

    Question. Will you assure the Committee that, if confirmed, you 
will rely upon the advice provided by the experts at the Office to 
Monitor and Combat Trafficking in Persons when assigning rankings in 
the TIP Reports during your time as Secretary?

    Answer. If confirmed, I will support a robust TIP ranking process 
consistent with the law.
Climate and Energy
    Question. In 2015, under your leadership, ExxonMobil settled an 
$8.9 billion lawsuit with the State of New Jersey for only a small 
fraction of the damages sought by the state for decades of toxic 
pollution and loss of wetlands and other lands. While this deal was no 
doubt a financial boon for the company, New Jersey communities will now 
be stuck paying the price for ExxonMobil's toxic legacy.
    As Secretary of State, you will have to understand the impacts of 
your foreign policies on local communities. Given your company's 
actions in New Jersey, how do you weigh the high human costs of your 
policies on families and local communities against possible financial 
or strategic advantages?

    Answer. The referenced settlement was approved by a New Jersey 
judge as fair and in the public interest. Under the settlement, I 
understand that ExxonMobil has committed to performing remedial 
cleanups of certain identified sites.
    If I am confirmed, my duty as Secretary of State will be to further 
the interests of the United States, and its people, in the country's 
dealings abroad.
    If confirmed, I further expect that the State Department, acting 
with the National Security Council and other departments of the 
government, will endeavor to make policy choices that weigh the human 
costs on families and communities that will be affected.

    Question. The Paris climate agreement sets a baseline goal of 
limiting warming to 2 degrees Celsius over preindustrial temperatures, 
with an ultimate goal of limiting it to 1.5 degrees Celsius. Under your 
leadership, ExxonMobil has supported the Paris agreement and the goals 
that it set. However, the President-elect has nominated individuals for 
Attorney General and Administrator of the Environmental Protection 
Agency that have broadly denied the existence of climate change and 
have strongly opposed the Clean Power Plan, which is one of the primary 
mechanisms by which the United States plans to meet its commitments 
under the Paris agreement.
    Given your, or your company's, prior support, do you believe the 
United States should meet its commitments under the Paris agreement? If 
so, by what mechanisms--whether through the Clean Power Plan or some 
alternate proposal--should these commitments be met? If not, how do you 
intend to manage the diplomatic consequences of reneging on an 
agreement adopted with near global consensus?

    Answer. If confirmed, I expect that the State Department and other 
departments of the government will conduct a review of the Nationally 
Determined Contribution submitted by the Obama Administration as part 
of our review of the Paris Agreement and the U.N. Framework Convention 
on Climate Change to determine whether the NDC and/or the international 
agreements advance U.S. national interests.

    Question. According to the Energy Information Administration, in 
2015, the most recent year for which complete data is available, the 
United States was a net importer of an average of 6.898 million barrels 
of crude oil a day. Yet, at the beginning of 2016, over my opposition 
and over the opposition of many, your company successfully lobbied the 
United States Congress to lift the ban on exporting American crude oil. 
I have long held that we need to transition to clean domestic forms of 
energy, and that in the interim American oil should be used to help 
American families. Being an importer of oil means that we are often 
dependent on nations like Venezuela that are anti-democratic, have 
abysmal human rights records, and actively pursue anti-American 
interests on the global stage to meet our energy needs.
    Do you agree that energy independence improves our national 
security and is in the interest of the United States?

    Answer. As an executive at ExxonMobil, I was a proponent of energy 
security as opposed to energy independence. As Secretary of State, if 
confirmed, I will share my views with the President and other members 
of the Cabinet, though I suspect that primary responsibility for energy 
issues will fall to the Departments of Energy and Commerce and other 
relevant parts of government.


    Question. While you stated in your testimony to the Committee that 
you were not aware of any subsidies provided to the fossil fuel 
industry, the fact is the United States does provide a series of tax 
and financial incentives specific to the oil and gas industry-including 
the deduction for intangible drilling and development costs; the 
percentage depletion allowance for oil and gas wells; the deduction for 
tertiary injectants; and the royalty relief for certain deepwater oil 
and gas production.
    Given this information, and given your acknowledgement that climate 
change is a real threat, should the United States be providing 
financial incentives to both foreign and domestic corporations to 
develop fossil fuel resources in the United States? Given the threat of 
climate change, is it in the U.S. interest for foreign governments to 
provide their own financial incentives to foreign companies to increase 
oil production within their own country? Do you believe that it is more 
difficult to advance U.S. interests abroad when our own domestic 
policies do not reflect the actions that we would like to see foreign 
governments take?

    Answer. As Secretary of State, if confirmed, I will share my views 
with the President and other members of the Cabinet on these matters if 
asked to do so, though I suspect that primary responsibility for energy 
issues will fall to the Departments of Energy and Treasury, and other 
relevant parts of government.


    Question. The United States and Canada recently announced joint 
actions to remove much of the Arctic Ocean and parts of the Atlantic 
from consideration for future oil and gas drilling. Similarly, the 
United States and China have entered into a joint agreement that would 
see China halt increases in its greenhouse gas emissions by 2030, with 
a stated goal of peaking earlier than that.

    Question. Do you think that it is in the U.S. interest to see 
Canada and China uphold their sides of these agreements? If meeting 
their obligations is contingent upon us meeting our own commitments, is 
it in our interest to uphold our side of the agreements?

    Answer. If confirmed, I will support an Arctic policy that combines 
environmental protection with economic opportunity and a proper regard 
for U.S. national security interests. I am not convinced that the 
recently announced joint actions with Canada to remove parts of the 
Arctic and Atlantic Oceans from consideration for future oil and gas 
drilling strike the right balance, and I would want to undertake a 
thorough review of these actions before recommending a path forward. 
With respect to the joint agreement with China, I believe that the 
agreement should be reviewed and evaluated to determine whether its 
implementation is realistic and will accomplish its stated goals 
without causing unnecessary harm to the U.S. economy and national 
security interests.

    Question. Marine mammals play a vital role in marine ecosystems and 
are critical to the health of our oceans. Unfortunately, human 
activities, from unsustainable hunting and commercial whaling practices 
to seismic airgun blasting during oil and gas exploration, have 
devastated many populations of marine mammals. The Marine Mammal 
Protection Act provides protections on the domestic level to all of 
these animals, preventing the harassment or take of marine mammals 
without a preauthorized permit. On an international level, the United 
States is a signatory of the International Convention for the 
Regulation of Whaling and a member of the International Whaling 
Commission, which regulates whaling practices and the conservation of 
whales. The International Whaling Commission has implemented a 
moratorium on commercial whaling since 1986 with exceptions for certain 
subsistence whaling by indigenous populations.
    Do you intend to maintain the United States' commitment to the 
International Whaling Commission? Will you continue to enforce the 
international moratorium on whaling?

    Answer. I recognize the importance of marine mammals to marine 
ecosystems. If confirmed, I will support the United States' commitment 
to the International Whaling Commission and work to enforce policies 
that ensure healthy oceans, robust marine ecosystems and proper 
protection of endangered species as well as economic opportunities for 
indigenous populations, including the current moratorium on commercial 
whaling.
General Trade/IP Questions
    Question. Increasingly, the United Nations is taking a more active 
role relating to intellectual property protections that drive America's 
$6.6 trillion innovation economy and support more than 45 million jobs 
across the country. The U.S. biopharmaceutical industry, for example, 
supports approximately 4 million American jobs. If confirmed, what will 
you do to ensure the U.N. system values and protects intellectual 
property and the incentives it provides for new advances that 
contribute so much to economic growth and development here and around 
the world?

    Answer. If confirmed, I will work to ensure that the U.N. system, 
and other international institutions, value and protect intellectual 
property (IP) rights.


    Question. Intellectual property is crucial to the well-being of our 
economy. More money is spent on R&D in the U.S. than in any other 
country in the world. In fact, 30% of the American workforce is 
employed directly or indirectly in IP-intensive industries. The U.S. 
biopharmaceutical industry, for example, supports approximately 4 
million American jobs. But in order to continue accelerating the pace 
innovation in our economy, our trading partners must all play by the 
same rules with respect to market access and protecting intellectual 
property. We have seen a disturbing trend in recent years whereby some 
of our trading partners have ignored their international commitments, 
particularly with respect to intellectual property protection, either 
by failing to fully implement agreements or by flouting the rules in 
order to give their businesses an unfair advantage.
    How can the United States use trade agreements to ensure U.S. 
businesses benefit from strong intellectual property protections and 
greater access to global markets?

    Answer. Working with the United Nations Conference on Trade and 
Development (UNCTAD), the United States will promote academic findings 
that increasingly show stronger domestic intellectual property rights 
systems promote faster economic growth and innovation. Scholars 
producing this research have received support from the World Bank and 
other respected research bodies. I would also point UNCTAD and other 
U.N. institutions to a June 8, 2016 speech by FTC Commissioner Maureen 
Ohlhausen (before the U.S. Patent and Trademark Office) entitled ``The 
Case for a Strong Patent System, which highlights recent research 
supporting the importance of strong patents to a vibrant economy. 
Studies show that developing countries (a special concern of UNCTAD) as 
well as developed countries benefit from robust IP Protection and the 
rule of law, because those factors promote new investment and the 
development of indigenous high tech industries. In short, strong IP 
rights are good for development.

    Question. What can the State Department do to ensure our trading 
partners are enforcing existing commitments and deter countries from 
weakening such standards in their own IP regimes.

    Answer. The United States will continue to work within other 
institutions in which it participates, including, for example, the 
World Intellectual Property Organization (WIPO), the Organization for 
Economic Cooperation and Development (OECD), the World Trade 
Organization (WTO), and the World Bank to work for strengthened 
intellectual property protection. For example, the WTO may wish to 
focus on adherence to TRIPS (trade-related intellectual property 
rights) commitments in its regular peer reviews of individual nations. 
The United States Government may support additional OECD and World Bank 
efforts aimed at highlighting how IP rights are vital to development.

    Question. In your view, how does the monitoring and enforcement of 
trade agreements impact the sustainability and growth of IP-intensive 
industries such as the biopharmaceutical sector?Commissioner Ohlhausen 
(see speech cited above) and other scholars have commented on how U.S. 
Government policies that have been critical of strong IP rights 
(emanating from the Justice Department Antitrust Division, the Federal 
Trade Commission, the White House, and the Patent and Trademark Office) 
have not only discouraged U.S. IP holders, but also have encouraged 
foreign governments to take positions antithetical to strong IP rights. 
Those policies will be reversed and American IP rights will thereby be 
better protected.
State Department
    Question. As one of the most diverse countries in the world, the 
U.S. possesses unparalleled foreign policy strength--its diverse 
citizenry--with its linguistic, socio-cultural, experiential, diaspora 
connections, and other strengths. Unfortunately, many racial and ethnic 
groups have been historically underrepresented in the State Department.
    The most recent numbers available demonstrate Hispanic and Asian 
representation within theDepartment of State's workforce are at 6 
percent each; and although African Americans represent 15 percent of 
the total State Department workforce, they only represent 6 percent of 
the Foreign Service. Native Americans are virtually non-existent among 
our Foreign Service agencies workforce. Many of these racial and ethnic 
groups remain stagnated in low and mid-career positions. This curtails 
their opportunities for career advancement towards senior level 
positions, further limiting racial and ethnic diversity among the 
agency's top ranks.
    What steps will you be taking to cultivate diversity among the 
State Department's Foreign Service and more broadly, and in particular 
among its senior and mid-level leadership?

    Answer. Over the years the Department of State has made numerous 
efforts to modify its intake of junior officers to create a more 
diverse workforce. At the same time, the application process has 
remained competitive, attracting the best and the brightest candidates. 
Balancing these two objectives-- diversity and competitiveness--will 
always be a challenge. If confirmed I will seek creative ways to strike 
the right balance between diversity and competitiveness, while also 
ensuring that promotion through the ranks is purely merit-based.


    Question. The Department of State Authorities Act for Fiscal Year 
2017 mandates the expansion of theCharles B. Rangel International 
Affairs Program and the Thomas R. Pickering Foreign Affairs Fellowship 
Program at the Department of State. These fellowship programs have 
raised the Department's measures of Foreign Service workforce diversity 
by 21 percent. I would argue that this is not enough.
    Beyond an increase in the afore mentioned fellowship programs, what 
other steps will you take to make sure the State Department reflects 
the diversity on American society?

    Answer. If confirmed, I would certainly follow the letter of the 
Authorization Act to continue the Rangel and Pickering Fellowship 
programs. I would also seek creative means to reach out to non-
traditional audiences across the country to elicit a more diverse pool 
of applicants for entry into the various State Department career paths.


                               __________

              Secretary-Designate Tillerson's Answers to 
                      Questions from Senator Flake

    Question. The outgoing administration was content to wage war on 
ISIS using authorities granted in a 2001 authorization for the use of 
military force that was approved in the days after the September 11th 
attacks and focused on fighting al-Qaeda and the Taliban. Some of us 
voiced concern that this was insufficient, in part because it's the 
responsibility of Congress to weigh in on the use of force. Our allies 
and our adversaries need to know that conflicts waged by the U.S. have 
the backing of Congress.
    What are your views on the 2001 AUMF, and do you think there's 
utility in working with Congress on an AUMF that addresses today's 
realities?

    Answer. While AUMF is primarily within the Department of Defense's 
equities and the 2001 AUMF was appropriate at the time, a new AUMF 
could demonstrate U.S. strength and unity of purpose. Having the 
support of Congress to stand behind the decisions to commit American 
men and women as well as military resources strengthens our position in 
the world because it signals our intention to bring the requisite 
resources, both diplomatic and militarily, to bear in international 
conflicts.

    Question. If Congress were to consider an AUMF that was approved 
only along party lines, would you find that less helpful than having no 
updated AUMF at all?

    Answer. Defeating ISIS is the U.S. government's top priority in the 
Middle East, and this is not a partisan matter. If legislative action 
would support our efforts in defeating ISIS, I suspect that the 
Department of Defense would look forward to the discussion.


    Question. During your confirmation hearing, you were asked a number 
of questions about Cuba and recent U.S. policy changes toward that 
country.
    If confirmed, do you commit to looking at all sides of the issue as 
it relates to U.S. policy toward Cuba, and to review the impact that 
these policy changes have had on the ground there?

    Answer. Yes.

    Question. For all the many threats the U.S. is facing, the one that 
keeps me awake at night is our national debt. If we don't put our 
fiscal house in order and put ourselves on a sustainable fiscal path 
forward, we won't be able to address any of the serious threats our 
country faces.

  <diamond> Do you agree that our national debt poses a serious threat 
        to our national security?
  <diamond> What steps might you take to address our national debt as 
        leader of the Department of State, if confirmed?

    Answer. I agree that the national debt is a priority and is a 
serious threat to our national security and our standing in the world. 
If we do not put our fiscal house in order, we will not have the 
resources to address serious threats or new, emerging problems we may 
not have anticipated. If confirmed, I will make stewardship of the 
Department of State's budget one of my key management priorities. If 
confirmed, I will begin looking immediately at any potential FY 17 
Supplemental and full year appropriations prior to the end of the 
current Continuing Resolution to see if some of the requested funding 
is no longer a priority, then turn attention to the FY 18 request 
before it is submitted to assure alignment with these same priorities.


    Question. As Chairman of the African Affairs Subcommittee, I worked 
on legislation to ``electrify Africa,'' that was signed into law in the 
115th Congress. The legislation authorized a USAID-administered program 
called ``Power Africa'' which seeks to use public-private partnerships 
to bring electricity to the parts of Africa that do not have access to 
it.

    Question. Do you believe that helping parts of Africa gain access 
to electricity is in the interest of the United States?

    Answer. Nothing lifts people out of poverty faster than 
electricity. When you provide electricity, you provide the ability to 
refrigerate food and gain access to medicine. It changes the quality of 
life and improves health. I think it is very important to use 
efficiently taxpayer dollars to support these types of programs, 
including Power Africa, and we should continue to support these 
programs.
    Question. When considering what projects should receive U.S. 
funding, do you agree that projects should be selected based on their 
potential to provide access to energy, and without preference for, or 
regard to fuel type or technology?

    Answer. Projects should be selected based on what is the most 
efficient, effective option in order to deliver electricity to the 
areas that do not have it--that should be the priority. That is the 
wisest use of American funding.


                               __________

              Secretary-Designate Tillerson's Answers to 
                     Questions from Senator Shaheen

Conflicts of Interest
    Question. How will you ensure that State Department employees you 
mean to lead will not feel pressure or encouragement, explicit or 
implicit, to benefit the President-elect's financial position or that 
of his family?

    Answer. I will seek the counsel of the professional ethics staff at 
the Department of State and/or the Office of Government Ethics as 
appropriate.

    Question. If confirmed as Secretary of State, how will you respond 
if you suspect that a foreign government or entity is attempting to 
influence the President-elect's decision-making through his financial 
holdings or other means of leverage? Will you notify this committee?

    Answer. I will consult with security professionals and the ethics 
staff at the Department of State. I will act in accordance with 
security and ethics guidelines as appropriate.

    Question. Russian harassment of U.S. diplomatic personnel in Russia 
has significantly increased in the past few years and now routinely 
violates established international norms for treatment of other 
countries' diplomats. In response, the Obama Administration expelled 35 
Russian government officials, and their families, from the United 
States and closed two Russian government compounds. As Secretary of 
State, what specifically would you do, in conjunction with other U.S. 
Government agencies, to prevent future harassment of U.S. diplomatic 
personnel by Russia?

    Answer. If confirmed, I would immediately seek a fuller briefing 
and discussion on the treatment of U.S. diplomatic personnel by Russia. 
At a minimum, a strong message should be delivered to the highest 
levels of the Russian government that the harassment of U.S. diplomats 
must come to an end. Should that message not be heeded, I would work in 
conjunction with the President and other U.S. government agencies to 
develop an appropriate re response.
Negotiations with Russia
    Question. What specific changes in U.S. policies do you expect the 
Russian government to seek from the Trump Administration? Where do you 
see potential room for compromise? What existing U.S. policies and 
commitments do you regard as non-negotiable?

    Answer. It remains to be seen what Russia's approach to the Trump 
Administration will be. One policy that will likely be on Russia's 
agenda is Western sanctions, in particular sanctions for Russia's 
aggression against Ukraine. While the sanctions have clearly imposed a 
price on Russia's economy, Moscow has so far been unwilling to reverse 
its aggression or comply with its obligations under the Minsk process. 
Though Russia has long sought to weaken and undermine the NATO 
alliance, Moscow should know that the U.S. commitment to NATO and its 
Article V security commitment are firm and non- negotiable. One area 
that the President-elect has identified for possible cooperation with 
Russia is the fight against ISIS and radical Islamic terrorism. Russia 
in the past has been the victim of terrorist attacks and fought at 
least two bloody wars in Chechnya. There are estimates that thousands 
of Russian citizens are fighting for ISIS in Iraq and Syria, many of 
whom may eventually seek to return home to carry the jihad back to 
Russia.
NATO/ERi
    Question. Do you support the steps that the North Atlantic Treaty 
Organization (NATO) has taken to bolster its defensive posture in 
response to Russia's invasion of Ukraine and its increasingly 
threatening posture in Europe, particularly NATO's deployment of 
additional forces to the Baltic States and Eastern Europe?
    Do you support the European Reassurance Initiative (ERi), 
undertaken jointly by the Departments of State and Defense on a 
bilateral basis with European partners?

    Answer. During the Trump Administration, the United States will 
remain fully committed to NATO collective defense--period. The steps 
that the United States and NATO have taken to strengthen the 
credibility of collective defense in the eyes of our allies and 
adversaries alike have been reasonable and should continue. This 
includes the deployment of NATO forces on the territory of the Baltic 
States and others in Central and Eastern Europe, as well as the U.S. 
actions taken under the rubric of the European Reassurance Initiative. 
Our allies should have no doubts about the U.S. commitment to NATO.
    That being said, it should not be only the United States that 
expresses such a strong commitment to NATO. While the Baltic states are 
clearly doing their share on defense spending--either at 2 percent of 
GDP, or on their way there-we are concerned that many other NATO allies 
are not demonstrating as strong a commitment to NATO. Making sure that 
all NATO allies--the United States and European allies alike-are doing 
their share will be a critical focus for NATO policy in the months 
ahead.
Balkans
    Question. Although there is a perception that Europe is a 
``finished project'' and no longer requires American leadership on 
democracy-building and economic development, countries like Bosnia and 
Herzegovina still face significant economic, political and social 
challenges. The U.S. has a very positive legacy in the Balkan region, 
in particular having helped to end armed conflict in the former 
Yugoslavia. If confirmed, will you continue State Department programs 
that have sought to promote stability in the European nations that 
aspire to join NATO and the EU like Bosnia and Herzegovina?

    Answer. If I am confirmed, the State Department, in conjunction 
with our Transatlantic partners and other key actors, will continue 
programs that effectively promote stability in Europe, including in 
Bosnia and Herzegovina and the Balkan region.
Cyprus
    Question. Cyprus is a reliable strategic partner of the United 
States in the volatile region of the Eastern Mediterranean. How will 
the new U.S. Administration further develop the bilateral ties between 
the United States and the Republic of Cyprus, and how will it support 
the ongoing reunification negotiations and the implementation of any 
deal that is reached?

    Answer. A long-term solution for Cyprus is important for U.S. 
interests in the region. The United States should continue to support 
the efforts of the Greek and Turkish Cypriot leaders to achieve a just 
resolution that is consistent with U.N. resolutions and heals the 
island's divisions. If confirmed, I look forward to working closely 
with the U.N. and other key actors to support a solution. Strong 
bilateral ties with the Republic of Cyprus will help ensure future 
stability and prosperity in the region.
Georgia
    Question. Georgia is a staunch ally of the United States and 
reliable partner in the fight against terrorism in Iraq and Afghanistan 
that punches well above its weight with respect to its security 
contributions. At the same time, Georgia is a leading reformer in the 
region, transforming itself from a post-Soviet state to an established 
democracy that has vigorously pursued greater Euro-Atlantic 
integration. Georgia has made this progress even as 20% of its 
territory has been illegally occupied by Russia since 2008.
    In this context, can you assure the Committee that you will give 
your full support to Georgia's sovereignty and territorial integrity, 
and its Euro-Atlantic integration path? As Secretary of State, what 
policies will you pursue to help Georgia develop its economy and civil 
society and to protect its territorial sovereignty?

    Answer. I value the contributions of Georgia to our common 
security, including operations in Afghanistan and Iraq. If confirmed, I 
will support Georgia's sovereignty and territorial integrity, as well 
as its efforts to strengthen democracy and economic reform.
Counter-drug Cooperation
    Question. The State Department's Bureau of International Narcotics 
and Law Enforcement Affairs (INL) is responsible for building other 
countries' capacity to fight drug trafficking and organized crime. This 
mission is particularly important to my constituents in New Hampshire 
as we continue to face, along with many other town and cities around 
the United States, an onslaught of deaths caused by heroin and fentanyl 
that has been smuggled into our country. How do you plan to strengthen 
INL's work?

    Answer. If confirmed, I look forward to being fully briefed on the 
Bureau of International Narcotics and Law Enforcement Affairs 
responsibilities in this area and to using INL to help the President-
elect address the heroin epidemic in the United States, as appropriate 
and in consultation with other agencies with jurisdiction in this 
mission area.

    Question. Mexico is an important partner in efforts to stop illegal 
drugs from reaching the U.S. How do you plan to maintain this important 
partnership?

    Answer. I look forward to working closely with the Mexican 
Government on all aspects of the vibrant and mutually beneficial 
diplomatic relationship between our countries and to maintaining and 
working through their interagency process to improve our important 
partnership in the area of illegal drug interdiction.
United Nations
    Question. No single country can effectively address today's global 
challenges alone, whether terrorism, contagious disease, conflict, 
transnational crime, human trafficking, or any number of other 
problems. The United States benefits from the ability of the United 
Nations to coordinate international efforts against such threats, but 
the U.N. is only as effective as its member states want it to be. Some 
believe that our response to the U.N. weaknesses or decisions made by 
member states at the U.N. should be to cut funding or withdraw from 
certain U.N. agencies. Do you believe the U.S. is better off remaining 
actively engaged in all aspects of the U.N. to influence reform efforts 
and protect our interests?

    Answer. The new Secretary General has acknowledged the need for 
vigorous management and accountability reform of the United Nations. I 
believe many U.N. reforms can be achieved by robust, long-term and 
sustained engagement. But using America's financial leverage by 
conditioning our assessed contributions can be a useful catalyst when 
these traditional efforts fail. The possibility of the U.S. withholding 
a portion of our dues has led the U.N. to be more receptive to reforms. 
For example, concern over potential withholding in response to major 
scandals which received the strong attention and interest of the 
Congress, such as the Oil-for-Food scandal and sexual abuses by 
peacekeepers, has led the U.N. to be more willing to adopt reforms.
    In other cases, such as where U.S. law prohibits funding to the 
U.N. Scientific, Educational and Cultural Organization (UNESCO), 
withholding serves U.S. interests by opposing Palestinian efforts to 
secure recognition absent a negotiated peace with Israel With billions 
of U.S. tax dollars going to the U.N. every year, I believe we should 
continually evaluate U.S. funding to the U.N. and otherinternational 
organizations to determine if budgets are justified or should be 
reduced or increased toadvance American interests.
Achieving a Balanced U.S. Foreign Policy
    Question. Achieving a more equitable balance in responsibility for 
resources between the Departments of State and Defense is crucial to 
the success of U.S. foreign policy. Gen. Mattis once commented in 
testimony before the Senate Armed Services Committee that, ``If you 
don't fund the State Department fully, then I need to buy more 
ammunition,'' so he is likely to be a willing partner in this endeavor. 
Please share your perspective on this issue and describe how you plan 
to work with Gen. Mattis if you both are confirmed?

    Answer. I agree wholeheartedly with the idea that diplomacy and the 
military are instruments of national power that go hand in hand. Your 
quote from General Mattis is consistent with comments made by Robert 
Gates during the time when he was Defense Secretary. If we are both 
confirmed, I would look forward to working closely with General Mattis 
to build upon the already strong relationships that bind together the 
Departments of State and Defense. Of course, balancing resources is 
more in the domain of Congress, when they vote on our budgets. If 
confirmed, I expect to be back on Capitol Hill explaining and defending 
State Department budget requests on a regular basis.
Clean Energy
    Question. The International Energy Agency projects that over the 
coming decades more than $60 trillion will be invested in energy 
efficiency and clean energy technologies as countries address climate 
change.These investments will substantially benefit American clean 
energy companies and the 2.5 million U.S. workers they employ. The 
State Department plays a key role in helping to spur these markets and 
create the conditions for America's companies to tap into the growing 
demand for their products.If confirmed, how would you continue to 
support these clean energy efforts that are helping open markets to 
American clean energy companies?
    America, as a leader in global energy, is a critical force in 
advancing energy efficiency and clean energy efforts around the world. 
American businesses are at the forefront of innovation in the clean 
energy and energy efficiency technologies and American workers are the 
best trained in the world. We have great competitive advantages in 
these areas, and, as you have stated, are able to support the 
livelihoods of millions of American workers as a result. As the demand 
for energy increases, further support for clean energy developments 
will be paramount.

    Question. A key piece to guaranteeing a prosperous future for these 
American workers and companies is to make the country the most 
attractive place to do business in the world, and to continue to build 
upon strong trade relationships with global neighbors. The State 
Department's Bureau of Energy Resources manages critical programs which 
allow us to capitalize on U.S. leadership in clean energy innovation 
and open markets for U.S. companies abroad by promoting market-based 
policies and facilitating the introduction of advanced and efficient 
clean energy technologies into markets worldwide. By working with the 
President to implement our national policy goals of supporting and 
protecting American interests, we will be able to both cultivate a 
positive environment for capital investment at home and create market 
opportunities abroad. In doing so, this becomes advantageous, not only 
to energy efficiency and clean energy technology development, but to 
the American economy as a whole.
Educational and Cultural Exchange
    Question. As Secretary, you would be in charge of a large and 
diverse set of State Department educational and cultural exchange 
programs. There is strong bipartisan consensus in Congress that these 
programs are a critical part of our country's public diplomacy toolbox 
and that they contribute significantly to our national security. 
Exchange programs allow us to create crucial relationships with current 
leaders around the world and engage students and professionals who will 
be their country's future leaders. It is equally important that we 
continue welcoming international visitors of all ages and from all 
comers of the world to the United States. We know that exchange 
visitors form deep, lasting ties to families and communities throughout 
the country--ties that create the mutual understanding that enables 
closer diplomatic and business relationships.
    What is your personal experience with exchange programs and your 
view of these programs' importance to our national security and foreign 
policy? Will you continue to support and foster the State Department's 
deep commitment educational and cultural exchange?

    Answer. In my experience in the oil industry I have met many 
foreign leaders who have benefited from exchange programs with the 
United States. It is very much the case that educational and cultural 
exchange programs are a cost-effective way to build long-term personal 
ties and trust with current and future business, educational, media, 
and government leaders around the world. If confirmed, I will certainly 
seek to continue these worthwhile programs.
Global Women's Issues
    Question. What steps will you take to ensure that the State 
Department and USAID maintain the structures and funding necessary to 
address global women's issues, from child marriage to gender-based 
violence to peace and security? Will you commit to ensuring sufficient 
financial resources and support for the Secretary's Office of Global 
Women's Issues, including an ambassador at the helm, and USAID's Office 
of Senior Coordinator on Gender equality so they can continue their 
crucial work?

    Answer. As I stated in my hearing testimony, the issue of 
empowering women is personally important to me. I have seen firsthand 
the impact of empowering women, particularly regarding their 
participation in economic activities in the lesser developed part of 
the world. Investing in women and girls produces a multiplier effect-
women reinvest a large portion of their income in their families and 
communities, which also furthers economic growth and stability. As I 
indicated, I believe women's empowerment and advancement is an 
important part of our foreign aid efforts and I will support such 
programs, including efforts to advance women's participation in peace, 
security and the political process. I will support efforts to end 
violence against women and girls as well as to mitigate the impact of 
such violence. I look forward, if confirmed, to closely examining all 
aspects of these issues to determine if our funding levels and other 
resources are appropriate.

    Question. Women's direct participation in security sectors enhances 
the operational effectiveness of those forces to achieve U.S. foreign 
policy and national security objectives. Yet women remain grossly 
underrepresented in security sectors around the globe. What steps will 
you take to leverage U.S. security assistance to increase the 
recruitment, retention, and promotion of women in security sectors?

    Answer. If confirmed, I will work with the Office of Global Women's 
Issues, to incorporate women into security sectors.

    Question. The United States has made a strong commitment through 
the implementation of the National Action Plan on Women, Peace, and 
Security to advance the inclusion of women in peace and security 
processes around the globe. Research tells us this is critical to 
ensuring the effectiveness and sustainability of these efforts, saving 
tremendous resources in the long-term. What steps will you take to 
prioritize women's participation in peace and security efforts as a 
core pillar of U.S. foreign policy?

    Answer. As I stated in my hearing testimony, the issue of 
empowering women is personally important to me. I have seen firsthand 
the impact of empowering women, particularly regarding their 
participation in economic activities in the lesser developed part of 
the world. Investing in women produces a multiplier effect--women 
reinvest a large portion of their income in their families and 
communities, which also furthers economic growth and stability. As I 
indicated, I believe women's empowerment and advancement is an 
important part of our foreign aid efforts and I will support such 
programs, including efforts to advance women's participation in peace 
and security. I look forward, if confirmed, to closely examining all of 
these programs to determine if our funding levels and otherresources 
are appropriate.

    Question. As you know, if the approximately 225 million women 
worldwide with an unmet family planning need had access to modem 
methods of contraception, we would see 52 million fewer unintended 
pregnancies, resulting in 600,000 fewer stillbirths, 6 million fewer 
miscarriages, and 15 million fewer unsafe abortions. Family planning is 
also one of the most cost-effective interventions, with every dollar 
spent on contraceptive services saving almost $1.50 in the cost of 
providing pregnancy-related and newborn health care. Do you agree that 
these facts support robust funding for U.S. family planning and 
reproductive health programming?

    Answer. The decision about how much funding goes to family 
planning, reproductive health and maternal health is made by Congress 
each year, and Congress has routinely supported these activities at 
robust levels. The U.S. government also has long standing statutory 
prohibitions on taxpayer funding of abortion or coercion in family 
planning. In the event that an organization were to lose money under 
these statutory requirements, I imagine that funds for that 
organization could be redirected to other entities that can provide 
family planning, reproductive or maternal health
LGBTQ Rights
    Question. In a number of regions--from Africa and the Caribbean to 
the Farmer Soviet Union--lesbian, gay, bisexual, transgender and queer 
people are targeted for simply being who they are. They have been 
criminalized, arrested, tortured and even killed. In response, the U.S. 
has begun to include the human rights of LGBTQ people among the wide 
array of human rights that we have fought for and protected.
    How do you plan to continue this work to protect the human rights 
of all people, no matter who they are or whom they love?

    Answer. The United States needs to stand firmly for all human 
rights. This includes support for basic political freedoms such as 
freedom of expression and freedom of assembly, as well as non-
discrimination against women, minorities, and a shared commitment to 
protect the human rights of all people, no matter who they are or whom 
they love.
    In supporting all such human rights, we should be aware of cultural 
and historic differences and how they can be used to weaken U.S. 
influence. We need to stay true to our own values, while being 
tactically smart about how to advance those values throughout the 
world.
Refugees
    Question. Protecting and assisting refugees is a longstanding and 
hallmark of U.S. foreign policy. Since 1975, the U.S. has resettled 
more than 3.2 million refugees representing more than 70 nationalities. 
The U.S. has also provided significant assistance to refugees in need 
around the world, including the millions of Syrians displaced by the 
conflict in their country. How do you plan to carry forward this proud 
tradition?

    Answer. I have not yet been briefed on all aspects of the U.S. 
Refugee Admissions Program, but should I be confirmed as Secretary, I 
will faithfully administer the Refugee Admissions Program consistent 
with law and the policy preferences of the President-elect.


                               __________

              Secretary-Designate Tillerson's Answers to 
                      Questions from Senator Young

    Question. What is your assessment of the Obama Administration's 
Russia reset policy? Do you believe it was a failure?

    Answer. The Administration 's strategy for dealing with Russia, 
while well intended, fell short in execution.

    Question. Why did it fail?

    Answer. It failed because a lack of U.S. resolve convinced Russia 
they would not pay a serious price for their misbehavior.

    Question. What lessons do you draw from that failure?

    Answer. The lesson is that a weak posture with Russia invites 
rather than deters their aggression.

    Question. How should that failure inform U.S. policy toward Russia 
going forward?

    Answer. Being clear about American interests and our intent to 
defend those interests is the best way to have a stable relationship 
with Russia-a relationship that would encourage cooperation in areas 
where our interests overlap.

    Question. A theme of your prepared testimony is accountability. The 
State Department's annual Compliance Report continues to confirm that 
Russia is not complying with the Intermediate-Range Nuclear Forces 
(INF) Treaty. What specific steps should the new Administration take to 
hold Russia accountable for its violation of the INF Treaty?

    Answer. Russia's violations of the INF treaty should he a high 
priority of U.S. diplomacy with Moscow. If Russia refuses to comply 
with its obligations, the U.S. should not hesitate to take appropriate 
steps to defend its interests and those of our allies in Europe.

    Question. If confirmed as Secretary of State, you will be 
responsible for the safety of State Department employees around the 
world--including in all of our embassies, consulates, and special 
mission facilities?

    Answer. The work of the Foreign Service in many parts of the world 
entails risks and dangers that require great sacrifices on the part of 
our employees. If confirmed, I will be fully committed to the security 
of our people and our facilities overseas.

    Question. Have you reviewed the 2012 Accountability Review Board's 
(ARB) findings and recommendations? Based on your preparation of this 
position, what is your assessment of the State Department's 
implementation of the ARB's recommendations? Which recommendations have 
not been implemented?

    Answer. If confirmed, I will commit to reviewing fully the 
recommendations of the ARB, and direct that any of the measures in that 
report that would enhance our security, be put into place if not done 
so already.

    Question. The second finding of the ARB was that quote ``Systemic 
failures and leadership and management deficiencies at senior levels 
within two bureaus of the State Department resulted in a Special 
Mission security posture that was inadequate for Benghazi and grossly 
inadequate to deal with the attack that look place.'' To avoid such 
``systemic failures and leadership and management deficiencies'' 
requires that the Secretary of State make clear that subordinate State 
Department officials in Washington should move heaven and earth to 
ensure our ambassadors overseas have what they need to keep our 
personnel safe. The State Department Inspector General (IG) has 
testified that implementation of the Benghazi ARB recommendations must 
be administered from the top down, rather than led by individual 
bureaus, to ensure their enduing impact. If confirmed, do you commit to 
making the security of our State Department personnel overseas a 
leading priority?

    Answer. Yes, ensuring the safety of personnel overseas will he a 
leading priority, if I am confirmed.

    Question. If confirmed, will you let me and this committee know if 
there is ever anything that you need to improve the security of our 
facilities overseas?

    Answer. The critical element to successfully carrying out these 
measures is that clear responsibility is conveyed and those who have 
that responsibility are accountable. If corfirmed, I will consult with 
you and the Senate Committee on Foreign Relations about progress to 
improve security and/or requests for resources for that purpose.

    Question. In your prepared statement, you wrote that, ``We cannot 
look the other way at allies who do not meet their obligations.'' What 
specific allies and obligations are you referring to?

    Answer. I believe strongly in a world where America works with 
allies and partners. Our alliances are durable and our allies are 
looking for a return of American leadership. Many of those allies have 
also commmented to us that we should be vigilant in encouraging. This 
is long-standing U.S. policy. Our NATO allies have committed themselves 
to spending at least 2 percent of GDP on defense, but many NATO members 
currently do not meet this commitment. If confirmed, I will work to 
ensure that our allies reach the two percent commitment through 
constructive engagements in bilateral and multilateral forums. I will 
also work with our NATO allies to ensure that resources are spent 
efficiently, so that increased spending levels actually result in 
stronger capabilities. I regard it as paramount to develop appropriate 
incentive structures that ensure greater investment by all of'our 
allies in real capabililies that strengthen U.S. national security and 
contribute to global stability.

    Question. What is your assessment of the situation in Afghanistan? 
Do you agree that we can never permit Afghanistan to once again become 
a safe haven and launching pad for international terrorism?
  <diamond> Do you agree that our military posture in Afghanistan 
        should be based on our national security interests, the facts 
        on the ground, and the advice of our commanders-rather than 
        political timelines?
  <diamond> Do you agree that a premature withdrawal from Afghanistan 
        risks leaving us with the unenviable choice of accepting a 
        terrorist safe haven there or returning at a greater cost?

    Answer. The war in Afghanistan is the longest war in American 
history. Today, the United States should engage the government of 
Afghanistan President Ashraf Ghani and CEO Abdullah Abdullah to 
increase stability, reduce corruption, ensure better standard living 
for Afghans, particularly women and girls, and ensure that Afghanistan 
is never again used as a base for international terrorism. It should 
also engage with Islamabad to strengthen the civilian government and 
eliminate the safe havens that terrorist groups like the Haqqani 
network enjoy. Always, the United States should make decisions based on 
military and strategic interests, rather than political expedients or 
artificial timelines. The United States should work with both 
Afghanistan and Pakistan to encourage cooperation, build trust, and 
seek to ensure regional stability in a context of mutual respect and 
its national interests.

    Question. Would you agree that establishing sustainable peace and 
stability in Iraq and Syria will require inclusive, non-sectarian 
regimes in Damascus and Baghdad (hat treat Sunnis as full and equal 
citizens?
  <diamond> Absent such inclusive regimes, would you agree that Sunni 
        Islamist terrorist organizations will find fertile ground for 
        terrorist recruitment and operations?
  <diamond> Based on that, do you agree that any sustainable peace in 
        Syria must include a political transition that includes the 
        departure of Assad and the establishment of an inclusive regime 
        in Damascus?
  <diamond> If confirmed, how would you achieve the departure of Assad?

    Answer. If confirmed, I will robustly engage Russia and other 
parties to negotiate a political settlement to the Syrian civil war 
that alleviates the humanitarian suffering of Syrians. Iraqis have also 
suffered greatly from ISIS. Sectarian policies, like those of Bashar 
Assad in Syria, contribute to violence and make a sustainable peace 
more unattainable. The United States should emphasize to Russia and 
others the negative sectarian policies Iran encourages the Syrian (and 
sometimes the Iraqi) government to adopt, which fuels ethno sectarian 
violence and contributes to destabilization throughout the Middle East 
This does not serve the interests of the United States, and I would 
stress to Russia that it does not serve Russia's interests either. If 
confirmed, I would also work closely with our allies in the region to 
ensure that any political settlement in Syria does not place their 
security in jeopardy, nor leave Iran in a dominating position, nor 
result in widespread humanitarian violations.

    Question. What is your assessment of the U.S. relationship with 
India?

    Answer. India is an important partner with the United States, It is 
the world's most populous democracy, and one which is playing an 
increasingly important role in the region and throughout the world. As 
the largest country in South Asia, India has an important role to play 
in ensuring regional stability. ever, certain areas of India 's 
behavior remain concerning.

    Question. Do you believe that we should seek to deepen our 
economic, and military ties with India?

    Answer. If confirmed, I will engage India to deepen our 
cooperation, while raising issues the United States would like India to 
address.

    Question. If confirmed, would you do all that you can to ensure 
[hat U.S. policy supports the maintenance of Israel's Qualitative 
Military Edge (QME)?

    Answer. Yes. Israel is America's strongest and most reliable 
partner in the Middle East. Its security and wellbeing are a vital U.S. 
interest.
    The United States is bound by law as well as duty to ensure that 
our only democratic ally in the region is fully capable of defeating 
any credible military threat that may emerge to its security.

    Question. In his July 2015 nomination hearing before the Senate 
Armed Services Committee to serve as the Chairman of the Joint Chiefs 
of Staff, General Joseph Dunford was asked ``What would [he] consider 
the greatest threat to our national security?''
    General Dunford said, ``Russia presents the greatest threat to our 
national security.'' He continued saying, ``in Russia, we have a 
nuclear power. We have one that not only has capability to violate 
sovereignty of our allies and to do things that are inconsistent with 
our national interests but they're in the process or doing so. So if 
you want to talk about a nation that could pose an existential threat 
to the United States, I'd have to point to Russia. And if you look at 
their behavior, it's nothing short of alarming.''
    Do you agree with Genera] Dunford's assessment?

    Answer. Based on the excerpt provided, I would he interested in 
hearing more from the General about his assessment.


                               __________

              Secretary-Designate Tillerson's Answers to 
                      Questions from Senator Coons

Russia
    Question. How do development and State Department resources for 
anti-corruption, rule of law, and human rights fit into your plan for 
the future of U.S.-Russian relations?

    Answer. As we engage Russia diplomatically to protect and advance 
U.S. interests, we must continue looking for opportunities to fight 
corruption and promote the rule of law and human rights.

    Question. As Secretary of State, will you make it a priority to 
support the Moldovan government's efforts to regain control of its 
territory and secure the withdrawal of Russian occupation forces from 
Transnistria? If so, what steps will you be prepared to take to achieve 
these objectives?

    Answer. Through both its bilateral diplomacy and in multilateral 
institutions, the United States should support Moldova's peaceful 
efforts to restore sovereignty over its territory through the 
withdrawal of Russian forces.
Democracy, Human Rights, and Governance
    Question. Where do you see the biggest threats to civil society 
around the world, and who is responsible for these threats?

    Answer. Over the past several years, we have seen a growth in the 
number and assertiveness of authoritarian leaders around the world. 
This puts significant pressure on civil society, including journalists 
and the media, political parties, NGOs, and even professional 
associations. In addition to traditional authoritarian states, ISIS has 
brutally cracked down on human rights and freedoms in areas under its 
control.
    The authoritarian leaders and terrorists are themselves responsible 
for this crack-down on human rights.
    The United States and other democracies around the world have a 
responsibility to call attention to threats to civil society and 
support our own core values of freedom, democracy, human rights, and 
the rule of law.


    Question. Combined Department of State and Department of Defense 
funding for security assistance in Africa grew from just over $500 
million in FY 13 to approximately $1 billion in FY 15. At the same 
time, the amounts available for democracy building fell from $230 
million in FY 13 to only $170 million in FY 15.
    Do you believe it is appropriate to decrease funding for democracy 
and good governance while increasing funding for security assistance in 
Africa?
    Should we be conditioning our security sector assistance-such as 
the provision of lethal equipment-on countries meeting some sort of 
governance and or rule of law standards?

    Answer. The increase in security assistance spending in Africa over 
this time period is entirely appropriate given the increased threat 
posed by ISIS and other terrorist groups, as well as the fragility of 
many states in the region.
    I believe the United States should also provide support for 
democracy-building in the region, but I do not see the need for trade-
offs between these two important objectives.
    As for conditioning our assistance, the nature of the governments 
we work with should clearly be a factor in our thinking. But we must 
also remember that our overseas security assistance is designed to 
enhance the security of the United States and its people--and that 
should always be our first priority.
International Organizations
    Question. As Secretary of State, how will you engage with the U.N. 
to meet priorities such as providing humanitarian aid, monitoring 
compliance with multilateral sanctions, and preventing the 
proliferation of nuclear weapons?

    Answer. I will work with leaders like the High Commissioners for 
Refugees and the Executive Director of the World Food Program to 
address humanitarian crises with all possible speed. This will require 
U.S. support, involvement, and oversight. On proliferation, as you know 
the U.N. can be hindered on those matters by opposition and lack of 
cooperation from member states. However, I will work with institutions 
like the IAEA and the U.N. Security Council to address and monitor 
these issues where possible. We will also avail ourselves of 
alternative measures like bilateral and non-UN multilateral sanctions 
where appropriate and joint efforts like the Proliferation Security 
Initiative.


    Question. For decades, the U.S. has led a network of international 
institutions, from, the World Bank to the IMF to what is now the WTO. 
They are far from perfect, but they have helped to foster international 
coordination in crises from Asia in 1997 to the global economic 
collapse of 2008.
    Are these institutions important, not just to our trade and 
finance, but to our global leadership?

    Answer. America's stature in the world depends first and foremost 
on our leadership, policies, economy, and determination to protect our 
interests and those of our allies. The World Bank, IMF, and WTO can be 
important vehicles and venues to advance our political and economic 
interests.
Foreign Assistance and International Development
    Question. Last year, the President signed the Foreign Aid 
Transparency and Accountability Act, which I cosponsored, into law. The 
Act requires the President to establish and implement guidelines with 
measurable goals and performance metrics across U.S. international 
development and economic assistance programs. How do you intend to 
advance transparency and accountability for U.S. foreign assistance 
dollars?

    Answer. In order for State and USAID to carry forward their 
critical foreign-assistance work, it is important to measure the 
efficiency of their foreign-assistance and development programs and 
closely examine the administrative and management practices of both 
entities. By doing so, the State Department and USAID will be able to 
more effectively prioritize development investments and eliminate 
inefficiencies, including duplication of effort. Making sure that our 
foreign-assistance mission is implemented in an accountable, 
transparent, and cost-saving manner is one of my key administrative and 
management priorities.

    Question. We've seen a string of presidential legacies on 
development-from AGOA in the Clinton

    Answer. Administration to PEPFAR and MCC in the Bush Administration 
to Feed the Future and Power Africa in the Obama Administration. Can we 
expect a development initiative from the Trump administration? PEPFAR, 
MCC, Feed the Future, and Power Africa have all been very successful 
and valuable. I hope to aid the President in continuing this trend of 
groundbreaking presidential initiatives.

    Question. How will you work to strengthen public-private 
partnerships that alleviate poverty?

    Answer. Through an efficient use of taxpayer dollars, we can 
support and implement more effective programs that focus on food 
security, including Feed the Future, which fights hunger. In an effort 
to maintain global health programs in the long-term, USAID should 
continue to engage in public-private partnerships. These partnerships 
aid a country in lifting itself out of poverty, and continuing them is 
necessary for fighting deprivation around the globe. At the same time, 
it is important to understand how the success of these initiatives is 
measured and how highly successful initiatives may be replicated in 
other geographic areas and in other issue areas that we want to 
advance.


    Question. General Mattis, the President-elect's nominee to be 
Secretary of Defense, said at a hearing in front of the Senate Armed 
Services Committee in 2013, ``If you don't fund the State Department 
fully, then I need to buy more ammunition.'' The budget for the State 
Department, USAID, and related agencies represents just over 1% of our 
overall budget.
    As Secretary of State, will you argue to maintain this level of 
funding? If confirmed, how will you work to ensure our civilian tools 
of national security remain key components of our national security 
strategy?

    Answer. By evaluating current development and diplomacy programs 
for best practices and standards of efficiency, we hope to maintain 
funding for these programs proportional to the U.S. budget. If 
confirmed, I will work to ensure that development and diplomacy are 
viewed as complements to, not competitors of, our national security 
goals. Africa

    Question. If confirmed, what immediate steps do you plan to take as 
Secretary of State to help prevent genocide in South Sudan?

    Answer. The situation in South Sudan is one of the most pressing 
humanitarian situations in the world. It is critical to help build some 
political space for reconciliation between the government and rebel 
factions. The United States should continue to engage in international 
forums like the U.N. and bilaterally with key partners in the area to 
address this issue, and decide upon a combined policy to address this 
violence. This would include deploying robust diplomacy, possible 
sanctions, peacekeeping efforts, and other measures.

    Question. As Secretary of State, how do you propose to support the 
Great Lakes region in managing displacement in accordance with 
international and regional legal norms?

    Answer. The United States must lead with its values, including 
alleviating humanitarian concerns where it can. Internally displaced 
persons are one such concern, particularly in the Great Lakes region of 
Africa where over three million people are forcibly displaced. If 
confirmed, I would engage on this issue bilaterally, with the key 
regional states like Uganda and multilaterally with the African Union 
and the U.N. Special Envoy for the Great Lakes Region to ensure that 
this humanitarian concern remains a focus of the international 
community.

    Question. Will you work to support and advance the goals of the 
Electrify Africa Act?

    Answer. Nothing lifts people out of poverty faster than 
electricity. When you provide electricity, you provide the ability to 
refrigerate food and gain access to medicine. It changes the quality of 
life and improves health. I think it is very important to support the 
Electrify Africa Act, which authorized the USAID administered program 
Power Africa. We should continue to efficiently use taxpayer dollars to 
support and advance the goals of the Act and the Power Africa program, 
in order to use public-private partnerships to bring electricity to the 
parts of Africa that do not have access to it.
Fragility
    Question. An estimated 2 billion people live in conflict-affected 
and fragile states, and 37% of U.S. Official Development Assistance is 
spent in these states.
    If confirmed, how would you craft a new agenda for fragile states, 
and how would you integrate development, diplomacy and military action 
in a unified U.S. response to fragile states?

    Answer. The Department of State and USAID already have programs 
that focus on the causes and potential remedies for weak and fragile 
states, including the Interagency Conflict Assessment Framework. This 
program provides guidance for implementing stabilization protocols. 
USAID programs, such as Provincial Reconstruction Teams, serve as a 
measure to support revitalization in fragile states. These programs 
help us better understand the underlying causes of individual weak and 
fragile states, and utilize those results to craft better diplomatic 
and development policy.

    Question. How will you budget for conflict prevention and 
peacebuilding?

    Answer. In reference to how to budget for these fragile states, it 
is valuable to look back on previous budgets to analyze for best 
budgeting practices.
India
    Question. In the last two years, the State Department has engaged 
in a high level exchange known as the Strategic and Commercial Dialogue 
with the world's largest democracy and Asia's fastest growing large 
economy- India. Will you continue the Strategic and Commercial Dialogue 
with India?

    Answer. If confirmed, I will certainly continue all efforts to 
strengthen U.S.-Indian bilateral relations politically, economically, 
and strategically.
Turkey
    Question. A Delawarean named Ismail Kul is currently detained in 
Turkey. If confirmed, will you commit to having the State Department 
update me on this case and will you commit to fighting for the release 
of detained American citizens in Turkey?

    Answer. Yes. If I am confirmed, the State Department will remain in 
close touch about the case and make the release of Ismail Kul and other 
detained American citizens a very high priority in Turkey and elsewhere 
around the world.
Iran Hostages
    Question. What steps will you take to prioritize the return of 
American citizens detained and missing in Iran, including Robert 
Levinson, Siamak Namazi, Baquer Namazi, and Robin Shahini?

    Answer. The United States must always consider detained Americans 
and American hostages a top priority. It is deeply concerning to me 
that the Obama Administration should conclude a diplomatic agreement 
and reward a government like Iran's that is active in detaining 
American citizens. In particular, the case of Robert Levinson must be 
resolved. If confirmed, I would engage our partners in the region to 
exert pressure on Iran, as well as examine unilateral policy options, 
and stress to all parties that this is a top priority of the United 
States.
Intellectual Property
    Question. Some foreign governments are subjecting American 
companies to antitrust investigations that often appear to lack due 
process protections, thereby insulating their domestic companies from 
U.S.-based competition and often eroding the value of American 
companies' intellectual property rights in the process. If you are 
confirmed, how will you ensure that our trading partners are living up 
to their end of the bargain to treat American companies and their 
intellectual property fairly, particularly in proceedings before 
foreign competition agencies?

    Answer. The United States has been a leader in promoting the rule 
of law, including in areas of antitrust and intellectual property, 
which are vital to promoting competition and innovation and benefit all 
of us as consumers.
    The U.S. antitrust laws are evenhandedly enforced to protect 
competition, not to disadvantage foreign companies selling to U.S. 
customers. Unfortunately, some other countries employ their competition 
laws to exclude effective competition from American companies. Some 
countries also use antitrust legal proceedings unjustifiably to require 
companies to surrender their intellectual property. These actions not 
only harm American companies, which are forced to give up valuable 
business or assets without justification or fair compensation, but also 
undercut competition and innovation.
    American companies are most likely to face these unfair actions 
because they are leaders in business and technology. I believe it is 
appropriate for the United States to press trading partners not to 
misuse legal proceedings to disadvantage American companies or gain 
access to their intellectual property. There is a role for the State 
Department in this, along with the Department of Commerce, the U.S. 
Trade Representative, and the Department of Justice antitrust officials 
addressing these issues with counterparts in other countries. As 
Secretary of State, I would work with these agencies to prevent the 
misuse of competition law by foreign governments that harms American 
companies.
Global Health
    Question. In 2014, I visited Liberia during the height of the Ebola 
outbreak. The outbreak: was curbed by brave public health workers, 
volunteers, and the infrastructure, but also by investments made by the 
United States through our PEPFAR program and the Global Fund, our 
efforts against polio and the resulting labs, communications, and the 
infrastructure and the public health systems that we helped develop. 
How can U.S. development and diplomatic capacities be utilized to spur 
the investments needed to help foster sustainable, resilient health 
systems capable of saving lives and preventing deadly outbreaks before 
they threaten global health security?

    Answer. The global health programs focused on fighting diseases, 
including PEPFAR, PM/, and USA/D's Global Tuberculosis (TB) Program, as 
well as the Global Health Security Agenda, have proven to be extremely 
valuable and successful programs. In order to ensure that we 
effectively address emerging crises and outbreaks, such as Ebola and 
the Zika virus, it is important to understand how the success of 
programs addressing these outbreaks is measured so that we may properly 
prevent, detect, and respond to future outbreaks.

    Question. Senator Susan Collins and I have championed the Reach 
Every Mother and Child Act, a bill that aims to end preventable 
maternal and child deaths worldwide within a generation by improving 
delivery systems and leveraging private and public funds. As Secretary, 
how do you foresee advocating for a policy that leverages private and 
public funds to address maternal and child deaths worldwide?

    Answer. PEPFAR is a global health program that aims to reduce 
infant and maternal mortality by decreasing mother-to-child 
transmissions of HIV/AIDS. PEPFAR is a successful and valuable program 
and it should serve as a model for future programs.

    Question. The United States has a number of strategic interests in 
Africa and these same countries strongly support international climate 
action. Do you believe that a possible U.S. withdrawal from the Paris 
or other key international multilateral or bilateral climate agreements 
have major impacts on our relationships in this region? Would that 
impact advancing any other major priorities in the region?

    Answer. Cooperation on international climate change is only one 
issue that the United States engages in with African nations. If 
confirmed, I plan to conduct a review of the current role that the 
State Department plays in international climate change efforts to 
ensure that U.S. national interests and American competitiveness are 
not compromised.

    Question. Do you believe efforts to address climate change require 
governmental, business, and civil society (NGO) sector involvement? 
Should one sector play a larger role than others? Does the U.S. 
government, specifically the Secretary of State, have a role in 
developing policy and working with the international community on 
reducing the impact of climate change through appropriate foreign 
policy levers?

    Answer. If confirmed, I will ensure that the State Department 
interacts when appropriate with all elements of civil society and the 
business community regarding climate change issues.

    Question. What would be your general policy approach on addressing 
climate change in terms of mitigation and adaptation? Do you support 
funding for programs to mitigate and respond to the impacts of climate 
change on vulnerable populations where flooding, droughts, loss of 
arable land, and other consequences threaten to displace tens of 
millions of people?

    Answer. If confirmed, I will conduct a review of the U.S. role in 
international climate change matters, including the funding of 
mitigation and adaptation measures through the Green Climate Fund and 
other financial mechanisms.

    Question. Would U.S. withdrawal from the Paris Climate Agreement 
impact our credibility abroad and if so, how? Do you believe that there 
are multiple paths and mechanisms by which the U.S. or any party can 
achieve the targets in the Paris Agreement? If the U.S. was not at the 
table, do you believe other countries may be more reluctant to uphold 
their commitments, remain transparent, or promote innovative actions?

    Answer. Under the incoming administration I expect that the State 
Department and other parts of the government will conduct a review of 
the Nationally Determined Contribution submitted by the Obama 
Administration as part of a broad review of the Paris Agreement and the 
U.N. Framework Convention on Climate Change to determine whether the 
NDC and/or the international agreements advance U.S. national 
interests.

    Question. Would you support going further and withdrawing from the 
1992 U.N. Framework Convention (UNFCCC)? Given that the Senate provided 
its advice and consent for the UNFCCC, do you believe that the Senate 
has a role to play should the Trump administration seek to withdraw 
from it?

    Answer. Under the incoming administration I expect that the State 
Department and other parts of the government will conduct a review of 
the U.N. Framework Convention on Climate Change (UNFCCC) to determine 
whether it advances U.S. national interests. The UNFCCC includes 
articles regarding withdrawal from the convention, as does the Paris 
Agreement, and what role, if any, should be played by the Senate in the 
event the United States withdraws from either agreement will be 
determined.

    Question. The U.S., with the State Department playing an important 
role, has helped to spur markets abroad for American clean energy 
technologies and create the conditions for America's companies to tap 
into the growing demand for their products. Would you continue to 
support these efforts that are helping open markets to American clean 
energy companies?

    Answer. America, as a leader in global energy, is a critical force 
in advancing energy efficiency and clean energy efforts around the 
world. American businesses are at the forefront of innovation in the 
clean energy and energy efficiency technologies and American workers 
are the best trained in the world. We have great competitive advantages 
in these areas, and, as you have stated, are able to support the 
livelihoods of millions of American workers as a result. As the demand 
for energy increases, further support for clean energy developments 
will be paramount.
    A key piece to guaranteeing a prosperous future for these American 
workers and companies is to make the country the most attractive place 
to do business in the world, and to continue to build upon strong trade 
relationships with global neighbors. The State Department's Bureau of 
Energy Resources manages critical programs which allow us to capitalize 
on U.S. leadership in clean energy innovation and open markets for U.S. 
companies abroad by promoting market-based policies and facilitating 
the introduction of advanced and efficient clean energy technologies 
into markets worldwide. By working with the President to implement our 
national policy goals of supporting and protecting American interests, 
we will be able to both cultivate a positive environment for capital 
investment at home and create market opportunities abroad. In doing so, 
this becomes advantageous, not only to energy efficiency and clean 
energy technology development, but to the American economy as a whole. 
Natural Resources

    Question. How do you propose balancing U.S. interests in natural 
resource development abroad with the interests of the countries 
containing those natural resources, especially when conflict zones or 
authoritarian governments are involved?

    Answer. If confirmed, I will work to balance all U.S. interests, 
and I look forward to engaging with you regarding concerns with respect 
to specific situations. However, I do not believe it would be prudent 
to opine on hypotheticals.

    Question. How would you uphold U.S. values of democracy and human 
rights in issues of natural resource development?

    Answer. As I mentioned in my opening statement, our approach to 
human rights begins by acknowledging that leadership requires moral 
clarity. We do not face a choice on defending global human rights. Our 
values are our interests when it comes to human rights and humanitarian 
assistance. The need for leadership on human rights would apply to all 
of our interests across the world including issues of natural resource 
development.

    Question. Wildlife trafficking has rapidly escalated in scale, 
sophistication, and violence to become an issue of security and 
stability. How will you work with this Congress, other federal 
agencies, and countries across the globe to implement the END Wildlife 
Trafficking Act and further the U.S. and international efforts to 
tackle the wildlife poaching and trafficking crisis?

    Answer. The global spread of wildlife trafficking has implications 
for conservation, crime, and national security. Public Law No. 114-231, 
Eliminate, Neutralize, and Disrupt Wildlife Trafficking Act of 2016, 
which was passed by Congress unanimously and signed into law by the 
President this past October, provides new tools to help the United 
States and partner countries to address this crisis. I will work with 
Congress on the implementation of this law and related laws. Moreover, 
I will work with partner countries to further efforts to combat 
poaching and wildlife trafficking.

    Question. Do you support the Cardin-Lugar transparency provision 
(Section 1504 of the Dodd-Frank Act), which requires oil, gas and 
mining companies to publicly disclose their project-level payment 
information in every country of operation in an annual report to the 
Securities and Exchange Commission?

    Answer. The Securities Exchange Commission has adopted regulations 
implementing the Cardin-Lugar transparency provisions, which were added 
to the Exchange Act in 2010 by Section 1504 of the Dodd Frank Act. The 
regulations require each resource extraction issuer to file an annual 
report with the SEC, which includes information relating to any payment 
made by the company to any foreign government or the federal government 
for the purpose of the commercial development of oil, natural gas, or 
minerals. Because these regulations are within the purview of the SEC, 
I would not have any direct role in implementing them if confirmed to 
be the Secretary of State.

    Question. Are there natural resource situations that would lead you 
to recommend withdrawing foreign aid or imposing sanctions? If so, what 
are those?

    Answer. I would need to be briefed and evaluate any specific 
information regarding any situation in which the withdrawal of foreign 
aid or the imposition of sanctions would be contemplated and am not in 
a position to determine what a hypothetical situation may require.

    Question. The United States policy on oceans critically impacts a 
number of U.S. and global interests, including the fishing industry, 
trade and shipping routes, and marine research. How would you build on 
current U.S. oceans policy? What changes, if any, would you make?

    Answer. President Obama issued an Executive Order in 2010 which 
established a National Ocean Policy. If confirmed, I will review the 
State Department's implementation of the NOP and determine whether any 
changes may be necessary to ensure that it is contributing to these 
goals.
Scientific Integrity and Diplomacy and R&D
    Question. Do you believe that scientific cooperation on bilateral 
and multilateral bases is essential to achieve U.S. national security, 
public-health, and environmental goals? What do you see as the 
opportunities for science, technology, and innovation through 
diplomacy? For example, whether it's emerging infectious diseases like 
Ebola, cooperation in space, or climate change, science and technology 
play major roles on a range of global issues which involve the State 
Department. What would you view as the role of science and scientific 
advice in your approach to diplomacy?

    Answer. Bilateral and multilateral cooperation in the area of 
science, which is sometimes referred to as science diplomacy, can help 
to advance U.S. interests in national security, public health, and the 
environment.
    These relationships are particularly vital in dealing with pandemic 
outbreaks like HlNl and Ebola. Discovering cures for infectious 
diseases advances humanitarian interests and innovating new ways to 
meet energy demands advances development goals for emerging economies. 
I will assess science-related programs in the State Department to 
ensure that they further U.S. national interests, as discussed above.

    Question. How would you foster a culture of scientific transparency 
and accountability at the State Department, while protecting scientists 
and engineers from political interference in their work?

    Answer. Fostering a culture of scientific transparency and 
accountability at the State Department is important to ensure the 
integrity of research and development. Furthermore, scientists and 
engineers whose work is supported by the State Department must be held 
to the highest ethical standards because they are ultimately 
responsible to the taxpayers. I will review any policies that create an 
unacceptable risk of political interference or that create perverse 
incentives for scientists and engineers to skew their data or findings 
for political rather than scientific reasons.

    Question. What policies would you undertake to best ensure that 
your department contributes to America's continued leadership in 
science, technology, and innovation as a part of your diplomatic 
outreach?

    Answer. Maintaining U.S. leadership in science, technology, and 
innovation is of vital importance and I will carefully consider the 
particular role that the State Department may play--working with other 
agencies such as our National Labs--in this effort with any available 
tools such as overseas fellowship programs, research grants for 
innovators in emerging countries, and collaborations with governments 
and research institutions in partner countries as well as partnerships 
with U.S.-based institutions, including those in the private sector.

    Question. Given your experience as a trained civil engineer and as 
the CEO of Exxon Mobil, a company with a strong science and technology-
dependent profile, how would you ensure that the Department of State 
has access to science and technology resources, including individual 
scientists and engineers, needed to address contemporary foreign policy 
issues from climate change to energy security to arms control?

    Answer. I recognize there is considerable knowledge and skills in 
our National Labs from nuclear physics to biothreats. We should tap 
into those resources.
    If confirmed, I will work to strike the right balance in terms of 
staff and resource allocation among the different aspects of the State 
Department's mission, including those pertaining to science and 
technology so that the team as a whole is most cohesive and effective 
in furthering the foreign policy agenda of the President-elect and to 
meet contemporary challenges head-on with reliable scientific data and 
technological expertise.

    Question. Given existing budgetary constraints that place a burden 
on discretionary spending, what would be your science and engineering 
research priorities, and how would you balance short-term versus long-
term funding?

    Answer. In light of budgetary constraints on discretionary spending 
as well as the enduring duty to taxpayers to maintain fiscal 
discipline, priority must be given to those scientific and research 
initiatives that are the most effective in advancing U.S. interests in 
national security and other areas such as humanitarian interests. 
Programs and activities, whether funded in the short or long term, must 
be regularly assessed according to sets of per/o performance metrics to 
determine whether funding should continue and, if so, whether such 
funding should be increased or decreased.


                               __________

              Secretary-Designate Tillerson's Answers to 
                      Questions from Senator Udall

Policy
    Question. New Mexico's number one trading partner is Mexico.. .and 
to be clear, the rhetoric of the President elect towards Mexico and 
people of Mexican decent has been extremely harmful to our 
relationship. Comments from Mr. Trump on the campaign trail that 
Mexican immigrants are rapists and murderers... and that focus solely 
on a wall across our border ignore complex issues our two countries are 
working on together.
    What is your negotiation strategy for Mexico to pay for a wall on 
the U.S. border?

    Answer. I have not discussed a negotiation strategy for payingfor 
the wall on the southern border with the President-elect.

    Question. How will you work to repair the damage done by the 
President-elects statements regarding Mexican immigrants referenced in 
question 1?

    Answer. If confirmed, I look forward to working closely with the 
Mexican Government on all aspects of the vibrant and mutually 
beneficial diplomatic relationship between our countries.

    Question. What are your thoughts on Mexico's efforts to transition 
to an adversarial judicial system similar to our own and how will you 
support this effort at the federal and state level in Mexico?

    Answer. The landmark judicial reform passed in 2008 that is 
transforming the judicial system from a closed inquisitorial system 
toward an adversarial model is an important development for Mexico that 
promotes more transparency and trust in the justice system. The State 
Department, along with the interagency, will continue to provide 
training and technical assistance programs to Mexico to realize this 
transition and support the rule of law.

    Question. New Mexico's national labs have played a key role in 
nonproliferation and weapons monitoring since the dawn of the atomic 
age. And they played a key role in the Iran agreement which is why I 
have strong confidence in the agreement. Do you trust the science 
behind the Iran agreement and that each pathway to create a nuclear 
weapon has been effectively stopped by the JCPOA?

    Answer. My concern is less with the agreement's science than with 
Iran's intentions, its ambitions, and its history of cheating and 
aggression.
    The agreement will only be as strong as its verification and 
monitoring mechanism, and the vigilance and determination of the United 
States and its allies to ensure it is strictly enforced.
    But I also worry about the agreement's sunset clauses and the fact 
that many of its most important restrictions on Iran 's nuclear 
capabilities will lapse in the not-so-distant future.

    Question. Will you be open to briefings from Department of Energy 
and NNSA officials while you review the JCPOA?

    Answer. If confirmed, I would certainly welcome getting briefed by 
experts as 1participate in the administration's review of our approach 
to the JCPOA.

    Question. Will you engage with the national labs and the National 
Nuclear Security Administration to address key issues regarding 
nonproliferation and take a science based approach to countering would 
be proliferators in the future?

    Answer. If confirmed, I would welcome support and input from the 
national labs and the National Nuclear Security Administration in 
addressing the serious nonproliferation challenges that our country 
faces.

    Question. What are your thoughts about the wisdom of sending arms 
to so called moderate rebels in Syria? (many who are affiliated with 
terrorist groups) Will you continue to support.. -in my opinion.. .this 
misguided program?

    Answer. The war in Syria is one of the most pressing national 
security issues for the United States. If confirmed, I would engage 
America's regional partners as well as the key parties in this conflict 
to reach a sustainable political solution. This would require robust 
diplomacy and American participation in multiple international and 
bilateral dialogues. The United States should engage its key partners 
to assess what policy options are most effective for achieving such a 
solution, and working with them to build stability in both Syria and in 
a broader context regionally.

    Question. Which side are we on in the civil war in Syria?

    Answer. The top national security priority for the United States in 
Syria is defeating ISIS, not becoming embroiled in a sectarian civil 
war. There is broad consensus that ISIS presents a critical national 
security threat to the United States and many other countries. If 
confirmed, I would support policies that support defeating ISIS.

    Question. How much authority, in your opinion, does the 2001 
Authorization for Use of Military Force give the President in Syria? 
Anddo you believe that the President should seek out another AUMF if he 
wishes to engage militarily in another country like Syria?

    Answer. The President and Congress should always strive to present 
a united front to the rest of the world on national security issues. 
The President is the Commander-in-Chief; he is tasked with defending 
this nation against its enemies and conducting the foreign and national 
security policy of the United States. Congress also plays a key role. 
The 2001 Authorization for Use of Military Force was effective because 
it sent a clear message to the world that Congress and the President 
were united on a critical threat

    Answer. A new AUMF would demonstrate U.S. strength and unity of 
purpose. Having the support of Congress to stand behind the decisions 
to commit American men and women as well as military resources 
strengthens our position in the world because it signals our intention 
to bring the requisite resources to bear in international conflicts. I 
look forward to working with Congress on an AUMF that addresses today's 
realities, and I am open and willing to work with the Senate Foreign 
Relations Committee and Congress to achieve these goals. If I am 
confirmed, I would always advise the President to seek the closest 
possible coordination with Congress on key national security policy 
issues, including Syria.

    Question. What is your stance on key multilateral treaties that the 
United States is signatory to but has not ratified, for example: Would 
you support the ratification of the U.N. Convention on the Law of the 
Sea and do you agree that ratifying it would give the United States a 
stronger hand to address Chinese violations and illegal annexations of 
islands in the South China Sea?

    Answer. There are many treaties that the United States has signed 
but have not received the advice and consent of the Senate. If 
confirmed, such treaties will be reviewed to determine whether 
ratification would advance U.S. national interests.
    The United States has not signed the U.N. Convention on the Law of 
the Sea (UNCLOS). In 1994 President Clinton signed the ``1994 
Agreement'' relating to the deep seabed provisions of UNCLOS and 
transmitted both the 1994 Agreement and U.N. to the Senate.

    Question. Would you support ratification of the Convention on the 
Rights of Persons with Disabilities... in order to ensure that U.S. 
standards for access by disabled individuals are adopted throughout the 
world?

    Answer. The United States is strongly committed to protecting the 
rights of disabled Americans through the legal protections afforded by 
the Americans with Disabilities Act (ADA) and other applicable laws, 
and to working cooperatively with like-minded partner countries 
interested in strengthening their own disability rights laws. In fact, 
the U.S. already funds and administers a number of programs that 
provide assistance to strengthen disability rights in foreign 
countries. My view on whether to support the ratification of the 
Convention will be based on such factors as whether the Convention 
benefits Americans who live in the United States and whether the 
Convention improves disability rights in other countries, thus 
benefiting Americans living abroad, the Convention's effects on U.S. 
sovereignty, and the Convention's impact on existing protections in the 
law and under the Constitution.

    Question. How will you work to ensure future 123 agreements do not 
inadvertently empower proliferators, while also supporting U.S. 
businesses in the nuclear industry?

    Answer. To the extent possible, we must work to ensure that future 
123 agreements build in the strongest possible protections against 
proliferation, while promoting U.S. business as the nuclear industry's 
gold standard in capability and safety.

    Question. Every single administration since Kennedy has worked to 
negotiate reductions to our nuclear arsenal with the Soviet Union and 
now Russia. What do you believe should be the next step in nuclear 
negotiations after the New START treaty concludes?

    Answer. While the next phase of arms control will require careful 
consideration by the incoming administration, I believe America 
continues to have a tremendous stake in maintaining a stable nuclear 
balance with Russia at the lowest possible numbers--with an eye, 
however, to the expanding arsenals of China and other nuclear powers, 
as well as the nuclear ambitions of dangerous states like North Korea 
and Iran.

    Question. It is very clear that Russia attempted to influence our 
election. Will you stand up strongly to Vladimir Putin and Russia's 
hacking of our election system?

    Answer. If confirmed, I look forward to receiving a full 
intelligence briefing on the extent of Russia's interference in our 
elections.
    Should the facts warrant, I would not hesitate to stand up strongly 
against efforts by Russia or any other state to harm our interests and 
undermine our democracy.

    Question. What will your message to the Russian foreign minister be 
with regards to their attempts to influence the U.S. elections if you 
are confirmed to serve as Secretary of State?

    Answer. If confirmed, I will immediately seek a full intelligence 
briefing on the recent hacking of our elections. If the facts warrant, 
the message that I would deliver to my Russian counterpart would be 
unequivocal as to this type of serious escalation of cyber threats.

    Question. The United States has interests which may not be the 
interests of Exxon. How can I be sure you will only represent the 
interests of the United States if we cannot vet your financial 
information and tax returns?

    Answer. I made a clean break from ExxonMobil so that I could serve 
as Secretary of State free of any connection, financial or otherwise, 
to the company-and so the American people would know that, if 
confirmed, I would serve their interests and theirs alone. I will abide 
by the recusal commitments I made in the Ethics Agreement that I 
submitted to the Committee on January 3, 2017, which was prepared in 
consultation with ethics officials at the Department of State and the 
Office of Government Ethics, on the basis of a full disclosure of my 
financial interests.

    Question. Colombia is one of our strongest allies in the western 
hemisphere. How will you work to support the peace agreement and will 
you continue the bipartisan efforts to support the rule of law and 
counternarcotics work in Colombia?

    Answer. We will continue our important diplomatic, economic, and 
foreign assistance engagements, built upon the success of Plan 
Colombia, to support the implementation of the peace agreement with the 
FARC, combat transnational organized crime including narcotics 
trafficking and further strengthen institutions that promote the rule 
of law.

    Question. Vice President Biden helped lead the initiative known as 
the Alliance for Prosperity in the northern triangle of Central 
America. In essence we are trying to address multiple issues in these 
countries which led to a spike in narco related violence and a surge of 
migrants from that region to the U.S. and Mexico. Will you continue to 
support these initiatives and will you make it a priority if you are 
confirmed?

    Answer. If confirmed, I am committed to being fully briefed on the 
Alliance for Prosperity initiative and to consulting with other agency 
nominees, such as DHS Secretary Nominee John Kelly, to continue and/or 
accelerate these initiatives if appropriate.

    Question. During your time at ExxonMobil, you established the 
Africa Health Initiative because, ``We strongly believe that 
improvements in public health can be a basis for broader economic and 
social gains.'' Is this a position you would also support as Secretary 
of State?

    Answer. The global health programs focused on fighting diseases, 
including PEPFAR, the President's Malaria Initiative (PMI), and USAID's 
Global Tuberculosis (TB) Program, as well as the Global Health Security 
Agenda, have proven to be extremely valuable and successful programs. 
Continuing such programs is beneficial to the U.S. and to the 
developing world.

    Question. ExxonMobil committed more than $ 100 million to help 
identify and share best practices that include anti-malarial drugs, 
treatment programs, long-range research, and advocacy. You yourself 
have been a champion on the issue of malaria and have been recognized 
as such. Why is this issue so important? Of course in order to 
eradicate malaria, it will take the work of not just the United States 
but a range of partners, including the United Nations. How important is 
their role and how do you see the partnership between the U.S. and U.N. 
continuing on this vital issue?

    Answer. The best of our global health programs project America's 
values, show our compassion, and alleviate suffering. By partnering 
with other aid programs, we increase our capacity to affect positive 
change. We will continue to cooperate with beneficial partners in a 
fashion that reflects U.S. policy and goals.

    Question. U.N. humanitarian agencies are often the first on the 
ground following natural disasters to stave off humanitarian crises by 
providing medical assistance, clean water, and sanitation programs. Do 
you feel this is an important element of the U.N.s work and worthy of 
support? What are your views on this type of global burden-sharing?

    Answer. The United States is traditionally one of the biggest 
givers to humanitarian efforts around the world. U.N. agencies like the 
World Food Program have done critically important work to feed millions 
of people, for example, and the U.S. has an important role in support 
of, involvement in and oversight of such programs to assure our tax 
dollars are being wisely spent and assistance is reaching those most in 
need.

    Question. On November 30th, the Colombian parliament ratified a 
final peace agreement between the government and FARC rebels, ending 
the longest-running conflict in the Western Hemisphere. Currently, a 
U.N. political mission, made up of 450 unarmed military observers and 
additional civilian personnel, is on the ground in Colombia with a 
mandate to monitor and verify the cessation of hostilities and ensure 
that the FARC gives up its weapons. Can you talk about the U.N. role 
here and what the U.S. is doing to support it?

    Answer. The U.N. Mission in Colombia is responsible for verifying 
and monitoring the bilateral ceasefire and laying down of arms, 
declared by President of Colombia Juan Manuel Santos and the leader of 
the Revolutionary Armed Forces of Colombia--People's Army (FARC-EP) 
Timoleon Jimenez. The Mission has already begun its deployment and 
supports logistical preparation in the areas where the separation of 
forces, disarmament, and reintegration and transition to civilian life 
will take place. The U.S. is supporting this U.N. mission as a member 
nation but does not have any U.S. citizens among the observers.

    Question. Under your leadership, Exxon Mobil has invested more than 
$100 million in its global Women's Economic Opportunity Initiative, 
partnering with developing country national and local governments, the 
U.S. government, the United Nations Foundation, Africa, and other 
leading development implementers to bring much needed assistance and 
opportunities to tens of thousands of women in the developing world.


    Question. As you know, the State Department places a high priority 
on global women's empowerment, gender equity and combating violence 
against women.
    If you are confirmed as Secretary of State, how will you ensure 
that empowering women is a core pillar of U.S. foreign policy?

    Answer. As I stated during my confirmation hearing, the issue of 
empowering women is personally important to me. I have seen firsthand 
through Exxon's efforts the impact of empowering women, particularly 
regarding their participation in economic activities in the lesser 
developed part of the world. Investing in women produces a multiplier 
effect-women reinvest a large portion of their income in their families 
and communities, which also furthers economic growth and stability. 
Studies confirm that when women are empowered in these developing 
countries, you change the future of the country, because you change the 
cycle of whole families and their view of the world positively. I 
believe women's empowerment and advancement is an important part of our 
foreign aid efforts and I will support such programs, including efforts 
to eliminate violence against women and mitigate its impact on those 
currently subject to such violence.

    Question. What lessons you have learned from Exxon's women's 
empowerment programs that you will bring with you to the State 
Department? Why did you decide to invest so heavily in global women's 
empowerment programs during your tenure at Exxon?

    Answer. I believe that educating women and girls is one of the most 
effective ways to invest in communities in the developing world. 
Educated women are healthier, are less likely to die in childbirth, and 
are more likely to have healthy children. Empowering women and girls 
can drive real change and supports the achievement of international 
development goals.

    Question. One of the greatest obstacles to advancing women's 
empowerment and gender equity is a lack of access to quality 
healthcare. The U.S. government has led global efforts to combat 
preventable maternal deaths through investments in maternal and child 
health, nutrition, family planning, and other critical health 
interventions. Can you commit to our Committee that the State 
Department and USAID will continue to prioritize these lifesaving 
programs if you are confirmed as Secretary of State?

    Answer. I agree that life-saving humanitarian health programs are 
some of the most powerful diplomatic tools in our toolkit. In addition 
to helping advance our national interest through hearts and minds and 
good will, helping to save the lives of the most vulnerable populations 
is consistent with the character and fundamental goodness of the 
American people.

    Question. During the Presidential campaign, President-elect Trump 
made several very troubling statements and comments indicating that in 
the context of counterterrorism he would support waterboarding and 
other types of torture. If you are confirmed, you will be the 
president's chief foreign affairs adviser, and the Legal Bureau of the 
State Department will have an important role advising the White House 
on international law. Do you agree that waterboarding is torture?

    Answer. Federal law provides that no individual in U.S. custody may 
be subjected to any interrogation technique or approach that is not 
authorized by and listed in the Army Field Manual. If confirmed, I 
would support the Administration in complying with that law and all 
other applicable law.

    Question. Do you agree that other techniques previously utilized by 
CIA personnel in the Rendition, Detention, and Interrogation (RDI) 
program--including painful ``stress positions,'' subjecting detainees 
to extreme cold, throwing them into walls or hitting them--constitute 
torture, or are otherwise illegal under U.S. law?

    Answer. Federal law provides that no individual in U.S. custody may 
be subjected to any interrogation technique or approach that is not 
authorized by and listed in the Army Field Manual. If confirmed, I 
would support the Administration in complying with that law and all 
other applicable law.

    Question. Given that Congress has now made it clear in U.S. law 
that U.S. interrogators may only use those techniques that are in the 
U.S. Army Field Manual, and that manual clearly prohibits 
waterboarding, do you agree that waterboarding cannot and should not be 
used by any U.S. personnel on detainees under any circumstances?

    Answer. Yes.

    Question. Do you think that core international prohibitions on 
torture and war crimes should be changed?

    Answer. The United States is bound by treaties and domestic laws, 
including prohibitions on torture and war crimes. That is consistent 
with, and demonstrates, our values and principles. I do not support and 
cannot foresee that changing. Our role in the world has entailed a 
place of moral leadership in the scope of international affairs, and I 
am committed to continuing that historical role.

    Question. What do you believe would be the impact on America's 
credibility abroad of resuming renditions or the use of interrogation 
tactics like those previously used by the CIA?

    Answer. U.S. Government activities concerning any detention, 
interrogation and transfer practices should comply with the law in all 
respects. Changes to applicable law or policy should be made only after 
a careful review and consideration of the overall consequences, 
including the impact on foreign relations specifically.

    Question. If confirmed, how will you work with the Government of 
Mexico to diminish the threat posed to American families by heroin? 
Will you continue the Merida Initiative and support the Mexican 
government's efforts to reform its justice sector, expand training for 
civilian police, combat corruption, and protect human rights?

    Answer. If confirmed, I am committed helping the President-elect 
address the heroin epidemic in the United States. I will ask to be 
fully briefed on the Merida Initiative and will consult with other 
Department leaders, such as the Homeland Security Secretary and the 
Attorney General.

    Question. Do you support a ban on Muslim immigration.. .and do you 
agree that it is an unconstitutional religious test?

    Answer. No, I do not support a ban on Muslim immigration, and I am 
not aware of any proposal to impose such a ban.

    Question. A bipartisan group of Senators, including Republicans and 
Democrats on this Committee, have cosponsored legislation to remove 
restrictions on U.S. citizens' ability to travel to Cuba and to 
authorize U.S. companies to facilitate greater internet access inside 
Cuba. Do you believe that current restrictions on the rights of U.S. 
citizens to travel to Cuba enhances the cause of freedom for the Cuban 
people?

    Answer. The new Administration will conduct a comprehensive review 
of current policies and executive orders regarding Cuba, including 
travel restrictions, to determine how best to pressure Cuba to respect 
human rights and promote democratic changes and consider conditionality 
on diplomatic, economic, or travel policies to encourage those changes.

    Question. Do you support allowing U.S. companies to expand internet 
access inside Cuba so that the Cuban people can have greater access to 
information that isn't currently available on the island?

    Answer. Yes, as appropriate.

    Question. Do you support the New START agreement with Russia and 
how will you work with Russia to ensure that the agreement is followed?

    Answer. I support the implementation of New START and would work 
closely with Russia to ensure its obligations under the treaty are 
fulfilled.

    Question. The NNSA has made tremendous progress with the stockpile 
stewardship program. In short, our science based efforts to confirm 
that our stockpile is safe, secure, and reliable have worked and have 
negated the need for testing of nuclear weapons. During the debates to 
consider the Comprehensive Test Ban Treaty, this was a significant 
barrier because the science had not yet matured. Now that the science 
has matured, will you consider support for the ratification of the 
Comprehensive Test Ban Treaty and will you visit with our experts at 
NNSA to learn more about the stockpile stewardship program?

    Answer. If confirmed, I would welcome being briefed by the NNSA and 
other experts as the United States considers its participation in any 
additional treaties.

    Question. For the past 20 years, U.S. law has prohibited training 
and equipment for any unit of a foreign security force that the 
Secretary of State has credible information has committed a gross 
violation of human rights, such as torture, rape, or summary execution 
of prisoners or civilians. If the Secretary has such information, U.S. 
aid to that unit is cut off unless the foreign government takes 
effective steps to bring the responsible members of the unit to 
justice. This law, known as the Leahy Law, has helped to prevent U.S. 
aid from going to perpetrators of the worst crimes, and it encourages 
governments to hold perpetrators accountable and enforce the rule of 
law. Over the years, the law has been praised by top officials at the 
Department of State and the Department of Defense under both Republican 
and Democratic administrations. Do you agree with the intent of the 
law?

    Answer. Yes.

    Question. Will you rigorously enforce the Leahy Law and ensure that 
the necessary funds are provided to support the State Department 
personnel who implement it?

    Answer. Should I be confirmed, I will follow the law.

    Question. Do you support funding for programs to mitigate and 
respond to the impacts of climate change on vulnerable populations 
where flooding, droughts, loss of arable land, and other consequences 
threaten to displace tens of millions of people?

    Answer. I believe foreign assistance is an important component of 
U.S. foreign policy. Should I be confirmed, I will press for programs 
that are effective and efficient and consistent with U.S. interests. I 
would prioritize our programs in accordance with the goals of U.S. 
foreign policy. I would apply these standards to assessing programs 
that address changing environmental conditions and extreme weather.

    Question. Do you believe it is in the U.S. national interest to 
fund foreign assistance programs intended to mitigate conflict and 
prevent mass atrocities, or should the U.S. refrain from getting 
involved in foreign disputes unless U.S. personnel or property are 
directly threatened?

    Answer. The Department of State and USAID already have programs 
that focus on the causes and potential remedies for weak and fragile 
states, including the Interagency Conflict Assessment Framework. This 
program provides guidance for implementing stabilization protocols. 
USAID programs, such as Provincial Reconstruction Teams, serve as a 
measure to support revitalization in fragile states. By continuing 
these programs, we will better understand the underlying causes of 
individual weak and fragile states, and utilize those results to craft 
better diplomatic and development policy.

    Question. For many years, U.S. law has conditioned a portion of aid 
to foreign security forces in certain countries with a history of 
corruption and abuses by such forces on progress by their governments 
in protecting human rights and combating corruption. Do you agree with 
this approach, or do you think we should provide such aid without such 
conditions?

    Answer. When evaluating a country's eligibility for aid, a number 
of factors come into play, including government compliance, U.S. 
interests in the region, and the level of need of the population. Many 
of our foreign assistance programs take the multitude of factors into 
account to inform decisionmaking. We should continue to consider all 
factors, identify issues like corruption, and take steps to reduce 
these issues, in order to efficiently and effectively provide aid.

    Question. Do you agree that after more than half a century the U.S. 
embargo against Cuba has failed to achieve any of its principle 
objectives?

    Answer. The Cuban Liberty and Democratic Solidarity (Libertad) Act 
of 1996 (Helms-Burton Act) known as the embargo against Cuba is the law 
of the land that we must enforce.

    Question. Do you support diplomatic relations with Cuba?

    Answer. Yes, as appropriate. A diplomat's job is to engage in order 
to promote change.

    Question. As Secretary of State would you travel to Cuba? Would you 
try to prevent others from traveling there?

    Answer. It would depend on the mission.

    Question. Do you agree that American citizens and legal residents, 
whether Cuban-Americans or others, should be able to travel freely to 
Cuba as they can to every other country in the world that grants them a 
visa?

    Answer. Yes, as long as it does not violate U.S. law.

    Question. Do you agree that the U.S. should help support private 
entrepreneurs in Cuba with training or other assistance, so they can 
build businesses, market their products and services, and compete with 
stateowned enterprises?

    Answer. Yes, as appropriate.

    Question. Do you support policies that enable U.S. companies to 
market their goods and services in Cuba, and by doing so compete with 
companies in other countries that do business in Cuba?

    Answer. Yes, as appropriate and consistent with U.S. law.

    Question. Do you support cooperation between the U.S. military, 
Coast Guard, and other law enforcement agencies and the Cuban military 
and security services on such issues as narcotics and human 
trafficking, maritime security, counter-terrorism, and search and 
rescue?

    Answer. Yes.

    Question. The United States has been a global conservation leader 
in combating transnational wildlife crime and saving imperiled species. 
Wildlife trafficking is a lucrative enterprise worth tens of billions 
of dollars and has undermined the rule of law of our allies and trading 
partners at the range, transit and source countries. The involvement of 
criminal syndicates, African armed militias, and terrorist 
organizations is particularly alarming. The enactment of Eliminate, 
Neutralize, and Disrupt (END) Wildlife Trafficking Act last October 
illustrates the high-profile attention and broad bipartisan support the 
United States Congress has given to this issue. Mr. Tillerson, will you 
continue the State Department's work with this Congress and concerned 
countries across the globe to further the international community' s 
effort to tackle the pernicious poaching and trafficking crisis?

    Answer. The global spread of wildlife trafficking has implications 
for conservation, crime, and national security. Public Law No. 114-231, 
Eliminate, Neutralize, and Disrupt Wildlife Trafficking Act of 2016, 
which was passed by a unanimous Congress and signed into law by the 
President this past October, provides new tools to help the United 
States and partner countries to address this crisis. I will work with 
Congress on the implementation of this law and related laws. Moreover, 
I will work with partner countries to further efforts to combat 
poaching and wildlife trafficking.

    Question. During your testimony, you admitted the existence of 
human created climate change but also said the ability to predict its 
implications is ``very limited.'' What are you basing this latter 
conclusion on? Please explain and list all peer reviewed publications 
upon which your view about limited ability to predict climate 
implications is based?

    Answer. Although my background is as an engineer and scientist, I 
am not a climatologist. I concluded years ago that the risk of climate 
change does exist and that the consequences could be serious enough 
that action should be taken. That said, it is clear to me that climate 
modeling is a not an exact science and thatpast attempts to be 
predictive have not been consistently correct. The UNFCCC'S own reports 
on climate describes the challenge in developing accurate models.
    I am not alone in this belief. John Christy, a NASA-award-winning 
scientist who operates the temperature-sensing NASA satellite 
instruments, has presented testimony to the House ofRepresentatives 
indicating that the models have predicted approximately twice as much 
warming as has actually occurred since the advent of satellite 
measures.
    If confirmed, I plan to conduct a review of the current role that 
the State Department plays in international climate change efforts to 
ensure that U.S. national interests and American competitiveness are 
not compromised.

    Question. In response to signals that the Trump Administration may 
act less aggressively on climate change, leading Chinese officials have 
stated that they will continue to act aggressively to reduce their 
emissions and that they will take on more international leadership 
around climate change--including establishing a national carbon market 
and investing hundreds of billions in clean energy at home and abroad. 
Are we putting the nation at a disadvantage internationally by ceding 
U.S. leadership on climate change to China?

    Answer. The United States should act to protect and advance U.S. 
national interests in all matters, including climate change, regardless 
of the actions of other nations, including China.

    Question. Do you agree that U.S. withdrawal from international 
agreements, including the Paris Agreement and the UNFCCC, which all 
countries support and which are top priorities for our most important 
allies would be a destabilizing action and weaken not only our 
diplomatic relations with our allies but also compromise our national 
security?

    Answer. The United States should decide to join international 
agreements based upon whether membership in such agreements advances 
U.S. national interests. In any event, I fail to see how U.S. 
membership in a climate change agreement would have an effect on our 
national security.

    Question. Does your support for the Paris Agreement also include 
support for the Nationally Determined Contribution (NDC) that the U.S. 
submitted to the UNCCC ahead of COP21 and the finalization of the Paris 
Agreement? If so, how do you propose we meet our NDC?

    Answer. If confirmed, we will conduct a review of the Nationally 
Determined Contribution submitted by the Obama Administration as part 
of our review of the Paris Agreement and the U.N. Framework Convention 
on Climate Change to determine whether the NDC and/or the international 
agreements advance U.S. national interests.

    Question. Are you aware of whether anyone on the Presidential 
transition team, or connected with the Trump campaign, discussed your 
possible nomination with any representatives of a foreign government or 
foreign national before the President-elect announced his intention to 
nominate you for this position?

    Answer. No. I am not aware of any such consultation with foreigners 
regarding my nomination.
Ethics
    Question. Are you the beneficiary or trustee of any discretionary 
trust that has not been fully disclosed to the Committee or the Office 
of Government Ethics? If so, please provide detailed information about 
the trust(s).

    Answer. No, to the best of my knowledge.
                  federal it reform (state department)
    Question. Each major federal agency has been graded at least three 
times on their implementation of the Federal Information Technology and 
Acquisition Reform Act of 2014 (FITARA, PL 113-291). The House 
Oversight and Government Reform Committee with assistance from the 
Government Accountability Office (GAO) issues a ``scorecard'' for 
FITARA implementation. State Department received one ``C'' and three 
``F's'' for an overall ``D'' grade on the May 2016 scorecard. How do 
you plan to improve this grade?

    Answer. I have been briefed on the key management challenges facing 
the Department in this arena, but unless and until I am confirmed, I 
will not have access to this data at the level of granularity to 
provide detailed answers on the factors behind this situation or 
ongoing plans to remedy it If confirmed, I will make this a priority 
and consult with the committee on the best solutions. Please be assured 
that I consider failing grades unacceptable. If confirmed, I will 
assure that our employees and managers at all levels, as well as our 
interagency partners and oversight stakeholders, will know that I 
consider this a top area for improvement and accountability.

    Question. Describe the role of your department Chief Information 
Officer (CIO) in the development and oversight of the IT budget for 
your department. How is the CIO involved in the decision to make an IT 
investment, determine its scope, oversee its contract, and oversee 
continued operation and maintenance?

    Answer. The CIO is an Assistant Secretary-level official 
supervising the Information Resource Management bureau, reporting to 
the Under Secretary for Management. This individual also must set 
policy for IT decisions involving all agencies under Chief of Mission 
at our overseas posts, in collaboration with those agencies' CIOs, the 
Director of National Intelligence, OMB, and other stakeholders. Each 
overseas mission, embassy, and consulate has a team responsible for 
Information Management, with a senior individual on that ambassador's 
country team and ICASS council. Further, the Bureau of Diplomatic 
Security recently created a Deputy Assistant Secretary position 
responsible for information security, in collaboration with the Deputy 
CIO, who is currently designated as Chief Information Security Officer 
(CISO). If confirmed, I will work with the inter-agency to assure that 
both the CISO role and the decision authorities of the CIO are clear 
and parallel across the relevant inter-agency processes so that 
decisions are made at the appropriate level or elevated to 
theSecretary's office when necessary. If confirmed, I will also make 
sure that the budget, acquisition, and customer support functions are 
coordinated and aligned. Currently that coordination falls to the Under 
Secretary for Management.

    Question. Describe the existing authorities, organizational 
structure, and reporting relationship of the Chief Information Officer. 
Note and explain any variance from that prescribed in the Federal 
Information Technology and Acquisition Reform Act of 2014 (FITARA, PL 
113-291) for the above.

    Answer. The CIO operates within the organizational structure 
described above. There are currently opportunities to improve the 
information management practices at the Department, but unless and 
until I am confirmed, I will not have access to the level of 
information necessary to speak to variances between the current 
structure and those prescribed in the Federal Information Technology 
and Acquisition Reform Act of 2014.

    Question. What formal or informal mechanisms exist in your 
department to ensure coordination and alignment within the CXO 
community (i.e., the Chief Information Officer, the Chief Acquisition 
Officer, the Chief Finance Officer, the Chief Human Capital Officer, 
and so on)?

    Answer. The functions you mention currently report to and through 
the Under Secretary for Management, who is also currently designated as 
the CFO of the Department. A more complicated coordination must occur 
at the inter-agency and overseas post level.

    Question. According to the Office of Personnel Management, 46 
percent of the more than 80,000 Federal IT workers are 50 years of age 
or older, and more than 10 percent are 60 or older. Just four percent 
of the Federal IT workforce is under 30 years of age. Does your 
department have such demographic imbalances? How is it addressing them?

    Answer. The State Department faces similar challenges with an aging 
workforce, complicated further by the security clearance requirements 
and rules that require re-validation of previously investigated 
individuals when they move to another parallel position or get 
promoted. The Department also hires Foreign Service Information 
Management Specialists on a separate track from generalist Foreign 
Service Officers, which can allow more rapid hiring for those committed 
to fulfilling these requirements for overseas positions as a long-term 
career. Nevertheless, the competitive salaries and benefits offered by 
the private sector keep such individuals in demand.

    Question. How much of the department's budget goes to 
Demonstration, Modernization, and Enhancement of IT systems as opposed 
to supporting existing and ongoing programs and infrastructure? How has 
this changed in the last five years?

    Answer. I have been briefed on the key management challenges facing 
the Department in the area of information systems, but unless and until 
I am confirmed, I will not have access to this data at the level of 
granularity to provide detailed answers.

    Question. What are the 10 highest priority IT investment projects 
that are under development in your department? Of these, which ones are 
being developed using an ``agile'' or incremental approach, such as 
delivering working functionality in smaller increments and completing 
initial deployment to end-users in short, six-month time frames?

    Answer. I have been briefed on the key management challenges facing 
the Department in the area of information systems and technology, but 
unless and until I am confirmed, I will not have access to the level of 
information necessary to provide comprehensive answers on IT investment 
priorities.61. To ensure that steady state investments continue to meet 
agency needs, OMB has a longstanding policy for agencies to annually 
review, evaluate, and report on their legacy IT infrastructure through 
Operational Assessments. What Operational Assessments have you 
conducted and what were the results?I have not conducted any 
operational assessments as a nominee. If confirmed, I will follow up 
appropriately.

    Question. What are the 10 oldest IT systems or infrastructures in 
your department? How old are they? Would it be cost-effective to 
replace them with newer IT investments?

    Answer. I have been briefed on the key management challenges facing 
the Department in the area of information systems and technology, but 
unless and until I am confirmed, I will not have access to the level of 
information necessary to provide comprehensive answers on IT investment 
priorities.

    Question. How does your department's IT governance process allow 
for your department to terminate or ``off ramp'' IT investments that 
are critically over budget, over schedule, or failing to meet 
performance goals? Similarly, how does your department's IT governance 
process allow for your department to replace or ``on-ramp'' new 
solutions after terminating a failing IT investment?

    Answer. I have been briefed on the key management challenges facing 
the Department in the area of information systems and technology, but 
unless and until I am confirmed, I will not have access to the level of 
information necessary to provide comprehensive answers on IT investment 
priorities.

    Question. What IT projects has your department decommissioned in 
the last year? What are your department's plans to decommission IT 
projects this year?

    Answer. I have been briefed on the key management challenges facing 
the Department in the area of information systems and technology, but 
unless and until I am confirmed, I will not have access to the level of 
information necessary to provide comprehensive answers on IT investment 
priorities.

    Question. The Federal Information Technology and Acquisition Reform 
Act of 2014 (FITARA, PL 113-291) directs CIOs to conduct annual reviews 
of their department/agency's IT portfolio. Please describe your 
department's efforts to identify and reduce wasteful, low-value or 
duplicative information technology (IT) investments as part of these 
portfolio reviews.

    Answer. I have been briefed on the key management challenges facing 
the Department in the area of information systems and technology, but 
unless and until I am confirmed, I will not have access to the level of 
information necessary to provide comprehensive answers on IT investment 
priorities.

    Question. In 2011, the Office of Management and Budget (OMB) issued 
a ``Cloud First'' policy that required agency Chief Information 
Officers to implement a cloud-based service whenever there was a 
secure, reliable, and cost-effective option. How many of the 
department's IT investments are cloud-based services (Infrastructure as 
a Service, Platform as a Service, Software as a Service, etc.)? What 
percentage of the department's overall IT investments are cloud-based 
services? Does State Department have a Cloud strategy to encourage the 
use of Cloud computing solutions? If not, by when do you plan to have 
such a strategy in place?

    Answer. I have been briefed on the key management challenges facing 
the Department in the area of information systems and technology, but 
unless and until I am confirmed, I will not have access to the level of 
information necessary to provide comprehensive answers on the status of 
the Department's cloud computing strategy and solutions.

    Question. Congress passed the MEGABYTE Act (PL 114-210) to 
encourage agencies to achieve significant savings in managing IT assets 
including software licenses. What policies or processes are in place at 
State Department to improve management of software licenses? What 
savings do you expect State Department to report by the end of FY 2017?

    Answer. I have been briefed on the key management challenges facing 
the Department in the area of information systems and technology, but 
unless and until I am confirmed, I will not have access to the level of 
information necessary to provide comprehensive answers on IT investment 
priorities.

    Question. Provide short summaries of three recent IT program 
successes--projects that were delivered on time, within budget, and 
delivered the promised functionality and benefits to the end user. How 
does your department/agency define ``success'' in IT program 
management? What ``best practices'' have emerged and been adopted from 
these recent IT program successes? What have proven to be the most 
significant barriers encountered to more common or frequent IT program 
successes?

    Answer. These are excellent questions for the current 
Administration. If confirmed, I will ask these same questions to 
demonstrate my concerns and expectations for full accountability both 
within IT systems themselves and overall information management within 
the State Department and the other U.S.government systems where State 
intersects. Although I have not had the opportunity to conduct any 
analysis of this sort as a nominee, if confirmed, I will follow up 
appropriately.


                               __________

              Secretary-Designate Tillerson's Answers to 
                    Questions from Senator Barrasso


    Question. In 2012, the U.S. Department of State and U.S. Department 
of Defense initiated a process to remove a war memorial in Wyoming, 
called the Bells of Balangiga. It honors the lives of 48 soldiers who 
were massacred in their sleep by insurgents in the Philippines on 
September 28, 1901. The U.S. Department of Defense in coordination with 
the U.S. Department of State intentionally withheld this information 
from Congress. The veterans in Wyoming overwhelmingly oppose taking 
down this veteran memorial.


  <diamond> Will you commit to me that you will not support any efforts 
        to deconstruct our war memorials that honor our fallen soldiers 
        and moving them to foreign countries?
  <diamond> What is your position on the U.S. Department of State 
        withholding these actions fromCongress?


    Answer. The Bells of Balangiga are an important war memorial that 
holds real significance for many Americans, especially our veterans. If 
confirmed, I will support an inclusive process with theU.S. Department 
of Defense to ensure that Congress is fully informed and the views of 
localcommunities and veterans are fully respected when evaluating the 
management of war memorials.

    Question. In July 2015, the U.S. Department of State issued 
guidance requiring manufacturers and gunsmiths to register with the 
Department under the Arms Export Control Act (AECA) and the 
International Traffic in Arms Regulations (IT AR). This registration 
requirement also mandates that hobbyists and small business gunsmiths 
pay an annual fee of $2,250. Not only is this guidance a significant 
financial burden on small gunsmiths but it is also a significant 
government overreach on the backs of gunsmiths who have no intent on 
exporting firearms. If confirmed, will you withdraw this guidance?

    Answer. I value the cultural and economic contributions of 
hobbyists and small business gunsmiths. If confirmed, I will support a 
review and potential withdrawal or revision of the 2015 guidance with 
proper regard for U.S. national security interests.

    Question. Like many U.S. industries, soda ash faces significant 
trade barriers around the world. It is a key manufacturing component of 
glass, detergents, soaps, and chemicals. Soda ash is also used in many 
other industrial processes. ``U.S. natural soda ash.'' is refined from 
the mineral trona. It has long been regarded as the standard for 
quality, purity, and energy efficiency in production. The Green River 
Basin in Wyoming is the world's largest area for naturally-occurring 
trona. As part of your effort to promote U.S. industries in 
international markets at the U.S. Department of State, will you 
advocate for eliminating trade barriers for soda ash and other 
important U.S. industries in the international marketplace?

    Answer. Eliminating trade barriers is at the heart of promoting 
U.S. competitiveness in global markets. Such barriers may include both 
high tariff levels and non-tariff barriers, such as foreign regulations 
designed to block made-in-America products. I will work together with 
other officials responsible for such requirements.


                               __________

              Secretary-Designate Tillerson's Answers to 
                     Questions from Senator Murphy

Russia/USAID
    Question. USAID was expelled from Russia in 2012 as part of a 
crackdown on pro-democracy organizations. Do you think it is in the 
U.S. national interest to have a USAID mission in Russia? If so, what 
steps will the State Department take to reestablish a USAID Mission in 
Russia?

    Answer. Prior to the suspension of the USAID Mission in Russia in 
2012, USAID provided substantial . for Russian partners and 
organizations engaged in development work. The annual budget for the 
USAID Mission in Russia for 2010-2012 was nearly $60 million, and 
supported programs that enhanced democratic efforts, advanced human 
rights, and improved health. At the time, we deemed these programs to 
be in our national interest. Since USAID's suspension, democratic 
governance, human rights, and health continue to be major challenges 
for Russian society. Due to the political environment in Russia, 
however, it is unlikely that the USAID program will be restarted in the 
immediate future. Instead, it is necessary that we focus our efforts on 
fighting global health, poverty, and human rights challenges in 
countries where our programs can be effective and implement change.
Refugee Crisis
    Question. The refugees fleeing violence in Syria are only a 
fraction of the over 65 million people displaced around the world 
today. This historic humanitarian crisis has had a destabilizing effect 
on some of our allies in the Middle East, such as Jordan and Turkey, 
and our closest allies in Europe, including Germany and France. If 
confirmed, how will you confront this humanitarian crisis? How, in your 
view, can the U.S. better work with partners to provide life-saving 
assistance to refugees?

    Answer. The United States must lead with its values; that includes 
working with our partners to alleviate such suffering, particularly in 
conflict zones where the most vulnerable are often targeted. Today, 
alleviating the world's refugee crises must start in Syria.
    There are areas of the Syrian conflict in which we share an 
interest with other stakeholders, such as ensuring regional stability 
and preventing Syria from being used as a launching pad for 
international terrorism. The actions of both Iran and ISIS decrease 
stability and increase the number of Syrians fleeing their homes. If 
confirmed, I would work closely with our partners in the region to 
alleviate their suffering.
Inclusive policies in the Middle East
    Question. Our interest in strong and stable democratic partners 
rests in part on other countries adopting fair and inclusive laws and 
social policies. How would you pursue this interest in the Middle East, 
where increasing social tensions led to the Arab Spring--or in Russia, 
where personal liberties are under attack and the gap between the haves 
and have-nots has widened?

    Answer. Throughout many countries in the Middle East, the positive 
openings for civil society represented in the Arab Spring were 
exploited by radical Islamist extremists. This has led some regimes in 
the region to feel they need to crack down to reestablish security and 
law and order. This is a vicious cycle we should avoid repeating. In 
the long run, the development of stable and peaceful societies in the 
Middle East depends upon the increasing enfranchisement of the 
population as a whole.
    Given the serious threat posed by organizations such as ISIS in the 
immediate term, however, we need to respect the concerns many 
government have about terrorism in the region. Doing so will also give 
us the opportunity to engage with them on being more open to individual 
liberties and civil society in ways that do not open the door to 
exploitation by jihadists.
Combating anti-LGBT laws globally
    Question. Anti-LGBT laws in Russia are among the most draconian in 
the world--and those laws in turn have given rise to copy-cat laws 
elsewhere in the ex-Soviet space and beyond, even in Africa. How 
specifically would you seek to reverse this course, and thereby help 
ensure the sense of social and economic inclusion that is important to 
long-term stability?

    Answer. The United States needs to stand firmly for all human 
rights. This includes support for basic political freedoms such as 
freedom of expression and freedom of assembly, as well as non-
discrimination against women, minorities, and LGBT persons. Indeed, the 
denial of basic political freedoms is often the backdrop against which 
discrimination against LGBT persons takes place.
    In supporting all such human rights, we should be aware of cultural 
and historic differences and how they can be used to weaken U.S. 
influence. We need to stay true to our own values, while being 
tactically smart about how to advance those values throughout the 
world.
Family planning and reproductive health and rights
    Question. The United States has been a global leader in advancing 
family planning worldwide for five decades. If women worldwide with 
unmet needs used modern methods, we would see 52 million fewer 
unintended pregnancies, resulting in 600,000 fewer stillbirths, 6 
million fewer miscarriages, and 15 million fewer unsafe abortions. 
Family planning is also one of the most cost-effective interventions, 
with every dollar spent on contraceptive services saving almost $ 1.50 
in the cost of providing pregnancy-related and newborn health care. 
Will you pledge to continue, and build on, the bipartisan legacy of 
U.S. support for international family planning programs? Will you 
continue to support our critical contributions to UNFPA, which is 
currently raising awareness about child marriage and providing maternal 
care to thousands of Syrian refugees?

    Answer. The decision about how much funding goes to family 
planning, reproductive health and maternal health is made by Congress 
each year, and Congress has routinely supported these activities at 
robust levels. The U.S. government also has long-standing statutory 
prohibitions on taxpayer funding of abortion or coercion in family 
planning. In the event that an organization were to lose money under 
these statutory requirements, I imagine that funds for that 
organization could be redirected to other entities that can provide 
family planning, reproductive or maternal health.
Saudi Arabia/Yemen
    Question. U.S. support for the Saudi-led military campaign against 
former President Saleh and Houthi rebels in Yemen has led to a 
devastating humanitarian crisis and a security vacuum that has 
empowered Al Qaeda and ISIS. Although the State Department and Pentagon 
have engaged with Saudi Arabia for over a year, assisting them with 
targeting and urging them to refrain from hitting specific civilian 
targets, our advice has not been heeded. It is clear that more 
targeting advice is not going to change behavior. Meanwhile, arguably 
the most lethal branch of Al Qaeda is increasing their recruitment in 
Yemen. Do you believe that it is in the U.S. national security interest 
to end this civil war that is allowing terrorist groups to thrive? Do 
you agree that the longer the war continues the more dependent the 
Houthis may become on Iran? Do you agree that civilian casualties in 
Yemen harm U.S. national security, given that Yemenis view this as a 
US-Saudi bombing campaign? Will you support conditioning our military 
aid Saudi Arabia upon ending attacks on civilian targets, facilitating 
humanitarian aid delivery, and doing more to combat ISIS and Al Qaeda 
in Yemen?

    Answer. The situation in Yemen is tragic. The war has inflicted a 
devastating toll on the country's people. The United States certainly 
has an interest in a political settlement that ends the war as soon as 
possible, while safeguarding the vital interests of our regional 
allies. Iran's destabilizing interference in Yemen and across the 
Middle East is a major U.S. concern. As we support our allies, it is 
critical that we continue pressing them to do everything possible to 
limit civilian casualties, reduce humanitarian suffering, and combat 
the growth of ISIS and Al Qaeda in Yemen.
Tunisia
    Question. After the upheaval of the Arab Spring, one country--
Tunisia--remains standing as an emerging democracy in the region. Do 
you believe it should be a national security priority of the United 
States to encourage democratic reform abroad, and support Tunisia's 
transition to democracy as a model for the region?

    Answer. Tunisia's ability to maintain its democratic path in the 
face of the region's broader turmoil is a major accomplishment. The 
United States certainly has an interest in supporting Tunisia's 
continued transition to democracy--especially in the context of the 
broader threat we face across the Middle East from the ideology of 
radical Islamic terrorism.
Cyprus
    Question. Cyprus is a strategic partner of the United States in the 
Eastern Mediterranean. How will the new U.S. Administration further 
develop the bilateral ties between the United States and the Republic 
of Cyprus? How will it support the ongoing reunification negotiations?

    Answer. Strong bilateral ties with the Republic of Cyprus will help 
ensure future stability and prosperity in the region. A long-term 
solution for Cyprus is important for U.S. interests in the region. The 
United States should continue to support the efforts of the Greek and 
Turkish Cypriot leaders to achieve a just resolution that is consistent 
with U.N. resolutions and heals the island's divisions. If confirmed, I 
look forward to working closely with the U.N. and other key actors to 
support a solution.
Dealing with nuclear-armed states
    Question. The United States and Russia possess the vast majority of 
the world's nuclear weapons, but China, India, and Pakistan are 
increasing the size and diversity of their nuclear forces too. History 
shows that the risk of a military conflict involving nuclear-armed 
rivals India and Pakistan is high and the role of the United States--
and the Secretary of State in particular--in deescalating any crisis 
that could go nuclear is absolutely critical. Will it be a priority of 
yours to prevent an escalation of the existing regional nuclear arms 
competition involving these countries? What steps will you encourage 
them to take to reduce nuclear risks and halt their nuclear build ups? 
How will you seek to build on the current U.S.-China dialogue on 
strategic and economic issues to reduce the risk of miscalculation in a 
crisis?

    Answer. The United States, along with the rest of the world, has a 
major interest in preventing a potentially catastrophic nuclear arms 
race in South Asia. Reducing that risk should be a top priority of U.S. 
diplomacy with the countries of the region. Developing mechanisms to 
prevents crises and avoid miscalculation should be one of the most 
important goals of the U.S. strategic dialogue with China. If 
confirmed, I look forward to participating in that dialogue and 
advancing those goals.
Bahrain
    Question. Over the past year, Bahrain has dramatically escalated 
its crackdown against human rights defenders and peaceful opposition 
leaders. Bahrain's rulers have imprisoned the country's leading human 
rights defender for tweets, banned the country's largest opposition 
political party, and jailed Shia clerics who have called for political 
reform and interfaith dialogue. The government has abandoned any 
pretense of reform, fulfilling only a handful of the 26 recommendations 
of the Bahrain Independent Commission on Inquiry (BICI) report that the 
King publicly committed to implementing ``urgently'' more than five 
years ago. As the home of the U.S. Fifth Fleet, the stability of 
Bahrain is critical to U.S. national security interests. But unless the 
Sunni monarchy moves to share power with its restive, Shia majority 
population, the country risks descending into open sectarian conflict 
that could destabilize the country and jeopardize the Fifth Fleet. As 
Secretary of State, how will you encourage Bahrain's rulers to reverse 
course, and implement genuine political reform to stabilize the country 
and secure the U.S. Fifth Fleet in the years ahead?

    Answer. Bahrain has long been one of our most vital partners in the 
Gulf region; particularly in terms of the crucial support it provides 
the U.S. Fifth Fleet. Bahrain faces a number of challenges, not least 
the ongoing threat to its security and stability from an aggressive 
Iran. If confirmed, I will continue working with Bahrain's leaders to 
strengthen our alliance and combat common threats, while also 
encouraging reforms that can enhance Bahrain's long-term stability and 
security.


                               __________

              Secretary-Designate Tillerson's Answers to 
                      Questions from Senator Kaine

Non-Disclosure Agreement
    Question. Sen. Mr. Tillerson, when asked if you were subject to a 
confidentiality agreement that continues to be enforced that would 
limit his ability to answer questions, such as the ones on climate 
change. ``To my knowledge I have no such confidentiality agreement in 
place, but I would have to consult with counsel.''
    Can you confirm whether such an agreement exists or not? If so, 
provide a copy.

    Answer. No such agreement exists. My understanding is that, whether 
memorialized in writing or not, I am required to maintain the 
confidence of any ExxonMobil trade secrets and other confidential or 
privileged business information that I may have obtained while an 
ExxonMobil officer, director, or employee.
Diplomatic Security
    Question. Over approximately the past 20 years, U.S. personnel 
working in diplomatic missions overseas have faced increasing threats 
to their safety and security, including numerous attacks in high-risk 
location perhaps most notably, the 2012 attack on our facilities in 
Benghazi. These threats have been heightened in part due to policy 
decisions to keep staff in locations that previously would have been 
deemed too dangerous for U.S. personnel. In your opinion, what is the 
right balance between the security of our diplomats and effective 
engagement overseas?

    Answer. Nothing is more important than the safety and security of 
those serving in our diplomatic mission and their families. The right 
balance is something that will have to be assessed in each situation 
with full awareness of the best intelligence and on-the-ground 
expertise provided by trained professionals. If confirmed, I will rely 
not only upon Diplomatic Security's expertise in these instances, but 
all agencies under Chief of Mission, including the military and 
intelligence communities. Engagement with the host country at every 
level can be effective only if our personnel feel safe to do their jobs 
and if we have a clear-eyed sense of the mission and the associated 
risks our people face, including their family members at accompanied 
posts.

    Question. While State has taken some steps to address security 
issues at residences and schools, among others, a 2015 GAO report found 
that State lacks full awareness of the vulnerabilities existing at 
these types of soft targets. What steps would you take to ensure that 
State is appropriately protecting U.S. personnel outside of official 
facilities?

    Answer. Protection of our people and their families overseas as 
they go about their daily lives is of the utmost importance. Embassy 
security standards are prescribed by law, and Congress has provided 
funding to protect soft targets. GAO has pointed out that too often, 
individual posts and the State Department itself are not adhering to 
their own timelines for assessing and updating residential standards. 
As a former manager and leader of a global enterprise, I find this 
unacceptable. If confirmed, I will take seriously my responsibility as 
leader of the State Department and as landlord for all government 
personnel under Chief of Mission, to assess and re-assess as conditions 
on the ground change the effectiveness of protection measures around 
the world, and strengthen where needed.
    Also, as many of those serving overseas send their children to 
schools within the local communities, I will make sure that each post 
has strong guidance to utilize the Overseas Schools Advisory Council 
and Overseas Security Advisory Council processes and convene local 
meetings of subject matter experts and leading American institutions in 
those host countries to be proactive in providing situational awareness 
to our shared communities of interest, both expat American citizens and 
our diplomatic community. Further, I will continue to seek approval 
from Congress for increased authority to provide advice, guidance and 
surplus safety supplies to potential soft targets.

    Question. In recent years, the State Department has been the victim 
of several cyber attacks. Ineffective protection of cyber assets can 
lead to disclosure of sensitive information and threaten national 
security. What steps would you take to prevent future cyber attacks 
against the State Department?

    Answer. Cyber awareness and training of all those who utilize State 
Department IT systems or handle sensitive information has increased in 
recent years, but it is not enough. Personnel must also recognize and 
take serious their personal responsibilities to protect against cyber 
intrusions. The Department must continue to have the technical 
expertise to stay ahead of threats and must coordinate across all U.S. 
government agencies at a senior level, especially those with whom State 
Department systems share information. No agency can afford to be a weak 
link in that chain. If confirmed, I plan to make sure cyber security is 
elevated not only as an international policy priority but also as an 
operational imperative, with direct lines into the Secretary's office 
to assure nobody can underestimate our seriousness.
Europe
    Question. With Russian support, extreme right-wing parties are 
gaining prominence and democratic norms, such as transparency and 
tolerance, are increasingly under attack across Europe, in countries 
like Hungary.
    How will you defend western democracies from increasing Russian 
influence?

    Answer. It does appear that Russia has embarked on a widespread 
malign influence campaign to undermine support for western democracies 
using a variety of tools, including propaganda, disinformation, 
hacking, funding pro-Russian groups and parties, and exploiting 
Russia's role as a major energy supplier. The best means of combating 
such efforts is to revitalize the Transatlantic partnership, 
particularly NATO, with a renewed sense of collective purpose and 
strategy to successfully meet the common challenges our democracies 
face--notjustfrom Russian interference and intimidation, but from 
massive flows of refugees and the scourge of radical Islamic terrorism. 
Renewed American leadership and strength will be critical to these 
efforts. In an effort to combat these efforts I will ensure that the 
department of State continues to drive and invigorate the U.S. efforts 
underway, through Radio Free Europe/Radio Liberty and with our partners 
including Freedom House and National endowment for Democracy and 
others.

    Question. Are you concerned about the shrinking of democratic space 
in Hungary and the increasing pressure on independent media and civil 
society?

    Answer. The erosion of democratic norms should always be of concern 
to the United States. Hungary is a valued NATO ally and a member of the 
EU Like much of Europe, the Hungarian people have faced major strains 
in recent years, particularly in the wake of the refugee crisis and the 
political and economic difficulties roiling the EU The United States, 
in cooperation with our European partners, has a significant stake in 
working to strengthen democratic norms in Hungary and across the NATO 
alliance.

    Question. Are you concerned about the problem of corruption in 
Hungary and will you insist that the U.S. use laws and tools available 
to combat corruption in Hungary?

    Answer. Eliminating corruption has to be a priority of the United 
States, not just in parts of Hungary but globally. Corruption 
undermines economic growth, while eroding public confidence in 
democracy and the rule of law. America should be using all its 
available tools to help democratic friends and allies like Hungary curb 
corruption.

    Question. What will you do to support a robust democracy in Hungary 
and to insist that Hungary meet its obligations under the Organization 
for Security and Cooperation in Europe (OSCE) and the EU?

    Answer. Hungary is an important NATO ally. The United States, 
together with our Transatlantic partners in both NATO and the ECT, have 
an important stake in supporting and strengthening Hungary's democracy. 
Through vigorous bilateral and multilateral engagement, we will work to 
help strengthen democratic norms and adherence to OSCE obligations in 
Hungary and across Europe.
ExxonMobil and Civil Societv
    Question. Over the last year, ExxonMobil (Exxon) has undertaken a 
targeted campaign against environmental organizations, journalists, and 
philanthropists that have challenged the company's record on climate 
change. In the press and in court, Exxon is arguing that routine 
advocacy activities constitute an illegal conspiracy. The nature and 
scope of Exxon's campaign against these civil society groups is highly 
unusual for any large corporation.
    Is this an appropriate approach for the U.S. to adopt in handling 
our critics on the global and national stage?

    Answer. If confirmed, I would foster dialogue with civil society 
groups, including those that may criticize U.S. foreign policy. During 
my tenure as Chairman and CEO, ExxonMobil's approach to civil 
litigation was appropriate and consistent with accepted practices.

    Question. Why has the company chosen to go down this approach 
towards handling the charges being brought against the company as 
opposed to simply looking to win in court?

    Answer. During my tenure as Chairman and CEO, ExxonMobil's approach 
to civil litigation was appropriate and consistent with accepted 
practices.

    Question. Given the way your company has chosen to handle civil 
society criticism at ExxonMobil, how would you as Secretary of State 
defend civil society organizations' freedoms to associate, assemble, 
and communicate privately?

    Answer. During my tenure as Chairman and CEO, ExxonMobil maintained 
an open dialogue with civil society groups. If confirmed, I would 
vigorously defend civil society organizations' freedoms to associate, 
assemble, and communicate both publicly and privately.

    Question. Exxon has repeatedly pointed to House Science Committee 
Chairman Smith's investigation as suggestive of wrongdoing on the part 
of these civil society organizations.
    Did you or anyone at ExxonMobil directly or indirectly request that 
Chairman Lamar Smith investigate and ultimately subpoena private 
communications of nongovernmental organizations who have criticized 
Exxon for deceiving the public about climate science?

    Answer. I did not do so personally. Nor, to the best of my 
knowledge, did anyone at ExxonMobil.

    Question. Is it fair to characterize your position that it is 
appropriate for Congress to investigate the private communications of 
organizations whose positions they do not agree with?

    Answer. I respect the authority of Congress and have no personal 
position regarding the scope of its investigative authority other than 
that it is governed by the U.S. Constitution.


    Question. The U.S. government under both Republican and Democratic 
leadership has for decades supported independent civil society and 
organizations that promote, document, and/or monitor issues related to 
transparency, justice, corruption, human rights, and the rule of law. 
Since 2010 alone, the U.S. has invested more $3 billion in 
strengthening civil society. In addition, the U.S. has often promoted 
laws, policies, and practices that foster a supportive environment for 
civil society and has coordinated efforts to push back against undue 
restrictions on non-governmental organizations, which leaders around 
the world, from Egypt to Ethiopia, often employ as they attempt to 
suppress organized oversight of governance. Vigorous civil societies, 
not merely development and relief organizations but also advocacy and 
legal groups, help to ensure governments can serve their people. Civic 
groups amplify isolated voices and both empower and leverage ordinary 
citizens' ability to engage with and influence their governments.
    To this end, will you embrace longstanding U.S. support for 
independent civil society around the globe?

    Answer. Yes.

    Question. Do you commit, if confirmed, to promote and meet 
regularly with independent civil society leaders--even where 
governments are increasingly intolerant of such goups and/or have 
instituted funding and administrative restrictions?

    Answer. Yes.
International Security
    Question. As the American Action Forum noted in November, Japan 
contributes 50 percent and South Korea 41 percent of the costs to 
support the American military presence in each country.
    Would you agee that that this cost sharing for America's bases is 
fair?

    Answer. Strong alliances are vital to both the United States and 
its allies. Cost sharing arrangements between the United States and 
Japan and South Korea are governed by Special Measures Agreements. 
Under these bilateral agreements, Japan and South Korea provide 
substantial support to U.S. forces. The President-elect has committed 
to working with U.S. allies to review these arrangements, as is done 
periodically, to ensure that the United States and its allies are each 
contributing their fair share of the costs and duties of these 
alliances.

    Question. Would you further agree that the United States shares 
common security interests with both Tokyo and Seoul?

    Answer. The United States, Japan, and South Korea share common 
interests on a multitude of regional and global issues, including 
managing security challenges associated with North Korea and addressing 
concerns surrounding China's rise. Common interests and values form the 
basis for the strong and long-standing U.S. alliances with both Japan 
and South Korea.

    Question. Would you also agree that forward-deploying U.S. forces 
with these bases is less costly than projecting them from the U.S. 
mainland?

    Answer. Forward deploying U.S. forces allows the United States to 
proactively deter aggression, reassure allies and partners, and rapidly 
respond to emerging crises or conflicts. In addition, forward deploying 
U.S. forces permits the United States to conduct security cooperation 
activities with U.S. allies and partners as well as maximize the time 
that U.S. forces spend operating in the region. Independent studies 
suggest that there could be some cost savings from bringing U.S. forces 
back to the United States, but these savings would have to be balanced 
against the geopolitical and operational disadvantages of withdrawing 
U.S. forces.

    Question. How would you interpret the President-elect's remark last 
year in regards to our Asian alliances that ``at some point, there is 
going to be a point at which we just can't do this anymore.''

    Answer. President-elect Trump's comment arose in the context of 
needing our allies, including Japan and South Korea, to do more to 
support and strengthen our alliances. Indeed, both Japan and South 
Korea have been taking on more responsibilities in recent years. Japan, 
under the leadership ofPrime Minister Abe, has sought to make more 
proactive contributions to regional and international security, which 
are welcomed by the United States. Leaders in South Korea have also 
been taking a more proactive role on the Korean peninsula and beyond, 
including supporting advanced missile defenses to better protect both 
the Korean people and allied forces on the peninsula. The United States 
must continue to encourage Japan, South Korea, and other allies to do 
more to strengthen our alliances to address mounting security 
challenges.

    Question. What is the President-elect proposing, and what is the 
threshold that he mentioned?

    Answer. The President-elect has made clear that the United States 
needs to examine the roles, missions, and cost-sharing arrangements in 
each of its alliances. It is natural for allies to examine these 
questions periodically to ensure that each ally is paying and doing its 
fair share. No threshold level of support should apply across the 
hoard. Instead, alliances should be evaluated independently to ensure 
that all parties are fairly cooperating in efforts to support and 
strengthen our shared alliances.
Latin America
    Question. In 2016, Venezuela delivered the world's worst economic 
performance in terms of GDP contraction and inflation. As the country 
has moved towards economic collapse, widespread shortages of essential 
medicines and basic food products have created an increasingly urgent 
humanitarian situation. This situation is complicated by an 
authoritarian government whose members are engaged in widespread 
corruption and, in the case of some officials, direct involvement in 
the drug trade. While final data is not available, the IMF projected 
that in 2016, the Venezuelan contracted 10 percent and inflation 
exceeded 750 percent; both figures are the highest in the world.
    If confirmed, what policy tools do you recommend the U.S. use to 
mitigate the growing humanitarian crisis, collapsing economy, and 
significant national security concerns present in Venezuela?

    Answer. The United States should continue to support legitimate 
dialogue to resolve the political crisis between the Maduro government 
and the opposition that now controls the National Assembly. We must 
continue to denounce the Maduro government's undemocratic practices, 
callfor the release of political prisoners, and enforce sanctions 
against Venezuelan human rights violators and narcotics traffickers. We 
should deliver humanitarian aid to mitigate food insecurity and the 
shortage of medical supplies, as appropriate. U.S. assistance to 
Venezuela supports the defense of human rights, the promotion of civil 
society, and the strengthening of democratic institutions; however, 
Venezuela is currently subject to certain restrictions. Since 2005, 
Venezuela has ``failed demonstrably'' to adhere to its obligations 
under international counter-narcotics agreements.

    Question. The Obama Administration has worked with our Latin 
American partners, both bilaterally and at the Organization of American 
States. How will you work with other governments in the region to 
address the challenges in Venezuela?

    Answer. The growing political, economic, and humanitarian crisis in 
Venezuela is of great concern to the United States and our Latin 
American allies. We will engage partner nations in the region, like 
Colombia, which is directly impacted by a migration crisis from 
Venezuela, to improve the human rights and economic conditions in 
Venezuela. We will continue to strongly support the efforts of OAS 
Secretary General Almagro in invoking the Inter-American Democratic 
Charter to promote the normalization of the situation in Venezuela and 
restore democratic institutions.

    Question. In your role at Exxon, you have repeatedly expressed 
skepticism of U.S. sanctions. In the case, of Venezuela, the White 
House has carried out congressionally-mandated targeted sanctions 
against specific officials in the Venezuelan government that have been 
involved in human rights abuses and gross public corruption. If 
confirmed, will you advocate that the U.S. continue to hold Venezuelan 
government officials to account, especially given the acute levels of 
impunity in that country?

    Answer. Yes. I will enforce all congressionally-mandated sanctions 
including the measures in the Venezuela Defense of Human Rights and 
Civil Society Extension Act of 2016.


    Question. During his tenure as former Commander of U.S. Southern 
Command, General John F. Kelly repeatedly spoke about the corrupting 
impact of illicit drug trafficking on democratic institutions and the 
rule of law in Central America. The United Nations International 
Commission Against Impunity in Guatemala (CICIG) and the Organization 
of American States Support Mission Against Corruption and Impunity in 
Honduras (MACCIH) have played a critical role in stemming corruption 
and impunity in these countries.
    Given your affirmative response to question G.I. in the Senate 
Foreign Relations Committee questionnaire and expressed commitment to 
supporting U.S. efforts globally to address corruption, if confirmed as 
Secretary of State, will you commit to maintaining continued U.S. 
political and financial support for CICIG and MACCIH?

    Answer. Yes, we will continue to support the important anti-
corruption mission of the CICIG in Guatemala and MACCIH in Honduras. We 
will also provide foreign assistance to our Central American partners 
to help combat crime and impunity, promote public safety, and ensure 
that citizens of those countries have access to a functioning and fair 
justice system.
Middle East
    Question. The war in Yemen began more than two years ago. Since 
that time, more than 7,000 people have been killed, 2.2 million 
children suffer from malnutrition, and at least 1,000 Yemeni children 
die every week from preventable diseases. As the Saudi-led coalition 
continues to bomb the country, including civilian targets such as 
schools, hospitals, and funerals, the stalemate has allowed extremist 
groups like al Qaeda and ISIS to take over large swaths of territory.


  <diamond> Should the U.S. continue to provide aerial refueling to 
        Saudi jets to continue bombing, or pause that kind of military 
        cooperation until a peace deal?
  <diamond> How would you work to bring about an end to this conflict?

    Answer. The conflict in Yemen is deeply concerning to the United 
States for humanitarian and strategic reasons. Iran is supporting the 
Shia Houthiforces as part of a drive to extend its influence over broad 
swaths of the Middle East. Taking advantage of the ensuing civil war 
and collapse of the internationally-recognized government's authority, 
al-Qaeda and ISIS affiliates have taken control of territory elsewhere 
in Yemen. The United States should engage with Saudi Arabia and its 
other allies in the region to reduce the humanitarian toll of this 
conflict, improves stability, and prevent terrorists from targeting the 
American homeland.


    Question. President-elect Trump's September 2016 meeting with 
Egyptian President Abdel Fattah al-Sisi raised a number of concerns. 
Following the meeting, Trump issued a statement describing his ``strong 
support for Egypt's war on terrorism,'' and noting, ``under the Trump 
Administration, the United States of America will be a loyal friend, 
not simply an ally, that Egypt can count on in the days and years 
ahead.'' Given the repressive measures President al-Sisi has championed 
over the last three years--from attacks against civil society to the 
arbitrary detention of tens of thousands of people (including Americans 
like Aya Hijazi, a Virginian, who have been imprisoned on trumped up 
and bogus charges) and abuse while in prison--the absence of any 
mention of Egypt's substantial human rights abuses and lack of 
democratic rule was deeply troubling.

  <diamond> Do you believe that the U.S. should continue to provide 
        Egypt with minimally conditioned security assistance?
  <diamond> As Secretary of State, how would you work with Egypt's 
        leaders to refocus its energies on countering its real security 
        threats and reforming its economy, while respecting freedom of 
        the press, due process, civil society, and other fundamental 
        freedoms?
  <diamond> What are the risks to Egypt's stability if its leaders 
        continue down the same path of repression and economic 
        stagnation?
  <diamond> What will you do to secure the release of imprisoned 
        American citizens such as Aya Hijazi?

    Answer. The situation in Egypt is perilous. Cairo faces an ISIS 
insurgency in the Sinai, continued terrorism in its population centers, 
and a civil war on its border in Libya. I will engage the government 
ofEgypt to ensure America's key strategic and moral interests are met. 
This includes assisting Cairo in establishing peace and stability, and 
working with the al-Sisi government to ensure that basic standards of 
key freedoms are met, includingfreedom of the press. The United States 
and Egypt have been close partners for more than thirty years, 
andforeign assistance has been a key part of ensuring stability in both 
Egypt and the region. Lastly, I will consider detained Americans and 
American hostages a top priority for the State Department and work to 
secure their release.


    Question. Due to low oil prices, the IMF has projected a $500 
billion decline in revenue for the Gulf countries in 2016, on top of 
the $390 billion lost in 2015. This massive shortfall has crippled Gulf 
economies, which are facing record budget deficits and introducing 
subsidy cuts and economic reforms in response. As a return to $100 per 
barrel oil is unlikely in the near-term, U.S. allies in the Gulf will 
have no choice but to walk back the longtime social compact of ``no 
representation, but no taxation either'' with their citizens.

    Question. With your background at Exxon, and now as Secretary of 
State, do you believe it is necessary for U.S. allies in the Gulf 
diversify their economies away from oil?

    Answer. Yes.

    Question. What is the risk to their stability, and to U.S. military 
assets and cooperation with those allies, if they do not?

    Answer. I would need to be fully briefed on this issue in order to 
provide a complete response. I believe in general, however, that 
economic freedom and economic development are crucialfactors in 
political stability and that peace and stability are sorely needed in 
the region.


    Question. In the Syrian conflict, the U.S. finds itself allied with 
Syrian Kurds (YPG) who constitute the bulk of the U.S.-sponsored 
fighting force against ISIL in Syria. However, Turkey deems YPG to be a 
terrorist group, linked to Kurdistan Workers Party (PKK) and has backed 
Sunni Arab groups against YPG in northern Syria. Furthermore, relations 
between U.S.-backed Kurdish factions in Iraq and Syria remain tense at 
best.

  <diamond> How do you propose to bring these parties together, 
        especially at a time when Russia and Turkey are drawing closer 
        to each other?
  <diamond> Do you support YPG's aspirations for a Kurdish homeland 
        ''Rojava'' or YPG's proposed federal plan for Syria?

    Answer. Both Turkey and the Syrian Kurdish forces are key partners 
in the fight against ISIS. We are committed to working with Turkish, 
Kurdish, and Arab stakeholders in Syria to ensure a stable future for 
the country where the humanitarian needs of its citizens, both parties' 
key concerns, and the national security interests of the United States 
are addressed. We will engage both the Syrian Kurds and Turkey 
constantly both bilaterally and in multilateral forums to achieve this 
outcome.


    Question. In Dec. 2016, President-elect Trump voiced support for 
``safe zones'' in Syria to help Syrians impacted by the ongoing 
conflict. He also said that he ``will get the Gulf states to give us 
lots of money, and we'll build and help build safe zones in Syria, so 
people can have a chance.''

  <diamond> Do you believe Gulf nations will support U.S. plans for 
        safe zones if the Trump administration intends to join forces 
        with Russia and the Assad regime?
  <diamond> Where will these ``safe zones'' be located and who will 
        build them?
  <diamond> Assuming that Russia and Assad regime are onboard with this 
        plan, who will defend these ``safe zones''? Do you intend on 
        going to the U.N. and ask for a peacekeeping mission?

    Answer. The United States should work closely with its allies and 
partners in the Middle East to build a future for Syria that is stable 
politically and meets the basic human rights of its citizens. Of 
particular concern is the current humanitarian condition of displaced 
Syrians. The United States should engage with Turkey, Jordan, and other 
partners to establish areas along the Syrian border that are safe zones 
for refugees, where humanitarian aid can be offered. We will engage in 
multilateral forums to ensure that the stakeholders respect the 
imperative of these safe zones and work to alleviate humanitarian 
suffering.


    Question. Due to low oil prices, the IMF has projected a $500 
billion decline in revenue for the Gulf countries in 2016, on top of 
the $390 billion lost in 2015. This massive shortfall has crippled Gulf 
economies, which are facing record budget deficits and introducing 
subsidy cuts and economic reforms in response. As a return to $100 per 
barrel oil is unlikely in the near-term, U.S. allies in the Gulf will 
have no choice but to walk back the longtime social compact of ``no 
representation, but no taxation either'' with their citizens.
    1With your background at Exxon, and now as Secretary of State, do 
you believe it is necessary for U.S. allies in the Gulf diversify their 
economies away from oil?

    Answer. Yes.

    Question. What is the risk to their stability, and to U.S. military 
assets and cooperation with those allies, if they do not?

    Answer. I would need to be fully briefed on this issue in order to 
provide a complete response. I believe in general, however, that 
economic freedom and economic development are crucial factors in 
political stability and that peace and stability are sorely needed in 
the region.


    Question. Your predecessor spent long spells of time negotiating 
the nuclear agreement with Iranian Foreign Minister Javad Zarif and the 
relationship they developed became a useful channel for resolving other 
crises.

  <diamond> Do you believe that we should continue to engage 
        diplomatically with Iran even if we consider the relationship 
        adversarial or would you recommend ceasing communication?
  <diamond> Will you be willing to meet with Foreign Minister Zarif?
  <diamond> Do you believe we should continue to uphold the Joint 
        Comprehensive Plan of Action or look for a way to withdraw?

    Answer. The United States should closely examine, and at the very 
least rigorously enforce, the provisions of the Joint Comprehensive 
Plan of Action (JCPOA). It should engage the MEA, the Joint Commission, 
and other international and multilateral organizations--as well as 
individual states--to ensure Iran does not cheat on its commitments. At 
the same time, the United States should work with its regional partners 
and allies to dismantle Iran's sponsorship of terrorist groups and 
block Iranian aggression throughout the Middle East.
Fragile States
    Question. Many of the conflicts we see around the world today are 
the result of weak and fragile states like Somalia, Iraq, and Syria, 
which are fueled by--and continue to breed--poverty and violence. In 
fact, 10 years ago 80% of our humanitarian assistance went to natural 
disasters, while today 80% goes to alleviating suffering in fragile and 
conflict-ridden states. On top of this, the number of people living in 
these states is expected to rise to nearly 2 billion people by 2030.
    How will you use your platform as Secretary of State to address the 
underlying causes of weak and fragile states to help prevent further 
instability and conflict?

    Answer. The Department of State and USAID already have programs 
that focus on the causes and potential remedies for weak and fragile 
states, including the Interagency Conflict Assessment Framework. This 
program provides guidance for implementing stabilization protocols. 
USAID programs, such as Provincial Reconstruction Teams, serve as a 
measure to support revitalization in fragile states. By continuing 
these programs, we will better understand the underlying causes of 
individual weak and fragile states, and utilize those results to craft 
better diplomatic and development policy.


    Question. We still have about 10,000 troops in Afghanistan and 
provide billions in security and development assistance. The U.S. has 
provided billions in security assistance to Pakistan since 9/11 but the 
country's intelligence services continue to support terrorist groups. 
President-elect Trump rarely spoke about Afghanistan during the 
campaign, though in October 2015, he described the U.S. decision to 
invade the country in 2001 as a ``terrible mistake.'' ``It's a mess, 
it's a mess and at this point we probably have to [leave U.S. troops in 
Afghanistan] because that thing will collapse in about two seconds 
after they leave,'' he said. At the same time, he has questioned 
Washington's commitment to NATO, which leads the mission in 
Afghanistan.

  <diamond> Can you describe the Trump administration's long-term 
        strategy in Afghanistan?
  <diamond> How do you see our interests in Afghanistan?
  <diamond> Do you think that the U.S. should pursue a peace deal in 
        the country?
  <diamond> What are our interests with respect to Pakistan?
  <diamond> How will you change the U.S. approach in order to change 
        Pakistan's behavior?

    Answer. The war in Afghanistan is the longest war in American 
history. Today, the United States should engage the government of 
Afghanistan President Ashraf Ghani and CEO Abdullah Abdullah to 
increase stability, reduce corruption, ensure a better standard of 
living for Afghans, particularly women and girls, and ensure that 
Afghanistan is never again used as a base for international terrorism. 
The United States should also engage with Islamabad to strengthen the 
civilian government and eliminate the safe havens that terrorist groups 
like the Haqqani network enjoy. The United States should work with both 
Afghanistan and Pakistan to encourage cooperation, build trust, and 
seek to ensure regional stability in a context of mutual respect and 
understanding of each country' interests.
Countering Violent Extremism
    Question. With young people increasingly the target of online 
recruitment by terrorist organizations, and youth populations in 
critical regions like Africa growing rapidly--now making up 60% of the 
unemployed on the continent--it is more important than ever to engage 
youth around the world in productive ways. For example, the State 
Department has partnered with Facebook to create opportunities for 
young people to help counter extremism online.
    What will you do as Secretary of State to prioritize youth 
engagement to help counter violent extremism?

    Answer. Over the past year, we have discovered that counter-
radicalization is most effective when it leverages not only the 
resources of the U.S. government, but those of the private sector as 
well. As Secretary, I would direct the Department to work with partner 
organizations-including social media outlets like Facebook and Twitter, 
as well as private entities such as Google's in-house ``think tank, `` 
Jigsaw-to fully explore technologies and methods that can best engage 
youth and help steer them away from radicalization.
Torture
    Question. During the campaign, President-elect Trump made several 
very troubling statements in support of waterboarding and other types 
of torture.
    Have you discussed with the president-elect his comments expressing 
support for targeting families of terrorists in lethal strike 
operations, and if so what have you advised and told him in that 
regard?

    Answer. I have not discussed the issue with the President-elect. 
The President-elect has stated that he understands that the United 
States is bound by laws and treaties, that he will not order military 
or other officials to disobey the law, and that he will seek the advice 
of those officials on such matters.

    Question. Do you agree that waterboarding is torture?

    Answer. Federal law provides that no individual in U.S. custody may 
be subjected to any interrogation technique or approach that is not 
authorized by and listed in the Army Field Manual. If confirmed, I 
would support the Administration in complying with that law and all 
other applicable law.

    Question. Do you think that core international prohibitions on 
torture and war crimes can be ``changed''?

    Answer. The United States is bound by treaties and domestic laws, 
including prohibitions on torture and war crimes, that are consistent 
with and demonstrates our values and principles. I do not support and 
cannot foresee that changing. Our role in the world has entailed a 
place of moral leadership in the scope of international affairs, and I 
am committed to continuing that historical role.

    Question. Do you acknowledge on the record that the U.S. government 
cannot unilaterally change what is prohibited under international law?

    Answer. As I have emphasized, the United States should hold itself 
accountable to our obligations, which includes complying with 
international legal obligations. We must also hold our allies, friends, 
and those who are not our friends accountable to their international 
legal obligations.
    The Executive Branch must always act in accordance with and subject 
to the U.S. Constitution and applicable laws.


                               __________

              Secretary-Designate Tillerson's Answers to 
                     Questions from Senator Markey

Nuclear Issues
    Question. One of the responsibilities of the State Department is to 
negotiate peaceful nuclear cooperation agreements with foreign nations. 
In the past, many of these agreements have provided countries with so-
called ``advance consent'' to produce separated plutonium by 
reprocessing U.S.-obligated spent fuel. Nonproliferation advocates have 
warned, however, that such agreements encourage the wider use of 
reprocessing, a technology that brings countries closer to a nuclear 
weapons capability and creates even more weapons-usable material in the 
world.
    Do you believe that the proliferation of reprocessing technology is 
positive for global efforts to curtail the spread of nuclear weapons?

    Answer. If confirmed, I would seek further briefings on the details 
of the State Department's peaceful nuclear cooperation agreements. As a 
general matter, however, the United States has properly been concerned 
about the spread of certain technologies and capabilities that are 
critical to developing nuclear weapons.

    Question. Will you commit, if confirmed as Secretary, to refrain 
from signing nuclear cooperation agreements that include advance 
consent to reprocess U.S.-obligated spent fuel? If not, why not?

    Answer. If confirmed, I would seek further briefings on the details 
of U.S. peaceful nuclear cooperation agreements. But in general, I 
certainly share the longstanding U.S. concern about the spread of 
dangerous technologies that are critical for the development of nuclear 
weapons. As Secretary of State, concerns about proliferation would be a 
key factor in my approach to future negotiations on peaceful nuclear 
cooperation.

    Question. Another policy that would curtail the risk of nuclear 
proliferation globally would be to exclusively sign nuclear cooperation 
agreements in which foreign nations agree to forswear enrichment and 
reprocessing altogether. Agreements such as these have previously been 
referred to as the ``gold standard'' of nuclear nonproliferation. Will 
you commit, if confirmed, to only pursue ``gold standard'' nuclear 
cooperation agreements? If not, why not?

    Answer. If confirmed, it would certainly be my overall approach to 
press hard for ``gold standard'' nuclear cooperation agreements.

    Question. In 2013, the Pentagon stated that the United States could 
maintain effective deterrence against threats to our homeland and our 
allies with a one-third reduction in our deployed nuclear arsenal. In 
other words, we have far more nuclear weapons than we need for 
deterrence. If confirmed as Secretary of State, will you pursue 
additional agreements with Russia that would lead to sensible 
reductions in both countries' nuclear arsenals? If not, why not?

    Answer. While the next phase of U.S. arms control policy will be 
reviewed by the incoming Trump administration, I, in general, support 
efforts to negotiate a stable nuclear balance with Russia at the lowest 
possible numbers-while bearing in mind the growing arsenals of China 
and other nuclear powers, as well as the nuclear ambitions of dangerous 
states like North Korea and Iran. I believe that the United States must 
maintain a reliable and credible nuclear deterrent


    Question. Both Japan and China are currently pursuing plans for 
commercial scale spent-fuel reprocessing facilities that could produce 
thousands of pounds of nuclear-weapons usable plutonium every year. 
South Korea has also expressed interest in acquiring reprocessing 
technologies in the future. This economically irrational competition to 
stockpile vast quantities of bomb-usable material could trigger a 
nuclear arms race in East Asia.
    Do you agree that the pursuit of commercial-scale reprocessing by 
countries in East Asia is bad for nuclear nonproliferation? If not, why 
not?

    Answer. I share the concern regarding the proliferation dangers 
that could flow from ever-expanding stockpiles of fissile material in 
key regions of the world.

    Question. One means of preventing a nuclear arms race in East Asia 
would be to encourage Japan and China to agree to pause their plans to 
pursue commercial-scale production of plutonium. Will you commit, if 
confirmed as Secretary, to pursue such a pause agreement? If not, why 
not?

    Answer. I would need to be fully briefed on this issue in order to 
provide a complete response. But as a general matter, I share the 
concern about the proliferation dangers associated with the spread of 
large-scale plutonium production and stockpiling.


    Question. India and Pakistan's nuclear competition continues 
unabated, and in some ways is accelerating. At the same time, the 
previous administration sought to include India as a participating 
government in the Nuclear Suppliers Group, despite clear NSG guidelines 
that only NPT member states should join.
    Do you agree with the Obama administration's policy, or do you 
intend to maintain the standard articulated in the NSG guidelines?

    Answer. If confirmed, I would want to be briefed more fully on the 
issues involved, taking into account both our proliferation priorities 
as well as our strategic interest in strengthening our ties with India-
the world's largest democracy and one of Asia's most powerful states.

    Question. What steps do you intend to take to reduce the dangerous 
nuclear competition between India and Pakistan, reduce the risk of 
nuclear war between them, and encourage both countries to take 
meaningful steps toward arms control and disarmament?

    Answer. India and Pakistan's nuclear competition continues 
unabated, and in some ways is accelerating. If confirmed, U.S. concerns 
about South Asia's escalating nuclear competition would be an important 
priority in our diplomacy with both India and Pakistan.

    Question. You said during your confirmation hearing that a ``deal 
is a deal.'' The Joint Comprehensive Plan of Action with Iran is a deal 
that has led to unprecedented constraints on Iran's nuclear program. 
Most importantly, it has increased the amount of time it would take for 
Iran to acquire enough fissile material for a single nuclear weapon 
from several months to a full year. Will you commit, if confirmed, to 
preserve and strengthen this agreement, so that Iran does not acquire 
the capability necessary to develop nuclear weapons?

    Answer. The incoming administration intends to conduct a deliberate 
review of the JCPOA in order to determine its approach. At a minimum, 
it will be critical to ensure that all provisions of the deal are 
strictly enforced to hold Iran accountable and deter any cheating.


    Question. In 1996, the United States signed the Comprehensive 
Nuclear Test Ban Treaty (CTBT). Unfortunately, in 1999, the Senate 
declined to ratify the treaty, and it was returned to the executive 
calendar of the Senate. When the Senate first took up the treaty, many 
Senators were concerned that the Stockpile Stewardship Program was 
inadequate to ensure the safety, security, and effectiveness of our 
arsenal, and that the International Monitoring System would be 
incapable of effectively verifying compliance with the terms of the 
treaty. More than 17 years later, both of these systems have been 
proven repeatedly. For that reason, former Secretary of State George 
Schultz has said that Senators ``might have been right voting against 
[the CTBT] some years ago, but they would be right voting for it now, 
based on these new facts.'' Writing with others, former National 
Security Advisor Brent Scowcroft said, ``Ratifying [the CTBT] will be 
to the international advantage of the United States.'' Former Secretary 
of Defense Melvin Laird noted that ``[t]here are advantages to the 
United States in our international relations in ratifying the test ban 
treaty.''
    Do you disagree with General Scowcroft that ratifying the CTBT 
``will be to the international advantage of the United States?'' If you 
disagree, please provide an explanation as to why.

    Answer. If confirmed, I would seek a fuller briefing in today's 
context from experts on the CTBT and both the advantages and concerns 
associated with it.

    Question. Would you support terminating the United States' 
unilateral moratorium on nuclear test explosions, which has now been 
observed by every presidential administration beginning with President 
George H. W. Bush? If yes, why?
    As a general matter, so long as the reliability and credibility of 
the U.S. nuclear deterrent is guaranteed, I would be supportive of the 
moratorium.

    Question. Will you commit, if confirmed as Secretary, to oppose any 
proposal to renounce the U.S. signature of the CTBT? If not, why not?

    Answer. If confirmed, I would seek a fuller briefing on any 
proposals concerning the CTBT.

    Question. Do you support the continued implementation of the New 
START accord with Russia?

    Answer. Yes, I support implementation of New START and working 
closely with Russia to ensure the treaty's obligations and commitments 
are observed.
Global Health Policy

    Question. The President's Emergency Plan for AIDS Relief (PEPFAR) 
was created in 2003 to advance the fight against global HIV/AIDS, 
tuberculosis, and malaria ravaging sub-Saharan Africa. Nearly 14 years 
later, the program's progress in HIV/AIDS treatment and prevention 
speaks for itself- nearly 2 million babies who would have been infected 
by HIV were born free of the autoimmune disease, and more than I I 
million men, women and children have received access to HIV treatment. 
How do you intend to ensure that this transformative global health 
program continues to drive progress towards the end of HIV and AIDS 
around the world?

    Answer. PEPFAR has proven to be an extremely valuable and 
successful program. In order to ensure that we address the ongoing 
endemic of HIV/AIDS, if is important that we continue to support 
PEPFAR. It serves as a model for other global health programs we may 
decide to initiate. The best of these initiatives project America's 
values, show our compassion, and alleviate suffering.

    Question. While incredible progress has been made on our global 
fight against infectious diseases, particularly HIV and Malaria, which 
have dedicated Presidential initiatives. Tuberculosis (TB) is as a 
growing and persistent threat that now kills 4,900 people each day, 
more than malaria and HIV/AIDS combined. This airborne disease is now 
the leading global infectious disease killer--sickening over 10 million 
a year and killing 1.8 million. TB is curable, but there is growing 
drug resistance. Treating Multi-drug Resistant TB (MDR-TB) involves 250 
injections and 15,000 pills over a 2-year period. If you survive the 
disease and the grueling treatment, the side effects often include 
permanent hearing loss. MDR-TB is a global health security threat--620 
cases occurred in the United States from 2009 to 2014. Because of this, 
the Obama Administration issued a National Action Plan in 2015 to 
address the epidemic, but more resources are needed at USAID to fully 
implement the Plan. What will you do to get us on track to end the 
plague of TB once and for all and encourage more advancement in the 
science, treatment, and diagnosis of TB and its drug resistant forms?

    Answer. The global health programs focused on fighting diseases, 
including USAID's Global Tuberculosis (TB) Program, have proven to be 
extremely valuable and successful. In order to ensure that we 
effectively address continuing crises and outbreaks, it is important to 
understand how success is achieved in various global health programs. 
Once we understand their success, we should follow their example, so 
that we can properly prevent, detect, and respond to future outbreaks.

    Question. In August of 2016, while Angola and the surrounding 
region were battling one of the worst outbreaks of yellow fever in 
recent history, approximately one million vials of yellow fever vaccine 
out of six million that international donors provided to help combat 
the outbreak were reportedly missing, likely due to corruption and 
mismanagement. Longstanding U.S. policy under both Democratic and 
Republican administrations has been committed to advancing health and 
combating disease outbreaks worldwide. If confirmed as Secretary of 
State, what steps would you take to ensure that U.S. medical assistance 
actually reaches the people it is intended to help?

    Answer. The global health programs focused on fighting diseases, 
including PEPFAR, PMI, and USAID's Global Tuberculosis (TB) Program, as 
well as the Global Health Security Agenda, have proven to be extremely 
valuable and successful programs. In order to ensure that we 
effectively address emerging crises and outbreaks, such as yellow 
fever, it is important to understand how their success is achieved so 
that we can properly prevent, detect, and respond to future outbreaks. 
Our contribution to global health programs has been consequential in 
terms of saving lives and ending misery. These programs should 
continue.

    Question. Current law allows U.S. funds to support safe abortion 
services that are not undertaken as a method of family planning, such 
as for women who are the victims of rape or incest, or who face life-
threatening pregnancies.
    Will you pledge to implement the law fully and ensure that women, 
including those raped by ISIS terrorists, and who depend on U.S. 
foreign assistance, will have access to safe abortion services if they 
wish to terminate their pregnancies?

    Answer. I will abide by the long-standing protections of the Helms 
amendment, which, as you noted, governs these types of decisions.

    Question. Will you pledge to ensure that women who depend on U.S. 
foreign assistance who face a life threatening pregnancy and will die 
without a safe termination procedure will have access to it?

    Answer. If confirmed, I will seek to ensure that, consistent with 
the law and the scope of their programs and resources, organizations 
receiving U.S. foreign assistance funding to provide medical care 
deliver emergency care to any woman facing a life-threatening medical 
emergency.

    Question. In February of 2014, the Obama administration launched 
the five-year Global Health Security Agenda, a U.S.-led initiative with 
88 partner countries seeking to prevent, detect, and respond to 
outbreaks, whether they be natural, accidental, or intentional. Within 
a month, the first Ebola case was reported in Liberia. Since then, the 
Agenda has had a great impact on the fight towards a healthier and 
secure world, including a multi-national voluntary assessment for 
member countries currently being coordinated by Finland. If confirmed 
as Secretary of State, how would you seek to advance the Agenda to 2019 
and beyond?

    Answer. In the coming year, we have the opportunity to develop the 
Department of State-USAID Joint Strategic Plan. Utilizing input from 
both agencies, we will be able to assess current threats and looming 
global health challenges, as well as how programs from each agency may 
contribute to resolving threats and challenges.
International law and institutions
    Question. Since the end of the Second World War, the United States 
has led the creation and expansion of a rules-based international order 
that has advanced our nation's security and economic interests.
    Foundations of this system include the United Nations, the World 
Bank, International Monetary Fund and regional international 
development banks, and the World Trade Organization and related bodies. 
Many observers believe that this order is now under increasing strain 
as global conflicts challenge multilateral institutions, at the same 
time as some leaders, including the President-elect, have increasingly 
questioned the validity of longstanding alliances and international 
organizations.
    Do you believe that an international order based on common rules 
serves American interests? If not, why not?

    Answer. Yes, American interests are served by a rules-based 
international order that helps to facilitate security and prosperity 
and to promote liberty and human dignity.

    Question. If confirmed, will you work to strengthen those 
international institutions that have served U.S. interests well for so 
many decades?

    Answer. Yes.


    Question. In June 2012, you wrote to the Senate Foreign Relations 
Committee on behalf of ExxonMobil to urge ratification of the United 
Nations Convention on the Law of the Sea (UNCLOS). That same month, 
General Mattis, President-elect Trump's nominee for Defense Secretary, 
wrote to this committee and said that joining the Treaty would 
strengthen U.S. maritime transit rights in critical waterways, like the 
Straits of Hormuz, particularly with respect to Iran, which is not a 
member of the treaty.
    Do you still believe that international law, including this Treaty, 
advances broad U.S. economic and security interests? Will you 
proactively advocate for the Senate to ratify UNCLOS? Why or why not?

    Answer. The United States should only join treaties that advance 
U.S. national interests. The U.N. Convention on the Law of the Sea 
(UNCLOS) has been debated on several occasions by the Senate Committee 
on Foreign Relations, and I will, if confirmed, examine UNCLOS to 
determine whether it is in the best interests of the United States to 
be a party.
Human Rights
    Question. Globally, there are more victims of human trafficking 
today than at any other point in history. This scourge also affects the 
United States, with as many as 17,500 persons brought into the United 
States every year, and more than 100,000 trafficked within our borders. 
In addition, legalized indentured servitude exists in several countries 
around the world, notably in Qatar and Bahrain (where the United States 
maintains a naval base).
    Both human trafficking and indentured servitude are clearly 
antithetical to American values and human rights, and administrations 
of both parties have committed to combating this scourge, as required 
by the Trafficking Victims Protection Act and related laws. If 
confirmed as Secretary of State, how would you uphold human rights and 
deepen U.S. efforts to address trafficking in persons and protection of 
workers in the global supply chain?

    Answer. Should I be confirmed as Secretary, I will commit to combat 
the scourge of human trafficking consistent with the law and policy 
preferences of the President-elect.

    Question. Exxon Mobil operates in, and has many employees in, 
countries with significant human rights abuses. Through your 
interactions with foreign leaders as CEO of Exxon for over a decade, 
did you ever raise concerns about their human rights abuses? If yes, 
please provide specific examples. If no, why not?

    Answer. Yes. During my tenure as Chairman and CEO of ExxonMobil, I 
did speak with foreign leaders about human rights and democracy 
concerns. As I expressed during my confirmation hearing on January 11, 
human rights violations, if left unaddressed, cause great upheaval in 
civil society. I believe that respect for human rights and the rule of 
law are essential foundations for a stable and functioning society.
    As an example, during my tenure as Chairman and CEO, ExxonMobil 
worked collaboratively with the Qatari government to improve living 
conditions for foreign workers in Qatar.


    Question. The Lesbian, Gay, Bisexual, and Transgender (LGBT) 
community is often subject to some of the worst human rights violations 
around the globe. From Russia passing laws that ban the expression or 
assembly of those who support LGBT rights, to vehemently anti-LGBT 
rhetoric and actions in Indonesia, hate crimes against the 
international LGBT community are still all too prevalent. Seventy three 
countries have criminal laws against LGBT sexual activity and 10 
nations punish homosexual activity by death.
    Do you agree that when the LGBT community or other minority groups 
are targeted for discrimination or abuse the United States should 
respond in a meaningful way?

    Answer. The United States needs to stand firmly for all human 
rights. This includes support for basic political freedoms such as 
freedom of expression and freedom of assembly, as well as 
nondiscrimination against women, minorities, and LGBT persons. Indeed, 
the denial of basic political freedoms is often the backdrop against 
which discrimination against LGBT persons takes place.

    Question. In July, President-elect Trump stated that he would do 
``everything in his power'' to protect LGBT people. Do you commit to 
doing everything in your power to protect the international LGBT 
community?

    Answer. President-elect Trump stated in July that he would do 
everything in his power to protect all Americans against the threat of 
violence. If confirmed, my highest responsibility will be to protect 
the lives of Americans who are entrusted to me, the men and women of 
the Department of State and their families, particularly those who 
serve in dangerous posts overseas.

    Answer. Similarly, I am committed to seeking constructive, 
practical ways to ensure that all people in foreign countries are also 
protected against the threat of violence.

    Question. The international LGBT community is often the target of 
violence, from terrorist groups, gangs, and sometimes their government. 
What action do you plan to take that will reduce the violence against 
the LGBT community abroad?

    Answer. In seeking to formulate strategies to counter violence 
against persons overseas, I will be sure to consult with the bureaus 
and offices in the Department of State that are responsible for issues 
pertaining to criminal enterprises and terrorist organizations, as well 
as those bureaus and offices of the Department of State that are 
responsible for issues pertaining to governance and the rule of law.
    Furthermore, I will be sure to evaluate existing programs and 
activities to make sure they are efficient and effective.

    Question. Can you please specify how the State Department, in its 
daily operations, will continue to protect the human rights of LGBT 
persons abroad?

    Answer. As I consider ways in which the Department of State can 
improve its engagement on issues involving the protection of human 
rights in foreign countries, I will be sure to consider criteria 
related to governance and the rule of law in these countries and what 
their short and long term impacts are on affected persons, consistent 
with the direction of the President-elect


    Question. A State Department employee was brutally killed in a 
stabbing attack this past summer in Bangladesh. This hate crime stemmed 
from the employee's known leading role in the publication of 
Bangladesh's first LGBT magazine.
    Under your leadership, how will the State Department ensure that 
freedom of expression and speech for the LGBT community and other 
minorities are protected?

    Answer. The United States needs to stand firmly for all human 
rights. This includes support for basic political freedoms such as 
freedom of expression and freedom of assembly, as well as 
nondiscrimination against women, minorities, and LGBT persons. Indeed, 
the denial of basic political freedoms is often the backdrop against 
which discrimination against LGBT persons takes place.

    Question. How will you ensure that the rights of minority State 
Department employees abroad are protected?

    Answer. As I mentioned above, if confirmed, my highest 
responsibility will be to protect the lives of Americans who are 
entrusted to me, the men and women of the Department of State and their 
families, particularly those who serve in dangerous posts overseas. I 
will be sure to work with the governments of host nations in high-
conflict or unstable areas to ensure the safety of State Department 
personnel as well as the protection of their rights under the law.


    Question. In June 2013, Russia enacted what has become known as the 
``gay propaganda law,'' targeting the LGBT community by limiting their 
freedom of speech and expression. Since then, the introduction and 
passage of Russian-style anti-propaganda laws across Eastern Europe and 
parts of Central Asia has increased.
    Given the United States commitment to democracy and freedom of 
speech, how will you, as Secretary of State, work with these countries 
to ensure that the most vulnerable populations are protected?

    Answer. The United States needs to stand firmly for all human 
rights. This includes support for basic political freedoms such as 
freedom of expression and freedom of assembly, as well as 
nondiscrimination against women, minorities, and LGBT persons. Indeed, 
the denial of basic political freedoms is often the backdrop against 
which discrimination against LGBT persons takes place.
    If confirmed, I will seek strategies for engagement with foreign 
countries to ensure the protection of vulnerable populations, for 
example, in the development of the rule of law and countering of 
destabilization. Further, I will seek information regarding regional 
trends in policy making, including legislative trends, and what is 
contributing to these trends, including the positions of various 
stakeholders that are involved in the passage of legislation of 
interest to vulnerable populations.

    Question. How will you work toward ultimate repeal of these 
exclusionary laws?

    Answer. As I formulate potential responses on the part of the 
Department of State to legislative trends in foreign countries, I will 
be sure to consider the interests and positions of the relevant 
stakeholders in these countries in order to make a well-informed 
assessment of what would be practical opportunities for engagement with 
the governments of these foreign countries.


    Question. The United States is the only eligible country that has 
not ratified the U.N. Convention on the Rights of the Child. The United 
States helped to draft portions of the convention and signed it in 
1995. Both the Bush and Obama administrations supported ratification of 
the 1989 convention, but to date it has not come to a vote in the 
Senate. The convention includes protections such as a ban on the use of 
child soldiers, the rights of children to stay in contact with their 
families across international borders, special rights as refugees, and 
the rights of parents to have a say in determining what is best for 
their child and protecting their child's rights.
    Do you support this convention, and what are your plans to support 
efforts to defend the rights of children around the world, if you are 
confirmed as Secretary of State?

    Answer. If confirmed, I look forward to working with Congress to 
advance the wellbeing of children around the world.
OPEC
    Question. Last month, the Secretary General of OPEC raised the 
specter of further OPEC deals to manipulate oil markets. He continued 
that such deals would be ``incomplete'' without the United States. He 
reportedly continued that every country stands to benefit from more 
stable oil prices and that ``we do not live in a world of energy-
independent nations.'' Part of the President-elect's energy plan called 
for the United States to ``become, and stay, totally independent of any 
need to import energy from the OPEC cartel or any nations hostile to 
our interests.'' Do you agree that the United States should 
unequivocally reject any efforts by OPEC to collaborate to manipulate 
oil markets and take all measures within our power to reduce OPEC's 
ability to artificially limit production or increase prices? If not, 
why not?

    Answer. Yes. While it is very important for the United States to 
engage with other oil producing nations, I do not believe that we 
should collaborate with OPEC to manipulate oil markets.
The Philippines
    Question. For decades the Philippines has been one of our key 
allies in the Asia-Pacific region. Since taking office in June 2016, 
President Rodrigo Duterte has waged a brutal campaign of extrajudicial 
killings thinly disguised as enforcement of the country's drug laws. 
Duterte has also curtailed our bilateral military cooperation and is 
reorienting Philippine foreign policy toward China and Russia.
    Do believe that extrajudicial killings, which President Duterte has 
admitted to committing personally, qualify as gross violations of human 
rights? How will you balance the strategic importance of our 
longstanding alliance with the Philippines and the United States' long 
commitment to promoting and protecting human rights?

    Answer. Extrajudicial killings in the Philippines are a serious 
concern and require a robust U.S. response.
    Both the U.S. executive and legislative branches have taken action 
in response to concerns about extrajudicial killings. If confirmed, I 
would ensure that the State Department remains focused on improving the 
human rights situation in the Philippines and that U.S. assessments, 
such as the forthcoming Philippines country report on human rights 
practices, are unflinching in their description of human rights 
violations. I would also continue to review each arms transfer 
notification for the Philippine Police and Armed Forces on a case-by-
case basis to ensure that we do not provide arms to units undermining 
these values. Our alliance with the Philippines is rooted in shared 
interests and values, which include concerns for human rights. Efforts 
to promote human rights are therefore vital to our long-term alliance 
because they ensure that the Philippine people know that we are willing 
to stand up not only for our shared interests, but also our shared 
values.
China Taiwan and North Korea
    Question. North Korea will almost certainly be one of the toughest 
national security challenges for the new administration. Kim Jong-un 
has continued to develop nuclear weapons, and two weeks ago, he 
threatened to test a long-range rocket reportedly capable of reaching 
the continental United States.

  <diamond> Senator Nunn recently said, ``the key to solving the North 
        Korea nuclear problem without a war is working with China. So 
        alienating China--you pay a price for that.'' Referring to 
        President-elect Trump's decision to threaten to recognize 
        Taiwanese independence, Senator Nunn said, ``I don't think it 
        was a good move.''
  <diamond> Do you agree with Senator Nunn that the key to solving the 
        North Korea nuclear problem without a war is working with 
        China, not alienating it?

    Answer. If confirmed, I will seek Chinese cooperation in addressing 
the many challenges posed by North Korea. Nevertheless, we must be 
realistic about China's willingness to cooperate on North Korea. The 
Obama Administration pursued improved relations with China, yet over 
eight years it gained little in the way of Chinese cooperation on North 
Korea. The United States should work to convince China that cooperation 
on North Korea is in its own national interest.
Development
    Question. The United Nations has spearheaded development around the 
world with the Millennium Development Goals from 2000-2015, and now the 
Sustainable Development Goals from 2015-2030. There are 17 goals in the 
current push, ranging from elimination of poverty and hunger to gender 
equality to clean water and sanitation, responsible consumption and 
production, sustainable cities, climate action, and life on land and 
below water. Finally, the goals include a commitment to peace and 
justice and partnerships to achieve these (and the rest of) the 17 
goals. Please describe how, if confirmed as Secretary of State, you 
would support each of these goals in detail and how you see the United 
States contributing or taking a lead on each goal.

    Answer. I would need to be fully briefed on this issue in order to 
provide a complete response. Should I be confirmed, I commit to 
reviewing the goals. I look forward to consulting with Congress on this 
issue.
Sanctions
    Question. While you were CEO of ExxonMobil please list and describe 
any actions the company, any of its affiliates, or ExxonMobil PAC took-
directly or indirectly (e.g. through attorneys, lobbyists, any trade 
organization or advocacy group with which ExxonMobil has an association 
or to which ExxonMobil has contributed, or any other service providers) 
to:

  <diamond> influence our government (including any elected or 
        appointed official, or any members of their staff) to remove or 
        modify sanctions imposed by the United States against Russia 
        subsequent to its violation the sovereignty and territorial 
        integrity of Ukraine in 2014;
  <diamond> influence our government (including any elected or 
        appointed official, or any members of their staff) to remove or 
        modify sanctions imposed by the United States against Iran over 
        its illicit nuclear activities;
  <diamond> influence our government (including any elected or 
        appointed official, or any members of their staff) on any 
        matters related to allegations that ExxonMobil concealed from 
        investors and the public what it knew about climate change 
        beginning in the 1970s;
  <diamond> influence our government (including any elected or 
        appointed official, or any members of their staff) to approve 
        permits related to cross-border liquid pipelines, including but 
        not limited to the Keystone XL pipeline;
  <diamond> influence our government (including any elected or 
        appointed official, or any members of their staff) to stop or 
        modify the Bureau of Land Management's Proposed Methane and 
        Waste Prevention Rule to reduce the wasteful release of natural 
        gas into the atmosphere from oil and gas operations on public 
        lands;
  <diamond> influence our government (including any elected or 
        appointed official, or any members of their staff) to stop or 
        modify rules promulgated by the EPA that are designed to curb 
        emissions by the oil and gas industry of methane, smog-forming 
        volatile organic compounds such as benzene, and toxic air 
        pollutants;
  <diamond> influence our government (including any elected or 
        appointed official, or any members of their staff) to stop or 
        modify rules promulgated by the EPA to strengthen the National 
        Ambient Air Quality Standards (NAAQS) for ground-level ozone 
        that are designed to prevent hundreds of thousands of asthma 
        attacks, and hundreds of premature deaths in children and 
        adults;
  <diamond> influence our government (including any elected or 
        appointed official, or any members of their staff) to stop or 
        modify the Clean Water Rule promulgated by the EPA and the U.S. 
        Army Corps of Engineers (which extends pollution protection to 
        streams that about 117 million Americans rely on for their 
        drinking water and affects oil spill prevention and response 
        programs);
  <diamond> influence our government (including any elected or 
        appointed official, or any members of their staff) on any 
        matters related to whether the Security and Exchange Commission 
        should require greater disclosure by public companies on public 
        policy and sustainability matters;
  <diamond> influence our government (including any elected or 
        appointed official, or any members of their staff) to keep the 
        Department of Interior from raising royalty rates for oil and 
        gas production on federal lands or strengthening its policies 
        governing production verification;
  <diamond> influence our government (including any elected or 
        appointed official, or any members of their staff) on any 
        matters related to fuel economy standards, energy efficiency 
        standards, renewable energy, or electric vehicles; and
  <diamond> With respect to each of the items above, please detail the 
        specific actions taken along with the outcomes that ExxonMobil 
        hoped to bring about as a result of such actions. Please also 
        describeany communications you may have had yourself with 
        government officials (or members of their staff) on each of the 
        matters in question?

    Answer. During my tenure as Chairman and CEO, ExxonMobil engaged in 
lobbying activities on a wide range of matters affecting the company, 
including, for example, energy and environmental policy, 
appropriations, and taxes, as reflected in its public filings. Any more 
detailed information about these activities is in ExxonMobil files to 
which I no longer have access as a former employee of the company.

    Question. Should you be confirmed as Secretary of State, do you 
agree to recuse yourself from discussing with the President (or any of 
his staff, including any federal agency employee) or any member of his 
Cabinet (or any of their staff) any matters that relate to:
  <diamond> sanctions imposed by the United States against Russia 
        subsequent to its violation the sovereignty and territorial 
        integrity of Ukraine in 2014;
  <diamond> sanctions imposed by the United States against Iran over 
        its illicit nuclear activitiesc.allegations that ExxonMobil 
        concealed from investors and the public what it knew about 
        climate change beginning in the 1970s;
  <diamond> permits related to cross-border liquid pipelines, including 
        but not limited to the Keystone XL pipeline;
  <diamond> the Bureau of Land Management's Proposed Methane and Waste 
        Prevention Rule to reduce the wasteful release of natural gas 
        into the atmosphere from oil and gas operations on public 
        lands;
  <diamond> rules promulgated by the EPA that are designed to curb 
        emissions by the oil and gas industry of methane, smog-forming 
        volatile organic compounds such as benzene, and toxic air 
        pollutants;
  <diamond> rules promulgated by the EPA to strengthen the National 
        Ambient Air Quality Standards (NAAQS) for ground-level ozone 
        that are designed to prevent hundreds of thousands of asthma 
        attacks, and hundreds of premature deaths in children and 
        adults;
  <diamond> the Clean Water Rule promulgated by the EPA and the U.S. 
        Army Corps of Engineers (which extends pollution protection to 
        streams that about 117 million Americans rely on for their 
        drinking water and affects oil spill prevention and response 
        programs);
  <diamond> whether the Security and Exchange Commission should require 
        greater disclosure by public companies on public policy and 
        sustainability matters royalty rates for oil and gas production 
        on federal lands or strengthening the Department of Interior's 
        policies governing the verification of oil and gas production 
        on public lands; and
  <diamond> fuel economy standards, energy efficiency standards, 
        renewable energy, or electric vehicles

    Answer. I will abide by the recusal commitments I made in the 
Ethics Agreement that I submitted to the Committee on January 3, 2017, 
which was prepared in consultation with ethics officials at the 
Department of State and the Office of Government Ethics. That Ethics 
Agreement has been praised by Walter Shaub, the Director of the Office 
of Government Ethics, as a ``sterling model'' for other nominees.
    In addition, as I testified at my hearing in response to a question 
from Senator Udall, I would expect to seek-and-follow the advice of 
State Department ethics counsel with respect to potential conflicts of 
interest and recuse myself accordingly.


    Question. In 2012, during an appearance at the Council on Foreign 
Relations, you said, ``I'm not disputing that increasing C02 emissions 
in the atmosphere is going to have an impact. It'll have a warming 
impact.''
    While you were CEO of ExxonMobil what actions did the company or 
any of its affiliates, ExxonMobil PAC, any trade organization or other 
advocacy group with which ExxonMobil had an association (or to which 
ExxonMobil contributed) take, directly or indirectly (e.g. through 
attorneys, lobbyists, or any other service providers) to persuade the 
public or elected officials that there was uncertainty among scientists 
as to whether climate change was happening or whether it was caused by 
human activity?

    Answer. During my tenure as Chairman and CEO, ExxonMobil engaged in 
public policy discussions concerning the risk of climate change.

    Question. With respect to the above, please detail the specific 
actions taken by ExxonMobil or its employees, along with the outcomes 
that ExxonMobil hoped to bring about as a result of such actions. 
Please also describe any communications you may have had related to 
such actions.

    Answer. As I am no longer an employee of ExxonMobil, I do not have 
access to records of' communications from my tenure as Chairman and 
CEO.

    Question. While CEO of ExxonMobil, did you ever in any way direct, 
endorse, encourage any public relations campaign undertaken by a third 
party funded in whole or part by ExxonMobi1 that was designed to 
persuade the public that there was uncertainty among scientists as to 
whether climate change was happening or whether it was caused by human 
activity?

    Answer. Not to my knowledge.

    Question. While CEO of ExxonMobil, did you ever fail to take action 
to dissociate ExxonMobil from any public relations campaign undertaken 
by a third party funded in whole or part by ExxonMobil that was 
designed to persuade the public that there was uncertainty among 
scientists as to whether climate change was happening or whether it was 
caused by human activity?

    Answer. Not to my knowledge.

    Question. Do you intend to recuse yourself, for the entirety of 
your tenure as Secretary of State and without requesting a waiver, from 
any issue you may encounter as Secretary of State that could result in 
a disproportionate benefit to ExxonMobil and other oil and gas 
companies? If not, how do you intend to maintain impartiality and avoid 
a conflict of interest or the appearance of a conflict of interest when 
you are faced with decisions as Secretary of State that will have a 
significant impact on ExxonMobil's profits?

    Answer. I will abide by the recusal commitments I made in the 
Ethics Agreement that I submitted to the Committee on January 3, 2017, 
which was prepared in consultation with ethics officials at the 
Department of State and the Office of Government Ethics. That Ethics 
Agreement has been praised by Walter Shaub, the Director of the Office 
of Government Ethics, as a ``sterling model'' for other nominees.
    In addition, as I testified at my confirmation hearing on January 
11 in response to a question from Senator Udall, I would expect to 
seek-and-follow advice of State Department ethics counsel with respect 
to potential conflicts of interest and recuse myself accordingly.
Tax Havens
    The following series of questions pertain to a list of tax haven 
countries identified by the Congressional Research Service. 
Hereinafter, it is referred to as the ``CRS Tax Haven List.''

                           CRS TAX HAVEN LIST
 
------------------------------------------------------------------------
    Anguilla                                        Antigua and Barbuda
    Aruba                                           Bahamas o Barbados
    British Virgin Islands                          Cayman Islands
    Dominica                                        Grenada
    Montserrat                                      Netherlands Antilles
    St. Kitts and Nevis                             St. Lucia
    St. Vincent and Grenadines                      Turks and Caicos
    U.S. Virgin Islands                             Belize
    Costa Rica                                      Panama
    Hong Kong                                       Macau
    Singapore                                       Andorra
    Channel Islands (Guernsey and Jersey)           Cyprus
    Gibraltar                                       Isle of Man
    Ireland                                         Liechtenstein
    Luxembourg                                      Malta
    Monaco                                          San Marino
    Switzerland                                     Maldives
    Mauritius                                       Seychelles
    Bahrain                                         Jordan
    Lebanon                                         Bermuda
    Cook Islands                                    Marshall Islands
    Samoa                                           Nauru Niue
    Tonga                                           Vanuatu
    Liberia
------------------------------------------------------------------------



    Question. Do you hold assets in any of the countries on the CRS Tax 
Haven List? For each country, please provide a breakdown of your 
assets, including for each asset a description of the nature of the 
holding and its value.

    Answer. No. As disclosed on the Form 278e that I submitted to the 
Committee, I have investments in stocks and mutual funds held in U.S. 
brokerage accounts.

    Question. Are you the beneficiary of any trust that holds assets in 
any of the countries on the CRS Tax Haven List? For each country, 
please provide a breakdown of the assets held by the trust of which you 
are the beneficiary, including for each asset a description of the 
nature of the asset and its value.

    Answer. No, to the best of my knowledge.

    Question. Is any member of your immediate family the beneficiary of 
any trust that holds assets in any of the countries on the CRS Tax 
Haven List? For each country, please provide a breakdown of the assets 
held by the trust of which your immediate family member is a 
beneficiary, including for each asset a description of the nature of 
the asset and its value. (Immediate family means a spouse, child, 
parent, brother, sister, grandparent, grandchild, step-parent, step-
child, step-brother, or step-sister.)

    Answer. Not to the best of my knowledge. As disclosed on the Form 
278e that I submitted to the Committee, however, certain family members 
are beneficiaries of trusts that hold investments in stocks and mutual 
funds, some of which may hold assets in the listed countries, but the 
investments are held in U.S. brokerage accounts.

    Question. For each of the countries on the CRS Tax Haven List, 
identify whether you serve or have served as a director or officer of a 
corporation domiciled in that country. Please describe the business 
purpose of the corporation, indicate the beginning and ending dates of 
your service, and the compensation you received in exchange for your 
service.

    Answer. To the best of my knowledge, the director and officer 
positions I held at companies are provided in my original December 16, 
2016 response to the Senate Committee on Foreign Relations 
Questionnaire and my supplemental December 29, 2016 response to Part A, 
Question 9. Information about where these companies were domiciled is 
in ExxonMobil files to which I no longer have access. In any such 
instances, I received no additional compensation for my service beyond 
my ExxonMobil salary.

    Question. For each of the countries on the CRS Tax Haven List, 
identify whether you directed, approved, oversaw, or possessed ultimate 
responsibility for financial transactions in that country during your 
time as an executive at Exxon-Mobil. Please also identify in the case 
of each transaction whether you or any member of your immediate family 
received ownership interests in assets or became a beneficiary of a 
trust established to own assets in any country on the CRS Tax Haven 
List as part of such transactions.

    Answer. Information about any such financial transactions is in 
ExxonMobil files to which I no longer have access.

    Question. For each of the countries in the CRS Tax Haven List, 
identify whether ExxonMobil held assets in that country during your 
time as CEO of ExxonMobil. Please also identify in the case of each 
asset whether you or any member of your immediate family received 
ownership interests in assets or became a beneficiary of a trust 
established to own assets in any country on the CRS Tax Haven List 
during your time as an executive at ExxonMobil.

    Answer. As I am no longer an employee of ExxonMobil, I do not have 
access to the records required to identify whether ExxonMobil held 
assets in any of the countries on the list provided. To the best of my 
knowledge, neither I nor my immediate family members received interests 
in assets or became beneficiaries of trusts established to own assets 
in the listed countries.

    Question. In order to prevent the appearance of impropriety or 
conflict of interest, do you commit to waiving any rights you may have 
under bank secrecy laws that exist in the countries listed on the CRS 
Tax Haven List and publicly disclosing and explaining any ownership or 
beneficial interests that you or your immediate family acquire in 
accounts domiciled in any country listed on the CRS Tax Haven List 
during your term as Secretary of State?

    Answer. As noted, to the best of my knowledge, I hold no assets in 
any of the countries on the provided list.
Charities
    Question. Please list any deductible or nondeductible charitable 
donations you made in the last three years, including, for each 
contribution, the name of the recipient and the amount.

    Answer. As I mentioned during my confirmation hearing on January 
11, I intend to respect the longstanding tradition of privacy of 
individuals' tax returns. From time to time, my wife and I have made 
contributions to domestic charitable organizations. Further 
information--including the amounts and recipients of our charitable 
giving--is personal to my wife and me, and I will maintain its 
confidentiality.
Whistleblowers
    Question. During Mr. Trump's campaign, there were reports that even 
volunteers were required to sign nondisclosure agreements. After his 
election, President-elect Trump's team demanded lists of career 
officials who worked on climate science issues at the Energy Department 
and women's and gender issues at the State Department. Any suggestion 
that the incoming administration is targeting career officials for 
retaliation simply because they worked on policies that the new 
President disagrees with threatens to create a chilling effect on 
employees who are simply trying to do their jobs. It is against the law 
to retaliate against career officials for following lawful policy 
directives. It is also against the law to interfere with career 
employees communicating with Congress. I have included a summary of 
these laws below:


          5 U.S.C. Sec. 7211, provides that: The right of employees, 
        individually or collectively, to petition Congress or a Member 
        of Congress. or to furnish information to either House of 
        Congress, or to a committee or Member thereof, may not be 
        interfered with or denied. Pursuant to 5 U.S.C. Sec.  
        2302(b)(8), it is a violation of federal law to retaliate 
        against whistleblowers. That law states: Any employee who has 
        authority to take, direct others to take, recommend, or approve 
        any personnel action, shall not, with respect to such authority 
        . . . take or fail to take, or threaten to take or fail to 
        take, a personnel action with respect to any employee or 
        applicant for employment because of. . . . (A) any disclosure 
        of information by an employee or applicant which the employee 
        or applicant reasonably believes evidences-- (i) a violation of 
        any law, rule, or regulation, or (ii) gross mismanagement, a 
        gross waste of funds, an abuse of authority, or a substantial 
        and specific danger to public health or safety, any disclosure 
        to the Special Counsel, or to the Inspector General of an 
        agency or another employee designated by the head of the agency 
        to receive such disclosures, of information which the employee 
        or applicant reasonably believes evidences a violation of any 
        law, rule, or regulation `` In addition, pursuant to 18 U.S.C. 
        Sec. 1505, it is against federal law to interfere with a 
        Congressional inquiry: Whoever corruptly, or by threats or 
        force, or by any threatening letter or communication 
        influences, obstructs, or impedes or endeavors to influence, 
        obstruct, or impede the due and proper administration of the 
        law under which any pending proceeding is being had before any 
        department or agency of the United States, or the due and 
        proper exercise of the power of inquiry under which any inquiry 
        or investigation is being had by either House, or any committee 
        of either House or any joint committee of the Congress.


    If you are confirmed, will you commit to protect the rights of all 
career employees of the State Department, including their right to 
speak with Congress?

    Answer. I commit to protecting applicable legal rights of all of 
the State Department's employees if confirmed as Secretary of State.

    Question. Will you commit to communicate employees' whistleblower 
rights via email to all State Department employees within a week of 
being sworn in support the State Department's policies concerning 
protection for whistleblowers and, if confirmed, will work with the 
appropriate offices at the State Department to ensure that all 
employees are aware of their rights.

    Answer. I support the State Department's policies concerning 
protection for whistleblowers and, if confirmed, will work with the 
appropriate offices at the State Department to ensure that all 
employees are aware of their rights.
Nigeria

    Question. Nigeria is currently facing a crisis on multiple fronts: 
Boko Hararn continues to operate within the country, there are millions 
of displaced persons, and many of the people in the northwest face 
devastating famine that humanitarian agencies project could kill 
upwards of 75,000 children in the coming months. As Secretary of State, 
how would you help Nigeria handle these security threats while ensuring 
protection of human rights and providing humanitarian assistance to 
civilians who need it?

    Answer. The United States has a variety of national security 
interests in Nigeria. If confirmed, I would engage the Nigerian 
government about the imperative of defeating Boko Haram, extremist 
splinter groups, particularly those linked to ISIS, and providing 
safety from militants in the Niger Delta. The United States should also 
encourage the Nigerian government to improve its record on human rights 
in the country, including the delivery of humanitarian aid, and 
continue to improve its anti-corruption efforts under President 
Mohammedu Buhari's leadership.
Democratic Republic of the Congo
    Question. The Democratic Republic of the Congo (DRC) experienced 
significant unrest after the government failed to set a date for 
elections and President Kabila remained in office, despite a 
constitutional term limit, after the expiration of his electoral 
mandate. International pressure (including U.S. sanctions) as well as 
internal pressure from opposition parties and citizens led to an 
agreement between Kabila's administration and the opposition to 
establish a transitional administration, hold elections in 2017, and a 
pledge that Kabila will not seek another term, although dozens of 
Congolese protesters were killed by security forces in the weeks before 
the agreement was reached. If the elections proceed as planned, this 
will be the first peaceful transition of power since the DRC's 
independence in 1960. However, significant implementation hurdles 
remain in order to ensure the successful implementation of the 
agreement.

  <diamond> If confirmed, would you support the continued use of 
        sanctions against parties who obstruct the DRC's democratic 
        progress or who violate human rights?
  <diamond> What other steps would you take to press for a peaceful 
        transition of power in the Democratic Republic of the Congo?

    Answer. The United States must lead with its values; many times, 
that includes facilitating peace negotiations and settlements. If 
confirmed, I would engage the government of the Democratic Republic of 
the Congo ORC) and other interested parties to encourage a peaceful 
political solution, with a guarantee of basic human rights and 
accountability for those who transgress such rights. Targeted sanctions 
might be part of achieving that solution, but sanctions are a tactic, 
not a strategy or a solution. Through robust dialogue with relevant 
actors, the United States could help the DRC achieve a stable political 
outcome, which would also translate into increased stability regionally 
and an improvement in human rights.
Armenia
    Question. As a Co-Chair of the OSCE Minsk Group, the United States 
plays a critical role in maintaining stability in the South Caucasus 
region through its mediation of the Nagorno Karabakh conflict. However, 
Azerbaijan continues to violate cease fire agreements.

  <diamond> What steps will you take to hold Azerbaijan accountable for 
        its actions and any violations of the cease fire agreements and 
        what steps would you take to ensure a lasting and durable 
        resolution to this conflict?
  <diamond> The Republic of Armenia and Republic of Azerbaijan recently 
        agreed to increase monitoring and introduce a neutral 
        investigating mechanism to stop further violations. Azerbaijan 
        has since blocked and delayed these measures and continues to 
        target civilians in the region. What steps will you take to 
        ensure the timely implementation of these measures?

    Answer. The frozen conflict in Nagorno Karabakh is a threat to 
stability in the region and U.S. national security interests. If 
confirmed, I will work with the governments of Armenia and Azerbaijan 
to find a peaceful, long-term solution that allows for stability and 
prosperity in the region. The first step in this process must be to 
build trust by ensuring that all agreements between the parties are 
respected.

    Question. As a nation founded upon the principle of democratic 
self-determination, is it your view that U.S. policy should respect 
this right for all peoples, including those of Nagorno Karabakh?

    Answer. The frozen conflict in Nagorno Karabakh is a threat to 
stability in the region and U.S. national security interests. If 
confirmed, I will work with the governments of Armenia and Azerbaijan 
to find a peaceful, long-term solution that allows for stability and 
prosperity in the region. The first step in this process must be to 
build trust by ensuring that all agreements between the parties are 
respected.


    Question. This year will mark the 102nd anniversary of the Armenian 
Genocide. The Genocide has been recognized by President Ronald Reagan 
and 26 countries. Pope Francis has also publicly affirmed the Armenian 
Genocide stating that it is an open wound that must be healed.

  <diamond> What steps will you take to end denial of the Armenian 
        Genocide and reaffirm the proud chapter in U.S. diplomatic 
        history that helped save the survivors of the first genocide of 
        the twentieth century?
  <diamond> The Turkish government continues to keep laws on the books 
        criminalizing the discussion of the Armenian Genocide. What 
        steps will you take to ensure that all people in Turkey have 
        the right to free speech and will be protected when speaking 
        about the Armenian Genocide?
  <diamond> Outside of concerns regarding Turkey's threats of 
        retaliation, do you see any other reason that you might oppose 
        a forthright American affirmation of the Armenian Genocide, a 
        recognition that has been made by previous U.S. 
        administrations?
  <diamond> If the government of Turkey were to finally recognize the 
        Armenian Genocide, would you recommend that the U.S. government 
        also formally acknowledge this crime as genocide?

    Answer. The tragic atrocities of1915 remain a painful issue in the 
relationship between Armenia and Turkey, and it is in the U.S. interest 
to ensure peaceful and stable relations between the two countries. If 
confirmed, I will support a full accounting of the historical events 
and an open dialogue between Armenia and Turkey in the interest of 
regional stability.

    Question. The United States has spoken clearly about the need for 
Turkey to lift its more than 20-year blockade of Armenia and establish 
diplomatic relations with Armenia, both of which are also required 
under international treaties. Despite Turkey's public commitment to 
normalize relations without preconditions as evidenced by the signing 
of the Protocols between Turkey and Armenia under international 
auspices in October of 2009, the Turkish government failed to do so. 
What steps would you take to ensure that Turkey ends its blockade of 
Armenia?

    Answer. It is in the interest of the United States to ensure a 
stable and peaceful relationship between Armenia and Turkey. If 
confirmed, I will support the normalized diplomatic, economic, and 
civil society relations between Armenia and Turkey in my ongoing 
discussions with the two parties. U.S.leadership and re-engagement in 
the region at large will help build the necessary trust to improve 
relations between Armenia and Turkey.

    Question. What specific policy priorities would you consider to 
expand trade and investment between the United States and Armenia?

    Answer. It is in the interest of the United States to promote 
mutually beneficial trade between the United States and Armenia. If 
confirmed, I will work closely with the U.S. Trade Representative and 
other relevant parts of the U.S. government to explore the 
possibilities to expand trade and investment between the United States 
and Armenia in a way that creates U.S. jobs and economic growth.

    Question. What measures will you take to safeguard Christian and 
other minority communities facing persecution in the Middle East and 
elsewhere?

    Answer. The persecution of Christians and other minority 
communities in the Middle East and elsewhere is a serious issue 
requiring immediate U.S. engagement and leadership. If confirmed, I 
will stress the importance of religious tolerance and the protection of 
religious minorities to our global partners. Religious tolerance 
promotes stability and should be an important element of our overall 
strategy for the Middle East as well as other regions.

    Question. Will you make additional assistance available to Armenia 
to help address the compelling humanitarian need of accommodating the 
third largest per capita influx of refugees in Europe fleeing from the 
continued unrest and violence in Syria?

    Answer. I recognize the tremendous challenges facing Armenia due to 
the influx of refugees. If confirmed, I will work with our European 
partners to ensure cost-effective assistance to Armenia as part of a 
broader strategy for handling the Syrian refugee issue and protecting 
U.S. national security interests.

    Question. What steps will you take to ensure the return of the 
Armenian Church in Diyarbakir, which Turkey has seized?

    Answer. Religious freedom and the protection of private property 
are core American principles that contribute to peace and stability 
worldwide. If confirmed, I will work with our Turkish allies to ensure 
protection of religious minorities and their property rights, including 
the Armenian community in Turkey.
Oceans and Fisheries
    Question. The United States imported more than $34 billion in 
seafood in 2015. Since 2010, the U.S. Department of State's annual 
Trafficking in Persons (TIP) report has documented 65 countries with 
seafood-related human trafficking. Unfortunately, Illegal, Unreported, 
and Unregulated (IUU) fishing is often associated with human 
trafficking. Enhancing the transparency and reporting of our seafood 
supply chain is an important step in reducing human rights abuses 
associated with seafood harvesting or reducing the likelihood of human 
traffickers benefiting from the U.S. market. How will you continue and 
expand efforts of the State Department to combat IUU fishing, reduce 
human trafficking associated with seafood harvesting and prevent IUU 
fish from entering U.S. markets?

    Answer. As I have stated previously, should I be confirmed, I 
commit to ensure that the State Department does all that it can to 
assist in the fight against human trafficking, which includes 
activities concerning seafood-related human trafficking.

    Question. Over half of the tuna in the world are caught in the 
Western and Central Pacific Ocean. The United States recently concluded 
updates to the Multilateral Treaty on Fisheries, also known as the 
South Pacific Tuna Treaty, which is vital to America Samoa, the U.S. 
tuna fishery in the Pacific and thus American interests in the Pacific 
region. Will you commit to providing support to get the treaty to the 
Senate, in addition to implementation language to allow for a swift 
enactment?

    Answer. I would need to be fully briefed on this issue in order to 
provide a complete response. I believe if the United States signs and 
Congress ratifies a treaty, we should take our obligations seriously 
and meet them to the fullest extent of our resources. Should I be 
confirmed, I commit to learning more about the updates to the 
Multilateral Treaty on Fisheries, also known as the South Pacific Tuna 
Treaty, and conferring with the President-elect. I will follow his 
guidance.
Climate Change and Clean Energy
    Question. In response to my question at the hearing, you indicated 
that the United States should keep a ``seat at the table'' in the Paris 
Agreement. But you also said that you'd want to review the agreement to 
ensure it is in the U.S. interest, and consistent with the ``America 
first'' priorities of the President-elect. In order to ensure that the 
global effort to combat climate change is inclusive and effective, the 
State Department has insisted that any agreement be ``applicable to 
all.'' And to ensure that the agreement is politically credible both at 
home and abroad, the State Department has maintained that countries 
should have the latitude to define their own commitments and actions, 
but once they have put forward those commitments and actions, they 
should be transparent about their progress and accountable to the 
international community for meeting them. All of these principles are 
included in the Paris Agreement, and over 190 countries have made 
commitments under the Agreement. Do you believe that any of these 
elements of the Paris Agreement are not in the U.S. interest? If so, 
please explain.

    Answer. If confirmed, I expect that the State Department and other 
departments of the government will conduct a review of the Nationally 
Determined Contribution submitted by the Obama Administration as part 
of our review of the Paris Agreement and the U.N. Framework Convention 
on Climate Change to determine whether the NDC and/or the international 
agreements advance U.S. national interests. Both the UNFCCC and Paris 
Agreement were negotiated by different presidential administrations and 
it is the obligation of the incoming administration to make its own 
determination regarding the ongoing viability of those agreements to 
determine whether they advance U.S. national interests.

    Question. The United Nations Framework Convention on Climate 
Change, which was agreed by over 190 countries and unanimously approved 
by the Senate, commits all signatories including the United States, to 
work to stabilize greenhouse gas concentrations ``at a level that would 
prevent dangerous anthropogenic interference with the climate system.'' 
In the Paris Agreement, signatories refined this goal by agreeing to 
work toward ``Holding the increase in the global average temperature to 
well below 2 0 C above pre-industrial levels and pursuing efforts to 
limit the temperature increase to 1.5 0 C above pre-industrial levels, 
recognizing that this would significantly reduce the risks and impacts 
of climate change.'' Do believe that the temperature targets set out in 
the Paris Agreement are the right ones for the international community 
to strive to achieve? If not, what should those targets be?

    Answer. If confirmed, I expect that the State Department and other 
departments of the government will conduct a review of the Paris 
Agreement and the U.N. Framework Convention on Climate Change. Whether 
the temperature goals set forth in those agreements are the correct 
goals, whether the agreements themselves are adequate to meeting those 
goals, and whether the agreements advance U.S. national interests will 
be part of that review.

    Question. Given the global support for the Paris Agreement, do you 
agree that withdrawing from it would cause broad diplomatic 
repercussions, as the Bush Administration experienced after withdrawing 
from the Kyoto Protocol, would make it more difficult to secure 
countries' cooperation on other U.S. foreign policy, national security, 
and trade priorities? What diplomatic costs and risks do you foresee if 
the United States were to withdraw from the Paris Agreement?

    Answer. The United States should join international agreements only 
if membership would advance U.S. national interests. While having good 
diplomatic relations is in the U.S. national interest it is only one 
factor that should be weighed. The decision to remain outside of the 
Kyoto Protocol, for example, did not to my knowledge diminish the 
United States' ability to conduct its foreign policy as it wished, nor 
did it impact U.S. national security or trade in any manner. I expect 
that these and many other factors will be weighed in any decision 
regarding U.S. membership in the Paris Agreement.

    Question. Will the United States continue to provide technical 
assistance to developing nations to ensure they monitor their 
greenhouse gas emissions according to the highest standards possible to 
help ensure that we know whether they are meeting their commitments?

    Answer. The United States will continue to live up to its 
obligations under existing treaties and international agreements until 
such time as a decision is made regarding the future of U.S. membership 
in those agreements.

    Question. The United States, with the State Department playing a 
leading role, have helped to both spur clean energy markets and create 
the conditions for America's companies to tap into the growing demand 
for their products. Would you continue to support State Department 
clean energy efforts that are helping open markets to American clean 
energy companies?

    Answer. The United States, as a leader in global energy, is a 
critical force in advancing energy efficiency and clean energy efforts 
around the world. American businesses are at the forefront of 
innovation in the clean energy and energy efficiency technologies and 
American workers are the best trained in the world. We have great 
competitive advantages in these areas, and, as you have stated, are 
able to support the livelihoods of millions of American workers as a 
result. As the demand for energy increases, further support for clean 
energy developments will be paramount.
    A key piece to guaranteeing a prosperous future for these American 
workers and companies is to make the country the most attractive place 
to do business in the world, and to continue to build upon strong trade 
relationships with global neighbors. The State Department's Bureau of 
Energy Resources manages critical programs that allow us to capitalize 
on U.S. leadership in clean energy innovation and open markets for U.S. 
companies abroad by promoting market-based policies and facilitating 
the introduction of advanced and efficient clean energy technologies 
into markets worldwide. By working with the President to implement our 
national policy goals of supporting and protecting American interests, 
we will be able to both cultivate a positive environment for capital 
investment at home and create market opportunities abroad. In doing so, 
this becomes advantageous, not only to energy efficiency and clean 
energy technology development, but to the American economy as a whole.

    Question. The Quadrennial Diplomacy and Development Review (QDDR) 
was developed based upon consultations with hundreds of State 
Department offices and posts worldwide. As a result, it represents the 
collective blueprint for U.S. foreign policy based upon the advice of 
diplomats around the world. Do you support the current QDDR's focus on 
climate change as one of the four pillars of U.S. diplomacy and 
development?

    Answer. If confirmed, I will review the 2015 QDDR to assess State 
Department priorities for the incoming administration.


    Question. At the last climate summit in Marrakech, China earned 
much goodwill from the Climate Vulnerable Forum of countries by 
supporting their post-Paris agenda, including their intent to 
transition their economies to 100 percent renewable energy.

  <diamond> Do you agree that by positioning itself as a committed 
        partner and leader on climate change, China could expand its 
        global influence, and strengthen its relationship with 
        developing countries that want to see an ambitious global 
        response to climate change?
  <diamond> Do you believe that this positioning would help China 
        achieve its other global interests?
  <diamond> What would be the implications for our diplomacy if 
        developing countries were to begin to see China as a more 
        reliable partner and more committed leader than the United 
        States in the global fight against climate change?
  <diamond> What do you foresee as the impact on the United States and 
        U.S. companies if developing countries looked instead to China 
        and Chinese companies for the financial assistance, new 
        technologies, and cutting edge expertise that they need to 
        respond to the challenges of climate change?

    Answer. The United States should join or remain a member of 
international agreements only if membership would advance U.S. national 
interests. While having good diplomatic relations with nations, 
including those in the Climate Vulnerable Forum, may be in the U.S. 
national interest it is only one factor that should be weighed.

    Question. You commented about electricity as a driver of economic 
growth. But those who still lack access are most often those in 
isolated rural areas where traditional power plants are not 
economically viable. What do you see as the advantages of decentralized 
renewable energy for developing nations and how will you support such 
efforts if confirmed?

    Answer. If confirmed, I will engage in a review of U.S. development 
efforts through USAID and other development mechanisms. The costs and 
benefits for decentralized renewable energy versus electricity produced 
by traditional means is necessarily an analysis that must be conducted 
on a country-by-country basis, if not on an even more local scale.
Keystone XL Pipeline
    Question. The State Department assessed life-cycle emissions for 
various crude oils and found that tar sands crude is one of the 
dirtiest crudes on the planet from a greenhouse gas life-cycle 
perspective. Do you agree tar sands crude has significantly higher 
life-cycle emissions than reference crudes and most other crude oils?

    Answer. Secretary Kerry's decision to deny a permit for the 
construction of the Keystone XL Pipeline will be reviewed if I am 
confirmed. The relative cleanliness of various crude oils and the 
impact on the American economy are two factors among many that will be 
considered.

    Question. The State Department conducted a comprehensive economic 
and environmental analysis of the project and determined that under the 
current market conditions and those projected for the next few years, 
the Keystone XL pipeline is key to getting tar sands crude to market.

  <diamond> Do you agree? If not, why?
  <diamond> The State Department also found the project would result in 
        an additional 1.3-27.4 MMT C02e, equivalent to the emissions 
        from as many as 5.7 million cars. Do you agree? If not, why?
  <diamond> Based on the climate change implications, spill potential, 
        and other factors, the Obama Administration detennined Keystone 
        XL is not in our nation's best interest. Do you agree? If not, 
        why?

    Answer. Secretary Kerry's decision to deny a permit for the 
construction of the Keystone XL pipeline will be reviewed if I am 
confirmed.

    Question. If confirmed, do you commit to fully considering and 
articulating the environmental implications, based on the best-
available science and in accordance with the National Environmental 
Policy Act, when determining how to proceed on the Keystone XL Pipeline 
and any other projects?

    Answer. All relevant factors, including the requirements of the 
National Environmental Policy Act, will be weighed when determining how 
to proceed with the Keystone XL Pipeline project and any other project.
Conflicts of Interest Questions
    Question. The following series of questions reference certain 
documents, which are listed below for your convenience:

  <diamond> Your letter to Ms. Katherine D. McManus (Deputy Legal 
        Adviser and Designated Agency Ethics Official, Office of Legal 
        Adviser, Department of State) relating to ``Ethics 
        Undertakings'' and dated January 3, 2017. This letter is 
        referred to below as the ``Ethics Agreement.''
  <diamond> The ``Cancelation and Exchange Agreement'' between you and 
        Exxon Mobil Corporation that you entered into on January 3, 
        2017 and which relates to the cancelation of certain ties 
        between you and the company. On January 4, 2317, ExxonMobil 
        filed a Form 8-K with the Securities and Exchange Commission 
        which included this agreement as an exhibit. The Form 8-K 
        Current Report which summarizes the agreement is referred to 
        below as the ``Current Report,'' while the agreement itself 
        (which is referred to in the Current Report as Exhibit 99.1) is 
        referred to below as the ``Cancelation and Exchange 
        Agreement.''
  <diamond> The document referred to as the ``Agreement Between Exxon 
        Mobil and Northern Trust'' is the trust agreement between Exxon 
        Mobil Corporation and Northern Trust Company that is included 
        as Exhibit A of the Cancelation and Exchange Agreement noted 
        above.

    Question. Under the Cancelation and Exchange Agreement, Exxon Mobil 
Corporation agrees--in exchange for your surrender of certain 
restricted stock and restricted stock units--to make a cash payment to 
an irrevocable trust of which you are the beneficiary. According to the 
Current Report, your incentive compensation awards, as currently 
structured, ``may not be accelerated for any reason except death.'' 
Therefore, this arrangement which shares certain features in common 
with an acceleration seems to be a departure from ExxonMobil's usual 
practice.

    Answer. As a threshold matter, the trust is structured to replicate 
as closely as possible the terms that would have applied to my unpaid 
restricted stock and restricted stock units while adhering to guidance 
from federal ethics authorities to comply with conflict-of-interest 
requirements. In particular, the trust is structured so that any 
payments to me under the trust arrangement will parallel the schedule 
that would have applied under an ordinary retirement without government 
service.

    Question. During your time at ExxonMobil, did the company have a 
formal policy or customary practice of prohibiting the acceleration of 
incentive compensation awards held by employees upon their separation 
from the company?

    Answer. Yes.

    Question. Does the arrangement detailed under the Cancelation and 
Exchange Agreement represent a departure from ExxonMobil's policy or 
practice during the course of your employment at ExxonMobil?

    Answer. No. As noted, the trust is structured to replicate as 
closely as possible the terms that would have applied to my unpaid 
restricted stock and restricted stock units while adhering to guidance 
from federal ethics authorities to comply with conflict-of-interest 
requirements.

    Question. During your time at ExxonMobil, did the company ever make 
a similar arrangement or accommodation for an employee departing the 
company for a position in the government?

    Answer. The company has a longstanding practice of allowing 
individuals who retire with outstanding awards to retain those awards 
provided that they are age 55 or older and worked more than 15 years at 
the company-conditions I satisfied. But, to my knowledge, the company 
never formed a trust arrangement to comply with conflict-of-interest 
rules, as the circumstances never arose.

    Question. During your time at Exxon-Mobil, did the company ever 
make a similar arrangement or accommodation for an employee departing 
the company for a non-government position?

    Answer. The company has a longstanding practice of allowing 
individuals who retire with outstanding awards to retain those awards 
provided that they are age 55 or older and worked more than 15 years at 
the company-conditions I satisfied. But, to my knowledge, the company 
never formed a trust arrangement to comply with conflict-of-interest 
rules, as the circumstances never arose.


    Question. Your Ethics Agreement states that if you, ``become 
employed or provide services to a company In the oil and gas industry 
or the oil and gas services industry,'' then you will forfeit the 
remaining assets in the trust established for you by ExxonMobil in 
exchange for your surrender of your outstanding restricted stock and 
restricted stock units. However, the Agreement Between Exxon Mobil and 
Northern Trust provides that such surrender will occur in the event 
that you engage in ``competitive employment in the oil and/or gas 
industry.'' This suggests that you may be able return to ExxonMobil as 
an employee or provide services to ExxonMobil as a consultant without 
surrendering your right to certain benefits from the trust.
    Please explain the discrepancy between the Ethics Agreement and the 
Agreement Between Exxon Mobil and Northern Trust.

    Answer. My understanding is that I would forfeit the remaining 
assets in the trust if I become employed or provide services to a 
company in the oil and gas industry or the oil and gas services 
industry, including ExxonMobil.

    Question. Is it your understanding that the Agreement Between Exxon 
Mobil and Northern Trust provides that if you return to ExxonMobil 
either as an employee or consultant then you will surrender your right 
to receive any further payment or distribution from the trust?

    Answer. Yes.

    Question. Did the agreement governing the payout of your incentive 
compensation awards (restricted stock and restricted stock units) that 
was in place between you and ExxonMobil prior to the Cancellation and 
Exchange Agreement restrict you in any way from taking employment or 
providing services to a company in the oil and gas industry? Please 
explain the nature of any such restriction and whether it applied if 
you took employment or provided services to (a) any company in the oil 
and gas industry other than ExxonMobil, or (b) any company in the oil 
and gas industry including ExxonMobil.

    Answer. My awards were subject to ExxonMobil's incentive 
compensation policy. It provided the Compensation Committee of the 
Board with discretion to demand forfeiture of any outstanding awards in 
the event the recipient engaged in detrimental activity, including 
employment with or engagement by a company that competes with 
ExxonMobil.

    Question. Did the agreement governing the payout of your incentive 
compensation awards (restricted stock and restricted stock units) that 
was in place between you and ExxonMobil prior to theCancellation and 
Exchange Agreement include a provision that would result in a reduction 
in the amount of your payout if you took employment or provided 
services to a company in the oil and gas industry? Please explain the 
nature of any such reduction in the amount of your payout and whether 
it would be triggered if you took employment or provided services to 
(a) any company in the oil and gas industry other than ExxonMobil, or 
(b) any company in the oil and gas industry including ExxonMobil.

    Answer. See my response to the preceding question.

    Question. If the Agreement Between Exxon Mobil and Northern Trust 
allows you-without surrendering your right to receive any further 
payment or distribution from the trust-to do work for ExxonMobil but 
not for another company in the oil and gas industry (either as an 
employee or consultant), do you agree that the arrangement fails to 
fully eliminate your conflict of interest or the appearance that you 
may have a conflict of interest vis-a-vis ExxonMobil?

    Answer. My understanding is that I would forfeit the remaining 
assets in the trust if I become employed or provide services to a 
company in the oil and gas industry or the oil and gas services 
industry, including ExxonMobil.
    The arrangement fully eliminates any actual or apparent conflict of 
interest. Indeed, it was praised by Walter Shaub, the Director of the 
Office of Government Ethics, as a ``sterling model'' for other 
nominees.

    Question. In agreeing to establish an irrevocable trust to save you 
from having to forfeit the value of the incentive compensation awards 
you obtained while employed at Exxon-Mobil, the company is doing you a 
favor-a favor that will benefit you and your family for many years. 
However, according to your Ethics Agreement, you have merely agreed not 
to recuse yourself from matters involving Exxon-Mobil for a period of 
one year (after which you reserve the right to participate in such 
matters, provided you obtain prior authorization). This could leave the 
public with the impression that you have a conflict of interest, 
particularly given that you have worked at ExxonMobil for virtually 
your entire career-more than 40 years. Therefore, if confirmed, would 
you be willing to recuse yourself from any matters in which you know 
that ExxonMobil is a party or represents a party for the full duration 
of your term as Secretary of State? If not, why not?

    Answer. I will abide by the recusal commitments I made in the 
Ethics Agreement that I submitted to the Committee on January 3, 2017, 
which was prepared in consultation with ethics officials at the 
Department of State and the Office of Government Ethics. That Ethics 
Agreement has been praised by Walter Shaub, the Director of the Office 
of Government Ethics, as a ``sterling model.''or other nominees.
    In addition, as I testified at my hearing in response to a question 
from Senator Udall, I would expect to seek--and follow--the advice of 
State Department ethics counsel with respect to potential conflicts of 
interest and recuse myself accordingly.

    Question. In your Ethics Agreement, you state: ``I have previously 
paid taxes owed by certain grantor trusts disclosed in my financial 
disclosure report. I am not a trustee of these trusts.

    Answer. Neither my spouse nor I, nor any minor child of mine, is a 
beneficiary of these trusts. Before I assume the duties of the position 
of Secretary, in order to resolve any potential conflicts of interest, 
I will take steps to ensure that I and my spouse are not responsible 
for the taxes owed by these trusts.''

    Question. Who are the beneficiaries of these trusts and why did you 
pay the taxes?

    Answer. My children are the beneficiaries of the trusts. My 
decision to pay the taxes in the past is personal and not relevant to 
this proceeding.

    Question. What are the potential conflicts of interest related to 
paying the taxes owed by these trusts that you are seeking to resolve?

    Answer. Ethics officials from the Department of State and Office of 
Government Ethics stated that the assets of the trust would be imputed 
to me for conflicts purposes if my wife and I continued to pay the 
taxes on trust income. To avoid any potential conflicts of interest 
that might arise from the trust investments, my wife and I have decided 
to terminate our election to pay the taxes on income earned by the 
trusts.

    Question. Who will be responsible for paying the taxes on these 
trusts in the future?

    Answer. The trusts or the beneficiaries.


    Question. In your financial disclosure report, you have listed four 
family trusts in Section 6 (Other Assets and Income). These family 
trusts hold ExxonMobil stock and certain country-specific exchange-
traded funds (for example, iShares MSCI Japan ETF, which is held by 
Family Trust #1). If you are confirmed as Secretary of State, these 
family trust investments in ExxonMobil and in financial instruments 
that provide concentrated exposure to foreign countries could give rise 
to an actual or apparent conflict of interest. Therefore, if you are 
confirmed as Secretary of State:
    Will each of the family trusts divest its holdings of ExxonMobil 
stock, stocks of other domestic and foreign companies, as well as any 
investments providing a concentration to a foreign country?

    Answer. Investment decisions will be made by the trustee. Ethics 
officials from the Department of State and Office of Government Ethics 
stated that divestiture is not necessary, as the assets of the trust 
would not be imputed to me for conflicts purposes if my wife and I 
terminated our election to pay the taxes on trust income.

    Question. Will each of the family trusts commit to holding only 
cash, cash equivalents, obligations of the United States, municipal 
bonds, and investment funds that quality for the exemption at 5 C.F.R. 
Sec.  2640.201 (a) going forward?

    Answer. Investment decisions will be made by the trustee. Ethics 
officials from the Department of State and Office of Government Ethics 
stated that the assets of the trust would not be imputed to me for 
conflicts purposes if my wife and I terminated our election to pay the 
taxes on trust income.

    Question. If the family trusts will not divest their holdings in 
ExxonMobil stock stocks of other domestic and foreign companies, or 
investments providing a concentration to a foreign country; nor commit 
to holding only cash, cash equivalents, obligations of the United 
States, municipal bonds, and investment funds that quality for the 
exemption at 5 C.F.R. <l-arrow> 2640.201 (a) going forward; please 
explain how you intend to resolve the potential or actual conflict of 
interest.

    Answer. Ethics officials from the Department of State and Office of 
Government Ethics stated that the assets of the trust would not be 
imputed to me for conflicts purposes if my wife and I terminated our 
election to pay the taxes on trust income.

    Question. In your Ethics Agreement, you state that the Tillerson 
Foundation ``will not make payments to any outside entities except as 
compensation for services or as unconditional, irrevocable gifts.'' 
This could give rise to a conflict or the appearance of a conflict if 
the recipients of such payments or gifts have interests before the 
State Department. Please [? affirm ?] that the Tillerson Foundation 
will not pay compensation for services or make any gifts to persons, 
organizations, or entities that may have interests before the State 
Department.

    Answer. I will follow the advice of the responsible ethics 
officials at the Department of State and/or Office of Government 
Ethics.


    Question. In your Ethics Agreement, you note that you and your 
spouse own Bar RR Ranches, LLC, which is a ranch that specializes in 
the breeding, training, and showing of horses.
    Has Bar RR Ranches, LLC ever sold horses, provided services, or 
entered into another type of business transaction with any foreign 
government or entity? Please explain the nature of the transaction(s).

    Answer. Not to my knowledge.

    Question. The acceptance of gifts from foreign governments by a 
federal employee, including the ``spouse'' and the ``dependent 
children'' of a federal employee could give rise to a violation of the 
Emoluments Clause or the Foreign Gifts and Decorations Act. There is 
also the potential for an actual or perceived conflict of interest to 
arise in connection with Bar RR Ranches, LLC's activities, should those 
activities involve transactions with foreign governments or entities. 
Will Bar RR Ranches, LLC refrain from doing business with foreign 
governments or entities going forward? If not, how do you intend to 
manage actual or perceived conflicts of interests or legal violations 
that may arise in connection with your or your family members' 
ownership and/or management of Bar RR Ranches, LLC?

    Answer. I will follow the advice of the responsible ethics 
officials at the Department of State and/or Office of Government Ethics 
with respect to how best to ensure that no inappropriate transactions 
occur.


                               __________

              Secretary-Designate Tillerson's Answers to 
                     Questions from Senator Booker

Afghanistan/Pakistan
    Question. U.S.-Pakistani relations remain turbulent but important. 
Pakistan is economically and politically unstable, but it has sustained 
over time. The military not only plays the key role in Pakistani 
security issues, but also politics. There is ongoing tension with India 
over Kashmir and in general. There are terrorist and overall security 
concerns in the FATA and Baluchistan in particular. Pakistan remains an 
important player in the future of Afghanistan, and it is a major 
nuclear weapons power. In addition, China pledged $42 million to 
Pakistan as part of China-Pakistan Economic Corridor.

  <diamond> How do you assess U.S.-Pakistani relations? How important a 
        partner is Pakistan in South Asian regional affairs?
  <diamond> Are you concerned about the relationship between the 
        Pakistani government and military?
  <diamond> Are you concerned about the security of Pakistani nuclear 
        weapons? Is there anything the U.S. can or should do to help 
        the Pakistani government to secure those weapons?
  <diamond> What can we be doing with the Pakistani government to deal 
        with the regional terrorist threat?
  <diamond> How do you see Indian-Pakistani relations? Do you think war 
        is imminent in Kashmir? Is there anything the U.S. can do to 
        ease tensions in Kashmir?
  <diamond> Can we rely on Pakistan to help end the conflict in 
        Afghanistan? Are they playing both sides in this conflict?
  <diamond> Pakistan is increasing its involvement with China. Should 
        their relationship be a concern for the U.S.?

    Answer. Pakistan is an important regional partner for the United 
States. The United States should engage with the Pakistani military to 
encourage cooperation against mutual threats, like transnational 
terrorists in the FATA and the Haqqani network. At the same time, it 
should also engage the Pakistani civilian government to build its 
capability and control over all aspects of Pakistan's national policy.
    The safety of Pakistan's nuclear arsenal is of serious concern to 
me. The United States should convey its concerns over these weapons to 
the Pakistani civilian and military government directly, and continue 
to engage in programs that help safeguard Islamabad's nuclear weapons. 
In addition, it should encourage bilateral and multilateral engagements 
between Pakistan, India, and Afghanistan to improve regional relations 
and defuse tension. This includes facilitating discussions and 
confidence-building measures between India and Pakistan over the 
Kashmir conflict All three of these states have an interest in a stable 
future in which none of their territory provides safe havens for 
terrorist groups.China has a constructive role to play in the region. 
China should also share our concerns regarding the sufficiency of PK+4 
countries' nuclear arsenals. The United States should engage Beijing 
directly to assist in building confidence and stability among the 
different states and encourage responsible developmental programs to 
improve living conditions and the quality of life for Pakistanis and 
others.
Pakistan
    Question. Pakistan's support for militants operating against U.S. 
troops and the government of Afghanistan, including the Afghan Taliban 
and the Haqqani Network, has been documented and acknowledged by 
numerous U.S. officials including former Chairman of the Joint Chiefs 
of Staff Admiral Michael Mullen. This past July, Pakistan's Army Chief 
of Staff General Raheel Sharif's directed Pakistani military 
commanders, intelligence agencies and law enforcement officials to take 
concrete measures to deny militants safe havens and use of Pakistani 
soil to launch terrorist attacks in Afghanistan. While there may be 
some room for optimism, Pakistan has not shown a consistent policy 
toward such militants in the past. How will you work with the 
governments of Afghanistan and Pakistan to eliminate cross-border 
terrorist activities and promote a peaceful and cooperative 
relationship between the two countries?

    Answer. The war in Afghanistan is the longest war in American 
history. Today, the United States should engage the government of 
Afghanistan President Ashraf Ghani and CEO Abdullah Abdullah to 
increase stability, reduce corruption, ensure a better standard of 
living for Afghans, especially women and girls, and ensure that 
Afghanistan is never again used as a base for international terrorism. 
The United States should also engage with Islamabad to strengthen the 
civilian government and eliminate the safe havens that terrorist groups 
like the Haqqani network enjoy. It should encourage the military to 
take steps against those actors involved with providing assistance to 
terrorist groups like the Haqqani network, which remains a serious 
threat to Americans, Afghans, and Pakistanis alike. The United States 
should work with both Afghanistan and Pakistan to encourage 
cooperation, build trust, and seek to ensure regional stability in a 
context of mutual respect and understanding of each country's 
interests.

    Question. As the Taliban have increasingly reasserted control over 
areas of the country, opportunities for women have been drastically 
affected. This past December, gunmen killed five female airport 
employees and their driver in Kandahar, an indication of the threats 
faced by women who choose to work outside their homes. Moreover, a 
recent report by the United States Special Inspector General for 
Afghanistan Reconstruction indicates that women see a lack of security 
as the biggest challenge to their advancement. This was the case even 
for Capt. Niloofar Rahmani, the first female fixed-wing pilot in the 
Afghan Air Force, who recently requested asylum in the United States. 
Given your efforts to advance women participation in a number of 
countries in your role at ExxonMobil, how will you work to transform 
the views of conservative men on the role of women in Afghanistan and 
continue to push for opportunities for women's advancement in all 
aspects of society?

    Answer. Should I be confirmed, I commit to examining the State 
Department's current programs to determine if they are adequate.
Broadcasting Board of Governors (BBG)
    Question. The BBG plays an important role in connecting people 
around the world and bringing transparency and accountability to 
government action. It works in some of the most repressive media 
environments around the world in support of freedom and democracy. How 
will you, if confirmed, continue to support the BBG's work?

    Answer. Public broadcasting plays a critical role in communicating 
America's values and ideals to the rest of the world. Under the 
provisions of the 2016 National Defense Authorization Act, significant 
changes have been mandated to the existing structure and functioning of 
U.S. public diplomacy. I look forward to working with Congress to 
ensure that the implementation of these changes helps the United States 
in its mission of engaging and informing foreign audiences, especially 
those in repressive nations around the world.

    Question. Cyprus is a reliable ally of the United States in a 
region increasingly faced with instability. The country has been a 
critical partner in eliminating chemical weapons from Syria and helping 
confront terrorist threats from ISIS and Iranian proxies. Cyprus has 
also become increasingly active in promoting energy security in the 
region, working closely with our ally Israel. Yet the country remains 
divided with a U.N. peacekeeping force securing the buffer between 
Greek and Turkish Cypriots. Over the past year President Nicos 
Anastasiades and Turkish-Cypriot leader Mustafa Akinci have made 
significant progress in addressing the 43 year dispute dividing Cyprus. 
As the two leaders meet at the United Nations in Geneva for the 
Conference on Cyprus, how do you plan to build on this progress to 
ensure a peaceful and just resolution to the conflict and encourage 
Cyprus's greater integration into Euro-Atlantic institutions?

    Answer. The United States has long supported efforts to end the 
division of Cyprus.
    The renewed commitment of leaders from both sides to achieve a just 
resolution offers one of the best chances in years to reach a 
settlement
    Through sustained diplomatic engagement, the United States--in 
cooperation with the U.N. and other key international partners should 
make every effort to support the parties in seizing this important 
opportunity to improve the lives of Greek and Turkish Cypriots alike, 
and heal the divisions of one of Europe's longest-running conflicts.
Democracy
    Question. Many of the conflicts we see around the world today are 
the result of weak and fragile states like Somalia, Iraq, and Syria, 
which are fueled by- and continue to breed-poverty and violence. In 
fact, 10 years ago 80% of our humanitarian assistance went to natural 
disasters, while today 80% goes to alleviating suffering in fragile and 
conflict-ridden states. On top of this, the number of people living in 
these states is expected to rise to nearly 2 billion people by 2030. 
How will you use your platform as Secretary of State to address the 
underlying causes of weak and fragile states to help prevent further 
instability and conflict?

    Answer. The Department of State and USAID already have programs 
that focus on the causes and potential remedies for weak and fragile 
states, including the Interagency Conflict Assessment Framework This 
program provides guidance for implementing stabilization protocols. 
USAID programs, such as Provincial Reconstruction Teams, serve as a 
measure to support revitalization in fragile states. By continuing 
these programs, we will better understand the underlying causes of 
individual weak and fragile states, and utilize those results to 
continually improve diplomatic and development policy.
Development
    Question. America's leadership in the world relies on ``the three 
D's''--development, diplomacy, and defense. Together, these policy 
tools enable our government to address global concerns and to ensure 
our own national security. The integrity of this diverse approach 
requires a recognition of the value that coordinated, but distinct and 
independent, development and diplomacy agendas provide.
    Do you believe in the importance of development as a key pillar of 
America's foreign policy approach to the world and are you committed to 
maintaining our development-centered engagements with the world?

    Answer. Development programs are key to projecting American 
compassion around the world. The Millennium Challenge Corporation 
serves as an example of this by reducing poverty through economic 
growth, encouraging good governance, and ensuring transparency.

    Question. How will you ensure that the State Department and the 
U.S. Agency for International Development (USAID) are provided with the 
necessary resources, political empowerment, and operating space to 
effectively support global stability and to advance U.S. moral and 
political leadership in the world?

    Answer. Through a complete and comprehensive review of our foreign-
assistance programs, not only will taxpayer dollars be saved, but USAID 
and the State Department will be better positioned to support global 
stability and advance U.S. moral and political leadership in the world. 
Revising the Joint Strategic Plan between USAID and the State 
Department is one way of reaffirming and revisiting the collaboration 
and cooperation between USAID and State. Such efforts, as well as our 
ongoing initiatives in the various areas of foreign assistance, help 
advance our development, economic, and political interests.
Funding to USAID
    Question. Diplomacy and development, in addition to defense, are 
key pillars of U.S. engagement overseas. Historically, the Department 
of State has spearheaded diplomatic efforts, while U.S. Agency for 
International Development (USAID) has led development efforts. The 2015 
Quadrennial Diplomacy and Development Review noted four strategic 
priorities: countering violent extremism, open democratic societies, 
inclusive economic growth and climate change.
    As Secretary of State, how will you ensure that U.S. diplomacy and 
development efforts address major global threats and challenges?

    Answer. In the coming year, we have the opportunity to rewrite the 
Department of State-USAID Joint Strategic Plan. Utilizing input from 
both agencies, we will be able to assess major global threats, as well 
as review how programs from each agency may contribute to resolving 
chronic challenges.

    Question. What do you see as key priorities for U.S. diplomacy and 
development efforts?

    Answer. The U.S. government's top foreign-policy priority is 
defeating ISIS. In so doing, the United States will help alleviate the 
suffering ISIS has caused in the Middle East and beyond. Development is 
one aspect of U.S. policy in the Middle East conflicts. In Syria, USAID 
is supplying funding to the U.N. programs like the World Food Program, 
WASH, and UNICEF. These programs provide basic humanitarian assistance, 
including food, access to water, and education in refugee camps. Also, 
USAID is working with Coalition forces; international institutions like 
the U.N. and World Bank; Iraq's national, provincial, and local 
governments; NGOs; and Iraqi community groups to implement development 
programs.

    Question. How do you see the Department of State working with USAID 
in furthering U.S. development priorities?

    Answer. By assessing the organizational and administrative 
structure between the Department of State and USAID, we will be able to 
prioritize development investments and programs, and eliminate 
redundancies in our efforts. In the coming year, we have the 
opportunity to rewrite the Department of State-USAID Joint Strategic 
Plan. Utilizing input from both agencies, we will be able to assess 
development priorities, as well as review how programs from each agency 
may contribute to resolving chronic challenges.

    Question. To what extent do you see the United States engaging in 
major reconstruction efforts following natural disasters (as in Haiti) 
or wars (as in Afghanistan)?

    Answer. Humanitarian assistance is a key component of U.S. foreign 
policy. For instance, USAID already has programs that address recovery, 
rebuilding, and resilience after major crises. Disaster assistance and 
resilience programs have alleviated suffering in crisis-ridden areas 
and have been prime examples of American compassion in the global 
context.
USAID
    Question. USAID has made extraordinary advancements in monitoring, 
evaluation, and learning when it comes to investments and programing 
over the past decade. This investment has resulted in better 
programming that is achieving sustainable results. Much of this 
advancement has come with an increased capacity within the Agency's 
internal budgeting, monitoring, and policy capacities. How will you 
empower USAID to expand its capacity to carry this critical work 
forward, and what plans do you have to better instill these practices 
within the State Department?

    Answer. In order for the State Department and USAID to carry 
forward their critical foreign-assistance work, it is important to 
measure the efficiency of their foreign-assistance and development 
programs and closely examine the administrative and management 
practices of both entities. By doing so, the State Department and USAID 
will be able to more effectively prioritize development investments and 
eliminate inefficiencies, including the duplication of effort. Making 
sure that our foreign-assistance mission is implemented in an 
accountable, transparent, and cost-saving manner is one of my key 
administrative and management priorities.
Climate Change
    Question. In response to a question from Chairman Corker, you said, 
``the increase in greenhouse gas emissions in Earth's atmosphere is 
having an effect, `` but that ``Our ability to predict that effect is 
very limited.'' In fact, scientists have been remarkably accurate in 
predicting what effects global temperature increases will bring, 
particularly over the last 26 years since the enactment of the Global 
Change Research Act of 1990 and a major, coordinated multi-national 
monitoring and modeling effort. Does ``very limited'' mean that you 
possess peer-reviewed studies or documentation supporting your 
assertion, and which contradict the massive global data collection, 
modeling and analytical efforts projecting grave consequences of 
increasing greenhouse gases for our economy, national security and the 
environment? What would have to change about our ability to predict the 
effect of increasing greenhouse gas emissions in Earth's atmosphere for 
you to consider it to be adequate and not ``very limited?'' Why or how 
is this projection from the most recent National Climate Assessment 
wrong or ``very limited?''

    Answer. Although my background is as an engineer and scientist, I 
am not a climatologist. I concluded years ago that the risk of climate 
change does exist and that the consequences could be serious enough 
that action should be taken. That said, it is clear to me that climate 
modeling is a not an exact science and that past attempts to be 
predictive have been inconsistent. I am not alone in this belief. John 
Christy, a NASA-award-winning scientist who operates the temperature-
sensing NASA satellite instruments, has presented testimony to the 
House of Representatives indicating that the models have predicted 
approximately twice as much warming as has actually occurred since the 
advent of satellite measures.
Human Rights
    Question. ExxonMobil has revenue larger than GDPs of many 
countries. Can you give me a couple of examples of when ExxonMobil used 
it considerable clout to call out human rights violations, promote 
better governance in some of the developing countries in while 
ExxonMobil operated? When did it use its influence to promote better 
governance?

    Answer. During my tenure as Chairman and CEO, ExxonMobil 
strengthened its commitment to human rights. For example, since 2002, 
ExxonMobil has been a member of the Voluntary Principles on Security 
and Human Rights, and joined its steering committee in 2015. Through 
this role, ExxonMobil worked closely with governments, NGOs, and 
industry to promote human rights.
    ExxonMobil has conducted training in human rights for many years. 
In 2015, ExxonMobil implemented a new computer-based training module to 
further improve internal awareness of human rights as well as their 
importance to the company. This training focused on employees working 
in areas with higher human rights risks. As of year-end 2015, more than 
1,200 employees in over 40 countries had participated in the training.
    Specifically, at my request, ExxonMobil strengthened its oversight 
of and guidance provided to security personnel. I insisted that all 
armed and unarmed security personnel be provided with specific guidance 
on appropriate responses to security threats or other common situations 
that might arise.
Humanitarian Issues
    Question. As you are likely aware, we currently have 65.3 million 
displaced people in the word today, and the vast majority of them are 
displaced due to conflict which often is protracted in nature. In 
comparison, in 2006, we had around 32 million displaced people with the 
vast majority displaced due to natural disasters which are often more 
cyclical in nature.
    Given this unprecedented level of displacement, and the fact that 
such displacement levels will continue and likely rise in the coming 
months, what are your views on U.S. involvement, investment, and 
leadership in humanitarian crises? What role should the U.S. be playing 
in the future?

    Answer. U.S. involvement, investment, and leadership in 
humanitarian crises is extremely important and should be continued. In 
order to properly and efficiently handle humanitarian crises in the 
future, the U.S. government must balance its humanitarian role with its 
role in development assistance.

    Question. What role will you take to support U.S. leadership by 
securing the necessary investments to respond to humanitarian crises 
around the world?

    Answer. The State Department and USAID will support U.S. leadership 
by mobilizing investment partnerships with private corporations, NGOs, 
and other enterprises to generate the necessary funds that enable 
solutions to humanitarian crises.
                    lgbtq rights and women's rights
    Question. What steps will you take to ensure that the State 
Department [and USAID] maintain the structures and funding needed to 
address global women's issues, from child marriage to gender-based 
violence to peace and security? Will you commit to ensuring sufficient 
financial resources and support for the Secretary's Office of Global 
Women's Issues (S/GWI), including an ambassador at the helm and USAID's 
Office of Senior Coordinator on Gender Equality to continue their 
important work?

    Answer. As I stated in my hearing testimony, the issue of 
empowering women is personally important to me. I have seen firsthand 
the impact of empowering women, particularly regarding their 
participation in economic activities in the less-developed parts of the 
world. Investing in women and girls produces a multiplier effect--women 
reinvest a large portion of their income in their families and 
communities, which also furthers economic growth and stability. As I 
indicated, I believe women's empowerment and advancement are an 
important part of our foreign aid efforts and I will support such 
programs, including efforts to advance women's participation in peace, 
security, and the political process. I will support efforts to end 
violence against women and girls as well as to mitigate the impact of 
such violence. I look forward, if confirmed, to closely examining all 
aspects of these issues to determine if our funding levels and other 
resources are appropriate.

    Question. Secretaries Clinton and Kerry have elevated the 
protection of lesbian, gay, bisexual, transgender and queer (LGBTQ) 
rights as part of the larger U.S. policy to support human rights 
abroad. In 2015, the U.S. and Chile hosted the first-ever U.N. Security 
Council meeting on gay rights put a spotlight on the persecution of 
LGBTQ people by ISIS. That same year, Secretary of Kerry created the 
Special Envoy for the Human Rights of LGBT Persons to defend and 
promote the human rights of LGBTQ persons around the world. During your 
confirmation hearing, you said, ``American values don't accommodate 
violence or discrimination against anyone. That's just--that's part of 
that American values that we project.'' Will you appoint a new special 
envoy to advance U.S. efforts to protect LGBTQ persons and as secretary 
how will you work to overturn laws that criminalize consensual same-sex 
conduct in countries around the world?

    Answer. As Secretary of State, I would be charged with promoting 
American values on the world stage, and that means standing for 
universal human rights and fighting for the dignity of every person. 
The United States has an obligation to stand strongly for those who 
fight against discrimination worldwide. As I mentioned in my opening 
statement, the United States must continue to display a commitment to 
personal liberty, human dignity, and principled action in foreign 
policy. The State Department under my leadership will work aggressively 
to advance human rights for everyone.

    Question. At your hearing, you said that ``American values don't 
accommodate violence or discrimination against anyone.'' There have 
been troubling instances in which U.S. contractors or their foreign 
subcontractors have either not proactively reached out to include 
specific populations in our programs because of their sexual 
orientation or gender identity, on one hand, or have excluded those 
populations for that reason, on the other. What steps will you take to 
ensure that sexual orientation and gender identity are not used as a 
disqualifier, and that contractors that do not comply with 
nondiscrimination in service delivery policies have their contracts 
rescinded?

    Answer. If confirmed, I will assure that U.S. contracting laws and 
procurement procedures are upheld, as well as contract terms 
themselves. All subcontractors, American or foreign, will have to 
adhere to any human rights and non-discrimination clauses routinely 
included in federal government contracts under the Federal Acquisition 
Regulation (FAR).
CVE
    Question. On December 21, the Trump transition team asked State 
Department to list its workers who focus on gender equality and ending 
violence against women. On Dec. 23 Reuters reported that the President-
elect's transition team requested that the Departments of State and 
Homeland Security send the names of government officials working on 
programs to counter violent extremism or CVE, which include programs 
that seek to prevent violence by extremists of any stripe, including 
recruitment by militant Islamist groups within the United States and 
abroad. These measures seem aimed at identifying, isolating, and 
removing individuals working to advance these policies. Can you explain 
the nature and goal of these specific inquiries?

    Answer. I did not direct the work of the transition team. That 
said, it is important to have an accurate understanding of current 
programs, activities, and staff positions as they existed under the 
current President. It may be necessary to reorganize or restructure the 
State Department to better carry out the Trump Administration's foreign 
policy goals, but no career employees would be penalized for having 
worked on matters that were political priorities of the previous 
Administration. Career employees pledge their loyalty to the U.S. 
Government, regardless of which political party is in power.
    Should I be confirmed, I commit to treating each and every member 
of the State Department fairly without prejudice or threat of 
recrimination.

    Question. With young people increasingly the target of online 
recruitment by terrorist organizations, and youth populations in 
critical regions like Africa growing rapidly--now making up 60% of the 
unemployed on the continent--it is more important than ever to engage 
youth around the world in productive ways. For example, the State 
Department has partnered with Facebook to create opportunities for 
young people to help counter extremism online. What will you do as 
Secretary of State to prioritize youth Ament to help counter violent 
extremism?

    Answer. Over the past year, we have discovered that counter-
radicalization is most effective when it leverages not only the 
resources of the U.S. government, but those of the private sector as 
well. As Secretary, I would direct the State Department to work with 
partner organizations--including social media outlets like Facebook and 
Twitter, as well as private entities such as Google's in-house ``think 
tank,``--to fully explore technologies and methods that can best engage 
youth and help steer them away from radicalization.
Transparency and Accountability
    Question. During the hearing on your confirmation you said to me, 
``We want to ensure at all times, to confirm the secretary of state and 
the State Department is fully transparent with the public.'' However, 
you did not commit to regular interactions with the press and bringing 
a press corps on your travels abroad as has long been customary, which 
appears at odds with your statement on transparency. Can you elaborate 
on your thinking on these issues and reassure journalists that your 
department, if confirmed, would be as open with the press and public as 
your statement suggests you aspire to be?

    Answer. As I indicated both in my opening statement and during 
testimony, in response to Senator Booker's question, opening a public 
trust through accountability and transparency includes communicating 
with the public, while engaging with its representation in Congress and 
the press. If confirmed, I will be sure to interact with the press 
appropriately, based upon long-standing precedents of the State 
Department and my predecessors in dealing both with American reporters 
and the foreign press.
Western Hemisphere
    Question. According to the Massachusetts Institute of Technology, a 
university with which ExxonMobil has worked on energy and climate 
research, estimated that President-elect Trump's wall would cost $31 
million a mile. A 1,000 mile wall would cost taxpayers over $31 
billion. The Congressional Research Service concluded that the primary 
fence in San Diego did not have a ``discernible impact'' on illegal 
immigration in that sector. The Cato Institute found that introducing 
secondary fencing and more agents in San Diego only shifted the flow of 
immigrants to other sectors rather than reduce immigration. Do you 
believe that the wall that Trump has proposed is an effective use of 
taxpayer money and will result in lowered border crossings?

    Answer. The President-elect has called for the construction of a 
wall on the southern border. I will work with the President-elect, the 
Secretary of Homeland Security, and other federal partners to ensure 
that we secure our southern border.
Wildlife Trafficking
    Question. The United States has been a global conservation leader 
in combating transnational wildlife crime and saving imperiled species. 
Wildlife trafficking is a lucrative enterprise worth tens of billions 
of dollars and has undermined the rule of law of our allies and trading 
partners at the range, transit and source countries. The involvement of 
criminal syndicates, African armed militias, and terrorist 
organizations is particularly alarming. The enactment of Eliminate, 
Neutralize, and Disrupt (END) Wildlife Trafficking Act last October 
illustrates the high-profile attention and broad bipartisan support the 
United States Congress has given to this issue. Mr. Tillerson, will you 
work with this Congress and concerned countries across the globe to 
further the international community's effort to tackle the pernicious 
poaching and trafficking crisis?

    Answer. The global spread of wildlife trafficking has implications 
for conservation, crime, and national security. Public Law No. 114-231, 
Eliminate, Neutralize, and Disrupt Wildlife Trafficking Act of 2016, 
which was passed unanimously by Congress and signed into law by the 
President this past October, provides new tools to help the United 
States and partner countries to address this crisis. I will work with 
Congress on the implementation of this law and related laws. I will 
also work with partner countries to further efforts to combat poaching 
and wildlife trafficking.


                               __________

      

Annex I.--Correspondence Between the Securities and Exchange Commission 
                      and ExxonMobil, January 2006

                  SUBMITTED FOR THE RECORD BY SENATOR 
                      MERKLEY AND CHAIRMAN CORKER








 1. Securities and Exchange Commission's Letter to ExxonMobil 
        Regarding Disclosures Relating to Countries Identified 
        as State Sponsors of Terrorism, January 6, 2006

 2. ExxonMobil's Response to the Securities and Exchange 
        Commission








      

1. Securities and Exchange Commission's Letter to ExxonMobil Regarding 
  Disclosures Relating to Contact With Countries Identified as State 
                Sponsors of Terrorism, January 6, 2006 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      

              2. ExxonMobil's Response to the Securities 
                        and Exchange Commission
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                       Annex II.--Material Submitted by 
                             Senator Rubio



 1. Syrian and Russian Forces Targeting Hospitals As a Strategy 
        of War, Amnesty International


 2. U.S. Blames Russia After U.N. Aid Convoy in Syria Targeted 
        by Air Attack, The Guardian


 3. Attack, Deceive, Destroy: Putin at War in Syria, The 
        Atlantic Council


 4. Letters and Other Material Submitted by Advocacy Groups 
        Regarding the Crisis in Syria


 5. Partial List of Political Dissidents, Journalists, and 
        Critics of Vladimir Putin Who Were Suspiciously 
        Murdered or Died Under Highly Suspicious Circumstances


 6. International Leaders on Russian War Crimes in Syria




 7. Letter to President-Elect Donald J. Trump from Several 
        European Leaders


 8. Letter to Chairman Corker and Ranking Member Cardin from 
        Vladimir V. Kara-Mursa


 9. Country Report on Human Rights Practices in Saudi Arabia.--
        U.S. Department of State, 2015

 

                1. Syrian and Russian Forces Targeting 
                     Hospitals as a Strategy of War

                         Amnesty International




[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

              
              
              2. U.S. Blames Russia After U.N. Aid Convoy 
                    in Syria Targeted by Air Attack

                              The Guardian


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


      

                      3. Attack, Deceive, Destroy 
                         Putin at War in Syria

                          The Atlantic Council




[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


      

              4. Letters and Other Material Submitted by 
             Advocacy Groups Regarding the Crisis in Syria



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



                DOCUMENTED INCIDENTS IN WHICH THERE IS 
             ``HIGH LIKELIHOOD'' OF RUSSIAN RESPONSIBILITY
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      

 5. Partial List of Political Dissidents, Journalists, and Critics of 
  Vladimir Putin Who Were Suspiciously Murdered or Died Under Highly 
                        Suspicious Circumstances
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


      

        6. International Leaders on Russian War Crimes in Syria
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


      

             7. Letter to President-Elect Donald J. Trump 
                     from Several European Leaders



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


      

            8. Letter to Chairman Corker and Ranking Member 
                   Cardin from Vladimir V. Kara-Mursa
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


      

  9. Country Report on Human Rights Practices in Saudi Arabia.--U.S. 
                       Department of State, 2015
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                   Annex III.--Material Submitted by 
                             Senator Young




 1. U.S. and European Union Sanctions on Russia for Activities 
        Related to Ukraine; A Comparison, Congressional 
        Research Service



     

 1. U.S. and European Union Sanctions on Russia for Activities Related 
        to Ukraine; A Comparison, Congressional Research Service
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



                   Annex IV.--Material Submitted by 
                             Senator Cardin





 1. Communication From Publish What You Pay, A British Charity, 
        Advocating for Transparency in the financial Activities 
        of the Fossil Fuel Industry


      

    1. Communication From Publish What You Pay, A British Charity, 
 Advocating for Transparency in the Financial Activities of the Fossil 
                             Fuel Industry
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                    Annex V.--Material Submitted by 
                            Senator Shaheen



 1. More of the Kremlin's Opponents Are Ending Up Dead, New 
        York Times, September 20, 2016

      

  1. More of the Kremlin's Opponents Are Ending Up Dead, The New York 
                       Times, September 20, 2016
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



      
                   Annex VI.--Material Submitted by 
                             Senator Kaine




 1. Global Climate Change, The Op-Ed Series [Published by 
        ExxonMobil, 2000]
 2. In-House Communication from Roger W. Cohen to A.M. Natkin, 
        Office of Science and Technology, Exxon Corporation 
        [1982]
 3. Report Submitted to the Members of the Senate Committee on 
        Foreign Relations by Senator Richard G. Lugar, Ranking 
        Member



              1. Global Climate Change, The Op-Ed Series 
                    [Published by ExxonMobil, 2000]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      

2. In-House Communication from Roger W. Cohen to A.M. Natkin, Office of 
           Science and Technology, Exxon Corporation [1982] 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      

 3. Report Submitted to the Members of the Senate Committee on Foreign 
         Relations by Senator Richard G. Lugar, Ranking Member
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]




    The complete hearing can be accessed through the Superintendent of 
Documents, U.S. Government Publishing Office, by following the link 
below:
    https://www.govinfo.gov/content/pkg/CPRT-110SPRT44727/pdf/CPRT-
110SPRT44727.pdf

      

                   Annex VII.--Material Submitted by 
                            Senator Merkley



 1. Under Rex Tillerson, ExxonMobil Forged Its Own Path Abroad, 
        New York Times, December 13, 2016


 2. Ukraine Crisis Drives a Quiet Lobbying Boom in U.S., 
        Bloomberg News, May 23, 2014


 3. Tillerson Visited White House Often Over Russia Sanctions, 
        Bloomberg News, December 12 and 13, 2016


 4. Rex Tillerson's Company, Exxon, Has Billions at Stake Over 
        Sanctions on Russia, New York Times, December 12, 2016


 5. Rex Tillerson is No Fan of Russia Sanctions Bill, CBS News, 
        December 18, 2016


 6. ExxonMobil Helped Defeat Russia Sanctions Bill, Politico, 
        December 18, 2016


 7. ExxonMobil and Iran Did Business Under Secretary of State 
        Nominee Tillerson, USA Today, January 6, 2006





      

1. Under Rex Tillerson, ExxonMobil Forged Its Own Path Abroad, New York 
                        Times, December 13, 2016



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      

2. Ukraine Crisis Drives a Quiet Lobbying Boom in U.S., Bloomberg News, 
                              May 23, 2014


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      

3. Tillerson Visited White House Often Over Russia Sanctions, Bloomberg 
                     News, December 12 and 13, 2016

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      

4. Rex Tillerson's Company, Exxon, Has Billions at Stake Over Sanctions 
              on Russia, New York Times, December 12, 2016
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      

5. Rex Tillerson is No Fan of Russia Sanctions Bill, CBS News, December 
                                15, 2016

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      

 6. ExxonMobil Helped Defeat Russia Sanctions Bill, Politico, December 
                                18, 2016
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      

 7. ExxonMobil and Iran Did Business Under Secretary of State Nominee 
                 Tillerson, USA Today, January 6, 2006
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      

   Annex VIII.--Material Submitted by Senators Cardin, Menendez, and 
                                Merkley




 1. Lobbying Disclosure Forms Filed by ExxonMobil, Selected 
        Quarters, 2010-2016





 1. Lobbying Disclosure Forms Filed by ExxonMobil, Selected Quarters, 
                               2010-2016

<[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      

   2. Document Submitted by The Tri-State Coalition for Responsible 
 Investment Expressing Concern Over the Nomination of Rex W. Tillerson 
                     to be U.S. Secretary of State
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
